03ArmyCover12-1.qxd   12/2/2003   3:38 PM   Page 1




                                                     Fiscal Year
                                                                   2003
                                                                    The United States Army
                                                                    Annual Financial Statement




              Our Army at War – Relevant and Ready
03ArmyCover12-1.qxd   12/2/2003   3:38 PM   Page 2




            Our Army at War – Revelant and Ready




                                                     * Unless otherwise indicated, all photographs in the FY 2003 Army Annual Financial Statement are
                                                       courtesy of the U.S. Army.

                                                     Photos provided by the Association of the U.S. Army and Copyrighted 2003 were reproduced by
                                                     permission and noted.
03YearinReview12-12.qxd        12/15/2003          5:38 PM        Page 1




              Table of Contents

              Secretary of the Army Message . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  i
                                                                                                                                                               2003
                                                                                                                                                                The United States Army
              Assistant Secretary of the Army Message . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                        iii
                                                                                                                                                                Annual Financial Statement
              (Financial Management and Comptroller)



              Assistant Secretary of the Army Message . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                         v
              (Civil Works)


              Army Year in Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          vii


              General Fund . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    1


              Army Working Capital Fund . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33


              Civil Works Fund . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 61


              Principal Statements and Related Notes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 87
03YearinReview12-12.qxd   12/15/2003   5:38 PM   Page 2




              2003
              Our Army at War – Relevant and Ready
03YearinReview12-12.qxd   12/15/2003   5:38 PM    Page i




                                         For 228 years, the Army has served America in peace and war. Today, our Nation is once again at war. We are engaged in a global campaign against
                                         terrorism. Notwithstanding our war on terrorism, we are simultaneously working to transform the Army into a more agile fighting force with a Joint
                                         and Expeditionary mindset ready to support the U.S. Joint Team.

                                         The Army is about people - Soldiers, families, and civilians. With more than 1.2 million individuals, including those of the active and reserve
                                         components, civilians, and contractors, the Army serves America throughout the world. We have over 360,000 Soldiers currently deployed in 120
                                         countries, including more than 157,000 Soldiers conducting combat operations. Nearly 230,000 of the Soldiers deployed overseas are active duty
                                         troops, supported by 60,000 from the Army Reserve and 75,000 from the National Guard. We are truly one Army.

                                         Our battlefield successes in Iraq and Afghanistan validate America's investment in the training, leading, sustaining, and caring of our force. After a
                                         lightning ground attack into Baghdad and an overwhelming military victory by coalition forces, our Soldiers now are assisting the Iraqis to build a
                                         free and democratic society. In turn, this will help make the world a safer place. In Afghanistan, the Army continues to root out remnants of al Qaeda
                                         and the Taliban. As in Iraq, the objective here is to win the peace and to create a safe environment in which the Afghan people will be able to rebuild
                                         their country.

                                         Even while engaged in combat, we must continue to transform the Army. The global environment is changing, and we must change with it, integrating
                                         people, systems, and knowledge into a force equipped to deal with new and unseen challenges. This past summer we certified the Army's first Stryker
                                         Brigade at the U.S. Army Joint Readiness Training Center at Fort Polk, Louisiana - a milestone on the road to the Future Force. To capitalize on this
                                         new fighting capability, this brigade is currently being deployed to Iraq for a yearlong tour of duty.

                                         To guide our immediate path, we have identified sixteen focus areas. The broad areas target training and equipping Soldiers and growing leaders,
                                         providing relevant and ready land power capability to the Combatant Commander and the Joint Team, and enabling our Current and Future Force.
                                         These sixteen focus areas will provide a framework for balancing the Army's core competencies and capabilities. Within the Year in Review section,
                                         you will read about other transformation successes involving Future Combat Systems, the Installation Management Agency, the Logistics
                                         Modernization Program and the Army Corps of Engineers 2012. All of these actions are important steps to meeting our current needs and developing
                                         the Future Force.

                                         Lastly, applying our resources in a prudent manner is critical both to winning the war on terrorism and transforming the Army. We are working hard
                                         with Department of Defense to modernize our business processes and systems in consonance with the Business Management Modernization Program
                                         and the Business Initiatives Council. Our goal is to provide relevant and reliable information to Army decision makers with which they can make
                                         sound decisions on the effective application of resources. Earning an unqualified audit opinion on our financial statements will attest to the quality of
                                         the financial information we provide managers. Thus, an unqualified audit opinion remains a priority across the Army.

                                         I welcome your interest in the Army and its programs. In these challenging and unpredictable times, Americans can be assured that the Army is ready
                                         to protect and defend the Constitution and our national freedoms. Our leadership is committed to the honest and efficient stewardship of the resources
                                         that public funds provide. We stand ready to meet all future challenges as we work to deliver a relevant and ready Army to the Nation.




                                         R.L. Brownlee
                                         Acting Secretary of the Army
                                                                                                                                                                    Secretary of the Army i
03YearinReview12-12.qxd   12/15/2003   5:38 PM   Page ii




              2003
              Our Army at War – Relevant and Ready
03YearinReview12-12.qxd   12/15/2003   5:38 PM    Page iii




                                         Once again, at the close of a fiscal year, the world has changed dramatically. In large measure that difference is due to the U.S. military and
                                         particularly our Army.

                                         The war on terrorism remains a global fight and now features two major fronts: Iraq and Afghanistan. It is a deadly serious business with extreme
                                         consequences for those nations, our own country and every person participating in the campaign to combat terror, whether stateside or on the front
                                         lines. Though we have rid Iraq of its Baathist dictatorship, there is much yet to be done in order to bring stability and to set the right conditions for the
                                         Iraqi people to make their country prosperous once more.

                                         The financial management community is waist-deep in this war and success will depend upon how well we do our jobs. It is our duty to obtain and to
                                         manage the funds that enable our soldiers to fight. We must be careful stewards of this money, allocated to us by the Congress but provided by the
                                         American people. It is the hard-earned dollars of the American taxpayers that finance the Department of the Army; in return, we have an obligation to
                                         provide full accountability of the resources entrusted to us.

                                         To this end, we must root out abuse and simple mismanagement; not a dollar should be wasted, whether the cause be intentional or unintentional. The
                                         Army must be able to earn an unqualified opinion. We are making progress towards this goal but more lies ahead in fiscal year 2004. More broadly,
                                         relevant and reliable information is vital to the leaders who make Army funding decisions, whether they be among our civilians and uniformed
                                         personnel, in the Office of the Secretary of Defense, in the Office of Management and Budget, or on Capital Hill. It is the financial management
                                         community’s responsibility to supply the most accurate data possible in a timely manner.

                                         The war on terrorism is not the only thing on the Army’s plate. We are still fully engaged in Transformation and we will not be diverted from this
                                         process, which is so critical to our service’s future. Accomplishing both of these missions means sound and innovative financial management is more
                                         important than ever. The Army Business Initiative Council (BIC) is one tool that produced success in 2003. We estimate that BIC programs
                                         implemented so far will allow the Army to avoid more than $1 billion in cost over the program years. I congratulate all who have contributed to the
                                         BIC and ask that we redouble our efforts in 2004 to reap more resources for our Soldiers from within the top line.

                                         During FY 2003, the Army made progress in modernizing many of our financial management processes and systems. This report includes information
                                         on these advances, as well as on all three funds managed by the Army: the General Fund, the Working Capital Fund, and the Civil Works Fund. The
                                         compact disc that accompanies this report provides additional information and links to key Army web sites. I believe you will find the report useful in
                                         furthering an understanding of our country’s Army, its mission, and its people.




                                         Sandra L. Pack
                                         Assistant Secretary of the Army
                                         Financial Management and Comptroller




                                                                                                            Assistant Secretary of the Army . Financial Management and Comptroller iii
03YearinReview12-12.qxd   12/15/2003   5:38 PM   Page iv




              2003
              Our Army at War – Relevant and Ready
03YearinReview12-12.qxd   12/15/2003   5:38 PM    Page v




                                         For 228 years, the U.S. Army Corps of Engineers has been committed to serving the nation in peace and war by providing comprehensive
                                         engineering, management, and technical services. Our mandates over time have continually evolved to reflect America’s priorities. At Bunker Hill and
                                         during the Revolutionary War, the Corps supported our military forces in time of war. Today, the nation’s war on terrorism is our main priority and we
                                         are mobilizing our resources to help win this war. In this regard, Civil Works Program has established a Homeland Security Office in Corps
                                         Headquarters, as we undertake measures to enhance the security of our critical facilities.

                                         In the mid-1820s, the Corps of Engineers conducted a survey of nationally important roads and canals for commercial use, military use, and mail
                                         transportation. Today’s Civil Works mission does not have a national road component, but it does include water resource development activities in the
                                         primary program areas of flood control, navigation, and environmental protection. Additionally, we have a critical role in emergency response. For
                                         example, the Corps was heavily engaged in protection and relief work when Hurricane Isabel struck the east coast in late summer 2003. The Corps
                                         remains vigilant, and we take great pride in lending assistance to the efforts of local communities during times of disaster.

                                         The Corps of Engineers possesses an impressive body of knowledge on water resources, and we must exploit that knowledge and associated skills to
                                         ensure that the Federal government’s responsibilities to the nation, both at home and abroad. Our nation’s water resources are finite, and in managing
                                         those resources we are increasingly challenged to reach decisions that appropriately balance the social and economic benefits of development with the
                                         need to protect the environmental. As science and engineering continue to advance, we will seek to leverage new developments to achieve an optimal
                                         balance of these factors for the benefit of the nation.

                                         Looking to the future, we must seek to do everything within our authorities to ensure that our country’s economy remains strong and its natural
                                         resources protected. We are dedicated to continuing a national water resources program that serves the best interest of all our citizens.




                                         John Paul Woodley, Jr.
                                         Assistant Secretary of the Army
                                         Civil Works




                                                                                                                                        Assistant Secretary of the Army . Civil Works v
03YearinReview12-12.qxd   12/15/2003   5:38 PM   Page vi




              2003
              Our Army at War – Relevant and Ready
03YearinReview12-12.qxd   12/15/2003   5:38 PM   Page A




                                                          (Trim 4” from Right Side)
03YearinReview12-12.qxd   12/15/2003   5:38 PM   Page B




                                                          General Fund . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ix



                                                          Working Capital Fund . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . xiii



                                                          Civil Works Fund . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . xvi

                 (Trim 4” from Left Side)
                                                          Army Systems Controls and Legal Compliance . . . . . . . . . . . . . . . . . . . . . . xviii
03YearinReview12-12.qxd   12/15/2003     5:38 PM   Page vii




              The United States is at war, and                         The world in which the Army is operating today is no
                                                                       longer a business-as-usual environment. The United
              the Army serves the nation by
              defending the Constitution and
              our way of life. This is our
                                                                       States is at war, and nearly 50 percent of Army forces
                                                                       are today in contact with our enemies. They will
                                                                       continue to be so for the foreseeable future. The Army
                                                                       is a proud member of the Joint Force that expertly
                                                                       serves our nation and its citizens. Our culture is to
                                                                                                                                 2003
                                                                                                                                  The United States Army
              nonnegotiable contract with the                          strive always to improve, and today our individual         Year in Review
                                                                       and organizational approach to our work and duties
              American people: To fight and                            must above all reflect the seriousness and urgency
                                                                       characteristic of an Army at war. Our Soldiers and
              win our nation’s wars,                                   nation deserve nothing less.

              decisively.                                              For 228 years, the Army has met the call to serve: to
                                                                       fight and win the nation’s wars. During FY 2003 we
                                                                       fulfilled this obligation through deployments in 120
                                                                       countries, most visibly in America’s continuing global
              A Statement on the Posture of the United States Army     fight against terrorism. As always, at the heart of
                                                   February 11, 2003
                                                                       everything we are seeking to achieve is the individual
                                                                       Soldier; his training, readiness, and welfare. In
                                                                       Afghanistan and Iraq, our Soldiers have performed
                                                                       impeccably in the face of great difficulties to achieve
                                                                       their objectives. And at home, they are at the core of
                                                                       our effort to transform the Army into a more
                                                                       responsive, deployable, agile, versatile, lethal,
                                                                       survivable, and sustainable force.

                                                                       Key transformation activities this year have included
                                                                       the following:

                                                                           The engagement of our Soldiers in the war on
                                                                           terrorism, including in Operation Iraqi Freedom,
                                                                           Operation Enduring Freedom in Afghanistan, and
                                                                           smaller deployments in other countries.

                                                                                                                                                  Year in Review vii
03YearinReview12-12.qxd         12/15/2003            5:39 PM         Page viii




                                                                                                 Establishment of the Installation Management         fighting force: People, Readiness, and Transformation.
                                                                                                 Agency. This represents a profound change in the     The Army is committed to training and caring for its
                                                                                                 way that the Army manages its posts and              Soldiers, civilians, and families. We are committed to
                                                                                                 garrisons around the world, and has already          ensuring that our forces are prepared at all times to
                                                                                                 started to yield benefits measured in the hundreds   deploy and fight. And we are committed to investing
                                                                                                 of millions of dollars.                              in the improvements that will maintain the U.S. Army
                                                                                                                                                      in its position as the most lethal army in the world.
                                                                                                 Certification as fit to fight of the Army’s first
                                                                                                 Stryker Brigade, a new, highly mobile                Just as our Soldiers have standards to guide their
                                                                                                 intermediate combat force capable of rapid           training, appearance, and conduct, the Army has
                                                                                                 deployment anywhere in the world.                    financial standards to guide the management of the
                                                                                                                                                      public funds entrusted to it. The Chief Financial
                                                                                                  Achievement of a key milestone in the Future
                                                                                                                                                      Officer (CFO) Strategic Plan serves as a framework
                                                                                                  Combat Systems Program, moving into the
                                                                                                  system development and demonstration phase the for accountability and to ensure that the Army is
                                                                                                  ground weapons systems of the “Army After           fiscally responsible for those funds, and that it
              A 10th Mountain Division Soldier uses binoculars to look for enemy
              activity while a fellow Soldier unfurls an American flag near the village of
                                                                                                  Next.”                                              delivers quality and value to our customers. This plan
              Loy Karezak, Afghanistan. U.S. Army photo by Spc. Gul A. Alisan.
                                                                                                                                                      also provides a roadmap for measuring financial
                                                                                                  Deployment of the first phase of the Logistics      performance, adhering to Department of Defense
                                                                                                  Modernization Program (LMP), which will             guidance and aligning with the President’s
                                                                                                  modernize the Army’s national-level logistics       Management Agenda to lead the Army through the
                                                                                                  business practices and support the Army’s           continual improvement of its financial processes.
                                                                                                  growing use of information technology.
                                                                                                                                                      The Annual Financial Statement is published to report
                                                                                                  Planning for the shift by the U.S. Army Corps of
                                                                                                                                                      on the Army’s financial performance each year. It is
                                                                                                  Engineers to a new regional focus. This will
                                                                                                                                                      organized around the three funds that comprise the
                                                                                                  include reorganizing the eight divisional offices
                                                                                                  and their subordinate districts into more effective Army’s financial statements: the General Fund, the
                                                                                                  regional business centers and formalizing           Working Capital Fund, and the Civil Works Fund. The
                                                                                                  Communities of Practice to enable us to capture next sections describe fund highlights for FY 2003;
                                                                                                  and better benefit from lessons learned and to      detailed analysis is provided in subsequent chapters.
                                                                                                  enhance our technical expertise.                    Throughout the report, comparisons are made
                                                                                                                                                      between FY 2003 and FY 2002. However, the Army
                                                                                             These activities are essential to the pursuit of the     in FY 2002 was an Army at peace while the Army in
                                                                                             vision that remains the guiding principle for our        FY 2003 is an Army at war. The annual results for

                 viii Fiscal Year 2003 Army Annual Financial Statement
03YearinReview12-12.qxd    12/15/2003     5:39 PM    Page ix




              each fund include the principal financial statements,   deployed in the United States as part of the homeland
              notes, and supplementary information at the back of     security effort.
              this publication.
                                                                     At any one time overseas deployments account for
              General Fund                                           approximately 48 percent of the active duty Army, 30
              The General Fund provides the funding that the Army percent of the Reserve force, and 21 percent of the
              needs to accomplish the many different tasks required National Guard. Of the 33 active duty Army brigades,
              of it by the American people. Most important among 24 (approximately 73 percent) were deployed
              these tasks is that the Army maintain at all times the overseas this year. Fifteen of the 45 National Guard
              readiness to fight and win the nation’s wars. During   enhanced battalions (33 percent) were also serving
              FY 2003, the primary use of this fund was to support overseas.
              the Army vision of People, Readiness, and
              Transformation.                                        The outlook for next year is just as challenging.
                                                                     Deployments such as those in support of Operation
              People                                                 Iraqi Freedom put considerable pressure on the Army.
              The global war on terrorism placed a heavy demand      Troop deployments tie up about three times as many
              on Army resources in FY 2003. Troop deployments        personnel as are actually deployed, because of the
              touched nearly every Army installation and             need to train and support the units that are scheduled
              organization, and significant contributions were       for subsequent rotations. As a result, the Army has
              required also of the Reserves and the National Guard. recently announced one-year rotations for U.S. troops
              As of September 30, 2003, about 368,000 of our         in Iraq, instead of the more typical six-month
              approximately 1.07 million active duty, Reserve, and deployment. Despite the pressure of these
              National Guard Army troops were on active              deployments we remain on track to achieve our
              deployment. Most of the Soldiers deployed were         recruiting goals for FY 2003.
              involved in the global war on terrorism, either at
              home or in one of 120 countries overseas. At the time Operation Iraqi Freedom
              of this report, more than 167,000 Soldiers are         Operation Iraqi Freedom demonstrated the awesome
              deployed in Iraq and surrounding countries. More       ability of the modern U.S. Army to the world. Within
              than 30,000 are in South Korea, 9,600 are in           a week of the outbreak of the ground war in Iraq, U.S.
              Afghanistan, 5,100 are in the Balkans, and more than ground forces blocked all key exit routes that could be
              3,000 are supporting additional peace efforts in       used by the Iraqi leadership to escape the judgment of
              locations overseas. A further 28,600 Soldiers are      their people. Within 3 weeks, resistance in the capital   A soldier from Fort Hood, Texas, greets his family upon returning home.



                                                                                                                                                                          Year in Review ix
03YearinReview12-12.qxd         12/15/2003           5:39 PM         Page x




                                                                                             city of Bagdad collapsed. Deployed from half a world (USACE) is supporting the effort to restore oil
                                                                                             away, U.S. Army troops led the way to this victory.      infrastructure and production to pre-war levels, to
                                                                                                                                                      repair electrical infrastructure, and to destroy the
                                                                                             The ground war of Operation Iraqi Freedom began on thousands of tons of munitions abandoned by the
                                                                                             March 20, 2003, when the 3rd Infantry Division           former Iraqi regime. The Corps is also assisting the
                                                                                             (Mechanized) advanced from Kuwait into southern          U.S. Agency for International Development and Iraqi
                                                                                             Iraq, bypassing urban areas on its way to Baghdad.       ministries, and is helping Iraqi engineers gain
                                                                                             After pausing to rearm and refit, the division           knowledge that bypassed them during the past 20 to
              Capt. Paul Stanton, commander of Co. B, 2nd Battalion, 502nd Infantry          continued north, crossing the Euphrates River and        25 years, when they were prohibited from almost all
              Regiment, 101st Airborne Division briefs Gen. Peter J. Schoomaker, the
              Chief of Staff of the Army and Maj. Gen. David H. Petraeus, commander          fighting its way to the international airport in         contact with the outside world.
              of the 101st Airborne Division during a foot patrol in Mosul, Iraq, Aug. 21.
              Gen. Schoomaker visited the 101st Airborne’s area of responsibility            Baghdad. U.S. Marines closed in on the city from the
                                                                                             southeast.                                               Our Soldiers are fully aware that Operation Iraqi
                                                                                                                                                      Freedom is an engagement for the long term, and they
                                                                                             In the south, the 101st Airborne Division conducted a are committed to finishing the job. Our goal
                                                                                             battalion air assault. Special operations forces seized nonetheless is to have every Soldier home as soon as
                                                                                             Iraq’s major gas and oil terminals in the northern       possible, as realization of this goal will signify their
                                                                                             Persian Gulf and airfields in western Iraq. In the       successful completion of their mission. As Defense
                                                                                             Kurdish-controlled area of the north, Soldiers of the    Secretary Donald Rumsfeld has said, the “end state is
                                                                                             173rd Airborne Brigade carried out a night drop onto to have no U.S. and no international forces in Iraq …
                                                                                             an airstrip to form a second front. In southeastern Iraq because it is [the Iraqis’] country.”
                                                                                             the 1st Marine Expeditionary Force and British forces
                                                                                             combined to seize the Faw peninsula and secure Basra Other Anti-Terrorist Operations
                                                                                             and other key objectives. The brigades of the 101st      In addition to Iraq, the Army continued its
                                                                                             and the 82nd Airborne Divisions seized secondary         engagement through FY 2003 in numerous other
                                                                                             objectives south of Baghdad. All coherent resistance operations against terrorism, notably in Afghanistan,
                                                                                             in Iraq’s capital collapsed on April 9, 2003.            the Philippines, and the Horn of Africa.

                                                                                             The initial ground combat phase of Operation Iraqi       In Afghanistan, the commander of U.S. Central
                                                                                             Freedom was short and successful, but the next phase     Command has said that our troops will remain there
                                                                                             of the mission will take longer. Coalition forces in     “for the foreseeable future.” In just a few months in
                                                                                             Iraq have been transitioning to post-hostility           FY 2002, American and coalition forces overthrew the
                                                                                             reconstruction, humanitarian assistance, and security    Taliban regime and destroyed the main force of al
                                                                                             tasks. For example, the U.S. Army Corps of Engineers     Qaeda terrorists. The Army’s mission in Operation

                 x Fiscal Year 2003 Army Annual Financial Statement
03YearinReview12-12.qxd    12/15/2003      5:39 PM    Page xi




              Enduring Freedom is now to eradicate the last               repair of facilities and of infrastructure such as roads,
              vestiges of Taliban and al Qaeda resistance and to          sewer and water systems, and electricity, and the
              help the Afghan people rebuild their country. Army          maintenance of heating, ventilation, and air
              forces of up to 2,000 82nd Airborne Division Soldiers,      conditioning. Importantly, these bases also provide
              supported by Apache gunships and Black Hawk                 health, morale, welfare, and recreational services to
              helicopters, continue to search for terrorist holdouts in   Army personnel and their families.
              remote areas near the Pakistan border; at the same
              time, dedicated Army professionals are training the         Managing any installation is a major undertaking.
              Afghan army and police force to assume                      Traditionally, the job has gone to a “landlord” that
              responsibility for security and order in the country.       also commands the largest unit at the installation. An
                                                                          installation can have dozens of tenant units that use
              Readiness                                                   money from their own budgets to pay for the services
              A famous maxim of Chinese military strategist Sun           that they receive from the base commander’s unit.
              Tzu is, “In peace prepare for war, in war prepare for       Under this system the priority of the landlord              Up to 70 countries are involved in Operation
              peace.” Readiness is in a very real sense the main          commander is his or her own unit, rather than the post
              business of the U.S. Army—indeed, of all military           or garrison, and the landlord unit may use funds            Enduring Freedom. Coalition forces have made
              services. While wars may quickly consume huge               assigned for base operations to support its deployment
                                                                                                                                      important contributions in the war against
              amounts of resources, over the long term staying            to combat missions. The system additionally disperses
              ready for war and peacekeeping uses far more. It is         management in a environment that would benefit              terrorism across the spectrum of operations,
              therefore essential that we continuously seek ways to       from a more centralized approach.
              be more efficient, productive, and effective in carrying                                                                providing vital intelligence, personnel, and
              out readiness activities.                                This landlord-tenant system started to change on
                                                                       October 1, 2003, when the Army opened a centralized            equipment and assets for use on the ground, in
              Installation Management Agency                           Installation Management Agency (IMA). The IMA                  the air, and at sea. Coalition members also have
              Most readiness activities take place on Army             mission is to ensure the Army is properly trained, fed,
              installations, ranging in size from major posts like     equipped, and cared for in an environment that                 provided liaison teams, participated in planning,
              Fort Benning, GA to smaller garrisons such as Camp guarantees both combat readiness and the well-being
              Casey in South Korea. Many of these installations are of Soldiers and their families. The new system                    provided bases, granted overflight permission,
              akin to small cities, complete with office buildings,    employs a commander who is responsible exclusively             and have made sizable contributions of
              housing, hospitals, schools, stores, restaurants, and    for the operation of the installation, and who reports
              theaters. Some encompass hundreds of square miles        to the IMA rather than to another unit commander on            humanitarian assistance.
              of wilderness for military training and exercises. Base the post. All units located at an installation will
              services include the maintenance, operation, and         receive a standard level of service, and all base

                                                                                                                                                                    Year in Review xi
03YearinReview12-12.qxd        12/15/2003         5:39 PM     Page xii




                                                                         operations (BASOPS) funds will go to the garrison         to face a cunning and devious enemy.” To be
                                                                         commander and remain at the base.                         effective, Transformation has to reach all parts of the
                                                                                                                                   Army, not just the combat units.
                                                                         Under the IMA system unit commanders will be able
                                                                         to focus on their mission and on readiness, instead of    Stryker Brigade Combat Teams
                                                                         on being landlords. The system will enable the Army       The Army has light, fast, and flexible combat units for
                                                                         to establish standards, allocate resources according to   initial deployment into an area, and it has heavy
                                                                         those standards, deliver equitable services from          combat units that take longer to bring into play but
                                                                         installation to installation, and ensure the equal        that can defeat anything the enemy throws in their
                                                                         treatment of all units on a base. Operation Iraqi         way. Until recently, though, the Army did not have
                                                                         Freedom (OIF) provided the first evidence of the          intermediate combat groups that combined the speed
                                                                         fiscal efficacy of this new, centralized approach. In     and agility of light forces with the firepower of heavy
                                                                         FY 2001 through FY 2002, base commanders flowed           units. New Stryker Brigades filled that gap in FY
                                                                         hundreds of millions of BASOPS dollars into paying        2003, when the Army certified the first units of this
                                                                         for the early phases of the deployment of their main      highly flexible, quick-response, heavy-duty fighting
                                                                         units in support of Operation Enduring Freedom and        force.
                                                                         the war on terror. Little of that money was repaid to
                                                                         the bases. In FY 2003, base commanders did the same       Although a Stryker Brigade may include 3,500
                                                                         for Operation Iraqi Freedom, to the tune of about         personnel and 400 vehicles, it can deploy rapidly over
                                                                         $600 million. This time, under the new rules of the       great distances by air or sea. The brigade can be
                                                                         IMA, when the Army received supplemental money            quickly configured to conduct combat missions across
                                                                         from Congress to fight the war we repaid 99 percent       a range of military operations, against different
                                                                         of the diverted funds. According to IMA Major             potential threats, and on any terrain. With no more
                                                                         General Anders B. Aadland, this was “a first step into    than four days notice, a Stryker Brigade can be on its
                                                                         the programming discipline we’d been talking about.”      way anywhere in the world to do anything from
                                                                                                                                   combat a terrorist bombing campaign to fight a
                                                                         Transformation                                            conventional military foe.
                                                                         To win its wars and to protect the peace, the U.S.
                                                                         Army must engage in continual transformation.             The brigade is built around the Stryker Interim
                                                                         According to Army Chief of Staff General Peter J.         Armored Vehicle, itself an Army Transformation
                                                                         Schoomaker, “Old rules no longer apply. It is not         success story. The Stryker is a mid-weight, armored
                                                                         business as usual. This state of war requires us to       eight-wheeled vehicle that combines firepower,
              A Stryker Brigade Combat Team convoy in Iraq.              challenge old paradigms, to be flexible and adaptable     battlefield mobility, survivability, and versatility with

                 xii Fiscal Year 2003 Army Annual Financial Statement
03YearinReview12-12.qxd    12/15/2003     5:39 PM     Page xiii




              reduced logistics requirements. It can be airlifted by a   systems, capable of integrating a dozen or more
              C130 Hercules cargo aircraft to primitive airstrips and    individual systems and their operators into a single
              can be sent into combat immediately. The Stryker can       network), with the objective of being able to deploy to
              be configured 10 different ways, from troop carrier to     any conflict anywhere in the world in 96 hours, ready
              mobile artillery platform to combat engineering            to fight.
              vehicle. It has a range of 300 miles.
                                                                         Working Capital Fund
              Future Combat Systems
                                                                         The Army Working Capital Fund (AWCF) is part of
              As new as it is, the Stryker is only a temporary                                                                     Lt. Col. Mark Dickens and Maj. Rob Key examine an unmanned aerial
                                                                         the Defense Working Capital Fund, and is divided into     vehicle in the Pentagon courtyard. “Shadow 200” UAV, was on exhibit
              solution to fill a gap while ground weapons systems                                                                  Sept. 25 to educate Army members about new short-range surveillance
                                                                         four activity groups: Supply Management, Army;            technology.
              development catches up with new technology. In FY
                                                                         Depot Maintenance; Ordnance; and Information
              2003, the Department of Defense approved moving
              the Army’s Future Combat Systems (FCS) program             Services. These businesses help the Army to maintain
              into a $14.9 billion system development and                constant readiness by providing the supplies,
              demonstration phase. More than just a vehicle, FCS         equipment, ordnance, and information services
              eventually may be a family of manned and unmanned          necessary to support the deployment and projection of
              ground and aerial platforms. It is expected to replace     lethal force as and when required by the nation. This
              both the Abrams tank and the Bradley Fighting              year the two most significant activities undertaken by
              Vehicle.                                                   the AWCF were the Logistics Modernization Program
                                                                         and the Ground Systems Industrial Enterprise.
              A revolutionary system, FCS is designed to be the
              ground force centerpiece for the “Army After Next,”        Logistics Modernization Program
              for FY 2015 through FY 2020. The FCS will blend            Next to combat skills, logistics know-how is probably
              the capabilities of several battlefield operating          the most important capability in the military world.
              systems into a common platform that will radically         Moving troop supplies from the depot or factory to
              change the nature of close combat. FCS elements will       the “tip of the spear” has always been a complicated
              be lightweight (no individual element greater than 20      undertaking, but today’s level of complexity defies the
              tons), so that at least two will be able to fit into a     imagination. The Army uses millions of different
              C130 cargo aircraft. They will provide an                  items, including rations, uniforms, industrial and
              overwhelmingly lethal, strategically deployable, self-     building supplies, spare parts, ammunition, medicines,
              sustaining, and survivable combat and combat support       fuels, and many others. These items often must be
              force, systems, and supporting technologies. FCS will      moved thousands of miles overnight to support troops
              be a single multifunctional system (or system of           on some distant battlefield.

                                                                                                                                                                           Year in Review xiii
03YearinReview12-12.qxd    12/15/2003        5:39 PM      Page xiv




              Figure 1. Ground Systems Industrial Enterprise Visions                                                             Although they were leading edge in their time, the
                                                                                                                                 Army’s logistics legacy systems, such as the
                                                                                                                                 Commodity Command Standard System (CCSS) and
                                                                                                                                 the Standard Depot System (SDS), are nearing
                                                                                                                                 obsolescence and must be replaced. These systems
                                                                                                                                 use the old batch processing approach, while today’s
                                                                                                                                 logistics information flows interactively in near real
                                                                                                                                 time. They use 25-year-old technology, 30-year-old
                                                                                                                                 processes, and are written in COBOL, now a truly
                                                                                                                                 ancient digital language.

                                                                                                                                 On July 7, 2003 the Army successfully completed the
                                                                                                                                 initial deployment of the first phase of the Logistics
                                                                                                                                 Modernization Program (LMP). LMP is designed to
              Headquartered at Rock Island Arsenal, IL (RIA), the six facilities merged under GSIE are Anniston Army Depot, AL   modernize the Army’s national-level logistics business
              (ANAD); Lima Army Tank Plant, OH (LATP); Red River Army Depot, TX (RRAD); Rock Island Arsenal, IL (RIA); Sierra    practices and the supporting information technology.
              Army Depot, CA (SIAD); and Watervliet Arsenal; NY (WVA).
                                                                                                                                 LMP was deployed to 12 pilot locations in the first
                                                                                                                                 phase, and over the next 12 months the platform will
                                                                                                                                 be deployed to other commands, depots, and arsenals
                                                                                                                                 countrywide.

                                                                                                                                 The new logistics program is a key component of the
                                                                                                                                 Army’s transformation campaign, and will deliver
                                                                                                                                 measurable improvements in Army readiness. Most
                                                                                                                                 important to the Soldier in the field, LMP will reduce
                                                                                                                                 the time between order and delivery and will help
                                                                                                                                 eliminate the problem of items being out of stock
                                                                                                                                 when ordered. Additionally, the new system will keep
                                                                                                                                 an order visible from start to finish, so there will be
                                                                                                                                 far fewer “lost orders.” LMP will be a powerful tool
                                                                                                                                 for logistics planning, which is important for
                                                                                                                                 strategists and tacticians alike. The Army will be able
                                                                                                                                 to spend less money buying and storing items in

                xiv Fiscal Year 2003 Army Annual Financial Statement
03YearinReview12-12.qxd    12/15/2003     5:39 PM     Page xv




              warehouses, because LMP will improve the ability to        GSIE will operate like a business to the maximum
              order direct from the factory, even in times of crisis.    extent possible, will grow by leveraging the
              Finally, LMP will reduce the number of people who          capabilities of each installation, will foster more
              are needed for logistics management and operations,        partnering arrangements with industry, will champion
              freeing personnel for other purposes.                      financial and workforce reforms, and will increase
                                                                         productivity through initiatives such as lean
              Ground Systems Industrial Enterprise                       manufacturing. The GSIE plan of action encompasses
              Army arsenals and depots provide essential                 four objectives: continuous improvement of the
              manufacturing, overhaul, repair, and refitting services    support given to Soldiers, infrastructure reductions,
              for a wide variety of ground weapons systems and           efficiency gains, and increased work throughput.
              platforms. Among the oldest organizations in the
              Army, many of the depots started out in the early 19th     Most important to the combat commander, the GSIE
              century as the primary manufacturers of rifles, pistols,   establishes a closer relationship between the field and
              cannons, and gunpowder. Today, much of this work is        the industrial base that supplies and maintains ground
              done by the private sector, working on contract with       weapons systems. The enterprise furthermore will be       “The new contract is
              the Army. This and other factors have caused the           a focal point of entry for all ground systems support
              depots to reorganize-indeed, transform themselves-to       issues and will provide a consolidated, ongoing
                                                                                                                                   particularly relevant to the last
              provide the types of services the modern Army
              demands.
                                                                         sustainment structure for ground systems.                 of these goals [to reduce the
                                                                         Microsoft Suite Buy                                       cost of operations]. We’re trying
              Formed as a result of provisional stand-up in October      The Army has been seeking to consolidate its
              2002, the Ground Systems Industrial Enterprise             software purchases and licenses to improve both the       to be more like a corporation,
              merges the capabilities of six Army facilities into a      security of and the Army-wide access to information.
              single enterprise. As a result of the Army Business        To this end, during the third quarter of FY 2003 the      be more business-orientated.
              Initiatives Council recommendation and directive of        Army signed a six-year contract worth more than
              the Secretary of the Army, full stand-up and               $470 million with Microsoft and its small business
                                                                                                                                   Enterprise is about treating the
              implementation is set for October 1, 2003.                 reseller. The contract is in concordance with the DoD     Army as one integrated
                                                                         Enterprise Software Initiative (ESI). The Army has
              The underlying intention of GSIE is to leverage the        close to 500,000 computer users, and the Enterprise       organization.”
              assets of the government-owned depots, to provide          Software Consolidation contract is expected to save
              better maintenance, storage, and outloading services.      $15 million over the next six years. The first year                                     Peggy Henderson,
                                                                                                                                             Acting Deputy Director of Enterprise Systems
              This will permit the six Army facilities to be more        delivery order, totaling $78 million, was awarded on                                        Technology Activity
              cost-effective, flexible, and agile.                       May 30, 2003.

                                                                                                                                                              Year in Review xv
03YearinReview12-12.qxd    12/15/2003        5:39 PM      Page xvi




              “We need, first, to identify the The size of the award highlights the importance of the                                 Creation of the Office for Homeland Security
                                               contract to the Army Knowledge Management                                              The Department of Homeland Security was created as
              individual and independent       (AKM) strategy of supporting Army operations                                           a new federal agency in response to the terrorist
                                               through better access to information. The AKM                                          attacks of September 11, 2001. In February 2003, the
              homeland security programs       transformation has three strategic goals: to defend the                                USACE subsequently established the Office of
                                                                                                                                      Homeland Security to fulfill the myriad
              that exist throughout the Corps, information   network, to support the Objective Force,
                                               and to reduce the cost of operations. The aim is have                                  responsibilities associated with civil emergency
              and organize them into a single, one Army network, one Army portal, a single sign-on                                    management and critical infrastructure protection
                                               capability, a universal directory service, and the ability                             programs. The new office notably is responsible for
              coherent program. Secondly, we to support plug and play. The outcome of this will be                                    coordinating USACE support with elements of the
                                               universal access to information across the Army:                                       Department of Homeland Security, the Department of
              need to establish contact with   Soldiers will be able to go anywhere, anytime, and                                     Defense, and the Army in the overall homeland
                                               plug into the system in support of their work.                                         security mission.
              our customers, stakeholders,
              and partners to get their views  Civil Works Fund                                                                    The USACE oversees numerous infrastructure assets
                                                                                                                                   that are potentially vulnerable to terrorist activity.
                                               The Corps of Engineers Civil Works Program has
              on where USACE needs to focus been involved since 1824 in the development,                                           Assuring the security of these assets encompasses
                                               management, protection, and enhancement of                                          detection, protection, and response work. The Corps’
              its homeland security efforts.”  America’s water and related land resources. Today the                               detection work includes activities such as maintaining
                                                                             program is responsible for commercial navigation,     crime watch programs, performing surveillance, and
                                                       Edward Hecker                                                               raising awareness of potential threats. Protection
                                           Chief, Homeland Security Office   flood damage reduction, environmental restoration,
                                                                             and related matters. It provides stewardship of       requires the screening of all facilities to establish their
                                                                             America’s water resources infrastructure and          importance and the assessment of the vulnerability to
                                                                             associated natural resources, and provides emergency attack of these facilities. To assure responsiveness, the
                                                                             services for disaster relief. The Civil Works Program Corps must coordinate with state and local law
                                                                             supports the Army in peacetime pursuits, during       enforcement bodies, with the National Guard, and
                                                                             national emergencies, and in times of war. Many of    with federal agencies. Among the most important
                                                                             the USACE employees helping Iraq to restore its       infrastructure assets overseen by the Corps of
                                                                             public works programs are using skills they use every Engineers are 75 hydroelectric power projects, 456
                                                                             day in their work at home. Highlights of the program major lakes and reservoirs, 237 locks, 25,000 miles of
                                                                             in FY 2003 include the creation of the Homeland       commercially navigable channels, 926 shallow and
                                                                             Security Office and planning for a transformed Army deep draft harbors, and research and development
                                                                             Corps of Engineers.                                   facilities valued at $1.2 billion.

                xvi Fiscal Year 2003 Army Annual Financial Statement
03YearinReview12-12.qxd    12/15/2003      5:39 PM     Page xvii




              USACE 2012                                                  The reorganizational program additionally will change
              The Army Corps of Engineers has developed a long-           the Corps’ approach to the budget and authorization
              term plan to reduce its headquarters infrastructure and     process, and will provide overseers in the Pentagon,
              to reorient to a teams-based organization. The              the Office of Management and Budget, and the
              changes, to be made under the designation USACE             Congress with better information on the water
              2012, are needed to produce more cost-effective,            resources challenges that the nation faces. USACE
              viable solutions to the water and infrastructure            2012 also will formalize the various Communities of
              problems that challenge the country today and that          Practice within the Corps to ensure that lessons
              will do so over the next decade. The plan aims to           learned are captured and passed on and that technical
              unify the organization and thus to eliminate the            expertise is maintained and honed.
              redundancy of duplicated effort. In doing so, it is         Hurricane Isabel
              expected to deliver cost reductions. Centering the          Hurricane Isabel, the largest hurricane of FY 2003,
              organization on teams furthermore will improve              made landfall on midday, September 18 on the outer
              collaboration at and between all levels of the Corps,       banks of North Carolina. Packing maximum sustained
              from the district to the Pentagon. The process will         winds of 100 mph, Isabel caused widespread power
              also seek to open channels of communication between         outages in Virginia, Washington, D.C., Maryland, and
              the Corps and other governmental agencies, academia,        New Jersey. Two divisions of the Corps of Engineers
              and private industry.                                       were affected: the South Atlantic Division and the
                                                                          North Atlantic Division, in Federal Emergency
              USACE 2012 will strengthen the regional focus and           Management Agency FEMA) Regions II, III, and VI.
              transform the eight existing divisional offices and         The Corps assigned 228 employees to its disaster
              their subordinate districts into regional business          response effort. The Norfolk District provided the
              centers. This shift will enable the divisional offices to   primary contribution to the emergency operations,
              concentrate their technical expertise and thus to           including the execution of FEMA missions through to
              broaden and enhance the range and quality of the            financial closeout, within its Civil Works boundaries
              services that they deliver to the customer, the             in the Commonwealth of Virginia. The Baltimore
              American taxpayer. At the Washington Headquarters,          District had similar responsibilities in the State of
              teams will assist the regional transformation with          Maryland and the District of Columbia.
              administrative and policy support, for example, by
              fielding policy questions early in the process or by        All Corps of Engineers’ flood control projects
              ensuring that a Congressional response on the status        performed as expected, minimizing the damage
              of a project reflects the knowledge of the entire team.     caused and protecting lives. Requests for ice and       Damage caused by Hurricane Isabel at Kitty Hawk, N.C.



                                                                                                                                                                          Year in Review xvii
03YearinReview12-12.qxd     12/15/2003       5:39 PM      Page xviii




                                                                         water headed the calls for aid from North Carolina,      ensuring that our critical feeder systems are compliant
                                                                         Virginia, Maryland, Delaware, and the District of        with the Chief Financial Officers (CFO) Act and that
                                                                         Columbia: in the days prior to and following the         they will therefore produce the requisite reliable and
                                                                         hurricane FEMA and the Corps moved more than 2           relevant information. The ongoing replacement or
                                                                         million pounds of ice to North Carolina, Virginia, and   incorporation of Army feeder systems into new or
                                                                         D.C. More than 420,000 gallons of drinking water         evolving systems means that the number of
                                                                         were delivered to Virginia emergency managers.           noncompliant systems continues to diminish. Those
                                                                                                                                  critical feeder systems not scheduled for replacement
                                                                         Isabel came ashore south of the U.S. Army Engineer       are being evaluated for modification to achieve
                                                                         Research and Development Center’s (ERDC) Field           compliance, with each system being monitored
                                                                         Research Facility (FRF) in Duck, NC. The storm was       through periodic review of the Army CFO Strategic
                                                                         the largest ever measured by the FRF, with 26.5-foot     Plan. This plan fixes responsibility and establishes a
                                                                                                                                  timeline for addressing and resolving problems of
                                                                         significant wave heights and 92 mph wind gusts.
                                                                                                                                  noncompliance, with periodic status reports going to
                                                                                                                                  Army leadership.
                                                                         Army Systems Controls and Legal
                                                                         Compliance                                               The CFO Strategic Plan is one of many initiatives
                                                                         The Army continues to place a high priority on           designed to improve business processes throughout
                                                                         improving its financial management processes and         the Army. As these business processes improve, so too
                                                                         associated systems. To that end, we worked               will the quality of the information that is vital to the
                                                                         aggressively through FY 2003 toward our goal of          Army’s decision-makers.




                xviii Fiscal Year 2003 Army Annual Financial Statement
03GeneralFund12-15.qxd   12/15/2003   4:39 PM   Page A




                                                         (Trim 4” from Right Side)
03GeneralFund12-15.qxd   12/15/2003   4:39 PM   Page B




                                                         Management Discussion and Analysis . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1



                                                         General Fund Performance Results: Creating a Cost Culture
                                                         While Mitigating Risk . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9



                                                         Management Integrity . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
                 (Trim 4” from Left Side)

                                                         Future Effects of Existing Conditions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21



                                                         Advancing the President’s Management Agenda . . . . . . . . . . . . . . . . . . . . . . 23
03GeneralFund12-15.qxd    12/15/2003       4:39 PM     Page 1




              Management Discussion and Analysis                             military forces in FY 2003, the Army accomplished
                                                                             its missions and prepared for future missions while



                                                                                                                                       2003
              Mission
                                                                             consuming only 23 percent of the funds allocated to
              As specified in Title 10, U.S. Code, Section 3062, the
                                                                             the Department of Defense.
              Army’s mission is to defend the landmass of the
              United States and its territories, commonwealths, and
                                                                             Organizational Structure
              possessions. The Army is also required, as directed by                                                                    The United States Army
                                                                       The Army is an organization of headquarters, staffs,
              Congress, to support national policies, implement                                                                         General Fund
                                                                       commands, and units integrated into a single system
              national objectives, and overcome any nations
                                                                       with a common mission. Because of its size and
              responsible for aggressive acts that imperil the peace
                                                                       complexity, the Army requires an approach that
              and security of the United States.
                                                                       permits independent action by its separate parts while
                                                                       ensuring that its leadership retains overall command
              The Army works with the other branches of the
                                                                       and control. The Army has three distinct
              military, providing forces capable of sustained combat
                                                                       subsystems—production, combat, and integrating—
              on land. Ensuring during peacetime that its forces are
                                                                       each of which operates within its own environment.
              organized, trained, equipped, and ready to act when
              called upon requires enormous work. As such, the         The Production Subsystem
              Army never stands still: drawing continuously on the The Army is charged with organizing people and
              lessons of the past, its leaders constantly seek new and machines into the configuration best able to perform
              imaginative ways to prepare for the future.              its mission. The production subsystem, often referred
                                                                             to as the institutional Army, primarily supports the
              The Army’s primary mission is warfighting, and in              combat subsystem. Through a number of diverse
              this it has no equal, but its capabilities enable it also to   organizations, the production subsystem obtains the
              accomplish many other missions in support of the               raw materials that the Army needs, recruiting people,
              national objectives. Prepared at all times to fight and        searching for new technologies, and dealing with the
              win the nation’s wars, its Soldiers are also ready to be       producers of required materiel.
              dispatched anywhere in the world to save lives,
              protect property, or keep the peace. In 228 years, the         Other elements of this subsystem convert these raw
              Army has never failed the nation.                              materials into intermediate goods; for example,
                                                                             training centers and schools turn untrained people into
              In addition to these responsibilities, the Army has a          tank crewmen, infantrymen, and mechanics. These
              responsibility to use wisely the public funds entrusted        schools additionally convert ideas and knowledge into
              to it. Despite comprising 33 percent of all active             doctrine, tactics, and training methods to enhance the

                                                                                                                                                                 1
03GeneralFund12-15.qxd        12/15/2003             4:39 PM       Page 2




              What We Do                                                                  capability of the combat subsystem. Laboratories,        The active, reserve, and civilian components of the
                           Warfighting                                                    arsenals, and procurement and test organizations         Army each play an integral part in enabling the
                                                                                          convert technology and contractor effort into weapons    combat subsystem to accomplish its goal of providing
                           Peacekeeping                                                   and equipment for combat.                                combat-ready forces. The active component forms the
                           Humanitarian Aid                                                                                                        nucleus of the initial combat forces in a crisis; the
                           Homeland Security                                              The two major components of the production               reserve components reinforce and augment the active
                                                                                          subsystem are the Training and Doctrine Command          forces, either by unit or by individual replacements;
                                                                                          and the Army Materiel Command. The former                and the civilian component complements this
                                                                                          produces the training, doctrine, and tactics needed to   subsystem by providing critical support and
                                                                                          fight and win America’s wars. The latter provides the    sustainment.
                                                                                          materiel solutions needed by the warfighting units of
                                                                                          the combat subsystem.                                   The Integrating Subsystem
                                                                                                                                                  The integrating subsystem ties the other two
                                                                                          The Combat Subsystem                                    subsystems together and decides what must be done
                                                                                          The combat subsystem converts the intermediate          to ensure that the Army can accomplish its mission.
              A Soldier provides security with a .50-caliber machine gun at a site near   goods of the production subsystem into mission-ready Integration is the primary function of the Secretary of
              Balad, Iraq, where a convoy was recently attacked with rocket-propelled
              grenades and small arms. U.S. Army photo by Sgt. Jack Morse.                units, melding together Soldiers, equipment, and        the Army and of the Army Chief of Staff, who
                                                                                          doctrine into a force that is fully combat-ready. It    together lead the Headquarters Department of the
                                                                                          must be alert at all times to all potential threats and Army (HQDA).
                                                                                          must be prepared to serve the changing needs of the
                                                                                          unified combatant commanders to whom it provides        HQDA is composed of two elements: the Army
              Figure 2. Combat Force Stationing in FY 2003                                ready forces.                                           Secretariat (the civilian leadership) focuses on
                Strategic Reserve
                                                                                                                                                  managing the business of the Army, and the Army
                8 ARNG Divisions                             Europe
                                                             1 Corps
                                                                                          The combat force is structured into corps and           Staff (military leadership) is responsible for planning,
                3 ARNG Separate Brigades
                                                             2 AC Divisions               divisions, under the peacetime command of major         developing, executing, reviewing, and analyzing
                                    Contingency
                                    2 Corps                                               Army commanders. The commanders are charged             Army programs.
                                    4 AC Divisions
                                                                                          with keeping their assigned forces ready to fight
                                                                                          whenever and wherever needed. These corps and           In performing its integrating function, HQDA
               Rapid Regional
               Response                                                                   divisions may be forward-deployed or stationed          determines the nature of the Army’s mission
               1 Corps
               1 AC Division                                 Pacific/Korea                within the United States. Regardless, they are          requirements in conjunction with Congress, the
                                                             2 AC Divisons
               Reinforcing                                                                prepared for rapid response or other contingencies, or Department of Defense (DoD), and the other military
               1 AC Division
               15 ARNG Separate
                                                                                          are held for strategic reserve. Figure 2 shows the      services, and by assessing the nature of the threats
                 Brigades                                                                 stationing of major Army combat forces in FY 2003. faced by the nation. HQDA then charts a course for

                 2 Fiscal Year 2003 Army Annual Financial Statement
03GeneralFund12-15.qxd     12/15/2003        4:39 PM      Page 3




              the Army, securing the necessary resources and
              allocating them as appropriate to best accomplish the
              mission. HQDA continually monitors the performance
              of the other subsystems and effects change should
              performance fall below requirements.

              Over the last 2 years, HQDA underwent major
              change. Recognizing that it had not kept pace with the
              changing business environment, the Army began            Soldiers from the Army’s 166th Infantry, 2nd Battalion, Charlie Company,
                                                                       conduct a dismounted patrol in Guantanamo Bay, Cuba. DoD photo by
              transforming its business practices both to enhance the Chief  Petty Officer John F. Williams, U.S. Navy.
              capabilities and creativity of its people and to free up
              resources to support warfighting and Transformation.
              Starting at the top, the Army began by merging the
              Secretariat and the Army Staff into a single
              headquarters structure to improve decision-making, to
              reduce redundancy, to better focus on Army core
              competencies, and to redirect people and resources       Figure 3. HQDA Organization                                                                    The Inspector               Chief of
                                                                                                                                                                                                 Leglislative
              thus released from other duties to its warfighting                                                                                                        General
                                                                                                                                                                                                   Liaison      Chief of Public
                                                                                                                                                                                                                    Affairs
              forces.                                                                                                                                            Admin.
                                                                                                                                                                Assistant           The Army
                                                                                                                                                                                  Auditor General                    Small &
                                                                                                                                                                                                                  Disadvantaged
              The reorganization of HQDA has had a significant                                                                                                    General
                                                                                                                                                                  Counsel                                       Business Utilization
              impact. Decision-making authority is now unified in
                                                                                                                                                                                         SECARMY
              the Executive Office of HQDA. By defining the                                                           ASA Acquis         ASA                                               USA                      Executive
              responsibility of the Secretariat as policy, direction,
                                                                                      ASA         ASA
                                                                                  Manpower & Installs and CivilASA    Log. & Tech Financial Mgmt. & Chief Info       Director                                       Office the
                                                                                 Reserve Affairs Environ        Works  [Mil Dep.   Comptroller [Mil Officer G-6    Army Staff                CSA                    HQDA (EOH)
              and oversight and by realigning operational missions                                                      Acquis]      Dep Budget]                                            VCSA
              to the Army Staff, the Army eliminated several major                                                                                                                          SMA
              redundancies. In returning requirements generation                      G-1 *   ACS Installation
                                                                                                 Mgmt. *
                                                                                                                 Chief of Engrs
                                                                                                                     * **
                                                                                                                                  G-4 *   G-8 *   G-3     G-2                                                    Chief of
                                                                                                                                                                               The Judge                        Chaplains
              approval to the Chief of Staff, it additionally has put                                                                                                          Advocate
                                                                                                                                                                                General
              more discipline into the process. The new HQDA                                                                                                MACOMS                                       The Surgeon
                                                                                                                                                                                                          General **
                                                                                          Clearly defined responsibilities to ASA
              organization is shown in Figure 3.                                                                                                                                      Director
                                                                                          Oversight                                                                                    ARNG
                                                                                                                                                                                                    Chief Army

              This reduction of headquarters layers will enable                        * Responsible to ASA for advice and assistance in functional area                                             Reserve
                                                                                       ** MACOM Commander
              much more effective use of the Army’s financial                                                                                                                                        *As of September 30, 2003


                                                                                                                                                                                                        General Fund 3
03GeneralFund12-15.qxd        12/15/2003           4:40 PM         Page 4




                                                                                            resources. For example, the Army has unified its       warfighting units to the institutional support
                                                                                            acquisition effort under a single acquisition executive,
                                                                                                                                                   organizations. The Army published its Transformation
                                                                                            with the result that funding now flows directly from   Campaign Plan in April 2001 to synchronize and
                                                                                            the acquisition executive to program managers. The     guide this complex undertaking. The November 2001
                                                                                            reorganization of HQDA has thus far eliminated more    Objective Force White Paper describes the advanced
                                                                                            than 700 headquarters management account spaces,       capabilities and core technologies needed to build the
                                                                                            making these available instead to the combat and       Objective Force, and the June 2002 Transformation
                                                                                            production subsystems. HQDA reduction will             Roadmap defines Transformation as a continuous
              Makua Military Reservation, Hawaii – An OH-58D Kiowa Warrior provides         continue as further non-core functions are identified  process, with specific waypoints, that will increase the
              aerial cover January 28 as a platoon from 1st Battalion, 27th Infantry
              Regiment, 25th Infantry Division (Light), prepares to advance toward the      and eliminated.                                        Army contribution to the Joint Force while achieving
              “enemy” during a Combined Live Fire Exercise. U.S. Army photo by Sgt.
              Frank Magni                                                                                                                          the six DoD critical operational goals. The result will
                                                                                            Realizing the Army Vision - People, Readiness, and be a more strategically responsive and full-spectrum-
                                                                                            Transformation                                         dominant force capable of prompt and sustained land
                                                                                            In 1999, the Army announced its vision to transform combat operations as a member of the Joint Force.
                                                                                            into a more strategically responsive force, dominant
                                                                                            across the full spectrum of military operations. The   In future joint operations, Objective Force units will
                                                                                            Army Vision addresses three essential components:
                                                                                                                                                   be capable of directing major operations and decisive
                                                                                            People, Readiness, and Transformation. Soldiers are
                                                                                                                                                   land campaigns with Army headquarters. Objective
                                                                                            the heart of the Army, the core of our formations, and
                                                                                                                                                   Force headquarters at all levels will provide the Joint
                                                                                            the foundation of our combat power. Readiness
                                                                                            remains our overarching imperative. It is the means    Force Commander (JFC) with seamless joint battle
                                                                                            by which we execute our non-negotiable contract with command and decision superiority. The modularity
              Sgt. Elijah Caddy uses a panoramic telescope to sight in a howitzer during
              a test fire at Baghdad International Airport in Iraq. Department of Defense   the American people: to fight and win our nation’s     and scalability of our Objective Force formations will
              photo by Air Force Master Sgt. Robert Hargeaves, Jr.
                                                                                            wars, decisively. To preserve Army readiness during    provide an unprecedented degree of flexibility and
                                                                                            this period of rapid change, Transformation is         adaptability to the combatant commander, providing
                                                                                            advancing on three major axes: holding on to legacy the right force at the right time for a decisive
                                                                                            formations to maintain readiness and dominance         outcome.
                                                                                            today; inaugurating Stryker Brigades (the Interim
                                                                                            Force) to bridge the operational gap; and ultimately   People
                                                                                            fielding the Objective Force to keep the Army          People are central to everything we do in the Army.
                                                                                            dominant in the years beyond this decade.              Platforms and organizations do not defend this nation;
                                                                                                                                                   units do not train, stay ready, take risks, and make
                                                                                            Realization of the Army Vision will require the        sacrifices; and institutions do not transform. People
                                                                                            concerted effort of all Army components, from          do. Everything that the Army has ever achieved has

                 4 Fiscal Year 2003 Army Annual Financial Statement
03GeneralFund12-15.qxd    12/15/2003     4:40 PM    Page 5




              been due to our people, and it is upon the well-being     We anticipate also hitting all recruiting targets this
              of these people—the human dimension of our                year, as we have since FY 2000. Through August the
              Transformation—that Army readiness depends. When          Army had recruited 67,354 Soldiers, with enough
              we defined the Army Vision we committed ourselves         enrolled under the delayed entry program to make the
              to developing our Soldiers and civilians into             73,800 needed by the end of September 2003.
              competent, confident, disciplined, and adaptive
              leaders, capable of succeeding in situations of great    More than 50 percent of our Soldiers are in the
              uncertainty. We are dedicated to preparing our           Reserve component. The fight against terrorism and
              Soldiers to lead joint formations, to enabling our       support for homeland defense are significant
              headquarters to command and control joint forces, and    undertakings that demand a high level of resourcing.
              to providing to those joint formations the capability    The Army Reserve has been key to our success in
              that only the Army can bring to the fight: the           these operations. To ensure that the Reserve remains
              capability to control terrain and populations.           trained and ready to meet the increasing demands
                                                                       placed upon it, the Army plans to increase full-time
              The objective of our manning strategy is to ensure       support authorizations 2 percent each year through FY
              that we put our people into the positions that enable    2012, raising the full-time support from the current
              us to capitalize best on their warfighting expertise.    level of 69,915 to a level of 83,046. Full-time support
              This is the Army’s commitment to the nation and to       authorizations are the leading priority of both the
              Army leaders, Soldiers, and their families. Proper unit Army National Guard and the Army Reserve
              manning is central to our ability to fulfill our mission leadership.
              and to serve as a strategic element of national policy.
              It brings predictability for our people and ensures that As part of the effort to consolidate, streamline, and
              our leaders have the resources necessary to perform      more effectively manage the Army, we have begun
              their assigned tasks. In FY 2000, we implemented a       also to transform our civilian personnel system. A
              strategy to man our forces to 100 percent of             high-quality, well-trained civilian force is essential to
              authorized strength, starting with divisional combat     the readiness of the overall force and to our ability to
              units. We expanded this program in FY 2001 and FY sustain operations today and in the future. Projections
              2002 to include early deploying units. In FY 2002, we through FY 2005 indicate that we are facing a 16
              succeeded in filling our divisions, armored cavalry      percent annual turnover of our civilian workers due to
              regiments, and selected early deploying units to 100     retirements and other losses. To fully support our
              percent in the aggregate, with a 93-95 percent skill     combatant commanders and to fulfill our obligations
              and gradeband match. We remain on target to              to the nation, it is essential that we undertake a
              accomplish our long-term goal of filling all Army        comprehensive transformation of the civilian force to       Interpreter Yousef Alsobaie, right, converses in Arabic with local
                                                                                                                                   townspeople about their various concerns at the neighborhood of French
              units to 100 percent of authorized strength.             match the transformation of our fighting forces.            Quarter, Iraq.


                                                                                                                                                                               General Fund 5
03GeneralFund12-15.qxd       12/15/2003            4:40 PM     Page 6




              Figure 4. Operation Iraqi Freedom: Disposition of Forces                                                                                                Finally, the readiness of the Army is inextricably
                                                                                                                                                                      linked to the well-being of our people. The human
                                                                                                                                                                      dimension of Transformation accordingly is being
                                                                                                                                                                      addressed through the Army Well-Being program,
                   GROUND FORCES                                         Dahuk
                                                                                    Bashu        R                                                                    which is designed to take care of the physical,
                   Army      133,300                                XX                                                                          ARMY AVIATION         material, mental, and spiritual needs of all Army
                   Air Force     550                                                         Irbil                                              AH64      140
                   Navy        1,550
                                                                           Mosul                                                                                      people: Soldiers, civilians, retirees, veterans, and
                                                                                                                                                UH-60     300
                   Marine      8,600                  101st AA DIV (+)              XX                x
                                                                                                                                                CH-47      80
                                                                                                                                                                      families. Supporting mission preparedness as well as
                   Coalition  12,400                                                                                                            OH-58D     90         individual aspirations, Well-Being integrates policies,
                   TOTAL     156,400                                                        17 3dABN Bde
                                                                                                                                                                      programs, and other personnel issues into a holistic,
                                                                         4th INF DIV                                                                           Iran
                                         Al Qaim
                                                     EUPHRATES R.
                                                                           Tikrit
                                                                                                                                                                      systematic framework that will provide a path to
                            Syria                                   XX
                                                                                            Samarra                                                                   personal growth and success and thus will enable our
                                                                                 XX
                                                                                                                                                                      people to become wholly self-reliant.
                                 Al Rutbah
                                                      3rd INF DIV         BAGHDAD
                                                        Fallujah x 1st AR DIV
                                                                                  2nd ACR
                                               3rd ACR                                                                                                                Initiatives such as the recent improvements to the
              H4                  H3
                                                               2-23d ABN DIV                                                                                          Montgomery GI Bill, TriCare for Life, TriCare
                                                                                                                      Al Kut
                    SPECIAL OPERATIONS
                                                               X
                                                                                                     Al Hillah
                                                                                                                                                                      Reform, Retired Pay Reform, the 4.1 percent general
                    FORCES                                                                                                              Al Amarah
                                                               SF                     Al Nasiriyah
                                                                                                                 XX
                                                                                                                                   XX                                 pay increase, and additional pay increases have all
                    Army         2,400
                                                                                                                                                                      contributed to the well-being needs of our people.
                                                       5th SF GROUP                   An Najaf
                                                                                                          1st MEF              UK DIV                                 Army voluntary education programs additionally are
                          Saudi Arabia                                                                                                              ARMY FORCES
                                                                                                 As Samayah                                                           improving our combat readiness by enhancing the
                                                                                                                                                      KUWAIT
                                                                                                                                                       34,000         skills, knowledge, and aptitude of our Soldiers,
                                                                                                                               IT Bde                                 producing confident, competent leaders. The
                                                                                                                                                XXXX
                                                                                                            NE Bn                                                     underpinning philosophy of Well-Being, however, is
                                                                                                                                               CJFLCC
                                                                                                                                                                      that we recruit Soldiers but retain families. Knowing
                Operation Iraqi Freedom                                                                                                                 Kuwait City
                                                                                                                                                                      that their families are properly cared for, Soldiers can
                                                                                                                                                Kuwait
                Disposition of Forces, as of September 30, 2003
                                                                                                                                                                      better focus on their mission: to train for, fight, and
                                                                                                                                                                      win our nation’s wars.




                   6 Fiscal Year 2003 Army Annual Financial Statement
03GeneralFund12-15.qxd   12/15/2003     4:40 PM     Page 7




              Readiness                                                Special Forces group is operating in the west. We
              Readiness is the watchword of the Army. The events       have in addition 34,000 troops based in Kuwait.
              of September 11, 2001, changed utterly the landscape
              in which we live and work. Today we have more than       Back home, the Army is heavily committed to the
              368,000 Soldiers deployed around the world. From         Homeland Security effort. Our anti-terrorist role
              combat operations in Iraq and Afghanistan, to            within the United States is to support the civil
              peacekeeping missions in Kosovo, Bosnia, and the         authorities through Operation Noble Eagle, which has
              Sinai, to security operations at home, our Soldiers      mobilized more than 16,000 National Guard Soldiers
              must remain vigilant at all times to the changing        to protect critical infrastructure, notably airports, and
              world around them.                                       to help secure the country’s borders. We additionally
                                                                       assist in providing security for major public events: in
              Our primary focus is Iraq, where Army personnel          January 2003, for example, Soldiers were assigned to
              account for 133,300 of the overall U.S. force of         guard key infrastructure sites during Super Bowl
              156,400 men and women. Our coalition allies,             XXXVII.
              primarily the United Kingdom but increasingly, with
              forces arriving from countries such as Italy and the    Under the mandate of the National Defense
              Netherlands, a multinational group, provide a further   Authorization Act, the Army is creating Civil Support
              12,400 people.                                          Teams that will be assigned one to each state. The
                                                                      responsibilities of these teams will include identifying
              Figure 4 illustrates our force disposition in Iraq.     chemical, biological, radiological, nuclear, and
              Security in the central corridor, including Baghdad, is explosive (CBRNE) agents and substances, assessing
              the responsibility of the 1st Armored Division, the     the consequences of threatened or actual attack,
                                                                      advising on response measures, and assisting with
              2nd Armored Cavalry Regiment, and the 2nd Brigade
                                                                      requests for additional support. The Office of the
              of the 82nd Airborne Division. To the west is based
                                                                      Secretary of Defense has certified 30 of 32 teams, and
              the 3rd Infantry Division and, toward the Syrian and
                                                                      the Army is working to establish the 18 other required
              Jordanian borders, the 3rd Armored Cavalry              teams. Collectively, the certified teams have
              Regiment. The large area of operations north of         performed 890 operational missions since September
              Baghdad is the responsibility of the 4th Infantry       11, 2001. In addition to these measures taken in
              Division, assisted by the 173rd Airborne Brigade and support of Homeland Security, the Army has assigned
              supported in the Syrian, Iranian, and Turkish border    dedicated groups of both active and Reserve
              regions by the 101st Airborne Division Air Assault.     component personnel to training, doctrine and                An infantryman scans the Caribbean Sea while conducting a dismounted
                                                                                                                                   patrol of the Camp Delta perimeter in Guantanamo Bay, Cuba. The Soldier
              The southern sector of Iraq is controlled by the 1st    planning efforts, and the execution of DoD missions          is assigned to Company C, 1st Battalion, 181st Infantry Regiment, 29th
                                                                                                                                   Infantry Division, Massachusetts Army National Guard. Photo courtesy of
              Marine Expeditionary Force and the U.K. division. A in support of the civil authorities.                             the Department of Defense.



                                                                                                                                                                               General Fund 7
03GeneralFund12-15.qxd        12/15/2003            4:40 PM         Page 8




                                                                                             We are also heavily committed to force protection    multinational, and interagency operations, FM 7-0 is
                                                                                             measures, for the Army as well as for other arms of  the capstone doctrinal manual for Army training and
                                                                                             the military. In February 2003, more than 8,000 Army leader development. It provides the developmental
                                                                                             National Guard Soldiers supported Air Force security methodology for training competent, confident
                                                                                             efforts, a commitment that eventually could extend toSoldiers, and addresses both current and future
                                                                                             9,500 Soldiers. Securing the detention facilities andObjective Force training requirements. A DoD-
                                                                                             detainees at Guantanamo Bay additionally requires    sponsored program defines four major training
                                                                                                                                                  initiatives: building upon existing service
                                                                                             approximately 1,500 Army personnel, 50 percent of
                                                                                                                                                  interoperability training; linking component and Joint
                                                                                             whom are military police.
                                                                                                                                                  Chiefs of Staff (JCS) planning and execution;
                                                                                                                                                  enhancing existing joint training exercises to address
              Soldiers use an Avenger weapons system to fire a heat-seeking Stinger          Measures taken in FY 2003 to improve the Army’s
              missile during live-fire training at Pohakuloa Training Area in Hawaii. U.S.                                                        joint interoperability; and studying the requirement for
                                                                                             warfighting capability include the deployment of new
              Army photo by PFC. Cheryl Ransford.
                                                                                                                                                  dedicated joint training environments for functional
                                                                                             Ground Mobile Defense (GMD) assets, acceleration     warfighting and complex joint tasks. The Army hosted
                                                                                             of the fielding of the Patriot Advanced Capability 3 the first joint National Training Center (NTC) event at
                                                                                             (PAC3) system, and development of directed-energy Fort Irwin, CA, in May 2003, and the U.S. Army
                                                                                             weapons. We were scheduled to assume control of the Forces Command executed the second joint NTC
                                                                                             Medium Extended Air Defense System (MEADS)           event, JCS exercise Roving Sands, in June.
                                                                                             program in FY 2003, with the goal of fielding it by
                                                                                             FY 2012. MEADS is a transformational program of      Transformation
                                                                                             Objective Force quality and is a significant         The Army Transformation program is fundamentally
                                                                                             improvement—being both more accurate and more        changing the way that we fight. Our ultimate goal, as
                                                                                             sustainable—on the Patriot system. Capable of        embodied in the Objective Force, is to build a joint
                                                                                             transportation by C130 aircraft, MEADS covers a      precision maneuver capability that will enable us to
                                                                                             360-degree radius compared to Patriot’s 120 degrees, enter any theater of operations at the time and place of
                                                                                             is effective against low-radar, cross-section cruise our choosing, to maneuver at will to gain positional
                                                                                             missile targets, and requires only 30 percent of     advantage, to deliver precise joint fire, and, if
                                                                                             Patriot’s manpower.                                  necessary, to close with and destroy the enemy.

                                                                                             A key element of Army Transformation will be the        The Objective Force is an army that has been
                                                                                             transformation of Soldier training. In October 2002,    designed from the bottom up around the Command,
                                                                                             the Army released Field Manual (FM) 7-0, Training       Control, Communications, Computers, Intelligence,
                                                                                             the Force. Updated along with other field manuals and   Surveillance, and Reconnaissance (C4ISR)
                                                                                             publications to respond to changes in Army, joint,      architecture. This single, integrated network will link

                 8 Fiscal Year 2003 Army Annual Financial Statement
03GeneralFund12-15.qxd   12/15/2003      4:40 PM    Page 9




              us to joint, interagency, and multinational forces. The  Concept Development and Experimentation (CD&E)             General Fund Performance Results: Creating
              Objective Force will be a rapidly deployable mounted     Task Force that seeks to ensure that Army efforts are      a Cost Culture While Mitigating Risk
              formation, seamlessly integrated into the Joint Force    synchronized with those of the Joint Force. The            In 2003, the Army financial management community
              and capable of delivering victory across the spectrum    Army’s Title 10 Wargame, cohosted by Commander,            took the first steps toward creating a true cost culture.
              of military operations. It will be the world’s most      Joint Forces Command, this year focused on the Joint
              strategically relevant landpower, capable of decisive                                                               In creating this new mindset, all financial managers
                                                                       Force that will fight the next battle. Linked to Joint     must bear in mind six questions.
              victory no matter the mission, no matter the threat,     Force Command’s Pinnacle Impact 03 experiment, the
              and no matter the risks.                                 wargame was conducted within the context of a future       1. How much do we have?
                                                                       global scenario and the emerging Joint Operations
              To help guide Transformation, the Army is leveraging                                                                2. How well are we keeping track of spending what
              the lessons learned from extensive experimentation       Concept. Underlining the significance of these
                                                                                                                                     we already have?
              and wargaming. The Army’s annual Title 10                exercises, their funding was almost twice that of the
                                                                                                                                  3. How can we get better value out of what we are
              Wargames, for example, provide critical insights that FY 2002 wargame.
                                                                                                                                     spending?
              help guide the development of the Objective Force.
              The results of joint experiments such as Millennium      The Objective Force will leverage the most                 4. How can we produce more for less?
              Challenge 2002 and the Title 10 Wargames of other        sophisticated technology and equipment available;
                                                                                                                                  5. How much will we need for the future?
              services, including Global Engagement, Navy Global, however, in the final analysis its combat power will
              and Expeditionary Warrior, also inform these efforts. depend on the individual Soldier, his warfighting             6. How do we measure the results of our efforts?
                                                                       skills, situational curiosity, and awareness. It is the
                                                                                                                                  In developing a cost culture, the Army faces the
              The Army is commited more than ever to joint             Soldier’s ability to discern and to think, his ingenuity
                                                                                                                                  challenge of changing how we think about our money.
              experimentation as a means of examining and              and resourcefulness, endurance, perseverance, and just
                                                                                                                                  Our people have to understand why they should care
              assessing the potential Objective Force contribution at plain grit that make him the most reliable weapon in
                                                                                                                                  about preserving, protecting, and defending every
              the strategic, operational, and tactical levels of joint our inventory. Soldiers, as they always have been, are
                                                                                                                                  dollar that the U.S. Army receives. The Army must
              warfare. Accordingly we are fully engaged in a joint the centerpiece of our formations.
                                                                                                                                  turn everyone’s focus away from just looking at cold
                                                                                                                                  hard numbers on spreadsheets and budgets that track
                                                                                                                                  billions of dollars. Instead we must ingrain in their
                                                                                                                                  minds that the value of each and every dollar is no
                                                                                                                                  less real than the dollar that they would spend on their
                                                                                                                                  own mortgage, car, or coffee every day. This effort is
                                                                                                                                  intertwined with objectively measuring our results and
                                                                                                                                  realizing that we must find more economical ways to
                                                                                                                                  operate—even if that means removing programs that
                                                                                                                                  are not achieving established performance measures.

                                                                                                                                                                      General Fund 9
03GeneralFund12-15.qxd         12/15/2003            4:40 PM      Page 10




              Table 1. Performance Metric: DoD Ratings on the                              The cost culture effort is actually born out of the      DoD level (OSD plans to begin breaking it down
              President’s Management Agenda (PMA)                                          Government Performance and Results Act (GPRA) of         quarterly by service in 2004).
                            Strategic                                                      1993, which first mandated performance management
                            management
                            of human   Competitive   Financial  E-
                                                                             Budget and
                                                                             performance   for the services. GPRA seeks to improve government-      The PMA identifies five initiatives (see Table 1)
               Initiative   captial    sourcing      management government   integration   wide program effectiveness, government                   designed to improve management and service to our
               FY 2003
               Status
                                Y            R           R           R           Y         accountability, and ultimately public confidence by      citizens. The President initiated this process in an
               1st Qtr                                                                     requiring federal agencies to identify measurable        effort to address deficiencies and expand
               FY 2003          G            Y           G           G           G         annual performance goals against which actual            performance. This is not just a requirement for DoD,
               Progress
               1st Qtr                                                                     achievements can be compared. Additionally, each         but all federal departments and agencies. The
               FY 2003          Y            R           R           R           Y         agency is required to submit a comprehensive             President has charged the Office of Management and
               Status
                                                                                           strategic plan that identifies its major goals and       Budget (OMB) with monitoring progress and
               2nd Qtr
                                                                                           objectives. The DoD Strategic Plan is defined in the     reporting to him quarterly.
               FY 2003          G            Y           G           G           G
               Progress                                                                    Quadrennial Defense Review (QDR) of September
               2nd Qtr
                                                                                           2001, which established a four-dimensional risk          The status (initial or current state) and progress
               FY 2003
               Status
                                Y            Y           R           R           Y
                                                                                           framework designed to ensure that DoD is                 (efforts toward achieving the goal) of departments and
               3rd Qtr                                                                     appropriately sized, shaped, postured, and committed.    agencies in implementing the PMA (in each of the
               FY 2003          G            Y           G           G           G         In support of the risk management framework, the         five initiatives) are measured using a “stoplight”
               Progress
               3rd Qtr                                                                     Army has identified a series of performance measures     metric. “Green” indicates that the organization meets
               FY 2003          Y            Y           R           R           Y         to enable the assessment of progress in key              all core criteria; “yellow” indicates that it meets some
               Status
               4th Qtr                                                                     performance areas toward the accomplishment of           but not all core criteria, with no “red” conditions; and
               FY 2003
                                                                                           DoD policy goals. These performance measures,            “red” indicates that it meets any one “red” condition.
                                G            Y           G           G           G
               Progress                                                                    which are described in the following section, serve as   The Executive Branch Scorecard depicts how well a
               4th Qtr
                                                                                           a guide for the senior Army leadership in making the     department or agency is executing the management
               Legend: R=red;Y=yellow; G=green.
                                                                                           decisions that will assure its future readiness.         initiatives and where it scores at a given point in time
                                                                                                                                                    against the overall standards for success.
                                                                                           The President’s Management Agenda
                                                                                           Army Performance Management efforts start at a     Performance Results: By embracing transformation
                                                                                           high level with the President’s Management Agenda as our primary organizational mission, the Defense
                                                                                           (PMA).                                             Department is making every effort to implement
                                                                                                                                              policies and procedures that accentuate efficiency and
                                                                                           Metric Description. The Army is a key player in    sound management principles DoD-wide. We are
                                                                                           DoD’s portion of the PMA. The report was first     confident this will be reflected positively as we
                                                                                           introduced in summer 2001 and is only available at progress through each fiscal year.

                  10 Fiscal Year 2003 Army Annual Financial Statement
03GeneralFund12-15.qxd    12/15/2003     4:40 PM     Page 11




              Following is a brief description of each initiative and     2002. The plan for the modernization effort has      Further information on the President’s Management
              effort the Army has undertaken to date toward               been briefed to OMB and received a “green”           Agenda is available at Results.gov.
              successful implementation of the PMA:                       progress rating.
                                                                                                                               DoD Risk Management Dimensions
                  Human Capital. The Department has developed             E-Government. Of the 25 initiatives identified by
                                                                          the President’s Management Council, 17 involve       Following the September 2001 QDR, DoD developed
                  a Human Resource Strategy that has been briefed                                                              a four-dimensional risk assessment framework to
                  to the Senior Executive Council, the Director of        DoD activities. The Department is exploring the
                                                                          possibility of taking an active leadership role in   enable it to evaluate tradeoffs between fundamental
                  the Office of Personnel Management, and
                                                                          nine of those initiatives. In conjunction with       objectives that have been made unavoidable by
                  representatives of OMB. The Department has
                                                                          OMB, the Department will improve management          resource constraints. Using this framework, DoD
                  also forwarded a Workforce Restructuring Plan to
                                                                          processes relating to the creation and description   addresses the issues associated with developing and
                  OMB, describing our organizational plans to
                  meet workforce needs and redirect resources from        of business cases for information technology (IT)    evaluating the operational force, its infrastructure, and
                  Headquarters to direct service. For its tremendous      initiatives. The Assistant Secretary of Defense      key enabling capabilities. The Army, working with
                  efforts on this initiative, as of the 4th Quarter, FY   (Command, Control, Communications, and               DoD, has codified performance measures that align
                  2002, the Department received a score of                Intelligence) is also working closely with OMB       with the four QDR “Risk Areas” and then expressed
                  “yellow” on status and “green” on progress.             on other scorecard elements such as the              these measures in what has become the Secretary of
                                                                          enterprise architecture, business cases (Form 300    Defense’s (SECDEF) Instrument Panel. Each measure
                  Competitive Sourcing. DoD has a competition             reports) for IT investments and IT security. The     is supported by a quantifiable output. Further, the
                  goal of 226,000 positions. The Department will          Department received a “green” score on its E-        measures that make up the SECDEF’s Instrument
                  meet the OMB immediate goal of competing 15             Government progress.                                 panel are addressed in the current Annual Defense
                  percent of these positions by FY 2003. The                                                                   Report (ADR).
                  remaining positions will be reviewed with a focus       Budget and Performance Integration. The
                  on the core competencies of the Department. The         Under Secretary of Defense (Comptroller) is          The Army’s ability to respond quickly anywhere in
                  Business Initiatives Council is overseeing this         overseeing a Department-wide effort to identify      the world is a direct result of its commitment to
                  process. Currently, this initiative stands at           meaningful performance metrics for use in            maintaining readiness. The readiness we enjoy today
                  “yellow” on progress from OMB.                          managing and justifying program resources. This      is in turn a direct result of many years of investment
                  Financial Management. The Office of the                 effort will begin with the identification of         in high-quality people, training, doctrine, force mix,
                  Secretary of Defense established a Financial            additional metrics for use in developing the FY      modernization, and leader development. The
                  Management Modernization Program Office to              2004 President’s budget. Additional efforts are      following performance measures ensure that the Army
                  oversee development of a DoD-wide financial             underway to integrate performance metrics into       maintains ready forces, properly supplied, with the
                  enterprise architecture. The Department plans to        all phases of the Department’s Planning,             ability to respond to any crisis, to shape the
                  use a major technical support contract for a 1-         Programming, and Budgeting System. The               international environment and to protect America’s
                  year effort to produce the architecture and a           Department’s score currently stands at “green” on    citizens, interests, and friends whenever and wherever
                  transition plan; the contract was awarded April         progress.                                            needed.

                                                                                                                                                                 General Fund 11
03GeneralFund12-15.qxd        12/15/2003             4:40 PM         Page 12




              Table 2. Enlisted Recruiting                                                   Risk Area: Force Management                                    Performance Measure: Active Component Enlisted
               FY 2001                  FY 2001      FY 2002              FY 2003            The primary mission of Army personnel management               Retention Rates
                                         Actual       Actual
                                                                                             is to put the right person with the right skills in the        Metric: Army retention goals have been fluctuating
                                                                     Goal         Actual
                                                                                             right place at the right time. As it strives to fulfill this   for almost a decade, as the Army has moved toward
               Active Army                75,855        79,585       73,800         74,132
                                                                                             mission it finds itself asking more of a smaller force,        the force reduction targets made at the end of the Cold
               National Guard             61,956        63,251       62,000         84,202
                                                                                             making it imperative that it have the best people              War. The draw-down is now effectively over, and
               Army Reserve               42,097        41,697       37,900         39,223
                                                                                             available to perform our duties while making it more           personnel levels are stabilizing. Retention rates are
                                                                                             flexible. No amount of technical superiority will              based on required staffing in each pay grade; unlike
                                                                                             enable the Army to respond to its future challenges if         the other services, the Army has historically managed
                                                                                             it fails to maintain the quality of its personnel by not       retention by setting firm numeric targets for the
                                                                                             making the investments necessary to develop them to            number of personnel expected to reenlist.
                                                                                             their full potential. Recruiting and training the best
                                                                                             Soldiers, officers, and civilians in the proper mix of         Performance Results: Table 3 shows that for FY
                                                                                             specialties and grade levels requires an adequate              2003 the Army exceeded its retention goals for both
                                                                                             compensation package, sufficient medical care and              first and second-term Soldiers. The Army’s successes
              Tomorrow’s Soldiers participated in a basic training exercise at Fort Sill,    retirement programs, and opportunities for career              can be attributed to great leadership at all levels of
              Oklahoma. Basic training is 9 weeks of grueling discipline.
                                                                                             advancement. The Army accordingly is committed to              command and Soldiers’ willingness to serve in a time
              Table 3. Active Component Enlisted Retention Rates                             providing adequate funding to recruit, train, and retain       of war. Additionally, the Army used re-enlistment
               FY 2001                    FY 2001 FY 2002                 FY 2003            our personnel to congressionally mandated strength             incentives such as bonuses to help entice Soldiers who
                                                                                             and quality standards. The following performance               were undecided as to whether to continue their career
                                                                     Goal        Actual
                                                                                             measures assist us in tracking our progress toward             in the military.
               First-Term Soldiers          20,000      19,433       19,821        21,838
                                                                                             ensuring that it meets the needs of Soldiers.
               Second-Term Soldiers         23,727      23,074       18,422        19,509
                                                                                                                                                     Performance Measure: Component End Strength
                                                                                             Performance Measure: Enlisted Recruiting                Metric: Component end-strength authorizations are
                                                                                             Metric: Enlisted recruiting represents the projected    set forth in the National Defense Authorization Act for
                                                                                             number of new personnel needed each year to             the fiscal year. Components are compelled to budget
                                                                                             maintain statutorily defined military end strengths and and execute to that end strength by the end of the
                                                                                             the proper distribution by rank.                        fiscal year. The component actual end strength for
                                                                                                                                                     each quarter will be evaluated against the authorized
                                                                                             Performance Result: Due to the ongoing war              end strengths for that fiscal year.
                                                                                             against terrorism, all components were allowed to
                                                                                             exceed their recruiting goals for FY 2003, as shown Performance Results: In his Declaration of National
              Members of the U.S. Military Academy-West Point Class of 2003 take
              their oath during graduation exercises May 31, 2003.                           in Table 2.                                             Emergency by Reason of Certain Terrorist Threats,

                 12 Fiscal Year 2003 Army Annual Financial Statement
03GeneralFund12-15.qxd   12/15/2003     4:40 PM     Page 13




              the President, among other things, waived the end-       measure of the success of any individual personnel        Table 4. Component End Strength
              strength requirement during the time of national         program or benefit. For example, additional benefit       FY 2001                   FY 2001 FY 2002                 FY 2003
                                                                                                                                                            Actual  Actual
              emergency. Components, however, have been directed       costs do not indicate successful use of recruitment or                                                    Authorized        Actual
              to attempt to meet the 2 percentage criterion, though    retention incentives. Even increased recruitment          Active Army               480,801 486,542          480,000          503,600
              exceptions are authorized based on the operational       bonus or retention allowance payment amounts would        Percentage over/               0%         1%              N/A           5%
              situation. In FY 2003, the Army Reserve provided         only measure usage rates, not the change in               (under) authorization
              more than 15 million man-days in support of various      recruitment or retention based on payment of the          Army National             351,829 351,078          350,000          351,091
                                                                                                                                 Guard
              Army Missions to include Enduring Freedom, Noble         incentive.
                                                                                                                                 Percentage over/               0%         0%              N/A          >1%
              Eagle, and Joint Endeavor. All these missions require                                                              (under) authorization
              boots on the ground, and the Army Reserve was able to    Performance Results: The OPM report will not be           Army Reserve              206,892 206,682          205,000          211,890
              meet and slightly exceed its peacetime authorization.    published until December 2003.                            Percentage over/               0%         1%              N/A           3%
                                                                                                                                 (under) authorization

              During FY 2003, the Army waived the end strength         Risk Area: Operational
              and exceeded their goal, as displayed in Table 4.                                                                  Table 5. Civilian Force Costs
                                                                       The Army needs to manage its forces such that they
                                                                                                                                                                FY 2003         FY 2004          FY 2005
              Dependent on world circumstances, the active Army        are appropriately sized to accomplish both near-term                                      Actuala        Projected        Projected
              plans to reach authorized end strength by 1st Quarter,   war-fighting tasks and small-scale contingencies. The     Base Pay                      $11,207,423 $11,040,656 $11,555,611
              FY 2005 in compliance with statutes and strength         metrics used in the past to assess readiness were         Benefit Pay                     2,871,463       2,873,518        3,005,987
              reporting procedures.                                    designed and evaluated against a narrow set of
                                                                                                                                 Separation Pay                      44206          56,008            65,079
                                                                       military missions and associated tasks. With the
              Performance Measure: Civilian Force Costs                nation now facing a broader range of threat, the          Total                         $14,123,092 $13,970,182 $14,626,677

                                                                       measurement of operational risk must be expanded to           FY 2003 from Data Component Summary of PB 2004-2005
                                                                                                                                 a

              Metric: Civilian force costs are currently being
              reported annually to the Office of Personnel             reflect the full range of capabilities that U.S. forces
              Management (OPM) in a Work Years and Personnel           must possess and the additional missions that they
              Costs Report (WYPC) aggregated at the DoD level.         must perform. The following performance measures
              Reports are required on three forms: Basic and           accordingly are designed to assess the Army’s
                                                                       capability to meet the expanded role our nation’s
              Premium Work Years and Pay, Cost of Employees’
                                                                       military forces must now play.
              Benefits, and Leave Earned and Used. Work years and
              cost data identify the various components of basic       Performance Measure: Flying Hours
              pay, premium pay, benefits, separation incentive pay,    Metric: Number of aircraft flying hours per month,
              and severance pay for federal civilian employment.       including training and maintenance activities, required
                                                                                                                                 A Soldier of the 101st Airborne Division’s 159th Aviation Brigade guides a
              This metric can be used to provide a broad overview      for active, Army Reserve, and National Guard              UH-60 Blackhawk helicopter ambulance to a landing during a medical
                                                                                                                                 evacuation training mission near Mosul, Iraq. U.S. Army photo by Spc.
              of civilian compensation costs. It is not an effective   components to maintain pilot and crew proficiency.        Kieran Moore.




                                                                                                                                                                             General Fund 13
03GeneralFund12-15.qxd           12/15/2003               4:41 PM          Page 14




              Table 6. Flying Hours                                                                     Performance Results: Table 6 shows that during FY         future. The attacks of September 2001 made that
               FY 2001                       FY 2001 FY 2002                    FY 2003                 2003, the Total Army executed 97.5 percent of its         clear. Nor can America predict with confidence which
                                                                                                        flying hour program. Though Operation Iraqi               adversaries will pose threats. The types of military
                                                                           Goal          Actual
                                                                                                        Freedom influenced actual execution, two MACOMs           capabilities that will be used to challenge U.S.
               Active                              13.1         13.1           14.5           15.1
                                                                                                        that did not participate in Operation Iraqi Freedom,      interests and military forces can, however, be
               Army Reserve                         8.9           8.9           9.0               5.3
                                                                                                        United States Army Pacific (USARPAC) and Eighth           identified and understood. Future adversaries will
               National Guard                       5.9           6.6           8.4               7.5
                                                                                                        United States Army (EUSA-Korea), both executed            seek to attack America where it is vulnerable, using
               Note: The active Army converted to Crew OPTEMPO in FY 2000 to meet the
               requirements of the Aviation Restructure Initiative (ARI), which increased the           their complete programs.                                  asymmetric approaches such as electronic terrorism
               number of aviators in combat units from a 1-to-1 aircraft-to-crew ratio to 1-to-
               1.23.                                                                                                                                              and attacks against domestic infrastructure.
                                                                                                        Performance Measure: Number of Tank Miles
                                                                                                        per Year                                                  It is clear that the Army must shift from a threat-based
                                                                                                        Metric: Tank miles represents the average level of        to a capabilities-based paradigm. When assessing the
                                                                                                        peacetime activity—including in-field training,           risk of future challenges, it can no longer focus on
                                                                                                        combat simulations, and equipment maintenance—            extant threats of military engagement, but must
                                                                                                        needed to achieve wartime proficiency standards, as       address its capability to meet potential new
                                                                                                        defined by Army doctrine.                                 challenges. The absence of a current, immediate threat
                                                                                                                                                                  is not justification to disregard a technology that could
                                                                                                        Performance Results: Overall during FY 2003, the          overcome that; on the contrary, introducing
                                                                                                        Army executed 110.6 percent of its total program.         technology early both furnishes a military advantage
                                                                                                        Operation Iraqi Freedom significantly influenced          and may dissuade a potential adversary from pursuing
                                                                                                        execution; however, training time was lost as             a similar capability.
                                                                                                        equipment was deployed to and from Operation Iraqi
              An M-1 tank from the 3rd Infantry Division fires during an exercise at
              Udairi Range Complex in Kuwait.                                                           Freedom. Actual tank miles executed are shown in          How do we know we are transforming? We must
                                                                                                        Table 7.                                                  observe how the culture is changing—how things are
              Table 7. Number of Tank Miles per Year                                                                                                              done differently from the past and what must we
               FY 2001                       FY 2001 FY 2002                    FY 2003
                                                                                                        Risk Area: Future Challenges                              accomplish next.
                                                                                                        Since 9/11 the Army has fought and won two major
                                                                           Goal          Actual
                                                                                                        campaigns. Despite the upheavals of the last decade,      Performance Measure: Successful Completion of
               Active                               787          944           933          1,071
                                                                                                        the U.S. Army has conducted all of its operations         Operational Test and Evaluation Events
               National Guard                       113          123           177                154
                                                                                                        successfully. Nonetheless, we must change in order to     Metric: The Army’s test and evaluation programs aim
               FY 2002 was first year of new reporting methodology reflecting both live and
                                                                                                                                                                  to ensure that all forces are provided with weapons
               a

              virtual miles.                                                                            take advantage of emerging technologies. We cannot
              b
                Composite average of all National Guard units, including annual mileage for             take future success for granted or assume that no other   systems and equipment that are effective and suitable
              ARNG Divisions and Enhanced Brigades.
                                                                                                        nation or group will attempt to challenge it in the       for the missions they are designed to accomplish. In

                   14 Fiscal Year 2003 Army Annual Financial Statement
03GeneralFund12-15.qxd     12/15/2003       4:41 PM       Page 15




              the future, combat systems will be increasingly                  combat forces, which are becoming more agile and                    Table 8. Successful Completion of Operational Test and
                                                                               capable, the Army’s goal is to produce an increasingly              Evaluation Events
              interoperable and interdependent. New systems
              entering service will have to function effectively not           responsive support structure. Some of the specific                  FY 2001               FY 2001 FY 2002           FY 2003

              only with other systems in the U.S. inventory but also           types and areas of infrastructure change are financial                                                          Goal      Actual
              with weaponry and equipment operated by allied and               management, public-private sector competitions, and                 Percentage of OT&E       100%      100%      100%         98%
                                                                               the disposal of excess property.                                    events successfully
              coalition forces. The increased complexity of modern                                                                                 completed
              warfare will demand rigorous operational assessments
                                                                               Army financial systems are transitioning to a cost
              and testing throughout the acquisition cycle. The                culture that maximizes each dollar spent. This cost
              purpose of these assessments is to ascertain as quickly          culture strives to better understand how overhead and
              as possible how a new system or technology will                  indirect costs directly affect military capabilities.
                                                                                                                                                  Table 9. Public Private Sector Competitions
              perform from an operational perspective.
                                                                      Performance Measure: Public-Private Sector                  FY 2001                     FY 2001 FY 2002                     FY 2003
              Performance Results: The Army established a goal        Competitions                                                                                                           Goal         Actual
              to successfully complete 62 Operational Test and        Metric: As part of its efforts to reduce infrastructure,    Number of positions              5,115         2,646         3,576        9,756
              Evaluation Events for FY 2003. During FY 2003, the the Army conducts regular reviews of various                     subject to A-76
                                                                                                                                  competitions or
              Army completed 61 of these operational test events, functions and their associated billets. As a result of          strategic sourcing
              or 98 percent, as shown in Table 8. The one event that these reviews, some functions are retained in-house,         reviews

              was not completed was Authorized Stockage List          others are outsourced, and others are re-engineered.
              Mobility System (ASLMS); this operational test event
                                                                                                                                Table 10. Disposal of Excess Property
              was spilled due to unit availability. Given the current Performance Results: The goal for this year was to
              world situation and demands on Army units, we           review 3,576 billets. The Army was able to exceed          FY 2001                   FY 2001 FY 2002
                                                                                                                                                            Actual          Actual
                                                                                                                                                                                                 FY 2003

              believe this may happen to a greater extent in FY       this goal by over two-fold, as displayed in Table 9.                                                                  Goal         Actual
              2004. The Army is exploring any and all options to
                                                                                                                                 BRAC Excess                135,310         125,854          38,682        38,632
              minimize this situation.                                Performance Measure: Disposal of Excess Property Acreage Remaining
                                                                      Metric: The maintenance of excess property is              for Disposal                1




              Risk Area: Institutional                                wasteful of scarce military resources. Disposal of such BRAC       Acres
                                                                                                                                 Disposed of During
                                                                                                                                                              65,940            8,016 100,000            100,955

              The Army, along with all U.S. military forces and       property frees up funds that can be applied to force       the Fiscal Year                 2



              operations, is changing dramatically in response to     modernization   and readiness.                             BRAC $K spent             $278,092 $167,814 $172,309 $164,028
                                                                                                                                 during FY
              resource constraints and advances in technology.                                                                     The acreage numbers reported for FY 2001 and FY 2002 changed due to land
                                                                                                                                                   1

              Effecting changes in the way the Army conducts its      Performance Results: For FY 2003 (see Table 10),           surveys that became available after the printing of the FY 2002 annual financial
                                                                                                                                 statements.
              support operations will require that business processes although ACSIM continued to dispose of excess
                                                                                                                                   The acreage disposed numbers for FY 2001 and FY 2002 changed since the
                                                                                                                                                   2

              also be transformed in order to achieve the most        property at a high rate, it did miss the targeted goal of FY 2002 annual financial statements is the result of BRAC being a multi-year
                                                                                                                                 appropriation.
              efficient support operations possible. Much like the    $172,309 thousand.


                                                                                                                                                                                        General Fund 15
03GeneralFund12-15.qxd         12/15/2003      4:41 PM   Page 16




                                                                             Performance Measure: Percentage of Paperless              transactions within the end-to-end electronic
                                                                             Transactions                                              procurement system, which will more accurately
                                                                             Metric: The Army is committed to employing                reflect the current definition of electronic commerce.
                                                                             contemporary information technology and
                                                                             commercial best practices to reinvent its contracting     Performance Measure: Fund to a 67-Year
                                                                             processes. Contracting, and particularly contracting      Recapitalization Rate by 2007
                                                                             related to high-cost weapon systems, consumes a           Metric: The facilities recapitalization metric (FRM) is
                                                                             large portion of the defense budget and employs a         a performance indicator that measures the rate at
                                                                             significant portion of the Army workforce. Over time,     which an inventory of facilities is being recapitalized.
                                                                             paperless contracting will contribute to a reduction in   The term “recapitalization” means to restore or
                                                                             acquisition cycle times and to the streamlining of the    modernize facilities. Recapitalization may (or may
                                                                             acquisition workforce.                                    not) involve total replacement of individual facilities;
                                                                                                                                       recapitalization often occurs incrementally over time
                                                                             The Defense Reform Initiative (DRI) set the goal that     without a complete replacement.
                                                                             90 percent of selected transactions be performed
                                                                             electronically by FY 2000, and The National            The performance goal for FRM equals the average
                                                                             Partnership for Reinventing Government (NPR)           expected service life (ESL) of the facilities inventory
                                                                             additionally set the goal of reducing by 50 percent the(estimated to be 67 years, based on benchmarks
                                                                             number of paper-based transactions performed in FY     developed by a panel of Defense engineers in 1997).
                                                                             2000 from the FY 1997 baseline.                        The ESL, in turn, is a function of facilities
                                                                                                                                    sustainment. “Sustainment” means routine
              Table 11. Percentage of Paperless Transactions                 Performance Results: In previous years, the data       maintenance and repair necessary to achieve the ESL.
               FY 2001                FY 2001 FY 2002        FY 2003         collections involved manual methods and included       To compute a normal ESL, full sustainment levels
                                       Actual  Actual
                                                                             data transmitted by facsimiles, emails, form flow, as  must be assumed. A reduced ESL results from less
                                                         Goal      Actual
               DRI Goals
                                                                             well as data captured through electronic systems. The than full sustainment. For this reason, the metrics for
                                                                             FY 2003 data collection, shown in Table 11, includes facilities recapitalization and facilities sustainment are
               Purchase requests         93%      94%      90%         69%
                                                                             only data captured through electronic means. The data unavoidably linked and should be considered together.
               Funding documents         93%      94%      90%         69%
                                                                             contained in the report was obtained from directly
               Solicitations             98%      98%      90%         36%
                                                                             extracting data transacted through the Army electronic Sustainment levels required to achieve a normal ESL
               Awards/Modifications      95%      94%      90%         61%
               NPR Goal
                                                                             contract writing systems (Procurement Automated        are benchmarked to commercial per unit costs; for
               Total electronic          95%      95%      90%         59%
                                                                             Data & Document Systems [PADDS] and Standard           example, $1.89 per square foot annually is needed to
               contracting and                                               Procurement System [SPS]). This report will be         properly sustain the aircraft maintenance hangar
               payment transactions
                                                                             rebaselined in FY 2004 to account for only             inventory for a 50-year life cycle. The facilities

                 16 Fiscal Year 2003 Army Annual Financial Statement
03GeneralFund12-15.qxd   12/15/2003      4:41 PM     Page 17




              sustainment model (FSM) adjusts these costs to local      and FY 2003 budgets (see Table 12). Although                Table 12. Funding Recapitalization Rate
              areas and assigns the costs to DoD components and         performance as measured by the budgeted                     FY 2001                       FY 2001 FY 2002               FY 2003
              funding sources.                                          recapitalization and sustainment rates improved from                                       Actual  Actual
                                                                                                                                                                                            Goal      Actual
                                                                        FY 2001 levels, the targets (67-year recapitalization
                                                                                                                                    Facilities                           NA           NA     122.6        104.2
              The recapitalization rate—measured by FRM in              rate and full sustainment) were not achieved in either      recapitalization metric-
              years—is compared to service life benchmarks for          budget. As a result of not achieving full sustainment       FRM (years)

              various types of facilities. For example, the ESL of a levels, the theoretical service life of the inventories        Facilities sustainment
                                                                                                                                    model-FSM (percent)
                                                                                                                                                                         NA       76.4%     93.6%         73.2%

              pier is 75 years, and the ESL of a dental clinic is 50    (67 years) suffered another incremental reduction. As                                                      (O&M
                                                                                                                                                                                    only)
                                                                                                                                                                                             (O&M
                                                                                                                                                                                              only)
              years (provided the facilities are fully sustained during a result of not achieving a 67-year recapitalization        * FSM did not exist in FY 2001; this is an estimate.
              that time). The average of all the ESL benchmarks,        rate, obsolescence in the facilities inventories
              weighted by the value of the facilities represented by increased incrementally. The cumulative and
              each benchmark, is 67 years. Weighting is required to compounding effect of these shortfalls in measured by
              normalize the ESL. For example, without weighting, the number of C-3 and C-4 facilities reported in the
              50 years is the ESL of a hypothetical inventory           Department’s readiness reports (68 percent of facility
              consisting of administrative buildings (75-year ESL) classes are reported as having serious deficiencies that
              and fences (25-year ESL). But fences are insignificant adversely impact mission performance).
              compared to administrative buildings—DoD has $22
              billion worth of administrative buildings, but only $3 Because of the way these metrics are constructed, the
              billion worth of fences and related structures—and        underperforming results of FY 2002 and FY 2003 do
              should not have equal weight. The ESL of this             not directly affect the sustainment and recapitalization
              hypothetical inventory when weighted by plant             performance targets for FY 2004. The goal for
              replacement value is 68 years, not 50 years.              sustainment remains full sustainment; a 7 percent
                                                                        shortfall in programmed sustainment in FY 2003
              For evaluating planned performance, both metrics          cannot be offset with 7 percent overage in FY 2004.
              (FSM and FRM) are converted to dollars (annual            The interim goal for recapitalization remains 67 years,
              funding requirements) and compared to funded              even though past performance has already reduced the
              programs in the DoD Future Years Defense Program service life of the facilities inventory. The direct effect
              (FYDP). Both metrics can also be used to measure          of undersustainment and underrecapitalization is
              executed performance.                                     captured in the accelerated recapitalization rate that is
                                                                        required to restore readiness to at least C-2 status by
              Performance Results: Shortfalls in facilities             2010.
              recapitalization (and associated sustainment) were
              considered in development of the amended FY 2002

                                                                                                                                                                                      General Fund 17
03GeneralFund12-15.qxd          12/15/2003               4:41 PM        Page 18




                                                                                                    Performance Measure: Eliminate Inadequate                 financial arrangements between prospective
                                                                                                    Family Housing by 2007                                    contractors and their financial lenders can change.
                                                                                                    Metric: The Secretary of Defense has established a        This would cancel a project and return inadequate
                                                                                                    goal to eliminate all inadequate family housing by the    inventory to the fiscal year, thereby skewing targets.
                                                                                                    end of FY 2007. Each Military Service has developed       See Table 13 for actual results.
                                                                                                    a Family Housing Master Plan that outlines the
                                                                                                    approach it will follow to achieve this long-term goal.   Performance Measure: Reduce Customer Wait
                                                                                                    These plans identify the program requirements, by         Time (days)
              Improved housing shows our commitment to all Soldiers and their
                                                                                                    year, to eliminate inadequate family housing by FY        Metric: Customer Wait Time (CWT) measures the
              families.                                                                             2007.                                                     elapsed time from order to receipt when a customer
                                                                                                                                                              orders an item of material. The customer’s order may
                                                                                                    Inadequate housing, in general, is any unit that          be filled from assets on hand at the customer’s
              Table 13. Inadequate Housing Units                                                    requires a major repair, component upgrade,
                                                                                                                                                              military installation or naval vessel, or through the
                                                                                                    component replacement, or total upgrade. Each
               FY 2001                      FY 2001 FY 2002                   FY 2003                                                                         wholesale logistics system. For purposes of this
                                             Actual  Actual                                         service has evaluated its housing and identified
                                                                                                                                                              enterprise-level metric, CWT includes orders for spare
                                                                         Goal         Actual        inadequate units. Each service has then developed a
               Number of inadequate            71,606       51,298          N/A*        38,041      plan to eliminate this inadequate housing through a       and repair parts ordered by organizational
               family housing units
                                                                                                    combination of traditional military construction,         maintenance activities.
               Percentage of total                66%         52%           N/A*              41%
               family housing units                                                                 operations and maintenance support, and
                                                                                                    privatization.                                          Performance Results: Reporting of CWT began in
               * Interim targets have not been established because housing privatization
               negotiations often change the scope of projects, making targets impractical.                                                                 FY 2001. The Army set a reduction target of one day
                                                                                                    Performance Results: The Department reduced             per year for FY 2002, FY 2003, and FY 2004 from
                                                                                                    inadequate family housing through revitalization,       the baseline of FY 2001 actual data. FY 2002 actual
                                                                                                    demolition, and privatization. Interim targets have not of 16 days exceeded the target of 17 days. The
              Table 14. Customer Wait Time                                                                                                                  number of days actually increased in FY 2003 (see
                                                                                                    been established because housing privatization
               FY 2001                      FY 2001 FY 2002                   FY 2003               negotiations often change the scope of projects,        Table 14) due to the global war on terror. Although
                                                                         Goal         Actual        making targets impractical. Further, the housing        supplies of material matched the needs of the force,
               Customer wait time                   18           16             16             21   privatization process takes over a year to complete,    the increase in time reflects a problem with
               (days)
                                                                                                    and during this time, varying economic conditions and distribution due to the sheer volume of material.




                 18 Fiscal Year 2003 Army Annual Financial Statement
03GeneralFund12-15.qxd    12/15/2003       4:41 PM      Page 19




              Management Integrity                                         Weaknesses Identified during FY 2003                     of Reserve component Soldiers and units as they
              The Army’s approach to assuring management control           The Army identified three new management control         progress through the mobilization pipeline. Of
              and integrity is anchored in the fundamental                 weaknesses during FY 2003. The following sections        particular concern is the tracking of Reserve personnel
              philosophy that all commanders and managers have             provide a brief description of each weakness and the     from home station to mobilization station to duty
              an inherent management control responsibility. The           target date for correction.                              station, through deployment, redeployment, and
              Headquarters Department of the Army (HQDA) (the                                                                       demobilization or release from active duty. This
              Integrating Subsystem) functional proponents are             Financial Reporting of Real Property                     challenge is further complicated for personnel in a
              responsible for establishing sound management                The Army’s real property databases do not allow for      medical hold status who remain classified as active
              controls in their policy directives and for exercising       depreciation, and subsequent entries in dollar values    duty according to original Headquarters Department
              oversight to ensure compliance with these policies.          override previous dollar values with no audit trail of   of Army mobilization orders even after
              Commanders and managers throughout the Army are              transactions.                                            demobilization of the parent unit.
              responsible for establishing and maintaining the
              control and integrity of their operations.                   The attempt to interface the Defense Property            Improper use of Derivative Unit Identified Costs has
                                                                           Accounting System (DPAS) with the Installation           further exacerbated force tracking. Limitations
              In the 20 reporting years since the inception of the         Facilities System (IFS) did not work for real property   imposed by the use of dual military pay systems (the
              Army’s management control process, Army                      financial statement reporting. Data mismatches and       Defense Joint Military Pay System—Active
              commanders and managers have reported 1,343                  negative numbers from IFS were not allowed in            Component and Defense Joint Military Pay System—
              material weaknesses to the Secretary. These were the         DPAS, resulting in dollar values being overridden and    Reserve Component) also impair the accountability of
              weaknesses remaining after a filtering and value-            audit trails being lost. The decision was made to        mobilized personnel.
              added reporting process from line managers up                discontinue the DPAS interface and to modify IFS to
              through each higher echelon of management. After             calculate depreciation and run financial reports         The target date to correct this weakness is the 4th
              aggregating similar problems and weeding out lesser
                                                                           directly from each site. In October 2002, the Army       Quarter, FY 2004.
              issues, the Army reported 230 new material
                                                                           requested a waiver from OSD to permit it to modify
              weaknesses to DoD. Only 13 of these remain open.
                                                                           IFS to process and capture financial statement           Contract Administration of Service Contracts
              The following is the status of the material weakness:
                                                                           information. The OSD approval was received in May        The U.S. Army Audit Agency (USAAA) has
                                                                           2003. The target date for correction of this weakness    identified a significant weakness in the administering
              Open material weaknesses at September 30, 2002 . . . 10
                                                                           is the 4th Quarter, FY 2004.                             of service contracts. Service contracts represent an
              Plus: New material weaknesses identified in FY 2003 . 3
              Less: Material weaknesses corrected in FY 2003 . . . . . 0                                                            ever-increasing percentage of overall contract dollars
              Open material weaknesses at September 30, 2003 . . . 13      Reserve Component Mobilization Accountability            and have surpassed the dollars awarded under major
                                                                           There is a lack of synchronization among automated       weapons system programs.
              The following section identifies and provides a              management tools that is necessary to ensure Reserve
              summary of the three new material weaknesses                 component mobilization accountability. Interagency       Significant audit findings include ineffective planning
              identified during FY 2003.                                   and management controls must allow for the tracking      for quality assurance requirements. Although

                                                                                                                                                                      General Fund 19
03GeneralFund12-15.qxd       12/15/2003          4:41 PM        Page 20




                                                                                      contracting officers generally have appointed            prevented this from happening. The following
                                                                                      personnel to undertake quality assurance evaluations     sections provide a brief description of each weakness
                                                                                      of contracts, they often have not made clear the         and the target date for correction.
                                                                                      responsibilities and limitations of authority of these
                                                                                      evaluators. They typically also have failed to ensure    Financial Reporting of General Equipment
                                                                                      that the evaluators are properly versed in quality       The Army does not yet meet the financial reporting
                                                                                      assurance procedures and that they understand            requirements for general equipment because it cannot
                                                                                      specific contract requirements.                          yet present the historical cost and depreciation of
              Combat engineers from the 671st Engineer Company, an Army Reserve                                                                those assets in its financial statements. While the
              unit from Portland, Oregon, patrol the Tigris River in Baghdad, Iraq.
                                                                                      There furthermore exists an overall lack of              Army has physical control over these assets, the
                                                                                      surveillance planning, resulting in lack of a systematic absence of any requirement that its original property
                                                                                      inspection system and ineffective documentation of       accountability systems provide for proprietary
                                                                                      contract performance. Proper quality assurance           accounting means that historical costs and
                                                                                      procedures require that the surveillance plans serve as depreciation expenses were not maintained by those
                                                                                      roadmaps for monitoring contractor performance. This systems.
                                                                                      is critical to the establishment of strong internal
                                                                                      controls that would ensure that the Army receives        To meet the requirements of this standard, the Army
                                                                                      value for its service-contracting dollar. Due in part to implemented the Defense Property Accountability
                                                                                      the lack of documentation, procedures for validating System (DPAS), a Chief Financial Officer Act-
                                                                                      and approving contractor invoices sometimes are not compliant system for reporting real property and
                                                                                      properly defined.                                        general equipment. DPAS will replace or interface
                                                                                                                                               with existing noncompliant systems and bring the
                                                                                      Several Major Army Commands (MACOMs) have Army into compliance with Federal Accounting
                                                                                      actions ongoing to improve various aspects of            Standards.
                                                                                      contracting administration. These actions are steps
                                                                                      in the right direction, but an overall strategy for      Failure to meet this standard for financial reporting
                                                                                      administering contracts is needed. The current           does not mean that the Army lacks accountability of
                                                                                      target date to correct this weakness is the 4th          its property. However, the Army’s inability to identify
                                                                                      Quarter, FY 2004.                                        an item’s acquisition date and cost prevents the
                                                                                                                                               computation of depreciation and the determination of
                                                                                      Previously Reported Weaknesses                           value for financial reporting. This inability to
                                                                                      The Army reported three weaknesses last year that it accurately report the financial value of real property
                                                                                      had expected to close during FY 2003. Various factors and general equipment in turn has been a major factor

                 20 Fiscal Year 2003 Army Annual Financial Statement
03GeneralFund12-15.qxd   12/15/2003      4:41 PM    Page 21




              in the Army’s failure to obtain an unqualified audit  past been attacked and penetrated by unauthorized         Future Effects of Existing Conditions
              opinion on its annual financial statements.           personnel. The Army responded to these attacks with       Force Management Risk
                                                                    measures to identify them; with incident response and
              This material weakness has been restructured to treat containment and the implementation of                     Critical to Transformation is the need to determine the
              separately the general equipment and real property                                                              mix of civilian, military, and contractor personnel that
                                                                    countermeasures; and with Information Systems
              portions. In FY 2002, the Army completed fielding of Security (INFOSEC) education, training, awareness,         will best assure the Army’s success. This
              DPAS that should resolve the problems associated                                                                determination must include an assessment of core
                                                                    and professional development. Base information            competencies across the full spectrum of military
              with the financial reporting of general equipment. We systems and networks have been found nonetheless to
              intend to close this material weakness by the 2nd                                                               operations. As the Army seeks to increase its “tooth-
                                                                    be highly vulnerable to malicious attack. This places     to-tail” ratio, it must carefully weigh the important
              Quarter, FY 2004, after the USAAA has validated the
                                                                    at risk the decisiveness, effectiveness, and potential    roles played by combat support and combat service
              effectiveness of our corrective actions.
                                                                    safety of the warfighter: not only is the information     support personnel. There is a temptation to reduce the
              Army Purchase Card Program                            that is processed and transmitted throughout the          number of personnel that perform these roles in order
              The General Accounting Office (GAO) identified a      Army’s systems vulnerable to compromise and               to convert their positions to combat roles, but there
              lack of adherence by field activities to established  exploitation by hostile forces, but control of the        are some essential support positions that must be
              purchase card internal controls. Although no          information systems and networks themselves also          retained and filled by military personnel. Logistical
              substantial instances of fraud, waste, or abuse were  could be lost to hostile forces. Army INFOSEC policy      support to the troops in combat in particular must not
              identified, an environment existed that could have    and procedures for managing risk to our information       be compromised.
              easily fostered fraud. As a result, GAO has expanded systems, networks, and even our intelligent weapons
              the audit to include a review of the Army and other   systems clearly are outdated and must be brought into   While many support tasks can be outsourced, the
              DoD components.                                       line with evolving DoD and national practices.          Army must ensure that it can meet the demands of
                                                                                                                            “the last logistical mile.” In many instances, it would
              The Army has positively addressed every GAO             To correct these weaknesses, the Army has outlined in not be appropriate to rely on contractors or civilian
              finding regarding the Army Purchase Card Program. the Command and Control (C2) Protect Program                employees to perform these tasks. The Army must
              To correct this problem, the Office of the Assistant    Management Plan the measures that must be             therefore balance the economic gains of outsourcing
              Secretary of the Army (Acquisition, Logistics and       undertaken to ensure that the Army’s portion of the   against the need to ensure that the military force
              Technology) (OASA (AL&T)) has aggressively
                                                                      Defense Information Infrastructure is adequately      structure can deliver the necessary logistics on the
              sought to establish positive controls in those areas of
                                                                      protected. The C2 Protect Program Management Plan battlefield. Selecting the right structure for a force of
              weaknesses that have been found. The new target date
              for completion is the 1st Quarter, FY 2004.             is designed to manage and control the growth of C2    480,000 is a complex task involving many tradeoffs.
                                                                      Protect Initiatives, is in consonance with the Army   The challenge facing the Army is to determine
              Information Systems Security                            Enterprise Strategy, and supports the Defense         precisely the core competencies it requires to sustain
              The Army’s unclassified automated information           Information Warfare effort. The target date for       combat operations and to ensure that it retains the
              systems and telecommunications networks have in the correcting this weakness is the 2nd Quarter, FY 2005. right mix of combat and support troops.

                                                                                                                                                                General Fund 21
03GeneralFund12-15.qxd        12/15/2003          4:41 PM        Page 22




                                                                                         Operational Risk                                            Institutional Risk
                                                                                         The Army’s current force is very similar to that of the     The Army must make the best use of its resources in
                                                                                         Army that 12 years ago fought so decisively in Desert       its day-to-day operations. This requires that it
                                                                                         Storm. In the intervening years the nature of the threat    transform its business practices to improve its
                                                                                         facing America has evolved. The force that deployed         financial management and that it streamline its
                                                                                         in the first Gulf War was developed under a strategy        infrastructure.
                                                                                         that envisioned a scenario of two simultaneous major
                                                                                         regional conflicts. The 2001 terrorist attacks on           Business practices have in the last decade changed
              Soldiers board an awaiting CH-47 Chinook helicopter at Shkin Firebase in
              Afghanistan. U.S. Army photo by Spc. C. Elijah Spencer.
                                                                                         America introduced an enemy that would instead              fundamentally, leading to significantly greater
                                                                                         employ asymmetrical warfare to avoid our strengths          productivity, lower costs, and higher-quality outputs.
                                                                                         and attack our vulnerabilities. It is difficult to assess   The Army has not kept pace. To free up resources that
                                                                                         exactly what form future threats will take. As a            can be applied to the fielding of the Objective Force,
                                                                                         consequence, the Army has moved away from a                 we must transform how we do business. Many
                                                                                         threat-based force and is intent on building a              functional activities need to be examined and
                                                                                         capabilities-based force equipped to function across        improved, streamlined, or eliminated. This requires
                                                                                         the full spectrum of military operations.                   imagination and innovation.

                                                                                         Identified as the Objective Force, this new force will      It is essential to the effort to reduce costs and increase
                                                                                         fight in a noncontiguous manner and will be capable         productivity that Army leaders and managers be
                                                                                         of rapid deployment in a crisis to either fight or          supplied with reliable information. The Army’s
                                                                                         ideally to deter conflict. It will have the capability of   inability thus far to achieve an unqualified audit
                                                                                         being projected anywhere in the world—not just to           opinion on its financial statements indicates that the
                                                                                         easily accessible areas with multiple air and seaports,     information that our leaders are given is not reliable,
                                                                                         but also to remote, landlocked, and infrastructure-poor     with the result that Army resources are not being used
                                                                                         areas. The importance of this capability was                to their best effect. The Army estimates that 80
                                                                                         demonstrated in Afghanistan, where the rapid                percent of the data found in its financial systems
                                                                                         engagement of U.S. forces contrasted dramatically           comes from functional area systems such as logistics,
                                                                                         with the long build-up that preceded Desert Storm.          personnel, acquisition, and other systems. Realizing
                                                                                         Failure at this point to develop this capability to         the capability to deliver reliable information will
                                                                                         project sustainable combat power anywhere in the            require the integration of these functional
                                                                                         world—that is, failure to realize the Objective             management systems with financial management
                                                                                         Force—could leave America’s worldwide interests             systems. Until this is done, the Army will continue to
                                                                                         vulnerable to attack.                                       be at risk of suboptimizing its use of resources.

                 22 Fiscal Year 2003 Army Annual Financial Statement
03GeneralFund12-15.qxd   12/15/2003     4:41 PM   Page 23




              Advancing the President’s Management                        competitive sourcing and will benefit from the      “Government likes to begin
              Agenda                                                      financial and cost accounting and information
              The President’s Management Agenda provides a route
                                                                          systems that are part of the effort to realize      things—to declare grand new
                                                                          improved financial management.
              to greater efficiency and the means whereby the Army                                                            programs and causes. But good
              can identify the actions it must take to improve        In support of each of the five government-wide goals,
              management performance at all levels. In the same       Army Knowledge Management (AKM) has                     beginnings are not the measure
              way that the Army is reinventing itself as a fighting   established five supporting goals. Three of the AKM
              force, it is changing the way that it conducts the      goals support the Strategic Management of Human
                                                                                                                              of success. What matters in the
              business of supporting that force.                      Capital and the other two are more closely aligned      end is completion. Performance.
                                                                      with E-Government. The AKM goals are:
              The President’s agenda contains five government-                                                                Results. Not just making
              wide goals designed to improve federal management 1. Adopt governance and cultural changes to
              and to deliver results that matter to the American        become a knowledge-based organization                 promises, but making good on
              people. They reflect the Administration’s commitment      (Strategic Management of Human Capital)
              to achieve immediate, concrete, and measurable                                                                  promises.”
              results. The five goals, which are being pursued in    2. Integrate knowledge management concepts and
                                                                        best business practices to promote the                             —President George W. Bush
              advance of, not instead of, other necessary               knowledge-based force (Strategic Management of
              management improvements, are mutually reinforcing.        Human Capital)
              For example:
                                                                     3. Manage the infostructure as an enterprise to
                   Workforce planning and restructuring undertaken      enhance capabilities and efficiencies (E-
                   as part of the Strategic Management of Human         Government)
                   Capital will be defined in terms of each agency’s
                   mission, goals, and objectives—a key element of 4. Institutionalize Army Knowledge Online as the
                   Budget and Performance Integration.                  enterprise portal to provide universal, secure
                                                                        access for the entire Army (E-Government)
                   Agency restructuring is expected to incorporate
                   organizational and staffing changes resulting     5. Harness human capital for the knowledge-based
                   from Competitive Sourcing and Expanded E-            organization (Strategic Management of Human
                   Government.                                          Capital)

                  Efforts toward Budget and Performance               A description of how the Army is undertaking each of
                  Integration will reflect improved program           the five government-wide goals is contained in the
                  performance and savings achieved from               following sections.

                                                                                                                                                  General Fund 23
03GeneralFund12-15.qxd    12/15/2003       4:41 PM      Page 24




                                                                      Strategic Management of Human Capital                          Personnel System Transformation, and AKM
                                                                      A key element of successful personnel management is            Guidance Memo 4 (July 2003) implemented a
                                                                      providing people with information and trusting them            fully integrated logistics enterprise based on
                                                                      to use it to the benefit of the organization as a whole.       collaborative planning, knowledge management,
                                                                                                                                     and best business practices.
                                                                      The Army is taking steps to empower its Soldiers and
                                                                      civilian employees with greater knowledge.                     Phase I of the Army IM/IT Realignment Plan was
                                                                                                                                     approved in January 2002 as part of the overall
                                                                      Adopt governance and cultural changes to become a              HQDA realignment.
                                                                      knowledge-based organization:
                                                                                                                                     General Order 5 was signed in August 2002,
                                                                          The Army Chief Information Officer (CIO)                   establishing NETCOM. NETCOM was activated
                                                                          Executive Board was chartered and has met                  on October 1, 2002.
                                                                          quarterly since April 2001 to address enterprise
                                                                                                                                 Integrate knowledge management concepts and best
                                                                          issues and to provide information technology
                                                                                                                                 business practices to promote the knowledge-based
                                                                          oversight.                                             force:
                                                                          Army Regulation (AR) 25-1, Army Information
                                                                                                                                     Business Initiative Councils (BICs) have been
                                                                          Management, was revised in May 2002 to
                                                                                                                                     formed at the DoD and Army levels to develop,
                                                                          promulgate a minimum critical set of policies for
                                                                                                                                     review, and approve initiatives leading to the
                                                                          Army Knowledge Management (AKM), Army
                                                                                                                                     adoption of best business practices.
                                                                          Knowledge Online (AKO), and Common Access
                                                                          Cards and Public Key Infrastructure (CAC/PKI).             74 DoD and 64 Army BIC initiatives had been
                                                                          A complete update of AR 25-1 is being prepared             approved as of September 2003.
                                                                          for publication in 2004.
                                                                                                                                     Army Communities of Practice continue to be
                                                                          AKM Guidance Memo 1 (August 2001)                          established throughout the Army. In coordination
                                                                          established the five AKM goals, established the            with the Sergeant Major of the Army (SMA) and
                                                                          basic AKM requirements, and directed that                  several other Army organizations, a set of
                                                                          everyone have an AKO account. AKM Guidance                 Communities for Noncommissioned Officers
                                                                          Memo 2 (June 2002) directed additional server              (NCOs) is being launched to enable Soldiers with
                                                                          reductions of 30 percent by end-FY 2003 and a              common interests to find the information
                                                                          reduction of 50 percent in the inventory of Army           resources they need for mission accomplishment,
                                                                          application systems by end-FY 2004. AKM                    and to support the sharing of lessons learned with
                                                                          Guidance Memo 3 (March 2003) implemented                   others—especially junior personnel.


                24 Fiscal Year 2003 Army Annual Financial Statement
03GeneralFund12-15.qxd   12/15/2003    4:41 PM    Page 25




                  In conjunction with DoD’s Change Management             AKO has provided more than 1,500 computer-
                  Center (CMC), Project Exodus, a knowledge-              based IT and management training courses free
                  sharing pilot, was launched in an attempt to            of charge to Army personnel.
                  capture the unwritten knowledge that resides with
                  retiring acquisition leaders and to make this           The Signal Military Occupation Specialty (MOS)
                  knowledge available to future acquisition               training program has been shortened. The
                  professionals.                                          program, provided via the U.S. Army Signal
                                                                          Center’s University of Information Technology
              Harness human capital for the knowledge-based               (UIT) pilot, employs a combination of classroom
              organization:                                               instruction and distance learning. Traditional    Planned Fort Lewis Town Center RCI rendering.
                                                                          MOS training can entail up to a 13-week
                  The Army Knowledge Leaders Program, an                  residency; under the UIT pilot, 75 percent of
                  enhanced IT intern program for developing                                                                 Figure 5. Residential Communities Initiative: Current Plan
                                                                          students complete residential training in 7 weeks
                  IT/KM (Information Technology/Knowledge
                                                                          and 25 percent in 8 weeks.
                  Management) leaders, has been implemented and
                  placed under Army management.                                                                                Current Plan – 27 Projects
                                                                      Competitive Sourcing                                     72,632 Family Housing              Awarded CDMP Development
                  Six outstanding scholars entered the 2-year                                                                  Units                              – Transfer Date
                  program in September 2003, joining six who          Many of the tasks performed by government                >80% of U.S.-Owned Inventory       Presidio of Monterey-Naval P, CA - Oct 2003
                  started in October 2002.                            employees can be contracted out to the commercial                                           Fort Campbell, KY - Dec 2003
                                                                                                                               Transferred Operations             Fort Irwin-Moffett Fed AF-Cp Parks, CA - Jan 2004
                                                                      marketplace, often at savings in the range of 20 to      Fort Carson, CO - 1999             Fort Stewart-Hunter AAF, GA - Jan 2004
                  The 2003 class represents a highly accomplished     50 percent. The Army continues to seek savings by        Fort Hood, TX - 2001               Fort Belvoir, VA - Jan 2004
                  group: two are cum laude scholars, three magna                                                               Fort Lewis, WA - 2002              Fort Eustis-Monroe-Story, VA - Mar 2004
                                                                      outsourcing non-core functions; successful               Fort Meade, MD - 2002              Fort Hamilton, NY - May 2004
                  cum laude, and one summa cum laude. Two of                                                                                                      Fort Polk, LA - Jun 2004
                  the six are from ethnic minorities. The group is    outsourcing will also contribute to the efforts to       Fort Bragg, NC - 2003
                                                                                                                                                                  Walter Reed AMC, DC - Jun 2004

                  equally divided between men and women.              fully man combat units while preserving the              2003 Solicitations                 Fort Detrick, MD - Jun 2004
                                                                                                                               Fort Leonard Wood, MO              Fort Shafter / Schofield Barracks, HI - Nov 2004
                                                                      institutional Army.                                      Fort Sam Houston, TX                   2004 Solicitations
                  The KM Foundations course has been extended                                                                  Fort Bliss, TX                         Fort Benning, GA
                  to Army functional communities, including the       Residential Community Initiative                         Fort Drum, NY                          Fort Rucker, AL
                                                                                                                               Fort Monmouth-Picatinny Arsenal,       Fort Gordon, GA
                  personnel, logistics, medical, and librarian        In 1996, the Military Housing Privatization Initiative   NJ-Carlisle Barracks, PA               Fort Knox, KY
                  communities.                                        Act gave the military services the authority to seek                                            Fort Leavenworth, KS
                                                                                                                                                                      Redstone Arsenal, AL
                  A pilot IT Project Management training program      private sector capital and expertise to operate,
                  has been established. Training will be expanded     manage, maintain, improve, and build military
                  in FY 2004 to prepare for new IT Project            housing in the United States. As a result, the Army
                  Manager positions.                                  established the Residential Community Initiative


                                                                                                                                                                                   General Fund 25
03GeneralFund12-15.qxd    12/15/2003       4:41 PM      Page 26




              “GFPR contracting has shown                             (RCI) privatization program to address its $6 billion   run through FY 2006, at 10 locations. The contractors
                                                                      revitalization requirement. In conjunction with         will replace more than 350 noncommissioned officers,
              that, under appropriate                                 traditionally funded military construction and          who will be released for other duties.
                                                                      increased housing allowances, this privatization of
              conditions, the Army can avoid                          family housing under RCI is helping solve the Army’s    The contractors will put a premium on hiring veterans
                                                                      acute family housing problem.                           who are smart, energetic, and who have a recruiting
              more than 15 percent on                                                                                         background. They will be trained in enlistment
              environmental remediation                          RCI is dedicated to building high-quality residential        eligibility, enlistment incentives, and U.S. Army
                                                                 communities for Soldiers and their families. The             Recruiting Command policies and procedures. The
              costs, and significantly reduce                    initiative is built on partnerships with private sector      Army National Guard has been using civilian
                                                                 developers who have the expertise, innovation, and           contractors to successfully augment its recruiting
              cleanup timelines by up to 45                      willingness to work collaboratively with key                 efforts since 1999. If this test is successful, it could be
                                                                 stakeholders to make RCI a success. The program              expanded to return an even greater number of
              percent. These two                                 focuses on residential communities, rather than just         noncommissioned officers to the force.
                                                                 houses, and uses a Request for Qualifications (RFQ)
              characteristics make GFPR                          acquisition to attract suitable partners from the private Guaranteed Fixed-Price Remediation Contracts
                                                                 sector. The RFQ process reduces time and resource         Included as a provision in the FY 2003 National
              contracts more cost-effective                      costs for both the Army and the private developer.        Defense Authorization Act, Guaranteed Fixed-Price
              and more protective of human                       Twenty-seven RCI projects are now underway,
                                                                                                                           Remediation (GFPR) is a performance-based
                                                                                                                           contracting mechanism that obligates the contractor to
              health and the environment.”                       encompassing more than 72,000 homes and more than guarantee the fulfillment of an environmental
                                                                 80 percent of the Army’s U.S.-based family housing        remediation requirement (including regulatory site
                               —Major Paul B. Olsen, Executive inventory (see Figure 5).                                   closure). Approved by the Army Business Initiative
                                               Officer to DACSIM                                                           Council (ABIC) in May 2002 and subsequently by the
                                                                 Recruiting                                                DoD Business Initiative Council (BIC) on September
                                                                 The Army’s vision for readiness requires that all         4, 2002, GFPR is already returning cost and time
                                                                 combat units be fully staffed and that this be achieved savings to its users.
                                                                 without diminishing the Institutional Army. Army
                                                                 recruiters are a key part of the Institutional Army and The GFPR was implemented in FY 2003 as part of
                                                                 skilled noncommissioned officers traditionally have       the Army Active Sites Program. GFPR is one contract
                                                                 filled the recruiter position. Seeking a way to release mechanism in a suite of contract types utilizing
                                                                 skilled Soldiers from the Institutional Army, the Army performance-based contracting that allows the Army
                                                                 has awarded contracts to two civilian firms to perform to buy environmental cleanups for a fixed price and at
                                                                 the recruiting mission. This is a test program that will a set schedule. The Army maintains oversight of the

                26 Fiscal Year 2003 Army Annual Financial Statement
03GeneralFund12-15.qxd    12/15/2003     4:41 PM     Page 27




              cleanup and initially determines, in consultation with     based contracts. The GFPR contracts have proven to       scorecards for the Budget and Performance Integration
              the regulators, the desired performance objective for      be a positive way to protect human health and the        initiative. Beginning in February 2003, the Army
              each site, typically Response Complete or Remedy in        environment.                                             began receiving grades on its status and progress in:
              Place. These objectives are then described in a
              Statement of Objectives (SOO) or Performance Work                                                                       displaying the linkage of plans, outputs, and
                                                                         Improved Financial Performance                               resources in budget justification materials;
              Statement (PWS). The intent is to provide the bidders
              with sufficient information to allow them to develop       During FY 2003, the Army built upon a number of
                                                                         initiatives begun in FY 2002 that are designed to            expanding the treatment of metrics in the FY
              cost estimates that are in line with what the Army                                                                      2004 Congressional justification materials; and
              believes to be reasonable, while keeping the               enable better use of funds. The Army is also pursuing
              SOOs/PWSs general enough to provide bidders with           other long-term initiatives aimed at putting more            establishing a quarterly system of reporting on
              flexibility in approach. The remediation approach          useful and more reliable financial information in the        progress made toward the performance goals.
              implemented at each site will be affected by the           hands of managers, with the aim of enabling them to
              remediation phase existing at the time of contract         make more efficient use of resources.                  For FY 2003, the Army was required to associate
              award as well as other factors, including whether                                                                 performance metrics with at least 20 percent of the
              cleanup schedules and milestones are prescribed in a       Performance, Planning, and Budget Execution            resources requested each year (FY 2004-FY 2009).
              current Federal Facility Agreement, Permit, or             The initiative to integrate budget and performance has The Army met this requirement and is set to meet the
              Cleanup Decision Document.                                                                                        target set for the FY 2005 President’s Budget of
                                                                         an important purpose: to improve programs by
                                                                                                                                associating 60 percent of resources requested with the
                                                                         focusing on results. Dollars will go to programs that
              The initial investigation of GFPR, which ran from                                                                 relevant performance metric. This requirement rises to
                                                                         work; those programs that do not work will be          80 percent with the FY 2006 budget and 100 percent
              1999 to 2002, entailed the award by Forces                 reformed, constrained, or face closure. Ultimately,
              Command (FORSCOM) and Training and Doctrine                                                                       for FY 2007 and beyond. While the 100 percent
                                                                         funding will go primarily to those programs that yield association target will be a stretch, it is a goal of the
              Command (TRADOC) of nine GFPR contracts,                   the best results for each dollar spent.                Army’s financial transformation program.
              totaling $80 million. When compared to the estimated
              cost-based contracts, at least a 14 percent ($12.5         In FY 2002, the DoD adopted a DoD-wide approach          Joint Reconciliation Program
              million) savings has been realized. Besides cost           to establishing performance outputs and tracking         During the year of funds execution, the Army must
              savings, GFPRs also save time. Compared with the           performance results. This approach is based upon the     manage and account for all funds appropriated for
              original cleanup plans, GFPR timelines tend to be half     Secretary of Defense’s Risk Management Framework,        approved programs. The Joint Reconciliation Program
              as long. As the Army progresses with its GFPR              introduced in the DoD’s Report of the 2001               (JRP) assesses how well Army fund holders use their
              contracts it furthermore is streamlining the contracting   Quadrennial Defense Review (QDR). The QDR                allocated resources to achieve their program
              process and making it even more performance-based.         adapted the balanced scorecard concept to the DoD        objectives. In so doing, it strengthens the financial
              Contracts with Statements of Work averaging 60-100         and provided a management framework to help              accounting and management controls and helps to
              pages are being set aside for more agile SOOs or           defense managers balance investment priorities           ensure that the financial reports accurately reflect the
              PWSs as we become more familiar with performance-          against risk over time. The DoD developed supporting     results of budget execution.

                                                                                                                                                                    General Fund 27
03GeneralFund12-15.qxd    12/15/2003       4:41 PM      Page 28




                                                                      An effective JRP improves budget execution through       ensure near-term readiness, and transform itself for
                                                                      the identification of invalid obligations, in-course     the 21st century. The CFO Strategic Plan was
                                                                      corrections, and the application of harvested funds;     developed in recognition of the fact that high-quality
                                                                      eliminates the use of current funds to pay liabilities   financial information is one of the foundations upon
                                                                      arising from appropriations that will cancel; and        which the Army’s vision will be built. The CFO plan
                                                                      reconciles and recoups delinquent travel advances.       is an Army-wide management plan designed to
                                                                      The program also eliminates accounting anomalies         synchronize efforts across the Army’s functional areas
                                                                      such as unmatched disbursements and negative             to integrate processes and systems, while improving
                                                                      unliquidated obligations. It does this in part by        upon the quality of management information.
                                                                      leveraging the skills of those responsible for the
                                                                      different aspects of financial management, including     The plan involves 15 cross-functional Army
                                                                      accountants, budget and program analysts, contracting    organizational elements, as well as the Defense
                                                                      professionals, logisticians, and internal review         Finance and Accounting Service (DFAS), the OSD
                                                                      auditors. The JRP applies these collective skills to     (Comptroller), and the DoD Inspector General. Using
                                                                      verify the validity of unliquidated obligations,         a five-year planning horizon, the CFO Strategic Plan
                                                                      contractor work in process, billing status, and the      identifies the steps each organizational element must
                                                                      continuing need for goods and services not yet           take to fully integrate all financial and nonfinancial
                                                                      delivered.                                               processes and systems that impact Army resources.
                                                                                                                               The Army’s ability to produce high-quality financial
                                                                      In FY 2003, the Army Materiel Command achieved           information for reporting will provide the public with
                                                                      $0 for fifth year canceling accounts. The fourth year    greater confidence that the Army has accountability
                                                                      canceling account had a beginning balance of $195        over its resources. Achieving greater accountability
                                                                      million on October 1, 2002, and was reduced by 70        requires that all assets and liabilities, revenues and
                                                                      percent to a balance of $58 million on September 30,     expenses, and the full costs of programs and activities
                                                                      2003.                                                    be consistently, completely, and accurately recorded,
                                                                                                                               monitored, and reported.
                                                                      CFO Strategic Plan
                                                                      Army leaders, as they work to comply with myriad         The Army will use the latest technology to develop
                                                                      financial management mandates, must do so within         flexible, streamlined procedures and processes that
                                                                      the context of the Army vision. To successfully          will provide the type of information that will enable
                                                                      achieve this vision, the Army must have sufficient       sound decision-making. The financial management
                                                                      resources with which to take care of its Soldiers,       and functional communities are identifying


                28 Fiscal Year 2003 Army Annual Financial Statement
03GeneralFund12-15.qxd   12/15/2003     4:41 PM    Page 29




              unnecessary systems that may be eliminated and those enterprise to enhance capabilities and efficiencies:            Active Directory implementation, and
              essential systems that must be retained and brought                                                                  standardized desktop configurations. This
              into compliance with all statutory, regulatory, and         On  May   31, 2003,  the Information  Technology         alternative, while costing less, would enhance
              audit requirements. The DoD Business Management             E-Commerce     and  Commercial    Contracting            network security and configuration management.
              Modernization Program (BMMP) is also working                Center (ITEC4), in conjunction with Army
                                                                          CIO/G-6 and the Program Executive Office                 Army CIO/G-6 and NETCOM published various
              with the Army to identify these systems, to map
                                                                          Enterprise Information Systems (PEO EIS)/Army            documents in September 2003 to provide
              processes, and to determine an optimal architecture
                                                                          Small Computer Program (ASCP), awarded a                 guidance on server consolidation and Windows
              for the future. The CFO Strategic Plan will in this way                                                              2003 Active Directory implementation. Overseas
                                                                          six-year enterprise license agreement for
              assist in the coordination and execution of Army                                                                     commands, the Army Medical Command, and the
                                                                          Microsoft products to Softmart Government
              efforts in support of BMMP initiatives.                     Services, Inc. This agreement consolidates the           United States Military Academy are actively
                                                                          purchase and licensing of all Microsoft Office           pursuing server consolidation, coupled with
              By effectively integrating the financial processes and      and server software for all active Army, Army            Active Directory migration.
              systems with the many other functional processes and        Reserves, and National Guard.
              systems that impact on a commander’s resources, we                                                                   Army CIO/G-6 has developed a comprehensive
              can provide our commanders with relevant and reliable       On September 12, 2003, ITEC4, in conjunction             list of standard baseline services (telephone,
              information on the availability of funds. With this         with the PEO EIS/Army Small Computer                     email, visual information, and network security)
              information, commanders will be better positioned to        Program,   awarded   four commercial   item,             that the Director of Information Management will
              accurately assess their ability to train and maintain their indefinite delivery, indefinite quantity contracts       provide to all installation tenants once approved
              forces and will be better able to articulate to the chain   for Information Technology Enterprise Solutions.         and funded by the Army. A Service-Level
              of command the financial costs and benefits associated      This contract has a 3-year base period with two,         Management Plan and supporting Concept of
                                                                          2-year option  periods  to support the Army              Operations is under development to describe the
              with the options available to them.
                                                                          enterprise infostructure (servers, workstations,         methodology and processes the Army will use to
                                                                          storage systems, and network equipment) and              ensure delivery of services.
              Expanded Electronic Government
                                                                          related services (site surveys, installation,
              The President’s Management Agenda asserts that,                                                                 Institutionalize Army Knowledge Online (AKO) as
                                                                          maintenance, and asset management).
              through electronic means, government can both                                                                   the enterprise portal to provide universal, secure
              reduce costs and provide better service. The Army           PEO EIS, in conjunction with the Army CIO/G- access for the entire Army:
              accordingly is pursuing two e-Government focused            6, completed an Army-wide Business Case
              AKM Goals along with a number of other key                  Analysis (BCA), using a representative sample of         AKO accounts across the Army have increased in
              initiatives aimed at providing better service to its        Army organizations, to determine the total cost of       number from 160,000 (August 2001) to 1.5
              soldiers and civilian employees.                            ownership for providing core information                 million (September 2003). AKO-S accounts
                                                                          technology services. The recommended                     increased from 1,600 to 47,600 over the same
              AKM Goals:                                                  alternative supports regional server consolidation,      period. An AKO Configuration Control Board
              Manage the Army [e-Government] infostructure as an          enterprise systems management, Windows 2003              has been chartered by the CIO Executive Board

                                                                                                                                                              General Fund 29
03GeneralFund12-15.qxd    12/15/2003       4:41 PM      Page 30




              “I consider Military Paper                              to guide the future development of AKO as   Military Paper Check Conversion
                                                                      requirements and technology evolve.         Started as a test with the U.S. Treasury Department,
              Check Conversion to be one of                                                                       the Military Paper Check Conversion (MPCC)
                                                              Numerous self-service features have been added program has become an essential tool in the Army’s
              the top e-commerce initiatives to               to AKO. These include immunization status,          electronic commerce program, enabling the Army and
                                                              dental readiness, HIV/DNA status, Office
                                                                                                                  its finance offices to notify customers of returned
              benefit the Army’s Finance                      Military Personnel File viewing, alerts to Soldiers
                                                                                                                  checks within two days, in contrast to the previous
                                                              on college loan repayment deadlines, temporary
              Corps since the Vietnam era! It                 duty pay status, date of last physical, and
                                                                                                                  delay of two weeks to three months. In addition, the
                                                              promotion boards.                                   MPCC process reduces the labor-intensive check
              is a true benefit to our civilians,                                                                 processing process.
                                                              Additional self-service features planned include
              employees, and Soldiers serving                 women’s health screening, pre- and post             The system uses a scanner to read the routing
                                                              deployment surveys, TriCare appointments,           information and account number at the bottom of each
              in overseas locations.”                         prescription refills, discussions, workflow, white check. The amount is then transferred electronically
                                                              boarding, collaboration, and web/e-mail             from the customer’s account to the finance office.
              — Juan DeJesus, U.S. ARMY contact for MPCC      improvements with calendar implementation.          Since March 2003, cashiers in Army finance offices
                                                                                                                  worldwide have been making digital images of
                                                              A Knowledge Collaboration Center also has been
                                                                                                                  checks, handing back to the customer the locally
                                                              established on AKO to enable communities
                                                                                                                  cancelled original as a receipt. The digital check
                                                              throughout the Army to post and share
                                                              information pertaining to their mission areas.      information is routed to the customer’s bank, and the
                                                                                                                  image of the check is stored locally for reference,
                                                         Key Army e-Government Initiatives:                       should questions arise in the future. This conversion
                                                         Eagle Cash                                               of paper check information into a digital format saves
                                                         The Eagle Cash Card, which has been used in Bosnia time and processing costs while reducing the losses
                                                         since 1999, has now been introduced also at Camps        incurred by bad checks.
                                                         Bondsteel, Monteith, and Able Sentry for Soldiers in
                                                         Kosovo. The DoD and Department of the Treasury           The MPCC process is being used in Belgium,
                                                         have established the cash card to increase the use by    Germany, the Netherlands, Italy, Bosnia, Macedonia,
                                                         U.S. military personnel of local currency, and to        Kosovo, Kuwait, Qatar, and Korea, and in two DFAS
                                                         discourage the use in theater of the U.S. dollar. The    sites in Honduras and Afghanistan. Through May
                                                         cash card additionally reduces paperwork and the         2003, Army finance offices have processed 241,000
                                                         resources that are necessary to process transactions,    personal checks, valued at $103 million, with a 99.7
                                                         saving both time and money.                              percent success rate for first-time processing. As the

                30 Fiscal Year 2003 Army Annual Financial Statement
03GeneralFund12-15.qxd   12/15/2003     4:41 PM    Page 31




              Army progresses with financial transformation the       tasks such as password registration, the reporting of
              intention is to adopt MPCC as the Army standard at      queries, and account review. From the rebate
              home as well as abroad.                                 perspective, the program reduces the average number
                                                                      of days required for payment. On average, payments
              U.S. Purchase Card Program                              made on purchase card accounts are required within
              Since its initial implementation in calendar year 1998, 31 days; under the CARE program this time falls to an
              the U.S. Purchase Card Program has allowed the          average of 8 days. This decrease in days to pay thus
              Army and other DoD agencies to procure goods and increases the amount of rebates the Army receives as a
              services using the purchasing card rather than being    result of prompt payment: actual rebates have risen
              invoiced for purchases. The program requires that       from 0.5 percent to 1 percent of sales, resulting in a
              general purchases at or below $2,500 and training                                                                  Metrics for FY 2003
                                                                      projected annual Army-wide rebate in excess of $17.6
              expenses up to $25,000 be purchased using the card,                                                                           FY 2003 Army Purchase Card Usage
                                                                      million. The savings continue with the decrease in
              thus eliminating the need for DFAS to process invoice                                                                                Fiscal Year thru 30 Aug 03     Thru 3rd QTR -
                                                                      payment costs, or the cost that the Army incurs in                                                              Jun 03
              payments. This has eliminated on an annual basis
                                                                      making billing payments. With the automation of the        Agency          Sales             Transactions   Rebates
              more than 4.6 million commercial invoice payments.
                                                                      CARE program, the bill from DFAS will fall from its        Army             $2,405,840,285      4,147,823      $4,757,294
              At the heart of the program is the Customer
                                                                      current $18 per line of accounting to only $6 per line
              Automation and Reporting Environment (CARE).
                                                                      of accounting-a 67 percent reduction in accounting
              CARE essentially eliminates the administrative tasks
                                                                      costs.
              of the program, instead automating them in a secure
              Internet environment.                                   Budget and Performance Integration
              The program returns savings in three forms: internal,   Improvements in the management of human capital,
              purchase rebates, and a decrease in payment costs.      competitive sourcing, improved financial
              Internally, the program reduces the costs associated    performance, and expanded electronic government
              with the administrative efforts of the agency program   will matter little if these advances are not linked to
              coordinators, billing officials, and cardholders. The   better results. Clearly, scarce federal resources should
              program allows users to register and helps them         be allocated to those programs and managers that
              maintain their accounts through the automation of       deliver results.




                                                                                                                                                                      General Fund 31
03GeneralFund12-15.qxd    12/15/2003       4:41 PM      Page 32




                                                                      Learn More about America’s Army
                                                                             http://www.army.mil




                32 Fiscal Year 2003 Army Annual Financial Statement
03WorkingCapital12-12.qxd   12/12/2003   5:29 PM   Page A




                                                            (Trim 4” from Right Side)
03WorkingCapital12-12.qxd   12/12/2003   5:29 PM   Page B




                                                            Management Discussion and Analysis . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

                                                            Working Capital Fund - Performance Measures . . . . . . . . . . . . . . . . . . . . . . 38

                                                                       Supply Management, Army . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 40

                                                                       Depot Maintenance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 43

                 (Trim 4” from Left Side)                              Ordnance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49

                                                                       Information Services . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 54



                                                            Management Integrity . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 56



                                                            Future Effects of Existing Conditions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 56



                                                            Advancing the President’s Management Agenda . . . . . . . . . . . . . . . . . . . . . . 57
03WorkingCapital12-12.qxd    12/12/2003     5:29 PM     Page 33




              Management Discussion and Analysis                      the relationship between the operating forces and the
                                                                      support organizations is that of customer and provider.



                                                                                                                                 2003
              The Army Working Capital Fund (AWCF) is part of
              the Defense Working Capital Fund, established by the As a provider, the AWCF activity above all must
              Secretary of Defense under the authority of Title 10,   serve the needs of its most important customers, the
              U.S. Code, Section 2208. Section 2208 allows for the operating forces, and it must do so while observing
              establishment of working capital funds to finance       the obligation to control or reduce costs. AWCF
                                                                                                                                  The United States Army
              inventories and provide working capital for industrial- managers accordingly are charged with satisfying
              type activities that provide common services within or their customer requirements within cost goals
                                                                                                                                  Army Working Capital Fund
              among the departments and agencies of the               established in their budgets. In part, and where
              Department of Defense (DoD).                            appropriate, managers do this through the adaptation
                                                                      and application to Army support functions of private
              The AWCF is divided into four activity groups:          sector best practices.
              Supply Management, Army; Depot Maintenance;
              Ordnance; and Information Services (see Figure 6).      The public and private sector are not perfectly
                                                                      analogous, however. It is not acceptable that critical
              The Army Materiel Command (AMC) exercises
                                                                      Army operations be susceptible to short-term price
              command and control over the activity groups through
                                                                      fluctuations, for example. The AWCF activities
              one or more of its six major subordinate commands.
                                                                      therefore provide mission-critical support at rates that
              AMC in turn reports activities to the Deputy Chief of remain stable during the year of execution, regardless
              Staff, G-4 and to the Assistant Secretary of the Army of cost changes at source. This prevents the operating
              (Financial Management and Comptroller)                  forces from having to reduce their readiness programs
              (ASA(FM&C)). A DoD corporate board additionally should prices rise above anticipated levels. The
              maintains oversight of AWCF functions.                  AWCF activities also maintain a surge capability to
                                                                      provide extraordinary supply or other support should
              Mission                                                 mobilization conditions require. Finally, and
              The overarching goal of the AWCF is to promote          regardless of whether it is performed internally or
              Army readiness by assuring the agility and              contracted out, all AWCF work is undertaken to
              sustainability of Army support systems. In essence,     standard specifications, without compromise.




                                                                                                                                                           33
03WorkingCapital12-12.qxd                 12/12/2003                   5:29 PM               Page 34




              Figure 6. AWCF Organizational Chart                                                           How the AWCF Works                                         The Activity Groups
                                                                                                            The AWCF uses a revolving fund structure, named for        Supply Management, Army
                                          DoD Corporate Board                                               the cyclical nature of the cash flow in and out of the     The Supply Management, Army (SMA) activity
                                                                                                            fund. Activities price their goods and services such       group buys and maintains assigned stocks of materiel
                                                   ASA (FM&C)                                               that the sale of those goods and services recovers the     for sale to its customers, primarily Army operating
                                                       G-4                                                  total cost incurred in providing them; the income from
                                                                                                                                                                       units. The constant availability of this materiel is
                                                                                                            sales in turn is used to buy or replace inventory and to
                                                                                                                                                                       essential to equipment and operational readiness and
                                         Army Materiel Command                                              finance the delivery of future goods and services.
                                                                                                                                                                       to the warfighting readiness and abilities of Army
                                                                                                            The AWCF operates through a four-step process (see         units. In FY 2001, SMA underwent a major change
                                                                                                            Figure 7). First, Congress reviews the budget              with the implementation of the Single Stock Fund
                                             Supply                              Information
                                           Management                              Services                 submissions of AWCF customers, approves a budget           (SSF) initiative, which integrated the wholesale and
                                              Army                                                          for those customers, and appropriates to them the          command retail divisions. Under SSF, the wholesale
                                                    TACOM-RI
                                                                       CECOM
                                                                                                            approved funds. The customer next sends to an              division remains subdivided by commodity and is
                                          SBCCOM                                                            AWCF activity a funded order—essentially a fixed-          managed by major subordinate commands under
                    Ordnance
                                                                 AMCOM
                                                               TACOM-WN                                     price contract based on the work required and the          AMC. The command retail divisions no longer exist.
                                   OSC
                                                                            Depot                           AWCF rate for the goods and services. Third, the           Table 15 provides the breakdown of the wholesale
                                                                         Maintenance                        AWCF activity performs the work necessary to               subdivisions.
                                                                                                            produce the goods and services required, incurring
                                                                                                            costs as it does so. Finally, the activity invoices the  SMA recoups all costs related to the supply of goods
                                                                                                            customer per the funded order, thus recovering its       and services through a stabilized price system. The
              Figure 7. How the AWCF Operates                                                               costs and completing the funding cycle.
                                                                                                                                                                     stabilized price includes a surcharge to cover costs
                                                                                                                                                                     incurred through inventory loss, transportation,
                                            Bill               AWCF activity supplies                       The revolving fund concept enables AWCF managers
                                                                                                            to be flexible when acquiring the resources that they obsolescence, and inventory management supply
                                                               goods and services. The
               Congress                                        provider bills the customer

                                                                                                            need, but it also gives AWCF customers the freedom operations. The latter includes the cost of civilian
               approves the                                    and is paid.
               annual budget for
               the customers.
                                                                             AWCF activity:
                                                                                                            to evaluate prices and performance when deciding the labor and military personnel at supply activities, a
                       $
                                                                               Incurs Costs                 level of service that they will acquire. Taken together, portion of headquarters costs related to inventory
                                                                               Produces Goods or Services
                                                                               Buys Parts or Services.      these two factors serve as an incentive to AWCF          management, all costs incurred through the receipt
               Customer sends funded
               order to AWCF activity.
                                                                                                            managers to provide the highest-quality services at the and issue of Army-managed material at distribution
                                                                                                            lowest possible price.                                   points, and the depreciation of capital assets.
                                                          Project
                                                          Order




                  34 Fiscal Year 2003 Army Annual Financial Statement
03WorkingCapital12-12.qxd     12/12/2003      5:29 PM     Page 35




              Depot Maintenance                                                                                                            Table 16. Army Depots
              The Depot Maintenance activity group provides the                                                                            Major         Location             Activity Performed
                                                                                                                                           Subordinate
              Army with an organic industrial capability to repair,                                                                        Command
              overhaul, and upgrade weapons systems end items                                                                              TACOM         Anniston Army       Maintenance, overhaul, and
              and depot-level reparables. It also provides tenant                                                                                        Depot, Anniston, AL repair of heavy-tracked
                                                                                                                                                                             combat vehicles and artillery;
              support to Army and other DoD activities. Depot                                                                                                                provision of base support to
              maintenance activities both compete and partner with                                                                                                           tenants

              private industry as AWCF seeks to deliver goods and
                                                                                                                                           AMCOM         Corpus Christi Army Maintenance, repair, overhaul,
              services as efficiently and effectively as possible.  Abrams Tank Repair shop – Anniston Army Depot, AL.                                   Depot, Corpus       and upgrade of rotary wing
              There are five major depots in this activity group:                                                                                        Christi, TX         aircraft, engines, and
                                                                                                                                                                             components
              Anniston, Corpus Christi, Letterkenny, Red River, and Table 15. Supply Management, Army Activities
              Tobyhanna. The depots are managed by major             Major         Wholesale Subdivisions      Materiel Managed            AMCOM         Letterkenny Army     Maintenance, repair, and
              subordinate commands under AMC (see Table 16).         Subordinate                                                                         Depot,               overhaul of tactical missile
                                                                            Command                                                                      Chambersburg, PA     systems; provision of base
                                                                                                                                                                              support to tenants
              Ordnance                                                      AMCOM       U.S. Army Aviation and     Aircraft and aviation
                                                                                        Missile Command,           ground support items;
              The Ordnance activity group provides the Army with                        Huntsville, AL             missile system items
              an organic industrial capability to produce high-             CECOM       U.S. Army                  Communication and
                                                                                                                                           TACOM         Red River Army       Maintenance and repair of
                                                                                                                                                         Depot, Texarkana,    light armored vehicles and
              quality munitions and large-caliber weapons. It also                      Communications-            electronics items                     TX                   select missile systems;
                                                                                        Electronics Command,
              provides the full range of ammunition maintenance                         Fort Monmouth, NJ
                                                                                                                                                                              provision of base support to
                                                                                                                                                                              tenants
              for all services within DoD and for foreign military          TACOM-W     U.S. Army Tank-automotive Combat, automotive,
              customers. It manufactures, renovates, stores, and                        and Armaments
                                                                                        Command, Warren, MI
                                                                                                                  and construction items

              demilitarizes ordnance materiel and manufactures              TACOM-RI    U.S. Army Tank-automotive Weapons, special
                                                                                                                                           CECOM         Tobyhanna Army
                                                                                                                                                         Depot, Tobyhanna,
                                                                                                                                                                              Manufacture, maintenance,
                                                                                                                                                                              testing, and fielding of
              155-millimeter howitzers, 120-millimeter gun tubes,                       and Armaments Command weapons, and fire                          PA                   communications-electronics
                                                                                        Acquisition and Logistics control systems                                             systems and equipment and
              120-millimeter mortars, gun mounts for the M1A1                           Activity, Rock Island, IL                                                             missile guidance and control
              Abrams tank, grenades and smoke rounds, protective            SBCCOM      U.S. Army Soldier and      Ground support items
                                                                                                                                                                              systems and equipment;
                                                                                                                                                                              provision of base support to
              masks, and tool sets and kits.                                            Biological Chemical        and chemical weapons                                       tenants
                                                                                        Command, Natick, MA

              Ordnance activities provide logistics support including
              management, follow-on procurement, production,
              maintenance, and engineering. They also store,
              maintain, and demilitarize conventional ammunition.




                                                                                                                                                                Army Working Capital Fund 35
03WorkingCapital12-12.qxd           12/12/2003      5:29 PM        Page 36




              Table 17. Army Ordnance Activities                                                                                                                    The activity group consists of three arsenals, two
               Activity               Location      Mission
                                                                                                                                                                    ammunition plants, three ammunition storage depots,
                                                                                                                                                                    and three munitions centers (see Table 17). The
               Pine Bluff Arsenal     Pine Bluff,   Primary manufacturing capabilities include the production of conventional ammunition and chemical and           Soldier Biological and Chemical Command, located
                                      AR            biological defense items including white phosphorous and red phosphorous munitions, signaling and
                                                    obscuring smokes, incendiaries, irritants, and the production and rebuild of decontaminating kits, large        at Aberdeen Proving Ground, MD, manages Pine
                                                    filters, masks and defensive chemical test equipment
                                                                                                                                                                    Bluff Arsenal. The Operations Support Command
                                                    Provides base support to tenants
                                                                                                                                                                    (OSC), located at Rock Island, IL, manages the
               Rock Island            Rock          Primary materiel and industrial capabilities include the production of aircraft weapons, infantry weapons,      remaining arsenals, ammunition plants, and
               Arsenal                Island, IL    air defense weapons and artillery; armament for tanks, artillery, personnel and cargo carriers; and
                                                    special tools and tool sets
                                                                                                                                                                    ammunition logistics activities. The arsenals and
                                                                                                                                                                    plants provide depot operations, set assembly, tenant
                                                    Major in-house programs include maintenance truck, heavy; spare parts for M119 and M198 towed
                                                    howitzers; explosive ordnance disposal vehicles; and 120mm gun mount for Abrams main battle tank                support, and national procurement services for thin-
                                                    Provides base support to approximately 40 tenants                                                               and thick-walled cannon. They also are responsible
                                                                                                                                                                    for ammunition logistics management, including
               Watervliet             Watervliet,   Primary materiel and industrial responsibilities include production of mortars, recoilless rifles, cannon for
               Arsenal                NY            tanks and towed and self-propelled artillery, special tool sets, and training devices and simulators            follow-on procurement, production, maintenance, and
                                                    Major in-house programs include the M256 gun tube, M284/M109A6 howitzer, and XM297 howitzer                     engineering, and are responsible for integrated
                                                    Provides base support to tenants                                                                                logistics support management.

               Crane Army             Crane, IN     Primary materiel and industrial responsibilities include manufacturing, load and assembly, supply depot         Information Services
               Ammunition                           operations, and renovation, maintenance, and demilitarization of conventional ammunition and
               Activity                             ammunition-related components                                                                                   The Information Services activity group is responsible
                                                                                                                                                                    for the development and sustainment of automated
               McAlester Army         McAlester,    Primary materiel and industrial responsibilities include ammunition manufacturing and the rapid outload,
               Ammunition             OK            maintenance, and demilitarization of conventional ammunition and missiles.                                      information and communications systems. The group
               Activity                                                                                                                                             provides a multitude of services in support of DoD
               Sierra Army            Sierra        Primary materiel and industrial responsibilities include the receipt, storage, care of supplies in storage      and foreign military sales customers, including
               Depot                  Army
                                      Depot
                                                    (COSIS), repair, assembly, disassembly, and shipment of major and secondary items for operational
                                                    project stocks
                                                                                                                                                                    requirements analysis and definition, system design,
                                                    Provides base support to tenants
                                                                                                                                                                    development testing, integration, implementation
                                                                                                                                                                    support, and documentation of services. The group,
               Tooele Army
               Depot
                                      Tooele, UT    Responsible for design and development of ammunition peculiar equipment; stores, maintains,
                                                    distributes, and demilitarizes conventional ammunition
                                                                                                                                                                    which comprises two Central Design Activities
                                                    Provides base support to tenants
                                                                                                                                                                    (CDAs), the Integrated Logistics Systems Office, and
                                                                                                                                                                    the Army Small Computer Program, is managed by
                                                                                                                                                                    the U.S. Army Communications and Electronics
                                                                                                                                                                    Command (CECOM) at Fort Monmouth, NJ.




                36 Fiscal Year 2003 Army Annual Financial Statement
03WorkingCapital12-12.qxd    12/12/2003     5:29 PM    Page 37




              The two CDAs, Software Development Centers                Table 17. Army Ordnance Activities (Continued)
              (SDCs) Lee and Washington, provide support for             Activity                Location        Mission
              eight personnel and retail logistics systems.
              Significant among these are the Inspector General          Blue Grass Army Depot   Richmond, KY    Primary materiel and industrial responsibilities include the receipt, issue, storage, testing, and
                                                                                                                 minor repair of chemical defense equipment. Stores, maintains, distributes, and demilitarizes
              Network, the Housing Operations Management                                                         conventional ammunition
              System, and the Financial Management Information                                                   Provides base support to tenants
              System.                                                    Red River Munitions     Texarkana, TX   Stores, maintains, distributes, and demilitarizes conventional ammunition
                                                                         Center

              The Integrated Logistics Systems Offices (ILSO),           Letterkenny Munitions   Chambersburg,   Stores, maintains, distributes, and demilitarizes conventional ammunition
                                                                         Center                  PA
              located in Chambersburg, PA, and St. Louis, MO,
              provide subject matter expertise and government            Anniston Munitions      Anniston, AL    Stores, maintains, distributes, and demilitarizes conventional ammunition
                                                                         Center
              oversight of the Logistics Modernization Program
              (LMP). Implementation of LMP has seen the
              outsourcing of the activity group’s software
              maintenance and sustainment mission to the
              Computer Science Corporation, which now performs
              all the mission-related work of ILSO.

              The Army Small Computer Program (ASCP) provides
              customers with fully competed commercial sources of
              small and medium-size computers, software,
              networking infrastructure, and support services.

              Effective FY 2002 the Information Services activity
              group eliminated the use of stabilized rates, in
              preparation for the decapitalization of the group on
              September 30, 2003. Through FY 2002 and FY 2003
              all customers paid for services on a reimbursable basis
              to ensure that the group did not incur losses prior to
              decapitalization.




                                                                                                                                                                     Army Working Capital Fund 37
03WorkingCapital12-12.qxd                         12/12/2003                   5:29 PM                     Page 38




              Figure 8. Corporate Cash Management ($ millions)
                                                                                                                          Working Capital Fund - Performance                         between monthly revenue and collections or between
                                                                                                                          Measures                                                   monthly expenses and disbursements, making the
                                        10000
                                                                                                                                                                                     development of forecasting models difficult.
                                                                                                                          Corporate Performance
                                         5000                                                                             The mission of the AWCF is to provide support              The Army’s ability to predict the effects of
                                                                                                                          services to the operating forces in the most efficient




                                                    $6,680.8

                                                               $5,950.7



                                                                          $6,212.4

                                                                                     $6,274.5



                                                                                                $7,908.4

                                                                                                             $9,714.1
                                                                                                                                                                                     transactions made by others on the cash balance also
                                Plan
                               Actual         0                                                                           and cost-effective manner possible. Assessing the          has been difficult, with undistributed collections and

               Collections
                                                    FY 2001               FY 2002                FY 2003                  performance of the AWCF through the use of                 disbursements fluctuating dramatically throughout the
                                   Variance         ($730.1)                  $62.1             $1,805.7
                                                                                                                          financial and program performance measures                 year. The Defense Finance and Accounting Service
                               Variance (%)           (11)                      1                  23
                                                                                                                          indicates how well the AWCF is accomplishing its           (DFAS), the Army’s accounting services provider,
                                                                                                                          mission.                                                   currently is implementing systems improvements that
                                         9000
                                                                                                                                                                                     we expect will enable the Army to make more
                                         6000
                                                                                                                          Performance Measures                                       accurate projections in the future.
                                                                                                                          Cash Management
                                                                                                                          The ability to generate cash is dependent on setting       Figure 8 shows the planned and actual collections,
                                                    $6,748.5

                                                               $6,370.6



                                                                          $6,203.5

                                                                                     $6,516.5



                                                                                                $7,740.7

                                                                                                             $8,416.6
                                         3000

                                                                                                                          rates to recover full costs, including any previous year
               Disbursements




                                Plan
                               Actual         0
                                                                                                                                                                                     disbursements, and outlays at Army corporate level
                                                    FY 2001               FY 2002                FY 2003                  losses; on accurately projecting workload; and on          for the last three fiscal years, and the consequent cash
                                   Variance         ($377.9)                $313.0                $675.9                  meeting established operational goals. The Army must       balance. The AWCF ended FY 2003 with a cash
                               Variance (%)            (6)                    5                     9
                                                                                                                          maintain sufficient cash on hand in the AWCF               balance of $1,548.5 million, $1,380.8 million above
                                                                                                                          account at the U.S. Treasury to pay liabilities when       plan. This represents a substantive reversal over the
                                                                                                                          due. Unlike the private sector, the Army does not have     previous years, in which the Army missed year-end
                                                               $346.6
                                                    $67.7




                                                                                     $74.6




                                          350                                                                             the ability to take advantage of lines of credit. To       projections by more than $339.4 million in FY 2001
                                          -20
                                                                                                                          minimize the cash balance required for operating and       and $83.5 million in FY 2002. The current cash
                                                                          ($8.8)




                                                                                                             ($1,297.5)

                                         -390
                                                                                                ($167.7)




                                Plan
                                         -760
                                        -1130
                                                                                                                          capital disbursements, the Army manages cash at the        balance in the AWCF reflects the results of the
                               Actual   -1500                                                                             corporate level. Rather than having to maintain a          increase in consumption of repair parts and production
                                                    FY 2001               FY 2002                FY 2003
               Outlays




                                   Variance         $278.9                 $83.4                ($1,129.8)                positive cash balance, the AWCF activity groups and        at our industrial facilities associated with the Global
                               Variance (%)          412                   (948)                   674                    installations project collections and disbursements on     War on Terrorism. The current cash balance will be
                                                                                                                          a monthly basis, working within a 10 percent margin        used to pay our suppliers and producers of goods.
                                         1500                                                                             of error.                                                  Once payments, associated with the delivery of stocks
                                         1200                                                                                                                                        and repair of equipment, are made the AWCF cash
                                          900
                                                                                                                          Projecting cash flows has in past years proven             balance will return to a level closer to our corpus
                                                               $325.7



                                                                          $334.5

                                                                                     $251.0




                                                                                                             $1,548.5
                                                                                                $167.7




                                          600
                                                                                                                          challenging. While the Army has the capability to
                                                    $665.1




                                Plan      300                                                                                                                                        requirement.
               Cash Balance




                               Actual         0
                                                    FY 2001               FY 2002                FY 2003
                                                                                                                          estimate collections and disbursements, current
                                   Variance         ($339.4)               ($83.5)              $1,380.8
                                                                                                                          revenue recognition and expensing policies sometimes Total Revenue
                               Variance (%)           (51)                   (25)                 823                     prevent us from establishing a direct correlation    Total Revenue is an indicator of the volume of work

                         38 Fiscal Year 2003 Army Annual Financial Statement
03WorkingCapital12-12.qxd    12/12/2003     5:29 PM    Page 39




              completed by the AWCF activity groups. The total         Table 18. Total Corporate Revenues by Customer                    Figure 9. Personnel Indicators
              projected revenue for FY 2003 was $10.3 billion.         ($ millions)
                                                                                                                                                                                    20000
              Actual revenue was $12.3 billion, 20 percent greater     Customer                  FY 2001        FY 2002     FY 2003
                                                                                                                                                                                    15000
              than projected. This was primarily due to operations




                                                                                                                                          Civilian Full-Time Equivalents
                                                                       Operations and              $5,384.5      $5,417.4     $8,173.7
                                                                       Maintenance, Army
              in support of the war on terrorism.                                                                                                                                   10000
                                                                       Army Procurement               469.5         627.3       680.0
                                                                                                                                                                                     5000




                                                                                                                                                                                               19,614

                                                                                                                                                                                                              19,111



                                                                                                                                                                                                                       19,355

                                                                                                                                                                                                                                      19,736



                                                                                                                                                                                                                                               19,852

                                                                                                                                                                                                                                                            19,170
                                                                       AWCF                         1,444.0       1,023.7      1,626.8
              Table 18 displays total corporate revenue by customer                                                                                                         Plan
              (Sum of Tables 20, 24, 32 and 41). The largest           Other Army                     117.7         178.7       229.5                                      Actual         0
                                                                                                                                                                                               FY 2001                 FY 2002                 FY 2003
              customer for the AWCF is Operations and                  Other Services                 376.9         460.2       641.2                                          Variance           (503)                         381               (682)
              Maintenance, Army (OMA), which accounted for             Other DoD                      150.8         135.7       355.1                                      Variance (%)            (3)                           2                 (3)

              revenues of $8.4 billion.                                Foreign Military Sales         172.6         201.9       315.4
                                                                       Non-DoD                        152.1         233.2         40.8
              Table 19 displays total revenue and appropriation by
                                                                       Total Revenue               $8,268.1      $8,280.4    $12,062.5
              activity group. Supply Management, Army (SMA) is
              the largest, accounting for almost $9.3 billion in       Table 19. Total Revenue and Appropriation by Activity                                                              80

              revenue, or 76 percent of all AWCF revenue. In           Group ($ millions)
                                                                                                                                                                                          60
              addition to the revenue shown in Table 18, the AWCF      Appropriation            FY 2001       FY 2002       FY 2003
              received $167.4 million in FY 2002 and $249.0                                                                                                                               40
                                                                       Supply Management,       $6,076.2        $6,001.0      $9,329.5




                                                                                                                                          Military End Strength
              million in FY 2003 in direct appropriations.             Army                                                                                                               20
                                                                                                                                                                            Plan




                                                                                                                                                                                               76

                                                                                                                                                                                                              74



                                                                                                                                                                                                                       72

                                                                                                                                                                                                                                      71



                                                                                                                                                                                                                                               49

                                                                                                                                                                                                                                                            49
                                                                       Depot Maintenance         1,440.3         1,668.4       2,119.4
              Personnel Resources                                      Ordnance                    671.7          671.2         765.9
                                                                                                                                                                           Actual         0
                                                                                                                                                                                               FY 2001                 FY 2002                 FY 2003
              To achieve maximum efficiency of performance, the        Information Services         98.0          104.9           96.7                                         Variance                 (2)                     (1)                     0
              AWCF activity groups need to achieve the optimum                                                                                                             Variance (%)                 (3)                     (1)                     0
                                                                       Total Revenue            $8,286.2        $8,445.5     $12,311.5
              configuration of skilled workforce appropriately to
              and workload. Skill mismatches sometimes occur as a
              result of deviations between planned and actual
              workload; they also can be caused by workforce
              reductions realized through voluntary separation and
              hiring freezes. Such mismatches can lead to
              unplanned operating losses.

              As Figure 9 shows, the AWCF did not meet its
              planned full-time civilian equivalents. Since FY 2002,
              the AWCF decreased the number of full-time
              equivalents by 566 civilians, or 3 percent.

                                                                                                                                                                                               Army Working Capital Fund 39
03WorkingCapital12-12.qxd                                        12/12/2003                       5:29 PM               Page 40




              Table 20. Total SMA Revenue by Customer ($ millions)
                                                                                                                                                       Supply Management, Army                                   is evaluated on a variety of fiscal measures. The
               Customer                                                          FY 2001                  FY 2002                   FY 2003                                                                      primary measure, unit cost, is defined as cost per
                                                                                                                                                       Program Scope
                                                                                                                                                                                                                 dollar of sales. Other measures include total gross
               Operations and                                                      $4,513.2                  $4,473.6                       $7,163.6   Customer Revenue (Program Size)
               Maintenance, Army                                                                                                                                                                                 sales; revenue; cost; net operating results; capital
                                                                                                                                                       SMA revenue from customer sales in FY 2003 was
                                                                                                                                                                                                                 investment; cash collections, disbursements, and
               Army Procurement                                                           170.5                   208.4                       374.8    $9.1 billion. This exceeded plan, with the excess
                                                                                                                                                                                                                 outlays; and stock availability and stock turn.
               AWCF                                                                       705.5                   405.2                       468.5    revenue a direct result of unforeseen operations
               Other Army                                                                  76.9                   121.7                       187.4    conducted in support of the war on terrorism. As
                                                                                                                                                                                                                 Wholesale Unit Costs. The wholesale division sells
               Other Services                                                             281.8                   366.5                       562.1    shown in the Table 20, total SMA revenues increased
                                                                                                                                                       between FY 2002 and FY 2003; this is due to               principally to Federal government customers and,
               Other DoD                                                                   90.1                    58.6                         93.6
                                                                                                                                                       elimination of the retail stock fund, a second point of   through the Foreign Military Sales Program, to
               Foreign Military Sales                                                     115.8                   114.0                       281.1
                                                                                                                                                       sale. In addition to the revenue shown in Table 20,       foreign governments. Wholesale costs include the
               Non-DoD                                                                    114.6                    89.4                          9.4   SMA received direct appropriations of $7.8 million in     costs of logistics operations and of materiel
               Total Revenue                                                       $6,068.4                  $5,837.4                       $9,140.5   FY 2001, $163.6 million in FY 2002 and $189 million       obligations for repair or procurement, and credit
                                                                                                                                                       in FY 2003.                                               issued to customers for materiel returns. Unit cost is
                                                                                                                                                                                                                 measured by dividing these costs by gross wholesale
                                                                                                                                                       Personnel                                                 sales.
                                                                                                                                                       A key objective of the SMA activity group is ensuring
                                                                                                                                                       that the appropriate number of skilled workers is        In FY 2003, the wholesale division achieved a unit
              Figure 10. SMA Personnel Indicators                                                                                                      employed in the right places to fulfill the group’s      cost of $1.14. The initial unit cost goal (UCG) of
                                                                                                                                                       workload obligations. Over the last three fiscal years,
                                                           3500                                                                                                                                                 $1.11 was revised during the fiscal year to allow an
                                                                                                                                                       actual civilian full-time equivalents have increased by
                                                           3000
                                                                                                                                                                                                                execution of $1.14. The revision was based on both
                                                                                                                                                       1 percent.
                Civilian Full-Time Equivalents




                                                           2500
                                                           2000
                                                                                                                                                                                                                higher expected sales and high hardware obligations
                                                           1500
                                                                                                                                                       The Army achieved reductions in personnel through a related to Operation Iraqi Freedom and the Global
                                                           1000
                                                                                                                                                       combination of Voluntary Separation Incentive            War on Terrorism.
                                                                     2,991

                                                                                  3,015



                                                                                              3,095

                                                                                                          2,999



                                                                                                                     2,869

                                                                                                                                    2,790




                                                  Plan      500
                                                 Actual          0                                                                                     Programs and attrition. Over the last three fiscal years
                                                                     FY 2001                  FY 2002                 FY 2003
                                                                                                                                                       personnel levels trended downward consistent with        NAMI/Retail Unit Costs. Implementation of the
                                                     Variance                24                   (96)                       (79)
                                                 Variance (%)                 1                    (3)                        (3)                      the requirements of the Quadrennial Defense Review. Single Stock Fund (SSF) has altered the mission of
                                                                                                                                                       The AMC Integrated Materiel Management Centers           the retail division. Prior to SSF, the retail divisions
                                                                20
                                                                15
                                                                                                                                                       continue to develop more efficient and more effective sold to authorized customers within their local
                                                                                                                                                       ways of doing business.                                  geographical area. The retail divisions bought and
                Military End Strength




                                                                10

                                                  Plan
                                                                5                                                                                                                                               sold both Army Managed Items (AMI) and non-Army
                                                                     14

                                                                                  14



                                                                                              13

                                                                                                          13



                                                                                                                     13

                                                                                                                                    13




                                                 Actual         0
                                                                     FY 2001                  FY 2002                 FY 2003
                                                                                                                                                       Performance Measures                                     Managed Items (NAMI) at the catalog price of the
                                                     Variance                0                        0                       0                        Financial Performance                                    source of supply. Under SSF, the retail division consists
                                                 Variance (%)                0                        0                       0                        The financial performance of the SMA activity group only of NAMI.
                             40 Fiscal Year 2003 Army Annual Financial Statement
03WorkingCapital12-12.qxd    12/12/2003     5:29 PM     Page 41




              In FY 2003, gross material costs were greater than        Figure 11. SMA Gross Sales
              planned, producing a unit cost of $1.43 that was                                        10000

              above the UCG of $0.90. Gross material costs were                                        8000

              greater than planned due to increased inventory                                          6000
              requirements in support of Operation Iraqi Freedom                                       4000
              and the Global War on Terrorism.




                                                                                                                $4,607

                                                                                                                               $4,532



                                                                                                                                         $5,105

                                                                                                                                                  $5,713



                                                                                                                                                              $7,056

                                                                                                                                                                       $8,573
                                                                         Wholesale Sales
                                                                                                       2000
                                                                                              Plan
                                                                                             Actual         0
                                                                                                                FY 2001                  FY 2002               FY 2003
              Gross Sales. Attaining projected sales levels is key to                            Variance                $75                 $608               $1,517
              achieving goals in inventory management and                                    Variance (%)                (2)                  12                  21

              operations management, as well as to recouping
              operations costs.
                                                                                                       2000


                                                                                                       1500
              Financial Operating Measures. Budgetary
              guidelines requires the activity group to recover its                                    1000

              operating costs and fees while achieving zero




                                                                         NAMI/Retail Sales
                                                                                                        500




                                                                                                                $1,848

                                                                                                                               $1,534



                                                                                                                                         $134

                                                                                                                                                  $124



                                                                                                                                                              $791

                                                                                                                                                                       $726
              accumulated operating results at the end of the                                 Plan
                                                                                             Actual         0
              budget period. To achieve this goal, AWCF                                                         FY 2001                  FY 2002               FY 2003

              activities set stabilized rates 8 or more months prior                             Variance         ($314)                     ($10)                ($65)
                                                                                             Variance (%)          (17)                       (8)                  (8)
              to the beginning of each fiscal year. These rates use
              forecasting methods to determine the potential
              workload and the cost of meeting workload
              requirements. This projection is then used to set a
              standard price for AWCF goods and services. Since
              revenue is defined as gross sales at standard price,      Table 21. Financial Operation Measures ($ millions) for SMA
              revenue, cost, and net operating results are the                                                                                             FY 2001                                     FY 2002                         FY 2003
              logical financial measures of AWCF operations. In                                                                          Plan              Actual               Variance     Plan      Actual     Variance    Plan     Actual     Variance
                                                                                                                                                                                  (%)                               (%)                             (%)
              FY 2003, the rates were set to achieve a net
                                                                        Revenue                                                         $7,173.2           $6,068.4                  (15)   $5,239.2    5,837.4         11    $5,595     $9,330         67
              operating result (NOR) of $239 million. The actual
                                                                        Cost of Goods Sold                                               7,252.1            6,188.2                  (15)    5,645.2    6,192.0         10     4,496      8,422         87
              NOR was a gain of $908 million. Results of
                                                                        Net Operating Results                                               (78.9)          (119.8)                  (52)    (242.4)    (354.6)        (46)      239       908         280
              operations, computed according to budget guidance,
                                                                        Accumulated Operating Results                                    $131.9               $90.1                  (32)    ($38.3)     $197.8        616       $11     $1,543     13,729
              are presented in Table 21.


                                                                                                                                                                                                                  Army Working Capital Fund 41
03WorkingCapital12-12.qxd                           12/12/2003                     5:29 PM                      Page 42




              Table 22. Capital Budget Obligations ($ millions) for SMA                                                                  Results of operations, when computed according to          Common Operating Environment (COE) ($4
               Category                                      FY 2001                      FY 2002                     FY 2003            financial accounting standards, can vary with              million). COE provides Windows-based common
               Equipment                                              $0.0                            $0.0                        $0.0   inventory valuations; the timing of cost recognition,      technology architecture for the various wholesale
               ADPE and Telecom                                            0.0                         0.0                         0.0
                                                                                                                                         transfer fees, and the inclusion of non-recoverables       logistics processes, enabling users of logistics systems
                                                                                                                                         such as planned inventory reductions.                      to perform all business functions from a single
               Software                                               62.3                            61.2                        45.7
                                                                                                                                                                                                    workstation. It will also interface with LMP.
               Total                                              $62.3                              $61.2                       $45.7   Capital Investment. The SMA activity group’s
                                                                                                                                         capital investment program is focused primarily on         Single Stock Fund (SSF) ($20 million). The SSF
              Figure 12. SMA Cash Management                                                                                             the development of computer software to assist             concept integrates retail and wholesale inventory,
                                               8000                                                                                      managerial decision-making, to enable the sharing of       management, and financial accounting functions to
                                               6000                                                                                      databases, and to support the development of more          deliver business process improvements and improve
                                                                                                                                         efficient business practices.                              the efficiency of inventory management. This vertical
                                               4000
                                                                                                                                                                                                    stock fund for Army-managed items furthermore will
                                                        $4,704                                                                           FY 2003 Capital Investment Program (CIP) projects          eliminate one point of sale, thus ending duplication in
                                                                  $3,611



                                                                                 $3,910

                                                                                            $3,465



                                                                                                             $5,719

                                                                                                                      $7,124
                                               2000
                Cash Collections




                                      Plan
                                     Actual         0
                                                                                                                                         include the purchase of the following:                     logistical and financial processing and providing
                                                        FY 2001                  FY 2002                     FY 2003
                                         Variance       ($1,093)                   ($445)                     $1,405
                                                                                                                                                                                                    greater visibility of assets.
                                     Variance (%)         (23)                      (11)                        25
                                                                                                                                         Logistics Modernization Program (LMP) ($19
                                                                                                                                         million). The goal of LMP is to re-engineer existing       Cash Management
                                               6000
                                                                                                                                         logistics processes to provide flexibility in support of   The Army manages AWCF cash at the corporate
                                               4000
                                                                                                                                         CONUS-based power projection scenarios, to                 level. The performance of individual activity groups is
                                                                                                                                         leverage modern information technology enablers to         measured against planned collections, disbursements,
                                                                                                                                         provide real-time visibility of the entire logistics       and outlays rather than against independent cash
                Cash Disbursements




                                               2000
                                                        $4,832

                                                                  $4,178



                                                                                 $3,730

                                                                                            $3,954



                                                                                                             $5,212

                                                                                                                      $5,651



                                      Plan                                                                                               supply chain, and thereby support the revolution in        balances.
                                     Actual         0
                                                        FY 2001                  FY 2002                     FY 2003                     military logistics.
                                         Variance        ($654)                      $224                        $439                                                                               FY 2003 collections were greater than projected
                                     Variance (%)         (14)                        6                           8                      Commercial Asset Visibility II (CAV II) ($2                because of the increase in customer sales associated
                                                                                                                                         million). CAV II improves asset visibility at              with Operation Iraqi Freedom and the Global War on
                                                                                            $326
                                                        $128




                                                500
                                                                  $493




                                                100                                                                                      contractor maintenance sites and improves shipping         Terrorism.
                                                                                                                                         procedures, measures repair turnaround time, and
                                                                                                                      ($1,472)




                                               -300
                                                                                 ($180)




                                               -700
                                                                                                                                                                                                    Program Performance
                                                                                                             ($506)




                                              -1100
                                                                                                                                         monitors contractor performance; it also corrects
                                      Plan
                                                                                                                                         financial and inventory imbalances. CAV II will            Supply management uses two program performance
                Cash Outlays




                                     Actual   -1500
                                                        FY 2001                  FY 2002                     FY 2003
                                                                                                                                         interface with LMP.                                        measures: stock availability and stock turn.
                                         Variance          $365                      $506                      ($966)
                                     Variance (%)          285                       281                        (191)


                        42 Fiscal Year 2003 Army Annual Financial Statement
03WorkingCapital12-12.qxd    12/12/2003      5:29 PM    Page 43




              Stock Availability (Fill Rate). Stock availability         Depot Maintenance                                          Table 23. SMA Stock Availability (percentage)
              measures the percentage of SMA requisitions for            Program Scope                                                            1st Quarter     2nd Quarter 3rd Quarter 4th Quarter
              stocked items completely filled within Uniform             Customer Revenue (Program Size)                            FY 2001                  83             86             87         87
              Materiel Movement and Issue Priority System                Customer requirements govern the size and type of          FY 2002                  85             86             87         86
              (UMMIPS) timeframes. DoD and the Army have set a           the Depot Maintenance workload. The revenue from           FY 2003                  85             80             75         70
              target of 85 percent stock availability. Increased         customer sales in FY 2003 was $2.114 billion. Table
              demands and understated procurement lead times in          24 displays customer revenue for the past three fiscal
              FY 2000 contributed to a decrease in stock availability    years.
              that has hindered SMA in achieving its goal. A Spare                                                                  Table 24. Total Depot Maintenance Revenue by Customer
                                                                                                                                    ($ millions)
              Parts Shortage Integrated Process Team has been            Total revenue increased by $447.5 million, or 27           Customer                      FY 2001        FY 2002        FY 2003
              established to conduct a thorough analysis of the health   percent, between FY 2002 and FY 2003. This was             Operations and                   $538.2         $627.0          675.4
              of the Army Materiel Command’s spare parts program,        despite a rate increase of only 7.4 percent. In addition   Maintenance, Army
              to identify deficiencies within the requirements           to the revenue shown in Table 24, Depot Maintenance        Army Procurement                  145.6          253.3          131.3
              determination and execution process, and to                received direct appropriations of $6.2 million in          AWCF                              618.1          488.9          999.3
              recommend corrective measures. Although significant        FY 2001, $2.3 million in FY 2002 and $5.8 million in       Other Army                         11.0           30.1           10.8
              financial action was initiated in early FY 2003 to         FY 2003.                                                   Other Services                     63.1           79.6           44.6
              correct stock shortages stock availability rapidly                                                                    Other DoD                          10.3            7.2          231.8
              decreased amidst increased customer demands in             Personnel                                                  Foreign Military Sales             41.6           67.0           17.1
              support of Operation Iraqi Freedom and the Global          A key objective of the Army is to have the correct         Non-DoD                             6.2          113.0            3.3
              War on Terrorism. These financial actions are expected     number of appropriately skilled people in the right
                                                                                                                                    Total Revenue                  $1,434.1       $1,666.1       $2,113.6
              to remedy this downward trend during FY 2004.              places to meet the demands of workload.




                                                                                                                                                             Army Working Capital Fund 43
03WorkingCapital12-12.qxd                                        12/12/2003                    5:29 PM                     Page 44




              Figure 13. Depot Maintenance Personnel Indicators                                                                                           Table 26. Direct Labor Costs ($ millions) for Depot              In FY 2003, depots received $845.8 million more in
                                                                                                                                                          Maintenance                                                      orders than was forecasted; roughly 50.2 percent more
                                                          12000
                                                                                                                                                          Elements                FY 2001      FY 2002     FY 2003
                                                          10000                                                                                                                                                            work than planned. The depots expanded their
                                                                                                                                                                                                                           workforce, employed contract support, and used high




                Civilian Full-Time Equivalents
                                                           8000
                                                                                                                                                          Direct Labor               $311.4       $418.4         $294.0
                                                           6000
                                                                                                                                                          Indirect Labor              250.8        293.5          222.1
                                                                                                                                                                                                                           levels of overtime in an effort to meet the increased
                                                           4000                                                                                                                                                            customer demand. Though the depots did not exceed




                                                                     10,450

                                                                                  10,215



                                                                                             10,413

                                                                                                            10,887



                                                                                                                        11,113

                                                                                                                                      10,148
                                                  Plan     2000                                                                                           General and                  20.1         14.5            16.6   their full time equivalents, they did exceed their
                                                 Actual                                                                                                   Administratvie Labor
                                                                 0
                                                                     FY 2001                  FY 2002                    FY 2003                                                                                           planned overtime by 750,000 hours, or 75 percent.
                                                                                                                                                          Direct Materiel             455.2        635.9          774.4
                                                     Variance            (235)                        474                   (965)
                                                 Variance (%)             (2)                          5                     (9)
                                                                                                                                                          Indirect Materiel            52.2         71.3            58.4   Performance Measures
                                                                50                                                                                                                                                         Financial Performance
                                                                40                                                                                        Indirect Other              304.0        299.8          658.1
                                                                                                                                                                                                                           There are five fiscal performance measures for Depot
                Military End Strength



                                                                30
                                                                20
                                                                10                                                                                        Total                    $1,393.7     $1,733.4        $2,023.6   Maintenance: cost per direct labor hour, financial
                                                  Plan
                                                                     21

                                                                                  21



                                                                                             32

                                                                                                            32



                                                                                                                        31

                                                                                                                                      31
                                                 Actual          0                                                                                                                                                         operating measures, customer revenue rate, capital
                                                                     FY 2001                  FY 2002                    FY 2003
                                                     Variance                 0                        0                         0
                                                                                                                                                                                                                           investment, and cash management.
                                                 Variance (%)                 0                        0                         0                        Direct Labor Hours         10,277       11,382         11,928
                                                                                                                                                                                                                           Cost per Direct Labor Hour. The cost per direct
                                                                                                                                                          Cost per Hour ($)         $135.61      $152.29         169.65
               Table 25. Depot Maintenance Cost per Direct Labor Hour
                                                                                                                                                                                                                           labor hour (DLH) is computed by taking the sum of
                                                                                                                                                                                                                           all labor and non-labor expenses (direct, indirect, and
                                                                                           FY 2001                   FY 2002                   FY 2003    Change in Work in           ($3.9)     ($32.7)             0.0
                                                                                            Actual                    Actual                    Actual    Process                                                          general and administrative (G&A)), plus the change in
               Cost per Direct Labor Hour                                                   $135.99                   $155.17                   $169.65   Cost of Goods Sold ($    $1,390.1     $1,766.2        $2,023.6   work in process, and dividing that sum by the total
                                                                                                                                                          millions)                                                        number of DLHs worked during the fiscal year.
               Change from Prior Year (%)                                                              17                        14                  9
                                                                                                                                                          Cost per Hour (unit       $135.99      $155.17        $169.65
               Direct Labor Hours (000s)                                                     10,277                    11,381                    11,928   cost, $)
                                                                                                                                                                                                                           Table 25 breaks down DLH costs into their
                                                                                                                                                                                                                           component parts. Direct costs include civilian labor,
                                                                                                                                                                                                                           materiel, supplies, equipment, and other costs that are
                                                                                                                                                                                                                           directly related to a funded order (travel, training, and
                                                                                                                                                                                                                           purchased services). The indirect/G&A elements
                                                                                                                                                                                                                           comprise all costs not directly related to an order and
                                                                                                                                                                                                                           that are recovered as overhead expenses. These
                                                                                                                                                                                                                           include administrative personnel costs, base support
                                                                                                                                                                                                                           costs, support personnel costs, and facility repair and
                                                                                                                                                                                                                           maintenance costs.

                          44 Fiscal Year 2003 Army Annual Financial Statement
03WorkingCapital12-12.qxd    12/12/2003      5:30 PM    Page 45




              Financial Operation Measures. Under the full-cost Table 27. Financial Operation Measures ($ millions) for Depot Maintenance
              recovery concept, stabilized rates are set such that                                        FY 2001                      FY 2002                         FY 2003
              they should cover all costs and produce a zero
                                                                                                    Plan          Actual       Plan            Actual          Plan              Actual
              accumulated operating result (AOR) at the end of the
              budget year. During execution, the activity group may Revenue                          $1,389.3      $1,434.1     $1,580.0         $1,668.4       $1,731.3           $2,119.4
              experience either a positive or negative net operating Cost of Goods Sold               1,357.9        1,390.1     1,599.0          1,766.2        1,749.6            2,023.6
              result (NOR). The gain or loss shown in the NOR is     Operating Results                   31.4            44.0      (19.0)           (97.8)            (18.3)              95.8
              added to the AOR from past years. Stabilized rates are
                                                                       (less Capital Surcharge)          15.7            12.5         0.2              0.6              0.1                0.3
              included in the President’s Budget, published
                                                                       (less Extraordinary Items)         0.0             0.0         0.0              0.0              0.0                0.0
              approximately 8 months in advance of the year of
              execution. The rates are stabilized so that customers’ Net Operating Results               15.7            31.5      (19.2)           (98.4)            (18.4)              95.5

              programs will not be affected during execution, even   Beginning AOR                       55.2            55.2        64.6             83.2            (45.8)         (39.0)

              though the actual costs of the AWCF activity may be      (less Prior Year Adjustment)       0.1           (3.5)           0           (23.8)              0.0               21.3
              higher or lower than planned.                          Beginning AOR Adjusted              55.3            51.7        64.6             59.4            (45.8)         (17.7)
                                                                         AOR (NOR plus adjusted AOR)                    $71.0   $83.2   $45.4       ($39.0)       ($64.2)             $77.8
              Deviations from the plan impact the activity group to
              the extent that an unplanned gain or loss must be
              included in the following year’s rates to bring the
              AOR to zero. Any change in rates may in turn result
              in an increase or decline in the customer’s buying
              power.

              Table 27 shows the operation measures for the past
              three fiscal years. FY 2003 revenue and costs were
              $2.1 billion and 2.0 billion, respectively. Acceptable
              deviation from the plan is plus or minus 10 percent. In   Helicopter Repair – Corpus Christ Army Depot, TX.

              FY 2003, revenue and cost deviations from plan were
              22 percent and 16 percent respectfully. The amounts
              are directly attributed to the increased work load
              associated with contingency operations.

              Customer Revenue Rate. In Depot Maintenance,
              customer revenue rates are set per direct labor hour.
              These rates are stabilized so that the customer’s

                                                                                                                                                      Army Working Capital Fund 45
03WorkingCapital12-12.qxd           12/12/2003           5:30 PM          Page 46




              Table 28. Depot Maintenance Stabilized Rates                                  buying power is protected in the year of execution.   are produced and increase the speed at which testing
               Direct Labor Rate                FY 2001      FY 2002        FY 2003         Table 28 shows the stabilized revenue rates per DLH.  is accomplished. Current test systems were designed
               Customer Revenue Rate ($)         $119.81       $124.57        $133.80       The FY 2003 rate of $133.80 per DLH cash was 7        in the 1970s and their capabilities to test newer circuit
                                                                                            percent higher than that of FY 2002.                  cards is questionable. The manufacturer is currently
               Customer Rate Change (%)                  7            3                7                                                          phasing out the maintenance and stocking of
                                                                                            Capital Investment. The Depot Maintenance activity replacement parts.
                                                                                            group seeks to maintain and develop its capabilities
                                                                                            through the acquisition of new equipment and the      Fluidized Bed ($6.8 million). The fluidized bed is
                                                                                            execution of minor construction projects. The capital used for removing rubber from roadwheels and track
                                                                                            budget provides for equipment acquisitions to replace shoes prior to remanufacture. This concept has
                                                                                            obsolete and unserviceable equipment, to eliminate    received national recognition as a cost-effective,
                                                                                            environmental hazards, and to decrease costs through environmentally friendly means of performing a task
                                                                                            improvements in productivity. Table 29 represents the that traditionally has been slow, dirty, and harmful to
                                                                                            obligation authority of the capital budget.           the environment. The existing 10-year-old fluidized
                                                                                                                                                  bed has reached the end of its life expectancy and
              Corpus Christi Army Depot, TX.                                                FY 2003 Capital Investment Program (CIP) projects
                                                                                            include purchase of the following:                    requires frequent and expensive maintenance and
                                                                                                                                                  repair.
              Table 29. Capital Budget ($ millions) for Depot
              Maintenance                                                                   Various Capital Equipment - Replacement
                                                                                            (<$500K) ($4.8 million). This program seeks to           X1100-3B Transmission Test Stand ($1.3 million).
               Category                      FY 2001          FY 2002       FY 2003
                                                                                            replace depot equipment items costing more than          This is a complete automated test equipment system
               Equipment                            $3.6             $7.1        $31.2
                                                                                            $500,000 that have outlived their useful lives, become   that allows dynamic testing of both new and rebuilt
               Minor Construction                     1.9             1.1             3.1
                                                                                            uneconomical to repair or become unsafe to operate.      X1100-3B and CD-850 cross-drive transmissions. The
               ADPE and Telecom                       0.0             0.0             0.0
               Software                             13.8             16.7         16.6
                                                                                                                                                     stand is necessary for final acceptance testing of these
               Total                               $19.3            $24.9        $50.9      Various Capital Equipment - Productivity                 transmissions, when they come out of the depot
               Note: ADPE is automated data processing equipment.                           (<$500K) ($0.6 million). This program seeks to           overhaul program.
                                                                                            modernize equipment costing more than $500,000
                                                                                            thousand to improve depot productivity and efficiency Inertial Sensor Assembly Test Equip ($1.8 million).
                                                                                            and reduce operating costs.                           The existing Inertial Sensor Assembly (ISA) test set is
                                                                                                                                                  27 years old, compared to a normal life expectancy of
                                                                                            HP3070 Circuit Board Test System Replacement          10 years. Downtime has averaged about 10 percent,
                                                                                            ($0.7 million). The purchase of two new systems will and many repair parts are obsolete and no longer
                                                                                            increase the speed at which in-circuit test programs  supported by the manufacturer.


                 46 Fiscal Year 2003 Army Annual Financial Statement
03WorkingCapital12-12.qxd    12/12/2003     5:30 PM    Page 47




              CNC Precision Laser Cutting System ($0.6                 Army Workload and Performance System (AWPS)
              million). This system provides sheet metal fabrication   ($2.9 million). AWPS is a personal computer-based,
              functions to support the PATRIOT Recap ground            network software solution designed to integrate
              support equipment and depot maintenance mission          existing production and financial data into a single
              production schedules.                                    graphic program. This will assist the Tank,
                                                                       Automotive and Armament Command (TACOM),
              Engine Disassembly and Cleaning Equipment                Communications and Electronics Command
              ($12.1 million). This program replaces 30-year-old       (CECOM), and Aviation and Missile Command
              outdated process equipment and process tanks with        (AMCOM), in managing complex workload and
              small capacities supporting larger parts. Replacement    employment strategies. This is a congressional
              will support compliance with the Clean Air Act of        mandate.
              1990, Clean Water Act, and OSHA safety regulations.
                                                                       Logistics Modernization Program (LMP) ($7.3
              Control Consoles & Wiring Speed Drive ($1.6
                                                                       million). LMP seeks to reengineer existing logistics
              million). This equipment provides H-60 transmission
                                                                       processes to provide flexibility in support of CONUS-
              and gearbox test capability. Current equipment's major
                                                                       based power projection scenarios to leverage modern
              components within the consoles are obsolete and no
                                                                       information technology enablers to provide real-time
              longer supported by their manufacturer.
                                                                       visibility of the entire logistics supply chain, and
                                                                       thereby to support the Revolution in Military
              Dust Collection System ($0.7 million). The current
                                                                       Logistics.
              system is 17 years old and doesn’t adequately filter
              the air that is recycled back into the shop, allowing
              cadmium, chromium, and other contaminants to             SDS Data Collection/Shop Floor/AIT ($6.3
              escape. The new system would provide clean, well-        million). This program provides a Windows-based
              filtered return air to the building and ensure a safer   common technology architecture for the various
              work environment and compliance with all air quality     wholesale logistics processes that will enable users of
              regulations.                                             logistics systems to perform all business functions
                                                                       from a single workstation. It will interface with LMP.
              Various Minor Construction (<705K) ($3.1
              million). This program corrects various workload and Cash Management.
              production shortcomings and health, safety,          The Army manages AWCF cash at the corporate
              environmental, and security conditions.              level. The performance of individual activity groups is       Engine Repair




                                                                                                                                                 Army Working Capital Fund 47
03WorkingCapital12-12.qxd                      12/12/2003                 5:30 PM                   Page 48




              Figure 14. Depot Maintenance Cash Management                                                                                                                                                                                          measured against planned collections, disbursements,
              ($ millions)
                                                                                                                                                                                                                                                    and outlays rather than in terms of cash balances.
                                          2000
                                                                                                                                                                                                                                                    Depot Maintenance collections and disbursements in
                                                                                                                                                                                                                                                    FY 2003 were $1.8 billion and $1.9 billion,




                                                                                                                                                                                                      $140.3




                                                                                                                                                                                                                         $135.4
                                          1500
                                                                                                                                                             200
                                                                                                                                                                                                                                                    respectively.




                                                                                                                                                                                                               $24.5




                                                                                                                                                                                                                                  $22.2
                                                                                                                                                             120
                                          1000
                                                                                                                                                                 40




                                                   $1,214.6

                                                              $1,478.3



                                                                          $1,550.6

                                                                                      $1,734.6



                                                                                                  $1,625.4

                                                                                                               $1,887.2
                                                                                                                                                              -40
                                           500
                                                                                                                                                                                                                                                    Both collections and disbursements were over plan




                                                                                                                                                                       ($47.8)

                                                                                                                                                                                      ($55.3)
                                 Plan                                                                                                                        -120
                                                                                                                                                  Plan
                                Actual                                                                                                           Actual      -200                                                                                   and reflect the revenue and expense positions of
                Collections
                                               0
                                                   FY 2001                FY 2002                  FY 2003                                                             FY 2001                        FY 2002             FY 2003
                                                                                                                                                                                                                                                    Depot Maintenance activity group.




                                                                                                                                      Outlays
                                    Variance         $263.7                 $184.0                  $261.8                                            Variance            ($7.5)                      ($115.8)           ($113.2)
                                Variance (%)           22                     12                      16                                          Variance (%)              16                          (83)               (84)
                                                                                                                                                                                                                                                    Program Performance
                                          2000

                                                                                                                                  Table 31. Schedule Conformance (percentage) for Depot                                                             The Depot Maintenance activity group uses two
                                          1500
                                                                                                                                  Maintenance                                                                                                       program performance measures: production output,
                                          1000                                                                                                                                        FY 2001                  FY 2002            FY 20031          and schedule conformance.
                                                                                                                                      Plan                                                          89                  90                    N/A
                                                   $1,166.8

                                                              $1,422.1



                                                                          $1,690.9

                                                                                      $1,761.3



                                                                                                  $1,760.8

                                                                                                               $1,909.4
                                           500
                                                                                                                                                                                                                                                    Production Output. Table 30 lists the quantity and
                Disbursements




                                 Plan                                                                                                 Actual                                                       90.9                93.9                   N/A
                                Actual         0
                                                   FY 2001                FY 2002                  FY 2003                            Variance (percentage)                                           2                   4                   N/A
                                                                                                                                                                                                                                                    customer price for five representative end items for
                                    Variance         $255.3                    $70.4                $148.6                            1
                                                                                                                                          Data was not available at time of printing
                                                                                                                                                                                                                                                    the last three fiscal years. The table highlights one
                                Variance (%)           22                        4                    8
                                                                                                                                                                                                                                                    specific item at each of the major repair depots that is
                                                                                                                                                                                                                                                    receiving A1 (cyclic, normal overhaul, rebuild) work.
              Table 30. Depot Maintenance Production Output
                                                                                                                                                                                                                                                    The prices indicated are the unit prices by year for this
               FY 2001                                                                 FY 2001                                   FY 2002                                                              FY 2003                                       type of work; price fluctuations are due to changes in
               Item (Installation)                                       Proposed
                                                                         Quantity
                                                                                                  Actual
                                                                                                 Quantity
                                                                                                                          Deviation
                                                                                                                            (%)
                                                                                                                                                Unit Price
                                                                                                                                                   ($)
                                                                                                                                                                 Proposed
                                                                                                                                                                 Quantity
                                                                                                                                                                                                 Actual
                                                                                                                                                                                                Quantity
                                                                                                                                                                                                                 Deviation
                                                                                                                                                                                                                   (%)
                                                                                                                                                                                                                                  Unit Price
                                                                                                                                                                                                                                     ($)
                                                                                                                                                                                                                                                    materiel and labor costs, distribution of overhead
               Rear Module, M1A1 (ANAD)                                               378               63,107                  334                 68,613               314                         347                 11               $67,822   costs, AOR recovery, and the cash surcharge.
               Engine, Turbine, T700-GE (CCAD)                                        120          250,100                      120               256,083                        60                      55             (8)        $264,751
                                                                                                                                                                                                                                                    Schedule Conformance. This performance measure
               Paladin Chassis (LEAD)                                                     51       382,024                       28               440,615                        40                      40                 0      $699,575
                                                                                                                                                                                                                                                    records the number of units completed on schedule as
               Wheel, Solid Rubber (RRAD)**                                          2851               250.46                 2800                 248.75            8,945                         8,945                   0               $208
                                                                                                                                                                                                                                                    a percentage of the number of units scheduled. Units
               Visual Display Unit, AH64 (TYAD)                                           70                 8,576               60                  8,263                       60                      49            (18)                $8,438
                                                                                                                                                                                                                                                    completed are defined as major end items plus
               **The quantities and unit prices reflected for RRAD are for 26x6 roadwheels only.
                                                                                                                                                                                                                                                    reparables.




                        48 Fiscal Year 2003 Army Annual Financial Statement
03WorkingCapital12-12.qxd     12/12/2003     5:30 PM     Page 49




              Ordnance                                                   Table 32. Total Ordnance Revenue by Customer
                                                                         ($ millions)
              Program Scope                                              Customer                                                         FY 2001                       FY 2002                     FY 2003
              Customer Revenue (Program Size)
                                                                         Operations and                                                               $299.4                      $282.4                    $303.1
              Customer requirements dictate the size of the              Maintenance, Army
              Ordnance workload. Table 32 displays customer              Army Procurement                                                              151.1                       165.5                     173.9
              revenue for the past three fiscal years.                   AWCF                                                                           75.4                        75.8                     102.6
                                                                         Other Army                                                                     25.6                        22.8                      25.8
              Revenue from customer orders in FY 2003 was
                                                                         Other Services                                                                 32.0                        14.1                      34.5
              $711.7 million, or an increase of $41.9, or 6 percent,
                                                                         Other DoD                                                                      42.3                        62.0                      26.5
              due to the Global War on Terrorism. In addition, to
              the revenue shown in Table 32, the Ordnance Activity       Foreign Military Sales                                                         15.2                        20.9                      17.2

              Group received direct appropriations of $3.9 million       Non-DoD                                                                        26.8                        26.3                      28.1

              in FY 2001, $1.4 million in FY 2002, and $54.2             Total Revenue                                                                $667.8                      $669.8                    $711.7   Bomb making – McAlester Army Ammunition Plant.
              million in FY 2003.
                                                                         Figure 15. Ordnance Personnel Indicators
              The increase in revenue is due to increased shipments                                                  6000

              in support of overseas military operations, troop




                                                                          Civilian Full-Time Equivalents
              support/force protection, and receipt of unplanned                                                     4000

              orders and miscellaneous spares.
                                                                                                                     2000




                                                                                                                               5,878

                                                                                                                                              5,576



                                                                                                                                                           5,572

                                                                                                                                                                          5,574



                                                                                                                                                                                      5,612

                                                                                                                                                                                                    5,992
              Personnel                                                                                     Plan
                                                                                                           Actual          0
              A key objective of the Army is to have the correct                                                               FY 2001                     FY 2002                     FY 2003

              number of appropriately skilled people in the right                                              Variance           (302)                             2                         380
                                                                                                           Variance (%)            (5)                              0                          7
              places to meet workload requirements. As workload
              has declined, staffing levels have also been reduced,                                                       30

              through a combination of involuntary separations,                                                           20
                                                                          Military End Strength

              voluntary separation incentive programs, and hiring                                           Plan
                                                                                                                          10




                                                                                                                               20

                                                                                                                                              18



                                                                                                                                                           21

                                                                                                                                                                          18



                                                                                                                                                                                      18

                                                                                                                                                                                                    18
              freezes. Figures for the last three fiscal years show an                                     Actual         0
                                                                                                                               FY 2001                     FY 2002                     FY 2003
              overall decline in personnel levels consistent with the                                          Variance                 (2)                         (3)                       0
              activity’s falling workload.                                                                 Variance (%)                (10)                        (14)                       0




                                                                                                                                                                                                                                             Army Working Capital Fund 49
03WorkingCapital12-12.qxd           12/12/2003   5:30 PM         Page 50




              Table 33. Financial Operation Measures ($ millions) for Ordnance                                                                                       Performance Measures
                                                          FY 2001                               FY 2002                                FY 2003                       Financial Performance
                                                 Plan               Actual             Plan               Actual              Plan                   Actual          There are four financial performance measures for
               Revenue                              $678.0              $667.8             $663.7             $669.2                $609.0               $765.8
                                                                                                                                                                     Ordnance. These are cost per direct labor hour,
                                                                                                                                                                     customer revenue rate, capital investment, and cash
               Cost of Goods Sold                       696.0            663.8                680.5              696.1               608.6                797.2
                                                                                                                                                                     management.
               Operating Results                        (18.0)                4.0             (46.8)           (26.3)                  0.4                (31.4)
                 (less Capital Surcharge)                 5.5                 5.6               1.8                 1.9                0.3                    0.4    Financial Operating Measures. Under the full-cost
                 (less Extraordinary Items)              (1.8)                0.0               0.0                 0.0                0.0                    0.0    recovery concept, stabilized rates are set to cover all
               Net Operating Results                    (21.7)               (1.6)            (48.6)           (28.2)                  0.1                (31.8)     costs and produce a zero accumulated operating result
               Beginning AOR                             58.6                58.6              66.7                51.6              181.5                181.6      (AOR) at the end of the budget year. During
                 (less Prior Year Adjustment)             0.0                (5.4)              0.0              158.2                 0.0                (13.7)     execution, the activity group may experience either a
               Beginning AOR Adjusted                    58.6                53.2              66.7              209.8               181.5                167.9
                                                                                                                                                                     positive or negative net operating result (NOR). The
                                                                                                                                                                     gain or loss shown in the NOR is added to the AOR
               AOR (NOR plus adjusted AOR)              $36.9            $51.6                $18.1           $181.6                $181.6               $136.1
                                                                                                                                                                     from prior years. Stabilized rates are included in the
                                                                                                                                                                     President’s Budget, published approximately 8
                                                                                                                                                                     months in advance of the year of execution. The rates
                                                                                                                                                                     are stabilized so that customers’ programs will not be
                                                                                                                                                                     affected during execution, even though the actual
                                                                                                                                                                     costs of the AWCF activity may be higher or lower
                                                                                                                                                                     than planned.

                                                                                                                                                                     Deviations from the plan impact the activity group to
                                                                                                                                                                     the extent that an unplanned gain or loss must be
                                                                                                                                                                     included in the following year’s rates to bring the
                                                                                                                                                                     AOR to zero. Any change in rates may in turn result
                                                                                                                                                                     in an increase or decline in the customer’s buying
                                                                                     Table 34. Cost per Direct Labor Hour for Ordnance
                                                                                                                                                                     power.

                                                                                                                          FY 2001      FY 2002         FY 2003       Table 33 shows the operation measures for Ordnance
                                                                                     Cost per Direct Labor Hour            $150.59      $155.69         $137.85      for the past three fiscal years. FY 2003 revenue and
                                                                                     Change from Prior Year (%)                33                3            (11)   costs were $765.8 million and $797.2 million, but
                                                                                     Direct Labor Hours (000s)               4,408           4,471        5,783      were not within the acceptable deviation from plan of
                                                                                                                                                                     plus or minus 10 percent.

                 50 Fiscal Year 2003 Army Annual Financial Statement
03WorkingCapital12-12.qxd    12/12/2003      5:30 PM    Page 51




              Cost per Direct Labor Hour. The cost per DLH rate         FY 2003 capital investment program (CIP) projects          Table 35. Direct Labor Cost Estimates ($ millions) for
                                                                                                                                   Ordnance
              (Table 34) is computed by dividing the sum of all         include purchase of the following:
                                                                                                                                   Elements                    FY 2001       FY 2002         FY 2003
              labor and non-labor expenses (direct, indirect, and
              general and administrative (G&A)) plus the change in      Various Capital Equipment - Replacement                    Direct Labor                   $167.6         $168.8         $200.9

              work in process by the total number of productive         (<$500K) ($7.5 million). This program funds the            Indirect Labor                  104.8          139.5          136.5

              DLHs worked in the fiscal year.                           replacement of items of equipment costing less than        General and                      59.6           46.2           61.8
                                                                                                                                   Administratvie Labor
                                                                        $500,000 that have outlived their useful lives, are
                                                                                                                                   Direct Materiel                  93.9           82.4           99.3
              Table 35 breaks down the overall costs for FY 2003.       uneconomical to repair, or are unsafe to operate.
                                                                                                                                   Indirect Materiel                16.6           25.5           27.3
              Direct costs are the costs of civilian labor, materiel,
                                                                                                                                   Indirect Other                  214.3          231.9          268.0
              supplies, equipment, and others that are directly         4-Axis CNC Horizontal Mill ($1.1 million). The 4-
              related to a funded order. Indirect costs are those not   Axis Computer Numerical Controlled (CNC)                   Total                          $656.8         $694.3         $793.8

              directly related to an order, such as administrative      Horizontal Mill provides a faster, safer, more reliable,
                                                                                                                                   Direct Labor Hours              4,408          4,471          5,783
              personnel costs, base support costs, support personnel    and more technologically advanced horizontal milling       Cost per Hour ($)             $149.00        $155.29        $137.25
              costs, and facility repair and maintenance costs.         capability to replace three worn out machines and          Change in Work in                (7.0)          (1.8)          (3.4)
                                                                        support the manufacture of spare parts for such            Process
              Customer Revenue Rate. The Ordnance activity              critical weapons systems as the M119 and M198              Cost of Goods Sold ($           663.8          696.1          797.2
                                                                                                                                   millions)
              group sets customer revenue rates per direct labor        Howitzers and the M182 Gun Mount for the M109
                                                                                                                                   Cost per Hour (unit           $150.59        $155.69        $137.85
              hour. These rates are stabilized so that the customer’s   Paladin Self-Propelled Howitzer.                           cost, $)
              buying power is protected in the year of execution.
              Table 36 shows the revenue rate per DLH, and            Resource Recovery and Recycling Equipment                    Table 36. Stabilized Rates for Ordnance
              indicates a 27 percent rate reduction between FY 2002 ($1.0 million). The Resource Recovery and Recycling            Direct Labor Hourly Rate        FY 2001      FY 2002      FY 2003
              and FY 2003.                                            Equipment will replace the current open burn/open            Customer Revenue Rate ($)         $102.70      $94.59        $69.07
                                                                      detonation ammunition demilitarization operations at         Customer Rate Change (%)                 4          (8)        (27)
              Capital Investment Program. The Ordnance group Crane Army Ammunition activity with a system that
              seeks to maintain and develop its capabilities through is compliant with federal and state environmental             Table 37. Capital Budget ($ millions) for Ordnance
              the acquisition of equipment and the execution of       quality standards.                                           Category                    FY 2001       FY 2002         FY 2003
              minor construction projects. The capital budget
                                                                                                                                   Equipment                       $11.8           $2.8           $9.6
              provides for equipment acquisition to replace obsolete Minor Construction (<$750K) ($1.4 million). This
                                                                                                                                   Minor Construction                7.8            1.3            1.4
              and unserviceable equipment, to eliminate               program addresses and corrects various problems at
                                                                                                                                   ADPE and Telecom                  4.9            1.9            0.0
              environmental hazards, and to decrease repair costs by Ordnance installations facilities that give rise to poor
              improving productivity. Table 37 represents the         working conditions, that reduce productivity, lack           Software                          4.8            4.7            4.7

              obligation authority of the capital budget.             energy conservation features, compromise security,           Total                           $29.3          $10.7          $15.7



                                                                                                                                                           Army Working Capital Fund 51
03WorkingCapital12-12.qxd                          12/12/2003             5:30 PM                   Page 52




              Figure 16. Cash Management ($ millions) for Ordnance                                                                                                                                                               fail to comply with fire and safety codes, or present
                                              1000                                                                                                                                                                               health hazards.
                                               800

                                               600
                                                                                                                                                                                                                                 Miscellaneous Automated Data Processing
                                                                                                                                                                                                                                 Equipment (ADPE) (<$500K) ($0.0 million). The
                                               400
                                                                                                                                                                                                                                 ADPE program replaces old, obsolete, and irreparable




                                                       $658.4

                                                                $740.6



                                                                         $659.1

                                                                                  $974.4



                                                                                                $467.4

                                                                                                            $604.3
                                               200
                                     Plan                                                                                                                                                                                        equipment with state-of-the-art equipment to bring
                                    Actual


                    Collections
                                                   0
                                                       FY 2001           FY 2002                 FY 2003                                                                                                                         Ordnance sites up to Army standards and to improve
                                        Variance          $82.2           $325.3                  $136.9
                                                                                                                                                                                                                                 communications with other Army sites. New
                                    Variance (%)           13               48                      29
                                                                                                                                                                                                                                 technology will also improve security and reduce the
                                                                                                                                                                                                                                 threat of intrusion by unauthorized sources.
                                               800
                                                                                                                                                                                                                                 Army Workload and Performance System (AWPS)
                                               600
                                                                                                                                                       200                                                                       ($4.7 million). AWPS is a personal computer-based,




                                                                                                                                                                        $26.5




                                                                                                                                                                                                        $206.4

                                                                                                                                                                                                                  $177.7
                                                                                                                                                       100
                                               400
                                                                                                                                                          0
                                                                                                                                                                                                                                 network software solution designed to integrate
                                                                                                                                                                                                                                 existing production and financial data into a single




                                                                                                                                                               ($5.3)




                                                                                                                                                                                            ($275.9)
                                                                                                                                                       -100




                                                                                                                                                                                  ($74.6)
                                               200
                                                       $653.1

                                                                $666.0



                                                                         $685.6

                                                                                  $699.9



                                                                                                $673.8

                                                                                                            $781.9
                                                                                                                                                       -200
                                                                                                                                                                                                                                 graphic program. It will enable production and
                    Disbursements




                                     Plan                                                                                                  Plan
                                    Actual                                                                                                Actual       -300
                                                   0
                                                       FY 2001           FY 2002                 FY 2003                                                       FY 2001            FY 2002                FY 2003                 resource managers to isolate scheduling and cost




                                                                                                                                Outlays
                                        Variance          $12.9             $14.3                 $108.1                                       Variance         ($69.3)           ($302.4)                ($28.7)                problems at the product level and to estimate the
                                    Variance (%)            2                 2                     16                                     Variance (%)         (1,308)            (1,141)                  (14)
                                                                                                                                                                                                                                 workforce needed to accomplish various levels of
                                                                                                                                                                                                                                 workload. This is a congressional mandate.

              Table 38. Production Output for Ordnance                                                                                                                                                                           Cash Management
                                                                                                                                                                                                                                 The Army manages AWCF cash at the corporate
               FY 2001yep                                                                  FY 2001                            FY 2002                                             FY 20031
                                                                                                                                                                                                                                 level. The performance of individual activity groups is
               Item (Installation)                                                 Actual                Unit Price       Actual          Unit Price      Planned            Actual         Deviation            Unit Price
                                                                                  Quantity                  ($)          Quantity            ($)          Quantity          Quantity          (%)                   ($)          measured against planned collections, disbursements,
               155MM M804A1 Practice (Crane)                                                0                        0          0                  0             N/A             N/A                   N/A                 N/A   and outlays, not against cash balances. The FY 2003
               Bomb, 500lb, BDU 45 (McAlester)                                        11,517               1,017.4         15,882          1,000.78              N/A             N/A                   N/A                 N/A
                                                                                                                                                                                                                                 plan for Ordnance projected a $206.4 million outlay
               G982 M83 Training Grenade (Pine Bluff)                              158,912                    19.98       111,856             20.31              N/A             N/A                   N/A                 N/A
                                                                                                                                                                                                                                 on cash but the actual result outlay was only $177.7
                                                                                                                                                                                                                                 million. Collections were above plan for the year by
               1
                   Data was not available at time of printing.
                                                                                                                                                                                                                                 29 percent.




                         52 Fiscal Year 2003 Army Annual Financial Statement
03WorkingCapital12-12.qxd     12/12/2003      5:30 PM     Page 53




              Program Performance                                         Table 39. Schedule Conformance for Ordnance
              The Ordnance activity group uses three program                                                   FY 2001       FY 2002       FY 20031
              performance measures: production output, schedule
                                                                          Plan                                       295.3      286.3           N/A
              conformance, and ammunition short tons.
                                                                          Actual                                     287.5      297.6           N/A

              Table 38 shows the quantities and unit prices for three Variance (percentage)                        (3) 4                        N/A
              ordnance items produced by the group during the last     Data was not available at time of printing.
                                                                          1




              two fiscal years. For FY 2003, data was not available
                                                                      Table 40. Ammunition Short Tons for Ordnance
              at time of printing.
                                                                          FY 2001                                            FY 2001             FY 2002                      FY 20031
              Schedule Conformance. This performance measure                                                                   Plan               Actual        Plan           Actual          Variance (%)
              shows the number of units completed on schedule as a        Receipts                                                125,100             131,700          N/A               N/A              N/A
              percentage of the number of units scheduled. Units          Issues                                                  162,400             165,800          N/A               N/A              N/A
              completed are defined as major end items plus               Demilitarized                                               36,799           27,759          N/A               N/A              N/A
              reparable items.                                            1
                                                                              Data was not available at time of printing.


              Ammunition Short Tons. Table 40 measures the
              amount of short tons of ordnance received, issued, or
              demilitarized. (A short ton is 2,000 pounds of
              ammunition.) Based on standards at the installations,
              this figure has a direct correlation to personnel,
              funding, and rates.




                                                                                                                                                                        Army Working Capital Fund 53
03WorkingCapital12-12.qxd                                        12/12/2003                   5:30 PM               Page 54




              Table 41. Total Information Services Revenue by                                                                            Information Services                                     the total order cost for providing this service. In FY
              Customer ($ millions)                                                                                                                                                               2003, revenue was $6.7 million.
               Appropriation                                                FY 2001              FY 2002                  FY 2003
                                                                                                                                         Program Scope
                                                                                                                                         Customer Revenue (Program Size)
               Operations and                                                         $33.7                 $34.4                $31.5                                                            Personnel
               Maintenance, Army                                                                                                         Customer requirements dictate the workload of the
                                                                                                                                                                                                  Civilian end strength and work-years were on plan in
               Army Procurement                                                         2.3                   0.1                  0.0   Information Services activity group. Customers of the
                                                                                                                                                                                                  FY 2003, as was military end strength.
               AWCF                                                                    45.0                  53.8                 56.5   group’s four Central Design Activities (CDAs) sign
               Other Army                                                               4.2                   4.1                  5.5   letters of intent, followed by support agreements that
                                                                                                                                                                                                  Performance Measures
                                                                                                                                         estimate the number of work-years required by each
               Other DoD                                                                8.1                   7.9                  3.2                                                            Financial Performance
                                                                                                                                         project and the project’s anticipated costs. Revenue
               Foreign Military Sales                                                   0.0                   0.0                  0.0                                                            The Information Services activity group uses three
                                                                                                                                         from customer orders in FY 2003 totaled $96.7
               Non-DoD                                                                  4.5                   4.5                  0.0                                                            financial performance measures: cost per direct labor
                                                                                                                                         million. Table 41 provides a breakdown of orders by
               Total Revenue                                                          $97.8                $104.8                $96.7
                                                                                                                                         customer for FY 2001 through FY 2003.                    hour (DLH), financial operating measures (revenue,
                                                                                                                                                                                                  costs, and net operating results), and cash
                                                                                                                                         The Army continues to be the largest source of           management.
                                                                                                                                         revenue, accounting for 87 percent of total revenue in
                                                                                                                                         FY 2003. The Defense Finance and Accounting             Cost per Direct Labor Hour. The DLH rate (see
                                                                                                                                         Service (DFAS) also is an important customer            Table 42) is computed by dividing the sum of all
              Figure 17. Information Services Personnel Indicators
                                                                                                                                         because of its needs for design, maintenance, and       activity labor and non-labor expenses (direct, indirect,
                                                            400                                                                          testing services for its financial systems.             and general and administrative (G&A)) incurred
                Civilian Full-Time Equivalents




                                                            300                                                                                                                                  during the fiscal year by the total number of direct
                                                            200                                                                          The Information Services activity group also includes labor hours executed. Excluded from this computation
                                                            100                                                                          the Army Small Computer Program (ASCP), the             are contractor support costs, ASCP expenses, and
                                                                     295

                                                                                305



                                                                                          282

                                                                                                     294



                                                                                                                258

                                                                                                                           240

                                                  Plan
                                                 Actual          0                                                                       primary objective of which is to provide customers      direct labor hours, which are treated as direct
                                                                     FY 2001              FY 2002               FY 2003
                                                                                                                                         with the latest technology at the best price. The       reimbursable costs. For FY 2001 and FY 2002 this
                                                     Variance              10                   12                  (18)
                                                 Variance (%)               3                    4                    7                  program negotiates directly with commercial             activity group is working on a cost-reimbursable basis
                                                                                                                                         information technology vendors for hardware,            in anticipation of decapitalization at the end of FY
                                                                                                                                         software, and support services, and in so doing is able 2003; cost per direct labor hour therefore is not
                                                                50
                                                                40
                                                                                                                                         to eliminate the duplicated costs associated with       applicable.
                Military End Strength




                                                                30
                                                                20
                                                  Plan          10                                                                       individual procurements. In addition, the ASCP is in a
                                                                                          6
                                                                     21

                                                                                21




                                                                                                                5

                                                                                                                           5




                                                                                                                                         position to ensure that all products purchased adhere Net Operating Results. The activity experienced an
                                                                                                     8




                                                 Actual          0
                                                                     FY 2001              FY 2002               FY 2003
                                                     Variance              0                    2                     0                  to Army and DoD interoperability and compliance         NOR of $3.7 million in excess of plan. This was due
                                                 Variance (%)              0                    33                    0                  standards. The program collects a fee of 1 percent of primarily to increased revenue at the Army’s Small


                             54 Fiscal Year 2003 Army Annual Financial Statement
03WorkingCapital12-12.qxd    12/12/2003      5:30 PM    Page 55




              Computer Program (ASCP). Ordering on two              Table 42. Cost per Direct Labor Hour for Information                                                              Figure 18. Information Services for Cash Management
                                                                    Services                                                                                                          ($ millions)
              contracts (Dell Army Desktop and Mobile
                                                                                                    FY 2001  FY 2002   FY 2003                                                                                          200
              Computing-1 contract and Oracle Enterprise Initiative                                                                                                                                                     160
                                                                     Cost per Direct Labor Hour ($)   449.77   268.85    318.28
              Software Agreement) in particular was heavier than                                                                                                                                                        120

              anticipated.                                           Change from Prior Year (%)          291       40       197                                                                                          80




                                                                                                                                                                                                                               $103.4

                                                                                                                                                                                                                                           $112.8




                                                                                                                                                                                                                                                                $100.9
                                                                                                                                                                                                                                                     $92.5




                                                                                                                                                                                                                                                                                 $96.7

                                                                                                                                                                                                                                                                                               $99.1
                                                                                                                                                                                                                         40
                                                                                                                                                                                                        Plan
                                                                        Direct Labor Hours                                    219                260                 197                               Actual             0




                                                                                                                                                                                         Collections
                                                                                                                                                                                                                               FY 2001               FY 2002                     FY 2003
              Cash Management. The Army manages AWCF cash                                                                                                                                                   Variance               $9.4                     $8.4                        $2.4
              at the corporate level. The performance of individual                                                                                                                                     Variance (%)                9                        9                          2.5

              activity groups is measured against planned                                           10
                                                                                                                                                                                                                        200
                                                                                                                                                                                                                        160
              collections, disbursements and outlays, not against                                   6




                                                                                                                                       $1.6



                                                                                                                                                  $.125
                                                                                                                    $4.4
                                                                                                    2                                                                                                                   120
              cash balances. A positive outlay means the activity                                   -2                                                                                                                  80




                                                                                                         ($7.2)




                                                                                                                             ($6.9)




                                                                                                                                                          ($8.0)




                                                                                                                                                                                                                                          $105.9




                                                                                                                                                                                                                                                               $102.6
                                                                                                                                                                                                                              $96.3




                                                                                                                                                                                                                                                    $96.9




                                                                                                                                                                                                                                                                                $96.8

                                                                                                                                                                                                                                                                                           $91.1
              group is losing cash; a negative outlay means the                                     -6                                                                                                                  40




                                                                                                                                                                                       Disbursements
                                                                                      Plan                                                                                                              Plan
                                                                                     Actual     -10                                                                                                                      0
                                                                                                                                                                                                       Actual
              activity group is generating cash. The actuals in                                          FY 2001              FY 2002              FY 2003                                                                    FY 2001               FY 2002                     FY 2003




                                                                           Outlays
              Figure 18 reflect the cash transactions reported to                        Variance
                                                                                     Variance (%)
                                                                                                             $0.3
                                                                                                              4
                                                                                                                                  ($2.8)
                                                                                                                                   (64)
                                                                                                                                                    ($8.1)
                                                                                                                                                   (6,480)
                                                                                                                                                                                                            Variance              $9.6                  $5.7                      ($5.7)
                                                                                                                                                                                                        Variance (%)               10                    6                          (6)
              Treasury for the activity group. These include residual
              transactions from Fort Huachuca, which moved out of        Table 43. Financial Operation Measures ($ millions) for Information Services
              the AWCF several years ago.                                FY 2001                                                                 FY 2001                                                         FY 2002                                                 FY 2003

                                                                                                                                      Plan                         Actual                              Plan                   Actual                         Plan                          Actual

              Program Performance                                        Revenue                                                              $129.3                    $97.8                              $105.3                     $103.8                             95.3                          96.7

              The Information Services activity group is still           Expense                                                               135.0                    101.5                                   105.3                   100.2                            95.3                          93.0

              relatively new to the AWCF, and only one program           Operating Results                                                    ($5.7)                    ($3.7)                                    0.0                      3.7                            0.0                           3.7
                                                                               (less Non-Recoverable)                                            0.0                            0.0                               0.0                      0.0                            0.0                           0.0
              performance measure (direct labor hours executed
                                                                         Net Operating Results                                                ($5.7)                    ($3.7)                                    0.0                      3.7                            0.0                           3.7
              versus planned) has been developed. We are seeking
              better measures that would be applicable across all of     Table 44. Direct Labor Hours for Information Services
              the four Central Design Activities.                                                                 FY 2001             FY 2002             FY 2003
                                                                         Plan                                              254                  250                   202
              Direct Labor Hours. The number of DLHs                     Actual                                            236                  277                   215
              achieved in FY 2003 was 215, 6 percent above plan          Variance                                          (18)                  27                     13

              (see Table 44).                                            Variance (percentage)                               7                   11                         6




                                                                                                                                                                                                                               Army Working Capital Fund 55
03WorkingCapital12-12.qxd     12/12/2003       5:30 PM      Page 56




              Management Integrity                                DoD since 1999. This paradigm is composed of                    military construction, operations and maintenance,
              A discussion of the Army management control         restructured programs and new performance metrics               and working capital fund resources, the
              weaknesses that were identified during FY 2003, and for facilities sustainment, restoration, and                    recapitalization rate metric is ready and usable for the
              those weaknesses reported during FY 2002 that the   modernization (S/RM). The new S/RM paradigm is                  FY 2004-FY 2009 program and budget cycle.
              Army expected to close during FY 2003, can be found expected to solve several longstanding problems that            Additional research and analysis is required before the
              on page 28 of the General Fund Section.             have challenged the Army in its determination of                metric can be successfully applied to selected
                                                                  facilities funding requirements. It supports both the           specialty areas, such as family housing programs,
              Future Effects of Existing Conditions               Government Performance and Results Act and the                  foreign- or internationally funded programs, and
                                                                  Chief Financial Officers Act.                                   nonappropriated fund programs.
              Logistics Transformation
              As part of Army Transformation, several financial        The Defense Planning Guidance for FY 2004-FY
              reform initiatives have been recommended by the
                                                                       2009 provides a revised investment strategy based on
              Logistics Transformation Task Force (LTTF) that may
              result in a change to the pricing and recording of       S/RM principles. However, the challenge of how to
              products and/or services sold by the AWCF. The           implement the strategy remains. Successful
              proposed changes will be reviewed by the task force      implementation will require a major change to
              and if approved will be implemented during FY 2004-      existing practices and a long-term commitment to
              FY 2007. The goal of these reform initiatives is to      resolve the problem.
              promote cost visibility while streamlining price
              development. If this is achieved as required,            Using the S/RM-based strategy, the Army plans to
              buyer/seller relationships will benefit.                 first forecast its required inventory and then to:

              Facilities Recapitalization                                  fully sustain its assets and stop the loss of
              The Army has identified a need for a facilities              service life;
              framework capable of properly supporting its future
              worldwide missions. This will require programs and           restore by 2010, where appropriate and
              budgets that ensure the day-to-day readiness of              affordable, C-2 readiness to facilities rated C-3 or
              modern facilities relevant to future operations and          C-4 in the near term, buying back lost service life;
              services. The Army will use standard tools and               modernize for the future, establishing by 2007 a
              metrics to determine the appropriate investment levels       recapitalization investment stream tied to average
              for this facilities recapitalization.                        expected service life (67 years).
              The recapitalization rate metric is one element of a     For mainstream recapitalization programs, and for
              larger paradigm that has been under development in       recapitalization typically funded by traditional

                56 Fiscal Year 2003 Army Annual Financial Statement
03WorkingCapital12-12.qxd    12/12/2003     5:30 PM    Page 57




              Advancing the President’s Management                 and multidisciplinary fellows. Using a range of            prepare themselves to run AWCF businesses. Data for
              Agenda                                               innovative recruiting techniques, AMC will assess the      FY 2003 was not available at time of printing.
                                                                   abilities of applicants and new employees and
              The President’s Management Agenda has great
                                                                   determine and address their development needs. The         Improved Financial Performance
              relevance in the logistics arena. By improving their
                                                                   desired result is a viable and skilled workforce able to    The AWCF worked throughout FY 2003 to build
              management efficiency, all AWCF activities should be
                                                                   share the knowledge of experienced employees.               upon a number of initiatives begun in FY 2002 that
              able to lower the rates they charge to customers.
                                                                                                                               will enable the AWCF to make better use of its funds.
                                                                       Graduate Studies for Logistics Officers                 The AWCF also is pursuing other long-term initiatives
              Strategic Management of Human Capital
                                                                       AWCF managers routinely are expected to apply and aimed at putting more useful and more reliable
              Central to the business culture of the AWCF is the       modify the best practices of the private sector to      financial information in the hands of managers, with
              belief that the most effective organization is one that AWCF businesses. But while AWCF businesses are as
                                                                                                                               the aim of enabling them to make more efficient use
              provides its people with information and trusts them     complex and challenging as any in the private sector, of resources.
              to use it to the benefit of the organization as a whole. the Army’s logistics officers typically are not trained
              The AWCF accordingly has taken the following steps in the professional skills necessary to run the AWCF Single Stock Fund
              to empower its soldiers and civilian employees with      in accordance with best business practices.             The Single Stock Fund (SSF) initiative was begun in
              greater knowledge.                                                                                               FY 1998. The SSF is designed to re-engineer and
                                                                       The military service schools train AWCF logisticians improve the AWCF’s logistics and financial processes.
              Workforce Revitalization
                                                                       in a broad range of disciplines, but the training does
              The AWCF has a critical role in helping ensure the
                                                                       not approach the level of education found in civilian As force structure and technology changed, the need
              success of Army Transformation, but the ability of the                                                           arose for a speed of system processing and a supply
                                                                       graduate business schools. AWCF staff furthermore
              AWCF workforce to perform its mission is in peril.
              The AWCF is afflicted by a growing number of             currently are not offered the opportunity to undertake chain agility that the previous environment could not
                                                                                                                               provide. The SSF combined the wholesale stocks
              retirement-driven shortages in vital areas, and after    fully funded studies at civilian schools. The lack of
                                                                                                                               previously managed by the Army Materiel Command
              more than a decade of cutbacks is facing serious skill such opportunities has in the past contributed to the     with the retail stock previously managed by Army
              imbalances. The limited intake of new personnel          decision of some logisticians to leave the Army rather
                                                                                                                               major commands. By integrating the asset
              furthermore means that employees now average more than pursue assignments for which they are not                 requirements at both levels, the Army thus gained a
              than 20 years of service; unless someone is in place to adequately prepared. Seeking to address this             corporate visibility of its assets that it previously
              inherit their legacy, as each staff member leaves,       weakness, the Army is evaluating the feasibility of     lacked. This lack of corporate visibility had
              knowledge and experience will be lost with them.         making business graduate programs available for up      contributed greatly to an accumulation of excess stock
                                                                       to 5 percent of eligible captains. In FY 2002, 885      and a duplication of workload.
              The Army Materiel Command (AMC) is seeking to            captains would have been eligible; had such a
              put in place a Workforce Revitalization Program that program been in place, up to 40 officers therefore          The SSF is streamlining operations by eliminating
              will institute hiring programs for apprentices, interns, would have been given the opportunity to genuinely      multiple points of sales, multiple ledger and billing

                                                                                                                                                  Army Working Capital Fund 57
03WorkingCapital12-12.qxd     12/12/2003       5:30 PM      Page 58




              accounts, duplicative automated systems, and other       deployments were to 12 locations, including the           information at a detail level low enough to enable data
              inefficiencies. SSF Milestones 1 and 2 have already      Army’s Communications and Electronics Command,            to be summarized and sorted. The financial data for
              been achieved, and have seen the Army capitalize         AMC’s headquarters staff, the Tobyhanna Army              the AWCF will be brought under general ledger
              $489 million of retail stocks to the SSF. Milestone 3    Depot, the Army Security Assistance Command, the          control, and managers will be able to use these data to
              implementation began on July 1, 2002, with               Defense Finance and Accounting Service, and the           perform such functions as activity-based costing.
              commencement of the Verification of Initial Operating    field office of the Army’s Soldier and Biological
              Capability (VIOC) at III Corps, the Texas Army           Chemical Command in Philadelphia. Over the next            Dollar Cost Banding
              National Guard, and selected U.S. Army Reserve           year, LMP will be deployed to other AMC commands,          Under the current stock control system, an item is
              units. Army-wide implementation completed                depots, and arsenals across the country.                   added to the Authorized Stock Lists (ASLs) when
              December 2002.                                                                                                      nine requests are made for that item. Three demands
                                                                      Full deployment of LMP is vital to the success of           are needed to retain the item on the ASL. This system
              The benefits of SSF are exceeding expectations. The     Army   Transformation,   and  will create  measurable       operates regardless of cost, with the result that
              redistribution of Army-owned materiel that previously improvements in readiness. Based on SAP, a                    inexpensive but often critical components are not held
              was inaccessible has greatly improved AWCF              commercial enterprise resource planning system,             in stock. Dollar Cost Banding (DCB) seeks to ease
              customer responsiveness and has significantly           LMP will provide AMC with a modern, collaborative this situation by reducing the add/retain criteria for
              lowered costs. A cost-benefit analysis conducted in     environment that will help the command concentrate
                                                                                                                                  items costing less than $1,000: as the unit price of an
              1999 projected a benefit-to-investment ratio of 6.3 to on its core functions and will enable it to make rapid, item decreases, the criteria by which it is maintained
                                                                      timely decisions. The modernization program is
              1; evidence from the implementation of SSF indicates                                                                on the ASL are incrementally lowered. There would
                                                                      replacing the Commodity Command Standard System
              that it is well on track to exceed that estimate.
                                                                      and the Standard Depot System and will provide the be no change to the current system for items priced at
              Logistics Modernization Program                         key benefits of total asset visibility, single-source data, more than $1,000 per unit. DCB allows units to add to
                                                                      better forecasting accuracy, and real-time access to        the ASL many critical small items at very little cost.
              The Logistics Modernization Program (LMP) is an
                                                                      enterprise information.                                     Most units that have tried DCB have experienced
              ongoing modernization process that will give the
                                                                                                                                  order fill rates that are between 10 and 20 percent
              Army the flexibility to support today’s CONUS-based
              power projection scenarios and to support the Army’s    When   fully  implemented,   LMP   will  provide a single   better than under the previous system, with no
              near- and long-term readiness objectives. The           point of entry for the recording, reporting, and            increase in the total cost of the ASL. The benefits to
              program will integrate all logistical and financial     analysis of  inventory  and related  financial data,        readiness are obvious. While DCB has been optional,
              system processes to provide real-time visibility of the directly addressing an identified internal control          its success has led to it being broadly adopted across
              entire logistics supply chain, and thus to enable the   weakness   cited in the Army’s   FY   2000  financial       the Army.
              precise determination of operational requirements.      statements. In addition to providing a financial
                                                                      information management system, the modernization            Expand Electronic Government
              On July 7, 2003, the Army completed deployment of program will simultaneously provide the logistics                 The President’s Management Agenda asserts that
              the first phase of LMP. The program’s pilot             community with easy access to online, real-time             through the use of information technology

                58 Fiscal Year 2003 Army Annual Financial Statement
03WorkingCapital12-12.qxd    12/12/2003      5:30 PM    Page 59




              government can both reduce costs and provide better      solution, the technical and functional architecture of
              service. The AWCF accordingly is pursuing electronic     which is focused on the warfighter.
              initiatives aimed at providing better service to its
              soldiers and civilian employees. An example of one     The central objective of logistics enterprise integration
              such initiative is described below.                    is the development, through collaborative planning,
                                                                     knowledge management, and best business practices,
              Logistics Enterprise Integration                       of a fully integrated knowledge environment that
              The Army’s Logistics Enterprise Integration involves builds, sustains, and generates warfighting capability.
              integrating several modernizing initiatives, including Logistics, financial, acquisition, and product data will
              LMP and the Global Combat Support System Army          be brought together in an environment that operates in
              (GCSS Army) map, within the DoD Future Logistics a near seamless fashion from the soldier across the
              Enterprise (FLE). The FLE (also commonly referred major Army commands, across the Military Services,
              to as Business Enterprise Architecture (BEA)-          across DoD, and across industry. Our business
              Logistics, or "BEA-LOG") has six principal             systems will capture and integrate the data flowing
              components: Total Lifecycle Systems Management         from automatic identification technology and
              (TLCSM), End-to-End Customer Support, Condition- embedded weapons system diagnostics, and will make
              Based Maintenance, Depot Partnering, Executive         these data available to both logisticians and system
              Agency, and Enterprise Integration. All services must engineers. The timely creation of an environment for
              ensure that their enterprise integration efforts and   many participants that delivers vertical and horizontal
              architectures map to the FLE/BEA-LOG, which in         visibility, that supports a robust predicative capability,
              turn maps to the BEA. The desired outcome is that      and that meets the demands of the concept of
              within DoD all services and the Defense Logistics      warfighter operations in the future battlespace, is
              Agency (DLA) will operate a single, integrated         essential to Army Transformation.




                                                                                                                                  Army Working Capital Fund 59
03WorkingCapital12-12.qxd     12/12/2003       5:30 PM      Page 60




                60 Fiscal Year 2003 Army Annual Financial Statement
03CivilWorks12-12.qxd   12/12/2003   5:38 PM   Page A




                                                        (Trim 4” from Right Side)
03CivilWorks12-12.qxd   12/12/2003   5:38 PM   Page B




                                                        Management Discussion and Analysis . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 61



                                                        Civil Works – Performance Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 70



                                                        Analysis of Financial Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 79

                 (Trim 4” from Left Side)
                                                        Management Integrity . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 81



                                                        Future Effects of Existing Conditions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 82



                                                        Advancing the President’s Management Agenda . . . . . . . . . . . . . . . . . . . . . . 83
03CivilWorks12-12.qxd   12/12/2003      5:38 PM    Page 61




              Management Discussion and Analysis                        of Water Resources Development Acts. The Water
                                                                        Supply Act of 1958 gave Civil Works the authority to



                                                                                                                                     2003
              Mission
              The Civil Works mission is constantly evolving to         include water storage in both new and existing
              keep pace with the changing needs of the nation.          reservoir projects for municipal and industrial uses at
                                                                        100 percent non-federal cost.
              Developing and Managing Water Resources                                                                                 The United States Army
              The original Civil Works mission, as it related to        Protecting, Restoring, and Managing the
              developing and managing water resources, was to
                                                                        Environment                                                   Civil Works Fund
                                                                        The Rivers and Harbors Act of 1899 required the
              support navigation by maintaining and improving
                                                                        Corps of Engineers to prevent the obstruction of
              water channels. In 1824, legislation authorized the
                                                                        navigable waterways, making the Corps a pioneer of
              Corps of Engineers also to improve safety on the          environmental protection. As concerns over the
              Ohio and Mississippi Rivers, and in 1909 the Rivers       environment grew in the late 20th century, the Clean
              and Harbors Act authorized the consideration of           Water Act of 1972 greatly broadened the Corps’
              various water uses, including hydroelectric power         responsibility by providing authority over the
              generation, in the planning, design, and construction     dredging and filling in of “the waters of the United
              of water resource development projects. The Flood         States,” including the country’s wetlands. The
              Control Act of 1917 established for Civil Works a role    program’s environmental responsibilities were further
              in flood damage reduction, and in 1936 the Flood          broadened by new legislation, introduced in 1986, that
              Control Act gave Civil Works the responsibility for       expanded the Corps’ traditional environmental
              providing flood protection for the entire country.        mitigation activities to include the enhancement and
                                                                        restoration of the natural environment at Corps
              Recreation was added to the Civil Works portfolio by      projects and in areas not directly tied to those projects.
              the Flood Control Act of 1944, which authorized the       This legislation made the provision of environmental
              provision of recreational facilities at reservoirs. The   protection one of the primary missions of the Corps’
              River and Harbor Flood Control Act expanded this          water resource development activities.
              authority in 1962, providing authority to build, where
              feasible, recreational facilities as part of all waterResponding and Assisting in Disaster Relief
              resource development projects.                        Throughout its history, America has relied upon Civil
                                                                    Works for help in times of national disaster. This help
              Another aspect of water resources management is that is now provided under two basic authorities: the Flood
              of water supply. The changing role of the Civil Works Control and Coastal Emergency Act (P.L. 84-99, as
              Program in water supply has been directed by a series amended), and the Stafford Disaster and Emergency

                                                                                                                                                               61
03CivilWorks12-12.qxd   12/12/2003        5:38 PM     Page 62




              The Civil Works Mission                                                                                      Assistance Act. Under P.L. 84-99, the Civil Works
              The Civil Works mission is to contribute to the national welfare and serve the public by providing           Program has direct authority to provide emergency
              the nation, and the Army, with quality and responsive:                                                       assistance during or following flooding events to
                                                                                                                           protect lives, public facilities and infrastructure. Under
                  ■ Development and management of the nation's water resources,                                            the Stafford Act, the program supports the Federal
                                                                                                                           Emergency Management Agency in carrying out the
                  ■ Protection, restoration, and management of the environment,                                            Federal Response Plan, which calls upon 26 federal
                                                                                                                           departments and agencies to provide coordinated
                  ■ Disaster response and recovery, and
                                                                                                                           disaster relief and recovery operations. The primary
                  ■ Engineering and technical services                                                                     role for Civil Works in emergency relief and recovery
                                                                                                                           operations is to provide public works and engineering
              in an environmentally sustainable, economically and technically sound manner through partnerships            support.
              and the project management business process
                                                                                                                           Providing Engineering Support and Technical
                                                                                                                           Services
                                                                                                                           In Titles 10 and 33 of the U.S. Code, Congress
              Figure 19. FY 2003 Civil Works Appropriation by Program                                                      expresses its intent that the U.S. Army Corps of
                                                                                                                           Engineers provide services on a reimbursable basis to
                                            $282.6 million
                                 $65.5 million             $4.4 million                                                    other Federal entities, state, local and tribal
                                                                                                                           governments, private firms and international
                            $21 million
                                                                                                                           organizations. Additional authorities to provide
                                                                                                                           services that are applicable to all Federal agencies are
                                                                                                                           provided in Titles 15, 22 and 31. These authorities
                                                                                                                           include providing services to friendly foreign
                                  $729.7 million
                                                                                                                           governments.
                                                                      $1.9 billion
                 $143 million                                                        Navigation                            Civil Works Programs
                                                                                     Flood and Coastal Damage Prevention
                                                                                     Hydropower                            The Civil Works mission is supported by nine
                 $191.8 milion
                                                                                     Regulatory                            programs through which it accomplishes the four
                                                                                     Environment
                                                $1.4 billion                                                               components of its mission. Figure 19 defines eight of
                                                                                     Emergency Management
                                                                                     Recreation                            these programs that receive direct appropriations. The
                                                                                     Water Supply                          ninth program, Support for Others, is conducted on a
                                                                                     Support for Others                    reimbursable basis. Each program specifically

                62 Fiscal Year 2003 Army Annual Financial Statement
03CivilWorks12-12.qxd   12/12/2003     5:38 PM    Page 63




              addresses a single mission component, but all           commercial and recreational harbors. America’s              Major Commodities Handled by Civil
              programs may also contribute to one or more of the      inland waterways provide a highly fuel-efficient mode       Works Ports and Waterways in CY 2002
              other mission components.                               of transportation, with waterborne shipping able to
                                                                      move freight at more than 500 ton-miles per gallon of
              Navigation                                                                                                          Crude Oil                          564 million tons
                                                                      fuel compared to less than 400 ton-miles per gallon
              The Navigation program is responsible for providing                                                                 Petroleum Products                 450 million tons
                                                                      that rail transportation achieves. Use of our waterways
              safe, reliable, efficient and environmentally           rather than rail translates to an annual saving of $7       Coal                               287 million tons
              sustainable waterborne transportation systems for the   billion in transportation costs; every dollar invested in   Food/Farm Products                 280 million tons
              movement of commercial goods, and for national          improving our navigation infrastructure results in a        NOTE: Statistics are compiled on a calendar year basis.
              security needs. The program seeks to meet this          better than $3 increase in GDP.                             CY 2003 statistics not available at time of printing.
              responsibility through a combination of capital
              improvements and the operation and maintenance of       In FY 2003, this $1.9 billion program accounted for
              existing infrastructure projects. The Navigation        41 percent of the Civil Works appropriation.
              program is vital to the nation’s economic prosperity:
              Ninty-nine percent of America’s international trade     Flood and Coastal Storm Damage Reduction
              moves through the program’s ports, and 20 percent of    Program
              American jobs depend to some extent on this trade.      This program is aimed at saving lives in the event of
                                                                      floods and coastal storms and reducing property
              In FY 2003, the program continued the vital work that damages. Civil Works constructed 8,500 miles of
              seeks to assure the future viability of America’s ports levees and dikes, 383 reservoirs, and more than 90
              and harbors. In Bayonne, NJ, for example, the Port      shore protection projects along 240 miles of the
              Jersey Channel is being dredged to 41 feet to           nation’s 2,700 miles of shoreline. With the exception
              accommodate the latest containerships and to ensure of the reservoirs, most of the infrastructure
              that they will be able to load in New York. This $119 constructed under this program is owned and operated
              million project, which is cost shared 75 percent        by the sponsoring cities, towns, and agricultural
              Federal and 25 percent non-Federal, is expected to      districts.
              provide $32 million in average annual benefits to the
              nation.                                                 The Flood and Coastal Storm Damage Reduction
                                                                      program has compiled an impressive record of
              Civil Works operates and maintains 12,000 miles of      performance. In the period 1992-2001, floods in
              inland waterways, nearly 13,000 miles of deep draft     unprotected areas caused the United States an average
              and coastal inlet channels, 235 lock chambers, 300      of $5.5 billion yearly in property damage. In the same      A container vessel navigates the Kill Van Kull channel as it passes
                                                                                                                                  under the Bayonne Bridge, NJ. The Corps has deepened this
              major commercial harbors, and more than 600 smaller period, Corps projects in protected areas prevented             channel to accommodate modern shipping vessels.


                                                                                                                                                                      Civil Works Fund 63
03CivilWorks12-12.qxd     12/12/2003        5:38 PM      Page 64




                                                                           $21.7 billion in average annual damages. Through FY      In FY 2002 the program completed a 7-year project
                                                                           2000, the nation had invested $43.6 billion ($122        that will protect millions of Americans. In the early
                                                                           billion, adjusted for inflation) in flood damage         1990s the 2,000-square-mile Los Angeles County
                                                                           reduction projects, preventing an estimated $419         drainage area was only partially protected from
                                                                           billion ($709 billion, adjusted for inflation) of flood  floods. Enormous population growth in the area
                                                                           damage. Adjusted for inflation, these figures show a     rendered the existing flood control system inadequate,
                                                                           return on investment of more than $6.36 in damage        to the extent that the Federal Emergency Management
                                                                           prevented for each dollar spent. The program also has    Agency (FEMA) required residents to hold mandatory
              A Corps-led sandbag operation in Portland, OR.               helped reduce the number of lives lost annually due to   flood insurance. Initiated in 1996 at an estimated cost
                                                                           floods from an average of 179 in the decade 1972-        of more than $450 million, the Los Angeles County
              Average Annual Damage Results for Period                     1981 to 89 in the period 1991-2000.                      Drainage Area Project was completed for roughly
              1993 - 2002                                                                                                           $200 million, of which Civil Works paid $150
                                                                           Through its Flood Plain Management Services, the         million. The project saw the building of 21 miles of
              Damage Suffered                               $5.5 billion
                                                                           Flood and Coastal Storm Damage Reduction Program parapet walls, the reinforcement of the back slopes of
              Damage Prevented                             $22.8 billion   additionally advises property owners and communities levees, and the modification or raising of 26 bridges.
                                                                           on protective measures that they can take on their own As a result of these improvements, FEMA eliminated
                                                                           behalf. Each year the program responds to more than the obligation for flood insurance.
                                                                           40,000 requests for information on how to protect
                                                                           more than $6 billion worth of property.                  In FY 2003, this $1.4 billion program accounted for
                                                                                                                                    30 percent of the Civil Works appropriation.
                                                                           As an ever more mobile society moves toward
                                                                           America’s coastal regions, protecting the coastline is a Environmental Protection, Restoration, and
                                                                           matter of increasing federal interest. The Flood and     Management
                                                                           Coastal Storm Damage Reduction Program seeks the This evolving and growing program emphasizes
                                                                           most economical and environmentally sound solutions environmental stewardship, ecosystem restoration,
                                                                           to achieve this. Shore protection projects are carried   mitigation, environmental compliance, and research
                                                                           out at the request of local sponsors, as authorized and and development. Responding to the growing national
                                                                           funded by Congress, and are cost-shared with the state demand for restoration and protection, the program’s
                                                                           and local government within whose jurisdiction the       work takes many forms, ranging from monitoring
                                                                           project falls. Projects are performed only on publicly water quality at dam sites, to operating fish hatcheries
                                                                           accessible beaches, and only after thorough studies      with the states, to restoring the environment at the
                                                                           have determined that there exists a positive benefit-to- sites of earlier projects. Since 1998, the Corps has
                                                                           cost ratio.                                              added more than 120,000 acres of aquatic, wetland,

                 64 Fiscal Year 2003 Army Annual Financial Statement
03CivilWorks12-12.qxd    12/12/2003     5:38 PM     Page 65




              and floodplain ecosystems to America’s natural              Protection Agency’s Superfund program. Work under
              habitats.                                                   the program is ongoing at 46 locations in Missouri,
                                                                          Illinois, Ohio, Maryland, New Jersey, New York,
              One example of work undertaken in FY 2003 is the            Connecticut, Pennsylvania, and Massachusetts.
              Kissimmee River project in Florida. In the 1960s,
              flood control measures reduced this 103-mile river to       In FY 2003, this $729.7 million program accounted
              a 52-mile canal, resulting in a degradation of the          for 16 percent of the Civil Works appropriation.
              natural ecosystem. An ongoing Civil Works project
              aims to restore 52 miles of the river and 27,000 acres      Regulation of Wetlands and Waterways
                                                                          In accordance with the Rivers and Harbors Act of
              of wetlands, improving water quality and thus
                                                                          1899 (Sec. 10) and the Clean Water Act (CWA) of
              restoring the natural habitat for more than 300 species
                                                                          1972 (Sec. 404), as amended, the Civil Works
              of fish and wildlife.
                                                                          Regulatory Program regulates the discharge of
                                                                          dredged and fill material into waters of the United
              The Corps of Engineers and the Nature Conservancy
                                                                          States, including wetlands. Section 10 applies to
              have agreed to a collaborative effort to improve the
                                                                          navigable waters, while section 404 applies more
              management of dams on nine U.S. rivers. The
                                                                          broadly to waters of the United States, which includes
              Sustainable Rivers Project will seek to improve dam
                                                                          navigable waters, their tributaries, and wetlands.
              operations, helping to restore and protect the health of
              rivers and surrounding natural areas while continuing  As part of the permit evaluation process, the Corps
              to meet human needs for services such as flood         complies with the National Environmental Policy Act,
              damage reduction and power generation. The             and other applicable environmental and historic               Formerly Utilized Sites Remedial Action Program. Groundwater
              collaborative effort will initially examine the potential
                                                                     preservation laws. The objective of the program is to         sampling for radioactive materials, Wayne, NJ.

              to improve operations at 13 dams on nine rivers in     protect America’s aquatic resources while allowing
              nine states.                                           reasonable use of private property for important
                                                                     economic or infrastructure development on both
              In 1997, the Civil Works Environmental Program took private and public lands.
              over from the Department of Energy the Formerly
              Utilized Sites Remedial Action Program, which          The Corps must consider the views to other federal,
              mandates the clean-up of former Manhattan Project      tribal, state and local governments and agencies;
              and Atomic Energy Commission sites. The transfer of interest groups; and, the general public when
              this program to Civil Works capitalizes on the Corps rendering its final permit decisions. The Regulatory
              experience gained in cleaning up former military sites Program seeks to balance the reasonably foreseeable
              and hazardous waste sites under the Environmental      benefits and detriments of proposed projects with the         Kissimmee River C-38 Restoration Project, FL.



                                                                                                                                                                     Civil Works Fund 65
03CivilWorks12-12.qxd      12/12/2003         5:38 PM       Page 66




                                                                       goal of making permit decisions that recognize the         2000, a unified and integrated corporate planning
                                                                       essential values of aquatic ecosystems to the general      project, to raise responsiveness to the highest possible
                                                                       public and our national security.                          level. Predicting impending disasters can be difficult,
                                                                                                                                  but the returns on investment in emergency
                                                                       The Corps must make final permit decisions that are        preparedness can be dramatic.
                                                                       not contrary to the public interest, and authorize only
                                                                       those projects that represent the least environmentally    Hurricane Isabel the largest hurricane of FY 2003,
                                                                       damaging practicable alternative. The Corps works          made landfall at midday, September 18, on the outer
                                                                       with project proponents to avoid and minimize              banks of North Carolina. Packing maximum sustained
                                                                       impacts to the aquatic environment first. Unavoidable      winds of 100 mph, Isabel caused widespread power
                                                                       adverse impacts to the aquatic environment must be         outages in Virginia, Washington, D.C., Maryland, and
                                                                       offset by the implementation of compensatory               New Jersey. Two divisions of the Corps of Engineers
                                                                       mitigation projects. Compensatory mitigation projects      were affected: the South Atlantic Division and the
                                                                       are designed to restore, enhance, establish, or protect    North Atlantic Division, in Federal Emergency
                                                                       and maintain aquatic functions and values. A critical      Management Agency FEMA) Regions II, III, and VI.
                                                                       objective is for the Corps to make efficient and timely    The Corps assigned 228 employees to its disaster
                                                                       permit decisions, providing regulatory consistency         response effort. The Norfolk District provided the
                                                                       and predictability for the regulated public, and for all   primary contribution to the emergency operations,
                                                                       interested parties. In FY 2003, 88 percent of all permit   including the execution of FEMA missions through to
                                                                       actions were completed in 60 days. In FY 2003, this        financial closeout, within its Civil Works boundaries
                                                                       $143.1 million program accounted for 3 percent of the      in the Commonwealth of Virginia. The Baltimore
                                                                       Civil Works appropriation.                                 District had similar responsibilities in the State of
                                                                                                                                  Maryland and the District of Columbia.
                                                                       Emergency Management
                                                                       In a typical year, there are 30 presidential disaster      All Corps of Engineers’ flood control projects
                                                                       declarations demanding a response from this Civil          performed as expected, minimizing the damage
                                                                       Works Program. It is often difficult to know more          caused and protecting lives. Requests for ice and
                                                                       than a few days in advance when a hurricane or other       water headed the calls for aid from North Carolina,
                                                                       natural disaster will strike, and in the case of a man-    Virginia, Maryland, Delaware, and the District of
                                                                       made disaster, as the events of September 11, 2001,        Columbia: in the days prior to and following the
                                                                       showed, there may be no notice at all. To prepare for      hurricane FEMA and the Corps moved more than 9
              Clean up after Hurricane Isabel in Norfolk, VA.          such events, the Corps has implemented Readiness           million pounds of ice to North Carolina, Virginia, and


                 66 Fiscal Year 2003 Army Annual Financial Statement
03CivilWorks12-12.qxd   12/12/2003     5:38 PM    Page 67




              D.C. More than 8.6 million liters of drinking water     through regional alliance meetings where Corps
              were delivered to Virginia emergency managers.          customers and stakeholders (including the Power
                                                                      Marketing Authorities (PMAs)) are represented. Once
              In FY 2003, this program received new budget            completed, the Statement of Expenses is audited by an
              authority of $21.2 million that accounted for a little  outside contractor and then provided to the PMAs
              more than 1 percent of the Civil Works new              after the completion of each fiscal year. The PMAs
              appropriation authority. The program is actually larger use this information to update and adjust their “Power
              than indicated by the FY 2003 appropriation. The        Repayment Study” which looks at current and future
              $21.2 million is augmented by reimbursable work         years on rates and revenues. The PMAs then collect         Turbines inside the Bonneville Dam powerhouse, Oregon.
              performed for FEMA and by prior year disaster           power receipts (revenues) throughout the year and
              recovery appropriations carried over into FY 2003.      returns receipts to the Treasury reflecting either a
                                                                      yearly expense or an amortized expense. The actual
              Hydropower
                                                                      summary total of receipts deposited to the Treasury in
              Some of the Civil Works projects built for navigation
                                                                      any given year is reported back to the Corps for
              and flood control have the additional benefit of
                                                                      inclusion in the CFO annual report.
              providing hydroelectric power. This is in keeping with
              Civil Works policy and with the congressional           In FY 2003, this $191.8 million program accounted
              direction to maximize public benefits in all projects   for 4 percent of the Civil Works appropriation. In
              for all desirable purposes, including power generation. addition, the Corps received $193 million directly
              This Civil Works Program operates and maintains 75 from the Bonneville Power Administration to support
              power plants, generating about 24 percent of            the cost to operate and maintain Corps owned
              America’s hydroelectric power. The program is the       hydroelectric power facilities in the Pacific Northwest.
              country’s largest producer of hydroelectricity.         In FY 2003, the Federal Power Marketing Agencies
              Hydropower is a low-cost, renewable power source        returned $1.6 billion in revenue to the U.S. Treasury
              that produces none of the airborne emissions that       from power sales (revenue figures were obtained from
              contribute to acid rain or the greenhouse effect,       the Department of Energy).
              leading many to view it as the least environmentally
              disruptive source of electric power.                    Water Supply
                                                                      Civil Works has 167 projects with municipal and
              At the end of every fiscal year, the Corps is required industrial water supply as an authorized purpose. It
              to develop a “Statement of Expenses” for the Corps      supplies water to 10 million people in 115 cities,
              hydropower expenses which is broken down by plant, including some of America’s largest metropolitan
              District, and Region. These expenses are monitored      areas, such as Washington, D.C., Atlanta, and Dallas-

                                                                                                                                                                      Civil Works Fund 67
03CivilWorks12-12.qxd      12/12/2003             5:38 PM   Page 68




                                                                                                                                                                    Fort Worth. In arid parts of the country there are 62
                                                                                                                                                                    projects that have irrigation as an authorized purpose.
                                                                                                                                                                    Many of these projects serve flood control,
                                                                                                                                                                    navigation, and hydroelectric purposes as well as
                                                                                                                                                                    irrigation.

                                                                                                                                                                    In FY 2003, this $4.4 million program accounted for
                                                                                                                                                                    less than 1 percent of the Civil Works appropriation.
                                                                                     A park ranger emphasizes safety at the John Day Dam, OR.
                                                                                                                                                                    Recreation
                                                                                                                                                                    The Civil Works Recreation Program is an important
              Figure 20. Civil Works Boundaries                                                                                                                     provider of outdoor recreation opportunities. The
                                                                                                                                                                    program operates more than 44,000 recreation sites at
                                                                                                                        North
                Alaska
                                                                                                                       Atlantic                                     456 projects, mostly lakes, hosting more than 396
                                                                                                                                                                    million visits a year at its facilities. One in ten
                                        Seattle                                                Great Lakes                                                          Americans visits a Civil Works recreation site at least
                                                                                               & Ohio River
                                                                                                                                   New
                                                                                                                                                                    once a year. These projects have a significant
                                                                              St.
                             Portland     Walla      Northwestern             Paul                          Buffalo               England                           economic impact, supporting 500,000 jobs and
                                          Walla
                                                                                                 Detroit                                                            generating $15 billion in visitor spending annually. In
                                                                                      Rock
                                                                                      Island
                                                                                                            Pittsburgh       New York                               addition, there are approximately 500 concessionaires
                                                                  Omaha                            Chicago                 Philadelphia
                                   Sacramento                                                       Cincinnati Baltimore                                            on Civil Works recreation sites, representing more
               San                                                Kansas City                                  Hungtington                                          than $1 billion in fixed assets. Corps lands are also
                                                                                                                           Norfolk
               Francisco                South Pacific                                            Louisville                                                         leased to nearly 600 state parks; 600 local government
                                                                                                  Nashville
                                                                                     Little                                                                         parks; and to 420 boy or girl scout camps, church
                                                                       Tulsa         Rock       Memphis                  Wilmington
                         Los
                         Angeles                                  Southwestern                                                                                      camps, boating clubs, and other such organizations
                                                                                                                        Charleston
                                                    Albuquerque
                                                                  Ft. Worth
                                                                                                      Atlanta
                                                                                                                      Savannah
                                                                                                                                      Legend:                       that are open to public membership and that have
                                                                                                  Mobile
                                                                                                                      Jacksonville
                                                                                                                                           Div./Regional HQ
                                                                                                                                               location             defined goals that are consistent with the Corps’
                                                                           Dallas
                  Honolulu
                                                                      Galveston                   New
                                                                                                                                           District HQ location
                                                                                                                                           Division boundary        public recreation stewardship responsibilities.
                                                                                                  Orleans                                  District boundary
                                                                                                                                           State boundary
                 Pacific Ocean                                                         Mississippi                       South                   Key
                                                                                                                                                                    In FY 2003, this $282.6 million program accounted
                                                                                         Valley                         Atlantic     Follows Watershed Boundaries
                                                                                                                                                                    for 6 percent of the Civil Works appropriation.




                 68 Fiscal Year 2003 Army Annual Financial Statement
03CivilWorks12-12.qxd   12/12/2003    5:38 PM    Page 69




              Organizational Structure                               levels of authority. As shown in Figure 21, the         Figure 21. Civil Works Levels of Authority
              The Workforce                                          Assistant Secretary of the Army for Civil Works
              Civil Works employs more than 25,000 people.           (ASA (CW)) is appointed by the President and is                                                        Provides
              Funded through the Energy and Water Development responsible for Civil Works policy. The Chief of                                        ASA CW                policy
                                                                                                                                                                            guidance
              Appropriation, it executes programs through eight      Engineers reports to the ASA (CW) for Civil Works
              regional divisions and 38 of the 41 districts of the   mission accomplishment and in turn delegates most
              Corps of Engineers (the remaining three districts have of his responsibilities for managing the various                            Chief of Engineers
              only military mission related work).                   programs to the Director of Civil Works. The Chief                          Applies policy guidance

                                                                     of Engineers, through the Director of Civil Works,
              Figure 20 shows the division boundaries. Rather than is responsible for the leadership and management of                             Director of CW
              being demarcated by state boundaries, these are        the program and for ensuring that policies                         Acts on behalf of the Chief of Engineers

              defined by watersheds and drainage basins, reflecting established by the ASA (CW) are applied to all
              the water resources nature of the Civil Works mission. phases of the Civil Works mission.                                              8 Divisions
                                                                                                                                           Supervise and manage districts
                                                                                                                                         Perform quality assurance on district
              The distribution of Civil Works employees similarly    The divisions, commanded by Division Engineers,
              highlights the customer focus of the program: 95       are regional offices responsible for the supervision
                                                                                                                                 Plan                                       Operate
              percent of employees work at the district level,       and management of their subordinate districts,              Design             38 Districts            Maintain
                                                                                                                                 Construction
              reflecting the fact that project management is         including the monitoring and quality assurance of              Management

              performed at the district level.                       district work.

              The Civil Works mission contracts out to civilian      The districts are the foundation of the Civil Works
              companies all of its construction and approximately    mission, managing water resource development over
              50 percent of its design work: while Civil Works       a project’s lifecycle. They conduct planning studies,
              directly employs only 25,000 people, as many as        perform project design, oversee construction by
              150,000 people are indirectly employed in support of   contractors, and manage completed facilities. They
              its projects. These contractual arrangements have      also develop decision documents and prepare
              served the nation well in times of emergency.          reports, prepare cost estimates, negotiate
                                                                     agreements, and perform all the day-to-day activities
              The Leadership                                         that get the job done. They are the program’s face to
              Oversight of Civil Works is provided through four      the nation.




                                                                                                                                                               Civil Works Fund 69
03CivilWorks12-12.qxd   12/12/2003       5:38 PM      Page 70




              Civil Works – Performance Results                         annual performance toward achievement of the        To continue to manage our water resources effectively
                                                                        strategic goal:                                     and to maintain waterway infrastructure, the Civil
              Civil Works directly impacts America’s prosperity,
              competitiveness, quality of life, and environmental                                                           Works mission applies a consistent program
                                                                            Provide sustainable water resources development investment objective to the development and
              stability. Civil Works leaders accordingly have               and integrated management of the nation’s water
              developed a draft strategic plan to identify and answer       resources.                                      management of water resources infrastructure. At the
              the nation’s water resources needs, recognizing                                                               core of this objective are two guiding principles:
              authorities and budget constraints. Research findings         Repair past environmental degradation and
              and input from the public, gained through listening           prevent future environmental losses.            1. Invest in the navigation program infrastructure
              sessions, have led the Corps to identify the following                                                             when project benefits exceed their costs.
              five issues as the main national water resource               Ensure that projects perform in a manner that
              challenges facing the nation:                                 meets authorized purposes and evolving
                                                                                                                            2. Invest in the flood and coastal storm damage
                                                                            conditions.
                                                                                                                                 reduction program infrastructure when project
              1. Balancing demands for water resource                                                                            benefits exceed their costs.
                 development in terms of access to and use of               Reduce vulnerabilities and losses to the nation
                 those resources and of the preservation of                 and the Army from natural and man-made
                                                                            disasters including terrorism.                      Performance Measure 1: For investments in
                 environmental quality;
                                                                                                                                navigation projects, the benefit-to-cost ratio at the
              2. Repairing damage to the nation’s environment                Be a world-class public engineering organization. completion of project construction should at least
                 from past development;                                                                                         equal the benefit-to-cost ratio at the time of initial
                                                                        Strategic Goals                                         project funding. The performance target for FY 2003
              3. Addressing the performance and safety                                                                          was to achieve a benefit-to-cost ratio at completion
                 implications of an aging water resources                 Strategic Goal 1: Provide sustainable
                                                                                                                                within 10 percent of the initial benefit-to-cost ratio.
                                                                          development and integrated management of the
                 infrastructure;
                                                                          Nation’s water resources
                                                                                                                                Performance Result 1: In FY 2003, 4 navigation
              4. Ensuring the capability to respond to natural                                                                  construction projects were completed. Three of the
                 disasters;                                             By anticipating, identifying, and addressing water      four projects that were completed met the
                                                                        resources infrastructure problems and needs, the Army performance target with a benefit-to-cost ratio
              5. Minimizing the impact of institutional inhibitors
                                                                        Corps of Engineers Civil Works mission is able to       equaling or exceeding the benefit-to-cost estimate
                 on water resources decision-making and
                 management.                                            enhance the nation’s economic well-being. By            used to justify initial project construction funding.
                                                                        maintaining coastal harbors and intracoastal waterways, One project was completed that missed the
              To address these challenges, the Corps developed the      Civil Works strengthens America’s ability to export its performance target, but was still completed with a
              following five strategic goals. Specific objectives       products to the world and to move those products        positive benefit-to-cost ratio, thereby still validating
              associated with each goal enable the measurement of       around the nation.                                      the initial project investment decision.

                70 Fiscal Year 2003 Army Annual Financial Statement
03CivilWorks12-12.qxd   12/12/2003      5:38 PM    Page 71




              Performance Measure 2: For investments in flood           that are both effective and efficient, employing, where
              and coastal storm damage reduction projects, the          appropriate, leading-edge technologies and
              benefit-to-cost ratio at the completion of project        methodologies.
              construction should at least equal the estimated
              benefit-to-cost ratio at the time of initial project      Civil Works is pursuing the restoration of
              funding. The performance target for FY 2003 was to        environmental damages and losses that resulted from
              achieve a benefit-to-cost ratio at completion within 10   past actions where it did not adequately anticipate or
              percent of the initial benefit-to-cost ratio.             take into account the environmental consequences of
                                                                        those actions. It plans to exercise its authority to the
              Performance Result 2: In FY 2003, 17 flood and            fullest extent in support of the ecosystem restoration
              coastal storm damage reduction projects were              portion of the Civil Works Environmental Program. In
              completed; 12 of the 17 projects were completed with addition, it will support the national commitment to
              a benefit-to-cost ratio that equaled or exceeded the      wetlands embodied in the Clean Water Action Plan,
              estimate used to justify the initial project construction by adding to the nation’s environmental resource base
              funding. One project was completed within 10 percent through restoration and enhancement projects. It is
              of the initial investment estimate. The remaining four working to ensure that there is no further net loss of
              projects failed to meet the performance target upon       wetlands due to unwise development activity.
              completion. The four projects were, however,
              completed with favorable benefit-to-cost ratios and       In addition, the Corps of Engineers has been given
              thereby validated the initial investment decision.        responsibility to execute an environmental cleanup
                                                                        program of contaminated sites under the Formerly
                Strategic Goal 2: Repair past environmental             Utilized Sites Remedial Action Program (FUSRAP).
                degradation and prevent future environmental            Accomplishment of the cleanup program will result in
                losses                                                  the elimination of potential risks to health and the
                                                                        environment at these high-priority sites.

              To accomplish the second strategic goal Civil Works       Success in pursuit of this strategic goal is
              must anticipate, identify, and address the nation’s       demonstrated through the performance measures that
              needs for the environmental restoration and               have been developed for the Environmental and
              enhancement of its water resources. Civil Works will      Regulatory programs.
              work with its partners, including other federal and
              state agencies, nongovernmental organizations, and        Environmental
                                                                                                                                   Ducks, geese, and herons are protected on more than 85,200 acres of
              Native American tribes, to develop creative solutions     The Environmental program emphasizes                       Army Corps of Engineers land devoted to wildlife management.



                                                                                                                                                                         Civil Works Fund 71
03CivilWorks12-12.qxd         12/12/2003              5:38 PM          Page 72




              Table 44. Civil Works-Administered Mitigation Land                                  environmental stewardship, ecosystem restoration,        Performance Result 1: During FY 2003, Civil Works
                                                         FY 2001        FY 2002       FY 2003     mitigation, environmental compliance, and research       administered 566,016 mitigation acres, representing a
               Total acreage designated as Civil          713,374        713,909       625,291    and development. The work undertaken by this             slight increase of 1,991 acres or less than 1 percent
               Works-administered mitigation                                                      program takes many forms, reflecting the growing         over the acreage administered in FY 2002; a change
               land
                                                                                                  national demand for restoration and protection.          that is statistically insignificant. This measure only
               Mitigation land for which                  554,880        564,025       566,016
               requirements were met (acres)                                                                                                               applies to project lands that remain in Corps of
               Percentage of Civil Works-                      78%            79%          91%    There are three program objectives in support of the     Engineers ownership and it therefore reflects retained
               administered mitigation lands for
               which mitigation requirements                                                      strategic goals of the Civil Works Environmental         stewardship responsibility. As shown in table 44, Civil
               were met
                                                                                                  Program. These are as follows:                           Works is achieving mitigation requirements on 91
               Note: The universe of total acreage designated as Civil Works-administered
               mitigation land shrunk by over 88,600 acres from FY 2002 due to two projects                                                                percent of lands designated and required for
               with large land holdings being placed in an inactive status and removal of other
               projects lands misclassified with respect to mitigation requirements.              1. Invest in mitigation and restoration projects or      mitigation, exceeding the performance target of 85
                                                                                                     features to make a positive contribution to the       percent for FY 2003.
              Table 45. Recovery Plan Projects                                                       nation’s environmental resources.
                                                         FY 2001       FY 2002        FY 2003
                                                                                                                                                           Performance Measure 2: The percentage in which
                                                                                                  2. Invest in mitigation and restoration projects and     Civil Works Stewardship should be engaged in
               Number of opportunities to                      505            509           515      in the operation of program facilities to assist in   opportunities to participate in recovery plan efforts for
               participate in recovery of
               federally listed species                                                              the recovery of federally listed threatened and       federally listed species. The performance target was
               Number of opportunities taken                   491            496           504      endangered species.                                   raised in FY 2002 to not less than 95 percent, based
               Percentage of opportunities
               taken to assist in the recovery of
                                                              97%            97%           98%
                                                                                                  3. Ensure that the operation of all Civil Works          upon experience gained with baseline performance
               federally listed species
                                                                                                     facilities and management of associated lands,        measurement and the level of funding appropriated
                                                                                                                                                           between FY 2001 and FY 2002.
                                                                                                     including out-granted areas, complies with the
                                                                                                     environmental requirements of the relevant
                                                                                                                                                           Performance Result 2: The performance target was
                                                                                                     federal, state, and local laws and regulations.       exceeded. Table 45 shows that during FY 2003, the
                                                                                                  Performance Measure 1: The percentage of Civil           Corps participated in recovery programs for 81
                                                                                                                                                           federally listed species, engaging in 504 separate
                                                                                                  Works Environmental Program-administered
                                                                                                                                                           opportunities to benefit these species or their habitat.
                                                                                                  mitigation land meeting the requirements of the
                                                                                                                                                           A total of 293 Corps projects were involved.
                                                                                                  authorizing legislation or of the relevant Corps of
                                                                                                  Engineers decision document. The target for FY 2003      Performance Measure 3: To correct 100 percent of
                                                                                                  was to meet requirements for 85 percent of mitigation    all significant findings and 70 percent of all major
                                                                                                  lands. This measure is calculated as a percentage of     findings annually. A significant finding is a
                                                                                                  all designated program-administered mitigation land      determination that Corps projects are not meeting an
                                                                                                  that meet mitigation requirements.                       environmental requirement and that the condition

                  72 Fiscal Year 2003 Army Annual Financial Statement
03CivilWorks12-12.qxd   12/12/2003      5:38 PM     Page 73




              poses, or has a high likelihood of posing, a direct and    of the strategic goals of the Civil Works mission:
              immediate threat to human health, safety, the
              environment, or the Civil Works mission. A major               Administer the regulatory program in a manner
              finding is a determination that a Corps project is not         that protects the aquatic environment.
              meeting an environmental requirement and that the
              condition may pose a direct and immediate threat to            Administer the regulatory program in a manner
              human health, safety, the environment, or the Civil            that renders fair and reasonable decisions for
              Works mission. The success rate of correcting                  applicants.
              significant and major findings is calculated annually.
                                                                             Administer the regulatory program in a manner
              Performance Result 3: The performance target was               that enables efficient decision making.                Table 46. Correction of Significant and Major
                                                                                                                                    Environmental Findings
              exceeded for major findings. During FY 2003, we
              corrected 3 of 5, or 60 percent (see Table 46), of         Performance Measure 1: Administer the regulatory                                            FY 2001       FY 2002    FY 2003

              significant findings. We completed corrections for 1       program in a manner that protects the aquatic              Number of significant findings             3         10         5

              significant finding remaining at the end of FY 2002,       environment. The performance target of Civil Works         Percentage corrected                 67%           70%        60%

              and two significant findings identified during FY          is to realize no net loss of wetlands.                     Number of major findings              400          502        471
                                                                                                                                    Pecentage corrected                  62%           57%        72%
              2003. We implemented provisional corrections for the
                                                                         Performance Result 1: The performance target was
              two remaining significant findings to eliminate the
                                                                         met. Table 47 shows that during FY 2003, 43,379
              immediate threat to the environment. The Corps
                                                                         acres of wetlands were restored, created, enhanced, or
              anticipates total correction of the two open significant   preserved, offsetting the 21,330 acres that were lost to
                                                                                                                                    Table 47. Development and Mitigation of Wetlands
              findings in FY 2004 subject to funding availability.       permitted development.                                                                      FY 2001       FY 2002    FY 2003
              The Corps continues to place a high priority on                                                                       Wetland acres permitted for        24,073        24,651     21,330
              achieving both performance goals in FY 2004.               Performance Measure 2: The number of all permit            development
                                                                                                                                    Wetland acres mitigated            43,832        57,821     43,379
                                                                         decisions completed within 60 days, expressed as a
              Regulatory                                                 percentage of all permit decisions. The target is to
              Civil Works operates a comprehensive regulatory            complete 85 to 95 percent of all actions within 60
              program to protect from overdevelopment the aquatic        days.
              environment, primarily, but also the navigability of                                                                  Table 48. Permit Actions Completed within 60 Days
              waterways. Management of this program has a related        Performance Result 2: As displayed in Table 48,                                             FY 2001       FY 2002    FY 2003
              objective of minimizing the time taken to process          during FY 2003, 75,771 permit actions, or 88 percent       Number of permit actions           73,415        71,652     75,771
              decisions on requests for permits to work in the           of all permit actions, were completed in 60 days or        completed within 60 days
              waters of the United States. The following program         less. While this figure exceeds the performance target     Percentage of actions                88%           88%        88%
                                                                                                                                    completed within 60 days
              objectives have been established to support the pursuit    of 85 percent, it remains unchanged from last year’s

                                                                                                                                                                       Civil Works Fund 73
03CivilWorks12-12.qxd      12/12/2003         5:39 PM    Page 74




              Table 49. Standard Permit Actions Completed within 120           performance. The districts are concentrating on
              Days                                                             getting the Nationwide and General Permits                Strategic Goal 3: Ensure that projects perform in
                                              FY 2001    FY 2002    FY 2003    authorized; this has helped to stabilize overall          a manner to meet authorized purposes and
               Number of standard permit         2,600      2,536      2,446   processing times.                                         evolving conditions
               actions completed within 120
               days
                                                                               Performance Measure 3: The number of standard
               Percentage of actions
               completed within 120 days
                                                  60%        61%        56%                                                            Civil Works customers, partners, and stakeholders
                                                                               permit decisions completed within 120 days,             expect delivery of the level of service that is designed
                                                                               expressed as a percentage of all standard permit        into a project, and expect that high quality of service
                                                                               decisions. Standard permits are those for larger        to continue even with changing demands on the
                                                                               projects that require extensive review. The             project. This third strategic goal was developed to
                                                                               performance target is to complete 70 to 80 percent of   ensure that Civil Works’ Programs continue to meet or
                                                                               decisions on standard permits within 120 days.          exceed customer expectations. This requires particular
                                                                                                                                       attention to the quality and performance of Corps
                                                                               Performance Result 3: The performance target was        projects, early recognition and analysis of problems,
                                                                               not met. During FY 2003, 56 percent of all standard     and identification of cost-effective ways to prevent,
                                                                               permit actions were completed in less than 120 days     lessen, or correct any deficiencies.
                                                                               (see Table 49). FY 2003 performance was down
                                                                                                                                       In addition, Civil Works recognizes that it must
                                                                               slightly from the last three years at between 60        continue to provide facilities that meet the needs of
                                                                               percent and 62 percent. The districts are contending    diverse and changing user groups. For projects to
                                                                               with permit applications that are significantly more    deliver the requisite performance and service levels,
                                                                               complex than in past years and that involve lengthy     they must serve the needs of their users. Projects
                                                                               analysis of their potential environmental impacts.      typically are designed to accomplish a particular
                                                                               Issues related to endangered species, historic          purpose for a specified life span. In order that they
                                                                               properties, water quality, and coastal resources also   continue to meet the changing needs of users, they
                                                                               are adding to permit delays. Furthermore, the general   may have to undergo design changes or may need to
                                                                                                                                       be rehabilitated or reconstructed in order to modernize
                                                                               public and the environmental community are
                                                                                                                                       their functions.
                                                                               becoming much more aware and involved with the
                                                                               permit process, leading to increased numbers of         The performances of the Navigation, Flood and
                                                                               comments raised in response to every public notice      Coastal Storm Damage Prevention, Hydropower,
                                                                               and to a rising trend in legal challenges.              Recreation, and Water Supply programs reflect the



                 74 Fiscal Year 2003 Army Annual Financial Statement
03CivilWorks12-12.qxd   12/12/2003     5:39 PM    Page 75




              overall success of the Civil Works Mission in          the nation’s navigational infrastructure continues to
              achieving this strategic goal. The performance of each exceed the required availability of 90 percent, but is
              program is outlined in the following sections.         being challenged as a result of extreme weather
                                                                     conditions in various regions of the country.
              Navigation
              The responsibilities of the Navigation program         Performance Indicator 1: Monitor the volume of
              include the improvement and maintenance of port and commerce and the operational cost of the fuel-taxed
              harbor channels and of the inland waterways that       waterways component of the navigation system.
              handle the nation’s maritime commerce. The objective
              of the program is to operate and manage the            Performance Result 1:The volume of commerce and
              navigation infrastructure as to maintain consistent,   the operational cost of the fuel-taxed waterways,
              acceptable levels of service. One performance          shown in Table 51, remained essentially constant in
              measure and two performance indicators are used to     CY 2001 and 2002. CY 2003 was not over at the time
              gauge the successful pursuit of this objective. These  of printing, so volume and cost data for CY 2003 are      Table 50. Availability of Navigational Infrastructure
              are as follows:                                        not available.                                                                                 FY 2001           FY 2002          FY 2003
                                                                                                                               Actual availability                          94%              92%              92%
                   The availability to commercial traffic of high use Performance Indicator 2: The need for dredging of
                   navigation infrastructure (waterways, harbors,     harbors and channels is largely dependent upon acts
                   and channels)                                      of nature and factors beyond the control of man. No
                   The volume of commerce and the operational         performance target for the volume of material to be      Table 51. Volume of Commerce and Operational Cost
                   cost of the fuel-taxed waterways component of      dredged has therefore been established. The depth of
                                                                                                                                                                    CY 2001           CY 2002          CY 2003
                   the navigation system;                             material to be dredged and the disposal of dredged
                                                                                                                               Ton-miles of commerce                       266.8            266.9             N/A2
                                                                      material are the two main factors influencing the cost   carried (billions)1
                   The maintenance, through dredging, of safe and of dredging.
                                                                                                                               Cost per ton-mile                      $0.00207           $0.00206             N/A2
                   reliable harbors and channels.                                                                              1
                                                                                                                                   Ton-mile data are reported on a calendar basis. Costs are on a fiscal year basis.
                                                                      Performance Result 2: Based upon preliminary             2
                                                                                                                                   Data was not available at time of printing.
              Performance Measure: Percentage of time program information shown in Table 52, 204 million cubic
              facilities are open to commercial traffic. The          yards of dredged material were removed for
              performance target is 90 percent availability.          maintenance dredging during FY 2002 at a cost of         Table 52. Volume and Cost of Material Dredged
                                                                      $2.73 per cubic yard.                                                                                 FY 2001       FY 20021      FY 2003
              Performance Result: During FY 2002, the
              availability of inland navigational infrastructure      Flood and Coastal Storm Damage Reduction                 Cubic yards removed (millions)                      218           204          N/A1

              decreased slightly by 2 percent to 92 percent and       There are primarily two ways to reduce flood damage.     Cost per cubic yard                               $2.56        $2.73           N/A1

              remained at that level in FY 2003. The availability of The first calls for the use of large-scale engineering        Data was not available at time of printing.
                                                                                                                               1




                                                                                                                                                                                 Civil Works Fund 75
03CivilWorks12-12.qxd            12/12/2003              5:39 PM           Page 76




                                                                                                    projects to prevent floodwaters from inundating           ensure that the Corps of Engineers continues to serve
                                                                                                    property, and the second for the modification of          this role, it has established an overall program
                                                                                                    property susceptible to flooding, to minimize the risk    objective.
                                                                                                    of damage. Civil Works projects usually use a
                                                                                                    combination of approaches. The program objective is           Maintain reliable hydroelectric generation
                                                                                                    to operate and maintain existing federal infrastructure       reliability at Corps multi-purpose reservoir
                                                                                                    to ensure that designed levels of protection are              projects
                                                                                                    realized. A single measure is used to gauge              Performance Measure: Maintain a high reliability of
                                                                                                    performance in this respect.
                                                                                                                                                             hydroelectric power generated at multi-purpose
                                                                                                                                                             reservoir projects. The program goal is to keep the
                                                                                                    Performance Indicator: The performance of Civil
                                                                                                                                                             forced (unplanned) outage rate at less than 2.3 percent
                                                                                                    Works facilities in reducing damage where flooding
              Table 53. Flood Damages Prevented                                                                                                              in keeping with industry standards. A lower forced
                                                                                                    otherwise would have been experienced.
                                                                                                                                                             outage rate result in more reliable and less expensive
               (Dollars in billions)                    FY 2001        FY 20021         FY 2003
               Flood damage prevented                        $21.9          $23.1           N/A1    Performance Result: Table 53 shows that during FY electricity service provided to hydropower customers.
               10-year rolling average                       $21.3          $21.7           N/A1    2002, the Corps prevented $23.1 billion in flood
                                                                                                                                                             Performance Result: During both FY 2001 and FY
                   Data was not available at time of printing.                                      damage. This can be compared to the 10-year rolling
                                                                                                                                                             2002, the Corps of Engineers maintained the
               1


                                                                                                    average of $21.7 billion, that is used to smooth out the
                                                                                                                                                             reliability of hydroelectric power with a forced outage
                                                                                                    significant fluctuations in year-to-year flood damage
                                                                                                                                                             rate below the prevailing performance target of 4.5
                                                                                                    prevented that are associated with variations in
                                                                                                                                                             percent. For FY 2003 the forced outage rate actually
                                                                                                    meteorological events.                                   increased at the same time the performance target was
                                                                                                                                                              revised downward. The performance target was
                                                                                                    Hydropower
                                                                                                                                                              revised to reflect a recent study of industry standards
                                                                                                    The Civil Works Program operates 345 hydroelectric
                                                                                                                                                              for forced outage performance. The increase in FY
                                                                                                    power-generating units at 75 multi-purpose reservoirs,
                                                                                                                                                              2003 forced outage rate is attributed to minimum
                                                                                                    providing nearly a quarter of the nation’s total          funding level for O&M set by Congress. If this level
              Turbines inside The Dalles Dam Powerhouse, OR.
                                                                                                    hydropower needs; enough energy to serve about 10         of funding were to continue, it is expected that
                                                                                                    million households. Hydropower units can start            performance will continue to decline as the age and
              Table 54. Hydroelectric Power Reliability                                             quickly and adjust rapidly, allowing them to serve a      condition of the power plants continue to decline.
                                                             CY 2001       CY 2002      CY 2003
                                                                                                    primary role in meeting peak energy demands and           Data by fiscal year is provided in Table 54.
                                                                                                    energy reserve needs to protect the national power
               Performance Target (% outage)                         4.5          4.5         2.3
                                                                                                    system’s reliability and stability. The electricity is    Value to the Nation Performance Indicators: In
               Actual reliability (% outage)                         2.3          3.7         4.7
                                                                                                    distributed by federal power marketing agencies. To       addition to measuring system reliability, the program

                     76 Fiscal Year 2003 Army Annual Financial Statement
03CivilWorks12-12.qxd   12/12/2003     5:39 PM    Page 77




              also tracks operation system indicators that provide         Provide outdoor recreation opportunities to meet     Table 55. Kilowatt Hours Generated
              valuable information and trends on system                    the needs of present and future generations.                                                FY 2001 FY 2002 FY 2003
              performance. The following indicators are monitored:                                                              Kilowatt-hours generated (billions)         57.9       68.1        70.7
              (1) kilowatt-hours generated to measure total power     Performance Indicator: Cost per visitor-day of
                                                                                                                                Cost per kilowatt-hour                  $0.0038     $0.0034     $0.0028
                                                                      providing outdoor recreation facilities. The cost per
              generation and (2) cost per kilowatt-hour to measure
                                                                      visitor-day is determined by a number of variables.
              generating efficiency. Annual goals are not set for
                                                                      While Civil Works is able to manage the cost of
              these indicators because power production is largely    providing recreation facilities, the number of visitors   Table 56. Recreation Usage
              dependent upon hydrologic conditions that cannot be     who use these facilities is governed in large part by                                  FY 2001         FY 2002          FY 2003
              managed.                                                external factors, such as the weather and prevailing      Visitor-days (millions)               217           210            212
                                                                      economic conditions. Historically, no management          Cost per visitor-day              $1.24            $1.37          $1.20
              Performance Result: During FY 2003, the Civil           performance target has therefore been specified.
              Works Program generated 70.7 billion kilowatt-hours,
              representing an increase of 3.8 percent from FY 2002 Performance Result: Preliminary estimates in table
              (within normal annual variations).                      56 indicates the number of visitor-days at outdoor
                                                                      recreation areas increased slightly from 210 million in
              Recreation                                              FY 2002 to 212 million in FY 2003. In FY 2002, a
              Most federal lakes were built with a single primary     prolonged drought in the Southeastern region
              purpose. Public needs and values have changed,          depressed visitation for much of the recreation season.
              however, and the program has sought to serve the        In FY 2003 visitation was again depressed for much
              evolving public interest by adapting our reservoirs for of the visitation season in the Southeastern region due
              multiple uses, provided there is sufficient legislative to near record flooding. Many of these closed
              authority to do so. To support the broader strategic    facilities remained unavailable for public use most of
                                                                      the summer because funds were not available to repair
              goals of the Civil Works Mission and to achieve
                                                                      or replace them. Preliminary estimates indicate that
              maximum cost effectiveness in the provision of
                                                                      cost per visitor-day decreased to $1.20 because the
              outdoor recreation services, Civil Works established    visitation increased slightly and the recreation budget
              the following program objectives:                       was reduced slightly.

                  Provide outdoor recreation opportunities in an      Water Supply
                  effective and efficient manner at Civil Works-      Performance measures for this business program have
                  operated water resource projects.                   not been fielded.




                                                                                                                                                                       Civil Works Fund 77
03CivilWorks12-12.qxd   12/12/2003       5:39 PM      Page 78




                                                                       1. Attain and maintain a high and consistent state of development to improve operational processes to
                Strategic Goal 4: Reduce vulnerabilities and                preparedness.                                               better address the nation’s water resource problems
                losses to the nation and the Army from natural                                                                          and opportunities.
                and man-made disasters, including terrorism
                                                                       2. Provide a rapid, effective, and efficient all-
                                                                            hazards response capability, prepared for                   Civil Works will leverage core technical capabilities
                                                                            deployment anywhere worldwide.                              as appropriate by providing engineering-related
              By developing and implementing new ways to reduce
              the risk of flood and storm damage losses, the Civil                                                                      services to the Department of Defense agencies, other
              Works Mission is able to reduce potential flood          3. Provide the leadership to ensure effective and                federal agencies, and to other authorized entities
              damage, saving our nation billions of dollars. Every          efficient  long-term   crisis recovery,    emphasizing      through the Support for Others program. Overseas, it
                                                                            recovery of the nation’s water resources                    helps countries enhance their public sector capacities,
              year we strive to reduce further the risks associated
                                                                            infrastructure.
              with flooding and to increase our responsiveness to                                                                       especially in the management of water, to assist
              natural disasters. The Emergency Management                                                                               economic development and protect their environments
              program supports this strategic goal.                    4. Provide professional emergency management
                                                                                                                                        and ecosystems. By helping legitimate authorities to
                                                                            program services to international customers.
                                                                                                                                        improve their infrastructure and environments and to
              The Civil Works Mission includes a disaster response                                                                      ease conditions that potentially can lead to conflict,
              and recovery program, maintained by the Corps of           Strategic Goal 5: Be a world-class public                      Civil Works serves to promote democracy, peace, and
              Engineers under Public Law 84-99 and under the             engineering organization
                                                                                                                                        stability.
              Federal Response Plan in coordination with the
              Federal Emergency Management Agency (FEMA)
              and others. Civil Works response activities are          A priority of the Corps of Engineers is to maintain a            To be a world-class technical leader it is imperative to
              intended to supplement state and local efforts.          leading-edge    technical  capability   today   and  into  the   seek continuous improvement in the processes used to
              Disaster preparedness and response capabilities are      future. Ensuring    the delivery   of high-quality     and       meet the customer, partner, and stakeholder needs.
              not limited to water-related disasters, but draw on the  responsive   engineering    services   to America     and others The feedback provided by customers and project
              engineering skills and management capabilities of the    requires  a solid  foundation   in a  core  set of  technical    sponsors is the best indication of how effective Civil
              Corps to encompass a broad range of natural disasters skills. To that end, and in anticipation of future                  Works is in meeting the expectations for the quality,
              and national emergencies.                                requirements,    Civil Works   has  begun    to  identify  the   timeliness, and cost-effectiveness of its services. Civil
                                                                       range of expertise needed within the Corps; it has               Works will continue to seek that feedback in order to
              Through its emergency preparedness planning and          begun   also to  identify those  critical  functions    where    strengthen overall performance and to raise
              disaster response capability Civil Works can make a      reserves of talent may be depleted through retirement customers’ satisfaction.
              significant and direct contribution to national security and attrition. Civil Works maintains the world-class
              objectives. Four program strategies support this fourth capabilities inherent in its laboratories through capital
              strategic goal. They are as follows:                     investment, and it is engaging in research and


                78 Fiscal Year 2003 Army Annual Financial Statement
03CivilWorks12-12.qxd   12/12/2003     5:39 PM     Page 79




              Analysis of Financial Statements                          by the Office of Management and Budget.                    Figure 22. Balance Sheet Results

              FY 2003 witnessed another year of progress for the
                                                                        With that in mind, below are the financial highlights
              USACE Civil Works Fund, as the Corps continued to
                                                                        of each statement. These highlights focus on
              improve upon the myriad processes linked to                                                                                                                  $2,442,154
                                                                        significant balances or conditions to help clarify the                  $40,532,624
              producing auditable financial statements in
                                                                        Civil Works Fund’s operations. Additional
              compliance with the Chief Financial Officers Act of
                                                                        explanatory information may also be found in the
              1990. Within DoD, the USACE Civil Works Fund has
                                                                        notes that accompany these statements.
              been at the forefront in implementing federal financial
              management reform.                                                                                                                     $38,090,470
                                                                        Balance Sheet
              The financial statements were compiled in accordance      This statement presents the assets, liabilities, and net
              with guidance issued by the Office of Management          position of the Civil Works Fund as of 30 September                                                FY 2002
              and Budget and supplementary guidance provided by         2002 and 2003. Civil Works assets amounted to $38.4
              DoD. The DoD Office of the Inspector General              billion at FY 2003 year-end, nearly a 5 percent
              audited the Consolidated Balance Sheet. The Civil         decrease from the previous year. Of the total assets,                                            $3,480,122

              Works Fund received a disclaimer of opinion on the        80 percent of the dollar value resides in the property,
              Balance Sheet, Statement of Net Cost, Statement of        plant and equipment accounts. Relative to its total                   $38,406,456

              Changes in Net Position, Statement of Budgetary           assets, the Civil Works liabilities are quite low and
              Resources, and Statement of Financing. In his letter to   amounted to $3.4 billion; however, that represents an
              the Chief Financial Officer, the DoD Inspector            increase of almost $1 billion or 43 percent. This
              General made recommendations for improving                increase is due primarily to the reporting of the offset                     $34,326,456
              internal controls and promoting operating efficiencies.   for long-term interest receivables of $881.9 million.
              USACE management has initiated actions to                 Interest receivable and the corresponding liability
              implement these recommendations.                          were not reported in FY 2002 and prior years because                                               FY 2003
                                                                        the interest had not been earned.                           $ in thousands                  Total Assets
              The financial statements for the Civil Works Fund are                                                                                              Total Liabilities
              presented in a comparative format, providing financial    The third major component of the balance sheet is net                                 Total Net Position
              information for FY 2002 and FY 2003. While                position. In aggregate, the various elements of the net
              comparative statements are not required until the         position section on the balance sheet are also referred
              agency receives an unqualified audit opinion on its       to as “equity.” Equity is the residual interest in the
              financial statements, we opted for early                  assets of the entity that remains after deducting its
              implementation of the requirement as is encouraged        liabilities. For FY 2003, the Civil Works Fund net


                                                                                                                                                            Civil Works Fund 79
03CivilWorks12-12.qxd   12/12/2003       5:39 PM      Page 80




              position amounted to $34.9 billion, representing         status or remaining balances of those accounts at year- in capitalized assets that resulted from a policy change
              almost a $3.2 billion, or 8 percent, decrease from FY    end. This includes information on obligation and           to the capitalization threshold for buildings and
              2002.                                                    outlays or actual cash disbursements for the year.         structures. That change requires that all Civil Works
                                                                                                                                  buildings and structures currently capitalized under
              Statement of Net Cost                                    Statement of Financing                                     $25,000, excluding Revolving Fund and Power
              This statement presents the annual cost of operating     This is a reconciling statement that tracks the            Marketing Agencies, be expensed in the current year.
              the various Civil Works programs. To the extent a        relationship  between   the proprietary accounts  and  the
              program generates revenues, these amounts offset         budgetary accounts of the Civil Works Fund. The            Finally, the third section, Components of the Net Cost
              gross costs to arrive at the net cost of operations. For Statement   of Financing   provides data on the  total     of Operations that will not Require or Generate
              FY 2003, program costs amounted to $10.3 billion,        resources provided to the Civil Works Fund during the Resources in the Current Period, is used to adjust the
              representing a 45 percent increase from the previous fiscal year and how those resources were used.                 total resources used to finance the net cost of
              year. Conversely, program revenues increased 76                                                                     operations (the net amount of the first and second
              percent from FY 2002, climbing to $1.3 billion.          The first section of the statement, Resources Used to sections) in order to determine the net cost of
              Overall for FY 2003, the Civil Works Fund achieved a Finance Activities, shows a total of $4.6 billion. This operations. Thus, sections one and two are reconciled
              41 percent increase in the net cost of operations,       is the amount for which the Civil Works Fund may           with section three to yield a net cost of operations of
              increasing net costs to $9.0 billion—a $2.6 billion      have  a future liability that would eventually  require    $9.0 billion. This amount ties back to the Statement of
              increase from the previous year.                         cash  payments.                                            Net Cost.

              Statement of Changes in Net Position                    The second section, Resources Used to Finance Items
                                                                      Not Part of the Net Costs of Operations, identifies and
              This statement presents those accounting items that
                                                                      adjusts budgetary transactions recorded by the Civil
              caused the net position section of the balance sheet to Works Fund for changes in the amount of goods,
              change from the beginning to the end of the reporting services and benefits ordered but not received, the
              period. The Civil Works Fund saw a reduction of $3.2 costs capitalized on the balance sheet, and financing
              billion, or 7 percent, in the cumulative result of      sources that fund costs of prior periods. For FY 2003,
              operations. Contributing to this result was the $2.6    the fund had a positive $2.4 billion in adjustments.
              billion increase in costs noted above. The Net Position
              at year-end was $34.9 billion, nearly an 8 percent      The first two sections are netted together to yield the
              decrease from the previous year.                        total resources used to finance the net cost of
                                                                      operations. For FY 2003, total resources used to
              Statement of Budgetary Resources                        finance net costs increased 119 percent over the
              This statement provides information on the Civil        previous year and amounted to approximately $7.0
              Works Fund’s budgetary financing accounts and the       billion. The largest factor in this increase is the change


                80 Fiscal Year 2003 Army Annual Financial Statement
03CivilWorks12-12.qxd   12/12/2003     5:39 PM    Page 81




              Management Integrity                                     performance are not wholly in compliance with the         prioritization of IT Investments and their contribution
              The Civil Works Program identified three                 law as it pertains to small business subcontracting. In   to the mission of USACE. A number of corrective
              management control weaknesses that were reported to August 2002, the Civil Works accepted a Web-based              actions have been completed or partially met while
              be corrected during FY 2003 in last year’s statement system to track outlays to small businesses under             others have been delayed due to lack of funding.
              of assurance. However, each of the three management approved subcontracting plans and to track the actual
              control weaknesses remain as weaknesses going            execution of those plans. The system enables
              forward to FY 2004. Three areas in which Civil           subcontractors to enter on a monthly basis payments
              Works leaders continue to seek greater assurance of      received from their prime contractors, and enables
              management integrity are:                                independent validation by the government. Because
                                                                       the system is Web-based, any Civil Works office can
              Information Systems Security - Computer System review, query, or generate reports on compliance. The
              Controls                                                 system was tested in FY 2003, and full compliance is
              In October 2000, the General Accounting Office           expected no later than September 2004 compared to
              identified a number of systems control weaknesses at early September 2003 as was reported last year.
              the data processing centers. These weaknesses could
              allow either hackers or authorized users to improperly Information Technology (IT) Capital Planning and
              modify, disclose, or destroy financial data. Corrective
                                                                       Investment Decision Process
              actions to support the assurance of data security,       Weaknesses in the IT Capital Planning and Investment
              including the reorganization of the Corps of Engineers Decision Process were identified for the selection,
              and funding increases, have been taken to correct        control and evaluation of USACE IT Investments in
              these deficiencies. The targeted correction date in last FY 2001. The Clinger-Cohen Act of 1996 and Army
              year’s statement of assurance was October 2002. The Regulation 25-1 require that Federal Agencies
              followup on the General Accounting Office - Federal institutionalize a USACE IT Capital Planning and
              Information Systems Controls Audit Manual                Investment Decision Process. This process integrates
              (FISCAM) Audit was cancelled. At this time, the DoD the programming and budgeting for IT Investments
              Inspector General is beginning the followup actions. through policies, guidance and committees which
              The revised target date for successful correction of     monitor and track these investments through the
              this weakness is March 2004.                             USACE IT Investment Portfolio. Currently the
                                                                       process is fragmented and senior level approval
              Subcontracting Plans for Small Business                  continues to be given to high visibility projects that
              Procedures for evaluating and negotiating                have not been through the process. This weakness
              subcontracting plans and for evaluating subcontractor impacts corporate decisions on the ranking and


                                                                                                                                                               Civil Works Fund 81
03CivilWorks12-12.qxd   12/12/2003       5:39 PM      Page 82




              Future Effects of Existing Conditions                     barges. They are already carrying more tonnage than        Responding to Terrorist Threats
              The Marine Transportation System                          they were designed to handle, and traffic is forecast to   The events of September 11, 2001, changed the
                                                                        increase 30 percent by 2020. Delays attributable to        thinking about threat management. Everything from
              The Marine Transportation System (MTS) consists of
                                                                        aged locks already amount to 550,000 hours per             drinking water sources to reservoirs and dams is now
              1,000 harbor channels, 25,000 miles of inland, intra-     annum, representing $385 million in increased              viewed as a potential target for terrorists. Since the
              coastal, and coastal waterways, and 235 lock              operating costs. This is eroding America’s share of        attacks on New York and Washington, DC Civil
              chambers. Work done to improve the inland                 international markets. American farmers already have       Works has maintained a heightened state of alertness
              waterways is estimated to yield $5.5 billion in cost      lost 30 percent of their share of the European market      as the Corps seeks to protect the nation’s critical
              savings per year, and improvements to the deep-draft      for soybeans to Brazil and Argentina, both of which        infrastructure of water supply, waterborne commerce,
              navigation system are estimated to save an additional     have invested heavily in inland waterways to reduce        and electric power generation.
              $1.5 billion in transportation costs annually.            costs.
                                                                                                                                   Ensuring the security of this infrastructure will require
              The MTS is nearing capacity, however, and demands         A lock modernization program has been underway             investment in warning and alert systems, in systems to
              on it will grow substantially with the projected growth   since 1986, with $1.7 billion invested to date and an      detect and respond to chemical and biological agents,
              of international and domestic trade (trade is expected    additional $3.4 billion programmed for construction.       in intelligence gathering and counterterrorism
              to double by 2020 to more than 4 billion tons of cargo    This, however, is insufficient to support optimum          measures, and in emergency management systems.
              annually). This will put great pressure on the system.    construction schedules and completion dates for these      This requires investment in both technology and
              It also should be noted that few American ports           projects have been set back by between one and five        people. It is essential to institute a program that will
              provide the 50-55 feet of depth needed by the latest      years, considerably increasing costs.                      comprehensively protect our water supply systems.
              containerships. Many international ports, including                                                                  Current estimates are that this will cost $267 million
                                                                        These increasing costs come at a time when                 for immediate improvements in the first year and $65
              Halifax and Vancouver in Canada and Freeport in the
                                                                        investment in water resources is in sharp decline. In      million annually thereafter.
              Bahamas, already can accommodate such ships, and it
                                                                        1960 investments in all public infrastructure was 4
              is essential that America match them. This work
              creates the additional challenge of how to dispose of     percent of the federal budget. Today, that figure is 2.6
              the dredged material in an economically and               percent. Furthermore, in 1960 water resources
              environmentally acceptable manner.                        received slightly more than 1 percent of all public
                                                                        infrastructure investment; today, they receive less than
              Aging Infrastructure                                      half a percent. This failure to adequately invest in
              More than 44 percent of America’s locks and dams          water infrastructure could pose a serious constraint to
              are at least 50 years old and many locks are now too      America’s economic development and competitive
              small to readily accommodate modern commercial            advantage in international trade.


                82 Fiscal Year 2003 Army Annual Financial Statement
03CivilWorks12-12.qxd   12/12/2003     5:39 PM    Page 83




              Advancing the President’s Management                   organizational training requirements that will, through   chose Learning Organization and Leadership for
              Agenda                                                 training and various learning activities, align the       Learning, respectively, as the focus of the 2002 and
                                                                     workforce and mission. Five Engineer Divisions have       2003 USACE Senior Leadership Conferences. To
              Strategic Management of Human Capital
                                                                     adopted the Automated Training Management                 ensure effective and efficient alignment of the
              It is essential that the U.S. Army Corps of Engineers
                                                                     Program (ATMP), which has the capability of linking       USACE Workforce and Mission, the LAB has
              develop world-class technical expertise and make the
                                                                     individual and organizational training requirements       developed, refined and adopted a set of training
              best possible use of its human resources. The Corps of
                                                                     directly to mission. ATMP generates reports that can      principles to be used in driving workforce
              Engineers has long recognized the importance to its
                                                                     be used to effectively manage training dollars. An        development in all areas. Other initiatives of the LAB
              mission of its people, and as a result it has through
                                                                     individual development plan (IDP) is electronically       include ongoing planning for Corps-wide integration
              training and sustaining its workforce always sought to
                                                                     generated as well. A configuration control board          of learning organization and leadership for learning
              ensure that all mission-essential occupations are
                                                                     (CCB) has been established in order to review and         doctrines; development of coaching and mentoring
              appropriately staffed with skilled people.
                                                                     approve proposed changes and enhancements to              communities of practice; development of individual
              Aligning the Workforce and Mission                     ATMP in order to ensure that the program remains          and organization learning assessments; development
              A comprehensive human capital strategy has been        uniform throughout the Corps. Individual                  of a network of university partners; development of a
              developed that is aligned with mission and broad       performance plans are also used to align performance      best practices and learning case inventory; and
              corporate goals.                                       with mission and corporate goals and to increase          development of a USACE Leadership Development
                                                                     understanding of the link between each team               Program (LDP) template.
              All employees must understand the Corps’ mission       member’s performance and organizational success.
              and must understand how their work contributes to                                                                A People Committee, chaired by a Senior Executive
              that mission. Each employee, as part of the larger     The USACE Learning Advisory Board (LAB) has               and with cross-functional membership, has been
              Corps of Engineers, receives a CD-ROM called the       been established and has operated during the past         established and is active in identifying strategic HR
              CorpsPath. This provides an overview of the history, several years as an advocate for initiatives and            initiatives, tracking implementation, and measuring
              mission, and strategic goals of the Corps and provides activities designed to further align the Civil Works      progress at our Major Subordinate Commands
              detailed information on Civil Works business           workforce and mission and transform USACE into a          through the Corps’ Command Strategic Review
              processes and on its strategy of knowledge             Learning Organization. Co-chaired by a General            program. HR strategies and initiatives are aligned and
              management.                                            Officer and the USACE Director of Human                   developed under the auspices of the USACE Strategic
                                                                     Resources, respectively, the LAB is field-based, with     Vision, Campaign Plan and Human Capital Plans,
              A Mission-Essential Task List (METL) links             representation from all levels within USACE,              respectively.
              performance measurement to mission accomplishment including emerging leaders from various districts.
              and enables identification of skill gaps in the        Under the auspices of the LAB, the USACE Learning         To further support aligning the USACE workforce
              workforce. The Corps of Engineers has automated this Organization and Leadership for Learning Doctrines          and mission, the Directorate of Human Resources
              process and is producing a list of individual and      have been developed and the Chief of Engineers            (DHR) has revised and conducted an orientation


                                                                                                                                                            Civil Works Fund 83
03CivilWorks12-12.qxd    12/12/2003      5:39 PM      Page 84




              program for SES members of the workforce and               customer. A comprehensive review of command          subsequently embody the attributes and principles of a
              conducted a USACE-wide Human Resources                     functions, business processes, and structure has     learning organization. Technology and business
              conference to ensure all field HR staffs are informed      recently been completed, with implementation         practices are continuously evolving; the Corps of
              about the USACE PMA (President’s Management                scheduled for FY 2004.                               Engineers therefore has decided to establish a learning
              Agenda) human capital initiatives. Additionally, an                                                             network addressing the three areas of technical
              important session at the HR conference focused on          Recruiting                                           excellence, business and communications, and
              Strategic Sourcing from three different perspectives       The Corps of Engineers has more than 600 college     leadership. This network will capitalize on USACE
              (the HQ Project Office perspective, what CPAC              students enrolled in various intern programs,        Communities of Practice and will create a vibrant
              employees should expect, and labor and employee            representing an increase from 1989 to 2001 of 400    knowledge management platform that will bring
                                                                         percent. The Corps recognizes the need to develop a  together discussion of lessons learned, best practices,
              relations aspects). In addition, DHR established
                                                                         source of skilled young people to replace an aging   and knowledge management with training; will enable
              several Project Delivery Teams to focus on redesign
                                                                         workforce. By exposing college students to the work learners to meet with and enjoy the benefits of
              and streamlining of the USACE Professional
                                                                         done by the Corps, it is believed that such a source continuous learning from subject matter experts; will
              Development Support Center which designs and               can be developed and thus we can address anticipated enable the further development, refinement, and
              delivers Corps-specific technical, professional and        shortages in the workforce as baby boomers reach
              short courses; developed an online USACE Coaching,                                                              enhancement of communities of practice within
                                                                         retirement.                                          USACE.
              Counseling and Mentoring Guide; and identified and
              executed funding for obtaining access to the               The USACE Human Capital plan includes a
                                                                                                                                   Competitive Sourcing
              Department of Labor Workforce Connections                  comprehensive analysis of the current workforce and
              Workforce Productivity Tools that will enable USACE        projects workforce needs several years into the future    In concordance with the President’s Management
                                                                         based on an analysis of projected turnover and future     Agenda, Civil Works recognizes that some of its
              to provide state of the art course delivery and learning
                                                                         mission requirements.                                     employees likely are performing tasks that can be
              knowledge management for the benefit of our
                                                                                                                                   outsourced to the commercial marketplace. Civil
              workforce.
                                                                         The USACE employment website has been reworked            Works accordingly has a plan to conduct competitive
                                                                         to make it more attractive and user-friendly. It now      sourcing studies on approximately 5,700 positions
              USACE has a customer focus and has allocated its
                                                                         provides more information in which prospective            between FY 2004 and FY 2008. This represents 37
              personnel accordingly. As the program is in contact
                                                                         employees would be interested. Recruitment material       percent of authorized Civil Works commercial
              with its customers primarily at the Engineer District                                                                positions and is in addition to the 58 percent of the
                                                                         and advertisements have been updated. A recruiters’
              level, 95 percent of the workforce is concentrated at                                                                Civil Works workload which is already accomplished
                                                                         handbook has been developed and training for
              district, field office and resident offices. As part of an recruiters has begun.                                     by its industry partners.
              effort to improve service to the public, 50 percent of
              supervisory positions have been eliminated since 1994 Training and Learning                                          A number of factors need to be considered when
              in an effort to flatten the organization and increase the To fill and also to limit the occurrence of future skill   identifying the positions that will be opened up for
              percentage of employees directly engaging the              gaps, the Corps of Engineers must embrace and             competition. Realization of the full value of

                84 Fiscal Year 2003 Army Annual Financial Statement
03CivilWorks12-12.qxd   12/12/2003     5:39 PM     Page 85




              outsourcing requires that there be a large number of    DoD financial management systems, and provided the hard-copy directives and publications (approximately
              positions for conversion, that they are of a notably    basis for development of the Defense Joint                1,000), placing them instead online in formats suitable
              commercial nature, and that they are geographically     Accounting System.                                        for viewing, downloading, and printing. Civil Works
              concentrated. In addition, there is a need to keep a                                                              is also responsible for nine public reports, of which
              minimum number of federal positions for each staff      In addition to implementing CEFMS, the Corps has          eight are scheduled to be integrated into the
              function in order that oversight is retained in areas   undertaken the challenge of complying with the full       Operations and Maintenance Business Information
              such as financial management, public affairs, and       requirements of the Chief Financial Officers Act of       Link (OMBIL) with an Internet data collection
              others.                                                 1990. With a fully integrated CEFMS and sound             capability, in FY 2004. The remaining report
                                                                      business practices, the Corps is positioning itself to be comprises about 60 individual questionnaires that are
              Improved Financial Performance                          one of the first Army components to receive an            currently available for download from the Web.
              The U.S. Army Corps of Engineers is recognized as a     unqualified audit opinion.
              leader in the Department of Defense (DoD) in the                                                                  Under OMBIL, the regulatory permit process is being
              area of financial management, and continues to          Expand Electronic Government                              streamlined and integrated into a transaction-based
              upgrade its financial management systems and tools.     Adoption of a wide array of Web-based services has Web environment. Civil Works is evaluating other
              For example, the Corps has developed a proprietary      wrought major changes to the Civil Works Program’s means for integrating various types of authorizations
              financial tool known as the Corps of Engineers          business processes, and, in particular, has vastly        and licenses, with the view to improving public access
              Financial Management System (CEFMS). Designed           improved the program’s internal and external              to them and reducing waiting times. Civil Works is
              and built by the Corps with the aid of external         communications.                                           also participating in the redesign and horizontal
              contractors, the system delivers a broad range of                                                                 enterprise portal pilot efforts related to the totality of
              functionality. It integrates financial management       Government to Citizen                                     the Corps corporate Web presence.
              processes with internal program and project             Civil Works is an active proponent of the
              management processes and provides automated             government’s drive to reach out to the public through The Corps’ strategic-level Communication Committee
              linkage to the Department of the Army, DoD, and the     the Internet. Participating in Presidential-level         has identified the revision of the USACE Internet
              Office of Management and Budget.                        interagency initiatives such as Recreation One-Stop       presence as a strategic initiative for this year. A new
                                                                      and Geospatial Information One-Stop, it is making         user-friendly Web page is being developed and the
              The Corps invested approximately $76 million in         access to information about Civil Works services and site is being enhanced with a new search engine and
              development of CEFMS. The process of                    programs easier for more Americans. In partnership        zip code locater. The plan is for the entire Corps to
              implementing the system and gaining its acceptance      with the U.S. Forest Service, Civil Works also            eventually adopt a more corporate presence on the
              among the Corps family required a major cultural        supports the National Recreation Reservation System Internet to assist citizens in finding help for the
              adjustment, but efforts in this regard have proven      for the use of public lands and facilities.               various services we perform.
              extremely successful and CEFMS is a key component
              of successful program execution and customer care. To simplify access to the rules governing use of Civil         Government to Business
              The system now serves as a measuring stick for new Works lands and waterways, it has eliminated all               Civil Works is working to make it easier to do

                                                                                                                                                                Civil Works Fund 85
03CivilWorks12-12.qxd   12/12/2003       5:39 PM      Page 86




              business with the federal government. In partnership      the primary integrator of multi-jurisdictional (local,     The PMBP program will also enhance a common
              with the National Institute of Standards and              state, and federal) data for the support of emergency      electronic workplace environment that promotes
              Technology and the General Accounting Office, it is       operations. ENGLink provides real-time, accurate           Regional Business Centers, virtual teaming,
              working to define the requirements for a public key-      information in the event of a disaster, helping to         personalization, and the strategic management of
              based electronic signature capability to replace the      support collaborative response planning among what         human capital.
              proprietary electronic signature capability that          may be widely dispersed assets.
              currently is used.                                                                                                   Budget and Performance Integration
                                                                        OMBIL and the Corps Water Management System                The President’s objective to link performance and
              Civil Works is a full participant in the Web-based Tri- aggregate, integrate, and disseminate multiple sources       budget builds on the Government Performance and
              Service Solicitation Network, and sponsors the            of data in support of hydropower, navigation,              Results Act of 1993 (GPRA) and earlier efforts to
              Electronic Contract Solicitations (ECS) system, which environmental stewardship, and flood and coastal storm         identify program goals and performance measures and
              is a Web-based electronic process for advertising and damage reduction missions that impact local, regional,         to link them to the budget. The FY 2003 President’s
              distributing contract solicitation documents, with        state, and national interests. The Project Management
                                                                                                                                   Budget was the first to include explicit assessments of
              linkages to “Army Single Face to Industry” and            Business Process (PMBP) Program, which will see the
                                                                                                                                   program performance and made a performance-linked
              FedBizOps websites. Civil Works is also DoD’s             development of a one-stop portal enabling customers
                                                                                                                                   budget assessment of three Civil Works business
              Executive Agent for the Architect-Engineer (A-E)          and stakeholders to access project status information,
                                                                                                                                   programs: Navigation (Inland Waterways portion),
              Contractor Administrative Support System and the          additionally is significant in terms of advancing the
                                                                                                                                   Flood and Coastal Storm Damage Reduction, and
              Construction Contractor Appraisal Support System.         Corps’ G2G services.
                                                                                                                                   Environmental Restoration. For the FY 2004 budget,
              These systems manage A-E and construction
                                                                        Internal Efficiency and Effectiveness                      Civil Works added Regulatory, Emergency
              contractor performance evaluations.
                                                                        The Project Management Business Process (PMBP)             Management and Environment Programs to the
              Government to Government (G2G)                            program is a significant initiative to streamline the      process of linking performance to budget and
              The sharing of information between federal, state, local, business processes associated with program and             continued developing new performance measures to
              and tribal governments and the full integration of that   project management. It also will support the adoption      further this linkage. More recently, Civil Works
              information will contribute to better government for all of best business practices in the delivery of projects to   completely transformed its FY 2005 budget
              Americans. The Comprehensive Everglades                   local, state, regional, federal, and international         development to align it with the eight programs
              Restoration Program, a partnership of the Civil Works customers and will facilitate agency budget and                funding by budget requests and will place increased
              Program with the South Florida Water Management           performance integration. At the heart of this business     emphasis during FY 2004 on fielding new
              District, is a prime example of interagency and special re-engineering effort are the adoption of commercial         performance measures that link to budget. Progress in
              interest group electronic data sharing through a          off-the-shelf software, the integration and streamlining   implementing this initiative will be reported in the FY
              significant Internet presence (www.evergladesplan.org). of legacy automated systems, and the termination of          2005 financial statements.
              Another example, the ENGLink automated system, is several stand-alone applications.



                86 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd   12/12/2003   5:44 PM   Page A




                                                          (Trim 4” from Right Side)
03GFStatements12-12.qxd   12/12/2003   5:44 PM   Page B




                                                          Limitations of the Financial Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 87



                                                          Limitations Concerning National Defense PP&E Stewardship . . . . . . . . . . . 87



                                                          General Fund . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 88
                                                                Principal Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 88
                 (Trim 4” from Left Side)                       Notes to the Principal Financial Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 96
                                                                Supporting Consolidating/Combining Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . 155
                                                                Required Supplementary Stewardship Information . . . . . . . . . . . . . . . . . . . . . . . . . . . 170
                                                                Required Supplementary Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 178
                                                                Audit Opinion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 188




                                                          Army Working Capital Fund . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 197
                                                                Principal Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 197
                                                                Notes to the Principal Financial Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 204
                                                                Supporting Consolidating/Combining Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . 242
                                                                Required Supplementary Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 256
                                                                Audit Opinion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 262



                                                          Civil Works Fund . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 269
                                                                Principal Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 269
                                                                Notes to the Principal Financial Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 276
                                                                Supporting Consolidating/Combining Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . 314
                                                                Required Supplementary Stewardship Information . . . . . . . . . . . . . . . . . . . . . . . . . . . 330
                                                                Required Supplementary Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 332
                                                                Audit Opinion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 338
03GFStatements12-12.qxd    12/12/2003     5:44 PM     Page 87




              Limitations of the Financial Statements                  the accounting standards is different from the auditor's
              The financial statements have been prepared to report application of the standards. In those situations, the
              the financial position and results of operations for the Department has reviewed the intent of the standard
              entity, pursuant to the requirements of Title 31, United and applied it in a manner that management believes
              States Code, section 3515(b).

              While the statements have been prepared from the
                                                                       fulfills that intent.

                                                                        The statements should be read with the realization that
                                                                                                                                    2003
                                                                                                                                     The United States Army
              books and records of the entity, in accordance with the   they are for a component of the United States                Principal Statements and Notes
              formats prescribed by the Office of Management and        Government, a sovereign entity. One implication of
              Budget, the statements are in addition to the financial   this is that the liabilities cannot be liquidated without
              reports used to monitor and control budgetary             legislation that provides resources to do so.
              resources which are prepared from the same books
              and records.
                                                                        Limitations Concerning National Defense
              To the extent possible, the financial statements have     Property, Plant and Equipment
              been prepared in accordance with federal accounting       The Federal Accounting Standards Advisory Board
              standards. At times, the Department is unable to          (FASAB) revised the Statement of Federal Financial
              implement all elements of the standards due to            Accounting Standards No. 6 to require the
              financial management systems limitations. The             capitalization and depreciation of military equipment
              Department continues to implement system                  (formerly National Defense Property, Plant and
              improvements to address these limitations. There are      Equipment/ND PP&E) for fiscal years (FY) 2003 and
              other instances when the Department's application of      beyond, and encouraged early implementation.




                                                                                                                                                              87
03GFStatements12-12.qxd        12/12/2003         5:44 PM        Page 88




              Consolidated Balance Sheet
              Department of Defense • Department of the Army, General Fund
              As of September 30, 2003 and 2002 ($ in thousands)

              ASSETS (Note 2)                                                  2003 Consolidated   2002 Consolidated
                  Intragovernmental:
                       Fund Balance with Treasury (Note 3)
                            Entity                                                 $54,695,897         $39,515,905
                            Non-Entity Seized Iraqi Cash                               278,139                   0
                            Non-Entity-Other                                            61,443              (5,382)
                       Investments (Note 4)                                              1,231               5,240
                       Accounts Receivable (Note 5)                                    523,347             452,597
                       Other Assets (Note 6)                                            83,474             209,114
                       Total Intragovernmental Assets                              $55,643,531         $40,177,474
                  Cash and Other Monetary Assets (Note 7)                             $954,368            $301,747
                  Accounts Receivable (Note 5)                                         514,579             568,088
                  Loans Receivable (Note 8)                                                  0                   0
                  Inventory and Related Property (Note 9)                           32,676,658          27,259,422
                  General Property, Plant and Equipment (Note 10)                  115,337,906          18,700,626
                  Investments (Note 4)                                                       0                   0
                  Other Assets (Note 6)                                              3,569,021           3,582,796
              TOTAL ASSETS                                                        $208,696,063         $90,590,153

              LIABILITIES (Note 11)
                   Intragovernmental:
                         Accounts Payable (Note 12)                                 $1,084,965            $774,545
                         Debt (Note 13)                                                      0                 157
                         Environmental Liabilities (Note 14)                                 0                   0
                         Other Liabilities (Note 15 & Note 16)                       1,670,318             876,404
                         Total Intragovernmental Liabilities                        $2,755,283          $1,651,106
                   Accounts Payable (Note 12)                                       $9,089,097          $5,967,178
                   Military Retirement Benefits and Other Employment-Related         1,761,318           1,624,557
                        Actuarial Liabilities (Note 17)
                   Environmental Liabilities (Note 14)                              37,395,412          35,078,280
                   Loan Guarantee Liability (Note 8)                                     1,273                 730
                   Other Liabilities (Note 15 & Note 16)                             9,387,320           9,008,744
                   Debt Held by Public (Note 13)                                             0                   0
              TOTAL LIABILITIES                                                    $60,389,703         $53,330,595

              NET POSITION
                  Unexpended Appropriations (Note 18)                              $47,674,714         $31,468,721
                  Cumulative Results of Operations                                 100,631,646           5,790,837
              TOTAL NET POSITION                                                  $148,306,360         $37,259,558
              TOTAL LIABILITIES AND NET POSITION                                  $208,696,063         $90,590,153

                                                                                                         The accompanying notes are an integral part of these statements.
                 88 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd        12/12/2003           5:44 PM        Page 89




                                                                                                                    Consolidated Statement of Net Cost
                                                                                                                                  Department of Defense • Department of the Army
                                                                                                                For the Years Ended September 30, 2003 and 2002 ($ in thousands)

                                                                                 2003 Consolidated   2002 Consolidated
              Program Costs
                   Intragovernmental Gross Costs                                     $30,100,949         $19,042,297
                   (Less: Intragovernmental Earned Revenue)                           (6,519,008)         (5,531,194)
                   Intragovernmental Net Costs                                       $23,581,941         $13,511,103
                   Gross Costs With the Public                                       $84,768,855         $67,293,314
                   (Less: Earned Revenue From the Public)                               (919,139)           (784,708)
                   Net Costs With the Public                                         $83,849,716         $66,508,606
                   Total Net Cost                                                   $107,431,657         $80,019,709
              Cost Not Assigned to Programs                                                    0                   0
              (Less:Earned Revenue Not Attributable to Programs)                               0                   0
              Net Cost of Operations                                                $107,431,657         $80,019,709




              The accompanying notes are an integral part of these statements.
                                                                                                             General Fund Principal Notes and Statements 89
03GFStatements12-12.qxd        12/12/2003         5:44 PM        Page 90




              Consolidated Statement of Changes in Net Position
              Department of Defense • Department of the Army, General Fund
              For the Years Ended September 30, 2003 and 2002 ($ in thousands)

                                                                                  CUMULATIVE RESULTS OF OPERATIONS               UNEXPENDED APPROPRIATIONS
                                                                                 2003 Consolidated       2002 Consolidated   2003 Consolidated    2002 Consolidated

              Beginning Balances                                                      $5,790,840               $8,776,600        $31,468,721                    $28,895,571
              Prior period adjustments (+/-)                                          97,897,585               (7,114,213)                 0                              0
              Beginning Balances, as adjusted                                       $103,688,425               $1,662,387        $31,468,721                    $28,895,571
              Budgetary Financing Sources:
                   Appropriations received                                                     0                        0        117,667,977                      80,338,428
                   Appropriations transferred-in/out (+/-)                                     0                        0          6,042,747                       4,903,508
                   Other adjustments (rescissions, etc) (+/-)                                  0                        0           (599,800)                       (114,845)
                   Appropriations used                                               106,904,931               82,553,941       (106,904,931)                    (82,553,941)
                   Nonexchange revenue                                                       131                  205,583                  0                               0
                   Donations and forfeitures of cash and cash equivalents                 15,003                        0                  0                               0
                   Transfers-in/out without reimbursement (+/-)                          479,218                        0                  0                               0
                   Other budgetary financing sources (+/-)                            (3,636,632)                 743,531                  0                               0
              Other Financing Sources:
                   Donations and forfeitures of property                                       0                        0                  0                              0
                   Transfers-in/out without reimbursement (+/-)                         (321,356)                 (43,155)                 0                              0
                   Imputed financing from costs absorbed by others                       818,482                  688,259                  0                              0
                   Other (+/-)                                                           115,102                        0                  0                              0
              Total Financing Sources                                               $104,374,879              $84,148,159        $16,205,993                     $2,573,150
              Net Cost of Operations (+/-)                                           107,431,657               80,019,709                  0                              0
              Ending Balances                                                       $100,631,647               $5,790,837        $47,674,714                    $31,468,721




                                                                                                                                   The accompanying notes are an integral part of these statements.
                 90 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd        12/12/2003           5:44 PM        Page 91




                                                                                                                           Combined Statement of Budgetary Resources
                                                                                                                                                        Department of Defense • Department of the Army
                                                                                                                                      For the Years Ended September 30, 2003 and 2002 ($ in thousands)


              BUDGETARY FINANCING ACCOUNTS                                             Budgetary Resources                 Non-Budgetary Resources
              BUDGETARY RESOURCES                                                2003 Combined         2002 Combined   2003 Combined         2002 Combined
              Budget Authority:
                   Appropriations received                                       $117,695,530           $81,067,276              $0                           $0
                   Borrowing authority                                                      0                     0               0                            0
                   Contract authority                                                       0                     0               0                            0
                   Net transfers (+/-)                                              5,307,441             5,290,599               0                            0
                   Other                                                                    0                     0               0                            0
              Unobligated balance:
              Beginning of period                                                    5,858,110            5,701,789             730                          691
                   Net transfers, actual (+/-)                                       1,214,524              408,970               0                            0
                   Anticipated Transfers balances                                            0                    0               0                            0
              Spending authority from offsetting collections:
                Earned                                                                      0                     0               0                            0
                   Collected                                                       14,095,736            12,012,602             543                           39
                   Receivable from Federal sources                                     12,974              (146,322)              0                            0
                Change in unfilled customer orders                                          0                     0               0                            0
                   Advance received                                                   119,338                87,119               0                            0
                   Without advance from Federal sources                             3,655,318             1,164,785               0                            0
                Anticipated for the rest of year, without advances                          0                     0               0                            0
                Transfers from trust funds                                                  0                     0               0                            0
                Subtotal                                                          $17,883,366           $13,118,184            $543                          $39
              Recoveries of prior year obligations                                  8,001,403             8,287,368               0                            0
              Temporarily not available pursuant to Public Law                              0                     0               0                            0
              Permanently not available                                            (1,304,580)           (1,569,179)              0                            0
              Total Budgetary Resources                                          $154,655,794          $112,305,007          $1,273                         $730




              The accompanying notes are an integral part of these statements.
                                                                                                                                General Fund Principal Notes and Statements 91
03GFStatements12-12.qxd        12/12/2003         5:44 PM        Page 92




              Combined Statement of Budgetary Resources
              Department of Defense • Department of the Army, General Fund
              For the Years Ended September 30, 2003 and 2002 ($ in thousands)

              NONBUDGETARY FINANCING ACCOUNTS                                          Budgetary Resources                 Non-Budgetary Resources
              STATUS OF BUDGETARY RESOURCES                                      2003 Combined         2002 Combined   2003 Combined         2002 Combined
              Obligations incurred:
                   Direct                                                        $128,012,383           $91,731,863              $0                          $0
                   Reimbursable                                                    18,430,419            14,715,031               0                           0
                   Subtotal                                                      $146,442,802          $106,446,894              $0                          $0
              Unobligated balance:
                   Apportioned                                                      6,947,148             4,788,478           1,273                        730
                   Exempt from apportionment                                           25,665                     0               0                          0
                   Other available                                                          0                     2               0                          0
              Unobligated Balances Not Available                                    1,240,179             1,069,633               0                          0
              Total, Status of Budgetary Resources                               $154,655,794          $112,305,007          $1,273                       $730

              RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
              Obligated Balance, Net - beginning of period                        $33,662,267           $31,626,562              $0                          $0
              Obligated Balance transferred, net (+/-)                                      0                     0               0                           0
              Obligated Balance, Net - end of period:
                   Accounts receivable                                              (1,480,706)          (1,467,731)              0                            0
                   Unfilled customer order from Federal sources                    (10,816,319)          (7,161,002)              0                            0
                   Undelivered orders                                               44,735,892           30,611,343               0                            0
                   Accounts payable                                                 14,043,988           11,679,657               0                            0
              Outlays:
                   Disbursements                                                  121,952,521            95,105,359               0                           0
                   Collections                                                    (14,215,073)          (12,099,721)           (543)                        (39)
                   Subtotal                                                      $107,737,448           $83,005,638           ($543)                       ($39)
              Less: Offsetting receipts                                               (95,571)             (184,839)              0                           0
              Net Outlays                                                        $107,641,877           $82,820,799           ($543)                       ($39)




                                                                                                                                       The accompanying notes are an integral part of these statements.
                 92 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd        12/12/2003           5:44 PM        Page 93




                                                                                                                                   Combined Statement of Financing
                                                                                                                                              Department of Defense • Department of the Army
                                                                                                                            For the Years Ended September 30, 2003 and 2002 ($ in thousands)

              Resources Used to Finance Activities:                                                      2003 Combined        2002 Combined
                   Budgetary Resources Obligated
                   Obligations incurred                                                                  $146,442,802          $106,446,894
                   Less: Spending authority from offsetting collections
                      and recoveries (-)                                                                  (25,885,311)          (21,405,591)
                   Obligations net of offsetting collections and recoveries                              $120,557,491           $85,041,303
                   Less: Offsetting receipts (-)                                                              (95,571)             (184,839)
                   Net obligations                                                                       $120,461,920           $84,856,464
                   Other Resources
                   Donations and forfeitures of property                                                            0                     0
                   Transfers in/out without reimbursement (+/-)                                              (321,356)                    0
                   Imputed financing from costs absorbed by others                                            818,482               688,259
                   Other (+/-)                                                                                115,102                     0
                   Net other resources used to finance activities                                             612,228               688,259
              Total resources used to finance activities                                                 $121,074,148           $85,544,723

              Resources Used to Finance Items not Part of the Net Cost of Operations
                   Change in budgetary resources obligated for goods,
                      services and benefits ordered but not yet provided
                        Undelivered Orders (-)                                                            ($16,480,237)          ($2,138,888)
                        Unfilled Customer Orders                                                             3,774,656             1,251,904
                   Resources that fund expenses recognized in prior periods                                   (282,695)           (5,656,745)
                   Budgetary offsetting collections and receipts that                                           15,085                     0
                       do not affect net cost of operations
                   Resources that finance the acquisition of assets                                        (25,214,843)             (152,239)
                   Other resources or adjustments to net obligated resources
                        that do not affect net cost of operations
                   Less: Trust or Special Fund Receipts Related to Exchange in the Entity's Budget (-)               0                     0
                   Other (+/-)                                                                                       0                     0
              Total resources used to finance items not part of the net cost of operations                ($38,188,034)          ($6,695,968)

              Total resources used to finance the net cost of operations                                  $82,886,114           $78,848,755




              The accompanying notes are an integral part of these statements.
                                                                                                                          General Fund Principal Notes and Statements 93
03GFStatements12-12.qxd        12/12/2003         5:44 PM        Page 94




              Combined Statement of Financing
              Department of Defense • Department of the Army, General Fund
              For the Years Ended September 30, 2003 and 2002 ($ in thousands)

              Components of the Net Cost of Operations that will
              not Require or Generate Resources in the Current Period:                2003 Combined   2002 Combined
                    Components Requiring or Generating Resources in Future Periods:
                    Increase in annual leave liability                                    $291,488         $276,719
                    Increase in environmental and disposal liability                     2,317,132                0
                    Upward/Downward reestimates of credit subsidy expense (+/-)                  0                0
                    Increase in exchange revenue receivable from the the public (-)              0                0
                    Other (+/-)                                                            409,303        1,486,858
                    Total components of Net Cost of Operations that                     $3,017,923       $1,763,577
                         will require or generate resources in future periods
                    Components not Requiring or Generating Resources:
                    Depreciation and amortization                                       21,363,920          596,779
                    Revaluation of assets or liabilities (+/-)                             (10,681)      (1,793,293)
                    Other (+/-)                                                            174,381          603,891
              Total components of Net Cost of Operations that
              will not require or generate resources                                   $21,527,620        ($592,623)
              Total components of net cost of operations that
              will not require or generate resources in the current period             $24,545,543      $1,170,954
              Net Cost of Operations                                                  $107,431,657     $80,019,709




                                                                                                      The accompanying notes are an integral part of these statements.
                 94 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd        12/12/2003           5:44 PM        Page 95




                                                                                                 Combined Statement of Custodial Activity
                                                                                                                     Department of Defense • Department of the Army
                                                                                                   For the Years Ended September 30, 2003 and 2002 ($ in thousands)

                                                                                 2003 Combined      2002 Combined
              SOURCE OF COLLECTIONS
                  Deposits by Foreign Governments                                          $0                    $0
                  Seized Iraqi Cash                                                   808,866                     0
                  Other Collections                                                         0                     0
                  Total Cash Collections                                              808,866                     0
                  Accrual Adjustments (+/-)                                                 0                     0
                  Total Custodial Collections                                        $808,866                    $0
              DISPOSITION OF COLLECTIONS
                  Disbursed on Behalf of Foreign Governments and
                       International Organizations                                         $0                    $0
                  Seized Assets Disbursed on behalf of Iraqi People
                  Increase (Decrease) in Amounts to be Transferred                    530,727                     0
                  Collections Used for Refunds and Other Payments                           0                     0
                  Retained by The Reporting Entity                                          0                     0
                  Seized Assets Retained for Support of the Iraqi People                    0                     0
                  Total Disposition of Collections                                    278,139                     0
              NET CUSTODIAL COLLECTION ACTIVITY                                      $808,866                    $0
                                                                                           $0                    $0




              The accompanying notes are an integral part of these statements.
                                                                                                 General Fund Principal Notes and Statements 95
03GFStatements12-12.qxd    12/12/2003       5:44 PM      Page 96




              Notes to the Principal Financial Statements
              Note 1. Significant Accounting Policies
              1.A. Basis of Presentation
              These financial statements have been prepared to report the financial position and results of operations of the Department of the Army, as required by the Chief
              Financial Officers Act of 1990 (CFO Act), expanded by the Government Management Reform Act of 1994 (GMRA), and other appropriate legislation. The financial
              statements have been prepared from the books and records of the Army in accordance with the Department of Defense (DoD) Financial Management Regulation;
              Office of Management and Budget (OMB) Bulletin No. 01-09, Form and Content of Agency Financial Statements; and to the extent possible, Federal Generally
              Accepted Accounting Principles (GAAP). The accompanying financial statements account for all resources for which the Army is responsible. Under the above
              guidance, classified assets, programs, and operations have been excluded from the statements or aggregated and reported in such a manner that they are no longer
              classified. The financial statements are in addition to the financial reports prepared pursuant to OMB directives that are used to monitor and control the Army's use of
              budgetary resources.

              The Army is unable to fully implement all elements of Federal GAAP and OMB Bulletin No. 01-09 due to limitations of its financial and non-financial management
              processes and systems. The Army derives its reported values and information for major asset and liability categories largely from non-financial feeder systems, such as
              inventory and logistic systems. These were designed to support reporting requirements focusing on maintaining accountability over assets and reporting the status of
              Federal appropriations, rather than preparing financial statements in accordance with Federal GAAP. As a result, the Army cannot currently implement every aspect of
              Federal GAAP and OMB Bulletin No. 01-09. The Army continues to implement process and system improvements addressing the limitations of its financial and non-
              financial feeder systems. Further explanation of these financial statement elements is provided in the applicable note.

              Fiscal Year (FY) 2003 is the thirteenth year that the Army has prepared financial statements required by the CFO Act, GMRA, and Federal Financial Management
              Improvement Act of 1996 (FFMIA). The purpose of the CFO Act was to bring more effective general and financial management practices to the Federal government
              through statutory provisions; provide for improvement of accounting, systems, financial management, and internal controls; and provide for the production of
              complete, reliable, timely, and consistent financial information. GMRA extended the CFO Act to all activities of Executive Branch agencies. FFMIA expanded
              reporting requirements under the CFO Act. The reporting entities within the Army changed to facilitate these reporting requirements.

              1.B. Mission of the Reporting Entity
              The overall mission of the Army is to organize, train, equip, and support armed forces to deter aggression and, if necessary, defeat aggressors of the United States and
              its allies. It is no longer a world in which two hostile superpowers face each other. It is our nation's force of decision -- a full spectrum force -- trained and ready to
              respond to a wide range of crises, from fighting and winning major theater wars, to peacekeeping, humanitarian relief missions, and disaster relief in communities at
              home.

              The primary mission of the Army remains constant: to fight and win the nation's wars. In an uncertain world, the Army performs a wide variety of other missions
              around the world and at home including deterring potential adversaries, reassuring and lending stability to allies, supporting our communities in times of emergency,


                96 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd    12/12/2003     5:44 PM    Page 97




              preserving peace and security, supporting national policies, and implementing national objectives. In addition to its military operations, the Army is frequently
              deployed both at home and abroad in response to natural disasters. Nationally, the Army provides substantial support to relief operations associated with storms,
              tornadoes, and hurricanes. The Army also provides support and relief assistance abroad. Whatever the mission, committing the Army, commits the nation.

              1.C. Appropriations and Funds
              The Army receives its appropriations as general, revolving, trust, special, and deposit funds. The Army uses these appropriations and funds to execute its missions.

              General funds are used for financial transactions that arise under congressional appropriations, including personnel, operation and maintenance, research and
              development, procurement, and construction accounts.

              Revolving funds receive their initial working capital through an appropriation or a transfer of resources from existing appropriations or funds and use those capital
              resources to finance the initial cost of products and services. Financial resources to replenish the initial working capital and to permit continuing operations are
              generated by the acceptance of customer orders. Revolving funds operate with financial principles that provide improved cost visibility and accountability to enhance
              business management and improve the decision making process. The activities provide goods and services on a reimbursable basis. Receipts derived from operations
              are normally available in their entirety for use without further congressional action.

              Trust funds represent the receipt and expenditure of funds held in trust by the government for use in carrying out specific purposes or programs in accordance with the
              terms of the donor, trust agreement, or statute.

              Special funds account for government receipts earmarked for a specific purpose.

              Deposit funds are normally used to: (1) hold assets for which the Army is acting as an agent or custodian or whose distribution awaits legal determination, or (2)
              account for unidentified remittances.

              1.D. Basis of Accounting
              The Army normally records transactions on a budgetary basis and not an accrual accounting basis as is required by Federal GAAP. For FY 2003, the Army's financial
              management systems were unable to meet all of the requirements for full accrual accounting. Many of the Army's financial systems, non-financial feeder systems, and
              processes were designed and implemented prior to the issuance of Federal GAAP and therefore, were not designed to collect and record financial information on the
              accrual accounting basis as required by Federal GAAP. In addition, most of the Army's financial management systems do not comply with the U.S. Government
              Standard General Ledger (USSGL) at the transaction level. The Army has undertaken efforts to determine the actions required to bring these systems and processes
              into compliance with all elements of Federal GAAP. One such action is the current revision of Army accounting systems to record transactions based on the USSGL.
              Until such time as the Army's systems and processes are updated to collect and report financial information as required by Federal GAAP, the Army's financial data
              will be based on budgetary transactions, non-financial feeder system transactions, and adjustments for known accruals of major items such as payroll expenses,
              accounts payable, and environmental liabilities. When possible, the financial statements are presented on the accrual accounting basis. One example of information
              presented on the budgetary basis is data on the Statement of Net Cost. Much of this information is based on obligations and disbursements and may not always
              represent accrued costs.

                                                                                                                                 General Fund Principal Notes and Statements 97
03GFStatements12-12.qxd    12/12/2003       5:44 PM      Page 98




              The Army identifies programs based upon the major appropriation groups provided by Congress. The Army does not, however, accumulate costs for major programs
              based on performance measures because its financial processes and systems do not account for costs in line with established measures. The Army is reviewing
              available data and attempting to develop a cost reporting methodology that provides the cost information required by the Statement of Federal Financial Accounting
              Standard (SFFAS) No. 4, Managerial Cost Accounting Concepts and Standards for the Federal Government.

              1.E. Revenues and Other Financing Sources
              The Army receives congressional appropriations as financing sources for general funds (annual and multi-year basis). When authorized, these appropriations are
              supplemented by revenues generated by sales of goods or services through the reimbursable order process. The Army recognizes revenue as a result of costs incurred
              or services performed on behalf of other Federal agencies and the public.

              Other financing sources reported by the Army do not include non-monetary support provided by U.S. Allies for common defense and mutual security. The U.S. has
              agreements with foreign countries that include both direct and indirect sharing of costs that each country incurs in support of the same purpose. Examples would
              include countries where there is a mutual or reciprocal defense agreement. The Army is reviewing financing and cost reductions in order to establish accounting
              policies and procedures to identify any costs appropriate for disclosure in the Army's financial statements in accordance with GAAP. Recognition of support provided
              by host nations would affect both financing sources and recognition of expenses.

              1.F. Recognition of Expenses
              For financial reporting purposes, Army policy requires recognition of operating expenses in the period incurred. However, the Army's financial and non-financial
              feeder systems were not designed to collect and record financial information on the accrual accounting basis. Accrual adjustments are made for major items such as
              payroll expenses, accounts payable, and environmental liabilities. The Army's expenditures for capital and other long-term assets are not recognized as operating
              expenses until property, plant, and equipment are depreciated or Operating Materials and Supplies are consumed. Net increases or decreases in Unexpended
              Appropriations are recognized as a change in Net Position. Certain expenses, such as annual and military leave earned but not taken, are financed in the period in
              which payment is made.

              The Army adjusted operating expenses as a result of the elimination of balances between DoD components. See Note 19.I, Intragovernmental Expenses and Revenue
              for disclosure of adjustment amounts.

              1.G. Accounting for Intra-governmental Activities
              The Army, as an agency of the Federal government, interacts with and is dependent upon the financial activities of the Federal government as a whole. Therefore,
              these financial statements do not reflect the results of all financial decisions applicable to the Army as though the agency was a stand-alone entity.

              The Army's proportionate share of public debt and related expenses of the Federal government are not included. The Federal government does not apportion debt and
              its related costs to Federal agencies. The Army's financial statements, therefore, do not report any portion of the public debt or interest, nor do the statements report the
              source of public financing whether from issuance of debt or tax revenues.


                98 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd    12/12/2003     5:44 PM    Page 99




              Financing for the construction of Army facilities is obtained through budget appropriations. To the extent this financing was obtained through issuance of public debt,
              interest costs were not capitalized since the Department of the Treasury does not allocate these interest costs to the benefiting agencies.

              The Army's civilian employees participate in the Civil Service Retirement System (CSRS) and the Federal Employees Retirement System (FERS), while military
              personnel are covered by the Military Retirement System (MRS). Additionally, employees and personnel covered by FERS and MRS also have varying coverage
              under social security. The Army funds a portion of the civilian and military pensions. Reporting civilian pensions under CSRS and FERS is the responsibility of the
              Office of Personnel Management (OPM). The Army recognizes an imputed expense for the portion of civilian employee pensions and other retirement benefits funded
              by the OPM in the Statement of Net Cost and recognizes corresponding imputed revenue from the civilian employee pensions and other retirement benefits in the
              Statement of Changes in Net Position.

              Assets, funded actuarial liability, and unfunded actuarial liability for military personnel are reported in the Military Retirement Fund (MRF) financial statements. The
              actuarial liability for the military retirement health benefits is recognized in the Other Defense Organization General Fund column of DoD Agency-wide
              consolidating/combining statements.

              The Army's accounting systems do not capture trading partner information at the transaction level. Therefore, current systems cannot produce data necessary for
              reconciliations between buyers and sellers, nor eliminate all intragovernmental transactions between trading partners. As a result, Army's balances are compared to
              seller-side data summarized at the component trial balance level. Based on these comparisons, the amount of intragovernmental transactions on the buyer-side is
              forced to agree with seller-side information.

              The Treasury's Financial Management Service (FMS) is responsible for eliminating transactions between Federal agencies. In September 2000, FMS issued the
              Federal Intragovernmental Transactions Accounting Policies and Procedures Guide. The Army was not able to fully implement the policies and procedures in this
              guide related to reconciling intragovernmental assets, liabilities, revenues, and expenses for non-fiduciary transactions. Intragovernmental Fiduciary Transactions
              Accounting Guide policies and procedures were implemented for reconciling intragovernmental transactions pertaining to investments, Federal Employees'
              Compensation Act, and benefit program transactions with OPM.

              1.H. Transactions with Foreign Governments and International Organizations
              Each year, the Army components sell defense articles and services to foreign governments and international organizations, primarily under the provisions of the Arms
              Export Control Act of 1976. Under the provisions of the Act, the Army has authority to sell defense articles and services to foreign countries and international
              organizations, normally at no profit or loss to the U.S. Government.

              1.I. Funds with the U.S. Treasury
              DoD disbursing stations process cash collections, disbursements, and adjustments worldwide, and prepare reports which provide information to the Treasury on check
              issues, electronic fund transfers, and interagency transfers and deposits.

              The Treasury records this information in the applicable Fund Balance with Treasury (FBWT) account maintained in the Treasury's system. DFAS reconciles
              differences between the Army's recorded balance in the FBWT accounts and the Treasury's FBWT. See Note 3, Fund Balance With Treasury, for material disclosures.

                                                                                                                                  General Fund Principal Notes and Statements 99
03GFStatements12-12.qxd    12/12/2003       5:44 PM      Page 100




              Differences between accounting offices' detail-level records and the Treasury's FBWT accounts are disclosed in Note 21.B. These differences are caused by in-transit
              or unmatched disbursements not recorded in the accounting offices' detail-level records.

              1.J. Foreign Currency
              The Army conducts a significant portion of its operations overseas. Congress established a special account to handle the gains and losses from foreign currency
              transactions for five general fund appropriations: operation and maintenance, military personnel, military construction, family housing operation and maintenance, and
              family housing construction. The gains and losses are computed as the variance between the exchange rate current at the date of payment and a budget rate established
              at the beginning of each fiscal year. Foreign currency fluctuations related to other appropriations require adjustments to the original obligation amount at the time of
              payment. These currency fluctuations are not separately identified.

              1.K. Accounts Receivable
              As presented in the balance sheet, accounts receivable also includes claims and refunds receivable from other Federal entities or from the public. The Army bases the
              allowances for uncollectible accounts that are due from the public upon analysis of collection experience by fund type. The Army does not recognize an allowance for
              estimated uncollectible amounts from other Federal agencies. Claims against other Federal agencies are to be resolved between the agencies. See Note 5, Accounts
              Receivable, for material disclosures.

              1.L. Loans Receivable. As Applicable.
              Not Applicable

              1.M. Inventories and Related Property
              Effective October 1, 2002, Statement of Federal Financial Accounting Standards No.23, Eliminating the Category National Defense Property, Plant, and Equipment,
              revises accounting principles for military equipment (previously referred to as National Defense Property, Plant, and Equipment). The standard renames National
              Defense Property, Plant, and Equipment to military equipment, classifies military equipment as general property, plant, and equipment, and requires the capitalization
              and depreciation of the cost of military equipment, including the cost of modernization, modifications, upgrades and improvements. Likewise, military equipment
              (previously referred to as National Defense Property, Plant, and Equipment) also includes items which will now be classified as Operating Materials and Supplies.

              Implementation of the new accounting principles requires the adjustment of the October 1, 2002, Operating Materials and Supplies balance to recognize the
              investment, accumulated depreciation, and net book value of military equipment that previously had been expensed and is discussed further in Note 9.

              Inventories are reported at approximate historical cost using Latest Acquisition Cost (LAC) adjusted for holding gains and losses.

              The Army uses the LAC method because its inventory systems were designed for material management rather than accounting. The systems provide accountability
              and visibility over inventory items. They do not maintain historical cost data necessary to comply with SFFAS No. 3, Accounting for Inventory and Related Property.
              They are also unable to directly produce financial transactions using the USSGL, as required by FFMIA. DoD is transitioning to a Moving Average Cost methodology
              for valuing inventory that when fully implemented will allow the Army to comply with SFFAS No. 3.


                100 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd    12/12/2003     5:44 PM     Page 101




              SFFAS No. 3 distinguishes between inventory held for sale and inventory held in reserve for future sale. There is no difference in how these accounts are managed or
              valued. Normally, the Army manages only military or government-specific material. The Army does not manage items commonly used in and available from the
              commercial sector. In addition, operational cycles are irregular, and the military risks associated with stock-out positions have no commercial equivalent. The Army
              holds material based on military need and support for contingencies. Therefore, the Army does not attempt to account separately for items held for current or future
              sale.

              Related property includes Operating Materials and Supplies (OM&S) and stockpile materials. OM&S, including munitions not held for sale, are valued at standard
              purchase price. For the most part, the Army uses the consumption method of accounting for OM&S by expensing material when issued to the end user. Where current
              systems cannot fully support the consumption method, the Army expenses items when purchased, following the purchase method. The Army reported significant
              amounts using the purchase method either because the systems could not support the consumption method or because management deems that the item is in the hands
              of the end user.

              The Army implemented a new policy in FY 2002 to account for condemned material as excess, obsolete, and unserviceable. The net value of condemned material is
              zero because disposal costs are greater than potential scrap value. Potentially redistributable material, presented in previous years as excess, obsolete, and
              unserviceable is included in categories held for use or held for repair according to its condition.

              In addition, past audit results identified uncertainties about the completeness and existence of quantities used to produce the reported values. Material disclosures
              related to inventory and related property are provided in Note 9.

              1.N. Investments in U.S. Treasury Securities
              The Army reports investments in Treasury securities at cost, net of unamortized premiums or discounts. Premiums or discounts amortize into interest income over the
              term of the investment using the effective interest rate method or another method obtaining similar results. The Army's intent is to hold investments until maturity,
              unless needed to finance claims or otherwise sustain operations. Consequently, the Army does not make provisions for unrealized gains or losses on these securities.
              Material disclosures related to investments in treasury securities are provided in Note 4.

              1.O. General Property, Plant and Equipment
              General Property, Plant, and Equipment (PP&E) assets are capitalized at historical acquisition cost when the useful life is two or more years, and when the acquisition
              cost equals or exceeds the Army capitalization threshold of $100,000. The Army also capitalizes improvement costs that exceed the $100,000 threshold. The Army
              depreciates General PP&E, other than land, on a straight-line basis. Land is not depreciated.

              Military Equipment
              Statement of Federal Financial Accounting Standards No. 23, Eliminating the Category National Defense Property, Plant, and Equipment, establishes new generally
              accepted accounting principles for valuing and reporting military equipment (e.g., ships, aircraft, combat vehicles, weapons) in Federal financial statements. The
              standard requires the capitalization and depreciation of the cost of military equipment, including the cost of modifications and upgrades, for accounting periods
              beginning after September 30, 2002.


                                                                                                                                  General Fund Principal Notes and Statements 101
03GFStatements12-12.qxd    12/12/2003       5:44 PM      Page 102




              Until this change in accounting principle, the acquisition costs for military equipment were classified as national defense PP&E and were expensed in the period
              incurred. Implementation of this new accounting principle required the Army to adjust the October 1, 2002 General PP&E balance to recognize the investment,
              accumulated depreciation, and net book value of military equipment that previously had been expensed. As discussed further in Note 10, General PP&E, the
              adjustment was based on data provided by the Bureau of Economic Analysis at the Department of Commerce.

              Contractor Provided
              When it is in the best interest of the government, the Army provides to contractors government property necessary to complete contract work. Such property may be
              purchased or leased by the Army or the property may be purchased directly by the contractor for the government based on contract terms. When the value of
              contractor procured General PP&E exceeds the DoD capitalization threshold, such PP&E is required to be included in the value of General PP&E reported on the
              Army's Balance Sheet. The Army currently reports only government property in the possession of contractors maintained in the Army's property systems.

              DoD issued property accountability and reporting regulations that require the Army to maintain, in property systems, information on all property furnished to
              contractors in order to bring the Army into compliance with Federal accounting standards.

              Material disclosures related to General PP&E are provided in Note 10.

              1.P. Advances and Prepayments
              The Army records payments as advances or prepayments prior to receipt of goods and services and reports them as assets on the balance sheet. In addition, when the
              Army receives the related goods and services, it recognizes advances and prepayments as expenditures and expenses.

              1.Q. Leases
              Lease payments are normally for the rental of operating facilities and are classified as either capital or operating leases. When a lease is essentially equivalent to an
              installment purchase of property (a capital lease) and the value equals or exceeds the current DoD capitalization threshold, the applicable asset and liability are
              recorded. The amount recorded is the lesser of the present value of the rental and other lease payments during the lease term, excluding that portion of the payments
              representing executory costs paid to the lessor, or the asset's fair market value. Leases that do not transfer substantially all benefits or risks of ownership are classified
              as operating leases. As such, payments are recorded as expenses.

              1.R. Other Assets
              The Army conducts business with commercial contractors under two primary types of contracts--fixed price and cost reimbursable. To alleviate the potential financial
              burden on the contractor that long-term contracts can cause, the Army provides financing payments. In accordance with SFFAS No. 1, Accounting for Selected Assets
              and Liabilities, when the Army makes payment based upon a percentage of completion, such payments require treatment as Construction-in-Progress. Construction-in-
              Progress is reported in the General PP&E line item and in Note 10, General PP&E, Net. The Federal Acquisition Regulation allows the Army to make financing
              payments under fixed price contracts that are not based on a percentage of completion. The Army reports these financing payments as advances or prepayments in the
              Other Assets line item. The Army treats these payments as advances or prepayments because the Army becomes liable only after the contractor delivers the goods in
              conformance with the contract terms. If the contractor does not deliver a satisfactory product, the Army is not obligated to reimburse the contractor for its costs and the
              contractor is liable to repay the Army for the full amount of the advance.

                102 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd    12/12/2003      5:44 PM     Page 103




              1.S. Contingencies and Other Liabilities
              The SFFAS No. 5, Accounting for Liabilities of the Federal Government, defines a contingency as an existing condition, situation, or set of circumstances that involves
              an uncertainty as to possible gain or loss. The uncertainty will be resolved when one or more future events occur or fail to occur. A contingency is recognized as a
              liability when a past event or exchange transaction has occurred, a future loss is probable, and the amount of loss can be reasonably estimated.

              Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but at least a reasonable possibility that a loss or additional
              loss will be incurred. Loss contingencies include the collectibility of receivables, pending or threatened litigation, and possible claims and assessments. The Army
              may report loss contingencies due to events such as aircraft, ship, and vehicle accidents; medical malpractice; property or environmental damages; and contract
              disputes.

              Other liabilities arise as a result of anticipated disposal costs for the Army's assets. This type of liability has two components: non-environmental and environmental.
              Recognition of an anticipated environmental disposal liability commences when the asset is placed into service, consistent with SFFAS No. 6, Accounting for Property,
              Plant, and Equipment. Based upon the Army's policies, which are consistent with SFFAS No. 5 Accounting for Liabilities of Federal Government, a non-
              environmental disposal liability is recognized for assets when management decides to dispose of an item.

              The Army, by means of the Armament Retooling and Manufacturing Support (ARMS) Initiative legislation, has been authorized to establish a loan guarantee program
              to facilitate commercial firms' use of specified ammunition manufacturing facilities and the Army recognizes the loan guarantee liability. Army is authorized by Public
              Law 103-337, the National Defense Authorization Act for Fiscal Year 1995, to enter into this agreement with the U.S. Department of Agriculture Rural Business-
              Cooperative Service (RBS).

              See Notes 8, 14, and 15 for material disclosures.

              1.T. Accrued Leave
              The Army reports accrued civilian annual leave and military leave as liabilities at the current pay rates as of the balance sheet date.

              1.U. Net Position
              Net Position consists of Unexpended Appropriations and Cumulative Results of Operations. Unexpended Appropriations represent budget authority, which is
              unobligated and has not been rescinded or withdrawn, and funds obligated but for which legal liabilities have not been incurred.

              Cumulative Results of Operations represent balances that result from subtracting expenses and losses from financing sources, including appropriations, revenue, and
              gains since inception of the activity.

              1.V. Treaties for Use of Foreign Bases
              The DoD Components use land, buildings, and other facilities, located overseas and obtained through various international treaties and agreements negotiated by the
              State Department. DoD capital assets overseas are purchased with appropriated funds; however, the host country retains title to land and improvements. Treaty terms


                                                                                                                                     General Fund Principal Notes and Statements 103
03GFStatements12-12.qxd      12/12/2003        5:44 PM     Page 104




              normally allow DoD Components continued use of these properties until treaties expire. In the event treaties or agreements are terminated and the use of the foreign
              bases is no longer allowed, gains and losses for capital assets will be recorded based upon the negotiated amount paid to the U.S. for such capital assets.

              1.W. Comparative Data
              The Financial Statements and accompanying Notes to the Financial Statements report the financial position and results of operations for FY 2003. Financial statement
              fluctuations greater than 2 percent of total assets on the Balance Sheet and/or greater than 10 percent between FY 2002 and FY 2003, are explained within the Notes to
              the Financial Statements.

              1.X. Unexpended Obligations
              The Army records obligations for goods and services ordered but not received. A liability is not established in the financial statements because goods and services have
              not been delivered.

              Note 2. Nonentity and Entity Assets
                                                                                                   2003                                 2002
               As of September 30                                             Nonentity           Entity             Total         Nonentity Assets
               (Amounts in thousands)
               1. Intra-governmental Assets:
                     A. Fund Balance with Treasury                                $339,582        $54,695,897        $55,035,479            ($5,382)
                     B. Investments                                                      0              1,231              1,231                  0
                     C. Accounts Receivable                                              0            523,347            523,347                  0
                     D. Other Assets                                                     0             83,474             83,474                  0
                     E. Total Intra-governmental Assets                           $339,582        $55,303,949        $55,643,531            ($5,382)

               2. Non-Federal Assets:
                    A. Cash and Other Monetary Assets                             $954,368                 $0           $954,368           $301,747
                    B. Accounts Receivable                                         228,833            285,746            514,579             24,415
                    C. Loans Receivable                                                  0                  0                  0                  0
                    D. Inventory & Related Property                                      0         32,676,658         32,676,658                  0
                    E. General Property, Plant and Equipment                             0        115,337,906        115,337,906                  0
                    F. Investments                                                       0                  0                  0                  0
                    G. Other Assets                                                      0          3,569,021          3,569,021                (89)
                    H. Total Non-Federal Assets                                 $1,183,201       $151,869,331       $153,052,532           $326,073

               3. Total Assets:                                                 $1,522,783       $207,173,280       $208,696,063           $320,691

              4. Other Information
              Relevant Information for Comprehension
              Nonentity Assets of $1,522,783 thousand are assets held by the Army but not available to fund mission operations.



                 104 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd    12/12/2003    5:44 PM     Page 105




              Nonentity Intragovernmental Fund Balance with Treasury of $339,582 thousand represents:

                  $278,139 thousand in Iraqi custodial funds that coalition forces seized during Operation Iraqi Freedom and will be used in support of the Iraqi people. Further
                  information is disclosed in Note 3 and Note 23.

                  $61,443 thousand in other miscellaneous deposit and suspense accounts. The Army and the Defense Finance and Accounting Service continue to work to improve
                  the accountability over suspense items.

              Nonentity Cash and Other Monetary Assets of $954,368 thousand represents both cash and foreign currency.

              Nonentity Non-Federal Accounts Receivable of $228,833 thousand represents receivables which originated from appropriations that are closed and no longer available
              to execute Army missions. Army continues to pursue collection actions and any amounts collected are deposited into the Treasury miscellaneous receipt account.

              The Army has $207,173,280 thousand in Entity Assets. Entity Assets consist of resources that the Army has the authority to use, or where management is legally
              obligated to use funds to meet their obligations.

              Fluctuation and/or Abnormalities:
              Nonentity Intragovernmental Fund Balance with Treasury increased $344,964 thousand or 6,409 percent, and is largely attributed to the $278,139 thousand in Iraqi
              custodial funding first reported in FY 2003. Further explanation is disclosed in Note 3. The abnormal balance of $5,382 thousand reported in FY 2002 is attributed to
              a collection recorded in the Military Pay account instead of Servicemen's Group Life Insurance account and was corrected in FY 2003.

              Nonentity Non-Federal Cash and Other Monetary Assets of $954,368 thousand increased by $652,621 or 216 percent, in FY 2003 primarily to support the contingency
              missions Operation Iraqi Freedom and Operation Enduring Freedom. Further explanation is provided in Note 7.

              Nonentity Non-Federal Accounts Receivable increased $204,417 thousand or 837 percent due to nonentity accounts receivable incorrectly reported in Entity Accounts
              Receivable for FY 2002.

              Note Reference
              For Additional Line Item discussion, see:
              Note 4, Investments
              Note 5, Accounts Receivable
              Note 6, Other Assets
              Note 7, Cash and Other Monetary Assets




                                                                                                                               General Fund Principal Notes and Statements 105
03GFStatements12-12.qxd      12/12/2003      5:44 PM      Page 106




              Note 3. Fund Balance with Treasury
               As of September 30                                                               2003                        2002
               (Amounts in thousands)
               1. Fund Balances:
                    A. Appropriated Funds                                                              $54,145,086                 $39,407,718
                    B. Revolving Funds                                                                      50,503                      79,199
                    C. Trust Funds                                                                           2,502                       1,537
                    D. Other Fund Types                                                                    837,388                      22,069
                    E. Total Fund Balances                                                             $55,035,479                 $39,510,523

               2. Fund Balances Per Treasury Versus Agency:
                    A. Fund Balance per Treasury                                                       $55,035,479                 $39,510,523
                    B. Fund Balance per Army General Fund                                               55,035,479                  39,510,523
                    C. Reconciling Amount                                                                       $0                          $0

              3. Explanation of Reconciliation Amount:

              4. Other Information Related to Fund Balance with Treasury:

              Fluctuations and/or Abnormalities
              Total Fund Balance
              The Fund Balance represents the amount of available funding to be utilized for executing the Army's mission. Army's Fund Balances increased $15,524,956 thousand
              or 39 percent, from FY 2002. This increase is due to the $36,628,254 thousand increase in FY 2003 funding. Fund Balance positions increased as follows (in
              thousands):

                   Program                                                       Fund Balance
                   Military Personnel                                              $1,361,261
                   Operation & Maintenance                                          9,658,140
                   Research, Development, Test, and Evaluation                        486,391
                   Military Construction                                              367,211
                   Procurement                                                      2,457,504
                   Vested Iraqi Cash                                                  109,126
                   Other Miscellaneous                                              1,085,323
                                                                                  $15,524,956

              Note 2 and Note 21 disclose where additional funding was received and its program.




                 106 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd         12/12/2003           5:44 PM   Page 107




              Relevant Information for Comprehension

              Intragovernmental Payment and Collection (IPAC)
              The Intragovernmental Payment and Collection (IPAC) differences are reconcilable differences that represent amounts recorded by the Treasury but not reported by the
              organization. The Army had no IPAC differences greater than 180-days old as of September 30, 2003.

              Automated reconciliation tools have virtually eliminated all existing differences for the Army. Field sites requiring additional backup to record the transaction in their
              accounting system, accounting errors, or timing differences between disbursing and Treasury cut-off dates are the only reasons for an IPAC difference to exist today.

              Check Issue Discrepancy
              For September 30, 2003, the Army 2100 Comparison of Checks Issued Report received from Treasury includes the following (in thousands):

                    DFAS                    0-60 DAYS              61-180 DAYS   >180 DAYS   TOTAL
                    Indianapolis             $288,417                   $2,201          $0 $290,618
                    Columbus (Army DSSNs)*      32,521                       0           0   32,521
                    Columbus (Transp Pay)        2,627                       0           0    2,627
                    Columbus (Def Agencies)    140,575                       0           0 140,575
                    TOTAL (2100 ARMY)        $464,140                   $2,201          $0 $466,341
              *DSSN is Disbursing Station Symbol Number

              Check issue differences in the 0-60 days category are considered timing differences between reporting check issues and processing into the Treasury Check Payments
              and Reconciliation System.

              Due to the current business process, Army cannot readily identify if the reported amounts contained in the Army 2100 Comparison of Check Issued Report represents
              Treasury Index 97 appropriations; other than those reported by Columbus. Normally these differences are cleared in the next reporting cycle, therefore, it is unlikely
              that they will have a material impact on the financial statements.

              The differences in the 0-60 days and the 61-180 days are expected to clear in the October 2003 reporting period.

              Deposit Differences
              The deposit differences are reconcilable differences reported by the Treasury or the organization. The Army has $29 thousand in deposit differences greater than 180
              days old as of September 30, 2003.

              The FY 2003 difference is due to a date posting error by the bank for $22 thousand. Even though the transaction error occurred in September 2003, Treasury's rules
              post differences based on document date. The remaining $7 thousand difference is an erroneous duplicate transaction on the Statement of Accountability. Corrective
              action is expected in October 2003.


                                                                                                                                   General Fund Principal Notes and Statements 107
03GFStatements12-12.qxd    12/12/2003       5:44 PM      Page 108




              Vested Iraqi Cash
              The Army has collected $1,660,156 thousand of Vested Iraqi Cash. This cash is vested in accordance with the International Emergency Economic Powers Act, Section
              1701 and will be used in support of the Iraqi people. The Army has disbursed $1,551,030 thousand in support of the Iraqi people as follows:

                                                                                   In thousands
                  Collected                                                          $1,660,156
                  Disbursed
                       Iraqi Salaries                                                $1,170,676
                       Repair/Reconstruction/Humanitarian Assistance                    $40,560
                       Iraqi Ministry Operations (Ministry of Finance,
                       Defense, etc.)                                                 $339,794
                       Total Disbursed                                               $1,551,030
                  Remaining Funds                                                     $109,126

              Other Fund Types
              The $837,388 thousand in Other Fund Types consists of $278,139 thousand in Iraqi Custodial Funds (Seized Iraqi Cash), $62,151 thousand in Deposit Funds,
              $497,806 thousand in Special Fund and Receipt accounts, and ($708) thousand in Suspense accounts. Please refer to Note 2 and Note 23 for further analysis.

              Other Fund Types increased by $815,319 thousand from FY 2002. The Iraqi Relief and Reconstruction Fund (21 X1096) and the Iraqi Seized Assets (21 X6098 and
              21 X6095) were first reported in FY 2003 and reflect increases of $464,802 thousand and $278,139 thousand, respectively. The remaining $72,378 increase is due to
              miscellaneous deposit accounts.

              Canceling Appropriated Funds
              As of September 30, 2003, Army withdrew $704,780 thousand in canceling Appropriated Funds in accordance with Treasury's policy.

              Note Reference
              See Note Disclosure 1.I. - Significant Accounting Policies for additional discussion on financial reporting requirements and DoD policies governing Funds with the
              U.S. Treasury.

              See Note 2, Note 21B, and Note 23 for further discussions on Other Fund Balance Types (e.g., Suspense, Budget Clearing, Special and Deposit, Seized Iraqi Cash, etc.).




                108 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd       12/12/2003        5:44 PM      Page 109




              Note 4. Investments
                                                                                                                       2003                                                              2002
                                                                                  Amortization         Amortized (Premium/
               As of September 30                                   Cost            Method                  Discount)           Investments, Net          Market Value Disclosure   Investments, Net
               (Amounts in thousands)
               1. Intra-governmental Securities:
                     A. Marketable                                          $0                                           $0                        $0                          $0                   $0
                     B. Non-Marketable, Par Value                            0                                            0                         0                           0                    0
                     C. Non-Marketable, Market-Based                     1,232    Effective Interest                     (7)                    1,225                       1,207                5,234
                     D. Subtotal                                        $1,232                                          ($7)                   $1,225                      $1,207               $5,234
                     E. Accrued Interest                                    $6                                                                     $6                          $6                   $6
                     F. Total Intragovernmental Securities              $1,238                                          ($7)                   $1,231                      $1,213               $5,240

               2. Other Investments                                         $0                                           $0                        $0                          $0                      $0
              3. Other Information:
              Fluctuations and/or Abnormalities
              The Department of the Army Investments declined $4,009 thousand or 77 percent, in FY 2003. This was caused by a bond redemption of $1,920 thousand on
              September 30, 2003. These proceeds are classified in the Army's Fund Balance with Treasury account until they are reinvested in October 2003. In addition, the FY
              2002 end of year balance was overstated by $2,778 thousand as a result of a sale of a Treasury Note which was not posted in FY 2002.

              Other Information Related to Investments
              The Army Gift Fund was established to control and account for the disbursement and use of monies donated to the Army along with the interest received from the
              investment of such donations. The related earnings are allocated to appropriate Army activities to be used in accordance with the directions of the donor. These funds
              are recorded as Non-Marketable Market-Based U.S. Treasury Securities, which are not traded on any securities exchange, but they mirror the prices of marketable
              securities with similar terms.

              Note Reference
              See Note Disclosure 1.N. - Investments in U. S. Treasury for additional Department of Defense policies governing Investments in U.S. Treasury Securities.

              Note 5. Accounts Receivable
                                                                                                         2003                                           2002
                                                                           Gross Amount     Allowance For Estimated     Accounts Receivable,     Accounts Receivable,
               As of June 30                                                    Due              Uncollectibles                 Net                      Net
               (Amounts in thousands)
               1. Intra-governmental Receivables:                               $523,347                         N/A              $523,347                   $452,597
               2. Non-Federal Receivables (From the Public):                    $582,505                    ($67,926)             $514,579                   $568,088
               3. Total Accounts Receivable:                                  $1,105,852                    ($67,926)           $1,037,926                 $1,020,685




                                                                                                                                                 General Fund Principal Notes and Statements 109
03GFStatements12-12.qxd    12/12/2003       5:44 PM      Page 110




              4. Allowance method
              The Allowance for Doubtful Accounts is calculated by using the three-year average of FY 2001 to FY 2003 actual out-of-service debt write-offs. This method of
              estimating doubtful accounts was implemented in FY 2000. Beginning in FY 2002, the Allowance for Doubtful Accounts is reestimated on each annual financial
              reporting date.

              5. Other information:
              Fluctuations and/or Abnormalities
              Total Accounts Receivable increased $17,240 thousand or 2 percent, in FY 2003. Intragovernmental Accounts Receivable increased $70,749 thousand or 16 percent.
              The increase reflects the addition of two new funded reimbursable programs. One program reimburses the Department of the Army for salaries paid to doctors
              assigned to those medical facilities treating retirees. The other program reimburses the Army for providing security to the Department of the Air Force, by placing
              soldiers as guards at Air Force facilities. Non-federal Accounts Receivable (From the Public) decreased $53,509 thousand or 9 percent, with all of the decrease
              attributable to Individual Out-of-Service Debt. The drop in Non-federal Accounts Receivable (From the Public) is mainly due to aggressive management of public
              receivables over 180 days old.

              Non-federal Accounts Receivable (From the Public) consisted of accounts receivable, refund receivable, claims receivable and interest receivable. The schedule below
              illustrates the major contributors to non-federal Accounts Receivable (From the Public), by type of debt.

                  Type of Debt                                                           Amount
                                                                         (Amounts in thousands)
                  Contractor Debt                                                      $119,286
                  Individual (Out-of-Service)                                           144,920
                  Military Pay (In-Service)                                               75,145
                  Sales of Goods & Services                                               55,737
                  Interest                                                                23,810
                  Foreign Governments                                                   114,634
                  Civilian Pay (In-Service)                                               21,349
                  Vendor Debt                                                              3,192
                  Other                                                                   56,938
                        Subtotal                                                       $615,011
                  Undistributed Collections Public                                      (32,506)
                        Grand Total                                                    $582,505

              Relevant Information For Comprehension

              Allocation of Undistributed Collections
              The Army reported an abnormal balance of $54,175 thousand of supported undistributed collections and no unsupported undistributed collections. The Army allocated

                110 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd    12/12/2003     5:44 PM    Page 111




              supported undistributed collections as either federal or public using the Reimbursable Source Code recorded in the Army's Departmental Budgetary Reporting System.

              Elimination Adjustments
              The Army's General Fund accounting systems do not capture trading partner data at the transaction level in a manner that facilitates trading partner aggregations.
              Therefore, the Army was unable to reconcile intragovernmental Accounts Receivable balances with its trading partners. The Army intends to develop long-term
              systems improvements that will include sufficient up-front edits and controls to eliminate the need for after-the-fact reconciliations. These improvements will be
              implemented incrementally through the planned fielding of a compliant financial management system for all Army activities by FY 2006.

              Accounts Receivable Over 180 Days
              The Army reported $192,208 thousand of Non-federal Accounts Receivable (From the Public) and $5,474 thousand of intragovernmental Accounts Receivable over
              180 days. Over 80 percent of Non-federal Accounts Receivable (From the Public) consisted of Individual Out-of-Service Debt and Contractor Debt. The
              intragovernmental Accounts Receivable consisted of debt from reimbursable transactions within the DoD.

              Non-federal Refunds Receivable
              (Amounts in thousands)

                  FY 2003 Non-federal        FY 2003 Non-federal
                  Refunds Receivable       Accounts Receivable (Net)      Percent of Net Amount
                       $314,535                   $514,580                          61

              Amounts reported for Public Refunds Receivable primarily originated from debts owed by military service members collectible to Army's active military personnel
              appropriation.

              Note Reference
              See Note Disclosure 1.K. - Significant Accounting Policies for additional discussion on financial reporting requirements and Department of Defense policies governing
              Accounts Receivable.




                                                                                                                                 General Fund Principal Notes and Statements 111
03GFStatements12-12.qxd       12/12/2003        5:44 PM         Page 112




              Note 6. Other Assets
               As of September 30                                                               2003                             2002
               (Amounts in thousands)
               1. Intra-governmental Other Assets:
                     A. Advances and Prepayments                                                          $83,474                          $209,114
                     B. Other Assets                                                                            0                                 0
                     C. Total Intra-governmental Other Assets                                             $83,474                          $209,114

               2. Non-Federal Other Assets:
                    A. Outstanding Contract Financing Payments                                         $3,163,668                         $3,109,569
                    B. Other Assets (With the Public)                                                     405,353                            473,227
                    C. Total Non-Federal Other Assets                                                  $3,569,021                         $3,582,796

               3. Total Other Assets:                                                                  $3,652,495                         $3,791,910

              4. Other Information Related to Other Assets:

              Fluctuation and/or Abnormalities
              Intragovernmental Advances and Prepayments
              Intragovernmental Advances and Prepayments decreased by $125,640 thousand or 60 percent from FY 2002. This decrease is from the payback of funds to the
              Ammunition Procurement account from the Army Working Capital Fund (WCF). These funds were initially advanced to the Army WCF in FY 2002.

              Non-Federal Other Assets

                   Outstanding Contract Financing Payments
                   The Department of the Army has reported outstanding financing payments for fixed price contracts as an advance and prepayment. Under the terms of the fixed
                   price contracts, the Army becomes liable only after the contractor delivers the goods in conformance with the contract terms. If the contractor does not deliver a
                   satisfactory product, the Army is not obligated to reimburse the contractor for its costs and the contractor is liable to repay the Army the full amount of the
                   outstanding contract financing payments.

                   Other Assets (With the Public)
                   The Army reported a $67,874 thousand, or 14 percent, decrease in the amount of Other Assets (With the Public). The decrease is due to reduced advances to
                   military personnel and a change in the computed Firm Fixed Price adjustments directed against Army contracts by the Army's general business rules.

                   The FY 2003 Other Assets consists of Firm Fixed Price adjustments to Operating Materials and Supplies in the amount of $48,755 thousand. This amount
                   includes $12,388 thousand in the Missile Procurement Appropriation; $35,140 thousand in the Ammunition Procurement Appropriation; $1,152 thousand in the
                   Research Development, Testing and Evaluation Appropriation; and $75 thousand in the Army's Military Construction/Family Housing Appropriation.

                   Advances and Prepayments

                 112 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd      12/12/2003       5:44 PM      Page 113




                   The buyer-side Advances to Others balances were adjusted upward $150,324 thousand to agree with seller-side Advances from Others on the books for other DoD
                   reporting entities. Additionally, the buyer-side prepayment balances were adjusted to agree with seller-side deferred credits on the books of other DoD reporting
                   entities. The footnote also reflects intra-Army General Fund elimination entries of ($66,850) thousand leaving a balance of $83,474 thousand in these accounts.

              Note Reference
              See Note Disclosure 1. R. - Other Assets, Significant Accounting Policies for additional discussion on financial.

              For Regulatory Discussion on “Other Assets” see, Department of Defense Financial Management Regulation, Volume 6B, Chapter 10, paragraph 1008.

              Note 7. Cash and Other Monetary Assets
               As of September 30                                                                2003                             2002
               (Amounts in thousands)
               1. Cash                                                                                   $780,574                           $178,148
               2. Foreign Currency (non-purchased)                                                        173,794                            123,599
               3. Other Monetary Assets                                                                         0                                  0
               4. Total Cash, Foreign Currency, & Other Monetary Assets                                  $954,368                           $301,747

              5. Other Information Pertaining to Entity Cash & Other Monetary Assets:

              Definitions
                  Cash - The total of cash resources under the control of the Army, which includes coin, paper currency, purchased foreign currency, negotiable instruments, and
                  amounts on deposit in banks and other financial institutions. Cash available for agency use should include petty cash funds and cash held in revolving funds
                  which will not be transferred into the U.S. Government General Fund.

                   Foreign Currency - consists of the total U.S. dollar equivalent of non-purchased foreign currencies held in foreign currency fund accounts. Non-purchased
                   foreign currency is limited to the Treasury Index 97X7000 fund account (formerly called FT accounts).

                   Other Monetary Assets - includes gold, special drawing rights, and U.S. Reserves in the International Monetary Fund. This category is principally for use by the
                   Department of the Treasury.

              Fluctuation and/or Abnormalities
              Army cash and foreign currency increased $652,621 thousand or 216 percent, primarily to support the contingency missions Operation Iraqi Freedom and Operation
              Enduring Freedom. Overall foreign currency increased approximately $50,195 thousand or 41 percent, which includes currency to pay foreign vendors and cash in the
              custody of foreign agents primarily in support of the Army's forward deployed tactical units. The Army Corps of Engineers also received an advance from the Korean
              government, in won, to cover construction, labor and logistics to be done by the Army Corps of Engineers.

              Other Information Related to Cash and Other Monetary Assets

                                                                                                                                  General Fund Principal Notes and Statements 113
03GFStatements12-12.qxd    12/12/2003       5:44 PM      Page 114




              Cash and foreign currency reported consists primarily of cash held by disbursing officers to carry out their paying, collecting and foreign currency accommodation
              exchange mission. Foreign currency is valued using the Department of Treasury Prevailing Rate of Exchange. This rate is the most favorable rate that would legally
              be available to the U.S. Government's acquisition of foreign currency for its official disbursements and accommodation of exchange transactions.

              Note Reference
              See Note Disclosure 1. J. - Significant Accounting Policies for additional discussion on financial reporting requirements and Department of Defense policies governing
              Foreign Currency.

              Note 8. A. Direct Loan and/or Loan Guarantee Programs
              1. Direct Loan and/or Loan Guarantee Programs: The entity operates the following direct loan and/or Loan guarantee program(s):
                 Military Housing Privatization Initiative
                 Armament Retooling & Manufacturing Support Initiative

              2. Other Information:

              Armament Retooling and Manufacturing Support Initiative
              The Armament Retooling and Manufacturing Support Initiative (ARMS), Title 10 United States Code (USC) 4551-4555, is designed to encourage commercial use of
              the Army's inactive ammunition plants through many incentives for businesses willing to locate to a government ammunition production facility. These facilities have
              production capacity greater than the current military requirements; however, this capacity could be needed in the event of a major war. The revenues from the property
              rental are used to pay for the operation, maintenance and environmental clean up at the facilities. This savings in overhead cost lowers the production cost of the goods
              manufactured and funds the environmental clean up at no cost to the government.

              The U.S. Department of Agriculture Rural Business-Cooperative Service (RBS) and the United States Army established a Memorandum of Understanding (MOU) to
              furnish services to the Army in connection with the ARMS Initiative Loan Guarantee Program (AILG) pursuant to section 195 of the Armament Retooling and
              Manufacturing Support Act of 1992, as amended (10 U.S.C. 2501 note). The MOU is entered into pursuant to section 195 and 31 U.S.C. 1535.

              The Army, by means of the ARMS Initiative legislation, has been authorized to establish a loan guarantee program to facilitate commercial firms' use of specified
              ammunition manufacturing facilities. Army is authorized by Public Law 103-337, the National Defense Authorization Act for Fiscal Year 1995, to enter into this
              agreement with RBS. RBS has the needed programmatic and administrative services necessary and convenient to provide other services required to administer the
              AILG Program. Therefore, in order to ensure service to the public and for protection of the federal interests and rights, it is necessary for Army to obtain services from
              RBS.

              Note 8.B thru 8.G are not applicable to Army.




                114 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd     12/12/2003        5:44 PM    Page 115




              Note 8.B. Direct Loans Obligated After FY 1991
              Not Applicable

              Note 8.C. Total Amount of Direct Loans Disbursed
              Not Applicable

              Note 8.D. Subsidy Expense for Post-1991 Direct Loans
              Not Applicable

              Note 8.E. Subsidy Rate for Direct Loans
              Not Applicable

              Note 8.F. Schedule for Reconciling Subsidy Cost Allowance Balances for Post-1991 Direct Loans
              Not Applicable

              Note 8.G. Defaulted Guaranteed Loans from Post-1991 Guarantees
              Not Applicable

              Note 8.H. Guaranteed Loans Outstanding
               As of September 30
               (Amounts in thousands)
                                                                                     Outstanding Principal, Guaranteed Amount of Outstanding Principal
               Loan Guarantee Program Title                                                 Loans, Face Value                   Guaranteed
                                                         2003
               1. Military Housing Privatization Initiative                                                     $0                                  $0
               2. Armament Retooling & Manufacturing Support Initiative                                     26,777                              24,020
               3. Total                                                                                    $26,777                             $24,020
                                                         2002
               1. Military Housing Privatization Initiative                                                     $0                                  $0
               2. Armament Retooling & Manufacturing Support Initiative                                      8,553                               7,698
               3. Total                                                                                     $8,553                              $7,698

              4. Other Information:
              Two additional loans generated in FY 2003 contributed to the increase of $18,224 thousand or 213 percent from FY 2002 for the Outstanding Principal Guaranteed
              Loans Face Value and $16,322 thousand or 212 percent from FY 2002 for the Outstanding Principal Guaranteed.

                                                                                                                                  General Fund Principal Notes and Statements 115
03GFStatements12-12.qxd      12/12/2003       5:44 PM      Page 116




              Note 8.I. Liability for Post-1991 Loan Guarantees, Present Value
               As of September 30
               (Amounts in thousands)                                                                 2003                                2002
               Loan Guarantee Program Title
               1. Military Housing Privatization Initiative                                                          $0                                        $0
               2. Armament Retooling & Manufacturing Support Initiative                                           1,273                                       730
               3. Total                                                                                          $1,273                                      $730

              4. Other Information:
              Fluctuations and/or Abnormalities
              Total Loan Guarantee Liabilities increased $543 thousand or 74 percent, due to origination fees on two new loans and loan obligation subsidy transferring from the
              program account to the financing account.

              Note 8.J. Subsidy Expense for Post-1991 Loan Guarantees
               (Amounts in thousands)
                                                  2003                        Interest Differential                       Defaults                   Fees                   Other   Total
               1. Subsidy Expense for New Loan Guarantees Disbursed:
                    Military Housing Privatization Initiative                                 $0                              $0                      $0                     $0       $0
                    Armament Retooling & Manufacturing Support Initiative                       0                            145                      (8)                    37      174
                    Total                                                                     $0                           $145                      ($8)                   $37     $174
                                                  2002                        Interest Differential                       Defaults                   Fees                   Other    Total
               2. Subsidy Expense for New Loan Guarantees Disbursed:
                    Military Housing Privatization Initiative                                 $0                              $0                      $0                     $0      $0
                    Armament Retooling & Manufacturing Support Initiative                      0                             (11)                       8                      5      2
                    Total                                                                     $0                            ($11)                     $8                     $5      $2
                                                  2003                              Modifications       Interest Rate Reestimates    Technical Reestimates      Total Reestimates   Total
               3. Loan Guarantee Modifications and Reestimates:
                    Military Housing Privatization Initiative                                 $0                             $0                       $0                     $0      $0
                    Armament Retooling & Manufacturing Support Initiative                      0                               0                        0                      0      0
                    Total                                                                     $0                             $0                       $0                     $0      $0
                                                  2002                              Modifications       Interest Rate Reestimates    Technical Reestimates      Total Reestimates   Total
               4. Loan Guarantee Modifications and Reestimates:
                    Military Housing Privatization Initiative                                 $0                              $0                      $0                     $0       $0
                    Armament Retooling & Manufacturing Support Initiative                      0                               0                       0                      0        0
                    Total                                                                     $0                              $0                      $0                     $0       $0
                                                  2000                                       2003                            2002
               5. Total Loan Guarantee Subsidy Expense:
                    Military Housing Privatization Initiative                                 $0                              $0
                    Armament Retooling & Manufacturing Support Initiative                    174                               2
                    Total                                                                   $174                              $2



                 116 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd       12/12/2003         5:44 PM       Page 117




              6. Other Information:
              Fluctuations and/or Abnormalities
                  Subsidy Expense - Represents new loans obligated, multiplied by the subsidy rate. The $172 thousand or 7,509 percent, increase is based on increased loan
                  activity.

              Note 8.K. Subsidy Rate for Loan Guarantees
                                                                                       Supplements        Defaults   Collections      Other      Total
               Loan Guarantees :
               1. Military Housing Privatization Initiative:                                     0.00%       0.00%            0.00%     0.00%       0.00%
               2. Armament Retooling & Manufacturing Support Initiative                          0.00%       4.94%           -1.60%     0.00%       3.34%

              3. Other Information:
              The budgeted subsidy rate in effect for FY 2003 remains the same for the entire fiscal year.

              Note 8.L. Schedule for Reconciling Loan Guarantee Liability Balances for Post-1991 Loan Guarantees
               Beginning Balance, Changes and Ending Balance                                                                             2003
               (Amounts in thousands)
               1. Beginning balance of the loan guarantee liability                                                                                 $730

               2. Add: subsidy expense for guaranteed loans disbursed during the reporting years by component:
                    A. Interest supplement costs                                                                                                      $0
                    B. Default costs (net of recoveries)                                                                                             145
                    C. Fees and other collections                                                                                                     (8)
                    D. Other subsidy costs                                                                                                            37
                    E. Total of the above subsidy expense components                                                                                $174

               3. Adjustments:
                    A. Loan guarantee modifications                                                                                                   $0
                    B. Fees received                                                                                                                 324
                    C. Interest supplements paid                                                                                                       0
                    D. Foreclosed property and loans acquired                                                                                          0
                    E. Claim payments to lenders                                                                                                       0
                    F. Interest accumulation on the liability balance                                                                                 45
                    G. Other                                                                                                                           0
                    H. Total of the above adjustments                                                                                               $369

               4. Ending balance of the loan guarantee liability before reestimates                                                                $1,273




                                                                                                                                        General Fund Principal Notes and Statements 117
03GFStatements12-12.qxd       12/12/2003        5:44 PM      Page 118




               Beginning Balance, Changes and Ending Balance                                                               2003
               (Amounts in thousands)
               5. Add or subtract subsidy reestimates by component:
                    A. Interest rate reestimate                                                                                            0
                    B. Technical/default reestimate                                                                                        0
                    C. Total of the above reestimate components                                                                           $0

               6. Ending balance of the loan guarantee liability                                                                      $1,273

              7. Other Information:
              Two new loans closed in FY 2003 for the amount of $16,500 thousand with a guarantee fee of $297 thousand and $1,600 thousand with a guarantee fee of $27
              thousand. The associated budget authorized subsidy collected was $551 thousand. FY 2000 obligations were cancelled in the amount of ($16,000) thousand with
              subsidy of ($378) thousand decreasing the guarantee liability.

              Note 8.M. Administrative Expense
               As of September 30                                                              2003                        2002
               (Amounts in thousands)
               1. Direct Loans:
                    Military Housing Privatization Initiative                                                  $0                          $0
                    Armament Retooling & Manufacturing Support Initiative                                       0                           0
                    Total                                                                                      $0                          $0

               2. Loan Guarantees:
                    Military Housing Privatization Initiative                                                  $0                          $0
                    Armament Retooling & Manufacturing Support Initiative                                      14                          36
                    Total                                                                                     $14                         $36

              3. Other Information:
              The Administrative Expense decreased $22 thousand or 61 percent, from FY 2002.

              Note 9. Inventory and Related Property
               As of September 30                                                              2003                        2002
               (Amounts in thousands)
               1. Inventory, Net (Note 9.A.)                                                             $293,228                    $294,480
               2. Operating Materials & Supplies, Net (Note 9.B.)                                      32,383,430                  26,964,942
               3. Stockpile Materials, Net (Note 9.C.)                                                          0                           0
               4. Total                                                                               $32,676,658                 $27,259,422




                 118 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd      12/12/2003        5:44 PM       Page 119




              Note 9.A. Inventory, Net
                                                                                                                       2003                                  2002
                                                                                                Inventory, Gross   Revaluation
               As of September 30                                                                    Value          Allowance           Inventory, Net   Inventory, Net   Valuation Method
               (Amounts in thousands)
               1. Inventory Categories:
                    A. Available and Purchased for Resale                                               $51,487             ($17,801)          $33,686          $44,419         LAC
                    B. Held for Repair                                                                        0                    0                 0                0
                    C. Excess, Obsolete, and Unserviceable                                               10,899              (10,899)                0                0        NRV
                    D. Raw Materials                                                                          0                    0                 0                0
                    E. Work in Process                                                                  259,542                    0           259,542          250,061         SP
                    F. Total                                                                           $321,928             ($28,700)         $293,228         $294,480

               Legend for Valuation Methods:
               Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and losses   NRV = Net
                  holding gains and losses                                                     O = Other
               SP = Standard Price
               AC = Actual Cost

              2. Restrictions of Inventory Use, Sale, or Disposition:
              There are no restrictions on the use, sale, or disposition of inventory except in the following situations:

              1) distributions without reimbursements made when authorized by DoD directives;

              2) War Reserve Material includes fuels and subsistence items that are considered restricted; and

              3) Inventory, with the exception of safety stocks, may be sold to foreign, state and local governments, private parties, and contractors in accordance with current
                 policies and guidance or at the direction of The President.

              3. Other Information:

              General Composition of Inventory
              Inventory is comprised of ammunition in the Conventional Ammunition Working Capital Fund (CAWCF). Inventory is tangible personal property that is:

              1) Held for sale, or held for repair for eventual sale;

              2) In the process of production for sale; or

              3) To be consumed in the production of goods for sale or in the provision of services for a fee.


                                                                                                                                        General Fund Principal Notes and Statements 119
03GFStatements12-12.qxd      12/12/2003       5:44 PM       Page 120




              Excess, Obsolete and Unserviceable inventory is condemned material that must be retained for management purposes. Work-in-Process includes munitions in
              production and depot maintenance work with its associated labor, applied overhead, and supplies used in the delivery of maintenance services. The U.S. Standard
              General Ledger does not include a separate Work-in-Process account unrelated to sales.

              Decision Criteria for Identifying the Category to Which Inventory is Assigned
              Managers determine which items are more costly repair than to replace. Items retained for management purposes are coded condemned. The net value of these items
              is zero, and is shown as Excess, Obsolete, and Unserviceable.

              Changes in the Criteria for Identifying the Category to Which Inventory is Assigned
              The category Held for Sale includes all issuable material. The category Held for Repair includes all economically reparable material. Before FY 2002, the Army
              showed potentially redistributable material, regardless of condition, as Excess, Obsolete, and Unserviceable.

              Fluctuations and/or Abnormalities
              The CAWCF reports balances for Inventory Available and Purchased for Resale; Inventory Excess, Obsolete, and Unserviceable; and Inventory Work-in-Process.
              Sales are primarily made to the Military Departments. CAWCF Total Inventory, Net, showed an overall decrease of $1,253 thousand or 1 percent, in FY 2003.
              CAWCF Inventory Available and Purchased for Resale dropped by $10,734 thousand or 24 percent, in FY 2003. The year to year decrease in CAWCF inventory is
              expected as the Army's CAWCF progresses to final closeout on October 31, 2005. CAWCF stopped accepting new customer orders in July 1998 and all new orders for
              ammunition have gone to the procurement appropriations. CAWCF is scheduled to complete production and delivery of all orders by June 2004. The final billing of
              CAWCF orders are projected to be complete by October 2004 and the financial closeout of contracts by June 2005. The CAWCF final financial position will be
              determined shortly before CAWCF's October 31, 2005 closeout. The above dates are not firm and are likely to change as unplanned events occur. The majority of
              CAWCF Work-in-Process is performed at Government Owned Contractor Operated plants.

              Note Reference
              See Note Disclosure 1. M. - Significant Accounting Policies for additional discussion on financial reporting requirements and DoD policies governing Inventory and
              related Property.

              Note 9.B. Operating Materials and Supplies, Net
                                                                                                              2003                                 2002
               As of September 30
                                                                                    OM&S Gross Value   Revaluation Allowance      OM&S, Net      OM&S, Net      Valuation Method
               (Amounts in thousands)
               1. OM&S Categories:
                   A. Held for Use                                                       $32,383,430                        $0     $32,383,430    $26,964,942          LAC
                   B. Held for Repair                                                              0                         0               0              0
                   C. Excess, Obsolete, and Unserviceable                                    478,473                  (478,473)              0              0          NRV
                   D. Total                                                              $32,861,903                 ($478,473)    $32,383,430    $26,964,942




                 120 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd      12/12/2003       5:44 PM    Page 121




               Legend for Valuation Methods:
               Adjusted LAC = Latest Acquisition Cost      NRV = Net Realizable Value
                 adjusted for holding gains and losses     O = Other
               SP = Standard Price
               AC = Actual Cost

              2. Restrictions on OM&S:
              Tonnage
              The total tonnage of munitions stock, to include chemical stocks awaiting destruction for FY 2003 and out years, is 405,092 tons.

              Balances
              The Army reported $5,000,000 thousand of Operating Materials and Supplies (OM&S) Held for Future Use. This amount represents ammunition held under a host
              nation treaty agreement and is not intended for use by U.S. Forces. The ammunition is intended for use in defense of the host nation by the host nation.

              3. Other Information:
              General Composition of OM&S
              OM&S includes spare and repair parts, ammunition, and tactical missiles.

              Changes In The Criteria For Identifying The Category To Which OM&S Are Assigned
              The category Held for Use includes all issuable material. The category Held for Repair includes all economically reparable material. Before FY 2002, The
              Department showed potentially redistributable material, regardless of condition, as Excess, Obsolete, and Unserviceable.

              Decision Criteria For Identifying The Category To Which OM&S Are Assigned
              Managers determine which items are more costly to repair than to replace. Items retained for management purposes are coded condemned. The net value of these
              items is zero, and is shown as Excess, Obsolete, and Unserviceable.

              Other Information Related to OM&S, Net
              Fluctuations and/or Abnormalities
              The reported Total OM&S, Net, increased by $5,418,488 thousand or 20 percent, in FY 2003. The increases in Total OM&S and OM&S Held for Use are largely the
              result of two factors. First, retail and guided missiles OM&S for $6,747,585 thousand are included on the FY 2003 Army Balance Sheet. The decision to include retail
              and guided missiles OM&S on the FY 2003 financial statements was made in response to the issuance of Statement of Federal Financial Accounting Standards
              (SFFAS) No. 23, Eliminating the Category National Defense Property, Plant and Equipment (NDPP&E), dated May 8, 2003. SFFAS 23 eliminated NDPP&E. As a
              result, retail and guided missiles OM&S, formerly reported as NDPP&E in the Required Supplementary Stewardship Information, are now reported on the balance
              sheet. The second factor is a $1,340,568 thousand reduction in ammunition inventories impacted by ongoing war efforts.

              Total Excess, Obsolete and Unserviceable
              In FY 2001, the Office of the Under Secretary of Defense (Comptroller) (OUSD (C)) directed field accounting offices to value excess, obsolete, and unserviceable

                                                                                                                               General Fund Principal Notes and Statements 121
03GFStatements12-12.qxd      12/12/2003        5:44 PM       Page 122




              OM&S items at 1.9 percent of carrying amount. Additionally, financial statements prepared for the Army were allowed to use amounts for excess, obsolete, and
              unserviceable inventory and OM&S taken from the Supply System Inventory Report (SSIR). In FY 2002, OUSD (C) changed its position and directed the Military
              Services to no longer use the SSIR as the basis for reporting excess, obsolete, and unserviceable inventory. In addition, the Military Services were directed to account
              for excess, obsolete and unserviceable items as required by the Military Standard Transaction Reporting and Accounting Procedures Manual (DoD 4000.25-2-M), and
              to revalue excess, obsolete, and unserviceable OM&S items at 100 percent of carrying amount. In response to this request, all field submitted excess, obsolete, and
              unserviceable OM&S and inventory are revalued at the Departmental Accounting level to 100 percent of carrying amount. At this time field accounting offices
              continue to value excess, obsolete, and unserviceable OM&S items at 1.9 percent.

              Government Furnished Material (GFM) and Contractor Acquired Material (CAM)
              The value of the Army's GFM and CAM in the hands of contractors is normally not included in the OM&S values reported above. The DoD is presently reviewing its
              process for reporting these amounts in an effort to determine the appropriate accounting treatment and the best method to annually collect and report required
              information without duplicating information in other existing logistics systems.

              Note Reference
              See Note Disclosure 1. M. - Significant Accounting Policies for additional discussion on financial reporting requirements and DoD policies governing Inventory and
              Related Property.

              Note 9.C. Stockpile Materials, Net
              Not Applicable

              Note 10. General PP&E, Net
                                                                                                           2003                                                                 2002
                                                        Depreciation/ Amortization                                      (Accumulated Depreciation/
               As of September 30                                Method              Service Life   Acquisition Value         Amortization)           Net Book Value   Prior FY Net Book Value
               (Amounts in thousands)
               1. Major Asset Classes:
                    A. Land                                        N/A                   N/A                 $438,580                           N/A         $438,580                   $423,884
                    B. Buildings, Structures,                                                                                          (24,725,096)       14,216,010
                          and Facilities                           S/L                20 Or 40            38,941,106                                                                12,982,538
                    C. Leasehold Improvements                      S/L               lease term               11,506                        (9,699)           1,807                      1,333
                    D. Software                                    S/L                2-5 Or 10               88,238                       (36,796)          51,442                        368
                    E. Equipment                                   S/L                 5 Or 10           383,812,565                  (288,539,660)      95,272,905                    747,821
                    F. Assets Under Capital Lease [1]              S/L               lease term              166,071                      (121,687)          44,384                     55,556
                    G.Construction-in-Progress                     N/A                   N/A               5,294,164                            N/A       5,294,164                  4,471,634
                    H. Other                                                                                  18,614                             0           18,614                     17,492
                    I. Total General PP&E                                                               $428,770,844                 ($313,432,938)    $115,337,906                $18,700,626




                 122 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd      12/12/2003        5:44 PM      Page 123




               [1]
                 Note 15.B for additional information on Capital Leases
               Legend for Valuation Methods:
               S/L = Straight Line     N/A = Not Applicable

              2. Other Information:
              Fluctuations and/or Abnormalities
                  The net book value (NBV) of Buildings, Structures, and Facilities increased by $1,233,472 thousand or 10 percent. The NBV of Leasehold Improvements also
                  increased $474 thousand or 36 percent. The increase in both major asset classes is due to the identification of previously omitted real property data. Personnel
                  from the offices of the Assistant Secretary of the Army - Financial Management & Comptroller and Assistant Chief of Staff for Installation Management
                  determined that the Army was the proper reporting entity for this data.

                     The Army reported an increase in Software NBV of $51,074 thousand or 13,878 percent. This increase is attributed to the reporting of software developed in
                     support of Single Stock Fund Implementation Milestones at the Tank-Automotive and Armaments Command and the Aviation and Missile Command.

                     The NBV of Equipment increased $94,525,084 thousand or 12,640 percent, due to the inclusion of Military Equipment as explained below.

                     Assets Under Capital Lease - See explanation in Note 10.A.

                     Construction-in-Progress (CIP) increased $822,529 thousand or 18 percent. Major components of the increase include: $308,723 thousand transferred from the
                     Tricare Management Activity for hospitals, clinics and other facilities under construction; $157,611 thousand transferred from the Missile Defense Agency for the
                     National Missile Defense Program at Fort Greely and Eareckson Air Station; and $356,195 thousand in U.S. Army Corps of Engineers projects which include the
                     construction and repair of barracks, training facilities, utilities, and vehicle maintenance facilities.

              Relevant Information for Comprehension

              Military Equipment
              In FY 2003, the Army included military equipment with an acquisition value of $381,270,000 thousand and accumulated depreciation of $286,840,000 thousand for a
              net book value of $94,430,000 thousand.

              The Federal Accounting Standards Advisory Board issued Statement of Federal Financial Accounting Standards No. 23, Eliminating the Category National Defense
              Property, Plant, and Equipment, in May 2003. This standard, which is effective for accounting periods beginning after September 30, 2002, establishes generally
              accepted accounting principles (GAAP) for valuing and reporting military equipment (e.g., ships, aircraft, combat vehicles, weapons) in Federal financial statements.
              The standard requires the capitalization and depreciation of the cost of military equipment, including the cost of modifications and upgrades.

              The Department of Defense (DoD) has determined that it is not practicable at this time to accumulate from internal records the information necessary to value military
              equipment in accordance with GAAP, because the Army and DoD are currently working to revise their accounting processes and systems to support informational
              needs. In the interim, DoD will base the value of military equipment for financial statement presentation purposes on data provided by the Bureau of Economic
              Analysis (BEA), Department of Commerce.
                                                                                                                                  General Fund Principal Notes and Statements 123
03GFStatements12-12.qxd      12/12/2003        5:44 PM      Page 124




              The data provided by BEA consist of investment and net book value data for 84 groups of military equipment such as tracked vehicles, aircraft, ships and combat
              vehicles. BEA uses the Army's budget data for equipment acquisitions and actual quantities of equipment items delivered to calculate the Army's annual investment in
              equipment, after recognizing any equipment transfers or war losses. DoD adjusted BEA data to eliminate equipment items that are not accounted for as military
              equipment, such as spares, munitions, and inventory items, which are accounted for and reported as Inventory and Related Property.

              Other
              The $18,614 thousand for Other represents natural resources (value of timber reserves).

              Note Reference
              See Note Disclosure 1. O. - Significant Accounting Policies for additional discussion on financial reporting requirements and DoD policies governing General Property,
              Plant and Equipment.

              Note 10.A. Assets Under Capital Lease
               As of September 30                                                               2003                            2002
               (Amounts in thousands)
               1. Entity as Lessee, Assets Under Capital Lease:
                    A. Land and Buildings                                                                $166,071                         $166,069
                    B. Equipment                                                                                0                                0
                    C. Other                                                                                    0                                0
                    D. Accumulated Amortization                                                          (121,687)                        (110,513)
                    E. Total Capital Leases                                                               $44,384                          $55,556

              2. Description of Lease Arrangements:

              Fluctuations and/or Abnormalities
              The Assets under Capital Lease decreased by $8,385 thousand due to straight-line depreciation of leased assets. An additional decrease of $2,787 thousand was due to
              corrections of previous depreciation schedules.

              Relevant Information for Comprehension
              The Army is the lessee in eight Section 801 Family Housing Leases for two on-post and six off-post housing facilities. These leases have between four and ten years
              remaining on their terms. As shown in Note 15.A., the liability is valued at $11,742 thousand for current and $59,397 thousand for non-current. The future executory
              and imputed interest costs, as shown in Note 15.B., are $18,214 thousand and $18,783 thousand, respectively. Future executory costs are estimates based on historical
              data. The use of estimates for these costs has been deemed adequate and appropriate due to the relatively low dollar value of capital leases. The imputed interest that
              was necessary to reduce the net minimum lease payments to the present value was calculated at the incremental borrowing rate at the inception of the leases.

              Note Reference
              See Note Disclosure 1. Q. - Significant Accounting Policies for additional discussion on financial reporting requirements and DoD policies governing leases.


                 124 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd       12/12/2003         5:44 PM       Page 125




              Note 11. Liabilities Not Covered and Covered by Budgetary Resources
                                                                                                        2003                                      2002
                                                                          Covered by Budgetary    Not Covered by Budgetary                   Not Covered by
               As of September 30                                              Resources                 Resources             Total       Budgetary Resources
               (Amounts in thousands)
               1. Intra-governmental Liabilities:
                     A. Accounts Payable                                             $1,084,965                        $0     $1,084,965                     $0
                     B. Debt                                                                  0                         0              0                    157
                     C. Environmental Liabilities                                             0                         0              0                      0
                     D. Other                                                         1,287,512                   382,806      1,670,318                228,745
                     E. Total Intra-governmental Liabilities                         $2,372,477                  $382,806     $2,755,283               $228,902

               2. Non-Federal Liabilities:
                    A. Accounts Payable                                              $9,089,097                         $0    $9,089,097                     $0
                    B. Military Retirement Benefits and
                    Other Employment-Related Actuarial Liabilities                            0                 1,761,318      1,761,318              1,624,557
                    C. Environmental Liabilities                                      2,891,647                34,503,765     37,395,412             31,145,482
                    D. Loan Guarantee Liability                                           1,273                         0          1,273                      0
                    E. Other Liabilities                                              3,820,423                 5,566,897      9,387,320              5,165,176
                    F. Total Non-Federal Liabilities                                $15,802,440               $41,831,980    $57,634,420            $37,935,215

               3. Total Liabilities:                                                $18,174,917               $42,214,786    $60,389,703            $38,164,117

              4. Other Information:
              Liabilities Not Covered and Covered by Budgetary Resources
              Liabilities Not Covered by Budgetary Resources are those liabilities which are not considered covered by realized budgetary resources as of the balance sheet date.

              Liabilities Covered by Budgetary Resources are those that are incurred by the reporting entity which are covered by realized budgetary resources as of the balance
              sheet date. Budgetary resources encompass not only new budget authority, but also other resources available to cover liabilities for specified purposes in a given year.
              Available budgetary resources include: 1) new budget authority, 2) spending authority from offsetting collections (credited to an appropriation or fund account), 3)
              recoveries of unexpired budget authority through downward adjustments of prior year obligations, 4) unobligated balances of budgetary resources at the beginning of
              the year or net transfers of prior year balances during the year, and 5) permanent indefinite appropriations or borrowing authority, which have been enacted and signed
              into law as of the balance sheet date, provided that the resources may be apportioned by the Office of Management and Budget without further action by Congress or
              without a contingency first having to be met.

              Reporting requirements for this note changed in FY 2003. The FY 2002 Note 11 comparison was total Liabilities Covered and Uncovered by Budgetary Resources. In
              FY 2003, the comparison is only for Liabilities Not Covered by Budgetary Resources. The Army's published financial statements reported $269,625 thousand in non-
              delinquent FECA as unfunded in FY 2002. The schedule below shows this amount broken down as $116,126 thousand funded and $153,499 thousand unfunded. The
              schedule also identifies the Department of the Army's Other Intragovernmental and Non-Federal liabilities. Fluctuation explanations are presented in Note 15.

                                                                                                                                           General Fund Principal Notes and Statements 125
03GFStatements12-12.qxd     12/12/2003       5:44 PM     Page 126




              Intragovernmental Liabilities-Other                                    Amounts (in thousands)   Non-Federal Liabilities - Other Liabilities                         Amounts (in thousands)
                                                                  Year-End FY 2003    Year-End FY 2002                                                         Year-End FY 2003    Year-End FY 2002
                   Funded         Disbursing Officer Cash                 $952,130            $300,378             Funded         Accrued Payroll                    $2,310,623          $2,111,116
                                  Federal Employees'                                                                              Advances                              589,621             476,385
                                  Compensation Act (FECA)                 119,974                116,126                          Contract Holdbacks                    371,082             617,351
                                  Employer Contributions                   81,572                 52,758                          Employer Contributions                300,170             242,389
                                  Deposit Fund/Suspense                                                                           Contingent Liabilities                211,737             303,781
                                  Liability                                67,914                 (1,161)                         Capital Leases                         26,590              81,939
                                  Advances from Others                     56,969                 65,329                          Other                                  10,294                 627
                                  Voluntary Separation                                                                            Temporary Early Retirement
                                  Incentive Pay                             8,953                   1,034                         Authority                                306                  9,952
                                  Unemployment                                                                                    Deposit Fund Liability                     0                     28
                                  Compensation                                  0                89,210            Total Funded                                     $3,820,423             $3,843,568
                                  FECA (delinquencies)                          0                23,985
                   Total Funded                                        $1,287,512              $647,659            Unfunded     Annual Leave                        $2,634,641             $2,712,350
                                                                                                                                Contingent Liabilities               1,335,090                960,000
                   Unfunded     FECA                                    $156,445               $153,499                         Nonenvironmental - Disposal          1,192,935              1,424,298
                                Judgment Fund                             144,221                75,246                         Iraqi Seized Assets                    278,139                      0
                                Unemployment Compensation                  78,516                     0                         Cancelled Appropriations                81,543                 68,528
                                Other Employment-related                    3,624                     0                         Capital Leases                          44,549                      0
                    Total Unfunded                                      $382,806               $228,745             Total Unfunded                                  $5,566,897             $5,165,176
              Total Intragovernmental Liabilities - Other              $1,670,318              $876,404       Total Non-Federal Liabilities - Other                 $9,387,320             $9,008,744


              Note Reference
              For Additional Line Item discussion, see:
              Note 2, Nonentity and Entity Assets
              Note 8, Direct Loan and/or Loan Guarantee Programs
              Note 12, Accounts Payable
              Note 13, Debt
              Note 14, Environmental Liabilities and Disposal Liabilities
              Note 15, Other Liabilities
              Note 16, Commitments and Contingencies
              Note 17, Military Retirement Benefits and Other Employment Related Actuarial
                       Liabilities
              Note 23, Disclosures Related to the Statement of Custodial Activity

                126 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd      12/12/2003        5:44 PM    Page 127




              Note 12. Accounts Payable
                                                                                                       2003                                          2002 Total
                                                                                                Interest, Penalties, and
               As of September 30                                        Accounts Payable         Administrative Fees              Total
               (Amounts in thousands)
               1. Intra-governmental Payables:                                    $1,084,965                               N/A    $1,084,965              $774,545
               2. Non-Federal Payables (to the Public):                           $9,089,097                                $0    $9,089,097            $5,967,178
               3. Total                                                          $10,174,062                                $0   $10,174,062            $6,741,723

              4. Other Information:
              Intragovernmental Accounts Payable consists of amounts owed to other federal agencies for goods or services ordered and received but not paid. Interest, penalties
              and administrative fees are not applicable to intragovernmental payables. Non-federal Accounts Payable (To the Public) are payables to entities other than the federal
              government.

              Fluctuations and/or Abnormalities
              Intragovernmental Accounts Payable
              Intragovernmental Accounts Payable with entities other than the Army General Fund increased $310,421 thousand or 40 percent, in FY 2003. Increases were reported
              by the following activities (amounts in thousands).

                   Activities/Trading Partner                                                     FY 2003            FY 2002          Change       Percent Change
                   Army Working Capital Fund (AWCF) - Component level                           $365,836            $197,098        $ 168,738                  54
                   U.S. Transportation Command                                                    374,156            244,048          130,108                  42
                   Tricare Management Activity / Defense Health Program                           102,481             47,358           55,123                  18
                   Defense Finance Acctg Service (WCF) - Component Level                              -23             35,093          -35,116                 -11
                   Defense Information Systems Agency (WCF) - Component Level                      54,098             34,365           19,733                   6
                   Defense Information Systems Agency - Component Level                             7,659             24,594          -16,935                  -5
                   Other Defense Organizations General Fund - Component Level                      16,014                795           15,219                   5
                   Defense Logistics Agency (WCF) - Component Level                               103,781            116,282          -12,501                  -4
                   Air Force General Fund - Component Level                                        19,122             28,109           -8,987                  -3
                   Air Force (WCF) - Depot Maintenance                                                 51              6,164           -6,113                  -2
                   Navy General Fund - Component Level                                              4,294              9,953           -5,659                  -2
                   Marine Corps General Fund - Component Level                                      8,021              3,330            4,691                   2
                   US Corps of Engineers - Revolving Funds                                          5,446              1,065            4,381                   1
                   Department of Defense Education Benefits Fund                                        0              3,910            -3910                  -1
                   Various Minor                                                                   24,028             22,379            1,649                   1
                           Totals                                                              $1,084,964           $774,543         $310,421                 100


                                                                                                                                               General Fund Principal Notes and Statements 127
03GFStatements12-12.qxd    12/12/2003       5:44 PM      Page 128




              The majority of the increases are attributable to the AWCF and to activities belonging to the U.S. Transportation Command (USTRANSCOM). The increase in AWCF
              is the result of additional purchases of parts and materiel in support of Operation Iraqi Freedom. The increase in USTRANCOM is the result of increased reimbursable
              transportation activity associated with supporting the war efforts for Operation Enduring Freedom and Operation Iraqi Freedom.

              Non-Federal Accounts Payable
              Non-Federal payables increased $3,121,919 thousand or 52 percent, in FY 2003. The majority of the increase occurred in appropriations that received additional
              funding to support contingency operations such as Enduring Freedom, Iraqi Freedom, and Noble Eagle. The support included the activation of reserve personnel, the
              maintenance of warfighting equipment, and the replacement of equipment lost or damaged in active conflict. Other areas of support included warfighting readiness,
              force protection, antiterrorism base operations, and other security programs.

              Relevant Information for Comprehension

              Undistributed Disbursements
              Undistributed disbursements are the difference between disbursements/collections recorded at the detailed level to a specific obligation, payable, or receivable in the
              activity field records versus those reported by the U.S. Treasury via the reconciled DD 1329, Statement of Transactions and DD 1400, Statement of Interfund and
              Intrafund Transactions. This should agree with the undistributed balances reported on accounting reports.

              The Army allocated supported undistributed disbursements to Public Accounts Payable. As a result, Accounts Payable was adjusted downwards in the amount of
              $1,056,680 thousand. Unsupported undistributed disbursements were taken from the Undistributed Disbursements and Collections Report, HDF 090, and recorded in
              U.S. Standard General Ledger account 2120, Disbursements in Transit.

              Intragovernmental Eliminations
              The Army accounting systems do not capture trading partner data at the transaction level in a manner that facilitates trading partner aggregations for intraagency sales.
              Therefore, the Army was unable to reconcile intragovernmental accounts payable to the related intragovernmental account receivable that generated the payable.

              The DoD summary level seller Accounts Receivables were compared to the Army Accounts Payable. An adjustment was posted to the Army Accounts Payable based
              on the comparison with the Accounts Receivable of the DoD Components providing goods and services to the Army. Positive differences were treated as unrecognized
              Accounts Payable and in the case of the Army, there were no adjustments made to Accounts Payable.

              The Army intends to develop long-term systems improvements that will include sufficient upfront edits and controls to eliminate the need for after-the-fact
              reconciliations. However, the volume of intragovernmental transactions is so large that these reconciliations cannot be accomplished with existing or foreseeable
              resources.

              Note Reference
              See Note Disclosure 1. G. - Significant Accounting Policies for additional discussion on financial reporting requirements and the DoD policies governing accounting
              for Intragovernmental Activities.


                128 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd      12/12/2003        5:44 PM      Page 129




              Note 13. Debt
               As of September 30                                                                     2003                                              2002
               (Amounts in thousands)                                  Beginning Balance          Net Borrowings           Ending Balance          Ending Balance
               1. Public Debt:
                    A. Held by Government Accounts                                         N/A                     N/A                 N/A                           N/A
                    B. Held by the Public                                                  N/A                     N/A                 N/A                           N/A
                    C. Total Public Debt                                                   N/A                     N/A                 N/A                           N/A
               2. Agency Debt:
                    A. Debt to the Treasury                                                $0                      $0                   $0                            $0
                    B. Debt to the Federal Financing Bank                                   0                       0                    0                             0
                    C. Debt to Other Federal Agencies                                       0                       0                    0                           157
                    D. Total Agency Debt                                                   $0                      $0                   $0                          $157
               3. Total Debt:                                                              $0                      $0                   $0                          $157
               4. Classification of Debt:
                    A. Intra-governmental Debt                                                                                          $0                          $157
                    B. Non-Federal Debt                                                                                                N/A                           N/A
                    C. Total Debt                                                                                                       $0                          $157

              5. Other Information:

              Relevant Information for Comprehension
              Debt to Other Federal Agencies Department of Defense has been reclassified to Other Unfunded Employment-related Liabilities, reported in Note 15A, Other
              Liabilities, Line 1K, Other. The FY 2002 balance represents the unfunded interest payable on reimbursements to the DoD Education Benefits Trust Fund for
              education benefits paid on behalf of separated Army personnel. The DoD Board of Actuaries determined the amount of accumulated interest to be $76 thousand for
              FY 2003.

              Note 14. Environmental Liabilities and Disposal Liabilities
               As of September 30                                                                                2003                                    2002
               (Amounts in thousands)                                                  Current Liability    Noncurrent Liability       Total             Total
               1. Environmental Liabilities – Non Federal
                  A. Accrued Environmental Restoration (DERP funded) Costs:
                    1. Active Installations--Environmental Restoration (ER)                      $711,107            $2,984,995      $3,696,102           $4,168,533
                    2. Active Installations--ER for Closed Ranges                                  23,129             3,159,579       3,182,708              649,436
                    3. Formerly Used Defense Sites (FUDS) -- ER                                   264,972             3,974,412       4,239,384            4,304,856
                    4. FUDS--ER for Transferred Ranges                                            128,177            13,496,170      13,624,347           11,220,315

                 B. Other Accrued Environmental Costs (Non-DERP funds)
                   1. Active Installations--Environmental Corrective Action                        65,367                222,490        287,857              281,241
                   2. Active Installations--Environmental Closure Requirements                      9,350                 27,724         37,074               44,565
                   3. Active Installations--Environ.Response at Active Ranges                      60,543                203,825        264,368              292,200
                   4. Other                                                                             0                      0              0               15,160


                                                                                                                                                  General Fund Principal Notes and Statements 129
03GFStatements12-12.qxd      12/12/2003        5:44 PM      Page 130




               As of September 30                                                                        2003                             2002
               (Amounts in thousands)                                           Current Liability   Noncurrent Liability     Total        Total
                 C. Base Realignment and Closure (BRAC)
                    1. BRAC Installations--Environmental Restoration (ER)                  39,072                479,644      518,716        575,151
                    2. BRAC Installations--ER for Transferring Ranges                       9,593                486,482      496,075        367,517
                    3. BRAC Installations--Environmental Corrective Action                  2,099                 45,932       48,031         72,306
                    4. Other                                                              190,435                      0      190,435        269,696

                 D. Environmental Disposal for Weapons Systems Programs
                    1. Nuclear Powered Aircraft Carriers                                        0                      0             0              0
                    2. Nuclear Powered Submarines                                               0                      0             0              0
                    3. Other Nuclear Powered Ships                                              0                      0             0              0
                    4. Other National Defense Weapons Systems                                   0                      0             0              0
                    5. Chemical Weapons Disposal Program                                1,387,803              9,422,512    10,810,315     12,817,304
                    6. Other                                                                    0                      0             0              0

               2. Total Environmental Liabilities:                                                          $34,503,765    $37,395,412    $35,078,280

              3. Other Information Related to Environmental Liabilities:

              Relevant Information For Comprehension

              Environmental Cost Liabilities
              The Defense Environmental Restoration Program (DERP) was established by Section 211 of the Superfund Amendments and Reauthorization Act of 1986 codified in
              Title 10 of the United States Code (USC) 2701. Related sections in Title 10 of the USC, 2701-2706 and 2810-2811 further define the program. The DERP is
              implemented in accordance with the Department of Defense (DoD) Directive 4715.1, Environmental Security, February 24, 1996; and DoD Instruction 4715.7,
              Environmental Restoration Program, April 22, 1996, and the Management Guidance for the Defense Environmental Restoration Program, September 28, 2001.
              Environmental liabilities for the Department of the Army DERP and the Base Realignment and Closure (BRAC) are prepared in accordance with the Management
              Guidance for the Defense Environmental Restoration Program and the DoD Financial Management Regulation (FMR) 7000.14.

              The assigned estimated total cleanup cost for the current operating period is the amount of the current year appropriation. The assigned total cleanup liability cost
              includes the current year budget and the total prior year unliquidated obligations.

              There is no unrecognized portion of the estimated total cleanup cost associated with general property, plant and equipment and there are no material changes in the
              total estimated liability due to changes in laws, technology, or plans. The major change in technology affecting the liability estimate was standardizing use of the
              estimating tools consistently across the Army programs.

              The estimates used for environmental liability calculations are estimates of the cost to complete all activities at a site of environmental concern. The cost estimates are
              calculated at the site level using a validated cost-estimating model or an engineered cost and entered into a database. There were no changes to the total liability cost
              due to inflation, deflation, or applicable laws and regulations.

                 130 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd    12/12/2003     5:44 PM     Page 131




              Environmental Disposal Cost Liabilities
              Army Accrued Environmental Costs (Non-DERP) - The Resource Conservation and Recovery Act (RCRA), as well as host nation requirements, require the Army to
              take corrective actions to clean up areas where there has been a release related to hazardous material/waste handling and/or storage activities. A release includes any
              activity that resulted in contamination due to disposal practices, leaks, spills, and other activities that create a risk to public health or the environment. Failure to
              comply with legal mandates and agreements can put the Army at risk of fines and penalties.

              Range Characteristics
              For FY 2002 and FY 2003, the Army estimated that its environmental liability at closed, transferred, and transferring ranges was $12,237,268 thousand and
              $17,303,130 thousand, respectively. The Army is inventorying closed ranges at 443 installations, transferred ranges at 1,701 properties, and transferring ranges at 63
              installations.

              Closed Ranges
              The Army identified $3,182,708 thousand to characterize, investigate and cleanup closed ranges. Until characterization is complete, total environmental liabilities
              cannot be estimated. Closed ranges have been taken out of service as a range and put to new use (incompatible with range activities), or are not considered by the
              Military Departments to be a potential range area. A closed range is still under the control of a DoD Component.

              Transferring Ranges
              Site level investigations reveal that the total environmental liability for these types of ranges is $496,075 thousand. Transferring ranges are proposed for transfer or
              will be returned from DoD to another entity, including other federal entities.

              Transferred Ranges
              A total of 1,701 properties have completed range inventories and the estimated liability for those ranges is $13,624,347 thousand. These are properties formerly used
              as a military range that are no longer under military control and have been leased by DoD, transferred, or returned from the DoD to another entity, including
              federal entities.

              Active Ranges
              At this time, the Army is conducting only one active range investigation and characterization, that being for Massachusetts Military Reservation. The cost of
              characterization and investigation is $264,368 thousand. This amount pays for sampling and analysis, groundwater monitoring, feasibility studies, soil and groundwater
              cleanup, and unexploded ordnance (UXO) investigation and response. Active ranges include military ranges that are currently in service and are being regularly used,
              that are still considered by the cognizant Military Service to be a potential range area, and that have not been put to a new use that is incompatible with range activities.

              Methodology Used to Estimate Environmental Liabilities
              The Army uses annual cost-to-complete estimates as the basis for the environmental liability calculation. A cost-to-complete estimate is prepared for each site in the
              DERP in accordance with the Management Guidance for the DERP and the DoD FMR 7000.14.




                                                                                                                                    General Fund Principal Notes and Statements 131
03GFStatements12-12.qxd    12/12/2003       5:44 PM      Page 132




              Accrued Environmental Restoration (DERP Funded) Costs:
                  For Active Installations the cost-to-complete estimate is collected in the Army Environmental Database - Restoration (AEDB-R). The current liability number is
                  based on the FY 2004 allocation and unliquidated obligations (ULOs). The ULO data are pulled from reports provided by Defense Finance and Accounting
                  Service (DFAS). Non-current liabilities include the cost-to-complete estimates from FY 2005 through program completion in accordance with the Management
                  Guidance for the DERP and the DoD FMR 7000.14. Quarterly updates to the current liability numbers are based on changes to the unliquidated obligations
                  reported in DFAS monthly reports.

                  At Formerly Used Defense Sites (FUDS) properties, the cost-to-complete estimate is collected in the FUDS Management Information System (FUDMIS). The
                  current liability number is also based on FY 2004 allocation and the ULOs. The ULO data are obtained from the Corps of Engineers Financial Management
                  System (CEFMS) for existing FUDS ULOs as of August 30, 2003. Non-current liabilities include the cost-to-complete estimates from FY 2005 through program
                  completion in accordance with the Management Guidance for the DERP and the DoD FMR 7000.14. Quarterly updates to the current liability numbers are based
                  on changes to the unliquidated obligations recorded in CEFMS.

                  Active Installations - Environmental Restoration (ER) for Closed Ranges
                  The liability for ER for closed ranges is a developing requirement based on the results of an Army-wide inventory of all ranges. The inventory for closed ranges is
                  52 percent complete. The $3,182,708 thousand ER liability estimate for closed ranges is the probable cost and is based on site level data. Estimates for closed
                  ranges that have not been inventoried are disclosed as a possible contingent liability in Note 16 - Commitments and Contingencies.

                  FUDS - Environmental Restoration for Transferred Ranges
                  The liability for ER for transferred ranges is also based on results of an inventory of transferred ranges at 1,701 properties. The inventory of transferred ranges is
                  100 percent complete with site level cost data collected from 1,701 properties.

              Other Accrued Environmental Costs (Non-DERP Funds):

                  Active Installations - Environmental Corrective Action
                  This reflects the total of active projects in the FY 2002 Environmental Program Requirements (EPR) database which are reported under 1) RCRA Subtitle C with
                  Environmental Category (ECAT) Corrective Actions (CORA), 2) RCRA Subtitle D with ECAT CORA, 3) RCRA Subtitle I with ECAT Underground Storage
                  Tanks and the Superfund/Cleanup with all ECATs (including those for Preliminary Assessments/Site Investigations, Remedial Action (CONUS Cleanup), and
                  Removal Actions (Overseas Cleanup). The current liability total reflects costs recorded in the EPR for FY 2003, while the noncurrent liability total reflects total
                  estimated costs for FY 2004 through FY 2015. The change from amounts reported in September 2002 is due to receipt of an updated EPR report, which reflected
                  funds obligated since the last report, improved cost estimates and site changes (both new sites identified and old ones determined not to require the original
                  estimated cleanup level).

                  Active Installations - Environmental Closure Requirements
                  Reflects the total of validated December 2002 (FY 2003) active projects in the EPR database which are reported under 1) the Law/Reg RCRA-C with ECAT
                  Closure Plan (CPLN) and 2) RCRA-D with ECAT CPLN. The Current Liability total reflects costs recorded in the EPR for FY 2003, while the noncurrent
                  liability total reflects total estimated costs for FY 2004 through
                132 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd    12/12/2003     5:44 PM    Page 133




                  FY 2015. The change from amounts reported in September 2002 is due to receipt of an updated EPR report, which reflected funds obligated since the last report,
                  improved cost estimates and site changes (both new sites identified and old ones determined not to require the original estimated costs).

                  Active installations - Environmental Response at Active Ranges
                  The estimated total Non-DERP liability for Environmental Response at Active Ranges reflects costs for the Massachusetts Military Reservation, broken out into
                  current and noncurrent liabilities. This amount includes soil and groundwater cleanup and UXO detection and removal. The change from amounts reported in
                  September 2002 is due to receipt of an updated EPR report, which reflected funds obligated since the last report and improved cost estimates.

              Base Realignment and Closure (BRAC):
                  For BRAC installations, the cost-to-complete estimate is collected in the AEDB-R. Because BRAC installations are funded separately using the base closure
                  account, restoration and program management are reported as environmental restoration liabilities; munitions response is reported as Environmental Restoration
                  for Transferring Ranges; and compliance is reported as Environmental Corrective Action. For current liabilities, the number is based on the FY 2004 allocation
                  and reported unliquidated balances as of August 2003. Because prior year BRAC ULOs are not identified by individual program, BRAC ULOs for non-federal
                  liabilities are provided as BRAC-Other. Non-current liabilities include the cost-to-complete estimates from FY 2005 through program completion (collected in
                  AEDB-R) in accordance with the Management Guidance for the DERP and the DoD FMR 7000.14. Quarterly updates to the current liability numbers are based
                  on changes to the ULO obligations reported in DFAS monthly reports.

                  BRAC - Environmental Restoration for Transferring Ranges: The liability for ER for transferring ranges is based on results of an inventory of transferring
                  ranges at 63 properties. The inventory of transferring ranges is 100 percent complete with site level cost data available for 63 properties.

              Environmental Disposal for Weapons Systems Programs:
              The Chemical Demilitarization Program is based on the fiscal year 1986 National Defense Authorization Act (PL 99-145, as amended by subsequent acts) that directed
              the DoD to destroy the unitary chemical stockpile by April 29, 2004. The Army, as Executive Agent within the DoD, provides policy, direction, and oversight for both
              the Chemical Stockpile Program and the Non-Stockpile Chemical Materiel Project. As such, the Army is responsible for the safe and economical disposal of the U.S.
              stockpile of lethal and incapacitating chemical warfare agents and munitions. The program objective is to destroy the U.S. Stockpile of unitary chemical agents and
              munitions in accordance with the public law and the schedules approved by the Defense Acquisition Decision Memorandum dated September 26, 2001, and updated in
              the April 2003 Acquisition Program Baseline.

              Year-to-Year Changes in the Liability Estimate
              The estimated total Active Installations - Environmental Restoration (ER) liability is $4,168,533 thousand and $3,696,102 thousand for FY 2002 and FY 2003,
              respectively. The current estimate is a 11 percent decrease from the liability reported as of September 30, 2002. The major factors contributing to the change are
              disbursements of current liability unliquidated obligations and the award of several performance based contracts. The estimated total Active Installations - ER liability
              for Closed Ranges is $649,436 thousand and $3,182,708 thousand for FY 2002 and FY 2003, respectively. The current estimate is an increase of 390 percent from the
              liability reported as of September 30, 2002. The substantial increase is due to an additional 39 percent of site level data collected through the Army range inventory,
              now at 52 percent completion.



                                                                                                                                 General Fund Principal Notes and Statements 133
03GFStatements12-12.qxd    12/12/2003       5:44 PM      Page 134




              The estimated total FUDS - Environmental Restoration (ER) liability is $4,304,856 thousand and $4,239,384 thousand for FY 2002 and FY 2003 respectively. The
              current estimate is a 2 percent decrease from the liability reported as of September 30, 2002, due to disbursements of current unliquidated obligations. The estimated
              total FUDS - ER for Transferred Ranges is $11,220,315 thousand and $13,624,347 thousand for FY 2002 and FY 2003 respectively. The current estimate is a 21
              percent increase from the liability reported as of September 30, 2002. Besides the addition of over 50 new projects, the estimated cost for clearance of total range
              acreage increased almost 40 percent due to better data quality from newly prepared range characterization reports and changes in the DoD's database definitions for
              land use restrictions. Faced with 14 million or more acres of ranges that may require response action, no cleanup goals or standards, technology shortfalls, changing
              interpretations of what constitutes a range, it is expected that cost-to-complete will vacillate during the next several years.

              The estimated total Active Installations - Environmental Corrective Action liability is $281,241 thousand and $287,857 thousand for FY 2002 and FY 2003
              respectively. The current estimate is a 2 percent increase from the liability reported as of September 30, 2002. The estimated total Active Installations -
              Environmental Closure liability is $44,565 thousand and $37,074 thousand for FY 2002 and FY 2003 respectively. The current estimate is a 17 percent decrease from
              the liability reported as of September 30, 2002. The estimated total Active Installations - Environmental Response at Active Range liability is $292,200 thousand and
              $264,368 thousand for FY 2002 and FY 2003 respectively. The current estimate is a 10 percent decrease from the liability reported as of September 30, 2002. The
              major factors contributing to the changes are improved cost estimates and revised estimated cleanup levels.

              The estimated total BRAC Installations - Environmental Restoration (ER) liability is $575,151 thousand and $518,716 thousand for FY 2002 and FY 2003
              respectively. The current estimate is a 10 percent decrease from the liability reported as of September 30, 2002 due to re-characterization of sites. The estimated total
              BRAC Installations - ER for Transferring Ranges liability is $367,517 thousand and $496,075 thousand for FY 2002 and FY 2003 respectively. The current estimate is
              a 35 percent increase from the liability reported as of September 30, 2002 due to the addition of new sites with the completion of the range inventory. The estimated
              total BRAC Installations - Environmental Corrective Action liability is $72,306 thousand and $48,031 thousand for FY 2002 and FY 2003 respectively. The current
              estimate is a 34 percent decrease from the liability reported as of September 30, 2002. The major factor contributing to the decrease is current estimates that support
              regulatory closure. The estimated total Other - Unliquidated Obligations liability is $269,696 thousand and $190,435 thousand for FY 2002 and FY 2003 respectively.
              The current estimate is a 29 percent decrease from the liability reported as of September 30, 2002 due to disbursements of current unliquidated obligations.

              The Chemical Weapons Disposal Program total of $10,810,315 thousand for year-end FY 2003 is based on the probable costs for the Program Manager for Elimination
              of Chemical Weapons (PMECW), the Chemical Stockpile Emergency Preparedness Project, and the Project Manager for the Assembled Chemical Weapons
              Alternatives (PMACWA). The liability estimate decreased 16 percent from the year-end FY 2002 total of $12,817,304 thousand due primarily to the use of a new
              Acquisition Program Baseline to formulate the PMECW estimate. As designs mature for the disposal technologies to be used by the PMACWA at Army facilities,
              future liabilities reported may change materially.

              The Low Level Radioactive Waste (LLRW) Disposal Program facilitates the process of identifying, investigating, and remediating sites contaminated by low-level
              radioactive waste through RCRA corrective actions or Comprehensive Environmental Response, Compensation, and Liability Act response actions. The program
              classified its liabilities as possible and remote for year-end FY 2003 financial reporting. This information is disclosed in Note 16 - Commitments and Contingencies.




                134 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd       12/12/2003      5:44 PM      Page 135




              Other Information

              Others Category Disclosure Comparative Table (amounts in thousands):
                   Types                                                    FY 2003                       FY 2002
                   Non-DERP - Other
                         LLRW Disposal Program                                   $0                       $15,160
                   Total                                                         $0                       $15,160
                   BRAC - Other
                         Prior Year BRAC ULOs That
                         Cannot Be Identified To
                         A Specific Program                                $190,435                   $269,417
                           LLRW Disposal Program                                 0                         279
                   Total                                                  $190,435                    $269,696


              Note 15.A. Other Liabilities
               As of September 30                                                                                   2003                                   2002
               (Amounts in thousands)                                                 Current Liability       Noncurrent Liability        Total            Total
               1. Intra-governmental:
                  A. Advances from Others                                                        $56,968                             $0     $56,968           $65,329
                  B. Deferred Credits                                                                  0                              0           0                  0
                  C. Deposit Funds and Suspense Account Liabilities                               67,914                              0      67,914            (1,161)
                  D. Resources Payable to Treasury                                                     0                              0           0                  0
                  E. Disbursing Officer Cash                                                     952,130                              0     952,130           300,378
                  F. Nonenvironmental Disposal Liabilities:
                     (1) National Defense PP&E (Nonnuclear)                                           0                           0                0                0
                     (2) Excess/Obsolete Structures                                                   0                           0                0                0
                     (3) Conventional Munitions Disposal                                              0                           0                0                0
                     (4) Other                                                                        0                           0                0                0
                  G. Accounts Payable-- Cancelled Appropriations                                      0                           0                0                0
                  H . Judgement Fund Liabilities                                                      0                     144,222          144,222           75,246
                  I. FECA Reimbursement to the Department of Labor                              119,974                     156,445          276,419          269,624
                  J. Capital Lease Liability                                                          0                           0                0                0
                  K. Other Liabilities                                                          172,665                           0          172,665          166,987
                  L. Total Intra-governmental Other Liabilities                              $1,369,651                    $300,667       $1,670,318         $876,403




                                                                                                                                                   General Fund Principal Notes and Statements 135
03GFStatements12-12.qxd       12/12/2003        5:44 PM       Page 136




               As of September 30                                                                       2003                                2002
               (Amounts in thousands)                                         Current Liability   Noncurrent Liability         Total        Total
               2. Non-Federal:
                  A. Accrued Funded Payroll and Benefits                             $2,310,623                          $0    $2,310,623   $2,111,116
                  B. Advances from Others                                               589,621                           0       589,621      476,385
                  C. Deferred Credits                                                         0                           0             0            0
                  D. Loan Guarantee Liability                                                 0                           0             0            0
                  E. Liability for Subsidy Related to Undisbursed Loans                       0                           0             0            0
                  F. Deposit Funds and Suspense Accounts                                      0                           0             0           28
                  G. Temporary Early Retirement Authority                                   306                           0           306        9,952
                  H. Nonenvironmental Disposal Liabilities:
                     (1) National Defense PP&E (Nonnuclear)                                   0                       0                 0            0
                     (2) Excess/Obsolete Structures                                           0                       0                 0            0
                     (3) Conventional Munitions Disposal                                      0               1,192,935         1,192,935    1,424,298
                     (4) Other                                                                0                       0                 0          627
                  I. Accounts Payable--Cancelled Appropriations                               0                  81,543            81,543       68,528
                  J. Accrued Unfunded Annual Leave                                    2,634,641                       0         2,634,641    2,712,350
                  K. Accrued Entitlement Benefits for Military Retirees and
                     Survivors                                                                0                       0                 0            0
                  L. Capital Lease Liability                                             11,742                  59,397            71,139       81,939
                  M. Other Liabilities                                                1,171,422               1,335,090         2,506,512    2,123,521
                  N. Total Non-Federal Other Liabilities                             $6,718,355              $2,668,965        $9,387,320   $9,008,744

               3. Total Other Liabilities:                                           $8,088,006              $2,969,632       $11,057,638   $9,885,147

              4. Other Information Pertaining to Other Liabilities:

              Intragovernmental Liabilities
                  Total Intragovernmental Other Liabilities increased $793,914 thousand or 91 percent, from FY 2002. The majority of the increase is attributable to Disbursing
                  Officer Cash and Judgment Fund Liabilities.

                   Advances from Others decreased $8,361 thousand or 13 percent, from FY 2002. The majority of the decrease is attributable to the Drug Enforcement Training
                   Program that purchases equipment and instruction for state and local law enforcement officials. A large dollar amount was obligated on these contracts in FY 2003
                   and the majority was executed.

                   The balance reported for Deposit Funds and Suspense Account liabilities increased by $69,075 thousand or 5,950 percent from FY 2002. The majority is
                   attributable to increases in the Savings Deposit Program and the Servicemen's Group Life Insurance Funds suspense accounts.

                   Disbursing Officer Cash increased $651,752 thousand or 217 percent, primarily in support of contingency missions Operation Iraqi Freedom and Operation
                   Enduring Freedom.

                   Judgment Fund Liabilities increased $68,976 thousand or 92 percent, based on a litigation settlement.

                 136 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd    12/12/2003     5:44 PM    Page 137




              Non-Federal Liabilities
                 Accrued Funded Payroll and Benefits increased $199,507 thousand or 9 percent. This increase is primarily due to the increase in the liability for military payroll.

                  Advances from Others increased $113,236 thousand or 24 percent, primarily due to military construction for the district of Korea. The advances were received by
                  the Corps of Engineer Pacific Ocean Division, and are for various construction projects.

                  Temporary Early Retirement Authority (TERA) decreased $9,646 thousand or 97 percent. This program is being phased out and will decrease each year.

                  Nonenvironmental Disposal Liabilities, Conventional Munitions Disposal decreased $231,363 thousand or 16 percent, from the year-end 2002 liability of
                  $1,424,298 thousand. This decrease is due to a stockpile reduction of $69,455 thousand and a $161,908 thousand decrease as a result of a new weighted average
                  cost per ton, taken from updated execution costs.

                  Accounts Payable Cancelled Appropriation increased $13,015 thousand or 19 percent, primarily due to closed unliquidated obligations exceeding closed payable
                  disbursement during the year.

                  Accrued Unfunded Annual Leave decreased $77,709 thousand or 3 percent. The liability for civilian leave decreased $260,996 thousand as the liability for
                  military leave increased $183,287 thousand.

                  Capital Lease Liability decreased $10,800 thousand or 13 percent, as a result of annual amortizations and adjustments made to lease payment schedules to
                  reconcile to actual lease documents. See Note 15B for additional disclosures.

              Other (Non-Federal) Liabilities:
                 Other Liabilities increased $382,991 thousand or 19 percent, primarily due to reporting of $283,046 thousand of total Contingent Liabilities, $278,139 thousand
                 custodial liability for Seized Iraqi Cash, $57,781 thousand of Employer Contributions, and $10,294 thousand for Other Liabilities. The total Contingent Liabilities
                 increase is due to capturing and reporting information for the first time from the U.S. Army Legal Services Agency's Environmental Law Division and Contract
                 Appeals Division. Contract Holdbacks decreased $246,269 thousand from a change implemented at DFAS-Columbus to compute Contract Holdbacks for
                 MOCAS.




                                                                                                                                General Fund Principal Notes and Statements 137
03GFStatements12-12.qxd      12/12/2003       5:44 PM       Page 138




              Note 15.B. Capital Lease Liability
                                                                                                   2003                                   2002
               As of September 30                                                              Asset Category
               (Amounts in thousands)                                   Land and Buildings    Equipment         Other         Total       Total
               1. Future Payments Due:
                    A. 2004                                                         $20,785              $0             $0    $20,785        $20,785
                    B. 2005                                                          20,785               0              0     20,785         20,785
                    C. 2006                                                          20,785               0              0     20,785         20,785
                    D. 2007                                                          18,009               0              0     18,009         20,785
                    E. 2008                                                           8,529               0              0      8,529         18,009
                    F. After 5 Years                                                 19,243               0              0     19,243         27,743
                    G. Total Future Lease Payments Due                             $108,136              $0             $0   $108,136       $128,892
                    H. Less: Imputed Interest Executory Costs                        36,997               0              0     36,997         46,953
                    I. Net Capital Lease Liability                                  $71,139              $0             $0    $71,139        $81,939


               2. Capital Lease Liabilities Covered by Budgetary
               Resources:                                                                                                     $26,590        $10,800

               3. Capital Lease Liabilities Not Covered by Budgetary
               Resources:                                                                                                     $44,549        $71,139

              4. Other Information:
              The Army is the lessee in eight capital leases for military family housing.

                   Capital Lease Liabilities Covered by Budgetary Resources
                   The two leases that originated after FY 1992 are required to be fully funded in the year of their inception. Therefore, the present value of those lease payments of
                   $26,590 thousand is shown as Covered by Budgetary Resources. An analysis of the capital leases in FY 2003, revealed the distinction in these leases between
                   covered and uncovered liabilities. In FY 2002, the covered amount of $10,800 thousand was reported as the total current amount of the liability. The correct
                   amount of covered liabilities in FY 2002 was $26,836 thousand.

                   Capital Lease Liabilities Not Covered by Budgetary Resources
                   The remaining six leases, that originated before FY 1992, are funded on a fiscal year basis causing the noncurrent amounts of $44,549 thousand to be shown as
                   Not Covered by Budgetary Resources. The correct amount in FY 2002 was $55,103 thousand.

              Note 16. Commitments and Contingencies
              Disclosures Related to Commitments and Contingencies:

              Relevant Information for Comprehension


                 138 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd       12/12/2003           5:44 PM    Page 139




              Nature of Contingency
              The Army General Fund has other contingent liabilities in which the possibility of loss is considered reasonable. These liabilities are not accrued in the Army's
              financial statements.

              As of September 30, 2003, the Army General Fund has approximately $10,259,324 thousand in claims considered reasonably possible. These contingent liabilities and
              estimates are presented in the following table:

              Estimate of the Possible Liability

              Title of Contingent Liabilities                                Estimate (in thousands)
                    Non-Stockpile Chemical Materiel Demilitarization                     $8,970,000
                    Environmental Restoration -Formerly Used
                          Defense Sites & Active Installations                             856,831
                    U.S. Army Litigation Division                                          222,344
                    Army Environmental Law Division                                        107,000
                    Army Contract Appeals Division                                          46,000
                    Low-Level Radioactive Waste Disposal                                    36,048
                    Administrative Tort Claims (Judgment Fund)                              10,000
                    European Environmental Claims (Army Fund)                               10,000
                    Network Enterprise Technology Command                                      908
                   Personnel Claims                                                            193
                   Total                                                               $10,259,324

              Note Reference
              See Note Disclosure 1. S. - Significant Accounting Policies for additional discussion on financial reporting requirements and Department of Defense policies governing
              Contingencies and Other Liabilities.




                                                                                                                                 General Fund Principal Notes and Statements 139
03GFStatements12-12.qxd       12/12/2003        5:44 PM      Page 140




              Note 17. Military Retirement Benefits and Other Employment Related Actuarial Liabilities
                                                                                                                            2003                                                        2002
                                                                            Actuarial Present Value of    Assumed Interest Rate (Less: Assets Available to   Unfunded Actuarial   Unfunded Actuarial
                                                                             Projected Plan Benefits             (%)                  Pay Benefits)               Liability            Liability
               (Amounts in thousands)
               1. Pension and Health Benefits:
                    A. Military Retirement Pensions                                                  $0                                                $0                   $0                         $0
                    B. Military Retirement Health Benefits                                            0                                                 0                    0                          0
                    C. Medicare-Eligible Retiree Benefits                                             0                                                 0                    0                          0
                    D. Total Pension and Health Benefits                                             $0                                                $0                   $0                         $0

               2. Other:
                    A. FECA                                                                 $1,761,318                   3.84%                         $0           $1,761,318             $1,624,557
                    B. Voluntary Separation Incentive Programs                                       0                                                  0                    0                      0
                    C. DoD Education Benefits Fund                                                   0                                                  0                    0                      0
                    D.                                                                               0                                                  0                    0                      0
                    E. Total Other                                                          $1,761,318                                                 $0           $1,761,318             $1,624,557

               3. Total Military Retirement Benefits and Other Employment
               Related Actuarial Liabilities:                                               $1,761,318                                                 $0           $1,761,318             $1,624,557

              4. Other Information Pertaining to Military Retirement Benefits and Other Employment-Related Actuarial Liabilities:
              Actuarial Cost Method Used: See below
              Assumptions:See below
              Market Value of Investments in Market-based and Marketable Securities: Not applicable

              Military Retirement Pensions:
              The portion of the military retirement benefits actuarial liability applicable to the Department of the Army is reported on the financial statements of the Military
              Retirement Fund.

              Military Retirement Health Benefits:
              Health benefits are funded centrally at the DoD level. As such, the portion of health benefits actuarial liability that is applicable to the Army is reported on the DoD
              Agency-wide financial statements.

              Medicare-Eligible Retiree Benefits:
              (Not reported by Military Retirement Systems)

              Federal Employees' Compensation Act (FECA):
              Actuarial Cost Method Used: The Army's actuarial liability for Workers' Compensation benefits is developed by the Department of Labor and provided to the Army

                 140 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd      12/12/2003       5:44 PM    Page 141




              each fiscal year end. The liability includes the expected liability for death, disability, medical, and miscellaneous costs for approved compensation cases. The liability
              is determined using a method that utilizes historical benefit payment patterns to predict the ultimate payments.

              Assumptions: The projected annual benefit payments are then discounted to the present value using the Office of Management and Budget's economic assumptions
              for 10-year US Treasury notes and bonds. Cost of living adjustments and medical inflation factors are also applied to the calculation of projected future benefits.

              Note 18. Unexpended Appropriations
               As of September 30                                                                2003                             2002
               (Amounts in thousands)
               1. Unexpended Appropriations:
                    A. Unobligated, Available                                                            $6,386,617                        $4,551,201
                    B. Unobligated, Unavailable                                                           1,240,179                         1,069,634
                    C. Unexpended Obligations                                                            40,047,918                        25,847,886
                    D. Total Unexpended Appropriations                                                  $47,674,714                       $31,468,721

              2. Other Information Pertaining to Unexpended Appropriations:

              Definitions:
              Unexpended appropriations - Budget authority remaining for disbursement against current or future obligations.

              Unobligated balances - Fund balances classified as available or unavailable but not obligated. Unobligated balances associated with appropriations expiring at fiscal
              year end remain available only for obligation adjustments until the account is closed.

              Unexpended obligations - Goods and services that have been ordered but not yet received/performed.

              Fluctuations and/or Abnormalities:
              The significant increase of $16,205,993 thousand or 51 percent, in the unexpended appropriation represents the overall increase in the FY 2003 Army budget. Detailed
              explanations for the increases are disclosed in Note 21A for the Statement of Budgetary Resources.

              Relevant Information for Comprehension:
              Unexpended Obligations reported as a component of Unexpended Appropriations include both Undelivered Orders-Unpaid and Undelivered Orders-Paid only by
              Direct Appropriated funds. This amount is distinct from Change in Amount of Goods, Services, and Benefits Ordered but Not Yet Provided on the Statement of
              Financing, which includes the change during the fiscal year in Unexpended Obligations against budget authority from the Army.

              Note Reference
              See Note 21, Statement of Budgetary Resources for additional line item information.


                                                                                                                                  General Fund Principal Notes and Statements 141
03GFStatements12-12.qxd    12/12/2003       5:44 PM      Page 142




              Note 19.A General Disclosures Related to the Statement of Net Cost
              Disclosures Related to the Statement of Net Cost

              The Consolidated Statement of Net Cost in the federal government is unique because its principles are driven on understanding the net cost of programs and/or
              organizations that the federal government supports through appropriations or other means. This statement provides gross and net cost information that can be related to
              the amount of output or outcome for a given program and/or organization administered by a responsible reporting entity. The amounts presented in the Statement of
              Net Cost (SoNC) are based on funding, obligation, accrual and disbursing transactions, which are not always recorded using accrual accounting. Army systems do not
              always record the transactions on an accrual basis as is required by the generally accepted accounting principles. The information presented also includes data from
              non-financial feeder systems to capture all cost and financing sources for the Army.

              Program Costs:
              The Total Net Costs increased by $27,416,029 thousand or 34 percent, in FY 2003. The net increase in Intragovernmental Net Costs of $10,070,838 thousand or 75
              percent, and the increase in Net Costs With the Public of $17,345,190 thousand or 26 percent is due to increased FY 2003 funding. Further explanation on the
              increased funding is disclosed on Note 21A.

              Earned Revenues:
              Intragovernmental Earned Revenue increased $987,815 thousand. The increase reflects the addition of two new funded reimbursable programs. One program
              reimburses the Department of the Army for salaries paid to doctors assigned to those medical facilities treating retirees. Intragovernmental revenue from this program
              increased $252,267 thousand. The other program reimburses the Army for providing security to the Department of the Air Force, by placing soldiers as guards at Air
              Force facilities. Intragovernmental revenue from this program increased $566,136 thousand.

              Earned Revenue from the Public increased $134,431 thousand. The FY 2002 amount was understated by $208,837 thousand, so the balance actually declined $69,406
              thousand. Amounts reported in FY 2002 included public contra revenue which should have been classified as federal. Federal revenues for special receipt accounts
              require a contra account be recorded so the receipt account does not report a fund balance.

              Note 19.B. Gross Cost and Earned Revenue by Budget Functional Classification
              Not Applicable

              Note 19.C. Gross Cost to Generate Intra-governmental Revenue and Earned Revenue (Transactions with Other Federal-Non-DoD-
              Entities) by Budget Functional Classification
              Not Applicable




                142 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd       12/12/2003        5:44 PM   Page 143




              Note 19.D. Imputed Expenses
               As of September 30                                                              2003                             2002
               (Amounts in thousands)
               1. Civilian (e.g.,CSRS/FERS) Retirement                                                 $339,888                           $261,042
               2. Civilian Health                                                                       403,346                            330,812
               3. Civilian Life Insurance                                                                 1,480                              1,425
               4. Military Retirement Pension                                                                 0                                  0
               5. Military Retirement Health                                                                  0                                  0
               6. Judgment Fund                                                                          73,768                             94,980
               7. Total Imputed Expenses                                                               $818,482                           $688,259

              8. Other Information
              Total Imputed Expenses increased $130,223 thousand or 19 percent, from FY 2002. The majority included an increase in Civilian Retirement System/Federal
              Employees Retirement System (CSRS/FERS) of $78,846 thousand or 30 percent, and Civilian Health of $72,534 thousand or 22 percent. The Judgment Fund
              decreased $21,212 thousand or 22 percent. The increase in CSRS/FERS is due to the initial reporting of FERS imputed financing. The increase in Civilian Health is
              attributable to the use of a higher cost factor by the Office of Personnel Management. The decrease in Judgment Fund is attributable to reduced Judgment Fund claims
              reported by the Department of Treasury.

              Note Reference
              See Note 20.

              Note 19.E. Benefit Program Expenses
              Not applicable

              Note 19. F. Exchange Revenue
              Disclosures Related to the Exchange Revenue:

              Exchange Revenue - arises when a government entity provides goods and services to the public or to another Government entity for a price, “earned revenue.”
              Exchange revenue includes most user charges other than taxes, i.e., regulatory user charges. The Army recognizes earned revenue for full recovery of costs incurred, to
              provide goods and services to other entities.

              Note 19.G. Amounts for Foreign Military Sales (FMS) Program Procurements from Contractors
              Disclosures Related to Amounts for FMS Program Procurements from Contractors:

              Not Applicable


                                                                                                                               General Fund Principal Notes and Statements 143
03GFStatements12-12.qxd      12/12/2003        5:44 PM      Page 144




              Note 19.H. Stewardship Assets
              Disclosures Related to Stewardship Assets:

              Stewardship assets include Heritage Assets, Stewardship Land, Non-Federal Physical Property, Investments in Research and Development, and Military Equipment
              Deferred Maintenance. The current year cost of acquiring, constructing, improving, reconstructing, or renovating stewardship assets are included in the Statement of
              Net Cost. Yearly investment amounts related to stewardship assets are provided in the Required Supplemental Stewardship Information section of this financial
              statement.

              Note 19.I. Intra-governmental Revenue and Expense
              Disclosures Related to Intra-governmental Revenue and Expense:

              Intragovernmental Revenue. The Army's accounting systems do not capture trading partner data at the transaction level in a manner that facilitates trading partner
              aggregations. Therefore, the Army was unable to reconcile intragovernmental revenue balances with its trading partners. The Army intends to develop long-term
              systems improvements that will include sufficient up-front edits and controls to eliminate the need for after-the-fact reconciliations. The volume of intragovernmental
              transactions is so large that after-the-fact reconciliation can not be accomplished with the existing or foreseeable future resources.

              The Army's operating expenses were adjusted based on a comparison between the Army accounts payable and the DoD summary level seller accounts receivables. An
              adjustment was posted to accounts payable and operating expenses to reflect unrecognized accounts payable and operating expenses. The operating expenses of the
              Army were adjusted downwards in the amount of $150,324 thousand.

              Note 19.J. Suborganization Program Costs
              Not applicable

              Note 20. Disclosures Related to the Statement of Changes in Net Position
                                                                                           Cumulative Results of      Unexpended          Cumulative Results of        Unexpended
               As of September 30                                                            Operations 2003       Appropriations 2003      Operations 2002         Appropriations 2002
               (Amounts in thousands)
               1. Prior Period Adjustments Increases (Decreases) to Net Position
                  Beginning Balance:
                  A. Changes in Accounting Standards                                                 $97,897,585                     $0                       $0                          $0
                  B. Errors and Omissions in Prior Year Accounting Reports                                     0                      0               (7,114,213)                          0
                  C. Other Prior Period Adjustments                                                            0                      0                        0                           0
                  D. Total Prior Period Adjustments                                                  $97,897,585                     $0              ($7,114,213)                         $0




                 144 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd     12/12/2003       5:44 PM   Page 145




                                                                                         Cumulative Results of      Unexpended         Cumulative Results of      Unexpended
               As of September 30                                                          Operations 2003       Appropriations 2003     Operations 2002       Appropriations 2002
               (Amounts in thousands)
               2. Imputed Financing:
                  A. Civilian CSRS/FERS Retirement                                                    $339,888                    $0                $261,042                     $0
                  B. Civilian Health                                                                   403,346                     0                 330,812                      0
                  C. Civilian Life Insurance                                                             1,480                     0                   1,425                      0
                  D. Military Retirement Pension                                                             0                     0                       0                      0
                  E. Military Retirement Health                                                              0                     0                       0                      0
                  F. Judgment Fund                                                                      73,768                     0                  94,980                      0
                  G. Total Imputed Financing                                                          $818,482                    $0                $688,259                     $0

              3. Other Information:

              Prior Period Adjustments

              Changes in Accounting Standards
              Effective October 1, 2002, the Statement of Federal Financial Accounting Standards (SFFASs) No. 23, Eliminating the Category National Defense Property, Plant and
              Equipment (NDPP&E) revised the accounting principles for reporting Military Equipment (previously referred to as NDPP&E). The standard renames NDPP&E to
              Military Equipment, classifies Military Equipment as General Property, Plant, and Equipment (PP&E), and requires the capitalization and depreciation of the cost of
              Military Equipment, including the cost of modifications and upgrades.

              Army recorded a prior period adjustment for FY 2003 of $97,897,585 thousand. The total increase is attributable to Army Procurement Changes in Accounting
              Standards as follows:

                   Implementation of the SFFAS No 23 required an adjustment of General PP&E to recognize the investment, accumulated depreciation, and net book value of
                   Military Equipment previously expensed. The prior period adjustment for $91,150,000 thousand was based on data provided by the Bureau of Economic
                   Analysis, Department of Commerce.

                   In FY 2002, the DoD, Inspector General directed that a prior period adjustment be made to remove the $6,747,585 thousand from Operating Materials and
                   Supplies (OM&S) on the FY 2002 balance sheet. The adjustment removed all retail and wholesale guided missiles previously included as OM&S and classify as
                   Military Equipment.

              Errors and Omissions in Prior Year Accounting Reports
              There were no Errors and Omissions in Prior Year Accounting Reports reported in FY 2003. The FY 2002 balance of $7,114,213 thousand was to remove all retail and
              wholesale guided missiles previously included in OM&S on the FY 2001 balance sheet.

              Imputed Financing
              Imputed Financing from Costs Absorbed by Others (Line 5.C.) increased by $130,223 thousand or 19 percent. The majority of the change is attributed to increases in

                                                                                                                                 General Fund Principal Notes and Statements 145
03GFStatements12-12.qxd    12/12/2003       5:44 PM      Page 146




              Civil Service Retirement System/Federal Employees Retirement System (CSRS/FERS) of $78,846 thousand or 30 percent, Civilian Health of $72,534 thousand or 22
              percent, and a decrease in Judgment Fund of $21,211 thousand or 22 percent. The increase in CSRS/FERS is due to the initial reporting of FERS imputed financing.
              The increase in Civilian Health is attributable to the use of a higher cost factor by the Office of Personnel Management. The decrease in Judgment Fund is attributable
              to reduced Judgment Fund claims reported by the Department of Treasury.

              Other Disclosures:

              Cumulative Results of Operations
              Appropriations Used (Line 4.D.) increased by $24,350,991 thousand or 30 percent, due to the $36,628,254 thousand increase in appropriations received.

              Non-Exchange Revenue (Line 4.E.) and Other (Line 5.D.) decreased by $205,452 thousand or 99 percent, and increased from $0 to $115,102 thousand, respectively,
              due to a change in reporting of revenue for Deposit and Receipt accounts. In FY 2002, the revenue was reported on Line 4.E.

              Donations and forfeitures of cash and cash equivalents (Line 4.F.) increased from $0 to $15,003 thousand. In FY 2002, donated revenue was erroneously omitted from
              this line. The increase is due to improved business processes in which donated revenue is properly captured.

              Transfers-in/out without Reimbursement (Line 4.G.) increased from $0 to $479,218 thousand for a transfer-in of Unexpended Appropriations from the Natural
              Resources Risk Remediation Fund (NRRRF). These funds originated with a nonexpenditure transfer from Defense Cooperation Account to NRRRF.

              Other Budgetary Financing Sources (Line 4.H.) decreased by $4,380,164 thousand or 589 percent. This is attributed to the use of Other Losses as the offset to
              internally balance reports and adjustments.

              Transfers in/out without reimbursement (Line 5.B.) of ($321,356) thousand is comprised of ($918,816) thousand in inventory transferred to Army Working Capital
              Fund; $467,534 thousand in construction in progress transferred from the Missile Defense Agency; $10,228 thousand in property, plant, and equipment transferred
              from Army Working Capital Fund; and $11,224 thousand and $108,474 thousand in equipment transferred from Special Operations Command and Air Force,
              respectively.

              Other (Line 5.D.) increased from $0 to $115,102 thousand. The total increase was due to mapping changes in FY 2003 to various receipt accounts. These were input
              to update the Statement of Financing's Other line.

              Unexpended Appropriations
              Increases in Appropriations received (Line 4.A), Appropriations transferred-in/out (Line 4.B.), Other adjustments (Line 4.C.), and Appropriations used (Line 4.D.)
              relate directly to the increase in the overall Army appropriations. Refer to Note 21.A. for an explanation on the additional funding.




                146 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd      12/12/2003       5:44 PM      Page 147




              Note 21.A. Disclosures Related to the Statement of Budgetary Resources
               As of September 30                                                                                       2003               2002
               (Amounts in thousands)
               1. Net Amount of Budgetary Resources Obligated for Undelivered Orders at the End of the Period         $44,008,029          $31,241,578
               2. Available Borrowing and Contract Authority at the End of the Period                                           0                    0

              3. Other Information:

              Fluctuations and/or Abnormalities:

              Statement of Budgetary Resources
              Overall 2003 funding increased $36,628,254 thousand or 45 percent; the major fluctuations are discussed below:

              Military Pay appropriations increased $13,405,184 thousand primarily in support of Operations Enduring Freedom, Iraqi Freedom and Noble Eagle. The Army
              mobilized 169,954 Reserve and Army National Guard soldiers. The increase supports the incremental costs of Reserve forces on active duty in a war zone versus
              peacetime training. Additionally, the military pay appropriations received a 4.1 percent pay increase for all soldiers and a pay raise of up to 2.6 percent for selected
              military pay grades. The total Military Pay funding supports 480,000 Active Component, 350,000 Army National Guard, and 205,000 Army Reserve and provides
              better pay and incentives.

              Operation and Maintenance, Army appropriations increased $19,550,772 thousand. The additional funding was directed for Operations Enduring Freedom, Iraqi
              Freedom, Noble Eagle, and Army Transformation, which ensures warfighting readiness and force protection. The increase funded approximately 1/3 of antiterrorism
              base operations and force protection needs. Additionally, the budget increased to fund training and recruiting, administrative and service wide activities, and land
              forces readiness. Security programs increased significantly because of the need for more security equipment.

              Procurement appropriations increased $2,725,535 thousand. Funding was provided to procure Black Hawk helicopters and make modifications to several other
              helicopter systems (Apache, Longbow, etc.). The increase included $117,200 thousand provided for the Patriot Missile modifications and other missiles (e.g. Multiple
              Launch Rocket System). Ammunition budget increases were in small arms, tank, artillery, mines/countermine, and other ammunition. Other critical combat service
              support programs were increased significantly.

              Research, Development, Test, and Evaluation appropriation increased by $525,682 thousand. The funding included research for developing future combat systems.
              This supports an accelerated Science and Technology program to upgrade weapon system technology and other system upgrades. The additional funding was provided
              to support development of the family of Interim Armored Vehicles, upgrade of UH-60 Black Hawk helicopter, and the Global Combat Support System - Army.
              Furthermore, the funding supported continued development of the Comanche, Crusader, and Brilliant Anti-Armor Submunition.

              The Net Amount of Budgetary Resources Obligated for Undelivered Orders at the End of the Period and specific line variances on the Statement of Budgetary
              Resources between FY 2002 and FY 2003 are mainly due to the 45 percent increase in funding. Line 9b, Exempt from Apportionment, increased by $25,665 thousand
              due to a change in processes where trust funds and receipt accounts are reallocated from Allotments - Realized Resources to Unobligated Funds not Subject to
              Apportionment.
                                                                                                                                    General Fund Principal Notes and Statements 147
03GFStatements12-12.qxd    12/12/2003       5:44 PM      Page 148




              Accounting Standard U.S. Standard General Ledger
              The Army has not fully implemented the U.S. Government Standard General Ledger in all operational accounting systems. Guidance from the Treasury Financial
              Manual, Part 2, Chapter 4000, Federal Agencies' Centralized Trial Balance System II (FACTS II) is used in population of the Army's Statement of Budgetary
              Resources.

              The Army's accounting systems do not provide or capture data needed for obligations incurred and recoveries of prior year obligations in accordance with Office of
              Management and Budget (OMB) Circular A-11, “ Preparation, Submission, and Execution of the Budget” requirements. Although the Army developed an alternative
              methodology to calculate these items, the amount of distortion cannot be reliably determined, and may or may not be material.

              Beginning Balance Adjustments
              The Army's beginning balances for Undelivered Orders -Unpaid and Accounts Payable were adjusted between reimbursable and direct because accounting transactions,
              such as contract accruals and undistributed disbursements, do not include direct or reimbursable codes. FACTS II applies the direct and reimbursable distribution
              based on an allocation rate, therefore, beginning balance adjustments were performed to keep the Statement of Budgetary Resources and the Report of Execution (SF
              133) in agreement. In addition, beginning balances brought forward in the financial statement reporting system were adjusted to match FACTS II beginning balances.
              Elimination and data call entries booked in FY 2002 but not posted in FACTS II caused the discrepancy. In FY 2004, an alternative method will be implemented to
              handle the direct and reimbursable allocation, the prior year elimination entries, and data call entries.

              Ending Balance Adjustments
              The ending balances for Undelivered Orders - Unpaid and Accounts Payable reported in the Statement of Budgetary Resources varied from the FACTS II submission
              because of the elimination process and the data call information reported for Voluntary Early Retirement Act/Voluntary Separation Incentive Pay (VERA/VSIP),
              Worker's Compensation, and Capital Leases. Adjustments made to Undelivered Orders - Unpaid and Accounts Payable totaled $227,813 thousand. This represents
              $6,739 thousand for Worker's Compensation, $84,152 thousand for VERA/VSIP, and $136,922 thousand for Capital Leases. In addition, the ending balances for
              Undelivered Orders - Paid and Expended Authority reported in the Statement of Budgetary Resources were changed by $150,323 thousand for the elimination process
              and $3,163,668 thousand for Outstanding Contract Financing Payment not recorded in FACTS II. The elimination process directs seller-side rule forcing the Army to
              modify their accounting records to agree with the seller's records. The adjustments do not affect bottom-line totals.

              Other Information Related to the Statement of Budgetary Resources:

              Intra-entity Transactions
              The Statement of Budgetary Resources does not include eliminating entries and therefore a Disaggregated Statement of Budgetary Resources is included in the
              Required Supplementary Information section of the financial statements.

              Apportionment Categories
              OMB Bulletin No. 01-09 section 9.27 specifically requires disclosure of the amount of direct and reimbursable obligations incurred against amounts apportioned under
              Category A, Category B and Exempt from Apportionment. Obligation incurred consists of $124,340,443 thousand in Category A, Direct; $3,671,940 thousand in
              Category B, Direct; and $18,430,419 thousand in Category A, Reimbursable. This disclosure should agree with the aggregate of the related information as reported on
              the agency's Budgetary Execution Report (SF 133) and Lines 8A and 8B on the Statement of Budgetary Resources. Due to differences in handling delivered orders,
                148 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd    12/12/2003      5:44 PM    Page 149




              both direct and reimbursable, between FY 2002 and FY 2003, Lines 8A and 8B on the Statement of Budgetary Resources disagrees with the SF 133 by $2,648
              thousand. The issue is being researched and will be corrected for FY 2004.

              Lines 9A and 9B on the Statement of Budgetary Resources disagree with the SF 133 for $25,665 thousand due to FACTS II incorrectly reporting the status of funds for
              Basic Symbols 8063 (Trust Fund for Walter Reed Army Medical Center), 8927 (Trust Fund for Army General Fund Gift Funds), 5095 (Wildlife Conservation), 5098
              (Restoration of Rocky Mountain Arsenal), 5286 (National Science Center), and 1096 (Iraqi Relief and Restoration Fund) in Allotments - Realized Resources rather
              than Unobligated Funds not Subject to Apportionment.

              Lines 12, 14, and 15 on the Statement of Budgetary Resources disagrees with the SF 133 for $27 thousand, $22 thousand, and $5 thousand respectively due to FACTS
              II correctly excluding the Corp of Engineers allocation.

              Separate Column for Non-budgetary Credit Program Financing Accounts
              A Non-budgetary Credit Program Finance Account column allows for a clear distinction between budgetary and non-budgetary credit program financing. Non-
              budgetary credit financing accounts are reported separately from the budgetary totals in the Budget of the United States Government. Separate reporting on the
              Statement of Budgetary Resources enhances reconciliation of the two sets of information.

              Offsetting Receipts Line
              Receipts are collections that are credited to the general, special, or trust fund receipt accounts. In addition, they represent offsetting receipts distributed to the Army.
              Offsetting receipts offset budget authority and outlays at the agency level in the Budget of the United States Government. Offsetting receipts must be included in the
              Statement of Budgetary Resources to reconcile it to information in the Budget of the United States Government.

              Spending Authority from Offsetting Collections
              Adjustments in funds that are temporarily not available pursuant to Public Law, and those that are permanently not available are not included in the Spending Authority
              From Offsetting Collections on the Statement of Budgetary Resources or the Spending Authority for Offsetting Collections and Recoveries on the Statement of
              Financing.

              Undelivered Orders
              Undelivered Orders presented in the Statement of Budgetary Resources includes Undelivered Orders-Unpaid for both direct and reimbursable funds.

              Deobligations
              Systemic processes record deobligations in expired accounts separately from the obligation. Army funds management policy requires quarterly joint reviews of
              obligations by program managers and accounting sites. Goals and metrics reported by each Command tracks efforts to liquidate or deobligate expired obligations by
              fiscal year. This goal allows Army to maintain minimal closed payables when an appropriation closes. Analysis of single-year expired accounts identified net
              obligations for expired accounts of $1 billion versus the amount reported on the Statement of Budgetary Resources Line 4, Recoveries of Prior Year Obligations, of $6
              billion for the same appropriations. The remaining $2 billion of the $8 billion on Line 4 is attributed to multi-year appropriation deobligations.



                                                                                                                                     General Fund Principal Notes and Statements 149
03GFStatements12-12.qxd      12/12/2003       5:44 PM     Page 150




              Note 21.B. Disclosures Related to Problem Disbursements, In-transit Disbursements and Suspense/Budget Clearing Accounts
                                                                                                                              (Decrease)/Increase
               As of September 30                                                     Sep-01       Sep-02        Sep-03        from 2002 to 2003
               (Amounts in thousands)
               1. Total Problem Disbursements
                  A. Absolute Unmatched Disbursements                                  $228,878     $160,726      $259,857                    $99,131
                  B. Negative Unliquidated Obligations                                   34,245       20,985        26,251                      5,266
               2. Total In-transit Disbursements, Net                                  $910,960     $710,194    $1,086,574                   $376,380

              3. Other Information Related to Problem Disbursements and In-transit Disbursement

              Definitions:
              Absolute value is the sum of the positive values of debit and credit transactions without regard to the sign.

              Unmatched Disbursements (UMDs) occur when payments do not match to a corresponding obligation in the accounting system.

              Negative Unliquidated Obligations (NULOs) occur when payments have a valid obligation but the payment is greater than the amount of the obligation recorded in
              the official accounting system. These payments use available funds for valid receiving reports on delivered goods and services under valid contracts.

              In-Transits represents the net value of disbursements and collections made by a DoD disbursing activity on behalf of an accountable activity but not yet attempted to
              be posted in an accounting system.

              Aged UMDs and NULOs:
              The Army absolute value UMDs, NULOs, and $892 thousand in aged in-transit disbursements (of the total in-transit disbursements of $1,086,574 thousand) represent
              disbursements of Army funds reported by a disbursing station to the Department of the Treasury but have not been matched against the source obligation for the
              disbursement. These payments have been made using available funds based on receiving reports for goods and services delivered under valid contracts. The problem
              disbursements and in-transit disbursements arise when the Army's various contracting, disbursing, and accounting systems fail to match the data necessary to properly
              account for the disbursement transactions in all applicable accounting systems. Negative in-transits indicate collections rather than disbursements. UMDs and NULOs
              are considered aged immediately, while in-transits are considered normal business activity up to a certain aging category when they become perceived as problem
              disbursements.

              The Problem Disbursement Reduction Goal is stated in absolute value UMDs, NULOs, and aged net in-transits. Therefore, the UMDs are shown in absolute value for
              comparison to the official Reduction Goal. In prior years, net UMDs and NULOs were reported together on the Line 1 of Note 21B, Problem Disbursements. To
              facilitate comparability with prior years and comprehension of the net dollar amounts, the net UMDs and NULOs are shown in the table on the next page (in
              thousands).




                 150 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd     12/12/2003          5:44 PM    Page 151




              Problem Disbursement Type                   Sept 2001        Sept 2002            Sept 2003
                    Net UMDs                               $111,738         $133,251             $134,438
                    NULOs                                    34,245           20,985               26,251
              Total Net Problem Disbursements             $145,983         $154,236             $160,689

              4. Suspense/Budget Clearing Accounts,Net
              Account              Sept 2001        Sept 2002         Sept 2003        (Decrease)/Increase
                   F3875                   $0              $0                $0                         $0
                   F3880                1,994               0                 0                          0
                   F3882                    0           (739)             (908)                      (169)
                   F3885                    0               0                 0                          0
                   F3886                5,162           5,690               200                    (5,490)
                   Total               $7,156          $4,951            ($708)                   ($5,659)

              5. Other Information Related to Suspense/Budget Clearing Accounts:
              Fluctuations and/or Abnormalities:
              The Army has made a concerted effort to reduce balances in the suspense and budget/clearing accounts related to disbursements. Additionally, the Army established
              policies and procedures to ensure accurate and consistent use of these accounts. Suspense reconciliations have been reported as a material weakness since 1997. The
              Army is currently implementing Public Law 107-314 which includes provisions for the write-off of unsupported balances and improvements in tracking and reporting
              Army suspense balances.

              On September 30 of each fiscal year, most of the uncleared suspense/budget clearing account balances are reduced to zero (as required by the Department of the
              Treasury) by transferring the balances to proper appropriation accounts. In the following month, the uncleared suspense/clearing account balances are reestablished.
              The Army transferred the following accounts to their Operation and Maintenance account (21 2020) for FY 2003 (in thousands):

                   Accounts                                                  FY 2003             FY 2002
                   21 F3875 Budget Clearing Accounts                         $82,292             $56,091
                   21 F3880 Check Cancellations                                2,913               4,376
                   21 F3885 Intergovernmental Payment
                        and Collection                                       370,885              16,494

              In addition, Budget Clearing Accounts such as the Uniformed Service Thrift Savings Plan (F3882) and Federal Employees Retirement System (F3886) remain open at
              fiscal year end.

              Negative amounts shown above do not indicate abnormal balances, but a preponderance of disbursements over collections.


                                                                                                                                General Fund Principal Notes and Statements 151
03GFStatements12-12.qxd    12/12/2003       5:44 PM      Page 152




              Note 22. Disclosures Related to the Statement of Financing
              Disclosures Related to the Statement of Financing:

              The Statement of Financing was expanded to further articulate and detail the relationship between net obligations from budgetary accounting and net cost of operation
              from proprietary accounting. Some items reported last year as a single line were subdivided to reflect its components. Several new line items were added to separately
              identify and further explain the use of resources to finance net obligations or net cost of operations. This change notes key differences between the net obligations and
              net cost of operations.

              Budgetary data is not in agreement with proprietary expenses and assets capitalized. A $89,671 thousand adjustment was made to Gross Cost with the Public on the
              Statement of Net Cost to bring it into agreement with the Statement of Financing. Differences between budgetary and proprietary data for the Army are a previously
              identified deficiency.

              Intra-entity transactions have not been eliminated; therefore, the statements are presented as combined and combining.

              Fluctuations and/or Abnormalities:
              Obligations incurred (Line 1), Spending authority from offsetting collections and recoveries (Line 2), Undelivered orders (Line 12.A.) and Unfilled customer orders
              (Line 12.B.) relate directly to the $36,628,254 thousand increase in Army appropriations. This increase in direct appropriations generates an increase in reimbursable
              activity and in all other stages of budget execution as the new funds are obligated and executed. Refer to Note 21A for a complete description of the additional
              funding.

              Offsetting receipts (Line 4) is comprised of $61,035 thousand in General Fund Proprietary Receipts, $11,392 thousand in Recoveries Under the Foreign Military Sales
              Program, $10,643 thousand in Recoveries of Government Property, $8,165 thousand in Sales of Hunting and Fishing Permits, $2,671 thousand in Forest and Wildlife
              Conservation, $1,658 thousand in Rocky Mountain Arsenal Restoration, and $7 thousand in Fees Collected for Use of National Science Center.

              Transfers in/out without reimbursement (Line 7) is comprised of ($918,816) thousand in inventory transferred to Army Working Capital Fund; $467,534 thousand in
              construction in progress transferred from the Missile Defense Agency; $10,228 thousand in property, plant, and equipment transferred from Army Working Capital
              Fund; and $11,224 thousand and $108,474 thousand in equipment transferred from Special Operations Command and Air Force, respectively.

              Other (Line 9) and Budgetary offsetting collections and receipts that do not affect net cost of operations (Line 14) increased from $0 to $115,102 thousand and $15,085
              thousand, respectively, due to incorrect reporting in FY 2002 that was corrected in FY 2003.

              Imputed financing from costs absorbed by others has increased by $130,223 or 19 percent. Refer to Note 20 for further explanation.

              Resources that fund expenses recognized in prior periods (Line 13), Increase in annual leave liability (Line 19), Increase in environmental and disposal liability (Line
              20), and Other (Line 23) represent the change in unfunded liabilities reported as covered and not covered by budgetary resources in Note 11. Explanation on the
              increase in environmental and disposal liability is provided in Note 14. Balances reported on Lines 13 and 23 have been moved to Lines 19 and 20.

                152 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd     12/12/2003       5:44 PM     Page 153




              Resources that finance the acquisition of assets (Line 15) increased by $25,062,604 thousand and Depreciation and amortization (Line 25) increased by $20,767,141
              thousand due to the inclusion of Military Equipment in general plant, property, and equipment. Further explanation is provided in Note 10.

              Revaluation of assets or liabilities (Line 26) represents excess, obsolete, and unserviceable inventory removed from the financial statements in accordance with
              guidance issued on August 12, 2002. The $1,793,293 thousand value in FY 2002 represents excess, obsolete, and unserviceable inventory from multiple years. The
              $10,681 thousand from FY 2003 represents the current year's excess, obsolete, and unserviceable inventory.

              Other (Line 27) decreased by $429,510 thousand due to the FY 2002 business practice of adjusting Line 27 to bring budgetary data into agreement with proprietary
              expenses and assets capitalized. FY 2003 business practices adjust the Gross Cost with the Public to account for this deficiency.

              Note 23. Disclosures Related to the Statement of Custodial Activity
              Disclosures Related to the Statement of Custodial Activity:

              During Operation Iraqi Freedom, the U.S. Government seized assets from the Iraqi Government that will be used in support of the Iraqi people. As of September 30,
              2003, the Statement of Custodial Activity depicts $278,139 thousand of monetary seized assets that remain to be disbursed in support of the Iraqi people.

              Source of Collections
                   Seized Iraqi Cash                                                  $808,866

              Disposition of Collections
                   Iraqi Salaries                                                      $30,190
                   Repair/Reconstruction/Humanitarian Assistance                      $170,635
                   Iraqi Ministry Operations (Ministry of Finance,
                         Defense, etc.)                                               $254,590
                   Fuel/Supplies                                                       $75,312
                   Total Disbursed on behalf of the Iraqi People                      $530,727
                   Retained for Future Support of the Iraqi People                    $278,139
                   Total Disposition of Collections                                   $808,866

              Net Custodial Collection Activity                                             $0

              Fluctuations and/or Abnormalities:
              Iraqi Seized Assets were first reported in FY 2003 attributing to the Statement of Custodial Activity's variances between FY 2002 and FY 2003.




                                                                                                                              General Fund Principal Notes and Statements 153
03GFStatements12-12.qxd     12/12/2003       5:44 PM      Page 154




              Note 24.A. Other Disclosures
               1. ENTITY AS LESSEE-Operating Leases
               As of September 30
               (Amounts in thousands)
                    B. Future Payments Due:                                                       2003                                  2002
                    Fiscal Year                                         Land and Buildings   Equipment        Other        Total        Total
                       2004                                                         $7,917               $0           $0     $7,917          $8,917
                       2005                                                          6,790                0            0      6,790           7,610
                       2006                                                          6,303                0            0      6,303           6,613
                       2007                                                          6,298                0            0      6,298           6,303
                       2008                                                          4,950                0            0      4,950           6,298
                    After 5 Years                                                   21,462                0            0     21,462          24,910
                    Total Future Lease Payments Due                               $53,720                $0           $0    $53,720         $60,651

              Fluctuations and Abnormalities:
              Operating lease commitments decreased by $6,931 thousand or 11 percent, due to the expiration of leases.

              Definitions
                  Lessee - a person or entity who receives the use and possession of leased property (e.g. real estate or equipment) from a lessor in exchange for a payment of funds.

                   Operating Lease - a lease which does not transfer substantially all the benefits and risk of ownership. Payments should be charged to expense over the lease term
                   as it becomes payable.

              Land and Buildings Leases consist of :
              Description of Leases:
              Land and Building lease periods vary and the leases are not expected to be renewed at the end of the lease term. There are no material escalation clauses or contingent
              rental restrictions. Costs were gathered from existing leases, General Service Administration (GSA) bills, and Inter-service Support Agreements and the largest
              component is office space. Future year projections used the Consumer Price Index (CPI), rather than the DoD inflation factor. The CPI impacts increases to the leases,
              especially those at commercial lease sites.

              Equipment Leases consist of :
              Description of Leases: Not applicable

              Other Leases consist of :
              Description of Leases: Not applicable

              Note 24.B. Other Disclosures
              Not applicable

                 154 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd        12/12/2003           5:44 PM        Page 155




                                                                                                                                           Consolidating Balance Sheet
                                                                                                                                            Department of Defense • Department of the Army
                                                                                                                                        As of September 30, 2003 and 2002 ($ in thousands)

              ASSETS (Note 2)                                                      Active Army   Army Reserve   Army National Guard    Component Level
                  Intragovernmental:
                       Fund Balance with Treasury (Note 3)
                            Entity                                                $49,719,962     $1,740,978           $3,234,957                   $0
                            Non-Entity Seized Iraqi Cash                             $278,139             $0                   $0                    0
                            Non-Entity-Other                                          $61,443             $0                   $0                    0
                       Investments (Note 4)                                            $1,231             $0                   $0                    0
                       Accounts Receivable (Note 5)                                $1,242,024        $15,663              $79,138             (813,478)
                       Other Assets (Note 6)                                           $5,998             $0             ($13,984)              91,460
                       Total Intragovernmental Assets                             $51,308,797     $1,756,641           $3,300,111            ($722,018)
                  Cash and Other Monetary Assets (Note 7)                            $954,368             $0                   $0                   $0
                  Accounts Receivable (Note 5)                                        467,769         19,575               27,235                    0
                  Loans Receivable (Note 8)                                                 0              0                    0                    0
                  Inventory and Related Property (Note 9)                          32,676,658              0                    0                    0
                  General Property, Plant and Equipment (Note 10)                 113,264,161      1,314,329              759,416                    0
                  Investments (Note 4)                                                      0              0                    0                    0
                  Other Assets (Note 6)                                             3,425,638         25,583              117,800                    0
              TOTAL ASSETS                                                       $202,097,391     $3,116,128           $4,204,562            ($722,018)

              LIABILITIES (Note 11)
                   Intragovernmental:
                         Accounts Payable (Note 12)                                $6,005,677       $519,986             $567,608          ($6,008,306)
                         Debt (Note 13)                                                    76              0                    0                  (76)
                         Environmental Liabilities (Note 14)                                0              0                    0                    0
                         Other Liabilities (Note 15 & Note 16)                      1,710,256          9,964               65,443             (115,345)
                         Total Intragovernmental Liabilities                       $7,716,009       $529,950             $633,051          ($6,123,727)
                   Accounts Payable (Note 12)                                      $3,502,744       $282,141             $112,932           $5,191,280
                   Military Retirement Benefits and Other Employment-Related        1,413,745         57,262              290,311                    0
                        Actuarial Liabilities (Note 17)
                   Environmental Liabilities (Note 14)                             37,395,412              0                    0                    0
                   Loan Guarantee Liability (Note 8)                                    1,273              0                    0                    0
                   Other Liabilities (Note 15 & Note 16)                            8,681,806        270,119              375,290               60,105
                   Debt Held by Public (Note 13)                                            0              0                    0                    0
              TOTAL LIABILITIES                                                   $58,710,989     $1,139,472           $1,411,584            ($872,342)
              NET POSITION
                   Unexpended Appropriations (Note 18)                            $44,005,556       $840,033           $2,678,801             $150,324
                   Cumulative Results of Operations                                99,380,846      1,136,623              114,177                    0
              TOTAL NET POSITION                                                 $143,386,402     $1,976,656           $2,792,978             $150,324
              TOTAL LIABILITIES AND NET POSITION                                 $202,097,391     $3,116,128           $4,204,562            ($722,018)



              The accompanying notes are an integral part of these statements.
                                                                                                                          General Fund Principal Notes and Statements 155
03GFStatements12-12.qxd        12/12/2003         5:44 PM        Page 156




              Consolidating Balance Sheet
              Department of Defense • Department of the Army, General Fund
              As of September 30, 2003 and 2002 ($ in thousands)

              ASSETS (Note 2)                                                  Combined Total   Eliminations   2003 Consolidated      2002 Consolidated
                  Intragovernmental:
                       Fund Balance with Treasury (Note 3)
                            Entity                                               $54,695,897            $0         $54,695,897              $39,515,905
                            Non-Entity Seized Iraqi Cash                             278,139             0             278,139                        0
                            Non-Entity-Other                                          61,443             0              61,443                   (5,382)
                       Investments (Note 4)                                            1,231             0               1,231                    5,240
                       Accounts Receivable (Note 5)                                  523,347             0             523,347                  452,597
                       Other Assets (Note 6)                                          83,474             0              83,474                  209,114
                       Total Intragovernmental Assets                            $55,643,531            $0         $55,643,531              $40,177,474
                  Cash and Other Monetary Assets (Note 7)                           $954,368            $0            $954,368                 $301,747
                  Accounts Receivable (Note 5)                                       514,579             0             514,579                  568,088
                  Loans Receivable (Note 8)                                                0             0                   0                        0
                  Inventory and Related Property (Note 9)                         32,676,658             0          32,676,658               27,259,422
                  General Property, Plant and Equipment (Note 10)                115,337,906             0         115,337,906               18,700,626
                  Investments (Note 4)                                                     0             0                   0                        0
                  Other Assets (Note 6)                                            3,569,021             0           3,569,021                3,582,796
              TOTAL ASSETS                                                      $208,696,063            $0        $208,696,063              $90,590,153

              LIABILITIES (Note 11)
                   Intragovernmental:
                         Accounts Payable (Note 12)                               $1,084,965            $0          $1,084,965                  $774,545
                         Debt (Note 13)                                                    0             0                   0                       157
                         Environmental Liabilities (Note 14)                               0             0                   0                         0
                         Other Liabilities (Note 15 & Note 16)                     1,670,318             0           1,670,318                   876,404
                         Total Intragovernmental Liabilities                      $2,755,283            $0          $2,755,283                $1,651,106
                   Accounts Payable (Note 12)                                     $9,089,097            $0          $9,089,097                $5,967,178
                   Military Retirement Benefits and Other Employment-Related       1,761,318             0           1,761,318                 1,624,557
                        Actuarial Liabilities (Note 17)
                   Environmental Liabilities (Note 14)                            37,395,412             0          37,395,412               35,078,280
                   Loan Guarantee Liability (Note 8)                                   1,273             0               1,273                      730
                   Other Liabilities (Note 15 & Note 16)                           9,387,320             0           9,387,320                9,008,744
                   Debt Held by Public (Note 13)                                           0             0                   0                        0
              TOTAL LIABILITIES                                                  $60,389,703            $0         $60,389,703              $53,330,595
              NET POSITION
                   Unexpended Appropriations (Note 18)                           $47,674,714            $0         $47,674,714              $31,468,721
                   Cumulative Results of Operations                              100,631,646             0         100,631,646                5,790,837
              TOTAL NET POSITION                                                $148,306,360            $0        $148,306,360              $37,259,558
              TOTAL LIABILITIES AND NET POSITION                                $208,696,063            $0        $208,696,063              $90,590,153



                                                                                                                              The accompanying notes are an integral part of these statements.
                 156 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd        12/12/2003           5:44 PM        Page 157




                                                                                                                                     Consolidating Statement of Net Cost
                                                                                                                                                  Department of Defense • Department of the Army
                                                                                                                                For the Years Ended September 30, 2003 and 2002 ($ in thousands)

              Program Costs                                                       Active Army   Army Reserve   Army National Guard              Conponent Level
              Military Personnel
                   Intragovernmental Gross Costs                                  $6,425,059     $1,075,049           $1,794,614
                   (Less: Intragovernmental Earned Revenue)                         (574,234)       (16,375)             (50,958)
                   Intragovernmental Net Costs                                    $5,850,825     $1,058,674           $1,743,656
                   Gross Costs With the Public                                   $29,987,293     $2,063,164           $3,375,236
                   (Less: Earned Revenue From the Public)                            (25,961)            (7)                 498
                   Net Costs With the Public                                     $29,961,332     $2,063,157           $3,375,734
                   Total Net Cost                                                $35,812,157     $3,121,831           $5,119,390

              Operation and Maintenance
                  Intragovernmental Gross Costs                                   $5,957,096       $121,713             $152,269
                  (Less: Intragovernmental Earned Revenue)                        (7,023,557)       (60,707)            (163,715)
                  Intragovernmental Net Costs                                    ($1,066,461)       $61,006             ($11,446)
                  Gross Costs With the Public                                    $42,512,075     $1,982,988           $3,965,345
                  (Less: Earned Revenue From the Public)                            (587,552)        (3,031)              (9,485)
                  Net Costs With the Public                                      $41,924,523     $1,979,957           $3,955,860
                  Total Net Cost                                                 $40,858,062     $2,040,963           $3,944,414

              Procurement
                  Intragovernmental Gross Costs                                  ($1,424,376)           $0                    $0
                  (Less: Intragovernmental Earned Revenue)                          (661,925)            0                     0
                  Intragovernmental Net Costs                                    ($2,086,301)           $0                    $0
                  Gross Costs With the Public                                     $7,133,239            $0                    $0
                  (Less: Earned Revenue From the Public)                             (57,532)            0                     0
                  Net Costs With the Public                                       $7,075,707            $0                    $0
                  Total Net Cost                                                  $4,989,406            $0                    $0

              Research, Development, Test & Evaluation
                  Intragovernmental Gross Costs                                   $2,076,608            $0                    $0
                  (Less: Intragovernmental Earned Revenue)                        (2,524,616)            0                     0
                  Intragovernmental Net Costs                                      ($448,008)           $0                    $0
                  Gross Costs With the Public                                      7,737,924             0                     0
                  (Less: Earned Revenue From the Public)                             (76,858)            0                     0
                  Net Costs With the Public                                       $7,661,066            $0                    $0
                  Total Net Cost                                                  $7,213,058            $0                    $0




              The accompanying notes are an integral part of these statements.
                                                                                                                           General Fund Principal Notes and Statements 157
03GFStatements12-12.qxd        12/12/2003         5:44 PM        Page 158




              Consolidating Statement of Net Cost
              Department of Defense • Department of the Army, General Fund
              For the Years Ended September 30, 2003 and 2002 ($ in thousands)

              Program Costs                                                      Combined Total   Eliminations   2003 Consolidated        2002 Consolidated
              Military Personnel
                   Intragovernmental Gross Costs                                    $9,294,722            $0          $9,294,722                 $5,944,033
                   (Less: Intragovernmental Earned Revenue)                           (641,567)            0            (641,567)                  (170,535)
                   Intragovernmental Net Costs                                      $8,653,155            $0          $8,653,155                 $5,773,498
                   Gross Costs With the Public                                     $35,425,693            $0         $35,425,693                $26,580,745
                   (Less: Earned Revenue From the Public)                              (25,470)            0             (25,470)                   (19,281)
                   Net Costs With the Public                                       $35,400,223            $0         $35,400,223                $26,561,464
                   Total Net Cost                                                  $44,053,378            $0         $44,053,378                $32,334,962

              Operation and Maintenance
                  Intragovernmental Gross Costs                                     $6,231,078            $0          $6,231,078                $11,839,845
                  (Less: Intragovernmental Earned Revenue)                          (7,247,979)            0          (7,247,979)                (3,002,750)
                  Intragovernmental Net Costs                                      ($1,016,901)           $0         ($1,016,901)                $8,837,095
                  Gross Costs With the Public                                      $48,460,408            $0         $48,460,408                $18,813,804
                  (Less: Earned Revenue From the Public)                              (600,068)            0            (600,068)                  (650,528)
                  Net Costs With the Public                                        $47,860,340            $0         $47,860,340                $18,163,276
                  Total Net Cost                                                   $46,843,439            $0         $46,843,439                $27,000,371

              Procurement
                  Intragovernmental Gross Costs                                    ($1,424,376)           $0          ($1,424,376)                 $759,480
                  (Less: Intragovernmental Earned Revenue)                            (661,925)            0             (661,925)                 (427,552)
                  Intragovernmental Net Costs                                      ($2,086,301)           $0          ($2,086,301)                 $331,928
                  Gross Costs With the Public                                       $7,133,239            $0           $7,133,239               $10,981,576
                  (Less: Earned Revenue From the Public)                               (57,532)            0              (57,532)                  (25,271)
                  Net Costs With the Public                                         $7,075,707            $0           $7,075,707               $10,956,305
                  Total Net Cost                                                    $4,989,406            $0           $4,989,406               $11,288,233

              Research, Development, Test & Evaluation
                  Intragovernmental Gross Costs                                     $2,076,608            $0          $2,076,608                   $218,549
                  (Less: Intragovernmental Earned Revenue)                          (2,524,616)            0          (2,524,616)                  (897,915)
                  Intragovernmental Net Costs                                        ($448,008)           $0           ($448,008)                 ($679,366)
                  Gross Costs With the Public                                       $7,737,924             0           7,737,924                  7,292,395
                  (Less: Earned Revenue From the Public)                               (76,858)            0             (76,858)                  (126,198)
                  Net Costs With the Public                                         $7,661,066            $0          $7,661,066                 $7,166,197
                  Total Net Cost                                                    $7,213,058            $0          $7,213,058                 $6,486,831




                                                                                                                                     The accompanying notes are an integral part of these statements.
                 158 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd        12/12/2003           5:44 PM        Page 159




                                                                                                                                     Consolidating Statement of Net Cost
                                                                                                                                                  Department of Defense • Department of the Army
                                                                                                                                For the Years Ended September 30, 2003 and 2002 ($ in thousands)


              Program Costs                                                       Active Army   Army Reserve   Army National Guard              Conponent Level
              Military Construction/Family Housing
                   Intragovernmental Gross Costs                                  $3,370,740        $99,256              $57,790
                   (Less: Intragovernmental Earned Revenue)                       (2,117,682)             0                    0
                   Intragovernmental Net Costs                                    $1,253,058        $99,256              $57,790
                   Gross Costs With the Public                                      $212,476       ($23,655)            $112,687
                   (Less: Earned Revenue From the Public)                           (181,682)             0                    0
                   Net Costs With the Public                                         $30,794       ($23,655)            $112,687
                   Total Net Cost                                                 $1,283,852        $75,601             $170,477

              Other
                  Intragovernmental Gross Costs                                    ($430,725)           $0                    $0                    $10,825,856
                  (Less: Intragovernmental Earned Revenue)                           127,896             0                     0                      6,546,865
                  Intragovernmental Net Costs                                      ($302,829)           $0                    $0                    $17,372,721
                  Gross Costs With the Public                                     $3,233,128            $0                    $0                   ($17,523,045)
                  (Less: Earned Revenue From the Public)                              22,471             0                     0                              0
                  Net Costs With the Public                                       $3,255,599            $0                    $0                   ($17,523,045)
                  Total Net Cost                                                  $2,952,770            $0                    $0                      ($150,324)

              Total Program Costs
                   Intragovernmental Gross Costs                                 $15,974,402     $1,296,018           $2,004,673                    $10,825,856
                   (Less: Intragovernmental Earned Revenue)                      (12,774,118)       (77,082)            (214,673)                     6,546,865
                   Intragovernmental Net Costs                                    $3,200,284     $1,218,936           $1,790,000                    $17,372,721
                   Gross Costs With the Public                                   $90,816,135     $4,022,497           $7,453,268                   ($17,523,045)
                   (Less: Earned Revenue From the Public)                           (907,114)        (3,038)              (8,987)                             0
                   Net Costs With the Public                                     $89,909,021     $4,019,459           $7,444,281                   ($17,523,045)
                   Total Net Cost                                                $93,109,305     $5,238,395           $9,234,281                      ($150,324)
              Cost Not Assigned to Programs                                               $0             $0                   $0                             $0
              (Less:Earned Revenue Not Attributable to Programs)                           0              0                    0                              0
              Net Cost of Operations                                             $93,109,305     $5,238,395           $9,234,281                      ($150,324)




              The accompanying notes are an integral part of these statements.
                                                                                                                           General Fund Principal Notes and Statements 159
03GFStatements12-12.qxd        12/12/2003         5:44 PM        Page 160




              Consolidating Statement of Net Cost
              Department of Defense • Department of the Army, General Fund
              For the Years Ended September 30, 2003 and 2002 ($ in thousands)

              Program Costs                                                      Combined Total   Eliminations   2003 Consolidated     2002 Consolidated
              Military Construction/Family Housing
                   Intragovernmental Gross Costs                                    $3,527,786            $0          $3,527,786                  $20,806
                   (Less: Intragovernmental Earned Revenue)                         (2,117,682)            0          (2,117,682)              (1,010,031)
                   Intragovernmental Net Costs                                      $1,410,104            $0          $1,410,104                ($989,225)
                   Gross Costs With the Public                                        $301,508            $0            $301,508               $2,993,615
                   (Less: Earned Revenue From the Public)                             (181,682)            0            (181,682)                (175,714)
                   Net Costs With the Public                                          $119,826            $0            $119,826               $2,817,901
                   Total Net Cost                                                   $1,529,930            $0          $1,529,930               $1,828,676

              Other
                  Intragovernmental Gross Costs                                    $10,395,131            $0           ($430,725)                $259,584
                  (Less: Intragovernmental Earned Revenue)                           6,674,761             0             127,896                  (22,411)
                  Intragovernmental Net Costs                                      $17,069,892            $0           ($302,829)                $237,173
                  Gross Costs With the Public                                     ($14,289,917)           $0          $3,233,128                 $631,179
                  (Less: Earned Revenue From the Public)                                22,471             0              22,471                  212,284
                  Net Costs With the Public                                       ($14,267,446)           $0          $3,255,599                 $843,463
                  Total Net Cost                                                    $2,802,446            $0          $2,952,770               $1,080,636

              Total Program Costs
                   Intragovernmental Gross Costs                                   $30,100,949            $0         $30,100,949             $19,042,297
                   (Less: Intragovernmental Earned Revenue)                         (6,519,008)            0          (6,519,008)             (5,531,194)
                   Intragovernmental Net Costs                                     $23,581,941            $0         $23,581,941             $13,511,103
                   Gross Costs With the Public                                     $84,768,855            $0         $84,768,855             $67,293,314
                   (Less: Earned Revenue From the Public)                             (919,139)            0            (919,139)               (784,708)
                   Net Costs With the Public                                       $83,849,716            $0         $83,849,716             $66,508,606
                   Total Net Cost                                                 $107,431,657            $0        $107,431,657             $80,019,709
              Cost Not Assigned to Programs                                                 $0            $0                  $0                      $0
              (Less:Earned Revenue Not Attributable to Programs)                             0             0                   0                       0
              Net Cost of Operations                                              $107,431,657            $0        $107,431,657             $80,019,709




                                                                                                                                     The accompanying notes are an integral part of these statements.
                 160 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd        12/12/2003           5:44 PM        Page 161




                                                                                                                Consolidating Statement of Changes in Net Position
                                                                                                                                                    Department of Defense • Department of the Army
                                                                                                                                  For the Years Ended September 30, 2003 and 2002 ($ in thousands)

              CUMULATIVE RESULTS OF OPERATIONS                                     Active Army   Army Reserve   Army National Guard       Component Level
              Beginning Balances                                                   $4,532,604     $1,254,662                $3,574                    $0
              Prior period adjustments (+/-)                                       97,897,585              0                     0                     0
              Beginning Balances, as adjusted                                    $102,430,189     $1,254,662                $3,574                    $0
              Budgetary Financing Sources:
                   Appropriations received                                                  0              0                     0                       0
                   Appropriations transferred-in/out (+/-)                                  0              0                     0                       0
                   Other adjustments (rescissions, etc) (+/-)                               0              0                     0                       0
                   Appropriations used                                             92,269,670      5,251,432             9,534,153                (150,324)
                   Nonexchange revenue                                                    131              0                     0                       0
                   Donations and forfeitures of cash and cash equivalents              15,003              0                     0                       0
                   Transfers-in/out without reimbursement (+/-)                       479,218              0                     0                       0
                   Other budgetary financing sources (+/-)                         (3,369,963)      (130,467)             (136,202)                      0
              Other Financing Sources:
                   Donations and forfeitures of property                                    0              0                    0                        0
                   Transfers-in/out without reimbursement (+/-)                      (267,680)          (609)             (53,067)                       0
                   Imputed financing from costs absorbed by others                    818,482              0                    0                        0
                   Other (+/-)                                                        115,102              0                    0                        0
              Total Financing Sources                                             $90,059,963     $5,120,356           $9,344,884                ($150,324)
              Net Cost of Operations (+/-)                                         93,109,305      5,238,395            9,234,281                 (150,324)
              Ending Balances                                                     $99,380,847     $1,136,623             $114,177                       $0


              UNEXPENDED APPROPRIATIONS
              Beginning Balances                                                  $28,543,070       $683,764           $2,241,887                         $0
              Prior period adjustments (+/-)                                                0              0                    0                          0
              Beginning Balances, as adjusted                                     $28,543,070       $683,764           $2,241,887                         $0
              Budgetary Financing Sources:
                   Appropriations received                                        102,431,016      5,445,189             9,791,772                       0
                   Appropriations transferred-in/out (+/-)                          5,819,160          3,212               220,375                       0
                   Other adjustments (rescissions, etc) (+/-)                        (518,020)       (40,700)              (41,080)                      0
                   Appropriations used                                            (92,269,670)    (5,251,432)           (9,534,153)                150,324
                   Nonexchange revenue                                                      0              0                     0                       0
                   Donations and forfeitures of cash and cash equivalents                   0              0                     0                       0
                   Transfers-in/out without reimbursement (+/-)                             0              0                     0                       0
                   Other budgetary financing sources (+/-)                                  0              0                     0                       0
              Other Financing Sources:
                   Donations and forfeitures of property                                    0              0                    0                        0
                   Transfers-in/out without reimbursement (+/-)                             0              0                    0                        0
                   Imputed financing from costs absorbed by others                          0              0                    0                        0
                   Other (+/-)                                                              0              0                    0                        0
              Total Financing Sources                                             $15,462,486       $156,269            $436,914                  $150,324
              Net Cost of Operations (+/-)                                                  0              0                    0                        0
              Ending Balances                                                     $44,005,556       $840,033           $2,678,801                 $150,324

              The accompanying notes are an integral part of these statements.
                                                                                                                             General Fund Principal Notes and Statements 161
03GFStatements12-12.qxd        12/12/2003         5:44 PM        Page 162




              Consolidating Statement of Changes in Net Position
              Department of Defense • Department of the Army, General Fund
              For the Years Ended September 30, 2003 and 2002 ($ in thousands)

              CUMULATIVE RESULTS OF OPERATIONS                                   Combined Total   Eliminations   2003 Consolidated          2002 Consolidated
              Beginning Balances                                                    $5,790,840             $0          $5,790,840                 $8,776,600
              Prior period adjustments (+/-)                                        97,897,585              0          97,897,585                 (7,114,213)
              Beginning Balances, as adjusted                                     $103,688,425             $0       $103,688,425                  $1,662,387
              Budgetary Financing Sources:
                   Appropriations received                                                   0             0                   0                             0
                   Appropriations transferred-in/out (+/-)                                   0             0                   0                             0
                   Other adjustments (rescissions, etc) (+/-)                                0             0                   0                             0
                   Appropriations used                                             106,904,931             0         106,904,931                    82,553,941
                   Nonexchange revenue                                                     131             0                 131                       205,583
                   Donations and forfeitures of cash and cash equivalents               15,003             0              15,003                             0
                   Transfers-in/out without reimbursement (+/-)                        479,218             0             479,218                             0
                   Other budgetary financing sources (+/-)                          (3,636,632)            0          (3,636,632)                      743,531
              Other Financing Sources:
                   Donations and forfeitures of property                                     0             0                   0                            0
                   Transfers-in/out without reimbursement (+/-)                       (321,356)            0            (321,356)                     (43,155)
                   Imputed financing from costs absorbed by others                     818,482             0             818,482                      688,259
                   Other (+/-)                                                         115,102             0             115,102                            0
              Total Financing Sources                                             $104,374,879            $0        $104,374,879                  $84,148,159
              Net Cost of Operations (+/-)                                         107,431,657             0         107,431,657                   80,019,709
              Ending Balances                                                     $100,631,647            $0        $100,631,647                   $5,790,837


              UNEXPENDED APPROPRIATIONS
              Beginning Balances                                                   $31,468,721            $0         $31,468,721                  $28,895,571
              Prior period adjustments (+/-)                                                 0             0                   0                            0
              Beginning Balances, as adjusted                                      $31,468,721            $0         $31,468,721                  $28,895,571
              Budgetary Financing Sources:
                   Appropriations received                                         117,667,977             0          117,667,977                   80,338,428
                   Appropriations transferred-in/out (+/-)                           6,042,747             0            6,042,747                    4,903,508
                   Other adjustments (rescissions, etc) (+/-)                         (599,800)            0             (599,800)                    (114,845)
                   Appropriations used                                            (106,904,931)            0         (106,904,931)                 (82,553,941)
                   Nonexchange revenue                                                       0             0                    0                            0
                   Donations and forfeitures of cash and cash equivalents                    0             0                    0                            0
                   Transfers-in/out without reimbursement (+/-)                              0             0                    0                            0
                   Other budgetary financing sources (+/-)                                   0             0                    0                            0
              Other Financing Sources:
                   Donations and forfeitures of property                                     0             0                   0                            0
                   Transfers-in/out without reimbursement (+/-)                              0             0                   0                            0
                   Imputed financing from costs absorbed by others                           0             0                   0                            0
                   Other (+/-)                                                               0             0                   0                            0
              Total Financing Sources                                              $16,205,993            $0         $16,205,993                   $2,573,150
              Net Cost of Operations (+/-)                                                   0             0                   0                            0
              Ending Balances                                                      $47,674,714            $0         $47,674,714                  $31,468,721

                                                                                                                                     The accompanying notes are an integral part of these statements.
                 162 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd        12/12/2003           5:44 PM        Page 163




                                                                                                                                 Combining Statement of Budgetary Resources
                                                                                                                                                           Department of Defense • Department of the Army
                                                                                                                                         For the Years Ended September 30, 2003 and 2002 ($ in thousands)

                                                                                                                         Army    Component
              BUDGETARY FINANCING ACCOUNTS                                         Active Army   Army Reserve   National Guard       Level       2003 Combined            2002 Combined
              BUDGETARY RESOURCES
              Budget Authority:
                   Appropriations received                                       $102,458,569     $5,445,189      $9,791,772           $0          $117,695,530              $81,067,276
                   Borrowing authority                                                      0              0               0            0                     0                        0
                   Contract authority                                                       0              0               0            0                     0                        0
                   Net transfers (+/-)                                              5,113,854          3,212         190,375            0             5,307,441                5,290,599
                   Other                                                                    0              0               0            0                     0                        0
              Unobligated balance:
              Beginning of period                                                   5,058,704        175,218         624,188            0              5,858,110                5,701,789
                   Net transfers, actual (+/-)                                      1,184,524              0          30,000            0              1,214,524                  408,970
                   Anticipated Transfers balances                                           0              0               0            0                      0                        0
              Spending authority from offsetting collections:
                Earned                                                                      0              0               0            0                     0                        0
                   Collected                                                       13,786,438         83,683         225,615            0            14,095,736               12,012,602
                   Receivable from Federal sources                                     21,185         (3,573)         (4,638)           0                12,974                 (146,322)
                Change in unfilled customer orders                                          0              0               0            0                     0                        0
                   Advance received                                                   119,260            (79)            157            0               119,338                   87,119
                   Without advance from Federal sources                             3,705,724         (1,297)        (49,109)           0             3,655,318                1,164,785
                Anticipated for the rest of year, without advances                          0              0               0            0                     0                        0
                Transfers from trust funds                                                  0              0               0            0                     0                        0
                Subtotal                                                          $17,632,607        $78,734       $172,025            $0           $17,883,366              $13,118,184
              Recoveries of prior year obligations                                  6,216,515        379,369       1,405,519            0             8,001,403                8,287,368
              Temporarily not available pursuant to Public Law                              0              0               0            0                     0                        0
              Permanently not available                                              (979,564)       (93,288)       (231,728)           0            (1,304,580)              (1,569,179)
              Total Budgetary Resources                                          $136,685,209     $5,988,434     $11,982,151           $0          $154,655,794             $112,305,007




              The accompanying notes are an integral part of these statements.
                                                                                                                                     General Fund Principal Notes and Statements 163
03GFStatements12-12.qxd        12/12/2003         5:44 PM        Page 164




              Combining Statement of Budgetary Resources
              Department of Defense • Department of the Army, General Fund
              For the Years Ended September 30, 2003 and 2002 ($ in thousands)

                                                                                                                          Army   Component
              STATUS OF BUDGETARY RESOURCES                                        Active Army   Army Reserve   National Guard        Level        2003 Combined             2002 Combined
              Obligations incurred:
                   Direct                                                        $111,065,771     $5,654,735     $11,291,877            $0           $128,012,383               $91,731,863
                   Reimbursable                                                    18,136,476         90,274         203,669             0             18,430,419                14,715,031
                   Subtotal                                                       129,202,247      5,745,009      11,495,546             0            146,442,802               106,446,894
              Unobligated balance:
                   Apportioned                                                      6,614,897        110,195         222,056             0              6,947,148                 4,788,478
                   Exempt from apportionment                                           25,665              0               0             0                 25,665                         0
                   Other available                                                         (1)             1               0             0                      0                         2
              Unobligated Balances Not Available                                      842,401        133,229         264,549             0              1,240,179                 1,069,633
              Total, Status of Budgetary Resources                               $136,685,209     $5,988,434     $11,982,151            $0           $154,655,794              $112,305,007
              RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
              Obligated Balance, Net - beginning of period                        $30,541,017     $1,171,039      $1,950,211            $0            $33,662,267               $31,626,562
              Obligated Balance transferred, net (+/-)                                      0              0               0             0                      0                         0
              Obligated Balance, Net - end of period:
                   Accounts receivable                                             (1,380,310)       (15,879)         (84,517)           0              (1,480,706)               (1,467,731)
                   Unfilled customer order from Federal sources                   (10,802,950)        (9,690)          (3,679)           0             (10,816,319)               (7,161,002)
                   Undelivered orders                                              42,107,379        566,378        2,062,135            0              44,735,892                30,611,343
                   Accounts payable                                                12,312,830        956,745          774,413            0              14,043,988                11,679,657
              Outlays:
                   Disbursements                                                  107,562,893      5,043,996       9,345,632             0            121,952,521                95,105,359
                   Collections                                                    (13,905,698)       (83,603)       (225,772)            0            (14,215,073)              (12,099,721)
                   Subtotal                                                       $93,657,195     $4,960,393      $9,119,860            $0           $107,737,448               $83,005,638
              Less: Offsetting receipts                                               (95,571)             0               0             0                (95,571)                 (184,839)
              Net Outlays                                                         $93,561,624     $4,960,393      $9,119,860            $0           $107,641,877               $82,820,799




                                                                                                                                              The accompanying notes are an integral part of these statements.
                 164 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd        12/12/2003           5:44 PM        Page 165




                                                                                                                               Combining Statement of Budgetary Resources
                                                                                                                                                         Department of Defense • Department of the Army
                                                                                                                                       For the Years Ended September 30, 2003 and 2002 ($ in thousands)

                                                                                                                        Army   Component
              NONBUDGETARY FINANCING ACCOUNTS                                    Active Army   Army Reserve   National Guard       Level       2003 Combined            2002 Combined
              BUDGETARY RESOURCES
              Budget Authority:
                   Appropriations received                                               $0             $0               $0          $0                      $0                       $0
                   Borrowing authority                                                    0              0                0           0                       0                        0
                   Contract authority                                                     0              0                0           0                       0                        0
                   Net transfers (+/-)                                                    0              0                0           0                       0                        0
                   Other                                                                  0              0                0           0                       0                        0
              Unobligated balance:
              Beginning of period                                                      730               0                0           0                     730                      691
                   Net transfers, actual (+/-)                                           0               0                0           0                       0                        0
                   Anticipated Transfers balances                                        0               0                0           0                       0                        0
              Spending authority from offsetting collections:
                Earned                                                                   0               0               0            0                      0                        0
                   Collected                                                           543               0               0            0                    543                       39
                   Receivable from Federal sources                                       0               0               0            0                      0                        0
                Change in unfilled customer orders                                       0               0               0            0                      0                        0
                   Advance received                                                      0               0               0            0                      0                        0
                   Without advance from Federal sources                                  0               0               0            0                      0                        0
                Anticipated for the rest of year, without advances                       0               0               0            0                      0                        0
                Transfers from trust funds                                               0               0               0            0                      0                        0
                Subtotal                                                              $543              $0              $0           $0                   $543                      $39
              Recoveries of prior year obligations                                       0               0               0            0                      0                        0
              Temporarily not available pursuant to Public Law                           0               0               0            0                      0                        0
              Permanently not available                                                  0               0               0            0                      0                        0
              Total Budgetary Resources                                             $1,273              $0              $0           $0                 $1,273                     $730




              The accompanying notes are an integral part of these statements.
                                                                                                                                   General Fund Principal Notes and Statements 165
03GFStatements12-12.qxd        12/12/2003         5:44 PM        Page 166




              Combining Statement of Budgetary Resources
              Department of Defense • Department of the Army, General Fund
              For the Years Ended September 30, 2003 and 2002 ($ in thousands)

                                                                                                                        Army   Component
              NONBUDGETARY FINANCING ACCOUNTS                                    Active Army   Army Reserve   National Guard        Level        2003 Combined             2002 Combined
              STATUS OF BUDGETARY RESOURCES
              Obligations incurred:
                   Direct                                                               $0              $0              $0            $0                        $0                        $0
                   Reimbursable                                                          0               0               0             0                         0                         0
                   Subtotal                                                             $0              $0              $0            $0                        $0                        $0
              Unobligated balance:
                   Apportioned                                                       1,273               0               0             0                    1,273                       730
                   Exempt from apportionment                                             0               0               0             0                        0                         0
                   Other available                                                       0               0               0             0                        0                         0
              Unobligated Balances Not Available                                         0               0               0             0                        0                         0
              Total, Status of Budgetary Resources                                  $1,273              $0              $0            $0                   $1,273                      $730
              RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
              Obligated Balance, Net - beginning of period                              $0              $0              $0            $0                        $0                        $0
              Obligated Balance transferred, net (+/-)                                   0               0               0             0                         0                         0
              Obligated Balance, Net - end of period:
                   Accounts receivable                                                    0              0                0            0                         0                         0
                   Unfilled customer order from Federal sources                           0              0                0            0                         0                         0
                   Undelivered orders                                                     0              0                0            0                         0                         0
                   Accounts payable                                                       0              0                0            0                         0                         0
              Outlays:
                   Disbursements                                                         0               0               0             0                        0                         0
                   Collections                                                        (543)              0               0             0                     (543)                      (39)
                   Subtotal                                                          ($543)             $0              $0            $0                    ($543)                     ($39)
              Less: Offsetting receipts                                                  0               0               0             0                        0                         0
              Net Outlays




                                                                                                                                            The accompanying notes are an integral part of these statements.
                 166 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd        12/12/2003           5:44 PM        Page 167




                                                                                                                                             Combining Statement of Financing
                                                                                                                                                       Department of Defense • Department of the Army
                                                                                                                                     For the Years Ended September 30, 2003 and 2002 ($ in thousands)

                                                                                                                                Component                2003                   2002
              Resources Used to Finance Activities:                                Active Army   Army Reserve   Army National       Level             Combined               Combined
                  Budgetary Resources Obligated
                  Obligations incurred                                           $129,202,247     $5,745,009    $11,495,546           $0         $146,442,802           $106,446,894
                  Less: Spending authority from offsetting collections
                    and recoveries (-)                                            (23,849,664)      (458,102)     (1,577,545)           0          (25,885,311)           (21,405,591)

                   Obligations net of offsetting collections and recoveries      $105,352,583     $5,286,907     $9,918,001           $0         $120,557,491            $85,041,303
                   Less: Offsetting receipts (-)                                      (95,571)             0              0            0              (95,571)              (184,839)
                Net obligations                                                  $105,257,012     $5,286,907     $9,918,001           $0         $120,461,920            $84,856,464
              Other Resources
                   Donations and forfeitures of property                                    0              0              0            0                    0                      0
                   Transfers in/out without reimbursement (+/-)                      (267,680)          (609)       (53,067)           0             (321,356)                     0
                   Imputed financing from costs absorbed by others                    818,482              0              0            0              818,482                688,259
                   Other (+/-)                                                        115,102              0              0            0              115,102                      0
                Net other resources used to finance activities                       $665,904          ($609)      ($53,067)          $0             $612,228               $688,259
              Total resources used to finance activities                         $105,922,916     $5,286,298     $9,864,934           $0         $121,074,148            $85,544,723

              Resources Used to Finance Items not Part
              of the Net Cost of Operations
              Change in budgetary resources obligated for goods,
                 services and benefits ordered but not yet provided
              Undelivered Orders (-)                                             ($15,667,378)      ($66,969)     ($595,566)    ($150,324)       ($16,480,237)            ($2,138,888)
              Unfilled Customer Orders                                              3,824,984         (1,377)       (48,951)            0           3,774,656               1,251,904
              Resources that fund expenses recognized in prior periods               (280,255)        (2,440)             0             0            (282,695)             (5,656,745)
              Budgetary offsetting collections and receipts that                       15,085              0              0             0              15,085                       0
                 do not affect net cost of operations
              Resources that finance the acquisition of assets                    (24,741,519)      (273,203)      (200,121)            0          (25,214,843)              (152,239)
              Other resources or adjustments to net obligated resources
                 that do not affect net cost of operations
              Less: Trust or Special Fund Receipts Related to Exchange                      0              0               0            0                     0                       0
                 in the Entity's Budget (-)
              Other (+/-)                                                                   0              0               0            0                     0                       0
              Total resources used to finance items not
              part of the net cost of operations                                 ($36,849,083)     ($343,989)     ($844,638)    ($150,324)       ($38,188,034)           ($6,695,968)
              Total resources used to finance the net cost of operations          $69,073,833     $4,942,309     $9,020,296     ($150,324)        $82,886,114            $78,848,755




              The accompanying notes are an integral part of these statements.
                                                                                                                                 General Fund Principal Notes and Statements 167
03GFStatements12-12.qxd        12/12/2003         5:44 PM        Page 168




              Combining Statement of Financing
              Department of Defense • Department of the Army, General Fund
              For the Years Ended September 30, 2003 and 2002 ($ in thousands)

                                                                                                                               Component                2003                     2002
              Components of the Net Cost of Operations that will                  Active Army   Army Reserve   Army National       Level             Combined                 Combined
              not Require or Generate Resources in the Current Period:
              Components Requiring or Generating Resources
                 in Future Periods:
              Increase in annual leave liability                                    $191,258         $7,307        $92,923            $0             $291,488                $276,719
              Increase in environmental and disposal liability                     2,317,132              0              0             0            2,317,132                       0
              Upward/Downward reestimates of credit subsidy                                0              0              0             0                    0                       0
                 expense (+/-)
              Increase in exchange revenue receivable from the the                         0              0              0             0                      0                        0
                 public (-)
              Other (+/-)                                                            388,733          4,810         15,760            0               409,303               1,486,858
              Total components of Net Cost of Operations that                     $2,897,123        $12,117       $108,683           $0            $3,017,923              $1,763,577
                 will require or generate resources in future periods
              Components not Requiring or Generating Resources:
              Depreciation and amortization                                       20,983,935        278,352        101,633             0           21,363,920                  596,779
              Revaluation of assets or liabilities (+/-)                             (10,681)             0              0             0              (10,681)              (1,793,293)
              Other (+/-)                                                            165,097          5,617          3,667             0              174,381                  603,891
              Total components of Net Cost of Operations that
                 will not require or generate resources                          $21,138,351       $283,969       $105,300           $0          $21,527,620                ($592,623)

              Total components of net cost of operations that
               will not require or generate resources in the current period      $24,035,474       $296,086       $213,983            $0         $24,545,543               $1,170,954
              Net Cost of Operations                                             $93,109,307     $5,238,395     $9,234,279     ($150,324)       $107,431,657              $80,019,709




                                                                                                                                       The accompanying notes are an integral part of these statements.
                 168 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd        12/12/2003           5:44 PM        Page 169




                                                                                                                              Combining Statement of Custodial Activity
                                                                                                                                                    Department of Defense • Department of the Army
                                                                                                                                  For the Years Ended September 30, 2003 and 2002 ($ in thousands)

                                                                                                              Army National   Component                                   2002
                                                                                 Active Army   Army Reserve                                  2003 Combined
                                                                                                                     Guard        Level                               Combined
              SOURCE OF COLLECTIONS
                 Deposits by Foreign Governments                                        $0             $0              $0           $0                   $0                  $0
                 Seized Iraqi Cash                                                 808,866              0               0            0              808,866                   0
                 Other Collections                                                       0              0               0            0                    0                   0
                 Total Cash Collections                                            808,866              0               0            0              808,866                   0
                 Accrual Adjustments (+/-)                                               0              0               0            0                    0                   0
                 Total Custodial Collections                                      $808,866             $0              $0           $0             $808,866                  $0
              DISPOSITION OF COLLECTIONS
                  Disbursed on Behalf of Foreign Governments and                        $0             $0              $0           $0                    $0                 $0
                       International Organizations
                  Seized Assets Disbursed on behalf of Iraqi People                530,727              0               0            0              530,727                   0
                  Increase (Decrease) in Amounts to be Transferred                       0              0               0            0                    0                   0
                  Collections Used for Refunds and Other Payments                        0              0               0            0                    0                   0
                  Retained by The Reporting Entity                                       0              0               0            0                    0                   0
                  Seized Assets Retained for Support of the Iraqi People           278,139              0               0            0              278,139                   0
                  Total Disposition of Collections                                $808,866             $0              $0           $0             $808,866                  $0
              NET CUSTODIAL COLLECTION ACTIVITY                                         $0             $0              $0           $0                   $0                  $0




              The accompanying notes are an integral part of these statements.
                                                                                                                              General Fund Principal Notes and Statements 169
03GFStatements12-12.qxd     12/12/2003       5:44 PM      Page 170




              NATIONAL DEFENSE PLANT, PROPERTY, AND EQUIPMENT
              The Federal Accounting Standards Advisory Board (FASAB) revised the Statement of Federal Financial Accounting Standards No. 6 to require the capitalization and
              depreciation of military equipment (formerly National Defense Property, Plant and Equipment/ND PP&E) for fiscal years (FY) 2003 and beyond, and encouraged early
              implementation.

                                                                                    HERITAGE ASSETS
                                                                        For Fiscal Year Ended September 30, 2003

                                 (a)                            (b)                         (c)               (d)             (e)                (f)
                                                        Measurement/ Quantity        As Of 10/1/2002       Additions       Deletions      As Of 9/30/2003
               Museums (Note 2)                                Each                             221                    1            105                  117
               Monuments & Memorials (Note 3)                  Each                             830                   66              7                  889
               Cemeteries (Note 4)                             Sites                            530                    4             10                  524
               Archeological Sites                             Sites                              0                    0              0                    0
               Buildings & Structures (Note 1)                 Each                           5,756                4,912            822                9,846
               Major Collections (Note 5)                      Each                               6                    0              0                    6



              Narrative Statement:
              In most cases, the additions/deletions are a result of installations defining cemeteries and historical facilities located on their installations as a result of CFO audits.
              Some deletions are a result of disposing of Base Realignment and Closure (BRAC) property.

              Notes:
              1. Historical Buildings and Structures: buildings and structures designated as historical exclude museums, monuments, and memorials. The number of Buildings and
                  Structures increased as a result of the following initiatives:

                        Installations conducting real property surveys and making adjustments according to their findings

                        Active installations now reporting previously omitted National Guard Bureau buildings and structures designated as heritage assets

                        Both National Guard and Reserve are now reporting new buildings and structures designated as heritage assets

              2. Museums: The Army Museum System consists of 117 museums and museum activities worldwide that comprise the active Army, Army Reserve, and the National
                 Guard (Federal property only). One museum activity was closed during FY 2003 and its collections distributed among the remaining museums. One new museum
                 activity (Michigan National Guard) was approved. In addition, there is historical property displayed in numerous regimental rooms, trophy rooms, officer's clubs,
                 visitor's centers, chapels, and headquarters building elements that are not recognized by the Department of the Army as a museum or museum activity. Solely for
                 reporting purposes, we have consolidated all of these separate and smaller collections during this reporting period.


                 170 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd       12/12/2003            5:44 PM   Page 171




                                                                                                                                 Required Supplementary Stewardship Information
              3. Memorial/Monuments: only Monuments and Memorials are included (category code 76020)

              4. Cemeteries: includes category code 76030

              5. The US Army Tank-automotive & Armaments Command is reporting two (2) major collections under the Donation Program; Ceremonial Rifles and
                 Monuments/Static. The U.S. Army Center of Military History is the proponent for all Army Historical property. Currently, there are four (4) major or significant
                 collections that are maintained outside the definition of an Army museum and museum activity. The collections consist of the U.S. Army Center of Military
                 History, Museum Division, Collections Branch, the Anniston Historical Clearinghouse, the Maple Leaf and Benton Small Arms collections. The general condition
                 of the historical collection is stable. Multi-year conservation contracts have been let with certified conservators, who are members in good standing with the
                 American Institute of Conservators. The ongoing effort ensures that the historical collection is preserved in accordance with statutory requirements, Army
                 regulations, and professional museum standards, and is interpreted in the interest of history, the U.S. Army, and the American people. Furthermore, the historical
                 collection actively supports training and development, and serves as a bridge for common interest between the military and civilian communities.

                                                                                STEWARDSHIP LAND
                                                                     For Fiscal Year Ended September 30, 2003
                                                                                 (Acres in Thousands)
                                            (a)                                     (b)                      (c)               (d)                  (e)
                                         Land Use                            As Of 10/1/2002              Additions         Deletions        As Of 9/30/2003
               1. Mission (Note 1)                                                       6,998.2                    887.1           952.5                6,932.8
               2. Parks & Historic Sites (Note 2)                                           0.91                      0.0             0.0                   0.91



              Narrative Statement:
              Additions/deletions are the result of: (a) acquiring additional land through donation or withdrawal from public domain; (b) identification of missing land records; and,
              (c) disposal of BRAC property.

              Notes:
              1. Mission Land includes the following category codes: 91120, 91131, 91141, 91210, 91310, 91320, 91330, 91410, 92111, 92121, 92131, and 92190. These
                  category codes represent land that was not purchased, but was either donated or withdrawn from public domain.

              2. Parks/Historic Sites includes all cemeteries (category code 76030). Unable to determine if cemeteries are purchased, donated or transferred property. This value
                 could be double reported within Mission Related; therefore; this report should not be totaled.




                                                                                                                                            General Fund Principal Notes and Statements 171
03GFStatements12-12.qxd      12/12/2003         5:44 PM   Page 172




                                                                        NONFEDERAL PHYSICAL PROPERTY
                                                                 Yearly Investment in State and Local Governments
                                                                     For Fiscal Year Ended September 30, 2003
                                                                                (In Millions of Dollars)
                                           (a)                                   (b)                    (c)           (d)           (e)               (f)
                                       Categories:                            FY 1999                FY 2000        FY 2001       FY 2002          FY 2003
               Transferred Assets:
               1. National Defense Mission Related                                  $20.2                $4.7            $94.8              $7.4        $85.0

               Funded Assets:
               2. National Defense Mission Related                                      0                   0                 0               0              0

               Total:                                                               $20.2                $4.7            $94.8          $7.4            $85.0


              Narrative Statement:
              Investments in Nonfederal Physical Property refers to those expenses incurred by the Army for the purchase, construction, or major renovation of physical property
              owned by State and Local Governments, including major additions, alterations and replacements; the purchase of major equipment; and the purchase of improvement
              of other physical assets. The following is a schedule of estimated investments value of state-owned properties that are used by the Federal Government.

              Notes:
              1. Investment values included in this report are based on Nonfederal Physical Property outlays (expenditures). Outlays are used because current DoD systems are
                  unable to capture and summarize costs in accordance with the Federal Accounting Standards requirements.

              2. Data provided here are significant because these are properties that are owned by the various U.S. Property and Fiscal Offices and are essential in accomplishing
                 the mission of the Army National Guard.

              3. Costs of maintenance of these non-federal assets are included in the budgetary resources of Army National Guard.

              4. These properties represent non-cash items that were transferred to State and local governments.




                 172 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd     12/12/2003       5:44 PM     Page 173




                                                                                                                                 Required Supplementary Stewardship Information
                                                                INVESTMENTS IN RESEARCH AND DEVELOPMENT
                                                                 Yearly Investment in Research and Development
                                                                    For Fiscal Year Ended September 30, 2003
                                                                               (In Millions of Dollars)
                                               (a)                                           (b)          (c)         (d)            (e)            (f)
                                           Categories:                                     FY 1999      FY 2000     FY 2001        FY 2002       FY 2003
               1. Basic Research                                                               $175.4      $187.1       $209.2         $206.4         $226.9
               2. Applied Research                                                              574.3       677.6        806.6          864.1           847.2
               3. Development:
                    Advanced Technology Development                                         685.8          701.2        821.9           863.1         988.6
                    Advanced Component Development and Prototypes                           498.6          476.5        622.6           897.7         880.1
                    Systems Development and Demonstration                                 1,221.1        1,326.4      1,653.0         1,954.9       2,265.1
                    Research, Development, Test and Evaluation Management Support         1,192.9          961.9        888.8           880.9         979.4
                    Operational Systems Development                                        $656.2         $605.4       $849.3          $970.4        $964.9
                                               Total:                                    $5,004.3       $4,936.1     $5,851.4        $6,637.5      $7,152.2


              Narrative Statement:
              The following are two representative program examples for each of the above major categories:

              Basic Research is the systematic study to gain knowledge or understanding of the fundamental aspects of phenomena and of observable facts without specific
              applications, processes, or products in mind. Basic research involves the gathering of a fuller knowledge or understanding of the subject under study. Major outputs
              are scientific studies and research papers. The following are two representative program examples for this category:

              Defense Research Sciences: This program sustains U.S. Army scientific and technological superiority in land warfighting capability, provides new concepts and
              technologies for the Army's Future Force, and provides the means to exploit scientific breakthroughs and avoid technological surprises. It fosters innovation in Army
              niche areas and where the commercial incentive to invest is lacking due to limited markets. It also focuses university single investigators on research in areas of Army
              interest. The in-house portion of the program capitalizes on the Army's scientific talent and specialized facilities to expeditiously transition knowledge and technology
              into the appropriate developmental activities. The extramural program leverages the research efforts of other government agencies, academia, and industry. This
              translates to a coherent, well-integrated program which is executed by the five primary contributors: 1) the Army Research Laboratory (ARL), which includes the
              Army Research Office; 2) the Research, Development and Evaluation Command (RDECOM) Research, Development and Engineering Centers (RDECs); 3) the Army
              Corps of Engineers Research and Development Center (ERDC); 4) the Army Medical Research and Materiel Command laboratories; and 5) the Army Research
              Institute. The basic research program is coordinated with the other Services via the Joint Directors of Laboratories panels, Project Reliance, and other interservice
              working groups. This program responds to the scientific and technological requirements of the Department of Defense Basic Research Plan by enabling the
              technologies that can significantly improve joint war fighting capabilities. Projects involve basic research efforts directed toward providing fundamental knowledge for
              the solution of military problems related to long-term national security needs. The work is consistent with Transformation Planning Guidance, the Army Science and
              Technology Master Plan (ASTMP), the Army Modernization Plan, and the Defense Technology Area Plan (DTAP).



                                                                                                                                          General Fund Principal Notes and Statements 173
03GFStatements12-12.qxd    12/12/2003       5:44 PM      Page 174




              University and Industry Research Centers: This program leverages research in the private sector through Collaborative Technology Alliances (CTA), Centers of
              Excellence, and the University Affiliated Research Centers. A significant portion of the work performed within this program directly supports Future Force
              requirements by providing the enabling technologies which will make development of Future Force equipment possible. CTAs are innovative alliances among
              government, industry and academic organizations to exploit scientific and technological breakthroughs and to transition these breakthroughs to exploratory
              development and applied research. This program includes the Army's Centers of Excellence, which couple state-of-the-art research programs at academic institutions
              with broad-based graduate education programs to increase the supply of scientists and engineers in materials science, electronics and rotary wing technology. Also
              included is eCYBERMISSION, the Army national web-based competition to stimulate interest in science, math and technology in middle and high school students.
              This program also includes the Institute for Soldier Nanotechnologies (ISN) at the Massachusetts Institute of Technology. The ISN will emphasize revolutionary
              materials research for advanced soldier protection and survivability. A Biotechnology Center of Excellence was established in 2003. The Institute for Collaborative
              Biotechnologies will broaden the Army's use of biotechnology to non-medical areas such as the development of materials, sensors, and information processing. The
              Army's Institute of Creative Technologies (ICT) is also included in this program. The ICT is a partnership with academia and the entertainment and gaming industries
              to leverage innovative research and concepts for training and design. Examples of specific research of mutual interest to the entertainment industry and the Army are
              technologies for realistic immersion in synthetic environments, networked simulation, standards for interoperability, and tools for creating simulated environments.
              Historically Black Colleges and Universities and Minority Institution (HBCU/MI) Centers of Excellence address critical research areas for Army Transformation.
              Work is consistent with Transformation Planning Guidance, the Army Science and Technology Master Plan (ASTMP), the Army Modernization Plan, and the Defense
              Technology Area Plan (DTAP).

              Applied Research is the systematic study to gain knowledge or understanding necessary for determining the means by which a recognized and specific need may be
              met. It is the practical application of such knowledge or understanding for the purpose of meeting a recognized need. This research points toward specific military
              needs with a view toward developing and evaluating the feasibility and practicability of proposed solutions and determining their parameters. Major outputs are
              scientific studies, investigations, and research papers, hardware components, software codes, and limited construction of, or part of, a weapon system to include
              nonsystem specific development efforts. The following are two representative program examples for this category:

              Advanced Weapons Technology: This program matures technologies for the Army Transformation as related to High Energy Laser (HEL) weapon systems.
              Potential HEL weapon system missions in the areas of Information Dominance and Force Protection include countering airborne electro-optical sensors and defending
              against airborne threats, providing a new, low cost per shot, complement to conventional offensive and defensive weapons. At weapon system power levels, solid-state
              laser (SSL) technology has the potential to enhance Future Combat Systems (FCS) survivability by defeating Precision Guided Munitions. A key project within this
              program is the development of a multi-hundred kilowatt (kW) SSL laboratory demonstrator. This project will demonstrate a 15-25 kW diode-pumped SSL breadboard
              in 2004. By 2005, the Army will evaluate this concept against alternative SSL technology approaches being supported by the High Energy Laser Joint Technology
              Office High-Power Solid-State Laser program. The most promising technology will then be upgraded to a 100kW SSL laboratory device, scheduled for completion in
              2007. The project will continue to mature the selected SSL technology into a multi-hundred kW laboratory device. The program element contains no duplication with
              any effort within the Military Departments. Work is consistent with Transformation Planning Guidance, the Army Science and Technology Master Plan (ASTMP) and
              the Army Modernization Plan, and the Defense Technology Area Plan (DTAP).

              Combat Vehicle and Automotive Technology: This program researches, investigates and applies combat vehicle and automotive technologies that will improve
              survivability, mobility, sustainability, and maintainability of Army ground vehicles. As combat vehicle systems become smaller and lighter to provide the necessary

                174 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd    12/12/2003     5:44 PM    Page 175




                                                                                                                      Required Supplementary Stewardship Information
              strategic deployability and tactical mobility, one of the greatest technological and operational challenges is providing adequate protection without reliance on heavy
              passive armor. This challenge will be met using a layered approach, substituting long-range situational awareness, multi-spectral signature reduction, active protection
              systems and advanced lightweight armor for conventional armor. This program also advances technologies for critical power, propulsion and electric components,
              including energy storage, power distribution and pulse forming networks. This program adheres to Tri-Service Reliance Agreements on advanced materials, fuels and
              lubricants, and ground vehicles, with oversight and coordination provided by the Joint Directors of Laboratories. This program is coordinated with the Marine Corps
              through the Naval Surface Warfare Center and with other ground vehicle developers within the Departments of Energy, Commerce, Transportation, and Defense
              Advanced Research Projects Agency (DARPA). Work is consistent with Transformation Planning Guidance, the Army Science and Technology Master Plan
              (ASTMP), the Army Modernization Plan, and the Defense Technology Area Plan (DTAP).

              Development takes what has been discovered or learned from basic and applied research and uses it to establish technological feasibility, assessment of operability,
              and production capability. Development is comprised of five stages defined below:

              1. Advanced Technology Development is the systematic use of the knowledge or understanding gained from research directed toward proof of technological
                 feasibility and assessment of operation and producibility rather than the development of hardware for service use. Employs demonstration activities intended to
                 prove or test a technology or method.

              2. Advanced Component Development and Prototypes evaluates integrated technologies in as realistic an operating environment as possible to assess the
                 performance or cost reduction potential of advanced technology. Programs in this phase are generally system specific. Major outputs of Demonstration and
                 Validation are hardware and software components, or complete weapon systems, ready for operational and developmental testing and field use.

              3. System Development and Demonstration concludes the program or project and prepares it for production. It consists primarily of preproduction efforts, such as
                 logistics and repair studies. Major outputs are weapons systems finalized for complete operational and developmental testing.

              4. RDT&E Management Support is support for installations and operations for general research and development use. This category includes costs associated with
                 test ranges, military construction maintenance support for laboratories, operation and maintenance of test aircraft and ships, and studies and analyses in support of
                 the R&D program.

              5. Operational Systems Development is concerned with development projects in support of programs or upgrades still in engineering and manufacturing
                 development, which have received approval for production, for which production funds have been budgeted in subsequent fiscal years.

              The following are two representative program examples for this category:

              Combat Vehicle and Automotive Advanced Technology: The goal of this program is to mature and demonstrate leap-ahead combat vehicle automotive technologies
              to realize the Army's vision and enable transformation to the Future Force. The Future Combat Systems (FCS), the Army's top priority Science and Technology
              program, is the primary effort funded here in support of Army Transformation. FCS Memorandum of Agreement (MOA) between the Army and Defense Advanced
              Research Projects Agency (DARPA) delineates the collaborative enabling technologies, cost-shared funding profile and responsibilities associated with this partnership.

                                                                                                                                 General Fund Principal Notes and Statements 175
03GFStatements12-12.qxd        12/12/2003             5:44 PM   Page 176




              In addition to FCS, this program supports maturation and demonstration of enabling technologies in the areas of survivability, mobility and intra-vehicular digital
              electronics. It also funds efforts to integrate and evaluate diverse vehicle technologies matured by the Army, other DoD agencies and industry. These advanced
              technologies are demonstrated in coordination with Army warfighter organizations through vehicle component and system level technology demonstrations. This
              program adheres to Tri-Service Reliance Agreements on advanced materials, fuels and lubricants, and ground vehicles with oversight and coordination provided by the
              Joint Directors of Laboratories. This program is coordinated with the Marine Corps through the Naval Surface Warfare Center, the Naval Research Laboratory, Air
              Force Armaments Command, and other ground vehicle developers within the Departments of Energy, Commerce, Transportation and DARPA. Work is consistent with
              Transformation Planning Guidance, the Army Science and Technology Master Plan (ASTMP), the Army Modernization Plan, and the Defense Technology Area Plan
              (DTAP).

              Army Test Ranges and Facilities: This program provides the institutional funding required to operate the developmental test activities required by Department of
              Defense (DoD), Department of the Army (DA) weapons systems developers and Research, Development, and Engineering Centers. This program provides resources
              to operate Army's Major Range and Test Facility Bases (MRTFB): White Sands Missile Range (WSMR), New Mexico; Aberdeen Test Center (ATC), Aberdeen
              Proving Ground (APG), Maryland; Yuma Proving Ground (YPG), Arizona. This program also provides the resources to operate the Army's developmental test
              capability at: Aviation Technical Test Center, Fort Rucker, AL; and Redstone Technical Test Center, Redstone Arsenal, AL. It also provides the resources for test
              planning and safety verification/confirmation. Developmental test capabilities at the test range have been uniquely established, are in place to support test and
              evaluation (T&E) requirements of funded weapons programs, and are required to assure technical performance, adherence to safety requirements, reliability, logistics
              supportability, and quality of materiel in development and in production. This program sustains the developmental T&E capability required to support all elements of
              Army Transformation, as well as Joint Service or Other Service systems, hardware, and technologies.

                                                                                                Department of the Army
                                                                                        General Property, Plant, and Equipment
                                                                                      Real Property Deferred Maintenance Amounts
                                                                                                As of September 30, 2003

              Narrative Statement:
              FY2003 sustainment requirements for the Army are from version 3.0 of the DoD Facilities Sustainment Model (FSM). The requirements and funding represent
              facilities funded from Operations & Maintenance (O&M), Army Family Housing (AFH), and Working Capital Fund (WCF) appropriations, and from Non-
              Appropriated Funds (NAF). Army sustainment data includes facilities that are multi-use heritage assets. Sustainment funding contributions from host nation funding
              (Japan) and military pay are included. The sustainment data excludes facilities funded from Research, Development, Test and Evaluation (RDTE), and Procurement
              appropriations, and Chemical Depots, because we lack separately identifiable sustainment funding for these locations.

                                                         Annual Sustainment FY 2003
                              Property Type                     1. Required          2. Actual     3. Difference
               Buildings, Structures, and Utilities              $3,046.4M          $2,254.1M        $792.3M




                 176 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd      12/12/2003        5:44 PM      Page 177




                                                                                                                       Required Supplementary Stewardship Information
                                                Annual Deferred Sustainment Trend FY 2003
                             Property Type                    FY 2000       FY 2001       FY 2002          FY 2003
               Buildings, Structures, and Utilities          $629.4M       $1,167.0M      $913.4M          $792.3M


              Army Restoration & Modernization (R&M) requirements are modeled in the annual Installation Status Report (ISR). During ISR data collection, facility occupants
              evaluate the condition of each facility against published standards. Facilities are rated Green (complies with standards), Amber (does not fully meet standards), or Red
              (dysfunctional or substandard). ISR establishes a C-rating for groups of facilities, based on the proportion of facilities rated Green, Amber, and Red. Facility groups
              are rated C-1 (facilities fully support the mission), C-2 (facilities support the majority of assigned missions), C-3 (facilities impair mission performance), or C-4
              (facilities significantly impair mission performance).

              ISR develops cost estimates to improve groups of facilities to higher C-ratings. Using industry based improvement cost factors for each facility type, ISR builds the
              cost to improve Red and Amber facilities to Green in order to achieve higher C-ratings. The requirement reported for General PP&E R&M is the ISR cost to improve
              the quality of facilities to C-1. For FY2003, these requirements address facility types funded from Army appropriated operations and maintenance (O&M), working
              capital fund (WCF), and Army family housing (AFH) funds. The Army's R&M requirement does not include requirements for facilities funded by Department of
              Defense agencies (DECA, DLA, TMA, DODDS), non-appropriated funds-NAF (recreation, sports), Army Air Force Exchange Service, and private funding. The
              R&M requirement also excludes costs for utilities planned for privatization, closures from base realignment and closure (BRAC) decisions, ammunition plants and
              chemical depots.

              Army facilities are predominantly C-3, due to years of underfunding sustainment. The Army's estimate to return these facilities to a C-1 status for FY2003 is $26.5B,
              based on the 2003 ISR. The increase of $6.3B in the R&M requirement is the result of a change in the Army's facility evaluation methodology. For the 2003 ISR
              collection, infrastructure inspection standards were revised to reflect a mission importance consideration of facility components in a manner consistent with ISR
              collection for 2001 and earlier years. Facility ratings with these standards were lower than ratings in 2002 ISR, and the corresponding improvement cost estimates
              increased.

                                                 Restoration & Modernization Requirements
                                 Property Type                       End FY 2002        End FY 2003        Change
               Buildings, Structures, and Utilities                     $20.2B            $26.5B           +$6.3B


                                          Military Equipment Deferred Maintenance Amounts
                                                        As of September 30, 2003
                                                        (Amounts In Thousands)
                                                  (a)                                              (b)
                                            Major Type:                                          Amount:
               1. Aircraft                                                                                   $71,300
               2. Ships                                                                                            0
               3. Missiles                                                                                    51,500
               4. Combat Vehicles                                                                            118,500
               5. Other Weapons Systems                                                                      163,000
               6. Total:                                                                                    $404,300


                                                                                                                                 General Fund Principal Notes and Statements 177
03GFStatements12-12.qxd        12/12/2003         5:44 PM        Page 178




              Statement of Dissagregated Budgetary Resources
              Department of Defense • Department of the Army, General Fund
              For the Years Ended September 30, 2003 and 2002 ($ in thousands)

                                                                                               Research, Development,    Operation and
              BUDGETARY RESOURCES                                                     Other          Test & Evaluation    Maintenance       Procurement            Military Personnel
              Budget Authority:
                   Appropriations received                                       $1,923,876               $7,652,571      $48,527,523      $13,447,403                   $43,838,160
                   Borrowing authority                                                    0                        0                0                0                             0
                   Contract authority                                                     0                        0                0                0                             0
                   Net transfers (+/-)                                            1,245,477                  (12,522)       3,137,066          631,502                       305,559
                   Other                                                                  0                        0                0                0                             0
              Unobligated balance:
                   Beginning of period                                             109,670                  1,149,375         781,768         1,955,674                       226,047
                   Net transfers, actual (+/-)                                     466,000                     (7,092)        643,566            (5,208)                      144,742
                   Anticipated Transfers Balances                                        0                          0               0                 0                             0
              Spending authority from offsetting collections:
                   Earned                                                                 0                        0                0                0                             0
                   Collected                                                         (4,775)               2,734,205        7,778,901          708,106                       557,546
                   Receivable from Federal sources                                  (10,302)                (132,949)          57,873           11,341                       109,452
                   Change in unfilled customer orders                                     0                        0                0                0                             0
                   Advance received                                                     823                   (5,066)          13,261            8,120                             0
                   Without advance from Federal sources                              (3,612)                 335,739        2,095,272          408,320                       (54,231)
                   Anticipated for the rest of year, without advances                     0                        0                0                0                             0
                   Transfers from trust funds                                             0                        0                0                0                             0
                   Subtotal                                                        ($17,866)              $2,931,929       $9,945,307       $1,135,887                      $612,767
              Recoveries of prior year obligations                                   36,679                  807,233        5,197,497          650,772                       925,321
              Temporarily not available pursuant to Public Law                            0                        0                0                0                             0
              Permanently not available                                                (211)                (105,084)        (596,191)        (280,123)                     (251,716)
              Total Budgetary Resources                                          $3,763,625              $12,416,410      $67,636,536      $17,535,907                   $45,800,880

                                                                                               Research, Development,    Operation and
              STATUS OF BUDGETARY RESOURCES                                           Other          Test & Evaluation    Maintenance    Procurement              Military Personnel
              Obligations incurred:
                   Direct                                                        $3,568,903               $8,045,894      $55,998,027      $13,254,532                   $44,933,975
                   Reimbursable                                                      17,475                3,058,163       10,713,564          795,340                       643,728
                   Subtotal                                                       3,586,378               11,104,057       66,711,591       14,049,872                    45,577,703
              Unobligated balance:
                   Apportioned                                                      145,477                1,246,696           27,309        3,355,401                        85,961
                   Exempt from apportionment                                         25,665                        0                0                0                             0
                   Other available                                                        0                        0                0                0                             0
                   Unobligated Balances Not Available                                 6,105                   65,656          897,635          130,633                       137,217
              Total, Status of Budgetary Resources                               $3,763,625              $12,416,409      $67,636,535      $17,535,906                   $45,800,881



                                                                                                                                         The accompanying notes are an integral part of these statements.
                 178 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd        12/12/2003           5:44 PM        Page 179




                                                                                                                                Statement of Dissagregated Budgetary Resources
                                                                                                                                                                   Department of Defense • Department of the Army
                                                                                                                                                 For the Years Ended September 30, 2003 and 2002 ($ in thousands)

                                                                            Military Construction/
              BUDGETARY RESOURCES                                                 Family Housing          2003 Combined      2002 Combined
              Budget Authority:
                   Appropriations received                                           $2,305,997            $117,695,530        $81,067,276
                   Borrowing authority                                                        0                       0                  0
                   Contract authority                                                         0                       0                  0
                   Net transfers (+/-)                                                      359               5,307,441          5,290,599
                   Other                                                                      0                       0                  0
              Unobligated balance:
                   Beginning of period                                                 1,635,578              5,858,110          5,701,789
                   Net transfers, actual (+/-)                                           (27,484)             1,214,524            408,970
                   Anticipated Transfers Balances                                              0                      0                  0
              Spending authority from offsetting collections:
                   Earned                                                                     0                       0                  0
                   Collected                                                          2,321,752              14,095,736         12,012,602
                   Receivable from Federal sources                                      (22,440)                 12,974           (146,322)
                   Change in unfilled customer orders                                         0                       0                  0
                   Advance received                                                     102,200                 119,338             87,119
                   Without advance from Federal sources                                 873,830               3,655,318          1,164,785
                   Anticipated for the rest of year, without advances                         0                       0                  0
                   Transfers from trust funds                                                 0                       0                  0
                   Subtotal                                                          $3,275,342             $17,883,366        $13,118,184
              Recoveries of prior year obligations                                      383,901               8,001,403          8,287,368
              Temporarily not available pursuant to Public Law                                0                       0                  0
              Permanently not available                                                 (71,256)             (1,304,580)        (1,569,179)
              Total Budgetary Resources                                              $7,502,437            $154,655,794       $112,305,007

                                                                            Military Construction/
              STATUS OF BUDGETARY RESOURCES                                       Family Housing     2003 Combined         2002 Combined
              Obligations incurred:
                   Direct                                                            $2,211,052            $128,012,383        $91,731,863
                   Reimbursable                                                       3,202,149              18,430,419         14,715,031
                   Subtotal                                                           5,413,201             146,442,802        106,446,894
              Unobligated balance:
                   Apportioned                                                        2,086,303               6,947,148          4,788,478
                   Exempt from apportionment                                                  0                  25,665                  0
                   Other available                                                            0                       0                  2
                   Unobligated Balances Not Available                                     2,932               1,240,179          1,069,633
              Total, Status of Budgetary Resources                                   $7,502,436            $154,655,794       $112,305,007



              The accompanying notes are an integral part of these statements.
                                                                                                                                             General Fund Principal Notes and Statements 179
03GFStatements12-12.qxd        12/12/2003         5:44 PM        Page 180




              Statement of Dissagregated Budgetary Resources
              Department of Defense • Department of the Army, General Fund
              For the Years Ended September 30, 2003 and 2002 ($ in thousands)

                                                                                               Research, Development,    Operation and
              Relationship of Obligations to Outlays:                                 Other          Test & Evaluation    Maintenance    Procurement              Military Personnel
                   Obligated Balance, Net- beginning of period                    $476,739                 $3,451,904     $13,206,959      $11,607,075                    $2,212,269
                   Obligated Balance transferred, net (+/-)                              0                          0               0                0                             0
                   Obligated Balance, Net- end of period:
                   Accounts receivable                                               (2,044)                 (169,514)       (807,924)          (71,956)                     (405,504)
                   Unfilled customer order from Federal sources                     (33,419)               (1,545,800)     (4,636,319)       (1,410,095)                            0
                   Undelivered orders                                             1,130,639                 4,933,579      19,969,192        13,052,626                        89,544
                   Accounts payable                                                 143,629                   557,052       8,275,351           963,644                     3,892,359
              Outlays:
                   Disbursements                                                  2,801,547                9,770,622      49,767,608        12,052,296                    43,233,030
                   Collections                                                        3,952               (2,729,139)     (7,792,161)         (716,226)                     (557,546)
                   Subtotal                                                      $2,805,499               $7,041,483     $41,975,447       $11,336,070                   $42,675,484
              Less: Offsetting receipts                                             (95,571)                       0               0                 0                             0
              Net Outlays                                                        $2,709,928               $7,041,483     $41,975,447       $11,336,070                   $42,675,484

              BUDGETARY RESOURCES
              Budget Authority:
                   Appropriations received                                              $0                        $0               $0                  $0                            $0
                   Borrowing authority                                                   0                         0                0                   0                             0
                   Contract authority                                                    0                         0                0                   0                             0
                   Net transfers (+/-)                                                   0                         0                0                   0                             0
                   Other                                                                 0                         0                0                   0                             0
              Unobligated balance:
                   Beginning of period                                                 730                          0               0                   0                             0
                   Net transfers, actual (+/-)                                           0                          0               0                   0                             0
                   Anticipated Transfers Balances                                        0                          0               0                   0                             0
              Spending authority from offsetting collections:
                   Earned                                                                0                         0                0                   0                             0
                   Collected                                                           543                         0                0                   0                             0
                   Receivable from Federal sources                                       0                         0                0                   0                             0
                   Change in unfilled customer orders                                    0                         0                0                   0                             0
                   Advance received                                                      0                         0                0                   0                             0
                   Without advance from Federal sources                                  0                         0                0                   0                             0
                   Anticipated for the rest of year, without advances                    0                         0                0                   0                             0
                   Transfers from trust funds                                            0                         0                0                   0                             0
                   Subtotal                                                           $543                        $0               $0                  $0                            $0
              Recoveries of prior year obligations                                       0                         0                0                   0                             0
              Temporarily not available pursuant to Public Law                           0                         0                0                   0                             0
              Permanently not available                                                  0                         0                0                   0                             0
              Total Budgetary Resources                                             $1,273                        $0               $0                  $0                            $0


                                                                                                                                         The accompanying notes are an integral part of these statements.
                 180 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd        12/12/2003           5:44 PM        Page 181




                                                                                                                                Statement of Dissagregated Budgetary Resources
                                                                                                                                                                   Department of Defense • Department of the Army
                                                                                                                                                 For the Years Ended September 30, 2003 and 2002 ($ in thousands)

                                                                            Military Construction/
              Relationship of Obligations to Outlays:                             Family Housing     2003 Combined         2002 Combined
                   Obligated Balance, Net- beginning of period                        $2,707,322            $33,662,267        $31,626,562
                   Obligated Balance transferred, net (+/-)                                     0                     0                  0
                   Obligated Balance, Net- end of period:
                   Accounts receivable                                                   (23,763)            (1,480,706)        (1,467,731)
                   Unfilled customer order from Federal sources                       (3,190,687)           (10,816,319)        (7,161,002)
                   Undelivered orders                                                  5,560,312             44,735,892         30,611,343
                   Accounts payable                                                      211,954             14,043,988         11,679,657
              Outlays:
                   Disbursements                                                      4,327,417             121,952,521         95,105,359
                   Collections                                                       (2,423,952)            (14,215,073)       (12,099,721)
                   Subtotal                                                          $1,903,465            $107,737,448        $83,005,638
              Less: Offsetting receipts                                                       0                 (95,571)          (184,839)
              Net Outlays                                                            $1,903,465            $107,641,877        $82,820,799

              BUDGETARY RESOURCES
              Budget Authority:
                   Appropriations received                                                    $0                     $0                 $0
                   Borrowing authority                                                         0                      0                  0
                   Contract authority                                                          0                      0                  0
                   Net transfers (+/-)                                                         0                      0                  0
                   Other                                                                       0                      0                  0
              Unobligated balance:
                   Beginning of period                                                         0                   730                691
                   Net transfers, actual (+/-)                                                 0                     0                  0
                   Anticipated Transfers Balances                                              0                     0                  0
              Spending authority from offsetting collections:
                   Earned                                                                      0                      0                 0
                   Collected                                                                   0                    543                39
                   Receivable from Federal sources                                             0                      0                 0
                   Change in unfilled customer orders                                          0                      0                 0
                   Advance received                                                            0                      0                 0
                   Without advance from Federal sources                                        0                      0                 0
                   Anticipated for the rest of year, without advances                          0                      0                 0
                   Transfers from trust funds                                                  0                      0                 0
                   Subtotal                                                                   $0                   $543               $39
              Recoveries of prior year obligations                                             0                      0                 0
              Temporarily not available pursuant to Public Law                                 0                      0                 0
              Permanently not available                                                        0                      0                 0
              Total Budgetary Resources                                                       $0                 $1,273              $730


              The accompanying notes are an integral part of these statements.
                                                                                                                                             General Fund Principal Notes and Statements 181
03GFStatements12-12.qxd        12/12/2003         5:44 PM        Page 182




              Statement of Dissagregated Budgetary Resources
              Department of Defense • Department of the Army, General Fund
              For the Years Ended September 30, 2003 and 2002 ($ in thousands)

                                                                                          Research, Development,    Operation and
                                                                                  Other         Test & Evaluation    Maintenance    Procurement              Military Personnel
              STATUS OF BUDGETARY RESOURCES
              Obligations incurred:
                   Direct                                                           $0                       $0               $0                  $0                            $0
                   Reimbursable                                                      0                        0                0                   0                             0
                   Subtotal                                                         $0                       $0               $0                  $0                            $0
              Unobligated balance:
                   Apportioned                                                    1,273                       0                0                   0                             0
                   Exempt from apportionment                                          0                       0                0                   0                             0
                   Other available                                                    0                       0                0                   0                             0
                   Unobligated Balances Not Available                                 0                       0                0                   0                             0
              Total, Status of Budgetary Resources                               $1,273                      $0               $0                  $0                            $0
              Relationship of Obligations to Outlays:
                   Obligated Balance, Net- beginning of period                      $0                       $0               $0                  $0                            $0
                   Obligated Balance transferred, net (+/-)                          0                        0                0                   0                             0
              Obligated Balance, Net- end of period:
                   Accounts receivable                                               0                         0               0                   0                             0
                   Unfilled customer order from Federal sources                      0                         0               0                   0                             0
                   Undelivered orders                                                0                         0               0                   0                             0
                   Accounts payable                                                  0                         0               0                   0                             0
                   Outlays:
                   Disbursements                                                     0                        0                0                   0                             0
                   Collections                                                    (543)                       0                0                   0                             0
                   Subtotal                                                      ($543)                      $0               $0                  $0                            $0
              Less: Offsetting receipts                                              0                        0                0                   0                             0
              Net Outlays                                                        ($543)                      $0               $0                  $0                            $0




                                                                                                                                    The accompanying notes are an integral part of these statements.
                 182 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd        12/12/2003           5:44 PM        Page 183




                                                                                                                               Statement of Dissagregated Budgetary Resources
                                                                                                                                                                    Department of Defense • Department of the Army
                                                                                                                                                  For the Years Ended September 30, 2003 and 2002 ($ in thousands)

                                                                            Military Construction/
                                                                                  Family Housing     2003 Combined        2002 Combined
              STATUS OF BUDGETARY RESOURCES
              Obligations incurred:
                   Direct                                                                     $0                     $0               $0
                   Reimbursable                                                                0                      0                0
                   Subtotal                                                                   $0                     $0               $0
              Unobligated balance:
                   Apportioned                                                                 0                 1,273               730
                   Exempt from apportionment                                                   0                     0                 0
                   Other available                                                             0                     0                 0
                   Unobligated Balances Not Available                                          0                     0                 0
              Total, Status of Budgetary Resources                                            $0                $1,273              $730
              Relationship of Obligations to Outlays:
                   Obligated Balance, Net- beginning of period                                $0                     $0               $0
                   Obligated Balance transferred, net (+/-)                                    0                      0                0
              Obligated Balance, Net- end of period:
                   Accounts receivable                                                         0                      0                   0
                   Unfilled customer order from Federal sources                                0                      0                   0
                   Undelivered orders                                                          0                      0                   0
                   Accounts payable                                                            0                      0                   0
                   Outlays:
                   Disbursements                                                               0                     0                 0
                   Collections                                                                 0                  (543)              (39)
                   Subtotal                                                                   $0                 ($543)             ($39)
              Less: Offsetting receipts                                                        0                     0                 0
              Net Outlays                                                                     $0                 ($543)             ($39)




              The accompanying notes are an integral part of these statements.
                                                                                                                                              General Fund Principal Notes and Statements 183
03GFStatements12-12.qxd    12/12/2003       5:44 PM      Page 184




              Required Supplementary Information

                                                                                                              Governmental Transactions from the Consolidating Trial Balance

              Schedule, Part A DoD Intragovernmental Asset                               Fund Balance with      Accounts         Loans
                                                                       Treasury Index:                                                       Investments         Other
              Balances ($ Amounts In Thousands)                                              Treasury          Receivable      Receivable
              Executive Office of the President                             11                                        $474
              Department of Agriculture                                     12                                      $1,113
              Department of Commerce                                        13                                        $617
              Department of the Interior                                     14                                       $451
              Department of Justice                                         15                                     $14,861
              Department of Labor                                           16                                          $1
              Navy General Fund                                             17                                     $48,294
              Department of State                                           19                                      $2,692
              Department of the Treasury                                    20                  $55,035,480        $19,848                         $1,231
              Department of Veterans Affairs                                36                                        $589
              General Service Administration                                47                                      $2,383
              Air Force General Fund                                        57                                   $183,527                                           $3,434
              Federal Emergency Management Agency                           58                                        $220
              Environmental Protection Agency                               68                                        $225
              Department of Transportation                                  69                                     $27,310
              Department of Health and Human Services                        75                                       $102
              National Aeronautics and Space Administration                 80                                        $872
              Department of Housing and Urban Development                   86                                         $20
              Department of Energy                                          89                                        $548
              Other Legislative Branch Agencies                              9                                         $28
              Selective Service System                                      90                                      $7,822
              US Army Corps of Engineers                                    96                                      $3,574                                            $445
              Other Defense Organizations General Funds                     97                                   $159,102                                           $1,718
              Other Defense Organizations Working Capital Funds           97-4930                                  $28,073                                         $48,845
              Army Working Capital Fund                                 97-4930.001                                $19,113                                         $28,985
              Air Force Working Capital Fund                            97-4930.003                                 $1,484                                             $47
                   Totals:                                                                      $55,035,480      $523,343                          $1,231           $83,474




                184 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd    12/12/2003     5:44 PM    Page 185




                                                                                                                                 Required Supplementary Information

                                                                                                       Governmental Transactions from the Consolidating Trial Balance

              Schedule, Part B DoD Intragovernmental Entity                                                    Debts/Borrowings From Other
                                                                  Treasury Index:   Accounts Payable                                                    Other
              Liabilities ($ Amounts in Thousands)                                                                       Agencies
              Executive Office of the President                        11                                                                                    $25,424
              Department of Agriculture                                12                                                                                       $328
              Department of Commerce                                   13                                                                                        $19
              Department of the Interior                               14                                                                                         $0
              Department of Justice                                    15                                                                                         $0
              Department of Labor                                      16                                                                                   $354,935
              Navy General Fund                                        17                     $12,315                                                           $325
              Department of State                                      19                                                                                       $925
              Department of the Treasury                               20                                                                                 $1,166,638
              Office of Personnel Management                           24                                                                                    $90,525
              Department of Veterans Affairs                           36                                                                                        $46
              General Service Administration                           47                                                                                         $0
              Air Force General Fund                                   57                     $19,122                                                         $1,482
              Federal Emergency Management Agency                      58                                                                                       $251
              Department of Transportation                             69                                                                                     $1,712
              Department of Health and Human Services                  75                                                                                    $22,525
              National Aeronautics and Space Administration            80                                                                                       $888
              Department of Energy                                     89                                                                                       $111
              Other Legislative Branch Agencies                         9                                                                                        $43
              US Army Corps of Engineers                               96                      $5,451
              Other Defense Organizations General Funds                97                    $130,583                                         $0                $4,109
              Other Defense Organizations Working Capital Funds      97-4930                 $532,101                                                               $1
              Army Working Capital Fund                            97-4930.001               $365,836                                                              $30
              Navy Working Capital Fund                            97-4930.002                $17,241
              Air Force Working Capital Fund                       97-4930.003                 $2,317
                   Totals:                                                                $1,084,966                                         $0         $1,670,317




                                                                                                                          General Fund Principal Notes and Statements 185
03GFStatements12-12.qxd    12/12/2003       5:44 PM      Page 186




              Required Supplementary Information

                                                                                                          Governmental Transactions from the Consolidating Trial Balance

              Schedule, Part C DoD Intragovernmental Revenue and Related Costs ($ Amounts in Thousands)            Treasury Index:              Earned Revenue
              Executive Office of the President                                                                          11                                  $53,969
              Department of Agriculture                                                                                  12                                   $4,781
              Department of Commerce                                                                                     13                                   $2,892
              Department of the Interior                                                                                 14                                   $1,827
              Department of Justice                                                                                      15                                  $65,041
              Department of Labor                                                                                        16                                       $4
              Navy General Fund                                                                                          17                                 $510,392
              Department of State                                                                                        19                                  $60,736
              Department of the Treasury                                                                                 20                                ($111,175)
              Department of Veterans Affairs                                                                             36                                   $2,527
              General Service Administration                                                                             47                                   $8,789
              Air Force General Fund                                                                                     57                               $1,345,832
              Federal Emergency Management Agency                                                                        58                                   $2,143
              Consumer Product Safety Commission                                                                         61                                       $5
              Environmental Protection Agency                                                                            68                                   $1,877
              Department of Transportation                                                                               69                                  $63,554
              Department of Health and Human Services                                                                    75                                  $49,423
              National Aeronautics and Space Administration                                                              80                                  $19,497
              Department of Housing and Urban Development                                                                86                                      $20
              Department of Energy                                                                                       89                                   $4,587
              Other Legislative Branch Agencies                                                                           9                                      $20
              Selective Service System                                                                                   90                                   $3,582
              US Army Corps of Engineers                                                                                 96                                  $27,704
              Other Defense Organizations General Funds                                                                  97                               $3,717,276
              Other Defense Organizations Working Capital Funds                                                       97-4930                               $257,275
              Army Working Capital Fund                                                                             97-4930.001                             $281,652
              Air Force Working Capital Fund                                                                        97-4930.003                              $10,232
              DoD Medicare-Eligible Retiree Health Care Fund                                                                                                $134,546
                   Totals:                                                                                                                               $6,519,008




                186 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd   12/12/2003     5:44 PM    Page 187




                                                                                                                                   Required Supplementary Information

                                                                                                      Governmental Transactions from the Consolidating Trial Balance

              Schedule, Part E DoD Intragovernmental Non-exchange Revenues ($ Amounts in Thousands)         Treasury Index:         Transfers In      Transfers Out
              Executive Office of the President                                                                   11                     $466,000
              Air Force General Fund                                                                              57                     $108,474
              Other Defense Organizations General Funds                                                           97                     $502,457           $10,481
              Army Working Capital Fund                                                                      97-4930.001                  $10,228          $918,816
                   Totals:                                                                                                             $1,087,159          $929,297




                                                                                                                              General Fund Principal Notes and Statements 187
03GFStatements12-12.qxd        12/12/2003        5:44 PM       Page 188




                                                                                                     INSPECTOR GENERAL
                                                                                                    DEPARTMENT OF DEFENSE
                                                                                                      400 ARMY NAVY DRIVE
                                                                                                    ARLINGTON, VIRGINIA 22202

                                                                                                                                                                                                    December 3, 2003

                                                                 MEMORANDUM FOR ASSISTANT SECRETARY OF THE ARMY (FINANCIAL
                                                                             MANAGEMENT AND COMPTROLLER)

                                                                 SUBJECT: Independent Auditor's Report on the Army General Funds Fiscal Year 2003
                                                                          Principal Financial Statements (Report No. D-2004-028)

              The Chief Financial Officers (CFO) Act of 1990, as amended, requires the Inspector General of the Department of Defense to audit the accompanying Consolidated
              Balance Sheet of the Army General Funds as of September 30, 2003 and 2002, and the related Consolidated Statements of Net Cost and Changes in Net Position, the
              Combined Statement of Financing, the Combined Statement of Budgetary Resources, and the Statement of Custodial Activity for the fiscal years then ended. These
              financial statements are the responsibility of Army management. The Army is also responsible for implementing effective internal control and for complying with laws
              and regulations. In addition to our disclaimer of opinion on the financial statements, we are including the required reports on internal control and compliance with
              laws and regulations.

              Disclaimer of Opinion on the Financial Statements
              The Assistant Secretary of the Army (Financial Management and Comptroller) acknowledged to us that (1) Army General Funds financial management systems do not
              substantially comply with Federal financial management systems requirements, generally accepted accounting principles, and the U.S. Government Standard General
              Ledger at the transaction level and (2) Army General Funds financial management and feeder systems cannot provide adequate evidence supporting various material
              amounts on the financial statements. Therefore, we did not perform auditing procedures to support material amounts on the financial statements. In addition, other
              auditing procedures were not performed because Section 1008(d) of the FY 2002 National Defense Authorization Act requires the Inspector General of the Department
              of Defense to perform only the audit procedures required by generally accepted government auditing standards consistent with the representations made by
              management. The material deficiencies also affect the reliability of certain financial information contained in the accompanying Management's Discussion and
              Analysis and certain other information-much of which was taken from the same data sources as the principal financial statements.1 These deficiencies would have
              precluded an audit opinion. As described above, we are unable to express, and we do not express, an opinion on the financial statements and the accompanying
              information.



              1
                  Other information includes the Supporting Consolidating and Combining Financial Statements, the Required Supplementary Stewardship Information, Required Supplementary Information, and Other
                  Accompanying Information.
                           A regular Statement and Account of the Receipts and Expenditures of all public Money shall be published from time to time. —Constitution of the United States Article I, Section 9

                   188 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd         12/12/2003         5:44 PM      Page 189




              Summary of Internal Control
              In planning and performing our audit, we considered Army internal control over financial reporting and compliance. We did this to determine our procedures for
              auditing the financial statements and to comply with Office of Management and Budget guidance but not to express an opinion on internal control. Accordingly, we do
              not express an opinion on internal control over financial reporting and compliance because previously identified reportable conditions,2 all of which are material,
              continue to exist in the following areas:

                            financial management systems;
                            accounting adjustments;
                            intragovernmental transactions and eliminations;
                            Fund Balance with Treasury;
                            Accounts Receivable;
                            Inventory and Related Property;
                            General Property, Plant, and Equipment;
                            Accounts Payable;
                            Other Liabilities;
                            problem disbursements;
                            Statement of Net Cost;
                            Statement of Financing; and
                            Statement of Budgetary Resources.

              A material weakness is a condition that precludes the entity's internal control from providing reasonable assurance that noncompliance, misstatements, or losses that are
              material in relation to the financial statements would be prevented or detected on a timely basis. Our internal control work would not necessarily disclose all material
              weaknesses. See the Attachment for additional details on material internal control weaknesses.




              2
                  Reportable conditions are matters coming to the auditor's attention that, in his or her judgment, should be communicated to management because they represent significant deficiencies in the design or
                  operation of internal control, which could adversely affect the organization's ability to initiate, record, process, and report financial data consistent with the assertions of management in financial
                  statements.
                            A regular Statement and Account of the Receipts and Expenditures of all public Money shall be published from time to time. —Constitution of the United States Article I, Section 9

                                                                                                                                                            General Fund Principal Notes and Statements 189
03GFStatements12-12.qxd    12/12/2003        5:44 PM       Page 190




              Summary of Compliance with Laws and Regulations
              Our work to determine compliance with selected provisions of the applicable laws and regulations was limited because management acknowledged instances of
              noncompliance, and previously reported instances of noncompliance continue to exist. The Army was unable to comply with the requirements of the CFO Act of
              1990, as amended. The Army has acknowledged that many of its financial management and feeder systems do not comply with the requirements of the Federal
              Financial Management Improvement Act (FFMIA) of 1996. The Army was also unable to comply with Government Performance and Results Act requirements
              because it did not have cost accounting systems in place to collect, process, and report operating costs. Therefore, we did not determine whether the Army was in
              compliance with all other applicable laws and regulations related to financial reporting. See the Attachment for additional details on compliance with laws and
              regulations.

              In order for DoD to comply with statutory reporting requirements and applicable financial systems requirements, the Under Secretary of Defense (Comptroller)/Chief
              Financial Officer is developing the DoD-wide Business Enterprise Architecture. DoD anticipates developing and implementing the enterprise architecture by 2007.
              Until the enterprise architecture is fully developed and implemented, the Army will be unable to fully comply with statutory reporting requirements.

              We caution that other noncompliance may have occurred and not been detected. Further, the results of our limited procedures may not be sufficient for other purposes.
              Our objective was not to express an opinion on compliance with applicable laws and regulations.

              Management Responsibility
              Management is responsible for:

                       preparing the financial statements in conformity with generally accepted accounting principles;
                       establishing, maintaining, and assessing internal control to provide reasonable assurance that the broad control objectives of the Federal Managers' Financial
                       Integrity Act of 1982 are met;
                       ensuring that the Army financial management systems substantially comply with FFMIA of 1996 requirements; and
                       complying with applicable laws and regulations.



                                                                                                  Paul J. Granetto, CPA
                                                                                                         Director
                                                                                                Defense Financial Auditing
                                                                                                          Service

              Attachment
              As stated
                       A regular Statement and Account of the Receipts and Expenditures of all public Money shall be published from time to time. —Constitution of the United States Article I, Section 9

                190 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd    12/12/2003     5:44 PM     Page 191




                                                   Reports on Internal Control and Compliance with Laws and Regulations
                                                                                         Internal Control
              Management is responsible for implementing effective internal control and for providing reasonable assurance that accounting data are accumulated, recorded, and
              reported properly; and that assets are safeguarded. We performed reviews of the Army assertions that selected financial statement items were ready for audit and
              followed up on selected deficiencies in internal control over financial reporting identified in prior audit reports. We did not obtain sufficient evidence to support or
              express an opinion on internal control because previously identified reportable conditions, all of which are material, continue to exist. The following material internal
              control weaknesses precluded an audit opinion of the Army General Funds financial statements and significantly impaired the ability of DoD to detect and prevent
              fraud or theft of assets. A high risk of material misstatements will continue to exist until the internal control deficiencies are corrected.

              Financial Management Systems. Army accounting systems lacked a single standard transaction-driven general ledger. In addition, the accounting systems did not
              produce account-oriented subsidiary ledgers, data for physical assets were compiled using “work-around” procedures, and data from management systems were not
              intended and not suitable for financial reporting. Consequently, the audit trails necessary to verify and reconcile account balances were inadequate. The Army also
              needed to upgrade or replace many of its feeder systems so that the requirements of financial statement reporting could be met. The lack of integrated, transaction-
              driven, financial management systems will continue to prevent the Army from preparing auditable financial statements.

              The Army has disclosed its financial management system deficiencies in the footnotes to the Army General Funds financial statements. The Army stated that elements
              of Federal generally accepted accounting principles were not met due to limitations of its financial and non-financial management processes and systems. The Army
              derives its reported values and information for major asset and liability accounts from non-financial feeder systems, such as inventory and logistics systems. Major
              assets include Property, Plant, and Equipment (PP&E) and Inventory and Related Property. The Army generally records transactions on a budgetary basis, similar to a
              cash basis, and not an accrual accounting basis. Budgetary transactions were recorded, for example, in Fund Balance with Treasury, Accounts Receivable, Accounts
              Payable, gross costs, and earned revenues. Until the Army systems are updated, Army financial data will be based on budgetary transactions (obligations,
              disbursements, and collections).

              Accounting Adjustments. Because of inadequate financial management systems and processes, journal voucher adjustments and data calls were used to prepare the
              Army financial statements. The Defense Finance and Accounting Service (DFAS) Indianapolis made unsupported and undocumented adjustments to financial data
              recorded in the departmental general ledger system before the compilation of the financial statements was started. DFAS used these adjustments, called manual
              vouchers, to establish beginning balances for the departmental records implemented in FY 2003. DFAS Indianapolis used the departmental records to maintain
              department-level balances for public Accounts Receivables, contingent liabilities, environmental liabilities, and annual leave liabilities. DFAS Indianapolis prepared 21
              manual vouchers, of which 15 were inadequately documented. In addition, DFAS Indianapolis made $65.7 billion in undocumented adjustments to record Accounts
              Payable for closing appropriations and to remove accounting data provided by field activities that was replaced by data calls.

              In addition, DFAS Indianapolis did not adequately support $268.3 billion in journal voucher adjustments to the general ledger accounts that were used to prepare the
              Army General Funds financial statements. These unsupported adjustments related to specific line items in the financial statements are also discussed under separate
              headings in the remainder of this Attachment. Journal vouchers were not properly prepared, reviewed, and approved. These unsupported adjustments presented a
              material uncertainty regarding the line item balances on the FY 2003 Army General Funds financial statements. DFAS Indianapolis made:

                                                                                                                                  General Fund Principal Notes and Statements 191
03GFStatements12-12.qxd    12/12/2003       5:44 PM      Page 192




                       $207.1 billion in unsupported adjustments to force general ledger accounts to agree with status of appropriation data (or ending balance adjustments) without
                       reconciling the differences or determining which data source was correct;
                       $23.9 billion in unsupported adjustments to correct errors and reclassify amounts to other accounts;
                       $23.1 billion in adjustments to intragovernmental accounts to force the accounts to agree with the records of Army's trading partners; and
                       $14.2 billion in unsupported adjustments to force amounts to agree with other sources of information and records or financial statement lines.

              DFAS Indianapolis also adjusted the status of appropriations data reported by field accounting entities. DFAS Indianapolis uses status of appropriations data for many
              of the financial assets reported on the financial statements; such as, Fund Balance With Treasury and Accounts Receivable. The status of appropriations data are
              maintained by a legacy accounting system, which does not have the ability to establish new beginning balances at the start of the fiscal year. DFAS Indianapolis
              compensates for this deficiency with a “FoxPro” (a software program) application that computes new beginning balances and enters them into the legacy system as an
              accounting adjustment. We examined the $1.0 trillion in beginning balance adjustments and found the support inadequate. We could not determine what portion of the
              adjustment was accurate.

              Intragovernmental Transactions and Eliminations. DoD and Army accounting systems did not capture trading partner data at the transaction level in a manner that
              facilitated trading partner reconciliations, and DoD guidance did not require adequate support for eliminations. In addition, DoD procedures required that buyer-side
              transaction data be forced to agree with seller-side transaction data without performing proper reconciliations. DFAS Indianapolis made $23.1 billion in unsupported
              adjustments to intragovernmental accounts to force the accounts to agree with the records of Army's trading partners. These adjustments caused Accounts Payable on
              the Balance Sheet and the breakout between intragovernmental and public costs on the Statement of Net Cost to be unsupported.

              Fund Balance with Treasury. Cash balances between installation, headquarters, and U.S. Treasury records could not be reconciled. DoD financial systems were not
              integrated; errors in preparation and perpetuation of financial information occurred; and the DoD collection and payment process had weaknesses. DFAS Indianapolis
              increased Fund Balance with Treasury by $423.8 million in unsupported adjustments through the ending balance adjustment for FY 2003.

              Accounts Receivable. DFAS made $1.1 billion in unsupported adjustments to increase the Accounts Receivable balance because of the ending balance adjustment for
              FY 2003. Also, the Army disclosed in its financial statement footnotes that it could not reconcile its $523.3 million intragovernmental Accounts Receivable or make
              proper eliminations.

              Inventory and Related Property. Statements of Federal Financial Accounting Standards (SFFAS) No. 3 requires the use of the consumption method of accounting
              for Operating Materials and Supplies; however, the Army has acknowledged that it uses the standard purchase price to value Operating Materials and Supplies.
              Operating Materials and Supplies in-transit records were not properly closed out, and Operating Materials and Supplies were reported using the purchase method of
              accounting, instead of the consumption method. Inventories were reported at latest acquisition cost because Army systems do not maintain historical data.

              General Property, Plant, and Equipment. SFFAS No. 6 requires that all PP&E be recorded at cost and that depreciation expense be recognized on all general
              PP&E. Depreciation is to be calculated through the systematic and rational allocation of the cost of general PP&E, less the estimated salvage or residual value, over
              the estimated useful life. Army systems were unable to capture the correct acquisition date and cost and could not provide reliable information for reporting account

                192 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd    12/12/2003     5:44 PM    Page 193




              balances and computing depreciation. The Army was unable to support its assertion that personal property was ready for audit because it could not support the
              reported value of personal property. Also, the Army could not support the reported cost of Military Equipment in accordance with generally accepted accounting
              standards due to an absence of detailed cost information. For additional details, see Note 10 to the financial statements.

              Accounts Payable. DFAS made $11.3 billion in unsupported adjustments that increased Accounts Payable balances. The Army disclosed that it could not reconcile
              its $1.1 billion intragovernmental Accounts Payable or make proper eliminations. As a result, DFAS Indianapolis made unsupported adjustments to increase Accounts
              Payable with the public and to decrease intragovernmental Accounts Payable in order to force the amounts to agree with Army's trading partners.

              Other Liabilities. The Army was trying to determine what actions are needed to improve accountability over environmental liabilities. Processes and data used to
              report $26.4 billion in environmental liabilities on Army General Funds financial statements were unreliable. The Army used environmental budgetary estimates as the
              basis for the environmental liabilities reported on the financial statements. However, Army activities did not have effective controls in place to ensure adequate audit
              trails and documentation for estimates; and the Army did not comply with established guidance in developing estimates or have reliable feeder and coordination
              systems. As a result, environmental liabilities on the Balance Sheet and the footnotes are not adequately supported. In addition, the Army had not established controls
              and procedures to express an opinion in its legal representation letter on the likely outcome of 217 pending legal cases or to estimate value of the Government's
              potential monetary loss as required by Office of Management and Budget Bulletin No. 01-02, “Audit Requirement for Federal Financial Statements,” October 16,
              2002. However, some case narratives showed that the Government is seeking settlement, or that settlement is pending. As a result, contingent liabilities on the
              Balance Sheet or the footnotes may be understated. In addition, accrued funded payroll included an unsupported adjustment of $2 billion made to the general ledger
              data.

              Problem Disbursements. Problem disbursements occurred because accounting and finance systems were not integrated, and disbursements were made by
              organizations that were not collocated with the accounting stations. Therefore, errors and delays occurred in posting disbursement data to accounting records. As of
              September 30, 2003, the Army General Funds reported $259.9 million (absolute value) of unmatched disbursements, $26.3 million (net value) of negative unliquidated
              obligations, and $1.1 billion (net value) of in-transit disbursements. These payments and collections have been reported to the Treasury, but have not been recorded in
              the Department's accounting records. This adversely affects expenditure rates and revenue recognition and distorts financial statements.

              Statement of Net Cost. SFFAS No. 4 requires that Federal agencies provide reliable and timely information on the full cost of Federal programs, activities, and
              outputs. DoD entities use the major appropriation categories, as set forth by the Congress, instead of program-level information. This approach does not meet the
              intent of SFFAS No. 4. Appropriation categories are not consistent with DoD performance goals and measures and are inappropriate for the preparation of the
              Statement of Net Cost, which is intended to show the full net cost for entity programs. An appropriation is a funding mechanism that does not record accrued
              expenses, and a program may use more than one appropriation and include non-productive costs allocated to entity programs, such as accrued expenses. The Army
              also used budgetary data to record expenses. Specifically, DFAS made $29.9 billion in unsupported adjustments to force costs to agree with obligation information. In
              addition, Army intragovernmental transactions were not properly accounted for, reported, and appropriately eliminated because DoD did not require trading partner
              reconciliations, and DFAS Indianapolis was unable to reconcile Army intragovernmental transactions with its trading partners. As a result, DFAS Indianapolis made
              unsupported adjustments to increase intragovernmental costs and to decrease cost with the public in order to force buyer-side transaction data to agree with seller-side
              transaction data.


                                                                                                                                General Fund Principal Notes and Statements 193
03GFStatements12-12.qxd    12/12/2003       5:44 PM      Page 194




              Statement of Financing. The Army has acknowledged that budgetary data do not agree with proprietary expenses and assets capitalized. The Army disclosed in the
              notes to the financial statements that an adjustment was made to Gross Cost with the Public on the Statement of Net Cost to bring it into agreement with the Statement
              of Financing. Differences between budgetary and proprietary data for the Army are a previously identified deficiency. Additionally, the Army prepared the Statement
              of Financing on a combined basis instead of the consolidated basis required by OMB Bulletin No. 01-09, “Form and Content of Agency Financial Statements.”

              Statement of Budgetary Resources. DFAS was unable to provide a single database supporting the summary transactions used to prepare the Army Reports on
              Budget Execution and the Army financial statements. In addition, DFAS Indianapolis made $316.1 million in unsupported adjustments to general ledger data used to
              prepare the Statement of Budgetary Resources.

                                                                          Compliance with Laws and Regulations
              Management is responsible for compliance with existing laws and regulations related to financial reporting. Our work to determine compliance with selected
              provisions of the applicable laws and regulations was limited because management acknowledged instances of noncompliance, and previously reported instances of
              noncompliance continued to exist. Therefore, we did not determine whether the Army was in compliance with selected provisions of all applicable laws and
              regulations related to financial reporting. Our objective was not to express an opinion on compliance with applicable laws and regulations.

              Statutory Financial Management Systems Reporting Requirements. The Army is required to comply with the following financial management systems reporting
              requirements. For example, the FFMIA of 1996 requires DoD to establish and maintain financial management systems that comply substantially with the Federal
              financial management systems requirements, applicable Federal accounting standards, and the U.S. Government Standard General Ledger at the transaction level. In
              addition, the Federal Managers' Financial Integrity Act of 1982 requires DoD to evaluate the systems and to annually report whether those systems are in compliance
              with applicable requirements. The CFO Act requires that each agency develop and maintain an integrated agency accounting and financial management system,
              including financial reporting and internal control. The system should comply with internal control standards, applicable accounting principles, standards, and
              requirements and provide for complete, reliable, consistent and timely information.

              The Army acknowledged that many of its critical financial management and feeder systems do not comply substantially with the Federal financial management
              systems requirements, Federal accounting standards, and the U.S. Government Standard General Ledger at the transaction level. The Army is also unable to comply
              with the CFO Act because its financial management systems were not integrated and it has acknowledged that many of its financial management and feeder systems do
              not comply with applicable Federal accounting standards.

              In an attempt to comply with statutory reporting requirements and applicable financial systems requirements in the future, DoD is developing a DoD-wide Business
              Enterprise Architecture. The enterprise architecture is intended to provide a “blueprint” of DoD financial management systems and processes to initiate a
              comprehensive financial management reform effort. Until the architecture is fully developed, the Army will be unable to fully comply with the statutory reporting
              requirements. Therefore, we did not perform tests of compliance for these requirements.

              Government Performance and Results Act (GPRA). The GPRA requires that each Federal agency prepare a strategic plan and annual performance plans and
              reports. Until the DoD-wide financial management enterprise architecture is fully developed, DoD will be unable to fully measure its performance goals related to
              financial and information management. The Army did not comply with GPRA because it did not have cost accounting systems in place to collect, process, and report

                194 Fiscal Year 2003 Army Annual Financial Statement
03GFStatements12-12.qxd   12/12/2003     5:44 PM    Page 195




              operating costs. This resulted in the Army Statement of Net Cost being unable to provide cost-of-operations data that were consistent with GPRA performance goals
              and measures.

                                                                                      Audit Disclosures
              We recognize that there were additional laws and regulations pertinent to Army General Funds financial operations during FY 2003. However, in accordance with
              Public Law 107-107, the “National Defense Authorization Act for Fiscal Year 2002,” we limited our audit scope and performed only the audit procedures required by
              generally accepted government auditing standards consistent with the representations made by the Assistant Secretary of the Army (Financial Management and
              Comptroller) in the April 14, 2003, Engagement Memorandum. Therefore, we did not perform tests of compliance for the following requirements.

                       Antideficiency Act.
                       Provisions Governing Claims of the United States Government.
                       Federal Credit Reform Act of 1990.
                       Pay and Allowance System for Civilian Employees.
                       Prompt Payment Act.

              The Assistant Secretary of the Army (Financial Management and Comptroller) acknowledged in the April 14, 2003, Engagement Memorandum that the Army financial
              management systems could not provide adequate evidence supporting various material amounts on the financial statements. As a result, we were unable to obtain
              adequate evidential matter to form or express an opinion on the financial statements, internal control, and compliance with laws and regulations.

              This report does not include recommendations to correct the material weaknesses and instances of noncompliance because previous audit reports contained
              recommendations for corrective actions.




                                                                                                                             General Fund Principal Notes and Statements 195
03GFStatements12-12.qxd    12/12/2003       5:44 PM      Page 196




                196 Fiscal Year 2003 Army Annual Financial Statement
03WCFStatements12-15.qxd         12/15/2003          5:03 PM         Page 197




                                                                                                                                     Consolidated Balance Sheet
                                                                                                                                     Department of Defense • Department of the Army
                                                                                                                                 As of September 30, 2003 and 2002 ($ in thousands)

              ASSETS (Note 2)                                                    2003 Consolidated           2002 Consolidated
                  Intragovernmental:
                       Fund Balance with Treasury (Note 3)
                            Entity                                                    $1,548,546                     $251,030
                            Non-Entity Seized Iraqi Cash                                       0                            0
                            Non-Entity-Other                                                   0                            0
                       Investments (Note 4)                                                    0                            0
                       Accounts Receivable (Note 5)                                      411,254                      221,978
                       Other Assets (Note 6)                                                 329                           48
                       Total Intragovernmental Assets                                 $1,960,129                     $473,056
                  Cash and Other Monetary Assets (Note 7)                                     $0                           $0
                  Accounts Receivable (Note 5)                                            31,176                       16,419
                  Loans Receivable (Note 8)                                                    0                            0
                  Inventory and Related Property (Note 9)                             12,131,811                   11,319,284
                  General Property, Plant and Equipment (Note 10)                        926,751                    1,250,240
                  Investments (Note 4)                                                         0                            0
                  Other Assets (Note 6)                                                  269,877                      251,298
              TOTAL ASSETS                                                           $15,319,744                  $13,310,297
              LIABILITIES (Note 11)
                   Intragovernmental:
                         Accounts Payable (Note 12)                                     $435,586                     $77,527
                         Debt (Note 13)                                                        0                           0
                         Environmental Liabilities (Note 14)                                   0                           0
                         Other Liabilities (Note 15 & Note 16)                            94,499                     262,039
                         Total Intragovernmental Liabilities                            $530,085                    $339,566
                   Accounts Payable (Note 12)                                           $342,365                    $511,007
                   Military Retirement Benefits and Other Employment-Related             320,654                     304,524
                        Actuarial Liabilities (Note 17)
                   Environmental Liabilities (Note 14)                                         0                            0
                   Loan Guarantee Liability (Note 8)                                           0                            0
                   Other Liabilities (Note 15 & Note 16)                                 231,004                      212,055
                   Debt Held by Public (Note 13)                                               0                            0
              TOTAL LIABILITIES                                                       $1,424,108                   $1,367,152
              NET POSITION
                  Unexpended Appropriations (Note 18)                                    $11,960                      $30,043
                  Cumulative Results of Operations                                    13,883,676                   11,913,102
              TOTAL NET POSITION                                                     $13,895,636                  $11,943,145
              TOTAL LIABILITIES AND NET POSITION                                     $15,319,744                  $13,310,297



              The accompanying notes are an integral part of these statements.
                                                                                                     Army Working Capital Fund Principal Notes and Statements 197
03WCFStatements12-15.qxd        12/15/2003          5:03 PM       Page 198




              Consolidated Statement of Net Costs
              Department of Defense • Department of the Army, Army Working Capital Fund
              For the Years Ended September 30, 2003 and 2002 ($ in thousands)

                                                                                          2003 Consolidated   2002 Consolidated
              Program Costs
                   Intragovernmental Gross Costs                                                $2,651,517          $1,424,466
                   (Less: Intragovernmental Earned Revenue)                                    (10,283,891)         (6,849,906)
                   Intragovernmental Net Costs                                                 ($7,632,374)        ($5,425,440)
                   Gross Costs With the Public                                                   7,334,031           6,358,713
                   (Less: Earned Revenue From the Public)                                         (222,087)           (345,171)
                   Net Costs With the Public                                                    $7,111,944          $6,013,542
                   Total Net Cost                                                                ($520,430)           $588,102
              Cost Not Assigned to Programs                                                              0                   0
              (Less:Earned Revenue Not Attributable to Programs)                                         0                   0
              Net Cost of Operations                                                             ($520,430)           $588,102




                                                                                                                             The accompanying notes are an integral part of these statements.
                 198 Fiscal Year 2003 Army Annual Financial Statement
03WCFStatements12-15.qxd         12/15/2003          5:03 PM         Page 199




                                                                                                                         Consolidated Statement of Changes in Net Position
                                                                                                                                                        Department of Defense • Department of the Army
                                                                                                                                      For the Years Ended September 30, 2003 and 2002 ($ in thousands)

                                                                                 CUMULATIVE RESULTS OF OPERATIONS                 UNEXPENDED APPROPRIATIONS
                                                                                 2003 Consolidated    2002 Consolidated       2003 Consolidated   2002 Consolidated

              Beginning Balances                                                     $11,913,102           $11,767,917                $30,043                     $38,860
              Prior period adjustments (+/-)                                                   0                     0                      0                           0
              Beginning Balances, as adjusted                                        $11,913,102           $11,767,917                $30,043                     $38,860
              Budgetary Financing Sources:
                   Appropriations received                                                     0                     0                249,000                     167,400
                   Appropriations transferred-in/out (+/-)                                     0                     0                      0                           0
                   Other adjustments (rescissions, etc) (+/-)                                  0                     0                      0                           0
                   Appropriations used                                                   267,083               176,217               (267,083)                   (176,217)
                   Nonexchange revenue                                                         0               170,039                      0                           0
                   Donations and forfeitures of cash and cash equivalents                      0                     0                      0                           0
                   Transfers-in/out without reimbursement (+/-)                                0                     0                      0                           0
                   Other budgetary financing sources (+/-)                               (63,903)              202,799                      0                           0
              Other Financing Sources:
                   Donations and forfeitures of property                                       0                     0                      0                           0
                   Transfers-in/out without reimbursement (+/-)                          908,589                74,348                      0                           0
                   Imputed financing from costs absorbed by others                       121,311               109,884                      0                           0
                   Other (+/-)                                                           217,064                     0                      0                           0
              Total Financing Sources                                                 $1,450,144              $733,287               ($18,083)                    ($8,817)
              Net Cost of Operations (+/-)                                              (520,430)              588,102                      0                           0
              Ending Balances                                                        $13,883,676           $11,913,102                $11,960                     $30,043




              The accompanying notes are an integral part of these statements.
                                                                                                                     Army Working Capital Fund Principal Notes and Statements 199
03WCFStatements12-15.qxd        12/15/2003          5:03 PM       Page 200




              Combined Statement of Budgetary Resources
              Department of Defense • Department of the Army, Army Working Capital Fund
              For the Years Ended September 30, 2003 and 2002 ($ in thousands)



              BUDGETARY FINANCING ACCOUNTS                                                    BUDGETARY RESOURCES              NON-BUDGETARY RESOURCES
              BUDGETARY RESOURCES                                                         2003 Combined     2002 Combined    2003 Combined    2002 Combined
              Budget Authority:
                   Appropriations received                                                    $249,000          $167,400              $0                 $0
                   Borrowing authority                                                               0                 0               0                  0
                   Contract authority                                                           67,627            66,607               0                  0
                   Net transfers (+/-)                                                               0                 0               0                  0
                   Other                                                                             0                 0               0                  0
              Unobligated balance:
              Beginning of period                                                            1,708,247          1,505,447              0                   0
                   Net transfers, actual (+/-)                                                       0                  0              0                   0
                   Anticipated Transfers balances                                                    0                  0              0                   0
              Spending authority from offsetting collections:
                Earned                                                                               0                  0              0                  0
                   Collected                                                                 9,644,303          6,145,494              0                  0
                   Receivable from Federal sources                                             236,175            (55,125)             0                  0
                Change in unfilled customer orders                                                   0                  0              0                  0
                   Advance received                                                           (179,239)           128,906              0                  0
                   Without advance from Federal sources                                      2,351,152            177,233              0                  0
                Anticipated for the rest of year, without advances                                   0                  0              0                  0
                Transfers from trust funds                                                           0                  0              0                  0
                Subtotal                                                                   $12,052,391         $6,396,508             $0                 $0
              Recoveries of prior year obligations                                             587,959            403,899              0                  0
              Temporarily not available pursuant to Public Law                                       0                  0              0                  0
              Permanently not available                                                              0                  0              0                  0
              Total Budgetary Resources                                                    $14,665,224         $8,539,861             $0                 $0




                                                                                                                                                  The accompanying notes are an integral part of these statements.
                 200 Fiscal Year 2003 Army Annual Financial Statement
03WCFStatements12-15.qxd         12/15/2003          5:03 PM         Page 201




                                                                                                                                  Combined Statement of Budgetary Resources
                                                                                                                                                          Department of Defense • Department of the Army
                                                                                                                                        For the Years Ended September 30, 2003 and 2002 ($ in thousands)

              NONBUDGETARY FINANCING ACCOUNTS                                        BUDGETARY RESOURCES              NON-BUDGETARY RESOURCES
              STATUS OF BUDGETARY RESOURCES                                      2003 Combined     2002 Combined    2003 Combined    2002 Combined
              Obligations incurred:
                   Direct                                                            $249,028           $171,652             $0                   $0
                   Reimbursable                                                    12,322,493          6,659,961              0                    0
                   Subtotal                                                       $12,571,521         $6,831,613             $0                   $0
              Unobligated balance:
                   Apportioned                                                      2,093,704          1,708,248              0                    0
                   Exempt from apportionment                                                0                  0              0                    0
                   Other available                                                         (1)                 0              0                    0
              Unobligated Balances Not Available                                            0                  0              0                    0
              Total, Status of Budgetary Resources                                $14,665,224         $8,539,861             $0                   $0


              RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
              Obligated Balance, Net - beginning of period                           $918,667         $1,129,489             $0                   $0
              Obligated Balance transferred, net (+/-)                                      0                  0              0                    0
              Obligated Balance, Net - end of period:
                   Accounts receivable                                                (516,379)         (280,204)             0                     0
                   Unfilled customer order from Federal sources                     (4,651,613)       (2,300,462)             0                     0
                   Undelivered orders                                                6,085,073         2,770,002              0                     0
                   Accounts payable                                                    981,250           729,331              0                     0
              Outlays:
                   Disbursements                                                     8,416,571         6,516,428              0                    0
                   Collections                                                      (9,465,064)       (6,274,399)             0                    0
                   Subtotal                                                        ($1,048,493)        $242,029              $0                   $0
              Less: Offsetting receipts                                                      0                 0              0                    0
              Net Outlays                                                          ($1,048,493)        $242,029              $0                   $0




              The accompanying notes are an integral part of these statements.
                                                                                                                       Army Working Capital Fund Principal Notes and Statements 201
03WCFStatements12-15.qxd        12/15/2003          5:03 PM       Page 202




              Combined Statement of Financing
              Department of Defense • Department of the Army, Army Working Capital Fund
              For the Years Ended September 30, 2003 and 2002 ($ in thousands)

              Resources Used to Finance Activities:                                                      2003 Combined        2002 Combined
                   Budgetary Resources Obligated
                   Obligations incurred                                                                   $12,571,521             $6,831,613
                   Less: Spending authority from offsetting collections
                      and recoveries (-)                                                                   (12,640,348)            (6,800,407)
                   Obligations net of offsetting collections and recoveries                                   ($68,827)               $31,206
                   Less: Offsetting receipts (-)                                                                     0                      0
                   Net obligations                                                                            ($68,827)               $31,206
                   Other Resources
                   Donations and forfeitures of property                                                            0                      0
                   Transfers in/out without reimbursement (+/-)                                               908,589                      0
                   Imputed financing from costs absorbed by others                                            121,311                109,884
                   Other (+/-)                                                                                217,064                      0
                   Net other resources used to finance activities                                           1,246,964                109,884
              Total resources used to finance activities                                                   $1,178,137               $141,090

              Resources Used to Finance Items not Part of the Net Cost of Operations
                   Change in budgetary resources obligated for goods,
                   services and benefits ordered but not yet provided
                        Undelivered Orders (-)                                                             ($3,301,433)             $259,206
                        Unfilled Customer Orders                                                             2,171,911               306,139
                   Resources that fund expenses recognized in prior periods                                     (2,765)               (4,133)
                   Budgetary offsetting collections and receipts that                                                0                     0
                       do not affect net cost of operations
                   Resources that finance the acquisition of assets                                          (324,219)               (338,258)
                   Other resources or adjustments to net obligated resources
                        that do not affect net cost of operations
                   Less: Trust or Special Fund Receipts Related to Exchange in the Entity's Budget (-)               0                     0
                   Other (+/-)                                                                                       0                     0
              Total resources used to finance items not part of the net cost of operations                 ($1,456,506)             $222,954

              Total resources used to finance the net cost of operations                                    ($278,369)              $364,044




                                                                                                                          The accompanying notes are an integral part of these statements.
                 202 Fiscal Year 2003 Army Annual Financial Statement
03WCFStatements12-15.qxd         12/15/2003          5:03 PM         Page 203




                                                                                                                Combined Statement of Financing
                                                                                                                           Department of Defense • Department of the Army
                                                                                                         For the Years Ended September 30, 2003 and 2002 ($ in thousands)

              Components of the Net Cost of Operations that will
              not Require or Generate Resources in the Current Period:                2003 Combined             2002 Combined
                    Components Requiring or Generating Resources in Future Periods:
                    Increase in annual leave liability                                      $1,995                       $2,211
                    Increase in environmental and disposal liability                             0                            0
                    Upward/Downward reestimates of credit subsidy expense (+/-)                  0                            0
                    Increase in exchange revenue receivable from the the public (-)         (6,079)                           0
                    Other (+/-)                                                             16,466                        1,128
                    Total components of Net Cost of Operations that                        $12,382                       $3,339
                         will require or generate resources in future periods
                    Components not Requiring or Generating Resources:
                    Depreciation and amortization                                          194,093                     105,065
                    Revaluation of assets or liabilities (+/-)                            (448,536)                    107,703
                    Other (+/-)                                                                  0                       7,951
              Total components of Net Cost of Operations that
              will not require or generate resources                                     ($254,443)                   $220,719
              Total components of net cost of operations that
              will not require or generate resources in the current period               ($242,061)                   $224,058
              Net Cost of Operations                                                     ($520,430)                   $588,102




              The accompanying notes are an integral part of these statements.
                                                                                         Army Working Capital Fund Principal Notes and Statements 203
03WCFStatements12-15.qxd     12/15/2003       5:03 PM     Page 204




              Notes to the Principal Financial Statements
              Note 1. Significant Accounting Policies
              1.A. Basis of Presentation
              These financial statements have been prepared to report the financial position and results of operations of the Army Working Capital Fund (AWCF), as required by the
              Chief Financial Officers Act of 1990, expanded by the Government Management Reform Act of 1994, and other appropriate legislation. The financial statements have
              been prepared from the books and records of the AWCF in accordance with the “Department of Defense (DoD) Financial Management Regulation,” Office of
              Management and Budget (OMB) Bulletin No. 01-09, “Form and Content of Agency Financial Statements,” and to the extent possible Generally Accepted Accounting
              Principles (GAAP). GAAP for federal entities are the standards prescribed by the Federal Accounting Standards Advisory Board (FASAB), which is the official
              accounting standards setting body for the federal government.

              The accompanying financial statements account for all resources for which the AWCF is responsible, except information relative to classified assets, programs, and
              operations has been excluded from the statement or otherwise aggregated and reported in such a manner that it is no longer classified. The term classified means
              information, which, for reasons of national security, is specifically designated by a United States (U.S.) Government Agency for limited or restricted dissemination or
              distribution. The AWCF financial statements are in addition to the financial reports also prepared by the AWCF pursuant to OMB directives that are used to monitor
              and control the AWCF use of budgetary resources.

              The AWCF is unable to fully implement all elements of Federal GAAP and OMB Bulletin No. 01-09 due to limitations of its financial and nonfinancial management
              processes and systems. Reported values and information for the AWCF major asset and liability categories are derived largely from nonfinancial feeder systems, such
              as inventory systems and logistic systems. These systems were designed to support reporting requirements focusing on maintaining accountability over assets and
              reporting the status of federal appropriations rather than preparing financial statements in accordance with Federal GAAP. As a result, the AWCF cannot currently
              implement every aspect of Federal GAAP and OMB Bulletin No. 01-09. The AWCF continues to implement process and system improvements addressing the
              limitations of its financial and nonfinancial feeder systems. The AWCF provides a more detailed explanation of these financial statement elements in the applicable
              footnotes.

              The financial statements should be read with the realization that they are for a component of the United States Government, a sovereign entity. One implication of this
              is that liabilities cannot be liquidated without legislation that provides resources and legal authority to do so.

              The accounting structure of federal agencies is designed to reflect both accrual and budgetary accounting transactions. Under the accrual method of accounting,
              revenues are recognized when earned, and expenses are recognized when incurred, without regard to receipt or payment of cash. The budgetary accounting principles,
              on the other hand, are designed to recognize the obligation of funds according to legal requirements, which in many cases is prior to the occurrence of an accrual-based
              transaction. The recognition of budgetary accounting transactions is essential for compliance with legal constraints and controls over the use of federal funds.

              1.B. Mission of the Reporting Entity
              The AWCF is part of the Defense Working Capital Fund, and is divided into four separate activity groups: Supply Management, Depot Maintenance, Ordnance, and
                204 Fiscal Year 2003 Army Annual Financial Statement
03WCFStatements12-15.qxd    12/15/2003     5:03 PM    Page 205




              Information Services. These separate activities ensure delivery, of critical items such as petroleum products, repair parts, consumable supplies, depot maintenance
              services and information services to support the deployment and projection of lethal force as and when required by the nation.

              1.C. Appropriations and Funds
              The Army's appropriations and funds are divided into the general, working capital (revolving funds), trust, special, and deposit funds. These appropriations and funds
              are used to fund and report how the resources have been used in the course of executing the Army's missions.

              The AWCF (revolving funds) receives their initial working capital through an appropriation or a transfer of resources from existing appropriations or funds and uses
              those capital resources to finance the initial cost of products and services. Financial resources to replenish the initial working capital and to permit continuing
              operations are generated by the acceptance of customer orders. The AWCF operates with financial principles that provide improved cost visibility and accountability to
              enhance business management and improve the decision-making process. The activities provide goods and services on a reimbursable basis. Receipts derived from
              operations generally are available in their entirety for use without further congressional action.

              1.D. Basis of Accounting
              The AWCF generally records transactions on an accrual accounting basis required by Federal GAAP. For FY 2003, the AWCF's financial management systems are
              unable to meet all of the requirements for full accrual accounting. Many of the AWCF's financial and nonfinancial feeder systems and processes were designed and
              implemented prior to the issuance of Federal GAAP for Federal Agencies and, therefore, were not designed to collect and record financial information on the full
              accrual accounting basis as required by Federal GAAP.

              The AWCF has undertaken efforts to determine the actions required to bring all of its financial and nonfinancial feeder systems and processes into compliance with all
              elements of Federal GAAP. One such action is the current revision of its accounting systems to record transactions based on the U.S. Standard General Ledger
              (USSGL). At this time, not all AWCF accounting systems are USSGL compliant. In addition, with the full implementation of the Logistics Modernization Program
              (LMP), the AWCF will be in compliance with Statement of Federal Financial Accounting Standard (SFFAS) No. 4, “Managerial Cost Accounting Concepts and
              Standards for the Federal Government.” As of September 30, 2003, LMP has been implemented at Tobyhanna Army Depot, Communications and Electronics
              Command, Soldiers System Command, and selected Army Materiel Command Headquarter activities. LMP will not be fully implemented until the end of FY 2004.
              Until such time as all of the processes are updated to collect and report financial information as required by Federal GAAP, some of the AWCF's financial data will be
              based on budgetary transactions (obligations, disbursements, collections), and nonfinancial feeder systems. For example, most financial information presented on the
              Statement of Net Costs is based on accrued costs; however, some of the financial information is based on obligations and disbursements.

              In addition, the AWCF identifies programs based upon the major appropriation groups provided by the Congress. The AWCF is in the process of reviewing available
              data and attempting to develop a cost reporting methodology that balances the need for cost information required by the SFFAS No. 4, “Managerial Cost Accounting
              Concepts and Standards for the Federal Government,” with the need to keep the financial statements from being overly voluminous.

              1.E. Revenues and Other Financing Sources
              The AWCF's revenue is recognized according to the percentage of completion method for depot maintenance and ordnance activities. Revenue for supply management
              activities is recognized when an inventory item is sold. Information Services activities recognize revenue at the time the expense is incurred. Prices set for products

                                                                                                                   Army Working Capital Fund Principal Notes and Statements 205
03WCFStatements12-15.qxd     12/15/2003       5:03 PM     Page 206




              and services offered through the AWCF are intended to recover the full costs (cost plus administrative fees) incurred by these activities. Unearned revenue is recorded
              as deferred revenue until earned.

              Other financing sources reported by the AWCF do not include non-monetary support provided by our allies for common defense and mutual security. The U.S. has
              agreements with foreign countries that include both direct and indirect sharing of costs that each country incurs in support of the same general purpose. Examples
              include countries where there is a mutual or reciprocal defense agreement, where U.S. troops are stationed, or where the U.S. fleet is serviced in a port. The DoD is
              reviewing these types of financing and cost reductions in order to establish accounting policies and procedures to identify what, if any, of these costs are appropriate for
              disclosure in the AWCF's financial statements in accordance with Federal GAAP Recognition of support provided by host nations would affect both financing sources
              and expense recognition.

              1.F. Recognition of Expenses
              For financial reporting purposes, the DoD policy requires the recognition of operating expenses in the period incurred. However, because the AWCF's financial and
              nonfinancial feeder systems were not designed to collect and record financial information on the full accrual accounting basis, accrual adjustments are made for major
              items such as payroll expenses, accounts payable, and environmental liabilities. Expenditures for capital and other long-term assets are not recognized as expenses in
              the AWCF's operations until depreciated as in the case of property, plant and equipment (PP&E). Net increases or decreases in unexpended appropriations are
              recognized as a change in the net position. Certain expenses, such as annual and military leave earned but not taken, are recognized in the period in which payments
              are made.

              The AWCF adjusts operating expenses as a result of the elimination of balances between DoD Components. See Note 19.I, Intragovernmental Expenses and Revenue,
              for disclosure of elimination amounts.

              1.G. Accounting for Intra-governmental Activities
              The AWCF, as an agency of the Federal Government, interacts with and is dependent upon the financial activities of the Federal Government as a whole. Therefore,
              these financial statements do not reflect the results of all financial decisions applicable to the AWCF as though the agency was a stand-alone entity.

              The AWCF's proportionate share of public debt and related expenses of the Federal Government are not included. Debt issued by the federal government and the
              related costs are not apportioned to federal agencies. The AWCF's financial statements, therefore do not report any portion of the public debt or interest, nor do the
              financial statements report the source of public financing whether from issuance of debt or tax revenues.

              Financing for the construction of DoD facilities is obtained through budget appropriations. To the extent this financing ultimately may have been obtained through the
              issuance of public debt, interest costs have not been capitalized since the Department of the Treasury does not allocate such interest costs to the benefiting agencies.

              The AWCF's civilian employees participate in the Civil Service Retirement System (CSRS) and the Federal Employees Retirement Systems (FERS). Employees and
              personnel covered by FERS also have varying coverages under Social Security. The AWCF funds a portion of the both retirement systems . Reporting civilian
              pensions under CSRS and FERS is the responsibility of the Office of Personnel Management (OPM). The AWCF recognizes an imputed expense for the portion of
              civilian employee pensions and other retirement benefits funded by the OPM in the Statement of Net Cost. The AWCF also recognizes corresponding imputed

                206 Fiscal Year 2003 Army Annual Financial Statement
03WCFStatements12-15.qxd    12/15/2003     5:03 PM     Page 207




              revenue from the civilian employee pensions and other retirement benefits in the Statement of Changes in Net Position.

              To prepare reliable financial statements, transactions occurring between components or activities within the AWCF must be eliminated for consolidated financial
              reporting purposes. However, the entire Federal Government, including the AWCF, cannot accurately identify all intragovernmental transactions by its related
              components or activities. The Defense Finance and Accounting Service (DFAS) is responsible for eliminating transactions between components or activities of the
              AWCF. Beginning in FY 1999, seller entities within the AWCF provided summary seller-side balances for revenue, accounts receivable, transfers-in/out, and
              unearned revenue to the buyer-side internal AWCF accounting offices. In most cases, the buyer-side records have been adjusted to recognize unrecorded costs and
              accounts payable. The AWCF intragovernmental balances are then eliminated.

              The Department of the Treasury Financial Management Service (FMS) is responsible for eliminating transactions between the DoD and other federal agencies. In
              September 2000, the FMS issued the “Federal Intragovernmental Transactions Accounting Policies and Procedures Guide.” The AWCF was not able to fully
              implement the policies and procedures in this Guide relating to reconciling intragovernmental assets, liabilities, revenues, and expenses for non-fiduciary transactions.
              However, the AWCF was able to implement the policies and procedures contained in the “Intragovernmental Fiduciary Transactions Accounting Guide,” as updated by
              the “Federal Intragovernmental Transactions Accounting Policies and Procedures Guide” issued in October 2002 for reconciling intragovernmental transactions. These
              transactions pertain to Federal Employees' Compensation Act transactions with the Department of Labor (DoL), and benefit program transactions with the OPM.

              1.H. Transactions with Foreign Governments and International Organizations
              Each year, the AWCF sells defense items and services to foreign governments and international organizations, primarily under the provisions of the Arms Export
              Control Act of 1976. Under the provisions of the Act, the DoD has the authority to sell to these foreign entities generally at no profit or loss to the U.S. Government.
              Customers may be required to make payments in advance.

              1.I. Funds with the U.S. Treasury
              The AWCF's financial resources are maintained in U.S. Treasury accounts. DFAS, Military Services, U.S. Army Corp of Engineers (USACE) disbursing stations as
              well as the Department of State financial service centers process the majority of cash collections, disbursements, and adjustments for the Federal Government
              worldwide. Each disbursing station prepares monthly reports, which provide information to the U.S. Treasury on check issues, electronic fund transfers, interagency
              transfers and deposits.

              In addition, the DFAS sites and the USACE Finance Center submit reports to the Department of the Treasury, by appropriation, on interagency transfers, collections
              received, and disbursements issued. The Department of the Treasury then records this information to the applicable Fund Balance with Treasury (FBWT) account
              maintained in the Treasury's system. Differences between the AWCF's and Treasury's records sometime result and are subsequently reconciled. Material disclosures
              are provided in Note 3. Differences between accounting offices' detail-level records and Treasury's FBWT accounts are disclosed in Note 21.B (Disclosures Related to
              Problem Disbursements, In-transit Disbursements and Suspense/Budget Clearing Accounts) specifically, differences caused by in-transit disbursements and unmatched
              disbursements which are not recorded in the accounting offices' detail-level records.

              1.J. Foreign Currency
              Not Applicable

                                                                                                                    Army Working Capital Fund Principal Notes and Statements 207
03WCFStatements12-15.qxd     12/15/2003       5:03 PM     Page 208




              1.K. Accounts Receivable
              As presented in the Balance Sheet, accounts receivable consists of accounts, claims, and refunds owed to the AWCF by other federal agencies and the public. Federal
              accounts receivable arise generally from the provision of goods and services to other federal agencies and, with the exception of occasional billing disputes, are
              considered to be fully collectible. Receivables from the public generally arise from the provision of goods and services to state, local, and foreign governments. An
              allowance for doubtful accounts is established for reporting purposes based on past experience in the collection of accounts receivable and analysis of outstanding
              balances by fund type. The AWCF does not recognize an allowance for estimated uncollectible amounts from other federal agencies. Claims against other federal
              agencies are to be resolved between the agencies. Material disclosures are provided in Note 5.

              1.L. Loans Receivable. As Applicable.
              Not Applicable

              1.M. Inventories and Related Property
              The AWCF's inventories are reported using the Latest Acquisition Cost (LAC), which approximates historical cost, adjusted for holding gains and losses, and Moving
              Average Cost (MAC). The AWCF uses the LAC method because its inventory systems were designed for material management rather than accounting, except for
              activities that have transitioned to the LMP. The systems provide accountability and visibility over inventory items. They do not maintain the exact historical cost
              data necessary to comply with SFFAS No. 3, “Accounting for Inventory and Related Property,” nor can they directly produce financial transactions using the USSGL,
              as required by the Federal Financial Management Improvement Act of 1996.

              The AWCF began transitioning to the LMP during June of FY 2003. The LMP continues to be deployed to all AWCF activities during FY 2004. As such, accounting
              entries were made to reduce various inventory allowance accounts to zero, and to value inventory at adjusted LAC. Therefore, not all of the AWCF's inventory
              reported in the financial statements is valued using the same valuation method. In addition, prior years' audit findings identified uncertainties about the completeness
              and existence of quantities used to produce the reported values of inventories. The AWCF transition to LMP will also allow the use of a MAC methodology for
              valuing inventory that, when fully implemented, will allow the AWCF to comply with SFFAS No. 3 (See Note 9, Inventory and Related Property).

              SFFAS No. 3 distinguishes between inventory held for sale and inventory held in reserve for future sale. There is no management or valuation difference between the
              two USSGL accounts. Further, the DoD manages only military or government-specific material under normal conditions. Items commonly used in and available from
              the commercial sector are not managed in the DoD material management activities. Operational cycles are irregular, and the military risks associated with stock-out
              positions have no commercial parallel. The AWCF holds material based on military need and support for contingencies. Therefore, the AWCF does not attempt to
              account separately for items held for current or future sale.

              The AWCF implemented a new policy in FY 2002 to account for condemned material as excess, obsolete, and unserviceable. The net value of this type of inventory is
              zero, because the costs of disposal are greater than the potential scrap value. Potentially redistributable material, presented in previous years as excess, obsolete, and
              unserviceable, is included in held for use or held for repair categories according to its condition.

              1.N. Investments in U.S. Treasury Securities
              Not Applicable

                208 Fiscal Year 2003 Army Annual Financial Statement
03WCFStatements12-15.qxd    12/15/2003     5:03 PM     Page 209




              1.O. General Property, Plant and Equipment
              General PP&E assets are capitalized at historical acquisition cost plus capitalized improvements when an asset has a useful life of two or more years, and when the
              acquisition cost equals or exceeds the DoD capitalization threshold of $100,000. Also, improvement costs over the DoD capitalization threshold of $100,000 for
              General PP&E are required to be capitalized. All General PP&E, other than land, is depreciated on a straight-line basis. Land is not depreciated.

              Prior to FY 1996, General PP&E with an acquisition cost of $15,000, $25,000, and $50,000 for FY's 1993, 1994, and 1995 respectively, and an estimated useful life of
              two or more years was capitalized. These assets remain capitalized and reported on AWCF financial statements. General PP&E previously capitalized at amounts
              below $100,000 were written off General Fund financial statements in FY 1998.

              For the AWCF activities, all PP&E used in the performance of their mission is categorized as General PP&E, whether or not it meets the definition of any other PP&E
              categories. For Heritage Assets and Stewardship Land owned or maintained on an AWCF installation are reported in the Supplemental Stewardship Report of the
              applicable military department. Material disclosures are provided in Note 10, General PP&E, Net.

              Internal use software is capitalized at cost if the acquisition cost is $100,000 or more. For commercial off the shelf software, the capitalized costs include the amount
              paid to the vendor for the software; for contractor-developed software it includes the amount paid to a contractor to design, program, install, and implement the
              software. Capitalized costs for internally developed software include the full cost (direct and indirect) incurred during the software development stage. The estimated
              useful life for calculating amortization of software is 2 to 5 years using the straight-line method.

              1.P. Advances and Prepayments
              The AWCF records payments made prior to the receipt of goods and services as advances or prepayments and reports them as assets on the Balance Sheet. Advances
              and prepayments are recognized as expenditures and expenses when the related goods and services are received.

              1.Q. Leases
              Generally, lease payments are for the rental of equipment and operating facilities and are classified as either capital or operating leases. When a lease is essentially
              equivalent to an installment purchase of property (a capital lease) the AWCF records the applicable asset and liability if the value equals or exceeds the current DoD
              capitalization threshold. The AWCF records the amounts as the lesser of the present value of the rental and other lease payments during the lease term (excluding
              portions representing executory costs paid to the lessor) or the asset's fair value. The AWCF deems the use of estimates for these costs as adequate and appropriate due
              to the relatively low dollar value of capital leases. Imputed interest was necessary to reduce net minimum lease payments to present value calculated at the incremental
              borrowing rate at the inception of the leases. In addition, the AWCF classifies leases that do not transfer substantially all of the benefits or risks of ownership as
              operating leases and records payment expenses over the lease term.

              1.R. Other Assets
              The AWCF conducts business with commercial contractors under two primary types of contracts--fixed price and cost reimbursable. To alleviate the potential financial
              burden on the contractor that long-term contracts can cause, the AWCF provides financing payments. One type of financing payment that the AWCF makes, for real
              property, is based upon a percentage of completion. In accordance with the SFFAS No. 1, “Accounting for Selected Assets and Liabilities,” such payments are treated
              as construction in process and are reported on the General PP&E line and in Note 10, General PP&E, Net.

                                                                                                                     Army Working Capital Fund Principal Notes and Statements 209
03WCFStatements12-15.qxd     12/15/2003       5:03 PM     Page 210




              In addition, based on the Federal Acquisition Regulation, the AWCF makes financing payments under fixed price contracts that are not based on a percentage of
              completion. The AWCF reports these financing payments as advances or prepayments in the “Other Assets” line item. The AWCF treats these payments as advances
              or prepayments because the AWCF becomes liable only after the contractor delivers the goods in conformance with the contract terms. If the contractor does not
              deliver a satisfactory product, the AWCF is not obligated to reimburse the contractor for its costs and the contractor is liable to repay the AWCF for the full amount of
              the advance.

              The DoD has completed a review of all applicable federal accounting standards; applicable public laws on contract financing; Federal Acquisition Regulation Parts 32,
              49, and 52; and the OMB guidance in 5 Code of Federal Regulations Part 1315, “Prompt Payment.” The DoD has concluded that SFFAS No. 1 does not fully or
              adequately address the subject of progress payment accounting and is considering what further action is appropriate.

              1.S. Contingencies and Other Liabilities
              The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” defines a contingency as an existing condition, situation, or set of circumstances that
              involves an uncertainty as to possible gain or loss to the AWCF. The uncertainty will be resolved when one or more future events occur or fail to occur. A contingency
              is recognized as a liability when a past event or exchange transaction has occurred, a future loss is probable and the amount of loss can be reasonably estimated.

              Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but there is at least a reasonable possibility that a loss or
              additional loss will be incurred. Examples of loss contingencies include the collectibility of receivables, pending or threatened litigation, possible claims and
              assessments. The AWCF's loss contingencies arising as a result of pending or threatened litigation or claims and assessments occur due to events such as aircraft, ship
              and vehicle accidents; medical malpractice; property or environmental damages; and contract disputes.

              1.T. Accrued Leave
              The AWCF reports civilian annual leave and military leave that has been accrued and not used as of the balance sheet date as liabilities. The liability reported at the
              end of the fiscal year reflects the current pay rates. Sick leave and other types of leave are expensed when used and no future liability is recognized for these amounts.

              1.U. Net Position

              Net Position consists of unexpended appropriations and cumulative results of operations. Unexpended appropriations represent amounts of authority, which are
              unobligated and have not been rescinded or withdrawn. Unexpended appropriations also represent amounts obligated for which legal liabilities for payments have not
              been incurred.

              Cumulative results of operations for AWCF represent the excess of revenues over expenses less refunds to customers and returns to the U.S. Treasury since fund
              inception. The AWCF is funded primarily from cumulative results, rather than unexpended appropriations.

              1.V. Treaties for Use of Foreign Bases
              The DoD components have the use of land, buildings, and other facilities, which are located overseas and have been obtained through various international treaties and
              agreements negotiated by the Department of State. The DoD capital assets overseas are purchased with appropriated funds; however, title to land and improvements

                210 Fiscal Year 2003 Army Annual Financial Statement
03WCFStatements12-15.qxd          12/15/2003     5:03 PM      Page 211




              are retained by the host country. Generally, treaty terms allow the DoD Components continued use of these properties until the treaties expire. These fixed assets are
              subject to loss in the event treaties are not renewed or other agreements are not reached which allow for the continued use by the Department. Therefore, in the event
              treaties or other agreements are terminated whereby use of the foreign bases is no longer allowed, losses will be recorded for the value of any non-retrievable capital
              assets after negotiations between the U.S. and the host country have been concluded to determine the amount to be paid the U.S. for such capital investments.

              1.W. Comparative Data
              The Financial Statements and accompanying Notes to the Financial Statements report the financial position and results of operations for the FY 2003. Financial
              statement fluctuations greater than 2 percent of total assets on the Balance Sheet and/or greater than 10 percent between the FY 2002 and the FY 2003, are explained
              within the Notes to the Financial Statements.

              1.X. Unexpended Obligations
              The AWCF obligates funds to provide goods and services for outstanding orders not yet delivered. The financial statements do not reflect this liability for payment for
              goods or services not yet delivered.

              Note 2. Nonentity and Entity Assets
                                                                                                2003                                  2002
               As of September 30                                          Nonentity           Entity              Total          Nonentity Assets
               (Amounts in thousands)
               1. Intra-governmental Assets:
                     A. Fund Balance with Treasury                                     $0        $1,548,546       $1,548,546                         $0
                     B. Investments                                                     0                 0                0                          0
                     C. Accounts Receivable                                             0           411,254          411,254                          0
                     D. Other Assets                                                    0               329              329                          0
                     E. Total Intra-governmental Assets                                $0        $1,960,129       $1,960,129                         $0

               2. Non-Federal Assets:
                    A. Cash and Other Monetary Assets                                  $0                $0               $0                         $0
                    B. Accounts Receivable                                              0            31,176           31,176                          0
                    C. Loans Receivable                                                 0                 0                0                          0
                    D. Inventory & Related Property                                     0        12,131,811       12,131,811                          0
                        E. General Property, Plant and Equipment                        0           926,751          926,751                          0
                        F. Investments                                                  0                 0                0                          0
                    G. Other Assets                                                     0           269,877          269,877                          0
                    H. Total Non-Federal Assets                                        $0       $13,359,615      $13,359,615                         $0

               3. Total Assets:                                                        $0       $15,319,744      $15,319,744                         $0

              4. Other Information:
              The presentation format for this footnote changed in FY 2003. Previously, the prior year comparative data column displayed the total assets. In FY 2003, it displays
              only the prior year nonentity asset balances.

                                                                                                                   Army Working Capital Fund Principal Notes and Statements 211
03WCFStatements12-15.qxd      12/15/2003       5:03 PM      Page 212




              Assets are categorized as:

              Entity assets - resources that the Army Working Capital Fund (AWCF) has the authority to use or where management is legally obligated to use funds to meet entity
              obligations.

              Nonentity asset - assets held by an entity but are not available for use in the operations of the entity. This is not applicable for the AWCF.

              Other Assets - The composition of amounts reported as Intragovernmental Other Assets and Non-federal Other Assets are disclosed in Note 6, Other Assets.

              Note Reference
              For disclosure of changes in individual lines, see:
              Note 3, Fund Balance with Treasury
              Note 5, Accounts Receivable
              Note 6, Other Assets
              Note 9, Inventory
              Note 10, Plant, Property, and Equipment

              Note 3. Fund Balance with Treasury
               As of September 30                                                                 2003                              2002
               (Amounts in thousands)
               1. Fund Balances:
                    A. Appropriated Funds                                                                        $0                                  $0
                    B. Revolving Funds                                                                    1,548,546                             251,030
                    C. Trust Funds                                                                                0                                   0
                    D. Other Fund Types                                                                           0                                   0
                    E. Total Fund Balances                                                               $1,548,546                            $251,030

               2. Fund Balances Per Treasury Versus Agency:
                    A. Fund Balance per Treasury                                                         $1,548,546                            $251,030
                    B. Fund Balance per Army Working Capital Fund                                         1,548,546                             251,030
                    C. Reconciling Amount                                                                        $0                                  $0

              3. Explanation of Reconciliation Amount:

              4. Other Information Related to Fund Balance with Treasury:

              Fluctuations and/or Abnormalities
              The Fund Balance With Treasury (FBWT) available for the Army Working Capital Fund (AWCF) increased in FY 2003 by $1,297,516 thousand or 517 percent, from
              the FY 2002 balance. During FY 2003, the AWCF was allocated $249,000 thousand in appropriated funds to use for under-utilized plant capacity, purchase of war

                 212 Fiscal Year 2003 Army Annual Financial Statement
03WCFStatements12-15.qxd      12/15/2003        5:03 PM        Page 213




              reserves and purchase of spare parts. Interfund credits were reversed, causing an increase in cash of $348,000 thousand. In addition, Army Operation and
              Maintenance purchases of spare parts increased cash $600,000 thousand. Additional funds also were realized from increased sales in support of current military
              operations. Replacement inventory items are in procurement with an expected delivery date in FY 2004 and FY 2005.

              The Intragovernmental Paying and Collecting (IPAC) differences are reconcilable differences that represent amounts recorded by Treasury but not reported by the
              organization. There are no IPAC differences reported for the Army as of FY 2003.

              As of FY 2003, the AWCF has no unsupportable check issue discrepancies.

              The deposit differences are reconcilable differences that represent deposit amounts reported by the Department of the Treasury for the organization. The amount
              applicable to the AWCF cannot be separately identified because the differences are tracked by the disbursing station serial number and not by appropriation. The Army
              has $29 thousand in deposit differences greater than 180 days old as of September 30, 2003, and reports these on the Army General Fund financial statements. The FY
              2003 difference is a posting error by the bank for $22 thousand. Even though the transaction error occurred in September 2003, Treasury's rules post differences based
              on document date. The remaining $7 thousand difference is a duplicate transaction on the Treasury Statement of Accountability (1219). Corrective action for these
              differences is expected in October 2003.

              Note Reference
              See Note 1. I. - Significant Accounting Policies for related disclosures.

              Note 4. Investments
              Not applicable

              Note 5. Accounts Receivable
               As of September 30                                                                    2003                                          2002
               (Amounts in thousands)                                                        Allowance for Estimated   Accounts Receivable,     Accounts
                                                                          Gross Amount Due         Collectibles                Net            Receivable, Net
               1. Intra-governmental Receivables:                               $411,254                        N/A          $411,254               $221,978
               2. Non-Federal Receivables (From the Public):                     $31,176                         $0           $31,176                $16,419
               3. Total Accounts Receivable:                                    $442,430                         $0          $442,430               $238,397

              4. Allowance method:

              5. Other information:

              Fluctuations and/or Abnormalities
              Increased sales from supporting Operation Iraqi Freedom and the implementation of the Single Stock Fund Milestone 3 resulted in an increase of $189,274 thousand or
              85 percent, in intragovernmental accounts receivable for FY 2003. The Single Stock Fund initiative records the movement of materiel from one brigade to another as a

                                                                                                                            Army Working Capital Fund Principal Notes and Statements 213
03WCFStatements12-15.qxd       12/15/2003         5:03 PM       Page 214




              sale and a corresponding receivable. In the past, these movements were recorded as materiel transfers. Over 88 percent of the $14,757 thousand increase in non-
              federal accounts receivable for FY 2003 can be attributed to an increase in contractor debt and Foreign Military Sales.

              Allocation of Undistributed Collections - The DoD policy is to allocate supported undistributed reimbursements between intragovernmental and nonfederal
              categories based on the percentage of each category of receivables. However, the AWCF allocated supported undistributed reimbursements as intragovernmental
              because the majority of supported undistributed reimbursements are from intragovernmental sources. Normally an entity will not collect a reimbursement from a
              nonfederal source for another entity. As of FY 2003, the AWCF reported an abnormal balance of $51,425 thousand in undistributed collections. Reported
              intragovernmental accounts receivables do not include this balance. The balance was eliminated using the reporting entity as the buyer-side trading partner.

              Elimination Adjustments - The AWCF accounting systems do not capture trading partner data at the transaction level in a manner that facilitates trading partner
              aggregations. Therefore, the AWCF was unable to reconcile intragovernmental accounts receivable balances with its trading partners' accounts payable balances. The
              DoD intends to develop long-term systems improvements that will address this issue.

              Intragovernmental Receivables Over 180 Days - Intragovernmental accounts receivable include $24,183 thousand in receivables over 180 days old.

              Non-federal Receivables Over 180 Days - Non-federal accounts receivable includes $13,299 thousand over 180 days old, of this amount, $10,033 thousand was for
              contractor debt.

              Non-federal Refunds Receivable (in thousands)
                      FY 2003 Non-federal                   FY 2003 Non-federal                Percent of
                      Refunds Receivable                Accounts Receivable (Net)             Net Amount
                            $5,380                               $31,176                          17

              Note Reference
              See Note Disclosure 1.K. - Significant Accounting Policies for additional discussion on financial reporting requirements and DoD policies governing Accounts
              Receivable

              Note 6. Other Assets
               As of September 30                                                             2003                            2002
               (Amounts in thousands)
               1. Intra-governmental Other Assets:
                     A. Advances and Prepayments                                                            $329                             $48
                     B. Other Assets                                                                           0                               0
                     C. Total Intra-governmental Other Assets                                               $329                             $48




                 214 Fiscal Year 2003 Army Annual Financial Statement
03WCFStatements12-15.qxd       12/15/2003       5:03 PM      Page 215




               As of September 30                                                                   2003                           2002
               (Amounts in thousands)
               2. Non-Federal Other Assets:
                    A. Outstanding Contract Financing Payments                                             $250,142                         $232,513
                    B. Other Assets (With the Public)                                                        19,735                           18,785
                    C. Total Non-Federal Other Assets                                                      $269,877                         $251,298

               3. Total Other Assets:                                                                      $270,206                         $251,346

              4. Other Information Related to Other Assets:

              Fluctuations and/or Abnormalities
              Intragovernmental advances and prepayments increased by $282 thousand or 591 percent, from the reported FY 2002 balance. This account balance is dictated by
              trading partner reports of unearned revenue made by other DoD entities with the bulk of the balance reported in FY 2002 attributable to the Army General Fund's
              Operations and Maintenance account and in FY 2003 to the Air Force Working Capital Fund.

              Other Assets Non-Federal (in thousands)
              Type of Assets
                   Advances to Others
                   Contractor Advance                                                     $19,418
                   Travel Advances                                                             53
                   Prepayments                                                                231
                   Creditable Material Returns                                                 33
                   Totals                                                                 $19,735

              Advances and Prepayments
              In accordance with DoD elimination guidance, the FY 2003 AWCF intragovernmental advances to others balance increased by $330 thousand to agree with seller-side
              unearned revenue from others on the books of other DoD reporting entities.

              Note Reference
              See Note Disclosure 1. R. - Significant Accounting Policies for related additional disclosures.

              Note 7. Cash and Other Monetary Assets
              Not applicable




                                                                                                                      Army Working Capital Fund Principal Notes and Statements 215
03WCFStatements12-15.qxd     12/15/2003       5:03 PM     Page 216




              Note 8. A. Direct Loan and/or Loan Guarantee Programs
              1. Direct Loan and/or Loan Guarantee Programs: The entity operates the following direct loan and/or
              Loan guarantee program(s):

              Military Housing Privatization Initiative
              Armament Retooling & Manufacturing Support Initiative

              2. Other Information:
              Not applicable

              Note 8.B. Direct Loans Obligated After FY 1991
              Not applicable

              Note 8.C. Total Amount of Direct Loans Disbursed
              Not applicable

              Note 8.D. Subsidy Expense for Post-1991 Direct Loans
              Not applicable

              Note 8.E. Subsidy Rate for Direct Loans
              Not applicable

              Note 8.F. Schedule for Reconciling Subsidy Cost Allowance Balances for Post-1991 Direct Loans
              Not applicable

              Note 8.G. Defaulted Guaranteed Loans from Post-1991 Guarantees
              Not applicable

              Note 8.H. Guaranteed Loans Outstanding
              Not applicable

              Note 8.I. Liability for Post-1991 Loan Guarantees, Present Value
              Not applicable

                216 Fiscal Year 2003 Army Annual Financial Statement
03WCFStatements12-15.qxd       12/15/2003        5:03 PM      Page 217




              Note 8.J. Subsidy Expense for Post-1991 Loan Guarantees
              Not applicable

              Note 8.K. Subsidy Rate for Loan Guarantees
              Not applicable

              Note 8.L. Schedule for Reconciling Loan Guarantee Liability Balances for Post-1991 Loan Guarantees
              Not applicable

              Note 8.M. Administrative Expense
              Not applicable

              Note 9. Inventory and Related Property
               As of September 30                                                                         2003                                2002
               (Amounts in thousands)
               1. Inventory, Net (Note 9.A.)                                                                     $12,131,811                          $11,319,284
               2. Operating Materials & Supplies, Net (Note 9.B.)                                                          0                                    0
               3. Stockpile Materials, Net (Note 9.C.)                                                                     0                                    0
               4. Total                                                                                          $12,131,811                          $11,319,284



              Note 9.A. Inventory, Net
                                                                                                                         2003                                           2002          Valuation
               As of September 30                                                       Inventory, Gross Value      Revaluation Allowance      Inventory, Net       Inventory, Net     Method
               (Amounts in thousands)
               1. Inventory Categories:
                    A. Available and Purchased for Resale                                          $13,073,000                 ($1,847,500)          $11,225,500        $10,160,304    O, LAC
                    B. Held for Repair                                                               1,784,091                    (888,993)              895098            1154180     O, LAC
                    C. Excess, Obsolete, and Unserviceable                                             351,311                    (351,311)                    0                  0     NRV
                    D. Raw Materials                                                                     9,777                           0                  9777                  0       O
                    E. Work in Process                                                                   1,436                           0                  1436               4800     LAC
                    F. Total                                                                       $15,219,615                 ($3,087,804)          $12,131,811        $11,319,284

               Legend for Valuation Methods:
               Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and
               losses
               SP = Standard Price
               AC = Actual Cost


                                                                                                                               Army Working Capital Fund Principal Notes and Statements 217
03WCFStatements12-15.qxd     12/15/2003       5:03 PM     Page 218




              2. Restrictions of Inventory Use, Sale, or Disposition:
              There are no restrictions on the use, sale, or disposition of inventory except in the following situations:
              1) Distributions without reimbursement are made when authorized by DoD directives;

              2) War reserve materiel includes petroleum products and subsistence items that are considered restricted; and

              3) Inventory, with the exception of safety stocks, may be sold to foreign, state and local governments; private parties; and contractors in accordance with current
                 policies and guidance or at the direction of the President.

              3. Other Information:

              Definitions
              Other- Moving Average Cost (MAC)

              Inventory - spare and repair parts, clothing and textiles, petroleum products, and ammunition.

              Inventory held for repair - damaged materiel that requires repair to make it usable.

              Excess, obsolete, and unserviceable inventory - condemned materiel that must be retained for management purposes.

              Raw materials - items consumed in the production of goods for sale or in the provision of services for a fee.

              Work in process - munitions in production and maintenance work with its associated labor, applied overhead, and supplies used in the delivery of maintenance services.

              Future Sales
              In addition to the account balances shown in Table 9.A., Federal Generally Accepted Accounting Principles require disclosure of the amount of inventory held for
              future sale. The Army Working Capital Fund (AWCF) estimates that $111,600 thousand of the Inventory Held for Sale will be sold more than 24 months after the end
              of FY 2003.

              Fluctuations and/or Abnormalities
              The Inventory Available and Purchased for Resale increased $1,065,196 thousand or 10 percent, during FY 2003. The increase is attributed to a direct appropriation of
              $189,000 thousand for the purpose of procuring additional inventory. In addition, the AWCF received a transfer of inventory from the Army General Fund of $918,800
              thousand as part of the Single Stock Fund Milestone 3 implementation.

              The inventory reported as Available and Purchased for Resale includes a net upward adjustment of $1,559,912 thousand to bring financial records into agreement with
              the logistics records in the Commodity Command Standard System. The Defense Finance and Accounting Service plans to implement new procedures in FY 2004 to
              reconcile the financial and logistics records on a daily basis.

                218 Fiscal Year 2003 Army Annual Financial Statement
03WCFStatements12-15.qxd    12/15/2003     5:03 PM    Page 219




              The Inventory Held for Repair decreased $259,081 thousand or 22 percent, during FY 2003. The decrease is a result of the AWCF receiving additional obligation
              authority to repair parts and increase the Inventory Available and Purchased for Resale.

              Raw Materials increased from zero to $9,777 thousand. The AWCF is reporting this category of inventory for the first time in FY 2003 as a result of activities
              transitioning to LMP. These items were previously reported as Available and Purchased for Resale.

              Work in Process decreased $3,364 thousand or 70 percent during FY 2003, at Watervliet Arsenal. The nature of Watervliet's work performed this year in support of
              military operations resulted in delivery of more items and less carry over of work for FY 2004.

              Logistics Modernization Program
              The AWCF began transitioning to the Logistics Modernization Program (LMP) during June FY 2003. As such, accounting entries were made at those activities to
              reduce various inventory allowance accounts (unrealized holding gains) to zero prior to loading the inventory at MAC in LMP. As a result of this transition, the
              adjusting entries normally performed to convert inventory to LAC value were not made. The reported inventory balances include entries to close all inventory
              allowance accounts (Unrealized Holding Gains) resulting in an increase of $973,400 thousand to the inventory on hand. Therefore, not all of the AWCF's inventory
              reported in Note 9 is valued under the same method. Inventory at Tobyhanna Army Depot, Communications and Electronics Command, and Soldiers System
              Command is valued at MAC, with the exception of Tobyhanna's Project Stock, while the remainder of inventory is valued at LAC.

              In addition, the AWCF inventory also decreased during the transition of several AWCF activities to LMP. The initial MAC value established in LMP was lower than
              the initial inventory value migrating from the Commodity Command Standard System (CCSS). The primary cause of the decrease is from the change from LAC to
              MAC. However, additional differences were identified at the time the statements were prepared, but the amounts could not be reconciled between the two systems.

              Note 9.B. Operating Materials and Supplies, Net
              Not applicable

              Note 9.C. Stockpile Materials, Net
              Not applicable




                                                                                                                  Army Working Capital Fund Principal Notes and Statements 219
03WCFStatements12-15.qxd          12/15/2003        5:03 PM       Page 220




              Note 10. General PP&E, Net
                                                                                                                          2003                                                       2002
                                                                                Depreciation/                                          (Accumulated Depreciation/   Net Book   Prior FY Net Book
               As of September 30                                             Amortization Method   Service Life   Acquisition Value         Amortization)           Value            Value
               (Amounts in thousands)
               1. Major Asset Classes:
                    A. Land                                                          N/A                N/A                       $0                          N/A         $0             $10,254
                    B. Buildings, Structures, and Facilities                         S/L             20 Or 40              1,773,572                  (1,219,745)    553,827             591,647
                    C. Leasehold Improvements                                        S/L            lease term                95,320                     (70,639)     24,681              27,394
                    D. Software                                                      S/L             2-5 Or 10               187,431                     (99,204)     88,227             137,368
                    E. Equipment                                                     S/L              5 Or 10              1,551,230                  (1,334,636)    216,594             446,268
                    F. Assets Under Capital Lease [1]                                S/L            lease term                     0                           0           0                   0
                    G.Construction-in-Progress                                       N/A                N/A                   42,928                          N/A     42,928              37,299
                    H. Other                                                                                                     494                           0         494                  10
                    I. Total General PP&E                                                                                 $3,650,975                 ($2,724,224)   $926,751          $1,250,240

               [1]
                     Note 15.B for additional information on Capital Leases
                       Legend for Valuation Methods:
                       S/L = Straight Line       N/A = Not Applicable
              2. Other Information:
              Land - During FY 2003 a policy decision was published stating that the preponderance of use principle did not apply to land and that all land should be on the books of
              the Army General Fund. As a result of this change, the AWCF transferred $10,254 thousand in land to the Army General Fund.

              Leasehold Improvements - The entire amount shown on this line is for improvements made to facilities at Corpus Christi Army Depot (CCAD). CCAD uses facilities
              on a Navy installation as a tenant with an ownership code on the real property records of Permit, Military. Improvements made on these facilities are recorded as
              leasehold improvements.

              Software - Software decreased $49,141 thousand or 35 percent in FY 2003. The majority of the decrease is from the annual recording of depreciation.

              Equipment - Equipment decreased in FY 2003 by $229,674 thousand or 51 percent. The decrease in value is due to additional depreciation recorded from the
              equipment review conducted at Watervliet (approximately $94,000 thousand), and from the annual recording of depreciation for the remaining equipment.

              Construction in Progress - All maintenance and ordnance depots received capital improvement program funding for FY 2003. The majority of the increase in
              construction in progress was realized by Tobyhanna and Crane Army Depots for capital equipment replacement and minor construction projects.

              Other - The balance shown on the Other line was reported in error at Tobyhanna Army Depot. Correcting entries will be processed in FY 2004.

              Note Reference
              See Note Disclosure 1.O. - Significant Accounting Policies for additional discussion on financial reporting requirements and DoD policies governing general property,
              plant and equipment (PP&E)

                     220 Fiscal Year 2003 Army Annual Financial Statement
03WCFStatements12-15.qxd        12/15/2003         5:03 PM     Page 221




              Note 10.A. Assets Under Capital Lease
              Not applicable

              Note 11. Liabilities Not Covered and Covered by Budgetary Resources
               As of September 30                                                                              2003                                                2002
               (Amounts in thousands)                                        Covered by Budgetary        Not Covered by Budgetary         Total          Not Covered by Budgetary


               1. Intra-governmental Liabilities:
                     A. Accounts Payable                                                      $435,586                             $0      $435,586                              $0
                     B. Debt                                                                         0                              0             0                               0
                     C. Environmental Liabilities                                                    0                              0             0                               0
                     D. Other                                                                   66,675                         27,824        94,499                          28,337
                     E. Total Intra-governmental Liabilities                                  $502,261                        $27,824      $530,085                         $28,337

               2. Non-Federal Liabilities:
                    A. Accounts Payable                                                       $342,365                             $0      $342,365                              $0
                    B. Military Retirement Benefits and                                              0                        320,654       320,654                         304,524
                    Other Employment-Related Actuarial Liabilities
                    C. Environmental Liabilities                                                     0                              0             0                               0
                    D. Loan Guarantee Liability                                                      0                              0             0                               0
                    E. Other Liabilities                                                       231,004                              0       231,004                               0
                    F. Total Non-Federal Liabilities                                          $573,369                       $320,654      $894,023                        $304,524

               3. Total Liabilities:                                                       $1,075,630                        $348,478     $1,424,108                       $332,861

              4. Other Information:
              Reporting requirements for this note changed in FY 2003. The FY 2002 Note 11 comparison was total Liabilities Covered and Uncovered by Budgetary Resources. In
              FY 2003, the comparison is only for Liabilities Not Covered by Budgetary Resources. Also, in FY 2002, the Not Covered by Budgetary column contained both
              covered and not covered liabilities, while the Covered by Budgetary Resources column contained funded liabilities. In FY 2003, the covered liabilities are included
              with the funded liabilities in the Covered by Budgetary Resources column. In FY 2002 the Not Covered by Budgetary Resources - Intragovernmental Liabilities:
              Other balance contained $21,789 thousand for FECA covered liabilities and $28,337 thousand for FECA not covered liabilities. The balance of $27,824 thousand
              shown for FY 2003 reflects only the liability for FECA not covered. The FECA covered balance is reported on the same line as Covered by Budgetary Resources.
              The FY 2002 balance for Not Covered by Budgetary Resources - Non-federal Liabilities: Other Liabilities reflects a balance of $73,362 thousand for annual leave
              covered liabilities. In FY 2003 the annual leave covered liabilities are included in the same line under Covered by Budgetary Resources.

              Covered Liabilities - unobligated liabilities covered by budgetary resources.

              Funded Liabilities - obligated liabilities covered by budgetary resources.


                                                                                                                    Army Working Capital Fund Principal Notes and Statements 221
03WCFStatements12-15.qxd       12/15/2003      5:03 PM     Page 222




              Liabilities Not Covered by Budgetary Resources - liabilities not covered by realized budgetary resources as of the balance sheet date.

              Liabilities Covered by Budgetary Resources - liabilities incurred by the reporting entity which are covered by realized budget resources as of the balance sheet date.
              Budgetary resources encompass not only new budget authority, but also other resources available to cover liabilities for specified purposes in a given year. Available
              budgetary resources include:

              1. New budget authority

              2. Spending authority from offsetting collections (credited to an appropriation or fund account)

              3. Recoveries of unexpired budget authority through downward adjustments of prior year obligations

              4. Unobligated balances of budgetary resources at the beginning of the year or net transfers of prior year balances during the year

              5. Permanent indefinite appropriations or borrowing authority, which have been enacted and signed into law as of the balance sheet date, provided that the resources
                 may be apportioned by the Office of Management and Budget without further action by the Congress or without a contingency first having to be met.

              Other Liabilities (Amounts in thousands):
              Intragovernmental - Other Liabilities                                              Covered          Not Covered
                    Advances From Others                                                         $32,674                   $0
                    FECA Reimbursement to the Dept of Labor                                       22,637               27,824
                    Employers share of VSIP                                                          630                    0
                    Employers share of CSRS/FERS, FEGLI, and FEHB                                 10,734                    0
              Total                                                                              $66,675              $27,824

              Non-Federal -Other Liabilities
                    Accrued Funded Payroll and Benefits                                          $84,525                   $0
                    Advances From Others                                                          33,421                    0
                    Accrued Unfunded Annual Leave                                                 72,592                    0
                    Withholdings                                                                     805
                    Contract Holdbacks                                                            31,751                    0
                    Employers Contribution to TSP and Taxes Payable                                7,910                    0
              Total                                                                             $231,004                   $0

              Total Other Liabilities                                                           $297,679              $27,824




                 222 Fiscal Year 2003 Army Annual Financial Statement
03WCFStatements12-15.qxd       12/15/2003        5:03 PM   Page 223




              Legend:
                  FECA - Federal Employees Contribution Act
                  VSIP - Voluntary Separation Incentive Pay
                  CSRS - Civil Service Retirement System
                  FERS - Federal Employees Retirement System
                  FEGLI - Federal Employees Group Life Insurance
                  FEHB - Federal Employees Health Benefits
                  TSP - Thrift Savings Plan

              The FECA reimbursement liability is classified as covered or not covered by budgetary resources based on the date the liability is due to be paid. If the liability is due
              to be paid within one year, it is considered in the rates for the current year and is therefore covered by budgetary resources. If the liability is not due within a year, it is
              not considered in the rates for the current year and is therefore not covered by budgetary resources. The FECA liability is due in October each year. The covered
              portion is due in October 2003, while the not covered portion is due in October 2004. Only the Depot Maintenance and Ordnance business areas report a FECA
              liability. Only Depot Maintenance and Ordnance have host installations responsible for paying Worker's Compensation. Supply Management, Army and Information
              Services activities are made up of selected personnel at other installations.

              Note Reference
              For Additional Line Item discussion, see:
              Note 12, Accounts Payable
              Note 15, Other Liabilities
              Note 17, Military Retirement Benefits and Other Employment Related Actuarial Liabilities

              Note 12. Accounts Payable
                                                                                                    2003                                         2002
                                                                                                Interest, Penalties, and
               As of September 30                                      Accounts Payable           Administrative Fees            Total           Total
               (Amounts in thousands)

               1. Intra-governmental Payables:                                     $435,586                N/A                   $435,586           $77,527
               2. Non-Federal Payables (to the Public):                            $342,365                                $0    $342,365          $511,007
               3. Total                                                            $777,951                                $0    $777,951          $588,534

              4. Other Information:

              Definitions
              Intragovernmental Payables - amounts owed to other federal agencies for goods or services ordered and received but not yet paid. Interest, penalties and administrative
              fees are not applicable to intragovernmental payables.

                                                                                                                            Army Working Capital Fund Principal Notes and Statements 223
03WCFStatements12-15.qxd     12/15/2003       5:03 PM     Page 224




              Nonfederal Payables (to the Public) - payables for debts owed to individuals and entities outside the Federal Government.

              Fluctuation and/or Abnormalities
              Total Intragovernmental Payables increased in FY 2003 by $358,060 thousand or 462 percent. The change is due, partially to increased purchases of goods and
              services from the Defense Logistics Agency (DLA), as the AWCF payables with them increased $368,219 thousand.

              The DoD summary level seller accounts receivable balances were compared to the AWCF payable balances. As a result of this comparison, adjusting entries were
              entered to increase the AWCF's payables $35,861 thousand. Although it appears the increased activity with DLA affected the adjusting entry, this increase cannot be
              attributed to a single AWCF trading partner, as information is not available to perform a complete reconciliation at that level. For the majority of intragovernmental
              sales, the AWCF's accounting systems do not capture trading partner data at the transaction level in a manner that facilitates trading partner aggregations. Therefore,
              the AWCF was unable to reconcile it intragovernmental payables with its trading partner's receivables. The DoD intends to develop long-term systems improvements
              that will address this issue.

              Non-federal Payables decreased in FY 2003 by $168,641 thousand or 33 percent. The majority of the decrease was in the Supply Management business area as a result
              of the Army Materiel Command performing a review and clean up of aged payables prior to its transitioning to the Logistics Modernization Program (LMP).

              Undistributed disbursements are the difference between disbursements recorded in the activity field records of the AWCF versus those reported by the U.S. Treasury.
              Non-federal Payables decreased in FY 2003 by $123,628 thousand for these payments.

              The DoD policy is to allocate supported undistributed disbursements between intragovernmental and nonfederal categories based on the percentage of each category of
              payables. However, the AWCF allocated supported undistributed disbursements as non-federal because the majority of supported undistributed disbursements were for
              payments made to contractors. Unsupported undistributed disbursements should be recorded in United States Standard General Ledger account 2120, Disbursements
              in Transit. The AWCF's total amount of unsupported undistributed disbursements for FY 2003 is an abnormal debit balance of $63,286 thousand.

              For the majority of intra-agency sales the AWCF's accounting systems do not capture trading partner data at the transaction level in a manner that facilitates trading
              partner aggregations. Therefore, the AWCF was unable to reconcile its intragovernmental payables with its trading partners receivables.

              Note Reference
              See Note 1.G. - Significant Accounting Policies for additional discussion on financial reporting requirements and DoD policies governing accounting for
              intragovernmental activities.

              Note 13. Debt
              Not applicable

              Note 14. Environmental Liabilities and Disposal Liabilities
              Not applicable
                224 Fiscal Year 2003 Army Annual Financial Statement
03WCFStatements12-15.qxd       12/15/2003        5:03 PM       Page 225




              Note 15.A. Other Liabilities
               As of September 30                                                                                         2003                                       2002
               (Amounts in thousands)                                                     Current Liability            Noncurrent Liability        Total             Total
               1. Intra-governmental:
                     A. Advances from Others                                                             $32,673                              $0     $32,673             $204,748
                     B. Deferred Credits                                                                       0                               0           0                    0
                     C. Deposit Funds and Suspense Account Liabilities                                         0                               0           0                    0
                     D. Resources Payable to Treasury                                                          0                               0           0                    0
                     E. Disbursing Officer Cash                                                                0                               0           0                    0
                     F. Nonenvironmental Disposal Liabilities:
                          (1) National Defense PP&E (Nonnuclear)                                               0                              0            0                    0
                          (2) Excess/Obsolete Structures                                                       0                              0            0                    0
                          (3) Conventional Munitions Disposal                                                  0                              0            0                    0
                          (4) Other                                                                            0                              0            0                    0
                     G. Accounts Payable-- Cancelled Appropriations                                            0                              0            0                    0
                     H . Judgement Fund Liabilities                                                            0                              0            0                    0
                     I. FECA Reimbursement to the Department of Labor                                     22,638                         27,824       50,462               50,126
                     J. Capital Lease Liability                                                                0                              0            0                    0
                     K. Other Liabilities                                                                 11,364                              0       11,364                7,165
                     L. Total Intra-governmental Other Liabilities                                       $66,675                        $27,824      $94,499             $262,039

               2. Non-Federal:
                    A. Accrued Funded Payroll and Benefits                                               $85,330                              $0     $85,330                 $71,914
                    B. Advances from Others                                                               33,421                               0      33,421                  31,279
                    C. Deferred Credits                                                                        0                               0           0                       0
                    D. Loan Guarantee Liability                                                                0                               0           0                       0
                    E. Liability for Subsidy Related to Undisbursed Loans                                      0                               0           0                       0
                    F. Deposit Funds and Suspense Accounts                                                     0                               0           0                       0
                    G. Temporary Early Retirement Authority                                                    0                               0           0                       0
                    H. Nonenvironmental Disposal Liabilities:
                         (1) National Defense PP&E (Nonnuclear)                                                0                              0            0                    0
                         (2) Excess/Obsolete Structures                                                        0                              0            0                    0
                         (3) Conventional Munitions Disposal                                                   0                              0            0                    0
                         (4) Other                                                                             0                              0            0                    0
                    I. Accounts Payable--Cancelled Appropriations                                              0                              0            0                    0
                    J. Accrued Unfunded Annual Leave                                                      72,592                              0       72,592               73,362
                    K. Accrued Entitlement Benefits for Military Retirees and Survivors                        0                              0            0                    0
                    L. Capital Lease Liability                                                                 0                              0            0                    0
                    M. Other Liabilities                                                                  39,661                              0       39,661               35,500
                    N. Total Non-Federal Other Liabilities                                              $231,004                             $0     $231,004             $212,055
               3. Total Other Liabilities:                                                              $297,679                        $27,824     $325,503             $474,094

              4. Other Information Pertaining to Other Liabilities:

                                                                                                                   Army Working Capital Fund Principal Notes and Statements 225
03WCFStatements12-15.qxd     12/15/2003       5:03 PM     Page 226




              Fluctuations and/or Abnormalities
              The primary cause of the $172,075 thousand or 84 percent, decrease in the Intragovernmental Advances from Others in FY 2003, is the complete payback of a FY
              2002 advance from the Army Ammunition Procurement account. By June 2002, the fund balance available for the operations of the Army Working Capital Fund
              (AWCF) fell to a level that posed the possibility of an Anti-Deficiency Act violation. To alleviate this problem, the Under Secretary of Defense authorized the AWCF
              to bill unfilled project orders in advance. Included in the September 2002 Advances From Others is $200,000 thousand in advance billings against unfilled project
              orders in the Depot Maintenance and Ordnance activity groups

              Intragovernmental Other Liabilities increased $4,199 thousand or 59 percent, in FY 2003. The increase is in payroll fringe benefits and is a result of increased hiring
              and overtime to support current military operations

              The Federal Employment Compensation Act (FECA) is administered by the Department of Labor (DOL), Office of Workers' Compensation Programs. Workers'
              Compensation claims are submitted to and approved by the DOL. The DOL pays the claim holders and prepares a chargeback billing to the AWCF. The FECA law,
              P.L. 93-416, Section 8147, essentially gives agencies two years to pay the chargeback bill; thereby allowing time for the applicable amount to be included in budget
              submissions. Pursuant to the FECA law, funding should be paid within 30 days. The current liability of $22,638 thousand is payable in October 2003, while the
              noncurrent liability of $27,824 thousand is payable in October 2004. Only the Depot Maintenance and Ordnance business areas report a FECA liability, as they are
              host installations responsible for paying Workers' Compensation. Supply Management and Information Services activities are made up of selected personnel at other
              installations.

              Accrued Funded Payroll and Benefits increased in FY 2003 by $13,416 thousand or 19 percent. This is primarily due to increased hiring and overtime to support
              current military operations.

              Non-federal Other Liabilities increased $4,161 thousand or 12% in FY 2003. Contract Holdbacks increased during FY 2003 as a result of additional purchases for
              inventory.

              Other Liabilities (Amounts in Thousands):
                                                                                 FY 2003                      FY 2002
              Intragovernmental - Other Liabilities
                   VSIP                                                             $630                          $31
                   CSRS, FERS, FEGLI, FEHB                                       $10,734                       $7,134
              Total Intragovernmental Other Liabilities                          $11,364                       $7,165

              Non-Federal -Other Liabilities
                   Contract Holdbacks                                            $31,751                      $20,912
                   Employers Contributions to TSP and Taxes Payable                7,910                       14,588
              Total Non-Federal Other Liabilities                                $39,661                      $35,500
              Total Other Liabilities                                            $51,025                      $42,665

                226 Fiscal Year 2003 Army Annual Financial Statement
03WCFStatements12-15.qxd       12/15/2003        5:03 PM     Page 227




              Legend: VSIP - Voluntary Separation Incentive Pay
                      CSRS - Civil Service Retirement System
                      FERS - Federal Employees Retirement System
                      FEGLI - Federal Employees Group Life Insurance
                      FEHB - Federal Employees Health Benefits
                      TSP - Thrift Savings Plan

              Note Reference
              See Note Disclosure 1. S. - Significant Accounting Policies for additional discussion on financial reporting requirements and DoD policies governing Contingencies
              and Other Liabilities.

              Note 15.B. Capital Lease Liability
              Not applicable

              Note 16. Commitments and Contingencies
              Disclosures Related to Commitments and Contingencies:
              There are no contingent liabilities for disclosure for FY 2003. The liability disclosed in FY 2002 is no longer a potential loss to the Army Working Capital Fund.

              Note 17. Military Retirement Benefits and Other Employment Related Actuarial Liabilities
                                                                                                                                2003                                                     2002
                                                                                    Actuarial Present Value of    Assumed Interest (Less: Assets Available to Unfunded Actuarial   Unfunded Actuarial
               As of September 30                                                    Projected Plan Benefits          Rate (%)           Pay Benefits)             Liability            Liability
               (Amounts in thousands)
               1. Pension and Health Benefits:
                    A. Military Retirement Pensions                                                          $0                                           $0                $0                      $0
                    B. Military Retirement Health Benefits                                                    0                                            0                 0                       0
                    C. Medicare-Eligible Retiree Benefits                                                     0                                            0                 0                       0
                    D. Total Pension and Health Benefits                                                     $0                                           $0                $0                      $0

               2. Other:
                    A. FECA                                                                           $320,654         3.84                               $0         $320,654                 $304,524
                    B. Voluntary Separation Incentive Programs                                               0                                             0                0                        0
                    C. DoD Education Benefits Fund                                                           0                                             0                0                        0
                    D.                                                                                       0                                             0                0                        0
                    E. Total Other                                                                    $320,654                                            $0         $320,654                 $304,524

               3. Total Military Retirement Benefits and Other Employment Related
               Actuarial Liabilities:                                                                 $320,654                                            $0         $320,654                 $304,524


                                                                                                                                Army Working Capital Fund Principal Notes and Statements 227
03WCFStatements12-15.qxd      12/15/2003        5:03 PM    Page 228




              4. Other Information Pertaining to Military Retirement Benefits and Other Employment-Related Actuarial Liabilities:
              Actuarial Cost Method Used:
              Assumptions:
              Market Value of Investments in Market-based and Marketable Securities:

              Military Retirement Benefits
              Army General Fund appropriations pay the military retirement benefits.

              Federal Employment Compensation Act (FECA)
              The Department of the Army's actuarial liability for workers' compensation benefits is developed by the Department of Labor and provided to the Army at the end of
              each fiscal year. The liability includes the expected liability for death, disability, medical, and miscellaneous costs for approved compensation cases. The liability is
              determined using a method that utilizes historical benefit payment patterns to predict the ultimate payments. The projected annual benefit payments are then
              discounted to the present value using the Office of Management and Budget's (OMB's) economic assumptions for 10-year U.S. Treasury notes and bonds. Cost of
              living adjustments and medical inflation factors are also applied to the calculation of projected future benefits. Only the Depot Maintenance and Ordnance business
              areas report FECA liability. Only Maintenance and Ordnance have host installations responsible for paying Worker's Compensation. Supply Management and
              Information Services activities are made up of selected personnel at other installations.

              The Army Working Capital Fund (AWCF) computes its' portion of the total Army actuarial liability based on the percentage of the AWCF's FECA Liability to the total
              Army FECA liability. FECA current and noncurrent liabilities are further discussed in Note 15.A.

              Note 18. Unexpended Appropriations
               As of September 30                                                                 2003                             2002
               (Amounts in thousands)
               1. Unexpended Appropriations:
                    A. Unobligated, Available                                                                   $0                                 $25
                    B. Unobligated, Unavailable                                                                  0                                   0
                    C. Unexpended Obligations                                                               11,960                              30,018
                    D. Total Unexpended Appropriations                                                     $11,960                             $30,043

              2. Other Information Pertaining to Unexpended Appropriations:

              Unobligated, Available
              All direct appropriations received in FY 2003 have been obligated. The $25 thousand shown as available at the end of FY 2002 is from funds appropriated in FY
              2000. The Army Working Capital Fund (AWCF) obligated this amount in FY 2003.

              Unexpended Obligations
              During FY 2003, the AWCF received, obligated, and expended $249 million of Appropriated Funds (see Note 21A, Disclosures Related to the Statement of Budgetary
              Resources, for further details).

                 228 Fiscal Year 2003 Army Annual Financial Statement
03WCFStatements12-15.qxd    12/15/2003     5:03 PM    Page 229




              Unexpended obligations reported as a component of Unexpended Appropriations includes both Undelivered Orders-Unpaid and Undelivered Orders-Paid only for
              Direct Appropriated funds. This amount is distinct from Change in Budgetary Resources Obligated for Goods, Services, and Benefits Ordered but Not Yet Received
              (Line 12) of the Statement of Financing, which includes the change during the FY in unexpended obligations against budget authority from all sources.

              Fluctuations and/or Abnormalities
              Unexpended Appropriations decreased $18,083 thousand or 60 percent, from FY 2002. During FY 2003, the AWCF received delivery of goods obligated in FY 2000
              and expended these obligations. Also included in this amount is $25 thousand of FY 2000 appropriations previously reported as Unobligated, Available, that were
              obligated and expended in FY 2003.

              Note Reference
              For Additional Line Item discussion, see:
              Note 21, Disclosures Related to the Statement of Budgetary Resources

              Note 19.A General Disclosures Related to the Statement of Net Cost
              Disclosures Related to the Statement of Net Cost

              The Consolidated Statement of Net Cost in the Federal Government is unique because its principles are driven on understanding the net cost of programs and/or
              organizations that the Federal Government supports through appropriations or other means. This statement provides gross and net cost information that can be related
              to the amount of output or outcome for a given program and/or organization administered by a responsible reporting entity.

              While the Army Working Capital Fund (AWCF) activities generally record transactions on an accrual basis, as is required by Federal Generally Accepted Accounting
              Principles (GAAP), the systems do not always capture actual costs. Information presented on the Statement of Net Cost is primarily based on budgetary obligation,
              disbursements, or collection transactions, as well as information from nonfinancial feeder systems. The Army is in the process of upgrading its financial and logistical
              feeder systems to the Logistics Modernization Program (LMP), to address this issue.

              Fluctuations and/or Abnormalities
              The AWCF's net costs decreased by $1,108,532 thousand or 188 percent, during FY 2003, primarily due to increased Intragovernmental Earned Revenue to the Army
              General Fund in support of Operation Enduring Freedom, Operation Iraqi Freedom, and the Global War on Terrorism. The increased sales also translate to increased
              Intragovernmental Gross Costs and Gross Costs with the Public, as the AWCF replenishes inventory. The changes are as follows:
                  Intragovernmental gross costs increased by $1,227,051 thousand or 86 percent.
                  Intragovernmental earned revenue increased by $3,433,985 thousand or 50 percent
                  Gross costs with the public increased by $975,318 thousand or 15 percent
                  Gross earned revenue with the public decreased by $123,084 thousand or 36 percent

              In addition, eliminating balance entries to bring the AWCF's buyer-side costs into agreement with the seller-side revenues caused a reclassification of $2,974,635
              thousand in Intragovernmental Gross and Net Costs to Public Gross and Net Costs.
                                                                                                                   Army Working Capital Fund Principal Notes and Statements 229
03WCFStatements12-15.qxd      12/15/2003       5:03 PM     Page 230




              Inventory Gains/Losses
              The AWCF recognized a gain of $1,312,211 thousand during FY 2003, as the Communications and Electronics Command (CECOM) transitioned its accounting
              support from the Commodity Command Standard System to LMP. During the transition, the inventory valuation method was changed from Latest Acquisition Cost to
              Moving Average Cost. Also, CECOM's revenue was reduced by $225,145 thousand, as some inventory allowance account balances were reclassed to a contra revenue
              account in FY 2003. The net increase to the Statement of Net Cost for these two events is $1,087,066 thousand. This gain was offset by a FY 2003 non-recoverable
              inventory loss of $1,181,952 thousand for items transferred to the Defense Reutilization and Marketing Office.

              Note Reference
              See Note 19.I. - Intragovernmental Revenue and Expense for related additional disclosures.

              Note 19.B. Gross Cost and Earned Revenue by Budget Functional Classification
              Not applicable

              Note 19.C. Gross Cost to Generate Intra-governmental Revenue and Earned Revenue (Transactions with Other Federal-Non-DoD-
              Entities) by Budget Functional Classification
              Not applicable

              Note 19.D. Imputed Expenses
               As of September 30                                                              2003                         2002
               (Amounts in thousands)
               1. Civilian (e.g.,CSRS/FERS) Retirement                                                 $59,046                         $49,291
               2. Civilian Health                                                                       62,086                          60,422
               3. Civilian Life Insurance                                                                  179                             171
               4. Military Retirement Pension                                                                0                               0
               5. Military Retirement Health                                                                 0                               0
               6. Judgment Fund                                                                              0                               0
               7. Total Imputed Expenses                                                              $121,311                        $109,884

              8. Other Information
              Legend: CSRS - Civil Service Retirement System
                      FERS - Federal Employees Retirement System

              Fluctuations and/or Abnormalities
              Civilian (e.g., CSRS/FERS) Retirement increased $9,755 thousand or 20 percent, due to revised estimates received from the Office of Personnel Management (OPM)
              for future employee benefit costs. Federal Generally Accepted Accounting Principles requires the reporting of government employee benefits. The amounts remitted
              to the OPM by and for covered employees do not generally cover the actual cost of the benefits those employees will receive after their careers are over. As a

                 230 Fiscal Year 2003 Army Annual Financial Statement
03WCFStatements12-15.qxd    12/15/2003     5:03 PM     Page 231




              consequence, for FY 2003, the Army Working Capital Fund must recognize an imputed cost equal to the difference between the true cost of providing future benefits
              to its employees and the employee and employer contribution they remit to the OPM.

              Note 19.E. Benefit Program Expenses
              Not applicable

              Note 19. F. Exchange Revenue
              Disclosures Related to the Exchange Revenue:

              Definitions
              Exchange Revenue - arises when a government entity provides goods and services to the public or to another government entity for a price (earned revenue).
              Exchange revenue includes most user charges other than taxes, i.e., regulatory user charges. The Army Working Capital fund reported only exchange revenue in FY
              2003.

              Note Disclosure
              See Note 1.E. Significant Account Policies for related additional disclosures.

              Note 19.G. Amounts for Foreign Military Sales (FMS) Program Procurements from Contractors
              Not applicable.

              Note 19.H. Stewardship Assets
              Not applicable.

              Note 19.I. Intra-governmental Revenue and Expense
              Disclosures Related to Intra-governmental Revenue and Expense:

              Intragovernmental Revenue
              For the majority of buyer-side transactions, the AWCF accounting systems do not capture trading partner data at the transaction level in a manner that facilitates trading
              partner aggregations. Therefore, the AWCF was unable to reconcile intragovernmental accounts payable balances with its' trading partners. The DoD intends to
              develop long-term system improvements that will address this issue.

              Operating Expenses
              The DoD summary level seller accounts receivable and revenues were compared to the AWCF's accounts payables and expenses. As a result of this comparison, the
              following adjustments were posted as of FY 2003:

                                                                                                                    Army Working Capital Fund Principal Notes and Statements 231
03WCFStatements12-15.qxd      12/15/2003       5:03 PM      Page 232




              1. an increase of $35,861 thousand to accounts payable

              2. an increase of $330 thousand to advances to others and

              3. a total increase of $38,906 thousand to expenses (consisting of a decrease of $2,974,635 thousand to intragovernmental operating expenses with a corresponding
                 increase of $3,013,541 thousand in non-federal operating expenses).

              Note 19.J. Suborganization Program Costs
              Not applicable

              Note 20. Disclosures Related to the Statement of Changes in Net Position
                                                                                     Cumulative Results of           Unexpended              Cumulative Results of    Unexpended Appropriations
               As of September 30                                                      Operations 2003            Appropriations 2003          Operations 2002                 2002
               (Amounts in thousands)
               1. Prior Period Adjustments Increases (Decreases) to Net Position
               Beginning Balance:
                    A. Changes in Accounting Standards                                                       $0                         $0                       $0                         $0
                    B. Errors and Omissions in Prior Year Accounting Reports                                  0                          0                        0                          0
                    C. Other Prior Period Adjustments                                                         0                          0                        0                          0
                    D. Total Prior Period Adjustments                                                        $0                         $0                       $0                         $0

               2. Imputed Financing:
                    A. Civilian CSRS/FERS Retirement                                                  $59,046                           $0                 $49,291                          $0
                    B. Civilian Health                                                                 62,086                            0                  60,422                           0
                    C. Civilian Life Insurance                                                            179                            0                     171                           0
                    D. Military Retirement Pension                                                          0                            0                       0                           0
                    E. Military Retirement Health                                                           0                            0                       0                           0
                    F. Judgment Fund                                                                        0                            0                       0                           0
                    G. Total Imputed Financing                                                       $121,311                           $0                $109,884                          $0

              3. Other Information:

              Prior Period Adjustments
              As of Fiscal Year (FY) 2002, The Department of the Treasury emphasized the reporting of Prior Period Adjustments for material changes only. The Office of the
              Secretary of Defense (OSD) and the Defense Finance and Accounting Service (DFAS) guidance also emphasized the position that use of Prior Period Adjustments
              should be infrequent. Individual entities within the Army Working Capital Fund (AWCF) submitted prior period adjustments, which were subsequently reported on the
              AR 1307 report. OSD reviewed these adjustment and denied approval to report them as prior period adjustments on the financial statements. The balances were


                 232 Fiscal Year 2003 Army Annual Financial Statement
03WCFStatements12-15.qxd    12/15/2003     5:03 PM     Page 233




              reclassified to accounts that would have been affected if they had occurred in the current year. The net amount of reclassified Prior Period Adjustments, in thousands
              of dollars, are as follows:

                  Depot Maintenance                                                       $21,296
                  Ordnance                                                               (13,745)
                  Supply Management                                                      324, 997
                  Information Services                                                      4,344
                  Total AWCF                                                            $336,892

              Fluctuations and/or Abnormalities
              The AWCF received direct appropriations of $100,000 thousand for spare parts, $89,000 thousand received for War Reserves and $60,000 thousand received for
              underutilized plant capacity, totaling $249,000 thousand. This was an increase of $81,600 thousand or 49 percent, from FY 2002. All $249,000 thousand of the direct
              appropriations received during FY 2003 were obligated and expended during FY 2003. The Statement of Changes in Net Position shows $267,083 thousand as
              appropriations used. This represents the $249,000 thousand direct appropriations received and expended during FY 2003, plus $18,083 thousand of FY 2000 direct
              appropriations that were expended during FY 2003 (see Note 18, Unexpended Appropriations, for details on the FY 2000 appropriation).

              In FY 2002, the AWCF reported Nonexchange Revenue of $170,039 for cash infusions. No cash infusions were reported for FY 2003.

              Other Budgetary Financing Sources decreased by $266, 701 or 132 percent between FY 2002 and FY 2003 primarily due to a change in reporting policy. Transfers in
              and out without trading partners were previously reported on this line. As of FY 2003, these transfers are being reported as Other Financing Sources.

              The Transfers In/Out Without Reimbursement reported in FY 2003 includes a transfer in of $918, 816 thousand in inventory from the Army General Fund during the
              implementation of the Single Stock Fund Milestone 3 and a transfer out of $10,228 to the Army General Fund for land. This created an increase on the transfers line
              of $834,239 or 1122 percent, when compared to the FY 2002 balance.

              During FY 2003 Civilian (e.g., CSRS/FERS) Retirement increased $9,755 thousand or 20 percent due to revised estimates received from the Office of Personnel
              Management (OPM) for future employee benefit costs. The amounts remitted to the OPM by and for covered employees do not generally cover the actual cost of the
              benefits those employees will receive after their careers are over. As a consequence, for FY 2003, the AWCF must recognize an imputed cost equal to the difference
              between the true cost of providing future benefits to their employees and the employee and employer contributions they remit to OPM.

              The amount reported as Other consists of $67,534 thousand in net gains due to a reclassification of field reported transfers in and out of assets without a trading partner
              and a $149,530 thousand gain to adjust the materiel return liability to agree with the reported materiel returns for a total of $217,064 thousand. If the trading partner
              cannot be identified, the transfers must be reclassified as other gains and losses. These were previously reported under Other Budgetary Financing Sources.

              The Net Cost of Operations decreased by $1,108,532 thousand or 188 percent (see Note 19, General Disclosures Relating to the Statement of Net Cost for additional
              detail).

                                                                                                                     Army Working Capital Fund Principal Notes and Statements 233
03WCFStatements12-15.qxd      12/15/2003        5:03 PM      Page 234




              Note Reference
              For Additional Line Item discussion, see:
              Note 19, General Disclosures Relating to the Statement of Net Cost
              Note 21, Disclosures Related to the Statement of Budgetary Resources

              Note 21.A. Disclosures Related to the Statement of Budgetary Resources
               As of September 30                                                                                                              2003       2002
               (Amounts in thousands)
               1. Net Amount of Budgetary Resources Obligated for Undelivered Orders at the End of the Period                                $6,102,853   $2,801,419
               2. Available Borrowing and Contract Authority at the End of the Period                                                        $2,443,489   $2,375,862

              3. Other Information:
              The net amount of Budgetary Resources Obligated for Undelivered Orders at the End of Period consists of $11,960 thousand Direct Obligations and $6,090,893
              thousand Reimbursable Obligations (see Note 18, Unexpended Appropriations, for details on the Direct Obligations).

              Primary funding for the Army Working Capital Fund (AWCF) is earned through customer orders, as described in Note 1C. In addition to revenues earned, direct
              appropriations were received and used by the following business areas, in thousands of dollars, during FY 2003:
                   Business Area                                             Appropriations Received                 Appropriations Used
                   Ordnance                                                                  $54,174                             $54,174
                   Depot Maintenance                                                           5,826                               5,826
                   Supply Management                                                         189,000                             207,083
                   Information Services                                                            0                                   0
                   Total AWCF                                                               $249,000                            $267,083
              These appropriations are permanent, indefinite appropriations, available for obligation until exhausted.
              Available borrowing and contract authority as of September 30, 2003, in thousands of dollars, is as follows:
                                                                                                         Contract Authority       Contract
                                                      Unused Contract Authority    Contract Authority       Withdrawn         Authority Available
              Available September 30, 2003              as of Sept 30, 2002       Realized for FY 2003     Sept 30, 2002        Sept 30, 2003
                   Depot Maintenance                          $7,974                   $2,689                   $0                $10,663
                   Ordnance                                    5,055                    1,952                    0                  7,007
                   Supply Management                       2,362,833                   62,986                    0              2,425,819
                   Information Services                            0                        0                    0                      0
                   Total AWCF                             $2,375,862                  $67,627                   $0             $2,443,489

              The reason for the increase in Supply Management New Contract Authority is $1 billion authorized to buy spares.


                 234 Fiscal Year 2003 Army Annual Financial Statement
03WCFStatements12-15.qxd      12/15/2003   5:03 PM      Page 235




              Unobligated balances from spending authority from offsetting collections (revenues earned) as of September 30, 2003, in thousands of dollars are as follows:
                                                                                                          Total Spending
                                                                      Change                              Authority from
                  Business Area              Earned                Unfilled Orders   Anticipated       Offsetting Collections
                  Depot Maintenance        $2,012,493             $517.379               $0              $2,529,872
                  Ordnance                    711,665              120,702                0                 832,367
                  Supply Management         7,059,773            1,549,240                0               8,609,013
                  Information Services         96,547              (15,410)               0                  81,137
                  Total AWCF               $9,880,478           $2,171,911               $0             $12,052,389

              The AWCF does not make eliminating entries in the Statement of Budgetary Resources because the statements are presented as combined and combining and therefore
              are presented as a Disaggregated Statement of Budgetary Resources in the Required Supplementary Information section of the financial statements.

              Fluctuations and/or Abnormalities
              All business activity increased during FY 2003 over this same period in FY 2002 due to increased activity with the Army General Fund, as well within the AWCF.
              Supply Management received additional obligation authority to increase its inventory of spare parts through increased repair work at the Army Depot Maintenance
              facilities.

              The AWCF contains obligation and unliquidated obligation values that were migrated into the Logistics Modernization Program (LMP) at a value higher than the value
              reported in the respective legacy systems at time of migration. This overstatement occurred at the three Supply Management activities for the Communication and
              Electronics Command and Tobyhanna Army Depot. Work continues to reconcile these balances for correction in FY 2004.

              Spending Authority from Offsetting Collections increased $5,655,882 thousand or 88 percent in FY 2003. This increase occurred primarily within the Supply
              Management Business Area, from increased demand from the Army General Fund, except as noted below:

                  Earned - Collected increased by $ 3,498,809 thousand or 57 percent in FY 2003.

                  Earned - Receivable from Federal Sources decreased by $291,300 thousand or 528 percent in FY 2003.

                  Change in Unfilled Customer Orders - Advance Received decreased by $308,146 thousand or 239 percent in FY 2003. Due to cash shortages experienced during
                  FY 2002, the AWCF was authorized to advance bill the Army General Fund. These advances were repaid in FY 2003.

                  Change in Unfilled Customer Orders - Without Advance from Federal Sources increased by $2,173,918 thousand or 1,227 percent in FY 2003.

              Recoveries of Prior Year Obligations increased by $184,060 thousand or 46 percent in FY 2003, primarily in the Supply Management Business Area. Two conditions
              contributed to this increase. The accounting function is transitioning to the LMP and is reviewing and correcting their outstanding Unliquidated Obligations.

                                                                                                                      Army Working Capital Fund Principal Notes and Statements 235
03WCFStatements12-15.qxd     12/15/2003       5:03 PM     Page 236




              Direct Obligations Incurred increased by $77,376, thousand or 45 percent in FY 2003. This is due to the obligation, accrual, and expenditure of direct funds received
              during FY 2003. In FY 2003, these funds were appropriated for spare parts ($100,000 thousand), war reserves ($89,000 thousand), and underutilized plant capacity
              ($60,000 thousand), totaling $249,000 thousand. All direct appropriations received this year have been obligated and expended. Reimbursable obligations increased
              by $5,662,332 thousand or 80 percent, primarily in the Supply Management Business Area due to the purchase of spares and war reserve materials.

              Unobligated Balance, Apportioned has increased by $385,445 thousand or 23 percent in FY 2003 due to the authorization of $1,000,000 thousand in Supply
              Management contract authority to buy spare parts.

              Accounts Receivable increased $236,175 thousand or 84 percent. Accounts receivable as shown on the Statement of Budgetary Resources differs from the balance
              shown on the Balance Sheet by the amount of contractor debt, $107 thousand; refunds receivable, $15,124 thousand; and eliminations, $89,180 thousand. The
              Statement of Budgetary resources does not eliminate for intragovernmental receivables nor does it include contractor debt or refunds receivable. (See Note 5,
              Accounts Receivable, for further explanation.)

              Unfilled Customer Orders from Federal Sources increased $2,351,151 thousand or 102 percent in FY 2003. This is due to an increase in customer demand, mainly in
              support of Operation Iraqi Freedom.

              Undelivered Orders increased $3,315,071 thousand or 120 percent, primarily for the Supply Management Business Area. The increase is due to increased demand
              during the war efforts in the Middle East, and partially to replenish spare parts. Supply Management was authorized $1,000,000 thousand in contract authority and
              $100,000 thousand in appropriated funds to purchase spare parts.

              Accounts Payable increased $251,919 thousand or 35 percent. Accounts payable on the Statement of Budgetary Resources includes the wages and salaries liability,
              and does not eliminate for intragovernmental payables. The Balance Sheet eliminates for intragovernmental payables and reports the wages and salaries liability in
              other liabilities. This results in different balances on the two statements. (see Note 12 for additional disclosures on accounts payable).

              Net Outlays decreased by $1,290,520 thousands or 533 percent in FY 2003. This is a reflection of the Full Cost Recovery planned during the setting of FY 2003 rates
              and the increased sales to support the various Army missions. Rates were set to recover all costs in FY 2003; therefore, the percentage of collections as compared to
              disbursements increased over FY 2002 (see Note 19, General Disclosures Related to the Statement of Net Cost, for discussion of rates and full cost recovery).

              The AWCF is unable to fully implement all elements of Federal Generally Accepted Accounting Principles (GAAP) and Office of Management and Budget (OMB)
              Bulletin No. 01-09 due to limitations of its financial and non-financial management processes and systems. See Note 1, Significant Accounting Policies, for a full
              disclosure of accounting policies not in compliance with these standards.

              Undelivered Orders presented in the Statement of Budgetary Resources includes Undelivered Orders-Unpaid for both direct and reimbursable funds.

              Adjustments in funds that are temporarily not available pursuant to Public Law, and those that are permanently not available (included in the Adjustments line on the
              Statement of Budgetary Resources), are not included in the Spending Authority From Offsetting Collections and Adjustments line on the Statement of Budgetary

                236 Fiscal Year 2003 Army Annual Financial Statement
03WCFStatements12-15.qxd      12/15/2003      5:03 PM      Page 237




              Resources or the Spending Authority for Offsetting Collections and Adjustments line on the Statement of Financing.

              Note Reference

              For Additional Line Item discussion, see:

              Note 1,Significant Accounting Policies
              Note 5, Accounts Receivable
              Note 12, Accounts Payable
              Note 18, Unexpended Appropriations
              Note 19, General Disclosures Related to the Statement of Net Cost

              Note 21.B. Disclosures Related to Problem Disbursements, In-transit Disbursements and Suspense/Budget Clearing Accounts
                                                                                                                                                               (Decrease)/Increase
               As of September 30                                                                             Sep-01              Sep-02          Sep-03       from 2002 to 2003
               (Amounts in thousands)
               1. Total Problem Disbursements                                                                $7,241             $17,301         $46,298                        $28,997
                    A. Absolute Unmatched Disbursements
                    B. Negative Unliquidated Obligations                                                     11,708               4,477           2,850                         (1,627)
               2. Total In-transit Disbursements, Net                                                       $83,580             $65,368         $69,687                         $4,319
               3. Other Information Related to Problem Disbursements and In-transit Disbursement
               4. Suspense/Budget Clearing Accounts,Net
                         Account                                                                              Sep-01              Sep-02         Sep-03             (Decrease)/Increase
                         F3875                                                                                   $0                  $0             $0                              $0
                         F3880                                                                                    0                   0              0                               0
                         F3882                                                                                    0                   0              0                               0
                         F3885                                                                                    0                   0              0                               0
                         F3886                                                                                    0                   0              0                               0
                         Total                                                                                   $0                  $0             $0                              $0

              3. Other Information Related to Problem Disbursements and In-transit Disbursement

              Definitions
              Absolute value - sum of the positive values of debit and credit transactions without regard to the sign.
              Unmatched Disbursements (UMD) - occur when payments do not match to a corresponding obligation in the accounting system.
              Negative Unliquidated Obligations (NULO) - occur when payments have a valid obligation but the payment is greater than the amount of the obligation recorded in
              the official accounting system. These payments use available funds for valid receiving reports on delivered goods and services under valid contracts.
              In Transit Disbursements - represent the net value of disbursements and collections made by a DoD disbursing activity on behalf of an accountable activity but not yet

                                                                                                                       Army Working Capital Fund Principal Notes and Statements 237
03WCFStatements12-15.qxd     12/15/2003       5:03 PM     Page 238




              attempted to be posted in an accounting system.
              The values for FY 2003 that have been reported by a disbursing station to the Department of the Treasury but have not yet been precisely matched against the specific
              source obligation giving rise to the disbursements for AWCF are $46,298 thousand million in absolute value UMDs, $2,850 thousand in NULOs, and $41 thousand in
              aged in-transit disbursements (of the total in-transit disbursements of $69,687 thousand). These payments have been made using available funds and based on valid
              receiving reports for goods and services delivered under valid contracts. The problem disbursements and in-transit disbursements arise when the AWCF's various
              contracting, disbursing, and accounting systems fail to match the data necessary to properly account for the disbursement transactions in all applicable accounting
              systems. Negative Intransits indicates intransit collections, rather than disbursements. UMDs and NULOs are considered aged immediately, while Intransit
              Disbursements are considered normal business activity up to a certain aging category.
              The problem disbursement reduction goal is stated in absolute value UMDs, NULOs, and Net Intransits. Therefore, the UMDs presented above are shown in absolute
              value, when possible, for comparison to the official reduction goal. In prior years, Net UMDs and NULOs were reported together on the Problem Disbursements line
              of Note 21. To facilitate comparability with prior years and comprehension of the net dollar amounts, the net UMDs and NULOs, in thousands of dollars, are shown in
              the table below.

              Problem Disbursement Type                                Sept 2001           Sept 2002            Sept 2003
                   Net UMDs                                               $3,355              $6,346               $8,452
                   NULOs                                                  11,707               4,476                2,850
              Total Net Problem Disbursements                           $15,062             $10,823              $11,304

              4. Suspense/Budget Clearing Accounts,Net
              Account                   September 2001             September 2002   September 2003     (Decrease)/Increase
                  F3875                              $0                        $0               $0                      $0
                  F3880                                0                        0                0                       0
                  F3882                                0                        0                0                       0
                  F3885                                0                        0                0                       0
                  F3886                                0                        0                0                       0
                  Total                              $0                        $0               $0                      $0

              5. Other Information Related to Suspense/Budget Clearing Accounts:
              The Suspense/Budget Clearing Accounts shown above are maintained and reported by the Army General Fund. Some transactions relating to the AWCF may be in
              suspense accounts, but are not identifiable. When they are identified to the AWCF, they will be transferred from the suspense/clearing account to the correct Treasury
              appropriation.




                238 Fiscal Year 2003 Army Annual Financial Statement
03WCFStatements12-15.qxd    12/15/2003      5:03 PM    Page 239




              Note 22. Disclosures Related to the Statement of Financing
              Disclosures Related to the Statement of Financing:

              The objective of the Statement of Financing is to allow users to understand the difference between the Statement of Budgetary Resources and the Statement of Net
              Cost. The statement provides this understanding through a comprehensive reconciliation process.

              The Army Working Capital Fund's (AWCF) budgetary data does not agree with its proprietary expenses and assets capitalized. This results in a difference in net cost
              between the Statement of Net Cost and the Statement of Financing. Resources that finance the acquisition of assets were decreased by $387,625 thousand to bring the
              statements into agreement. The differences between budgetary and proprietary data for the AWCF were reported as material weaknesses in the FY 2002 AWCF's
              financial statement report.

              Fluctuations and/or Abnormalities
              Obligations Incurred increased in FY 2003 by $5,739,908 thousand or 84 percent, due to increased demand from customers and the receipt of direct funds and
              increased contract authority (see Note 18, Unexpended Appropriations and Note 21, Disclosures Related to the Statement of Budgetary Resources).

              Spending Authority from Offsetting Collections and Recoveries increased in FY 2003 by $5,839,941 thousand or 86 percent, due to increased demand from
              customers.

              Transfers In/Out Without Reimbursement increased in FY 2003 by $908,588 thousand or 100 percent, due to receipt of the inventory transfers from the Army General
              Fund during implementation of the Single Stock Fund Milestone 3 Initiative and the transfer out of land to the Army General Fund.

              Imputed Financing and Imputed Costs increased in FY 2003 by $11,427 thousand or 10 percent due to revised estimates received from the Office of Personnel
              Management (OPM) for future employee benefit costs. Federal Generally Accepted Accounting Principles requires the reporting of government employee benefits.
              The amounts remitted to the OPM by and for covered employees do not generally cover the actual cost of the benefits those employees will receive after their careers
              are over. As a consequence, for FY 2003, the AWCF must recognize an imputed cost equal to the difference between the true cost of providing future benefits to its
              employees and the employee and employer contribution they remit to the OPM.

              The Other Resources Other line increased by $217,065 thousand or 100 percent. Beginning in FY 2003, the balances in the transfers in/out without reimbursement
              accounts for which trading partners could not be identified, were moved to this line. Previously it had been included on the line for revaluation of assets or liabilities.

              Change in Undelivered Orders increased in FY 2003 by $3,560,640 thousand or 1,373 percent, due to increased customer orders, increased demand during the war
              efforts in the Middle East, and initiatives to replenish spare parts (see Note 21, Disclosures Related to the Statement of Budgetary Resources, for additional
              disclosures).

              Change in Unfilled Customer Orders increased in FY 2003 by $1,865,772 thousand or 609 percent, due to increased customer demand for inventory (see Note 21,
              Disclosures Related to the Statement of Budgetary Resources, for additional disclosures).

                                                                                                                      Army Working Capital Fund Principal Notes and Statements 239
03WCFStatements12-15.qxd     12/15/2003       5:03 PM     Page 240




              Resources that Fund Expenses Recognized in Prior Periods changed in FY 2003 by $1,368 thousand or 33 percent. The FY 2002 balance reflected a $4,133 thousand
              decrease in the FECA actuarial liability, in FY 2003 that liability increased. The FY 2003 balance for this line reflects the difference between that and $2,765 thousand
              decrease in annual leave liability recognized by the Information Services and Supply business areas. Increases in future funded liabilities are reported on Components
              Requiring or Generating Resources in Future Periods: Other or line 23 of the Statement of Financing.

              The decrease in Exchange Revenue Receivable From the Public of $6,079 thousand in FY 2003 was not reported in prior reporting periods. This amount reflects a
              change in reporting policy in order to comply with the guidance in the Treasury Finance Manual. It represents the increase in Public Receivables in FY 2003.

              Other Components of the Net Cost of Operations that Will Not Require or Generate Resources in the Current Period increased in FY 2003 by $15,339 thousand or
              1,360 percent, due to and increase in the Federal Employee Compensation Act (FECA) actuarial liability (see note 17 for additional disclosures on the FECA liability).

              Depreciation and Amortization increased by $89,028 thousand or 85 percent. This increase resulted from a change in policy with the implementation of the Logistics
              Modernization Program (LMP). Prior to the implementation of LMP, the AWCF recorded unfunded depreciation in accounts that would bypass depreciation expense
              and the Statement of Net Cost. With the implementation of LMP, all depreciation flows through the depreciation account. The depot maintenance business area
              realized $90,483 thousand in additional depreciation expense due to this change.

              Revaluation of Assets or Liabilities decreased in FY 2003 by $556,239 thousand or 516 percent, due to a change in reporting policy for the recording of Loss on
              Disposal for Excess, Obsolete, and Unserviceable Inventory. The loss on disposal was previously reported as part of Other Components of the Net Cost of Operations
              That Will Not Require or Generate Resources in the Current Period.

              Other Components of the Net Cost of Operations that will Not Require or Generate Resources in the Current Period decreased in FY 2003 by $7,951 thousand or 100
              percent, due to a reclassification of the amounts to the Revaluation of Assets or Liabilities.

              Net costs decreased in FY 2003 by $1,108,530 thousand or 188 percent (see Note 19, General Disclosures Related to the Statement of Net Cost, for complete
              disclosure).

              Intra-AWCF transactions have not been eliminated because the statements are presented as combined and combining.

              Note Reference
              For Additional Line Item discussion, see:

              Note 10, General PP&E
              Note 11, Liabilities Not Covered and Covered by Budgetary Resources
              Note 18, Unexpended Appropriations
              Note 19, General Disclosures Relating to the Statement of Net Cost
              Note 21, Disclosures Related to the Statement of Budgetary Resources

                240 Fiscal Year 2003 Army Annual Financial Statement
03WCFStatements12-15.qxd   12/15/2003   5:03 PM   Page 241




              Note 23. Disclosures Related to the Statement of Custodial Activity
              Not applicable

              Note 24.A. Other Disclosures
              Not applicable

              Note 24.B. Other Disclosures
              Not applicable




                                                                                    Army Working Capital Fund Principal Notes and Statements 241
03WCFStatements12-15.qxd        12/15/2003          5:03 PM       Page 242




              Consolidating Balance Sheet
              Department of Defense • Department of the Army, Army Working Capital Fund
              As of September 30, 2003 and 2002 ($ in thousands)

              ASSETS (Note 2)                                                             Depot Maintenance   Supply Management   Information Service            Ordnance
                  Intragovernmental:
                       Fund Balance with Treasury (Note 3)
                            Entity                                                                ($22,182)         $1,445,783                $7,985           ($177,664)
                            Non-Entity Seized Iraqi Cash                                                $0                  $0                    $0                  $0
                            Non-Entity-Other                                                            $0                  $0                    $0                  $0
                       Investments (Note 4)                                                             $0                  $0                    $0                  $0
                       Accounts Receivable (Note 5)                                               $156,136            $244,130                $6,635             $54,493
                       Other Assets (Note 6)                                                       $13,475             $42,972                    $0                $482
                       Total Intragovernmental Assets                                             $147,429          $1,732,885               $14,620           ($122,689)
                  Cash and Other Monetary Assets (Note 7)                                               $0                  $0                    $0                  $0
                  Accounts Receivable (Note 5)                                                       2,997              24,676                     0               3,503
                  Loans Receivable (Note 8)                                                              0                   0                     0                   0
                  Inventory and Related Property (Note 9)                                          192,111          11,902,310                     0              37,390
                  General Property, Plant and Equipment (Note 10)                                  500,327              97,941                    50             328,433
                  Investments (Note 4)                                                                   0                   0                     0                   0
                  Other Assets (Note 6)                                                                 52             269,563                     0                 262
              TOTAL ASSETS                                                                        $842,916         $14,027,375               $14,670            $246,899

              LIABILITIES (Note 11)                                                       Depot Maintenance   Supply Management   Information Service            Ordnance
                   Intragovernmental:
                         Accounts Payable (Note 12)                                               $111,506            $346,775                $7,604             $23,020
                         Debt (Note 13)                                                                  0                   0                     0                   0
                         Environmental Liabilities (Note 14)                                             0                   0                     0                   0
                         Other Liabilities (Note 15 & Note 16)                                      57,201              58,563                   191              35,474
                         Total Intragovernmental Liabilities                                      $168,707            $405,338                $7,795             $58,494
                   Accounts Payable (Note 12)                                                      $49,150            $312,296                $5,442               ($277)
                   Military Retirement Benefits and Other Employment-Related                       185,437                   0                     0             135,217
                        Actuarial Liabilities (Note 17)
                   Environmental Liabilities (Note 14)                                                   0                   0                     0                   0
                   Loan Guarantee Liability (Note 8)                                                     0                   0                     0                   0
                   Other Liabilities (Note 15 & Note 16)                                           101,216              71,650                 2,172              55,966
                   Debt Held by Public (Note 13)                                                         0                   0                     0                   0
              TOTAL LIABILITIES                                                                   $504,510            $789,284               $15,409            $249,400
              NET POSITION
                   Unexpended Appropriations (Note 18)                                                  $0             $11,960                    $0                  $0
                   Cumulative Results of Operations                                                338,406          13,226,131                  (739)             (2,501)
              TOTAL NET POSITION                                                                  $338,406         $13,238,091                 ($739)            ($2,501)
              TOTAL LIABILITIES AND NET POSITION                                                  $842,916         $14,027,375               $14,670            $246,899



                                                                                                                                       The accompanying notes are an integral part of these statements.
                 242 Fiscal Year 2003 Army Annual Financial Statement
03WCFStatements12-15.qxd         12/15/2003          5:03 PM         Page 243




                                                                                                                                                 Consolidating Balance Sheet
                                                                                                                                                  Department of Defense • Department of the Army
                                                                                                                                              As of September 30, 2003 and 2002 ($ in thousands)

                                                                                                                                                 2003                 2002
              ASSETS (Note 2)                                                    Component Level   Combined Total        Eliminations     Consolidated         Consolidated
                  Intragovernmental:
                       Fund Balance with Treasury (Note 3)
                            Entity                                                     $294,624       $1,548,546                 $0        $1,548,546             $251,030
                            Non-Entity Seized Iraqi Cash                                     $0               $0                 $0                $0                   $0
                            Non-Entity-Other                                                 $0               $0                 $0                $0                   $0
                       Investments (Note 4)                                                  $0               $0                 $0                $0                   $0
                       Accounts Receivable (Note 5)                                    ($50,140)        $411,254                 $0          $411,254             $221,978
                       Other Assets (Note 6)                                           ($56,600)            $329                 $0              $329                  $48
                       Total Intragovernmental Assets                                  $187,884       $1,960,129                 $0        $1,960,129             $473,056
                  Cash and Other Monetary Assets (Note 7)                                    $0               $0                 $0                $0                   $0
                  Accounts Receivable (Note 5)                                                0           31,176                  0            31,176               16,419
                  Loans Receivable (Note 8)                                                   0                0                  0                 0                    0
                  Inventory and Related Property (Note 9)                                     0       12,131,811                  0        12,131,811           11,319,284
                  General Property, Plant and Equipment (Note 10)                             0          926,751                  0           926,751            1,250,240
                  Investments (Note 4)                                                        0                0                  0                 0                    0
                  Other Assets (Note 6)                                                       0          269,877                  0           269,877              251,298
              TOTAL ASSETS                                                             $187,884      $15,319,744                 $0       $15,319,744          $13,310,297

              LIABILITIES (Note 11)
                   Intragovernmental:
                         Accounts Payable (Note 12)                                    ($53,319)       $435,586                  $0          $435,586              $77,527
                         Debt (Note 13)                                                       0               0                   0                 0                    0
                         Environmental Liabilities (Note 14)                                  0               0                   0                 0                    0
                         Other Liabilities (Note 15 & Note 16)                          (56,930)         94,499                   0            94,499              262,039
                         Total Intragovernmental Liabilities                          ($110,249)       $530,085                  $0          $530,085             $339,566
                   Accounts Payable (Note 12)                                          ($24,246)       $342,365                  $0          $342,365             $511,007
                   Military Retirement Benefits and Other Employment-Related                  0         320,654                   0           320,654              304,524
                        Actuarial Liabilities (Note 17)
                   Environmental Liabilities (Note 14)                                        0                0                  0                 0                    0
                   Loan Guarantee Liability (Note 8)                                          0                0                  0                 0                    0
                   Other Liabilities (Note 15 & Note 16)                                      0          231,004                  0           231,004              212,055
                   Debt Held by Public (Note 13)                                              0                0                  0                 0                    0
              TOTAL LIABILITIES                                                       ($134,495)      $1,424,108                 $0        $1,424,108           $1,367,152
              NET POSITION
                   Unexpended Appropriations (Note 18)                                       $0          $11,960                 $0           $11,960              $30,043
                   Cumulative Results of Operations                                     322,379       13,883,676                  0        13,883,676           11,913,102
              TOTAL NET POSITION                                                       $322,379      $13,895,636                 $0       $13,895,636          $11,943,145
              TOTAL LIABILITIES AND NET POSITION                                       $187,884      $15,319,744                 $0       $15,319,744          $13,310,297

              The accompanying notes are an integral part of these statements.
                                                                                                                   Army Working Capital Fund Principal Notes and Statements 243
03WCFStatements12-15.qxd        12/15/2003          5:03 PM       Page 244




              Consolidating Statement of Net Costs
              Department of Defense • Department of the Army, Army Working Capital Fund
              For the Years Ended September 30, 2003 and 2002 ($ in thousands)

              Program Costs                                                               Combined Total   Eliminations   2003 Consolidated   2002 Consolidated
              Component Level
                    Intragovernmental Gross Costs                                           ($4,454,511)           $0          ($4,454,511)                  $0
                   (Less: Intragovernmental Earned Revenue)                                   1,476,501             0            1,476,501                    0
                   Intragovernmental Net Costs                                              ($2,978,010)           $0          ($2,978,010)                  $0
                   Gross Costs With the Public                                               $3,013,541            $0           $3,013,541                 $506
                   (Less: Earned Revenue From the Public)                                             0             0                    0                    0
                   Net Costs With the Public                                                 $3,013,541            $0           $3,013,541                 $506
                   Total Net Cost                                                               $35,531            $0              $35,531                 $506

              Depot Maintenance
                  Intragovernmental Gross Costs                                                $561,486            $0             $561,486            $566,107
                  (Less: Intragovernmental Earned Revenue)                                   (1,997,588)            0           (1,997,588)           (980,816)
                  Intragovernmental Net Costs                                               ($1,436,102)           $0          ($1,436,102)          ($414,709)
                  Gross Costs With the Public                                                $1,532,077            $0           $1,532,077            $856,033
                  (Less: Earned Revenue From the Public)                                        (36,285)            0              (36,285)            (41,331)
                  Net Costs With the Public                                                  $1,495,792            $0           $1,495,792            $814,702
                  Total Net Cost                                                                $59,690            $0              $59,690            $399,993

              Information Service
                   Intragovernmental Gross Costs                                                 $4,278            $0               $4,278              $10,526
                   (Less: Intragovernmental Earned Revenue)                                     (96,444)            0              (96,444)             (44,200)
                   Intragovernmental Net Costs                                                 ($92,166)           $0             ($92,166)            ($33,674)
                   Gross Costs With the Public                                                  $86,500            $0              $86,500              $80,279
                   (Less: Earned Revenue From the Public)                                             0             0                    0               (1,675)
                   Net Costs With the Public                                                    $86,500            $0              $86,500              $78,604
                   Total Net Cost                                                               ($5,666)           $0              ($5,666)             $44,930




                                                                                                                                               The accompanying notes are an integral part of these statements.
                 244 Fiscal Year 2003 Army Annual Financial Statement
03WCFStatements12-15.qxd         12/15/2003          5:03 PM         Page 245




                                                                                                                                       Consolidating Statement of Net Costs
                                                                                                                                                       Department of Defense • Department of the Army
                                                                                                                                     For the Years Ended September 30, 2003 and 2002 ($ in thousands)

              Program Costs                                                      Combined Total   Eliminations   2003 Consolidated    2002 Consolidated
              Ordnance
                   Intragovernmental Gross Costs                                       $54,744            $0             $54,744                $86,339
                   (Less: Intragovernmental Earned Revenue)                           (687,834)            0            (687,834)              (514,825)
                   Intragovernmental Net Costs                                       ($633,090)           $0           ($633,090)             ($428,486)
                   Gross Costs With the Public                                         794,785             0             794,785                613,539
                   (Less: Earned Revenue From the Public)                              (23,831)            0             (23,831)               (82,203)
                   Net Costs With the Public                                          $770,954            $0            $770,954               $531,336
                   Total Net Cost                                                     $137,864            $0            $137,864               $102,850

              Supply Management
                  Intragovernmental Gross Costs                                     $6,485,520            $0           $6,485,520              $761,494
                  (Less: Intragovernmental Earned Revenue)                          (8,978,526)            0           (8,978,526)           (5,310,065)
                  Intragovernmental Net Costs                                      ($2,493,006)           $0          ($2,493,006)          ($4,548,571)
                  Gross Costs With the Public                                        1,907,128             0            1,907,128             4,808,356
                  (Less: Earned Revenue From the Public)                              (161,971)            0             (161,971)             (219,962)
                  Net Costs With the Public                                         $1,745,157            $0           $1,745,157            $4,588,394
                  Total Net Cost                                                     ($747,849)           $0            ($747,849)              $39,823

              Total Program Costs
                   Intragovernmental Gross Costs                                    $2,651,517            $0           $2,651,517            $1,424,466
                   (Less: Intragovernmental Earned Revenue)                        (10,283,891)            0          (10,283,891)           (6,849,906)
                   Intragovernmental Net Costs                                     ($7,632,374)           $0          ($7,632,374)          ($5,425,440)
                   Gross Costs With the Public                                       7,334,031             0            7,334,031             6,358,713
                   (Less: Earned Revenue From the Public)                             (222,087)            0             (222,087)             (345,171)
                   Net Costs With the Public                                        $7,111,944            $0           $7,111,944            $6,013,542
                   Total Net Cost                                                    ($520,430)           $0            ($520,430)             $588,102
              Cost Not Assigned to Programs                                                 $0            $0                   $0                    $0
              (Less:Earned Revenue Not Attributable to Programs)                             0             0                    0                     0
              Net Cost of Operations                                                 ($520,430)           $0            ($520,430)             $588,102




              The accompanying notes are an integral part of these statements.
                                                                                                                     Army Working Capital Fund Principal Notes and Statements 245
03WCFStatements12-15.qxd        12/15/2003          5:03 PM       Page 246




              Consolidating Statement of Changes in Net Position
              Department of Defense • Department of the Army, Army Working Capital Fund
              For the Years Ended September 30, 2003 and 2002 ($ in thousands)

              CUMULATIVE RESULTS OF OPERATIONS                                            Depot Maintenance   Supply Management    Information Service           Ordnance
              Beginning Balances                                                                  $349,920           $11,012,547              ($8,970)          $201,695
              Prior period adjustments (+/-)                                                             0                     0                    0                  0
              Beginning Balances, as adjusted                                                     $349,920           $11,012,547              ($8,970)          $201,695
              Budgetary Financing Sources:
                   Appropriations received                                                               0                    0                      0                  0
                   Appropriations transferred-in/out (+/-)                                               0                    0                      0                  0
                   Other adjustments (rescissions, etc) (+/-)                                            0                    0                      0                  0
                   Appropriations used                                                               5,826              207,083                      0             54,174
                   Nonexchange revenue                                                                   0                    0                      0                  0
                   Donations and forfeitures of cash and cash equivalents                                0                    0                      0                  0
                   Transfers-in/out without reimbursement (+/-)                                          0                    0                      0                  0
                   Other budgetary financing sources (+/-)                                               0              (63,903)                     0                  0
              Other Financing Sources:
                   Donations and forfeitures of property                                                 0                    0                    0                   0
                   Transfers-in/out without reimbursement (+/-)                                    (33,956)           1,155,715                  141            (145,777)
                   Imputed financing from costs absorbed by others                                  76,306               17,310                2,424              25,271
                   Other (+/-)                                                                           0              149,530                    0                   0
              Total Financing Sources                                                              $48,176           $1,465,735               $2,565            ($66,332)
              Net Cost of Operations (+/-)                                                          59,690             (747,849)              (5,666)            137,864
              Ending Balances                                                                     $338,406          $13,226,131                ($739)            ($2,501)

              UNEXPENDED APPROPRIATIONS
              Beginning Balances                                                                        $0              $30,043                    $0                   $0
              Prior period adjustments (+/-)                                                             0                    0                     0                    0
              Beginning Balances, as adjusted                                                           $0              $30,043                    $0                   $0
              Budgetary Financing Sources:
                   Appropriations received                                                           5,826              189,000                      0             54,174
                   Appropriations transferred-in/out (+/-)                                               0                    0                      0                  0
                   Other adjustments (rescissions, etc) (+/-)                                            0                    0                      0                  0
                   Appropriations used                                                              (5,826)            (207,083)                     0            (54,174)
                   Nonexchange revenue                                                                   0                    0                      0                  0
                   Donations and forfeitures of cash and cash equivalents                                0                    0                      0                  0
                   Transfers-in/out without reimbursement (+/-)                                          0                    0                      0                  0
                   Other budgetary financing sources (+/-)                                               0                    0                      0                  0
              Other Financing Sources:
                   Donations and forfeitures of property                                                 0                    0                     0                    0
                   Transfers-in/out without reimbursement (+/-)                                          0                    0                     0                    0
                   Imputed financing from costs absorbed by others                                       0                    0                     0                    0
                   Other (+/-)                                                                           0                    0                     0                    0
              Total Financing Sources                                                                   $0             ($18,083)                   $0                   $0
              Net Cost of Operations (+/-)                                                               0                    0                     0                    0
              Ending Balances                                                                           $0              $11,960                    $0                   $0
                                                                                                                                            The accompanying notes are an integral part of these statements.
                 246 Fiscal Year 2003 Army Annual Financial Statement
03WCFStatements12-15.qxd         12/15/2003          5:03 PM         Page 247




                                                                                                                    Consolidating Statement of Changes in Net Position
                                                                                                                                                      Department of Defense • Department of the Army
                                                                                                                                    For the Years Ended September 30, 2003 and 2002 ($ in thousands)

              CUMULATIVE RESULTS OF OPERATIONS                                   Component Level   Combined Total    Eliminations     2003 Consolidated           2002 Consolidated
              Beginning Balances                                                      $357,910       $11,913,102              $0           $11,913,102                 $11,767,917
              Prior period adjustments (+/-)                                                  0                0               0                     0                           0
              Beginning Balances, as adjusted                                         $357,910       $11,913,102              $0           $11,913,102                 $11,767,917
              Budgetary Financing Sources:
                   Appropriations received                                                    0               0               0                       0                            0
                   Appropriations transferred-in/out (+/-)                                    0               0               0                       0                            0
                   Other adjustments (rescissions, etc) (+/-)                                 0               0               0                       0                            0
                   Appropriations used                                                        0         267,083               0                 267,083                      176,217
                   Nonexchange revenue                                                        0               0               0                       0                      170,039
                   Donations and forfeitures of cash and cash equivalents                     0               0               0                       0                            0
                   Transfers-in/out without reimbursement (+/-)                               0               0               0                       0                            0
                   Other budgetary financing sources (+/-)                                    0         (63,903)              0                 (63,903)                     202,799
              Other Financing Sources:
                   Donations and forfeitures of property                                      0                0              0                      0                            0
                   Transfers-in/out without reimbursement (+/-)                         (67,534)         908,589              0                908,589                       74,348
                   Imputed financing from costs absorbed by others                            0          121,311              0                121,311                      109,884
                   Other (+/-)                                                           67,534          217,064              0                217,064                            0
              Total Financing Sources                                                        $0       $1,450,144             $0             $1,450,144                     $733,287
              Net Cost of Operations (+/-)                                               35,531         (520,430)             0               (520,430)                     588,102
              Ending Balances                                                          $322,379      $13,883,676             $0            $13,883,676                  $11,913,102

              UNEXPENDED APPROPRIATIONS
              Beginning Balances                                                             $0         $30,043              $0                 $30,043                      $38,860
              Prior period adjustments (+/-)                                                  0               0               0                       0                            0
              Beginning Balances, as adjusted                                                $0         $30,043              $0                 $30,043                      $38,860
              Budgetary Financing Sources:
                   Appropriations received                                                    0          249,000              0                 249,000                      167,400
                   Appropriations transferred-in/out (+/-)                                    0                0              0                       0                            0
                   Other adjustments (rescissions, etc) (+/-)                                 0                0              0                       0                            0
                   Appropriations used                                                        0         (267,083)             0                (267,083)                    (176,217)
                   Nonexchange revenue                                                        0                0              0                       0                            0
                   Donations and forfeitures of cash and cash equivalents                     0                0              0                       0                            0
                   Transfers-in/out without reimbursement (+/-)                               0                0              0                       0                            0
                   Other budgetary financing sources (+/-)                                    0                0              0                       0                            0
              Other Financing Sources:
                   Donations and forfeitures of property                                      0                0              0                       0                            0
                   Transfers-in/out without reimbursement (+/-)                               0                0              0                       0                            0
                   Imputed financing from costs absorbed by others                            0                0              0                       0                            0
                   Other (+/-)                                                                0                0              0                       0                            0
              Total Financing Sources                                                        $0         ($18,083)            $0                ($18,083)                     ($8,817)
              Net Cost of Operations (+/-)                                                    0                0              0                       0                            0
              Ending Balances                                                                $0          $11,960             $0                 $11,960                      $30,043
              The accompanying notes are an integral part of these statements.
                                                                                                                    Army Working Capital Fund Principal Notes and Statements 247
03WCFStatements12-15.qxd        12/15/2003          5:03 PM       Page 248




              Combining Statement of Budgetary Resources
              Department of Defense • Department of the Army, Army Working Capital Fund
              For the Years Ended September 30, 2003 and 2002 ($ in thousands)

              BUDGETARY FINANCING ACCOUNTS
              BUDGETARY RESOURCES                                                         Depot Maintenance   Supply Management   Information Service           Ordnance
              Budget Authority:
                   Appropriations received                                                          $5,826            $189,000                   $0             $54,174
                   Borrowing authority                                                                   0                   0                    0                   0
                   Contract authority                                                                2,689              62,986                    0               1,952
                   Net transfers (+/-)                                                                   0                   0                    0                   0
                   Other                                                                                 0                   0                    0                   0
              Unobligated balance:
              Beginning of period                                                                  983,916               1,106               39,966             583,259
                   Net transfers, actual (+/-)                                                           0                   0                    0                   0
                   Anticipated Transfers balances                                                        0                   0                    0                   0
              Spending authority from offsetting collections:
                Earned                                                                                   0                   0                    0                   0
                   Collected                                                                     1,915,625           6,938,004               99,145             693,283
                   Receivable from Federal sources                                                  96,868             121,769               (2,598)             18,382
                Change in unfilled customer orders                                                       0                   0                    0                   0
                   Advance received                                                                (34,252)             (1,757)                 (47)           (143,183)
                   Without advance from Federal sources                                            551,632           1,550,997              (15,363)            263,886
                Anticipated for the rest of year, without advances                                       0                   0                    0                   0
                Transfers from trust funds                                                               0                   0                    0                   0
                Subtotal                                                                        $2,529,873          $8,609,013              $81,137            $832,368
              Recoveries of prior year obligations                                                   2,346             580,338                    0               5,275
              Temporarily not available pursuant to Public Law                                           0                   0                    0                   0
              Permanently not available                                                                  0                   0                    0                   0
              Total Budgetary Resources                                                         $3,524,650          $9,442,443             $121,103          $1,477,028




                                                                                                                                                 The accompanying notes are an integral part of these statements.
                 248 Fiscal Year 2003 Army Annual Financial Statement
03WCFStatements12-15.qxd         12/15/2003          5:03 PM         Page 249




                                                                                                                          Combining Statement of Budgetary Resources
                                                                                                                                                      Department of Defense • Department of the Army
                                                                                                                                    For the Years Ended September 30, 2003 and 2002 ($ in thousands)

              BUDGETARY FINANCING ACCOUNTS
              BUDGETARY RESOURCES                                                Component Level   2003 Combined            2002 Combined
              Budget Authority:
                   Appropriations received                                                   $0        $249,000                 $167,400
                   Borrowing authority                                                        0               0                        0
                   Contract authority                                                         0          67,627                   66,607
                   Net transfers (+/-)                                                        0               0                        0
                   Other                                                                      0               0                        0
              Unobligated balance:
              Beginning of period                                                       100,000       1,708,247                 1,505,447
                   Net transfers, actual (+/-)                                                0               0                         0
                   Anticipated Transfers balances                                             0               0                         0
              Spending authority from offsetting collections:
                Earned                                                                        0               0                         0
                   Collected                                                             (1,754)      9,644,303                 6,145,494
                   Receivable from Federal sources                                        1,754         236,175                   (55,125)
                Change in unfilled customer orders                                            0               0                         0
                   Advance received                                                           0        (179,239)                  128,906
                   Without advance from Federal sources                                       0       2,351,152                   177,233
                Anticipated for the rest of year, without advances                            0               0                         0
                Transfers from trust funds                                                    0               0                         0
                Subtotal                                                                     $0     $12,052,391                $6,396,508
              Recoveries of prior year obligations                                            0         587,959                   403,899
              Temporarily not available pursuant to Public Law                                0               0                         0
              Permanently not available                                                       0               0                         0
              Total Budgetary Resources                                                $100,000     $14,665,224                $8,539,861




              The accompanying notes are an integral part of these statements.
                                                                                                                   Army Working Capital Fund Principal Notes and Statements 249
03WCFStatements12-15.qxd        12/15/2003          5:03 PM       Page 250




              Combining Statement of Budgetary Resources
              Department of Defense • Department of the Army, Army Working Capital Fund
              For the Years Ended September 30, 2003 and 2002 ($ in thousands)

              STATUS OF BUDGETARY RESOURCES                                               Depot Maintenance     Supply Management      Information Service         Ordnance
              Obligations incurred:
                   Direct                                                                             $5,826              $189,028                     $0             $54,174
                   Reimbursable                                                                    2,179,368             9,229,749                106,985             806,391
                   Subtotal                                                                        2,185,194             9,418,777                106,985             860,565
              Unobligated balance:
                   Apportioned                                                                     1,339,456                23,666                 14,119             616,463
                   Exempt from apportionment                                                               0                     0                      0                   0
                   Other available                                                                         0                     0                     (1)                  0
              Unobligated Balances Not Available                                                           0                     0                      0                   0
              Total, Status of Budgetary Resources                                                $3,524,650            $9,442,443               $121,103          $1,477,028

              RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
              Obligated Balance, Net - beginning of period                                         ($297,297)           $1,548,399               ($28,823)          ($196,731)
              Obligated Balance transferred, net (+/-)                                                     0                     0                      0                   0
              Obligated Balance, Net - end of period:
                   Accounts receivable                                                              (158,355)              (255,556)                (6,636)           (56,792)
                   Unfilled customer order from Federal sources                                   (1,192,101)            (2,848,219)               (22,522)          (588,771)
                   Undelivered orders                                                                447,543              5,463,411                 20,612            189,368
                   Accounts payable                                                                  230,583                674,971                 13,531             50,549
              Outlays:
                   Disbursements                                                                   1,909,381              5,679,465                 91,136            781,937
                   Collections                                                                    (1,881,373)            (6,936,248)               (99,098)          (550,099)
                   Subtotal                                                                          $28,008            ($1,256,783)               ($7,962)          $231,838
              Less: Offsetting receipts                                                                    0                      0                      0                  0
              Net Outlays                                                                            $28,008            ($1,256,783)               ($7,962)          $231,838




                                                                                                                                                       The accompanying notes are an integral part of these statements.
                 250 Fiscal Year 2003 Army Annual Financial Statement
03WCFStatements12-15.qxd         12/15/2003          5:03 PM         Page 251




                                                                                                                                  Combining Statement of Budgetary Resources
                                                                                                                                                              Department of Defense • Department of the Army
                                                                                                                                            For the Years Ended September 30, 2003 and 2002 ($ in thousands)

              STATUS OF BUDGETARY RESOURCES                                      Component Level      2003 Combined              2002 Combined
              Obligations incurred:
                   Direct                                                                      $0             $249,028                   $171,652
                   Reimbursable                                                                 0           12,322,493                  6,659,961
                   Subtotal                                                                     0           12,571,521                  6,831,613
              Unobligated balance:
                   Apportioned                                                            100,000            2,093,704                  1,708,248
                   Exempt from apportionment                                                    0                    0                          0
                   Other available                                                              0                   (1)                         0
              Unobligated Balances Not Available                                                0                    0                          0
              Total, Status of Budgetary Resources                                       $100,000          $14,665,224                 $8,539,861

              RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
              Obligated Balance, Net - beginning of period                               ($106,881)           $918,667                 $1,129,489
              Obligated Balance transferred, net (+/-)                                           0                   0                          0
              Obligated Balance, Net - end of period:
                   Accounts receivable                                                     (39,040)            (516,379)                 (280,204)
                   Unfilled customer order from Federal sources                                  0           (4,651,613)               (2,300,462)
                   Undelivered orders                                                      (35,861)           6,085,073                 2,770,002
                   Accounts payable                                                         11,616              981,250                   729,331
              Outlays:
                   Disbursements                                                           (45,348)           8,416,571                 6,516,428
                   Collections                                                               1,754           (9,465,064)               (6,274,399)
                   Subtotal                                                               ($43,594)         ($1,048,493)                $242,029
              Less: Offsetting receipts                                                          0                    0                         0
              Net Outlays                                                                 ($43,594)         ($1,048,493)                $242,029




              The accompanying notes are an integral part of these statements.
                                                                                                                           Army Working Capital Fund Principal Notes and Statements 251
03WCFStatements12-15.qxd        12/15/2003          5:03 PM       Page 252




              Combining Statement of Financing
              Department of Defense • Department of the Army, Army Working Capital Fund
              For the Years Ended September 30, 2003 and 2002 ($ in thousands)

              Resources Used to Finance Activities:                                       Depot Maintenance   Supply Management    Information Service                Ordnance
                  Budgetary Resources Obligated
                  Obligations incurred                                                          $2,185,194          $9,418,777               $106,985                $860,565
                  Less: Spending authority from offsetting collections
                    and recoveries (-)                                                          (2,532,218)          (9,189,351)               (81,137)              (837,642)

                   Obligations net of offsetting collections and recoveries                      ($347,024)           $229,426                 $25,848                $22,923
                   Less: Offsetting receipts (-)                                                         0                   0                       0                      0
                Net obligations                                                                  ($347,024)           $229,426                 $25,848                $22,923
              Other Resources
                   Donations and forfeitures of property                                                 0                   0                       0                      0
                   Transfers in/out without reimbursement (+/-)                                    (33,956)          1,155,715                     141               (145,777)
                   Imputed financing from costs absorbed by others                                  76,306              17,310                   2,424                 25,271
                   Other (+/-)                                                                           0             149,530                       0                      0
                   Net other resources used to finance activities                                  $42,350          $1,322,555                  $2,565              ($120,506)
              Total resources used to finance activities                                         ($304,674)         $1,551,981                 $28,413               ($97,583)

              Resources Used to Finance Items not Part of the Net Cost of Operations
                   Change in budgetary resources obligated for goods,
                   services and benefits ordered but not yet provided
                   Undelivered Orders (-)                                                        ($177,959)         ($3,074,737)              ($18,352)              ($65,916)
                   Unfilled Customer Orders                                                        517,379            1,549,240                (15,410)               120,702
                   Resources that fund expenses recognized in prior periods                              0               (2,372)                  (393)                     0
                   Budgetary offsetting collections and receipts that                                    0                    0                      0                      0
                   do not affect net cost of operations
                   Resources that finance the acquisition of assets                                (29,299)           (441,379)                     (24)              146,483
                   Other resources or adjustments to net obligated resources
                    that do not affect net cost of operations
                    Less: Trust or Special Fund Receipts Related to Exchange                             0                    0                       0                       0
                         in the Entity's Budget (-)
                   Other (+/-)                                                                           0                    0                       0                       0
              Total resources used to finance items not
              part of the net cost of operations                                                  $310,121          ($1,969,248)              ($34,179)              $201,269
              Total resources used to finance the net cost of operations                            $5,447            ($417,267)               ($5,766)              $103,686




                                                                                                                                   The accompanying notes are an integral part of these statements.
                 252 Fiscal Year 2003 Army Annual Financial Statement
03WCFStatements12-15.qxd         12/15/2003          5:03 PM         Page 253




                                                                                                                                Combining Statement of Financing
                                                                                                                                            Department of Defense • Department of the Army
                                                                                                                          For the Years Ended September 30, 2003 and 2002 ($ in thousands)

              Resources Used to Finance Activities:                                    Component Level   2003 Combined           2002 Combined
                  Budgetary Resources Obligated
                  Obligations incurred                                                            $0       $12,571,521               $6,831,613
                  Less: Spending authority from offsetting collections
                    and recoveries (-)                                                              0      (12,640,348)              (6,800,407)

                   Obligations net of offsetting collections and recoveries                       $0          ($68,827)                 $31,206
                   Less: Offsetting receipts (-)                                                   0                 0                        0
                Net obligations                                                                   $0          ($68,827)                 $31,206
              Other Resources
                   Donations and forfeitures of property                                            0                0                        0
                   Transfers in/out without reimbursement (+/-)                               (67,534)         908,589                        0
                   Imputed financing from costs absorbed by others                                  0          121,311                  109,884
                   Other (+/-)                                                                 67,534          217,064                        0
                   Net other resources used to finance activities                                  $0       $1,246,964                 $109,884
              Total resources used to finance activities                                           $0       $1,178,137                 $141,090

              Resources Used to Finance Items not Part of the Net Cost of Operations
                   Change in budgetary resources obligated for goods,
                   services and benefits ordered but not yet provided
                   Undelivered Orders (-)                                                     $35,531      ($3,301,433)                $259,206
                   Unfilled Customer Orders                                                         0        2,171,911                  306,139
                   Resources that fund expenses recognized in prior periods                         0           (2,765)                  (4,133)
                   Budgetary offsetting collections and receipts that                               0                0                        0
                   do not affect net cost of operations
                   Resources that finance the acquisition of assets                                 0         (324,219)                (338,258)
                   Other resources or adjustments to net obligated resources
                    that do not affect net cost of operations
                    Less: Trust or Special Fund Receipts Related to Exchange                        0                0                          0
                         in the Entity's Budget (-)
                   Other (+/-)                                                                      0                0                          0
              Total resources used to finance items not
              part of the net cost of operations                                              $35,531      ($1,456,506)                $222,954
              Total resources used to finance the net cost of operations                      $35,531        ($278,369)                $364,044




              The accompanying notes are an integral part of these statements.
                                                                                                         Army Working Capital Fund Principal Notes and Statements 253
03WCFStatements12-15.qxd        12/15/2003          5:03 PM       Page 254




              Combining Statement of Financing
              Department of Defense • Department of the Army, Army Working Capital Fund
              For the Years Ended September 30, 2003 and 2002 ($ in thousands)

              Components of the Net Cost of Operations that will
              not Require or Generate Resources in the Current Period:                    Depot Maintenance   Supply Management   Information Service                Ordnance
                   Components Requiring or Generating Resources in Future Periods:
                   Increase in annual leave liability                                                 $657                  $0                      $0                $1,338
                   Increase in environmental and disposal liability                                      0                   0                       0                     0
                   Upward/Downward reestimates of credit subsidy expense (+/-)                           0                   0                       0                     0
                   Increase in exchange revenue receivable from the the public (-)                    (616)             (3,557)                      0                (1,906)
                   Other (+/-)                                                                       3,426                   0                       0                13,040
                   Total components of Net Cost of Operations that                                  $3,467             ($3,557)                     $0               $12,472
                   will require or generate resources in future periods
                   Components not Requiring or Generating Resources:
                   Depreciation and amortization                                                   123,795              39,244                     100                 30,954
                   Revaluation of assets or liabilities (+/-)                                      (73,019)           (366,269)                      0                 (9,248)
                   Other (+/-)                                                                           0                   0                       0                      0
                   Total components of Net Cost of Operations that
                    will not require or generate resources                                         $50,776           ($327,025)                  $100                $21,706

              Total components of net cost of operations that
               will not require or generate resources in the current period                        $54,243           ($330,582)                  $100                $34,178
              Net Cost of Operations                                                               $59,690           ($747,849)               ($5,666)              $137,864




                                                                                                                                  The accompanying notes are an integral part of these statements.
                 254 Fiscal Year 2003 Army Annual Financial Statement
03WCFStatements12-15.qxd         12/15/2003          5:03 PM         Page 255




                                                                                                                              Combining Statement of Financing
                                                                                                                                          Department of Defense • Department of the Army
                                                                                                                        For the Years Ended September 30, 2003 and 2002 ($ in thousands)

              Components of the Net Cost of Operations that will
              not Require or Generate Resources in the Current Period:               Component Level   2003 Combined           2002 Combined
                   Components Requiring or Generating Resources in Future Periods:
                   Increase in annual leave liability                                           $0           $1,995                    $2,211
                   Increase in environmental and disposal liability                              0                0                         0
                   Upward/Downward reestimates of credit subsidy expense (+/-)                   0                0                         0
                   Increase in exchange revenue receivable from the the public (-)               0           (6,079)                        0
                   Other (+/-)                                                                   0           16,466                     1,128
                   Total components of Net Cost of Operations that                              $0          $12,382                    $3,339
                   will require or generate resources in future periods
                   Components not Requiring or Generating Resources:
                   Depreciation and amortization                                                  0          194,093                  105,065
                   Revaluation of assets or liabilities (+/-)                                     0         (448,536)                 107,703
                   Other (+/-)                                                                    0                0                    7,951
                   Total components of Net Cost of Operations that
                    will not require or generate resources                                       $0       ($254,443)                 $220,719

              Total components of net cost of operations that
               will not require or generate resources in the current period                      $0       ($242,061)                 $224,058
              Net Cost of Operations                                                        $35,531       ($520,430)                 $588,102




              The accompanying notes are an integral part of these statements.
                                                                                                       Army Working Capital Fund Principal Notes and Statements 255
03WCFStatements12-15.qxd        12/15/2003          5:03 PM       Page 256




              Statement of Dissagregated Budgetary Resources
              Department of Defense • Department of the Army, Army Working Capital Fund
              For the Years Ended September 30, 2003 and 2002 ($ in thousands)

              BUDGETARY RESOURCES                                                         Working Capital Funds   2003 Combined   2002 Combined
              Budget Authority:
                   Appropriations received                                                           $249,000         $249,000        $167,400
                   Borrowing authority                                                                      0                0               0
                   Contract authority                                                                  67,627           67,627          66,607
                   Net transfers (+/-)                                                                      0                0               0
                   Other                                                                                    0                0               0
              Unobligated balance:
                   Beginning of period                                                              1,708,248        1,708,247       1,505,447
                   Net transfers, actual (+/-)                                                              0                0               0
                   Anticipated Transfers Balances                                                           0                0               0
              Spending authority from offsetting collections:
                   Earned                                                                                   0                0               0
                   Collected                                                                        9,644,303        9,644,303       6,145,494
                   Receivable from Federal sources                                                    236,175          236,175         (55,125)
                   Change in unfilled customer orders                                                       0                0               0
                   Advance received                                                                  (179,240)        (179,239)        128,906
                   Without advance from Federal sources                                             2,351,151        2,351,152         177,233
                   Anticipated for the rest of year, without advances                                       0                0               0
                   Transfers from trust funds                                                              $0               $0              $0
                   Subtotal                                                                       $12,052,389      $12,052,391      $6,396,508
              Recoveries of prior year obligations                                                    587,959          587,959         403,899
              Temporarily not available pursuant to Public Law                                              0                0               0
              Permanently not available                                                                     0                0               0
              Total Budgetary Resources                                                           $14,665,223      $14,665,224      $8,539,861




                                                                                                                                          The accompanying notes are an integral part of these statements.
                 256 Fiscal Year 2003 Army Annual Financial Statement
03WCFStatements12-15.qxd         12/15/2003          5:03 PM         Page 257




                                                                                                                          Statement of Dissagregated Budgetary Resources
                                                                                                                                                       Department of Defense • Department of the Army
                                                                                                                                     For the Years Ended September 30, 2003 and 2002 ($ in thousands)

              STATUS OF BUDGETARY RESOURCES                                      Working Capital Funds   2003 Combined         2002 Combined
              Obligations incurred:
                   Direct                                                                   $249,028         $249,028              $171,652
                   Reimbursable                                                           12,322,493       12,322,493              6,659,961
                   Subtotal                                                               12,571,521       12,571,521              6,831,613
              Unobligated balance:
                   Apportioned                                                             2,093,704        2,093,704              1,708,248
                   Exempt from apportionment                                                       0                0                      0
                   Other available                                                                 0               (1)                     0
                   Unobligated Balances Not Available                                              0                0                      0
              Total, Status of Budgetary Resources                                       $14,665,225      $14,665,224             $8,539,861
              Relationship of Obligations to Outlays:
                   Obligated Balance, Net- beginning of period                              $918,667         $918,667             $1,129,489
                   Obligated Balance transferred, net (+/-)                                        0                0                      0
                   Obligated Balance, Net- end of period:
                   Accounts receivable                                                       (516,379)        (516,379)             (280,204)
                   Unfilled customer order from Federal sources                            (4,651,613)      (4,651,613)           (2,300,462)
                   Undelivered orders                                                       6,085,073        6,085,073             2,770,002
                   Accounts payable                                                           981,250          981,250               729,331
              Outlays:
                   Disbursements                                                            8,416,571        8,416,571             6,516,428
                   Collections                                                             (9,465,063)      (9,465,064)           (6,274,399)
                   Subtotal                                                               ($1,048,492)     ($1,048,493)            $242,029
              Less: Offsetting receipts                                                             0                0                     0
              Net Outlays                                                                 ($1,048,492)     ($1,048,493)             $242,029




              The accompanying notes are an integral part of these statements.
                                                                                                                   Army Working Capital Fund Principal Notes and Statements 257
03WCFStatements12-15.qxd     12/15/2003       5:03 PM     Page 258




              Required Supplementary Information

                                                                                                            Governmental Transactions from the Consolidating Trial Balance

              Schedule, Part A DoD Intragovernmental Asset Balances                      Fund Balance with       Accounts         Loans
                                                                       Treasury Index:                                                         Investments       Other
              ($ Amounts in Thousands)                                                       Treasury           Receivable      Receivable
              Department of Agriculture                                     12                                          $56
              Department of Commerce                                        13                                            $1
              Department of the Interior                                    14                                            $2
              Department of Justice                                         15                                            $6
              Navy General Fund                                             17                                       $8,817
              United States Postal Service                                  18                                            $3
              Department of State                                           19                                          $64
              Department of the Treasury                                    20                 $1,548,546               $67
              Army General Fund                                             21                                     $365,836                                          $30
              General Service Administration                                47                                         $863
              Air Force General Fund                                        57                                       $4,453
              Federal Emergency Management Agency                           58                                       $1,156
              Department of Transportation                                  69                                         $271
              Department of Health and Human Services                       75                                            $4
              National Aeronautics and Space Administration                 80                                          $18
              Department of Energy                                          89                                            $3
              Other Defense Organizations General Funds                     97                                       $5,060
              Other Defense Organizations Working Capital Funds           97-4930                                    $2,794
              Navy Working Capital Fund                                 97-4930.002                                  $9,085
              Air Force Working Capital Fund                            97-4930.003                                 $12,655                                         $299
              Homeland Security                                                                                         $42
                   Totals:                                                                    $1,548,546           $411,256                                         $329




                258 Fiscal Year 2003 Army Annual Financial Statement
03WCFStatements12-15.qxd    12/15/2003     5:03 PM     Page 259




                                                                                                                                 Required Supplementary Information

                                                                                                       Governmental Transactions from the Consolidating Trial Balance

              Schedule, Part B DoD Intragovernmental Entity Liabilities ($                                           Debts/Borrowings From Other
                                                                             Treasury Index:   Accounts Payable                                           Other
              Amounts in Thousands)                                                                                            Agencies
              Department of Labor                                                 16                                                                       $50,462
              Navy General Fund                                                   17                                                                           $95
              Army General Fund                                                   21                      $19,113                                          $28,985
              Office of Personnel Management                                      24                                                                       $11,364
              General Service Administration                                      47                                                                          $112
              Air Force General Fund                                              57                                                                          $643
              Department of Transportation                                        69                                                                          $100
              Department of Health and Human Services                             75                                                                           $50
              Other Defense Organizations General Funds                           97                      $3,257                                            $1,703
              Other Defense Organizations Working Capital Funds                 97-4930                 $411,663                                               $50
              Navy Working Capital Fund                                       97-4930.002                 $1,141                                              $933
              Air Force Working Capital Fund                                  97-4930.003                   $412                                                $3
                   Totals:                                                                              $435,586                                           $94,500




                                                                                                            Army Working Capital Fund Principal Notes and Statements 259
03WCFStatements12-15.qxd     12/15/2003       5:03 PM     Page 260




              Required Supplementary Information

                                                                                                           Governmental Transactions from the Consolidating Trial Balance

              Schedule, Part C DoD Intragovernmental Revenue and Related Costs. ($ Amounts in Thousands)                      Treasury Index:        Earned Revenue
              Department of Agriculture                                                                                             12                             $19
              Department of the Interior                                                                                            14                             $29
              Department of Justice                                                                                                 15                              $2
              Navy General Fund                                                                                                     17                        $382,891
              United States Postal Service                                                                                          18                             $13
              Department of State                                                                                                   19                            $146
              Department of the Treasury                                                                                            20                            $195
              Army General Fund                                                                                                     21                      $9,144,909
              General Service Administration                                                                                        47                          $1,307
              Air Force General Fund                                                                                                57                         $50,297
              Department of Transportation                                                                                          69                              $1
              Department of Energy                                                                                                  89                             $41
              US Army Corps of Engineers                                                                                            96                            $366
              Other Defense Organizations General Funds                                                                             97                        $230,172
              Other Defense Organizations Working Capital Funds                                                                  97-4930                       $32,133
              Navy Working Capital Fund                                                                                        97-4930.002                    $147,650
              Air Force Working Capital Fund                                                                                   97-4930.003                    $282,984
              Homeland Security                                                                                                                                $10,737
                   Totals                                                                                                                                 $10,283,892




                260 Fiscal Year 2003 Army Annual Financial Statement
03WCFStatements12-15.qxd   12/15/2003     5:03 PM    Page 261




                                                                                                                                 Required Supplementary Information

                                                                                                       Governmental Transactions from the Consolidating Trial Balance

              Schedule, Part E DoD Intragovernmental Non-exchange Revenues. ($ Amounts in Thousands)         Treasury Index:        Transfers In      Transfers Out
              Army General Fund                                                                                    21                   $918,816             $10,228
                  Totals:                                                                                                               $918,816             $10,228




                                                                                                            Army Working Capital Fund Principal Notes and Statements 261
03WCFStatements12-15.qxd         12/15/2003        5:03 PM      Page 262




                                                                                                     INSPECTOR GENERAL
                                                                                                    DEPARTMENT OF DEFENSE
                                                                                                      400 ARMY NAVY DRIVE
                                                                                                    ARLINGTON, VIRGINIA 22202

                                                                                                                                                                                                    December 3, 2003

                                                                 MEMORANDUM FOR ASSISTANT SECRETARY OF THE ARMY (FINANCIAL
                                                                             MANAGEMENT AND COMPTROLLER)

                                                                 SUBJECT: Independent Auditor's Report on the Army Working Capital Fund
                                                                          Fiscal Year 2003 Principal Financial Statements (Report No. D-2004-029)

              The Chief Financial Officers (CFO) Act of 1990, as amended, requires the Inspector General of the Department of Defense to audit the accompanying Consolidated
              Balance Sheet of the Army Working Capital Fund as of September 30, 2003 and 2002, and the related Consolidated Statement of Net Cost, Statement of Changes in
              Net Position, Combined Statement of Financing, and Combined Statement of Budgetary Resources for the fiscal years then ended. These financial statements are the
              responsibility of Army Working Capital Fund management. The Army Working Capital Fund management is also responsible for implementing effective internal
              control and for complying with laws and regulations. In addition to our disclaimer of opinion on the financial statements, we are including the required reports on
              internal control and compliance with laws and regulations.

              Disclaimer of Opinion on the Financial Statements
              The Assistant Secretary of the Army (Financial Management and Comptroller) acknowledged to us that the financial management and feeder systems that DoD relies
              on to provide evidence supporting the Army Working Capital Fund financial statements do not comply with Federal financial management system requirements,
              generally accepted accounting principles, and the U.S. Government Standard General Ledger at the transaction level. The Army also acknowledged that the previously
              reported material weaknesses related to the Balance Sheet, Statements of Net Cost and Financing, and intragovernmental eliminations were applicable to the FY 2003
              Army Working Capital Fund Financial Statements. Therefore, we did not perform auditing procedures to support material amounts on the financial statements. In
              addition, other auditing procedures were not performed because Section 1008(d) of the FY 2002 National Defense Authorization Act requires the Inspector General of
              the Department of Defense to perform only audit procedures required by generally accepted government auditing standards that are consistent with the representations
              made by management. These material deficiencies also affect the reliability of certain information contained in the accompanying Management's Discussion and
              Analysis and certain other information-much of which is taken from the same data sources as the principal financial statements. These deficiencies would have
              precluded an audit opinion. As described above, we are unable to express, and we do not express, an opinion on the financial statements and the accompanying
              information.



              1
                  Other information includes the Supporting Consolidating and Combining Financial Statements and Required Supplementary Information.
                           A regular Statement and Account of the Receipts and Expenditures of all public Money shall be published from time to time. —Constitution of the United States Article I, Section 9

                   262 Fiscal Year 2003 Army Annual Financial Statement
03WCFStatements12-15.qxd          12/15/2003        5:03 PM       Page 263




              Summary of Internal Control
              In planning and performing our audit, we considered the Army Working Capital Fund's internal control over financial reporting and compliance. We did this to
              determine our procedures for auditing the financial statements and to comply with Office of Management and Budget guidance, but not to express an opinion on
              internal control. Accordingly, we do not express an opinion on internal control over financial reporting and compliance because previously identified reportable
              conditions,2 all of which are material, continue to exist in the following areas:

                            financial management systems and processes;
                            Inventory and Related Property;
                            General Property, Plant, and Equipment;
                            accounting adjustments;
                            Accounts Payable;
                            intragovernmental eliminations;
                            Statement of Net Cost; and
                            Statement of Financing.

              A material weakness is a condition that precludes the entity's internal control from providing reasonable assurance that misstatements, losses, or noncompliance that are
              material in relation to the financial statements would be prevented or detected on a timely basis. Our internal control work would not necessarily disclose all material
              weaknesses. See the Attachment for additional details on material internal control weaknesses.

              Summary of Compliance with Laws and Regulations
              Our work to determine compliance with selected provisions of the applicable laws and regulations was limited because management acknowledged instances of
              noncompliance and previously reported instances of noncompliance continue to exist. The Army is unable to comply with the requirements of the CFO Act of 1990 as
              amended. The Assistant Secretary of the Army (Financial Management and Comptroller) acknowledged that many of its critical financial management and feeder
              systems do not comply with the requirements of the Federal Financial Management Information Act of 1996 (FFMIA). Therefore, we did not determine whether the
              Army Working Capital Fund was in compliance with all applicable laws and regulations related to financial reporting. See the Attachment for additional details on
              compliance with laws and regulations.




              2
                  Reportable conditions are matters coming to the auditor's attention that, in his or her judgment, should be communicated to management because they represent significant deficiencies in the design or
                  operation of internal control, which could adversely affect the organization's ability to initiate, record, process, and report financial data consistent with the assertions of management in financial
                  statements.
                            A regular Statement and Account of the Receipts and Expenditures of all public Money shall be published from time to time. —Constitution of the United States Article I, Section 9

                                                                                                                                            Army Working Capital Fund Principal Notes and Statements 263
03WCFStatements12-15.qxd     12/15/2003        5:03 PM      Page 264




              In order for DoD to comply with statutory reporting requirements and applicable financial systems requirements, the Under Secretary of Defense (Comptroller)/Chief
              Financial Officer is developing the DoD-wide Business Enterprise Architecture. The DoD anticipates developing and implementing the Business Enterprise
              Architecture by the end of 2007. The Army is also working to reengineer and modernize wholesale logistics processes and has contracted for modernizing Army
              logistics functions through the Logistics Modernization Program. However, until the architecture is fully developed and implemented, the Army Working Capital Fund
              will be unable to fully comply with the statutory reporting requirements.

              We caution that other noncompliance may have occurred and not been detected. Further, the results of our limited procedures may not be sufficient for other purposes.
              Our objective was not to express an opinion on compliance with applicable laws and regulations.

              Management Responsibility
              Management is responsible for:

                       preparing the financial statements in conformity with generally accepted accounting principles,
                       establishing, maintaining, and assessing internal control to provide reasonable assurance that the broad control objectives of the Federal Managers' Financial
                       Integrity Act of 1982 are met,
                       ensuring that the Army Working Capital Fund's financial management systems substantially comply with FFMIA requirements, and
                       complying with applicable laws and regulations.

              We provided a draft of this report to Army officials, who expressed general agreement with the conclusions in the report.




                                                                                                  Paul J. Granetto, CPA
                                                                                                         Director
                                                                                                Defense Financial Auditing
                                                                                                          Service

              Attachment
              As stated




                       A regular Statement and Account of the Receipts and Expenditures of all public Money shall be published from time to time. —Constitution of the United States Article I, Section 9

                264 Fiscal Year 2003 Army Annual Financial Statement
03WCFStatements12-15.qxd    12/15/2003     5:03 PM     Page 265




                                                  Reports on Internal Control and Compliance With Laws and Regulations
                                                                                         Internal Control
              Management is responsible for implementing effective internal control and for providing reasonable assurance that accounting data is accumulated, recorded, and
              reported properly; and that assets are safeguarded. We did not perform tests of internal control over financial reporting for the Army Working Capital Fund and we did
              not obtain sufficient evidence to support or express an opinion on internal control. We limited our tests because previously identified reportable conditions, all of
              which are material, continue to exist. These material internal control weaknesses significantly impair the ability of the Army to detect and investigate fraud or theft of
              assets. A high risk of material misstatements will continue to exist until the following internal control deficiencies are corrected.

              Financial Management Systems and Processes. The Army Working Capital Fund's systems are unable to meet all of the requirements for full accrual accounting
              because the systems used were not designed to collect and record financial information, as required by generally accepted accounting principles. Financial and non-
              financial feeder systems are not integrated and do not contain an audit trail for the proprietary and budgetary accounts. The Army Working Capital Fund derives most
              of its financial information for major accounts from noncompliant financial systems, such as the Commodity Command Standard System. The Army Working Capital
              Fund disclosed financial management system deficiencies in the footnotes to the FY 2003 financial statements. Until such time as all of the processes are updated to
              collect and report financial information as required by generally accepted accounting principles, some of the Army Working Capital Fund's financial data will be based
              on budgetary transactions and non-financial feeder systems. The DoD-wide systemic deficiencies in financial management systems and business processes result in
              the inability to collect and report financial and performance information that is accurate, reliable, and timely.

              Inventory and Related Property. The existing inventory valuation method does not produce an auditable approximation of historical cost because the associated
              gains and losses cannot be accurately tracked to specific items or purchases. The Army Working Capital Fund uses the latest acquisition cost method of valuing most
              of its inventory because its legacy inventory systems were designed for materiel management rather than accounting. The systems provide accountability and visibility
              over inventory items, but did not maintain the historical cost data necessary to comply with Statement of Federal Financial Accounting Standards (SFFAS) No. 3,
              “Accounting for Inventory and Related Property.” In addition, the systems could not directly produce financial transactions using the U.S. Government Standard
              General Ledger, and neither the Defense Finance and Accounting Service (DFAS) nor the Army reconciled all differences between the accounting records and the
              logistical records. Instead, they accepted the data from the logistical records and adjusted the accounting records by $1.8 billion. In FY 2003, the Army Working
              Capital Fund began transitioning to the Logistics Modernization Program that uses the moving-average-cost method of valuing inventory and also uses the U.S.
              Government Standard General Ledger. Further, physical inventories have not been completed and adequate controls had not been established over items in transit.

              General Property, Plant, and Equipment. The value of Army Working Capital Fund General Property, Plant, and Equipment is not reliably reported because of the
              lack of supporting documentation and the failure to correctly compute depreciation. Information on the acquisition date and cost was not always available and was
              sometimes recorded incorrectly. In addition, the Integrated Facilities System, the system that provides real property information to the Defense Property Accountability
              System, was a noncompliant system. The Integrated Facilities System was not able to calculate depreciated values for real property, preserve previous values by
              handling both positive and negative numbers, or provide an audit trail of all real property. Further, the value of property in the possession of contractors was not fully
              reported.

              Accounting Adjustments. DFAS Indianapolis did not adequately support approximately $6.3 billion of $21.0 billion in adjusting accounting entries it made to the

                                                                                                                    Army Working Capital Fund Principal Notes and Statements 265
03WCFStatements12-15.qxd     12/15/2003       5:03 PM     Page 266




              general ledger accounts used to prepare the FY 2003 Army Working Capital Fund Financial Statements. The unsupported adjusting accounting entries presented a
              material uncertainty regarding the line item balances on the FY 2003 Army Working Capital Fund Financial Statements. DFAS Indianapolis made the following
              adjustments:

                       $4.2 billion in adjustments to force internal reports to balance, or to force intragovernmental buyer-side data to agree with seller-side data
                       $2.1 billion in adjustments that did not have adequate documentation attached to the journal vouchers to support either the reason for the adjustments or the
                       dollar values

              DFAS Indianapolis did not always follow the established minimum requirements for documenting journal vouchers to support adjusting accounting entries made to the
              general ledger accounts.

              Accounts Payable. DFAS Indianapolis made significant adjustments to the accounts payable balances to derive the reported balances. DFAS Indianapolis adjusted
              accounts payable with the public downward by $63.3 million for undistributed disbursements. Also, the Army Working Capital Fund was unable to reconcile
              intragovernmental accounts payable to the related intragovernmental accounts receivable that generated the payable. As a result, DFAS made unsupported adjustments
              to increase intragovernmental accounts payable to force the amounts to agree with Army trading partners. In addition, accounts payable in the Supply Management
              activity group were not established in accordance with SFFAS No. 1, “Accounting for Selected Assets and Liabilities,” which requires that an accounts payable be
              established when the entity accepts title to the goods or services. The Army Working Capital Fund recognized accounts payable based on the physical receipt of the
              goods or services rather than when the Government accepted title to the goods or services. As a result, the Army Working Capital Fund could not ensure that its
              accounts payable were not materially misstated.

              Intragovernmental Eliminations. The inability to reconcile most intragovernmental transactions results in adjustments that cannot be verified. DoD and Army
              accounting systems were not capable of capturing trading partner data at the transaction level in a manner that facilitated trading partner reconciliations, and DoD
              guidance did not require adequate support for intragovernmental eliminations. As a result, DoD did not require trading partner reconciliations, but required that buyer-
              side transaction data be forced to agree with seller-side transaction data without performing proper reconciliations. DFAS Indianapolis made adjustments to
              intragovernmental accounts to force the accounts to agree with the records of Army Working Capital Fund trading partners.

              Statement of Net Cost. Accounting systems were unable to accurately capture costs for Army Working Capital Fund programs and to properly account for
              intragovernmental transactions and related eliminations. In addition, some of the Army Working Capital Fund's financial data presented on the Statement of Net Cost
              were based on budgetary transactions. DFAS Indianapolis made unsupported adjustments to decrease intragovernmental costs and increase costs with the public in
              order to force buyer-side data to agree with seller-side data. Further, the Statement of Net Cost was not presented by responsibility segments that were consistent with
              DoD performance goals and measures.

              Statement of Financing. The Army cannot reconcile budgetary obligations to net cost without making adjustments. In addition, the Army prepared the Statement of
              Financing on a combined basis instead of a consolidated basis as required by Office of Management and Budget Bulletin No. 01-09, “Form and Content of Agency
              Financial Statements.” As a result, the Army Working Capital Fund made unsupported adjustments to force the Statement of Financing to reconcile with information
              on the Statement of Net Cost.

                266 Fiscal Year 2003 Army Annual Financial Statement
03WCFStatements12-15.qxd    12/15/2003     5:03 PM    Page 267




                                                                           Compliance with Laws and Regulations
              Management is responsible for compliance with existing laws and regulations related to financial reporting. Our work to determine compliance with selected
              provisions of the applicable laws and regulations was limited because management acknowledged instances of noncompliance, and previously reported instances of
              noncompliance continue to exist. Therefore, we did not determine whether the Army Working Capital Fund was in compliance with significant provisions of all
              applicable laws and regulations related to financial reporting. Our objective was not to express an opinion on compliance with applicable laws and regulations.

              Statutory Financial Management Systems Reporting Requirements. The Army Working Capital Fund is required to comply with the following financial management
              systems reporting requirements.

                       The FFMIA requires DoD to establish and maintain financial management systems that comply substantially with the Federal financial management systems
                       requirements, applicable Federal accounting standards, and the U.S. Government Standard General Ledger at the transaction level. In addition, the Federal
                       Managers' Financial Integrity Act of 1982 requires DoD to evaluate its systems and to annually report whether those systems are in compliance with
                       applicable requirements.
                       The CFO Act of 1990 requires that each agency develop and maintain an integrated agency accounting and financial management system, including financial
                       reporting and internal control. The system should comply with internal control standards and applicable accounting principles, standards, and requirements;
                       and provide complete, reliable, consistent, and timely information.

              The Assistant Secretary of the Army (Financial Management and Comptroller) acknowledged that many of its critical financial management and feeder systems did not
              substantially comply with Federal financial management systems requirements, generally accepted accounting principles, and the U.S. Government Standard General
              Ledger at the transaction level. The Army was also unable to comply with the CFO Act, which requires agencies to develop and maintain integrated agency
              accounting and financial systems.

              In an attempt to comply with statutory reporting requirements and applicable financial systems requirements, DoD is developing a DoD-wide Business Enterprise
              Architecture. The architecture is intended to provide a “blueprint” of the Department's financial management systems and processes to initiate a comprehensive
              financial management reform effort. Until the architecture is fully developed, the Army Working Capital Fund will be unable to fully comply with the statutory
              reporting requirements. Therefore, we did not perform tests of compliance with these requirements.

                                                                                        Audit Disclosures
              The Assistant Secretary of the Army (Financial Management and Comptroller) acknowledged to us that the Army and DFAS financial management systems could not
              provide adequate evidence supporting various material amounts on the financial statements. As a result, we were unable to obtain adequate evidential matter to form or
              express an opinion on the financial statements, internal control, and compliance with laws and regulations.

              Our review of internal control was limited to followup work on deficiencies identified in previous audit reports. We primarily focused on the deficiencies related to the


                                                                                                                   Army Working Capital Fund Principal Notes and Statements 267
03WCFStatements12-15.qxd         12/15/2003        5:03 PM      Page 268




              material weaknesses reported in the audits of the FYs 2000 and 2002 Army Working Capital Fund Financial Statements.3

              We performed limited tests of Army Working Capital Fund compliance with laws and regulations that have a direct and material effect on the financial statement
              information. We recognize that there were additional laws and regulations pertinent to the Army Working Capital Fund financial operations during FY 2003.
              However, in accordance with Section 1008(d) of the FY 2002 National Defense Authorization Act, we limited our audit scope and only performed audit procedures
              required by generally accepted government auditing standards that were consistent with the representations made by the Assistant Secretary of the Army (Financial
              Management and Comptroller) in the engagement memorandum signed on June 4, 2003. Therefore, we did not perform tests of compliance for the following
              requirements.

                           Antideficiency Act
                           Provisions Governing Claims of the United States Government
                           Federal Credit Reform Act of 1990
                           Pay and Allowance System for Civilian Employees
                           Prompt Payment Act

              This report does not include recommendations to correct the material control weaknesses and instances of noncompliance because previous reports contained
              recommendations for corrective actions.




              3
                  The Army did not prepare FY 2001 Army Working Capital Fund Financial Statements due to the loss of financial management personnel during the September 11 terrorist attack on the Pentagon.
                  Therefore, the audit was not performed.

                   268 Fiscal Year 2003 Army Annual Financial Statement
03CWStatements12-12.qxd        12/12/2003           5:49 PM        Page 269




                                                                                                                                   Consolidated Balance Sheet
                                                                                                                                   Department of Defense • Department of the Army
                                                                                                                               As of September 30, 2003 and 2002 ($ in thousands)

              ASSETS (Note 2)                                                    2003 Consolidated   2002 Consolidated
                  Intragovernmental:
                       Fund Balance with Treasury (Note 3)
                            Entity                                                    $2,588,857          $2,502,677
                            Non-Entity Seized Iraqi Cash                                       0                   0
                            Non-Entity-Other                                               6,865              41,280
                       Investments (Note 4)                                            2,478,454           2,269,086
                       Accounts Receivable (Note 5)                                      423,774             528,150
                       Other Assets (Note 6)                                                   0                   0
                       Total Intragovernmental Assets                                 $5,497,950          $5,341,193
                  Cash and Other Monetary Assets (Note 7)                                 $1,278                $817
                  Accounts Receivable (Note 5)                                         1,935,567             922,931
                  Loans Receivable (Note 8)                                                    0                   0
                  Inventory and Related Property (Note 9)                                 62,605              63,139
                  General Property, Plant and Equipment (Note 10)                     30,909,056          34,204,467
                  Investments (Note 4)                                                         0                   0
                  Other Assets (Note 6)                                                        0                  77
              TOTAL ASSETS                                                           $38,406,456         $40,532,624

              LIABILITIES (Note 11)
                   Intragovernmental:
                         Accounts Payable (Note 12)                                      $92,764             $83,815
                         Debt (Note 13)                                                   17,386              24,667
                         Environmental Liabilities (Note 14)                                   0                   0
                         Other Liabilities (Note 15 & Note 16)                         2,096,480           1,146,944
                         Total Intragovernmental Liabilities                          $2,206,630          $1,255,426
                   Accounts Payable (Note 12)                                           $568,108            $595,952
                   Military Retirement Benefits and Other Employment-Related                   0                   0
                        Actuarial Liabilities (Note 17)
                   Environmental Liabilities (Note 14)                                         0                   0
                   Loan Guarantee Liability (Note 8)                                           0                   0
                   Other Liabilities (Note 15 & Note 16)                                 705,384             590,776
                   Debt Held by Public (Note 13)                                               0                   0
              TOTAL LIABILITIES                                                       $3,480,122          $2,442,154

              NET POSITION
                  Unexpended Appropriations (Note 18)                                   $636,846          $1,064,864
                  Cumulative Results of Operations                                    34,289,488          37,025,606
              TOTAL NET POSITION                                                     $34,926,334         $38,090,470
              TOTAL LIABILITIES AND NET POSITION                                     $38,406,456         $40,532,624

              The accompanying notes are an integral part of these statements.
                                                                                                              Civil Works Fund Principal Notes and Statements 269
03CWStatements12-12.qxd        12/12/2003         5:49 PM        Page 270




              Consolidated Statement of Net Costs
              Department of Defense • Department of the Army, Civil Works Fund
              For the Years Ended September 30, 2003 and 2002 ($ in thousands)

                                                                                 2003 Consolidated   2002 Consolidated
              Program Costs
                   Intragovernmental Gross Costs                                        $819,199            $786,630
                   (Less: Intragovernmental Earned Revenue)                           (1,011,769)           (616,437)
                   Intragovernmental Net Costs                                         ($192,570)           $170,193
                   Gross Costs With the Public                                        $9,466,972          $6,314,764
                   (Less: Earned Revenue From the Public)                               (298,633)           (121,740)
                   Net Costs With the Public                                          $9,168,339          $6,193,024
                   Total Net Cost                                                     $8,975,769          $6,363,217
              Cost Not Assigned to Programs                                                    0                   0
              (Less:Earned Revenue Not Attributable to Programs)                               0                   0
              Net Cost of Operations                                                  $8,975,769          $6,363,217




                                                                                                                         The accompanying notes are an integral part of these statements.
                 270 Fiscal Year 2003 Army Annual Financial Statement
03CWStatements12-12.qxd        12/12/2003           5:49 PM        Page 271




                                                                                                                      Consolidated Statement of Changes in Net Position
                                                                                                                                                     Department of Defense • Department of the Army
                                                                                                                                   For the Years Ended September 30, 2003 and 2002 ($ in thousands)

                                                                                 CUMULATIVE RESULTS OF OPERATIONS              UNEXPENDED APPROPRIATIONS
                                                                                 2003 Consolidated    2002 Consolidated    2003 Consolidated   2002 Consolidated

              Beginning Balances                                                     $39,695,092           $37,604,229          $1,064,864                  $1,214,901
              Prior period adjustments (+/-)                                          (2,669,485)                    0                   0                           0
              Beginning Balances, as adjusted                                        $37,025,607           $37,604,229          $1,064,864                  $1,214,901
              Budgetary Financing Sources:
                   Appropriations received                                                     0                     0           4,027,057                   4,324,965
                   Appropriations transferred-in/out (+/-)                                     0                     0             196,111                     198,408
                   Other adjustments (rescissions, etc) (+/-)                                  0                     0            (344,418)                   (153,374)
                   Appropriations used                                                 4,323,711             4,704,846          (4,306,768)                 (4,520,036)
                   Nonexchange revenue                                                   931,241               819,255                   0                           0
                   Donations and forfeitures of cash and cash equivalents                      0                     0                   0                           0
                   Transfers-in/out without reimbursement (+/-)                          863,243              (706,651)                  0                           0
                   Other budgetary financing sources (+/-)                               (32,536)               (3,166)                  0                           0
              Other Financing Sources:
                   Donations and forfeitures of property                                   4,648                   303                   0                           0
                   Transfers-in/out without reimbursement (+/-)                          (56,344)              744,279                   0                           0
                   Imputed financing from costs absorbed by others                       225,066               208,986                   0                           0
                   Other (+/-)                                                           (19,379)               16,743                   0                           0
              Total Financing Sources                                                 $6,239,650            $5,784,595           ($428,018)                  ($150,037)
              Net Cost of Operations (+/-)                                             8,975,769             6,363,217                   0                           0
              Ending Balances                                                        $34,289,488           $37,025,607            $636,846                  $1,064,864




              The accompanying notes are an integral part of these statements.
                                                                                                                            Civil Works Fund Principal Notes and Statements 271
03CWStatements12-12.qxd        12/12/2003         5:49 PM        Page 272




              Combined Statement of Budgetary Resources
              Department of Defense • Department of the Army, Civil Works Fund
              For the Years Ended September 30, 2003 and 2002 ($ in thousands)

              BUDGETARY FINANCING ACCOUNTS                                           BUDGETARY RESOURCES              NON-BUDGETARY RESOURCES
              BUDGETARY RESOURCES                                                2003 Combined     2002 Combined    2003 Combined     2002 Combined
              Budget Authority:
                   Appropriations received                                         $7,652,893         $4,324,965             $0                    $0
                   Borrowing authority                                                      0                  0              0                     0
                   Contract authority                                                       0                  0              0                     0
                   Net transfers (+/-)                                                160,964          1,006,223              0                     0
                   Other                                                                    0                  0              0                     0
              Unobligated balance:
              Beginning of period                                                   1,741,013          1,713,303              0                     0
                   Net transfers, actual (+/-)                                              0            (23,140)             0                     0
                   Anticipated Transfers balances                                           0                  0              0                     0
              Spending authority from offsetting collections:
                Earned                                                                      0                  0              0                     0
                   Collected                                                        5,065,570          4,837,613              0                     0
                   Receivable from Federal sources                                    (74,841)           (53,523)             0                     0
                Change in unfilled customer orders                                          0                  0              0                     0
                   Advance received                                                   (16,318)            37,345              0                     0
                   Without advance from Federal sources                               262,126            115,628              0                     0
                Anticipated for the rest of year, without advances                          0                  0              0                     0
                Transfers from trust funds                                                  0                  0              0                     0
                Subtotal                                                           $5,236,537         $4,937,063             $0                    $0
              Recoveries of prior year obligations                                          0                  0              0                     0
              Temporarily not available pursuant to Public Law                              0                  0              0                     0
              Permanently not available                                                (8,653)           (16,515)             0                     0
              Total Budgetary Resources                                           $14,782,754        $11,941,899             $0                    $0




                                                                                                                                        The accompanying notes are an integral part of these statements.
                 272 Fiscal Year 2003 Army Annual Financial Statement
03CWStatements12-12.qxd        12/12/2003           5:49 PM        Page 273




                                                                                                                             Combined Statement of Budgetary Resources
                                                                                                                                                       Department of Defense • Department of the Army
                                                                                                                                     For the Years Ended September 30, 2003 and 2002 ($ in thousands)

              NONBUDGETARY FINANCING ACCOUNTS
              STATUS OF BUDGETARY RESOURCES                                      2003 Combined    2002 Combined    2003 Combined     2002 Combined
              Obligations incurred:
                   Direct                                                          $5,516,359       $5,415,360               $0                   $0
                   Reimbursable                                                     5,033,749        4,785,522                0                    0
                   Subtotal                                                       $10,550,108      $10,200,882               $0                   $0
              Unobligated balance:
                   Apportioned                                                      1,387,762        1,246,051                0                    0
                   Exempt from apportionment                                        2,844,875          494,957                0                    0
                   Other available                                                          0                0                0                    0
              Unobligated Balances Not Available                                            9                9                0                    0
              Total, Status of Budgetary Resources                                $14,782,754      $11,941,899               $0                   $0


              RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:
              Obligated Balance, Net - beginning of period                         $1,047,323       $1,097,971               $0                   $0
              Obligated Balance transferred, net (+/-)                                      0                0                0                    0
              Obligated Balance, Net - end of period:
                   Accounts receivable                                                (160,601)        (235,443)              0                    0
                   Unfilled customer order from Federal sources                     (1,635,255)      (1,373,128)              0                    0
                   Undelivered orders                                                1,628,915        1,475,183               0                    0
                   Accounts payable                                                  1,174,565        1,180,711               0                    0
              Outlays:
                   Disbursements                                                   10,402,525       10,189,428                0                    0
                   Collections                                                     (5,049,251)      (4,874,959)               0                    0
                   Subtotal                                                        $5,353,274       $5,314,469               $0                   $0
              Less: Offsetting receipts                                              (904,214)        (819,255)               0                    0
              Net Outlays                                                          $4,449,060       $4,495,214               $0                   $0




              The accompanying notes are an integral part of these statements.
                                                                                                                              Civil Works Fund Principal Notes and Statements 273
03CWStatements12-12.qxd        12/12/2003         5:49 PM        Page 274




              Combined Statement of Financing
              Department of Defense • Department of the Army, Civil Works Fund
              For the Years Ended September 30, 2003 and 2002 ($ in thousands)

              Resources Used to Finance Activities:                                                      2003 Combined   2002 Combined
                   Budgetary Resources Obligated
                   Obligations incurred                                                                   $10,550,108     $10,200,882
                   Less: Spending authority from offsetting collections
                        and recoveries (-)                                                                 (5,236,537)     (4,937,063)
                   Obligations net of offsetting collections and recoveries                                $5,313,571      $5,263,819
                   Less: Offsetting receipts (-)                                                             (904,214)       (819,255)
                   Net obligations                                                                         $4,409,357      $4,444,564
                   Other Resources
                   Donations and forfeitures of property                                                        4,648             303
                   Transfers in/out without reimbursement (+/-)                                               (56,344)          1,171
                   Imputed financing from costs absorbed by others                                            225,066         208,986
                   Other (+/-)                                                                                (19,379)         16,743
                   Net other resources used to finance activities                                             153,991         227,203
              Total resources used to finance activities                                                   $4,563,348      $4,671,767

              Resources Used to Finance Items not Part of the Net Cost of Operations
                   Change in budgetary resources obligated for goods,
                        services and benefits ordered but not yet provided
                             Undelivered Orders (-)                                                         ($154,315)        ($2,705)
                             Unfilled Customer Orders                                                         245,807         152,974
                   Resources that fund expenses recognized in prior periods                                         0               0
                   Budgetary offsetting collections and receipts that                                         904,695         819,255
                        do not affect net cost of operations
                   Resources that finance the acquisition of assets                                         1,399,859       (2,461,629)
                   Other resources or adjustments to net obligated resources
                        that do not affect net cost of operations
                   Less: Trust or Special Fund Receipts Related to Exchange in the Entity's Budget (-)              0                0
                   Other (+/-)                                                                                      0                0
              Total resources used to finance items not part of the net cost of operations                 $2,396,046      ($1,492,105)

              Total resources used to finance the net cost of operations                                   $6,959,394      $3,179,662




                                                                                                                                The accompanying notes are an integral part of these statements.
                 274 Fiscal Year 2003 Army Annual Financial Statement
03CWStatements12-12.qxd        12/12/2003           5:49 PM        Page 275




                                                                                                                                       Combined Statement of Financing
                                                                                                                                                  Department of Defense • Department of the Army
                                                                                                                                For the Years Ended September 30, 2003 and 2002 ($ in thousands)

              Components of the Net Cost of Operations that will
              not Require or Generate Resources in the Current Period:                                 2003 Combined     2002 Combined
                   Components Requiring or Generating Resources in Future Periods:
                   Increase in annual leave liability                                                              $0                 $0
                   Increase in environmental and disposal liability                                                 0                  0
                   Upward/Downward reestimates of credit subsidy expense (+/-)                                      0                  0
                   Increase in exchange revenue receivable from the the public (-)                                  0             (3,429)
                   Other (+/-)                                                                                 66,422             41,498
                   Total components of Net Cost of Operations that                                            $66,422            $38,069
                       will require or generate resources in future periods
                   Components not Requiring or Generating Resources:
                   Depreciation and amortization                                                               447,661           475,535
                   Revaluation of assets or liabilities (+/-)                                                1,477,630                 0
                   Other (+/-)                                                                                  24,662         2,669,951
              Total components of Net Cost of Operations that will not require or generate resources        $1,949,953        $3,145,486

              Total components of net cost of operations that                                               $2,016,375        $3,183,555
              will not require or generate resources in the current period
              Net Cost of Operations                                                                        $8,975,769        $6,363,217




              The accompanying notes are an integral part of these statements.
                                                                                                                         Civil Works Fund Principal Notes and Statements 275
03CWStatements12-12.qxd    12/12/2003       5:49 PM      Page 276




              Notes to the Principal Financial Statements
              Note 1. Significant Accounting Policies
              1.A. Basis of Presentation
              These financial statements have been prepared to report the financial position and results of operations of the U.S. Army Corps of Engineers (USACE) Civil Works, as
              required by the “Chief Financial Officers (CFO) Act of 1990,” expanded by the “Government Management Reform Act (GMRA) of 1994,” and other appropriate
              legislation. The financial statements have been prepared from the books and records of the USACE in accordance with the “Department of Defense Financial
              Management Regulation (DoDFMR),” the Office of Management and Budget (OMB) Bulletin No. 01-09, “Form and Content of Agency Financial Statements” and to
              the extent possible, generally accepted accounting principles (GAAP). The USACE's financial statements are in addition to the financial reports also prepared by the
              USACE pursuant to OMB directives that are used to monitor and control the USACE's use of budgetary resources.

              The USACE financial statements are prepared from the consolidation of general ledger financial data reported from the Corps of Engineers Financial System (CEFMS)
              to the Corps of Engineers Enterprise Management Information System (CEEMIS).

              A more detailed explanation of these financial statements elements is provided in the applicable footnote.

              1.B. Mission of the Reporting Entity
              Some of the missions of the Corps of Engineers include maintaining navigation channels, reducing flooding, assisting during natural disasters and other emergencies
              and making waterways passable. The financial statements are presented on the accrual basis of accounting as required by federal financial accounting standards.

              The asset accounts used to prepare the principal financial statements are categorized as entity/non-entity. Entity accounts consist of resources that the agency has the
              authority to use, or where management is legally obligated to use funds to meet entity obligations. Non-entity accounts are assets that are held by an entity but are not
              available for use in the operations of the entity.

              The Corps of Engineers Civil Works Program receives Federal funding through annual Energy and Water Development Appropriations Acts. Program funding is also
              received from non-Federal project sponsors who share in project costs according to formulas established by project authorization acts. A third source of funding comes
              through the Support for Others Program, which is conducted under reimbursable agreements with Federal agencies.

              Entity Accounts:

              General Funds
              96X3112                       Flood Control, Mississippi River and Tributaries
              96X3121                       General Investigations
              9600/013121                   General Investigations (00/01)

                276 Fiscal Year 2003 Army Annual Financial Statement
03CWStatements12-12.qxd     12/12/2003   5:49 PM    Page 277




              9602/033121                General Investigations (02/03)
              96X3122                    Construction, General
              96X3123                    Operation and Maintenance, General
              96X3124                    General Expenses
              96X3125                    Flood Control and Coastal Emergencies
              96X3126                    Regulatory Program
              96X3128                    Washington Aqueduct Capital Improvements
              96033129                   Payment to the South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund
              96X3130                    FUSRAP

              Revolving Funds
              96X4902                    Revolving Fund

              Special Funds
              96X5007                    Special Recreation Use Fees
              96X5066                    Hydraulic Mining in California, Debris
              96X5090                    Payments to States, Flood Control Act of 1954
              96X5125                    Maintenance and Operation of Dams and Other Improvements of Navigable Waters

              Trust Funds
              96X8217                    South Dakota Terrestrial Wildlife habitat Restoration Trust Fund
              96X8333                    Coastal Wetlands Restoration Trust Fund
              9620X8861                  Inland Waterways Trust Fund
              96X8862                    Rivers and Harbors Contributed and Advance Funds
              9620X8863                  Harbor Maintenance Trust Fund

              Transfer Funds
              96 12X1105                 State and Private Forestry, Forest Service
              96 13X2050                 Economic Development Administration
              96 14X1039                 Construction National Park Service
              96 14X5035                 Land Acquisition and State Assistance, National Park Service
              96 21X2020                 OMA, American Samoa Projects
              96 69X8083                 Federal Aid Highways
              96 89X4045                 Bonneville Power Administration
              96 72 99/00 1021           Development Assistance, Agency for International Development

                                                                                                                           Civil Works Fund Principal Notes and Statements 277
03CWStatements12-12.qxd    12/12/2003       5:49 PM      Page 278




              Non-Entity:
              Deposit Funds
              96X6094                       Advances from the District of Columbia
              96X6500                       Advances without Orders from Non-Federal Sources
              96X6501                       Small Escrow Amounts

              Clearing Accounts
              96F3875                       Budget Clearing Account
              96F3880                       Unavailable Check Cancellations and Overpayments
              96F3886                       TSP

              Receipt Accounts
              960891                        Miscellaneous fees for regulatory and judicial services, not otherwise classified
              961060                        Forfeitures of Unclaimed Money and Property
              961099                        Fines, Penalties, and forfeitures Not Otherwise Classified
              961435                        General Fund Proprietary Interest, Not Otherwise Classified
              963220                        General Fund Proprietary Receipts. Not Otherwise Classified, All Other
              965007                        Special Recreation Use Fees
              965066                        Hydraulic Mining in California
              965090                        Receipts from leases of lands acquired for flood control, navigation, and allied purposes
              965125                        Licenses under Federal Power Act, Improvements of navigable water, maintenance and operation of dams, etc., (50%)
              968217.001                    Payment from the General Fund, South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund
              968217.002                    Earnings on Investments, South Dakota Terrestrial Wildlife Restoration Trust Fund
              968862.001                    Contributions and Advances, Rivers and Harbors

              1.C. Appropriations and Funds
              The Corps' appropriations and funds are divided into the general, working capital (revolving funds), trust, special and deposit funds. These appropriations and funds
              are used to fund and report how the resources have been used in the course of executing the Corps' missions.

              The Civil Works Program receives Federal funding through annual Energy and Water Development Appropriations Acts. Program funding also comes from non-
              Federal project sponsors who share in project costs according to formulas established by project authorization acts. A third source of funding comes through the
              Supports for Others Program, which is conducted under reimbursable agreements with Federal agencies.

              In 1997, the Corps received borrowing authority from the Treasury for the following three years (1997 through 1999) to finance capital improvements to the
              Washington Aqueduct. Appropriation 96X3128 was established to record financial transactions for these capital improvements.

                278 Fiscal Year 2003 Army Annual Financial Statement
03CWStatements12-12.qxd    12/12/2003     5:49 PM    Page 279




              General funds are used for financial transactions arising under congressional appropriations, including personnel, operation and maintenance, research and
              development, procurement, and construction accounts.

              Trust funds represent the receipt and expenditure of funds held in trust by the government for use in carrying out specific purposes or programs in accordance with the
              terms of the donor, trust agreement, or statute.

              Special funds account for receipts of the government that are earmarked for a specific purpose.

              Deposit funds generally are used to (1) hold assets for which the Corps is acting as an agent or a custodian or whose distribution awaits legal determination, or (2)
              account for unidentified remittances.

              1.D. Basis of Accounting
              The Corps' transactions are generally recorded on an accrual accounting basis and a budgetary basis as is required by GAAP. Under the accrual method, revenues are
              recognized when earned and expenses are recognized when a liability is incurred without regard to receipt or payment of cash. Budgetary accounting is accomplished
              through unique general ledger accounts to facilitate compliance with legal and internal control requirements associated with the use of federal funds.

              CEFMS is used at all divisions, districts, centers, laboratories and field offices. CEFMS is a fully automated, comprehensive financial management system that
              simplifies the management of all aspects of the Corps business, including civil, military, revolving funds and reimbursable activity. The general ledger chart of
              accounts in CEFMS is substantially compliant with the U.S. Government Standard General Ledger.

              In addition, the Corps identifies programs based upon the major appropriation groups provided by Congress.

              1.E. Revenues and Other Financing Sources
              Financing sources for general funds are provided primarily through congressional appropriations that are received on both an annual and a multiyear basis. When
              authorized, these appropriations are supplemented by revenues generated by sales of goods or services through a reimbursable order process. The Corps recognizes
              revenue as a result of costs incurred or services performed on behalf of other federal agencies and the public. Revenue is recognized when earned under the
              reimbursable order process.

              1.F. Recognition of Expenses
              For financial reporting purposes, the DoD policy requires the recognition of operating expenses in the period incurred. Expenditures for capital and other long-term
              assets are not recognized as expenses in the Corps operations until depreciated in the case of PP&E or consumed in the case of OM&S. Net increases or decreases in
              unexpended appropriations are recognized as a change in the net position.

              Certain expenses, such as annual and military leave earned but not taken, are financed in the period when earned.



                                                                                                                              Civil Works Fund Principal Notes and Statements 279
03CWStatements12-12.qxd    12/12/2003       5:49 PM      Page 280




              1.G. Accounting for Intra-governmental Activities
              The Corps, as an agency of the federal government, interacts with and is dependent upon the financial activities of the federal government as a whole. Therefore, these
              financial statements do not reflect the results of all financial decisions applicable to the Corps as though the agency was a stand alone entity.

              The Corps' proportionate share of public debt and related expenses of the federal government are not included. Debt issued by the federal government and the related
              costs are not apportioned to federal agencies. The Corps' financial statements, therefore, do not report any portion of the public debt or interest thereon, nor do the
              statements report the source of public financing whether from issuance of debt or tax revenues.

              Financing for the construction of DoD facilities is obtained through budget appropriations. To the extent this financing ultimately may have been obtained through the
              issuance of public debt, interest costs have not been capitalized since the Department of the Treasury does not allocate such interest costs to the benefiting agencies.

              The Corps' civilian employees participate in the Civil Service Retirement System (CSRS) and the Federal Employees Retirement Systems (FERS), while military
              personnel are covered by the Military Retirement System (MRS). Additionally, employees and personnel covered by FERS and MRS also have varying coverage
              under Social Security. The Corps funds a portion of the civilian and military pensions. Reporting civilian pension under CSRS and FERS retirement systems is the
              responsibility of the Office of Personnel Management (OPM). The Corps recognizes an imputed expense for the portion of civilian employee pensions and other
              retirement benefits funded by the OPM in the Statement of Net Cost; and recognizes corresponding imputed revenue from the civilian employee pensions and other
              retirement benefits in the Statement of Changes in Net Position.

              The Department reports the assets, funded actuarial liability, and unfunded actuarial liability for the military personnel in the Military Retirement Fund (MRF) financial
              statements. The Department recognizes the actuarial liability for the military retirement health benefits in the Other Defense Organization column of the DoD Agency
              wide consolidating/combining statements.

              To prepare reliable financial statements, transactions occurring between entities within the Department or between two or more federal agencies must be eliminated.

              The Department of the Treasury, Financial Management Service (FMS) is responsible for eliminating transactions between the Department and other federal agencies.
              In September 2000, the Department of the Treasury, FMS issued the “Federal Intragovernmental Transactions Accounting Policies and Procedures Guide.” The Corps
              implemented the policies and procedures in this guide related to reconciling intragovernmental assets, liabilities, revenues, and expenses for non-fiduciary transactions.
              In addition, the Corps implemented the policies and procedures contained in the “Intragovernmental Fiduciary Transactions Accounting Guide,” as updated by the
              “Federal Intragovernmental Transactions Accounting Policies and Procedures Guide,” issued October 2002, for reconciling intragovernmental transactions. These
              transactions pertain to investments in Federal securities, borrowings from United States (U.S.) Treasury and the Federal Financing Bank, Federal Employees'
              Compensation Act transactions with the Department of Labor (DoL), and benefit program transactions with the OPM.

              1.H. Transactions with Foreign Governments and International Organizations
              Each year, the DoD Components sell defense articles and services to foreign governments and international organizations, primarily under the provision of the “Arms
              Export Control Act of 1976”. Under the provision of the Act, the Department has authority to sell defense articles and services to foreign countries and international
              organizations, generally at no profit or loss to the U.S. Government. Customers may be required to make payments in advance.

                280 Fiscal Year 2003 Army Annual Financial Statement
03CWStatements12-12.qxd    12/12/2003     5:49 PM    Page 281




              1.I. Funds with the U.S. Treasury
              The Corps' financial resources are maintained in U.S. Treasury accounts. The majority of cash collections, disbursements, and adjustments are processed worldwide at
              the Defense Finance and Accounting Service (DFAS) and Military Services and the USACE disbursing stations, as well as the Department of State financial service
              centers. Each disbursing station prepares monthly reports, which provide information to the U.S. Treasury on check issues, electronic transfers, interagency transfers
              and deposits.

              In addition, the DFAS centers and the USACE Finance Center submit reports to the Department of the Treasury, by appropriation, on interagency transfers, collections
              received and disbursements issued. The Department of the Treasury then records this information to the applicable Fund Balance with Treasury (FBWT) account
              maintained in the Treasury's system. Differences between the Corps recorded balance in the FBWT accounts and Treasury's FBWT accounts sometimes result and are
              subsequently reconciled. Material disclosures are provided at Note 3. Differences between accounting offices' detail-level records and Treasury's FBWT accounts are
              disclosed in Note 21.B, specifically, differences caused by in-transit disbursements and unmatched disbursements (which are not recorded in the accounting offices'
              detail-level records).

              1.J. Foreign Currency
              The Corps conducts operations overseas. Foreign Currency fluctuations require adjustment to the original obligation amount at the time of payment. These currency
              fluctuations are not separately identified.

              1.K. Accounts Receivable
              As presented in the Balance Sheet statement, accounts receivable includes accounts, claims, and refunds receivable from other federal entities or from the public.
              Allowances for uncollectible accounts due from the public are based upon analysis of collection experience by fund type. The Department does not recognize an
              allowance for estimated uncollectible amounts from other federal agencies. Claims against other federal agencies are to be resolved between the agencies. Material
              disclosures are provided at Note 5.

              1.L. Loans Receivable. As Applicable.
              Not applicable.

              1.M. Inventories and Related Property
              Inventories are reported at approximate historical cost based on a moving weighted average that is based on actual cost divided by quantity. A perpetual record of
              inventory is maintained in CEFMS to allow for recomputation of the average unit cost as new receipts are recorded.

              The related property portion of the amount reported on the Inventory and Related Property line includes operating materials and supplies (OM&S). The OM&S are
              valued at standard purchase price. For the most part, the Department is using the consumption method of accounting for OM&S, as defined in the SFFAS No. 3,
              “Accounting for Inventory and Related Property” as material that has not been issued to the end user. Once OM&S is issued, the material is expensed. Material
              disclosures related to inventory and related property are provided at Note 9.


                                                                                                                            Civil Works Fund Principal Notes and Statements 281
03CWStatements12-12.qxd    12/12/2003       5:49 PM      Page 282




              In addition, past audit results identified uncertainties about the completeness and existence of quantities used to produce the reported values. Material disclosures
              related to inventory and related property are provided at Note 9.

              1.N. Investments in U.S. Treasury Securities
              Investments in U. S. Government securities are reported at cost, net of unamortized premiums or discounts. Premiums or discounts are amortized into interest income
              over the term of the investment using the effective interest rate method or other method if similar results are obtained. The Corps' intent is to hold investments to
              maturity, unless they are needed to finance claims or otherwise sustain operations. Consequently, a provision is not made for unrealized gains or losses on these
              securities, because in the majority of cases, they are held to maturity. Amounts reported reflect the value of investments in the South Dakota Terrestrial Wildlife
              Habitat Restoration, Inland Waterways and Harbor Maintenance Trust Fund accounts, which are managed by the Treasury Department. Material disclosures are
              provided at Note 4.

              1.O. General Property, Plant and Equipment
              General property, plant, and equipment (PP&E) assets are capitalized at historical acquisition cost plus capitalized improvements when an asset has a useful life of 2 or
              more years, and when the acquisition cost equals $25,000 (one exception is all buildings and structures related to hydro- power projects are capitalized regardless of
              cost.) During 2003 the Corps increased its buildings and structures threshold to $25K (from $0) for all Civil Works Appropriations with the exception of Revolving
              Fund and Power Marketing Agency (PMA) assets. All Civil Works Appropriations Buildings and Structures currently capitalized under $25K (excluding Revolving
              Fund and PMA) were expensed in FY 2003 and removed from Corps of Engineers Financial Management System (CEFMS). Starting in FY 2004 all Civil Works
              Buildings and Structures over $25K will be expensed except for PMA assets.

              Due to the change in policy (increasing the Buildings and Structures threshold) the Corps expensed about 17,760 buildings and structures valued at about $63,261
              thousand during FY 2003.

              All General PP&E, other than land, is depreciated on a straight-line basis. Land is not depreciated.

              The Corps of Engineers is in the process of conducting a study to determine the proper supported value of their Land. This is due to a lack of supporting
              documentation for older Land administrative costs.

              When it is in the best interest of the government, the Corps provides to contractors government property necessary to complete contract work. Such property is either
              owned or leased by the Corps, or purchased directly by the contractor for the government based on contract terms. When the value of contractor procured General
              PP&E exceeds the DoD capitalization threshold, such PP&E should be included in the value of General PP&E reported on the Corps' Balance Sheet. The Department
              completed a study that indicates that the value of General PP&E above the DoD capitalization threshold and not older than the DoD Standard Recovery Periods for
              depreciation, and that is presently in the possession of contractors, is not material to the Department's financial statements. Regardless, the Department is developing
              new policies and a contractor reporting process that will provide appropriate General PP&E information for future financial statement reporting purposes. Accordingly,
              the Corps currently reports only government property in the possession of contractors that is maintained in the Corps property systems.

              To bring the Corps into compliance with federal accounting standards, the Department has issued new property accountability and reporting regulations that require the

                282 Fiscal Year 2003 Army Annual Financial Statement
03CWStatements12-12.qxd    12/12/2003     5:49 PM     Page 283




              DoD Components to maintain, in DoD Component property systems, information on all property furnished to contractors. This action and other DoD proposed actions
              are structured to capture and report the information necessary for compliance with federal accounting standards.

              The DoD Capitalization threshold is $100K and the Corps is in process of requesting Official exception from that policy.

              Material disclosures are provided at Note 10.

              1.P. Advances and Prepayments
              Payments in advance of the receipt of goods and services are recorded as advances or prepayments and reported as an asset on the Balance Sheet. Advances and
              prepayments are recognized as expenditures and expenses when the related goods and services are received.

              1.Q. Leases
              Generally, lease payments are for the rental of equipment, space, and operating facilities and are classified as either capital or operating leases. When a lease is
              essentially equivalent to an installment purchase of property (a capital lease) the Corps records the applicable asset and liability if the value equals or exceeds the
              current DoD capitalization threshold. The Corps records the amounts as the lesser of the present value of the rental and other lease payments during the lease term
              (excluding that portion of the payments representing executory costs paid to the lessor) or the asset's fair value. Leases that do not transfer substantially all of the
              benefits or risks of ownership are classified as operating leases and recorded as expenses as payments are made over the lease term.

              1.R. Other Assets
              The Corps conducts business with commercial contractors under two primary types of contracts-fixed price and cost reimbursable. To alleviate the potential financial
              burden on the contractor that long-term contracts can cause, the Corps provides financing payments. One type of financing payment that the Corps makes, for real
              property, is based upon a percentage of completion. In accordance with the SFFAS No. 1, “Accounting for Selected Assets and Liabilities,” such payments are treated
              as construction in process and are reported on the General PP&E line and in Note 10, General PP&E, Net.

              In addition, based on the provision of the Federal Acquisition Regulation, the Corps makes financing payments under fixed price contracts that are not based on a
              percentage of completion. The Corps reports these financing payments as advances or prepayments in the “Other Assets” line item. The Corps treats these payments
              as advances or prepayments because the Corps becomes liable only after the contractor delivers the goods in conformance with the contract terms. If the contractor
              does not deliver a satisfactory product, the Corps is not obligated to reimburse the contractor for its costs and the contractor is liable to repay the Corps for the full
              amount of the advance.

              DoD has completed a review of all applicable federal accounting standards; applicable public laws on contract financing; Federal Acquisition Regulation Parts 32, 49,
              and 52; and the OMB guidance in 5 Code of Federal Regulations Part 1315, “Prompt Payment.” DoD concluded that SFFAS No. 1 does not fully or adequately
              address the subject of progress payment accounting and is considering what further action is appropriate.

              1.S. Contingencies and Other Liabilities
              The SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” defines a contingency as an existing condition, situation, or set of circumstances that
                                                                                                                                Civil Works Fund Principal Notes and Statements 283
03CWStatements12-12.qxd    12/12/2003       5:49 PM      Page 284




              involves an uncertainty as to possible gain or loss to the Corps. The uncertainty will be resolved when one or more future events occur or fail to occur. A contingency
              is recognized as a liability when a past event or exchange transaction has occurred, a future loss is probable and the amount of loss can be reasonably estimated.

              Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but there is at least a reasonable possibility that a loss or
              additional loss will be incurred. Examples of loss contingencies include the collectibility of receivables, pending or threatened litigation, possible claims and
              assessments. The Corps' loss contingencies arising as a result of pending or threatened litigation or claims and assessments occur due to events such as ship and vehicle
              accidents, property or environmental damages, and contract disputes.

              1.T. Accrued Leave
              Civilian annual leave and military leave that have been accrued and not used as of the balance sheet date are reported as liabilities. The liability reported at the end of
              the fiscal year reflects current pay rates.

              1.U. Net Position
              Net Position consists of unexpended appropriations and cumulative results of operations. Unexpended appropriations represent amounts of authority which are
              unobligated and have not been rescinded or withdrawn, and amounts obligated but for which legal liabilities for payments have not been incurred.

              Cumulative results of operations represents the difference, since inception of an activity, between expenses and losses and financing sources (including appropriations,
              revenue, and gains). Beginning with FY 1998, this included the cumulative amount of donations and transfers of assets in and out without reimbursement.

              1.V. Treaties for Use of Foreign Bases
              The Corps has no existing treaties for use of foreign bases.

              1.W. Comparative Data
              The Financial Statements and accompanying Notes to the Financial Statements report the financial position and results of operations for FY2003. Financial statement
              fluctuations greater than 2 percent of total assets on the Balance Sheet and/or greater than 10 percent between FY2002 and FY2003 are explained within the Notes to
              the Financial Statements.

              1.X. Unexpended Obligations
              The Corps records obligations for goods and services that have been ordered but not yet received. No liability for payment has been established in the financial
              statements because goods/services have yet to be delivered.




                284 Fiscal Year 2003 Army Annual Financial Statement
03CWStatements12-12.qxd      12/12/2003        5:49 PM     Page 285




              Note 2. Nonentity and Entity Assets
                                                                                                     2003                                  2002
               As of September 30                                               Nonentity           Entity             Total          Nonentity Assets
               (Amounts in thousands)
               1. Intra-governmental Assets:
                     A. Fund Balance with Treasury                                     $6,865        $2,588,857        $2,595,722               $41,280
                     B. Investments                                                         0         2,478,454         2,478,454                     0
                     C. Accounts Receivable                                                 0           423,775           423,775                     0
                     D. Other Assets                                                        0                 0                 0                     0
                     E. Total Intra-governmental Assets                                $6,865        $5,491,086        $5,497,951               $41,280

               2. Non-Federal Assets:
                    A. Cash and Other Monetary Assets                                  $1,278                $0            $1,278                  $817
                    B. Accounts Receivable                                          1,871,575            63,992         1,935,567               915,452
                    C. Loans Receivable                                                     0                 0                 0                     0
                    D. Inventory & Related Property                                         0            62,605            62,605                     0
                    E. General Property, Plant and Equipment                                0        30,909,055        30,909,055                     0
                    F. Investments                                                          0                 0                 0                     0
                    G. Other Assets                                                         0                 0                 0                     0
                    H. Total Non-Federal Assets                                    $1,872,853       $31,035,652       $32,908,505              $916,269

               3. Total Assets:                                                    $1,879,718       $36,526,738       $38,406,456              $957,549

              4. Other Information:
              Asset accounts are categorized either as entity or nonentity. Entity accounts consist of resources that the agency has the authority to use, or when management is
              legally obligated to use funds to meet entity obligations. Nonentity accounts are assets that are held by an entity, but are not available for use in the operations of the
              entity.

              Composition of Other Nonentity Assets
              Non-federal nonentity accounts receivable represents all current and non-current receivables due from non-federal sources. Non-entity receivables include $878,276
              thousand in long-term receivables due from state and local municipalities for water storage contracts, $45,131 thousand in current receivables due from state and local
              municipalities for water storage, $946,746 thousand in accrued interest receivable, $1,828 thousand in penalties, fines and administrative fees receivable, and $1,600
              thousand in long-term receivable for hydraulic mining. The additional $876 thousand represents amount due from the leasing of land acquired for flood control
              purposes. Non-entity receivables are recorded in unavailable receipt accounts and funds will be returned to Treasury when collected. The allowance for doubtful
              accounts totals $2,882 thousand.

              Other non-federal entity assets are comprised of $24,894 thousand in assets awaiting disposal and $10,429 thousand in cultural or archeologically significant assets.

              Intra-governmental Non-Entity Fund Balance with Treasury consists of amounts collected into deposit, suspense and budget clearing accounts.


                                                                                                                                Civil Works Fund Principal Notes and Statements 285
03CWStatements12-12.qxd      12/12/2003      5:49 PM      Page 286




              Line 2A - The amount on Line 2A includes $4 thousand in imprest funds. $768 thousand in Disbursing Officer's cash, and $506 thousand in foreign currency, as listed
              in Note 7.

              Note Reference
              For Additional Line Item discussion, see:
              Note 3, Fund Balance with Treasury
              Note 4, Investments
              Note 5, Accounts Receivable
              Note 6, Other Assets
              Note 7, Cash and Other Monetary Assets
              Note 9, Inventory and Related Property
              Note 10, General PP&E, Net

              Note 3. Fund Balance with Treasury
               As of September 30                                                             2003                            2002
               (Amounts in thousands)
               1. Fund Balances:
                    A. Appropriated Funds                                                            $1,127,663                      $1,177,288
                    B. Revolving Funds                                                                  990,006                         902,533
                    C. Trust Funds                                                                       67,482                          59,954
                    D. Other Fund Types                                                                 410,571                         404,182
                    E. Total Fund Balances                                                           $2,595,722                      $2,543,957

               2. Fund Balances Per Treasury Versus Agency:
                    A. Fund Balance per Treasury                                                     $2,530,007                      $2,484,784
                    B. Fund Balance per USACE                                                         2,595,722                       2,543,957
                    C. Reconciling Amount                                                              ($65,715)                       ($59,173)

              3. Explanation of Reconciliation Amount:
              Fund Balance per USACE includes $65,728 thousand cash reported by Treasury for Inland Waterways and Harbor Maintenance Trust Funds, for which the Corps is
              identified as the lead agency for reporting.

              Funds Balance per USACE also includes disbursements of $12 thousand that were not reported to Treasury until October 2003.

              4. Other Information Related to Fund Balance with Treasury:
              Borrowing Authority Fund Balance with Treasury was erroneously reported as appropriated funds in FY 2002. It should have been reported as Other Fund Types. The
              FY 2002 column Line 1.A. is overstated and Line 1.D. is understated by $773 thousand.


                 286 Fiscal Year 2003 Army Annual Financial Statement
03CWStatements12-12.qxd     12/12/2003      5:49 PM     Page 287




              Fund Balance per USACE includes $40,304 thousand in transfer appropriations that were not reported by the Corps in the Treasury FACTS II System. Those transfer
              appropriations are reported by the parent agencies on the FMS 2108. The parent agencies are Department of Energy, Department of Transportation, and Department of
              Commerce. According to the Treasury Financial Manual, Part 2, Chapter 4000, Federal Agencies' Centralized Trial-Balance System, paragraph 4030.60, if an
              allocation transfer is material to the child's financial statements, the child should report the activity relating to the allocation in all of its financial statements, except the
              Statement of Budgetary Resources. The Corps has determined that these balances are material and have included them in all of our financial statements.

              Other Fund types consists of $6,865 thousand in deposit, suspense and clearing accounts that are not available to finance the Corps' activities, $645 thousand in
              borrowing authority, and $388,451 thousand in contributed funds. The $14,609 thousand in the suspense account established to finance Washington Aqueduct
              operations is also included in this balance.

              There are no restrictions for future use of unobligated balance.

              The Funds Balance with Treasury line does not include any amounts for which the Department of the Treasury is willing to accept corrections to cancelled
              appropriation accounts, in accordance with the Statement of Federal Financial Accounting Standards (SFFAS) No. 1, paragraph 37 “Accounting for Selected Assets
              and Liabilities.”

              Fluctuations
              Line 1C. The increase is for excise taxes collected by Treasury for the Inland Waterways and Harbor Maintenance Trust Funds. The funds have not been invested yet
              by Treasury. The Corps is the lead agency for reporting these two trust funds.

              Balance Sheet Line 1.A.1.c. Funds Balance with Treasury, Non-Entity Other. In FY 2002, $20,713 thousand in funds received for work to be performed on the
              Washington Aqueduct were erroneously reported as non-entity funds. These funds are entity funds. The remaining difference is due to a reduction of the budget
              clearing account. Litigation related to a collection in the budget clearing account was resolved and $13,000 thousand was disbursed from the account.

              Note Reference
              Note Disclosure 1.I. - Significant Accounting Policies for additional discussion on financial reporting requirements and DoD policies governing Funds with the U.S.
              Treasury.

              Note 18 for Status of Unexpended Balance.




                                                                                                                                    Civil Works Fund Principal Notes and Statements 287
03CWStatements12-12.qxd       12/12/2003        5:50 PM      Page 288




              Note 4. Investments
                                                                                                                      2003                                                           2002
                                                                                                             Amortized (Premium/                                Market Value
               As of September 30                                        Cost        Amortization Method          Discount)             Investments, Net         Disclosure     Investments, Net
               (Amounts in thousands)
               1. Intra-governmental Securities:
                     A. Marketable                                              $0          Interest                            $0                      $0                 $0                 $0
                     B. Non-Marketable, Par Value                                0          Interest                             0                       0                  0                  0
                     C. Non-Marketable, Market-Based                     2,503,585   Effective    Interest                 (36,814)              2,466,771          2,505,019          2,264,451
                     D. Subtotal                                        $2,503,585                                        ($36,814)             $2,466,771         $2,505,019         $2,264,451
                     E. Accrued Interest                                   $11,683                                                                 $11,683            $11,683             $4,635
                     F. Total Intragovernmental Securities              $2,515,268                                        ($36,814)             $2,478,454         $2,516,702         $2,269,086

               2. Other Investments:                                            $0                                                 $0                      $0              $0                 $0

              3. Other Information:
              Investments for the Inland Waterways, Harbor Maintenance, and South Dakota Terrestrial Wildlife Habitat Restoration Trust Funds are reported by the Treasury and
              included in U.S. Army Corps of Engineers' Financial Statements. Investment amounts include $392,809 thousand in Inland Waterways, $2,032,558 thousand in
              Harbor Maintenance and $53,087 thousand in the South Dakota Terrestrial Wildlife account. Investments include $285,496 thousand in one-day certificates and
              $2,181,275 thousand in bonds and notes. See Note 3 for further discussion of Inland Waterways and Harbor Maintenance Trust Funds.

              It is the intent to hold investments until maturity unless they are needed to sustain operations. Provisions are not made for unrealized gains or losses on these
              securities. The Trust Funds use the same method that conforms to the prevailing practice in the financial community to determine the amortized book value of
              investments currently held and the related effective interest yield on investments. These calculated yields agree with yields published in the security tables of U. S.
              Treasury securities.

              These types of investments are recorded at cost, net of unamortized premiums or discounts. Premiums or discounts are amortized into interest income over the term of
              the investment. Investment decisions for these funds are made by the managing entity, in this case the Department of the Treasury.

              The Department of the Treasury also provides the investment market value based on the bid price provided by the Federal Reserve Bank of New York on September
              30, 2003.

              Note Reference
              See Note Disclosure 1.N. - Investments in U. S. Treasury for additional DoD policies governing Investments in U.S. Treasury Securities.

              See Note 21A for further discussion of Trust Funds.




                 288 Fiscal Year 2003 Army Annual Financial Statement
03CWStatements12-12.qxd      12/12/2003       5:50 PM      Page 289




              Note 5. Accounts Receivable
                                                                                                            2003                                                     2002
                                                                                                  Allowance For Estimated
               As of September 30                                         Gross Amount Due             Uncollectibles            Accounts Receivable, Net   Accounts Receivable, Net
               (Amounts in thousands)
               1. Intra-governmental Receivables:                                     $423,775              N/A                                  $423,775                      $528,150
               2. Non-Federal Receivables (From the Public):                        $1,938,745                       ($3,178)                  $1,935,567                      $922,931
               3. Total Accounts Receivable:                                        $2,362,520                       ($3,178)                  $2,359,342                    $1,451,081

              4. Allowance method:
              The method of calculating the allowance for estimated uncollectibles is based on the cumulative balance of delinquent public receivables aged in accordance with
              current USACE policy. The calculation was performed automatically in the Corps of Engineers Financial Management System.

              The Code of Federal Regulations (4CFR 101) prohibits the write-off of receivables from another federal agency. As such, no allowance for estimated uncollectible
              amounts is recognized for these receivables.

              5. Other information:

              Elimination Adjustments
              The Corps was able to compare its accounts receivable balances with the accounts payable balances of its intragovernmental trading partners. No material differences
              were identified.

              Intragovernmental Receivables Over 180 Days
              The amount of intragovernmental receivables over 180 days old is $13,174 thousand. No intragovernmental receivables have been submitted to the General
              Accounting office for opinion.

              Public Receivables Over 180 Days
              The amount of public receivables over 180 days old is $45,632 thousand. Receivables with the public include $29,175 thousand in accrued interest on delinquent
              receivables.

              Nonfederal Refunds Receivable
              The amount of public receivables includes $159 thousand in refunds receivable.

              Other Disclosures
              Public receivables include $45,047 thousand in current and $878,276 thousand in long-term accounts receivable (principal) associated with water storage contracts,
              $946,746 thousand in accrued interest receivable, and $1,828 thousand in penalties, fines, and and administrative fees receivable. Public receivables also includes
              $1,600 thousand in long-term receivable for hydraulic mining and $876 thousand due from the leasing of land acquired for flood control purposes, and $55,936
              thousand due from the D.C. Public Schools and Department of Housing. The remaining $8,436 thousand is for accounts receivable.
                                                                                                                                Civil Works Fund Principal Notes and Statements 289
03CWStatements12-12.qxd       12/12/2003        5:50 PM         Page 290




              Civil works water storage contracts include 167 projects with municipal and industrial water supply as an authorized purpose. It supplies water to 10 million people in
              115 cities.

              The amount of Public Receivables on the Treasury Report on Receivables Due From the Public is $2,901 thousand greater than the balance of public receivables
              reported on the balance sheet. The difference is attributed to the allowance for estimated uncollectibles of $3,178 thousand less the amount of receivables of $277
              thousand reclassified from public to intragovernmental after the completion of the Report on Receivables Due from the Public.

              Trust fund receivables for currently invested balances include $327,164 thousand for the Coastal Wetlands Restoration Trust Fund and $7,389 thousand for the Inland
              Waterways Trust Fund. To accommodate cash management practices, funds will remain invested until needed for disbursement. The budget authority is realized and
              obligations may be incurred before the actual transfer of funds.

              Fluctuations
              Line 1. The Corps aggressively pursued collection of intragovernmental receivables in FY 2003. The largest amounts collected were from Environmental Protection
              Agency and Federal Emergency Management Agency. Of considerable impact were General Services Administration, U.S. Fish and Wildlife, Department of Energy
              (several bills for small amounts), Department if Interior and Department of Agriculture (few bills for large amounts).

              Line 2. The increase in the amount of public receivables is due to the reporting of the non-current portion of the interest receivable for $879,952 thousand for water
              storage contracts. This amount was not reported last year.

              Note Reference
              See Note Disclosure 1.K. - Significant Accounting Policies for additional discussion on financial reporting requirements and DoD policies governing Accounts
              Receivable.

              Note 6. Other Assets
               As of September 30                                                               2003                             2002
               (Amounts in thousands)
               1. Intra-governmental Other Assets:
                     A. Advances and Prepayments                                                              $0                                  $0
                     B. Other Assets                                                                           0                                   0
                     C. Total Intra-governmental Other Assets                                                 $0                                  $0

               2. Non-Federal Other Assets:
                    A. Outstanding Contract Financing Payments                                                $0                                  $0
                    B. Other Assets (With the Public)                                                          0                                  77
                    C. Total Non-Federal Other Assets                                                         $0                                 $77

               3. Total Other Assets:                                                                         $0                                 $77

              4. Other Information Related to Other Assets:

                 290 Fiscal Year 2003 Army Annual Financial Statement
03CWStatements12-12.qxd      12/12/2003       5:50 PM      Page 291




              Fluctuations
              Line 2.C. In FY 2002 the Corps had advances to the public recorded as other assets. These advances have been reduced to zero in FY 2003.

              Note Reference
              See Note Disclosure 1. R. - Significant Accounting Policies for additional discussion on financial reporting requirements and DoD policies governing Other Assets.

              Note 7. Cash and Other Monetary Assets
               As of September 30                                                               2003                             2002
               (Amounts in thousands)
               1. Cash                                                                                      $772                               $654
               2. Foreign Currency (non-purchased)                                                           506                                163
               3. Other Monetary Assets                                                                        0                                  0
               4. Total Cash, Foreign Currency, & Other Monetary Assets                                   $1,278                               $817

              5. Other Information Pertaining to Entity Cash & Other Monetary Assets:

              Definitions
              Cash - The total of cash resources under the control of the Corps which includes coin, paper currency, purchased foreign currency, negotiable instruments, and
              amounts on deposit in banks and other financial institutions. Cash available for agency use should include petty cash funds and cash held in revolving funds which
              will not be transferred into the U.S. Government General Fund.

              Foreign Currency - consists of the total U.S. dollar equivalent of non-purchased foreign currencies held in foreign currency fund accounts. Non-purchased foreign
              currency is limited to the Treasury Index 97X7000 fund account (formerly called FT accounts).

              Other Monetary Assets - includes gold, special drawing rights, and U.S. Reserves in the International Monetary Fund. This category is principally for use by the
              Department of the Treasury.

              Other Corps Disclosures
              Cash consists of $768 thousand in Disbursing Officers' Cash and $4 thousand in Imprest Funds. Disbursing Officer's Cash differs from the Statement of Accountability
              by $220 thousand due to erroneous reporting on the Statement of Accountability. The reporting errors will be corrected on the next reporting cycle.

              The Corps translates foreign currency to U. S. dollars utilizing the Department of the Treasury Prevailing Rate of Exchange. This rate is the most favorable rate that
              would legally be available to the U. S. Government's acquisition of foreign currency for its official disbursements and accommodation of exchange transactions.

              Fluctuations
              Line 1. The increase in Disbursing Officers cash is due to an increase in travel advances issued and receivables related to travel advances. Travel credit cards are
              being phased out for employees who do not travel frequently.

                                                                                                                              Civil Works Fund Principal Notes and Statements 291
03CWStatements12-12.qxd    12/12/2003       5:50 PM      Page 292




              Line 2. The increase in cash is due primarily to an increase in foreign currency as a result of routine business practices. The Corps Finance Center now disburses for
              Japan and Korea Districts. Foreign currency is now bought in bulk.

              Note Reference
              See Note Disclosure 1. J.- Significant Accounting Policies, for additional discussion on financial reporting requirements and DoD policies governing Foreign Currency.

              Note 8. A. Direct Loan and/or Loan Guarantee Programs
              1. Direct Loan and/or Loan Guarantee Programs: The entity operates the following direct loan and/or
              Loan guarantee program(s):

              Military Housing Privatization Initiative
              Armament Retooling & Manufacturing Support Initiative

              2. Other Information:
              Not Applicable

              The Corps participates in Military Privatization Initiatives only from our military funded accounts. Therefore, these Civil Works financial statements reflect no activity
              in this area.

              Note 8.B. Direct Loans Obligated After FY 1991
              Not applicable

              Note 8.C. Total Amount of Direct Loans Disbursed
              Not applicable

              Note 8.D. Subsidy Expense for Post-1991 Direct Loans
              Not applicable

              Note 8.E. Subsidy Rate for Direct Loans
              Not applicable

              Note 8.F. Schedule for Reconciling Subsidy Cost Allowance Balances for
              Post-1991 Direct Loans
              Not applicable

                292 Fiscal Year 2003 Army Annual Financial Statement
03CWStatements12-12.qxd      12/12/2003        5:50 PM      Page 293




              Note 8.G. Defaulted Guaranteed Loans from Post-1991 Guarantees
              Not applicable

              Note 8.H. Guaranteed Loans Outstanding
              Not applicable

              Note 8.I. Liability for Post-1991 Loan Guarantees, Present Value
              Not applicable

              Note 8.J. Subsidy Expense for Post-1991 Loan Guarantees
              Not applicable

              Note 8.K. Subsidy Rate for Loan Guarantees
              Not applicable

              Note 8.L. Schedule for Reconciling Loan Guarantee Liability Balances for
              Post-1991 Loan Guarantees

              Not applicable

              Note 8.M. Administrative Expense
              Not applicable

              Note 9. Inventory and Related Property
               As of September 30                                            2003               2002
               (Amounts in thousands)
               1. Inventory, Net (Note 9.A.)                                        62,570                  63,037
               2. Operating Materials & Supplies, Net (Note 9.B.)                       35                     102
               3. Stockpile Materials, Net (Note 9.C.)                                   0                       0
               4. Total                                                             62,605                  63,139




                                                                                             Civil Works Fund Principal Notes and Statements 293
03CWStatements12-12.qxd      12/12/2003        5:50 PM       Page 294




              Note 9.A. Inventory, Net
                                                                                                                         2003                                            2002
               As of September 30                                                           Inventory, Gross Value     Revaluation Allowance       Inventory, Net    Inventory, Net   Valuation
               (Amounts in thousands)
               1. Inventory Categories:
                    A. Available and Purchased for Resale                                                    $87,984                   ($46,969)           $41,015          $40,548      O
                    B. Held for Repair                                                                             0                          0                  0                0
                    C. Excess, Obsolete, and Unserviceable                                                        11                          0                 11                0      O
                    D. Raw Materials                                                                               0                          0                  0                0
                    E. Work in Process                                                                        21,544                          0             21,544           22,489      O
                    F. Total                                                                                $109,539                   ($46,969)           $62,570          $63,037

               Legend for Valuation Methods:
               Adjusted LAC = Latest Acquisition Cost, adjusted for holding gains and   NRV = Net Realizable Value
               losses
               SP = Standard Price                                                      O = Other
               AC = Actual Cost
              2. Restrictions of Inventory Use, Sale, or Disposition:
              Inventory may be sold to foreign, state and local governments, private parties and contractors in accordance with current policies and guidance or at the direction of the
              U. S. President. Otherwise, there are no restrictions on the use, sale or disposition of inventory.

              3. Other Information:

              Definitions
              Inventory Available and Purchased for Resale includes consumable spare and repair parts and repairable items owned and managed by the Department. Material
              available and purchased for resale includes material held due to a managerial determination that it should be retained to support military or national contingencies.

              Inventory Held for Repair is damaged inventory that requires repair to make suitable for sale. Many of the inventory items are more economical to repair than to
              procure. In addition, because the Department often relies on weapon systems and machinery no longer in production, the Department supports a process that
              encourages the repair and rebuilding of certain items. This repair cycle is essential to maintaining a ready, mobile, and armed military force.

              Excess, Obsolete, and Unserviceable inventory consists of scrap materials or items that cannot be economically repaired and are awaiting disposal. Potentially
              reusable material, presented in previous years as “Excess, Obsolete and Unserviceable,” is included in “Held for Use” or “Held for Repair” categories according to its
              condition.

              Work-in-Process balances include costs related to the production or servicing of items, including direct material, direct labor, applied overhead and other direct costs.
              Work-in -Process also includes the value of finished products or completed services pending the submission of bills to the customer. The Work-in-Process designation
              may also be used to accumulate the amount paid to a contractor under cost reimbursable contracts, including the amount withheld from payment to ensure
              performance, and the amount paid to other Government plants for accrued costs of end-items of material ordered, but not delivered.
                 294 Fiscal Year 2003 Army Annual Financial Statement
03CWStatements12-12.qxd      12/12/2003        5:50 PM       Page 295




              General Composition of Inventory
              Inventory is tangible personal property that is (1) held for sale, (2) in the process of production for sale or (3) to be consumed in the production of goods for sale or in
              the provision of services for a fee. “Inventory held for Current Sale” is that expected to be sold in the normal course of operations. “Excess Inventory” is that which
              exceeds the demand expected in the normal course of operations and which does not meet management's criteria to be held in reserve for future sale. “Obsolete
              Inventory” is that which no longer is needed due to changes in technology, laws, customs or operations. “Unserviceable Inventory” is damaged inventory that is more
              economical to dispose of than to repair. Work in Process includes associated labor, applied overhead and supplies used in the deliver of services.

              The inventory data reported on the financial statements is derived from the Corps of Engineers Financial Management System (CEFMS). CEFMS is a comprehensive
              system that is designed to capture and maintain historical cost data necessary to fully comply with the Statement of Federal Financial Accounting Standards Number 3,
              “Accounting for Inventory and Related Property.

              The inventory valuation method is based on a moving weighted average based on actual cost divided by quantity. A perpetual record of inventory is maintained to
              allow for recomputation of the average unit cost as new receipts are recorded.

              For regulatory discussion on Inventory, Net, see DoD FMR, Volume 6B, chapter 10, paragraph 1011.

              Note Reference
              See Note Disclosure 1. M. - Significant Accounting Policies for additional discussion on financial reporting requirements and DoD policies governing Inventory and
              related Property.

              Note 9.B. Operating Materials and Supplies, Net
                                                                                           2003                          2002              Valuation
               As of September 30                                       Value         Allowance        OM&S, Net       OM&S, Net            Method
               (Amounts in thousands)
               1. OM&S Categories:
                    A. Held for Use                                             $35               $0          $35             $102            O
                    B. Held for Repair                                            0                0            0                0
                    C. Excess, Obsolete, and Unserviceable                        0                0            0                0
                    D. Total                                                    $35               $0          $35             $102

              2. Restrictions on OM&S:
              There are no restrictions on operating materials and supplies. The valuation method is based on a moving weighted average based on actual cost divided by quantity.

              3. Other Information:
              For regulatory discussion on OM&S, see DoD FMR, volume 6B, Chapter 10, paragraph 101107.

              Fluctuations
              The decrease in Operating Materials and Supplies is attributed to a depletion of the metered mail account at Fort Worth District.

                                                                                                                                Civil Works Fund Principal Notes and Statements 295
03CWStatements12-12.qxd       12/12/2003         5:50 PM       Page 296




              Note Reference
              See Note Disclosure 1. M. - Significant Accounting Policies for additional discussion on financial reporting requirements and DoD policies governing Inventory and
              related Property.

              Note 9.C. Stockpile Materials, Net
              Not applicable

              Note 10. General PP&E, Net
                                                                                                               2003                                                              2002
                                                                 Depreciation/                                           (Accumulated Depreciation/                       Prior FY Net Book
               As of September 30                              Amortization Method   Service Life   Acquisition Value          Amortization)           Net Book Value            Value
               (Amounts in thousands)
               1. Major Asset Classes:
                    A. Land                                           N/A                N/A                $8,131,547                           N/A         $8,131,547        $8,045,799
                    B. Buildings, Structures, and Facilities          S/L              2 - 100             $31,076,251                 ($12,796,064)        $18,280,187       $18,036,740
                    C. Leasehold Improvements                         S/L            lease term                 26,105                       (8,984)             17,121            18,598
                    D. Software                                       S/L               5-Feb                   56,058                      (32,157)             23,901            30,916
                    E. Equipment                                      S/L              5 - 100               1,210,536                     (577,810)            632,726           650,783
                    F. Assets Under Capital Lease [1]                 S/L            lease term                      0                            0                   0                 0
                    G. Construction-in-Progress                       N/A                N/A                 3,788,250                           N/A          3,788,250         7,373,045
                    H. Other                                                                                    35,323                            0              35,323            48,586
                    I. Total General PP&E                                                                  $44,324,070                 ($13,415,015)        $30,909,055       $34,204,467

              2. Other Information:

              General PP&E - Significant Amount of Assets
              Intangible assets totaling $2.1 billion were reclassified as land. These assets are comprised of historical costs associated with the acquisition of land in conjunction
              with power projects. Costs were originally classified as intangible assets in order to comply with Federal Energy Regulatory Commission guidelines on cost recovery.
              However, the decision was made that these costs were improperly classified in accordance with SFFAS No. 6, “Accounting for Property, Plant and Equipment”, as they
              were part of the initial acquisitions cost of the land and should have been classified as such. We have also made a reversing entry for current year amortization in our
              statements to properly reflect the effect of the transfer into land (category 00) where accumulated depreciation is inappropriate. There is a significant amount reported
              on land, buildings and structures, and construction in progress that originated in COEMIS (Corps of Engineers Management Information System) that source
              documentation is not available to support amounts. The Corps and DoDIG are continuing to work toward agreement on a baseline for these older items.

              Due to the change in policy (increasing Buildings and Structures threshold), the Corps expensed about 17,760 buildings and structures valued at about $63,261
              thousand during FY 2003. The service life for our multiple purpose project assets are derived from guidance provided by the Federal Energy Regulatory Commission
              based on industry standards. The Power Marketing Administration related assets make up $7,560,155 thousand of the book value of the Corps Property, Plant and
              Equipment.

                 296 Fiscal Year 2003 Army Annual Financial Statement
03CWStatements12-12.qxd        12/12/2003         5:50 PM      Page 297




              Corps policy requires all capital improvements to real property, occupied but not owned by the Corps, with a useful life of two or more years and cost of $25,000 to be
              capitalized as leasehold improvements.

              For regulatory discussion on General PP&E, Net, see DoD FMR, Volume 6B, Chapter 10, paragraph 1012.

              Fluctuations
              Line 1D - Software: The net book value of software decreased primarily due to an increase in the amount of amortization. The monthly amount of amortization
              increased due to new assets placed in service and a change to the useful life of the Corps' Financial Management System. In addition, adjustments for approximately
              $ 3,000 thousand were made due to the change in the useful life of the financial management software system and a change to the placed in service date for the Corps'
              Water Management System.

              Line 1G - Construction-in-Progress: Cost share and other construction in progress projects were transferred and recorded as a loss.

              Line 1H - Other: Other assets consist of assets awaiting disposal. Approximately $13,263 thousand in assets were disposed of during FY 2003.

              Note Reference
              See Note Disclosure 1.O. - Significant Accounting Policies for additional discussion on financial reporting requirements and DoD policies governing General Property,
              Plant and Equipment (PP&E).

              See Note 20 for further discussion on adjustment for construction-in-progress.

              Note 10.A. Assets Under Capital Lease
              Not applicable

              Note 11. Liabilities Not Covered and Covered by Budgetary Resources
                                                                                                     2003                                      2002
                                                                          Covered by Budgetary      Not Covered by                        Not Covered by
               As of September 30                                              Resources          Budgetary Resources      Total        Budgetary Resources
               (Amounts in thousands)
               1. Intra-governmental Liabilities:
                     A. Accounts Payable                                                $92,764                     $0      $92,764                       $0
                     B. Debt                                                                395                 16,991       17,386                   24,113
                     C. Environmental Liabilities                                             0                      0            0                        0
                     D. Other                                                         1,907,689                188,791    2,096,480                  185,293
                     E. Total Intra-governmental Liabilities                         $2,000,848               $205,782   $2,206,630                 $209,406




                                                                                                                                      Civil Works Fund Principal Notes and Statements 297
03CWStatements12-12.qxd       12/12/2003       5:50 PM      Page 298




                                                                                                   2003                                    2002
                                                                        Covered by Budgetary      Not Covered by                      Not Covered by
               As of September 30                                            Resources          Budgetary Resources      Total      Budgetary Resources
               (Amounts in thousands)
               2. Non-Federal Liabilities:
                    A. Accounts Payable                                              $568,108                     $0    $568,108                      $0
                    B. Military Retirement Benefits and                                     0                      0           0                       0
                    Other Employment-Related Actuarial Liabilities
                    C. Environmental Liabilities                                            0                      0            0                      0
                    D. Loan Guarantee Liability                                             0                      0            0                      0
                    E. Other Liabilities                                              642,461                 62,923      705,384                      0
                    F. Total Non-Federal Liabilities                               $1,210,569                $62,923   $1,273,492                     $0

               3. Total Liabilities:                                               $3,211,417               $268,705   $3,480,122               $209,406

              4. Other Information:

              Definitions

              Liabilities Not Covered by Budgetary Resources
              Liabilities that are not considered covered by realized budgetary resources as of the Balance Sheet date. Budgetary resources encompass the following:

                   New budget authority.

                   Spending authority from offsetting collections (credited to an appropriation or fund account).

                   Recoveries of unexpired budget authority through downward adjustments of prior-year obligations.

                   Unobligated balances of budgetary resources at the beginning of the year or net transfers of prior-year balances during the year.

                   Borrowing authority or permanent indefinite appropriations, which have been enacted and signed into law as of the Balance Sheet date, provided that the resources
                   may be apportioned by the OMB without further action by the Congress or without a contingency first having to be met.

              Liabilities Covered by Budgetary Resources
              Resources incurred by the reporting entity which are covered by realized budget resources as of the Balance Sheet date. Budgetary resources encompass not only new
              budget authority, but also other resources available to cover liabilities for specified purposes in a given year. Available budgetary resources include the following:

                   New budget authority.

                   Spending authority from offsetting collections (credited to an appropriation or fund account).

                 298 Fiscal Year 2003 Army Annual Financial Statement
03CWStatements12-12.qxd    12/12/2003     5:50 PM     Page 299




                  Recoveries of unexpired budget authority through downward adjustments of prior-year obligations.

                  Unobligated balances of budgetary resources at the beginning of the year or net transfers of prior-year balances during the year.

                  Borrowing authority or permanent indefinite appropriations, which have been enacted and signed into law as of the balance sheet date, provided that the resources
                  may be apportioned by the OMB without further action by the Congress or without a contingency first having to be met.

              Other Corps Information
              Intragovernmental other liabilities (not covered by budgetary resources) include judgment fund liabilities in the amount of $145,907 thousand and the FY 2003
              Workmen's Compensation liabilities in the amount of $42,884 thousand.

              Intragovernmental other liabilities (covered) includes $1,758,227 thousand representing future revenue from long term water storage contracts and $1,500 thousand
              representing future revenue from long term hydraulic mining contracts. Once collected, these monies are returned to the Department of Treasury's general fund receipt
              account and have no budgetary impact. This category also includes $21,207 thousand in employer contributions and payroll taxes, $768 thousand in Disbursing
              Officer Cash, $114,516 thousand to offset interest receivables and account receivables which, when collected, will be returned to Treasury, $510 thousand in the
              suspense account and $10,959 thousand in unearned advances.

              The Actuarial Liability for Federal Employee's Compensation Act (FECA) is not included. The Department of Labor is unable to furnish a figure for FECA liability
              specific to the Corps of Engineers.

              Non-federal other liabilities (covered) includes $443,414 thousand in accrued funded payroll and leave, $40,739 thousand in contract holdbacks, $110,265 thousand in
              unearned advances, $40,982 thousand maintained to fund contingent liabilities arising from casualty losses and $7,060 thousand in deposit fund and clearing account
              liabilities.

              Non-federal other liabilities (not covered by budgetary resources) include $62,923 thousand for the liability for contracts with continuation clause.

              Fluctuations
              Line 1B. Liability for Debt: The liability for debt decreases as principal is steadily being reduced.

              Line 1D. Other Intragovernmental Liabilities: The increase in other intragovernmental liabilities is due to the reporting of the long-term portion of the interest
              receivable for water storage contracts of $879,952 thousand. This is the first year for reporting this liability.

              Line 2E. Other Liabilities not Covered by Budgetary Resources: This amount increased due to the recording of a liability for contracts with continuation clauses.
              This amount was not reported in FY 2002.




                                                                                                                               Civil Works Fund Principal Notes and Statements 299
03CWStatements12-12.qxd      12/12/2003        5:50 PM    Page 300




              Note Reference
              For additional line item discussion, see:
              Note 8, Direct Loans and/or Loan Guarantee Programs
              Note 12, Accounts Payable
              Note 13, Debt
              Note 14, Environmental Restoration Liabilities and Environmental Disposal Liabilities
              Note 15, Other Liabilities
              Note 16, Commitments and Contingencies
              Note 17, Military Retirement Benefits and Other Employment-Related Actuarial Liabilities

              Note 12. Accounts Payable
                                                                                                     2003                                  2002
                                                                                               Interest, Penalties, and
               As of September 30                                       Accounts Payable         Administrative Fees           Total       Total
               (Amounts in thousands)
               1. Intra-governmental Payables:                                       $92,764             N/A                     $92,764      $83,815
               2. Non-Federal Payables (to the Public):                             $568,108                              $0    $568,108     $595,952
               3. Total                                                             $660,872                              $0    $660,872     $679,767

              4. Other Information:
              Intragovernmental Accounts Payable consists of amounts owed to other federal agencies for goods or services ordered and received but not yet paid. Interest, penalties
              and administrative fees are not applicable to intragovernmental payables. Non-Federal Payables (to the Public) are payments to nonfederal government entities.

              The Corps has no known delinquent accounts payable, therefore no amount is reported for interest, penalties, and administrative fees. For the period ending September
              30, 2003, the Corps paid $557 thousand in interest, from Civil Works appropriations, on payments subject to the Prompt Payment Act.

              The Corps was able to compare its accounts payable balance with the accounts receivable balances of its intra-departmental (DoD) trading partners. No material
              reconciling differences were identified.

              Fluctuations
              Line 1. Intra-governmental accounts payable includes $7,389 thousand for the transfer of currently invested balances from the Treasury Department to the Inland
              Waterways Trust Fund. This is the first year for the reporting of the trust fund payable.

              Note Reference
              See Note Disclosure 1.G. - Significant Accounting Policies for additional discussion on financial reporting requirements and DoD policies governing accounting for
              Intragovernmental Activities.



                 300 Fiscal Year 2003 Army Annual Financial Statement
03CWStatements12-12.qxd         12/12/2003     5:50 PM      Page 301




              Note 13. Debt
               As of September 30                                                             2003                                            2002
               (Amounts in thousands)                              Beginning Balance     Net Borrowings        Ending Balance            Ending Balance
               1. Public Debt:
                    A. Held by Government Accounts                       N/A                  N/A                   N/A                       N/A
                    B. Held by the Public                                N/A                  N/A                   N/A                       N/A
                    C. Total Public Debt                                 N/A                  N/A                   N/A                       N/A

               2. Agency Debt:
                    A. Debt to the Treasury                                    $24,668              ($7,282)           $17,386                      $24,667
                    B. Debt to the Federal Financing Bank                            0                    0                  0                            0
                    C. Debt to Other Federal Agencies                                0                    0                  0                            0
                    D. Total Agency Debt                                       $24,668              ($7,282)           $17,386                      $24,667

               3. Total Debt:                                                  $24,668              ($7,282)           $17,386                      $24,667

               4. Classification of Debt:
                       A. Intra-governmental Debt                                                                         $17,386                   $24,667
                       B. Non-Federal Debt                                                                                    N/A             N/A
                       C. Total Debt                                                                                      $17,386                   $24,667

              5. Other Information:
              During fiscal years 1997, 1998 and 1999, the Corps of Engineers executed three promissory notes totaling $75,000 thousand with the Department of the Treasury.
              Funds provided were used for capital improvements to the Washington Aqueduct. Arlington County and Falls Church, Virginia and the District of Columbia provide
              funding to repay the debt. Actual drawdown of the funds has been made from the Treasury in the amount of $74,896 thousand. Accrued interest payable at September
              30, 2003 is $395 thousand. During fiscal year 2003, actual drawdown of funds from the Treasury totals $1,530 thousand. Principal repayments during fiscal year
              2003 were $8,653 thousand. Total principal repayments as of September 30, 2003 are $57,905 thousand.

              The difference from FY 2002 represents principal repayments towards liquidating the debt.

              Note Reference
              See Note Disclosure 1. G. - Significant Accounting Policies for additional discussion on financial reporting requirements and DoD policies governing Accounting for
              Intragovernmental Activities, Public Debt.

              See Note 21A for further discussion on the Washington Aqueduct project.

              Note 14. Environmental Liabilities and Disposal Liabilities
              Not applicable


                                                                                                                                    Civil Works Fund Principal Notes and Statements 301
03CWStatements12-12.qxd      12/12/2003         5:50 PM      Page 302




              Note 15.A. Other Liabilities
               As of September 30                                                                                      2003                                 2002
               (Amounts in thousands)                                                     Current Liability        Noncurrent Liability             Total   Total
               1. Intra-governmental:
                     A. Advances from Others                                                             $10,959                          $0     $10,959            $17,312
                     B. Deferred Credits                                                                       0                           0           0                  0
                     C. Deposit Funds and Suspense Account Liabilities                                       510                           0         510             14,413
                     D. Resources Payable to Treasury                                                          0                           0           0             33,643
                     E. Disbursing Officer Cash                                                              768                           0         768                653
                     F. Nonenvironmental Disposal Liabilities:
                          (1) National Defense PP&E (Nonnuclear)                                              0                          0              0              0
                          (2) Excess/Obsolete Structures                                                      0                          0              0              0
                          (3) Conventional Munitions Disposal                                                 0                          0              0              0
                          (4) Other                                                                           0                          0              0              0
                     G. Accounts Payable-- Cancelled Appropriations                                           0                          0              0              0
                     H . Judgement Fund Liabilities                                                     145,907                          0        145,907        144,641
                     I. FECA Reimbursement to the Department of Labor                                    16,693                     26,191         42,884         40,652
                     J. Capital Lease Liability                                                               0                          0              0              0
                     K. Other Liabilities                                                               135,723                  1,759,729      1,895,452        895,630
                     L. Total Intra-governmental Other Liabilities                                     $310,560                 $1,785,920     $2,096,480     $1,146,944

               2. Non-Federal:
                    A. Accrued Funded Payroll and Benefits                                             $443,414                           $0    $443,414        $388,375
                    B. Advances from Others                                                             110,265                            0     110,265         112,410
                    C. Deferred Credits                                                                       0                            0           0               0
                    D. Loan Guarantee Liability                                                               0                            0           0               0
                    E. Liability for Subsidy Related to Undisbursed Loans                                     0                            0           0               0
                    F. Deposit Funds and Suspense Accounts                                                7,060                            0       7,060           6,524
                    G. Temporary Early Retirement Authority                                                   0                            0           0               0
                    H. Nonenvironmental Disposal Liabilities:
                         (1) National Defense PP&E (Nonnuclear)                                               0                          0              0              0
                         (2) Excess/Obsolete Structures                                                       0                          0              0              0
                         (3) Conventional Munitions Disposal                                                  0                          0              0              0
                         (4) Other                                                                            0                          0              0              0
                    I. Accounts Payable--Cancelled Appropriations                                             0                          0              0              0
                    J. Accrued Unfunded Annual Leave                                                          0                          0              0              0
                    K. Accrued Entitlement Benefits for Military Retirees and Survivors                       0                          0              0              0
                    L. Capital Lease Liability                                                                0                          0              0              0
                    M. Other Liabilities                                                                144,645                          0        144,645         83,467
                    N. Total Non-Federal Other Liabilities                                             $705,384                         $0       $705,384       $590,776
               3. Total Other Liabilities:                                                           $1,015,944                 $1,785,920     $2,801,864     $1,737,720

              4. Other Information Pertaining to Other Liabilities:

                 302 Fiscal Year 2003 Army Annual Financial Statement
03CWStatements12-12.qxd     12/12/2003     5:50 PM    Page 303




              Other Liabilities

              Intragovernmental

              The Corps of Engineers Civil Works Directorate has recognized 28 unfunded liabilities arising from Judgment Fund Contract Disputes Act settlement in accordance
              with the interpretation of Federal Financial Accounting Standards Number 2, Accounting for Treasury Judgment Fund Transactions.

              Federal Employees' Workman's Compensation costs reflect cost incurred for income lost and medical costs for federal civilian employees injured on the job, employees
              who have incurred a work-related occupational disease, and beneficiaries of employees whose death is attributable to a job-related injury or occupational disease. The
              costs are paid from the Federal Employees' Compensation Act (FECA). Fiscal year 2003 costs of $16,693 thousand are reflected as a current liability.

              Intra-governmental other liabilities (current) includes $21,207 thousand for employer contributions and payroll taxes and $114,516 thousand to offset interest and
              accounts receivables which, when collected, will be returned to Treasury. Intra-governmental other liabilities (noncurrent) represent future revenue of $1,758,227
              thousand from long term water storage and $1,500 thousand from hydraulic mining contracts.

              Non-Federal

              Non-federal other liabilities includes $40,982 thousand to fund contingent liabilities arising from casualty losses. An additional $40,739 thousand in contract
              holdbacks on construction-in-progress payments and $62,923 thousand for unfunded accounts payable are also included.

              Intragovernmental Reconciliations for Fiduciary Transactions
              With respect to the major fiduciary balances with the Office of Personnel Management (OPM) and the Department of Labor (DOL), the Corps was able to reconcile
              with the OPM and the DOL.

              Fluctuations
              Line 1.A. Intragovernmental Advances from others decreased because work was completed and advances were earned.

              Line 1.C. Deposit Funds and Suspense Account liabilities was reduced with the disposition of a disputed collection related to a water storage contract. Disposition of
              the collection was delayed pending the settlement of litigation.

              Line 1.D. Resources Payable to Treasury was used in FY 2002 to record the offset to accounts receivable in receipt accounts. The receipts are collected into Treasury
              receipt accounts. Per audit recommendation, these liabilities are now reported in line 1K, Other Liabilities.

              Line 1.E. The increase in the liability for Disbursing Officer Cash is attributed an increase in travel advances issued and receivables related to travel advances. Travel
              credit cards are being phased out for employees who do travel infrequently.

              Line 1.K. The increase in other liabilities is due to the reporting of the offset for long-term interest receivables. Interest receivable and the corresponding liability were

                                                                                                                                 Civil Works Fund Principal Notes and Statements 303
03CWStatements12-12.qxd      12/12/2003       5:50 PM     Page 304




              not reported in FY 2002 and prior because the interest had not been earned yet. Per audit recommendation, we are now including the offset for interest receivable in
              the amount of $881,926 thousand. Other Liabilities also increased due to the change in reporting resources payable to Treasury from line 1D.

              Line 2.M. The increase in Non-Federal Other Liabilities is attributed to recording an unfunded liability for contracts with continuation clause. The continuation clause
              allows contractors to continue work without funds being obligated.

              Note Reference
              See Note Disclosure 1.S. - Significant Accounting Policies for additional discussion on financial reporting requirements and DoD policies governing Contingencies and
              Other Liabilities.

              Note 15.B. Capital Lease Liability
              Not applicable

              Note 16. Commitments and Contingencies
              Disclosures Related to Commitments and Contingencies:

              Proprietary contingencies are commonly referred to as contingent liabilities. The Corps of Engineers has thirty-four cases pending litigation, in which the relief
              requested is $7.6 million or more. The Corps' Legal Counsel is of the opinion that it is “reasonably possible” that the outcome of the litigation will result in a loss.
              Since these cases fail to satisfy the criteria to record a contingent liability in accordance with the Federal Financial Accounting Standard Number 5, Accounting for
              Liabilities of the Federal Government, no amount is included in our financial statements.

              Note Reference
              See Note Disclosure 1.S. - Significant Accounting Policies for additional discussion on financial reporting requirements and DoD policies governing Contingencies and
              Other Liabilities.

              Note 17. Military Retirement Benefits and Other Employment Related Actuarial Liabilities
              Not applicable

              Note 18. Unexpended Appropriations
               As of September 30                                                                 2003                              2002
               (Amounts in thousands)
               1. Unexpended Appropriations:
                    A. Unobligated, Available                                                              $381,759                            $694,450
                    B. Unobligated, Unavailable                                                                   8                                   8
                    C. Unexpended Obligations                                                               255,079                             369,982
                    D. Total Unexpended Appropriations                                                     $636,846                          $1,064,440

                 304 Fiscal Year 2003 Army Annual Financial Statement
03CWStatements12-12.qxd     12/12/2003    5:50 PM    Page 305




              2. Other Information Pertaining to Unexpended Appropriations:

              Definitions

              Unexpended appropriations are the amount of budget authority remaining for disbursement against current or future obligations.

              Unobligated balances represent the cumulative amount of budgetary authority that has not been set aside to cover outstanding commitments and obligations.
              Unobligated balances are classified as available or unavailable. Unobligated balances associated with appropriations expiring at fiscal year end remain available only
              for obligation adjustments until the account is closed.

              Unexpended obligations represent funds that have been committed for goods that have not been received or services that have not been performed.

              Fluctuations
              The variance in unexpended appropriations is due to the change in recording the amount of appropriated receipts from unavailable receipt accounts to the expenditure
              accounts. In prior years, these amounts in Special and Contributed Funds have been recorded as appropriations received, which updated unexpended appropriations.
              According to Treasury proforma entry A184, these amounts are to be recorded as transfers in. Transfers in do not update unexpended appropriations. An adjustment
              was made to remove the unexpended balances in Special Funds ($78 thousand) and Contributed Funds ($342,591 thousand) and report as transfers in.

              Prior Year column total is less than Balance Sheet Line 5A prior year column by $424 thousand. This was due to an unreconciled difference in the funds balance
              between Washington Aqueduct and Treasury for appropriation 96X6094. Budgetary accounts were adjusted in order to reconcile with Treasury FACTS II submission
              edits. This difference has been corrected in the current year.

              Note 19.A General Disclosures Related to the Statement of Net Cost
              Disclosures Related to the Statement of Net Cost

              Statement of Net Cost
              The Consolidated Statement of Net Cost (SoNC) in the federal government is unique because its principles are driven on understanding the net cost of programs and/or
              organizations that the federal government supports through appropriations or other means. This statement provides gross and net cost information that can be related to
              the amount of output or outcome for a given program and/or organization administered by a responsible reporting entity.

              The amounts presented in the Statement of Net Cost are based on obligations, disbursements and accruals. The Corps records transactions on an accrual basis as
              required by generally accepted accounting principles.

              Fluctuations and Abnormalities
              Line 1B - Intragovernmental Earned Revenue increased this year due a change in our method of identifying eliminations for other Corps revenue for the revolving
              fund. The Corps developed system queries to identify trading partners for labor and other transactions paid from military and other civil appropriations. Revenue of
              $532,270 thousand had previously been included in Level 3 intra-entity eliminations. Revenue from D.C. Public Schools in the amount of $161,583 thousand was
                                                                                                                             Civil Works Fund Principal Notes and Statements 305
03CWStatements12-12.qxd      12/12/2003       5:50 PM     Page 306




              previously recorded as intragovernmental because the source appropriation was Treasury Index 95. We have since received direction from Treasury that D.C. Public
              Schools is considered public.

              Line 1D - Gross Costs with the Public also increased by $1,606,247 thousand due to the change in our method of figuring eliminations for the revolving fund. In FY
              2002 we reclassified revenue from our DoD trading partners (level 2) to Corps (level 3) because we could not identify the trading partners. As a result of this
              reclassification, we also had to eliminate a corresponding amount of expense at the Corps level. Costs were understated for FY 2002 for the revolving fund. During
              FY 2003 we developed system queries to identify DoD trading partners. Costs are more accurately stated in FY 2003. Costs also increased due to the recognition of
              losses associated with cost share and other construction in progress projects of $1,498,356 thousand. We also incurred additional costs of $62,923 thousand related to
              the recognition of the liability for contracts with continuation clauses. The liability and costs were not recognized in FY 2002. Costs associated with the transfer
              appropriations also increased by $67,743 thousand due to an increase in funding.

              Line 1E - Earned Revenue with the Public increased due a reclassification of revenue of $161,583 thousand from intragovernmental to public related to the D.C. Public
              Schools. The revenue was previously recorded as intragovernmental because the source appropriation was Treasury Index 95. We have since received direction from
              Treasury that D.C. Public Schools is considered public.

              Note 19.B. Gross Cost and Earned Revenue by Budget Functional Classification
              Not applicable

              Note 19.C. Gross Cost to Generate Intra-governmental Revenue and Earned Revenue (Transactions with Other Federal-Non-DoD-
              Entities) by Budget Functional Classification
              Not applicable

              Note 19.D. Imputed Expenses
               As of September 30
               (Amounts in thousands)                                                           2003                            2002

               1. Civilian (e.g.,CSRS/FERS) Retirement                                                  $106,317                            $81,319
               2. Civilian Health                                                                        108,142                            102,986
               3. Civilian Life Insurance                                                                    385                                366
               4. Military Retirement Pension                                                                  0                                  0
               5. Military Retirement Health                                                                   0                                  0
               6. Judgment Fund                                                                           10,222                             24,316
               7. Total Imputed Expenses                                                                $225,066                           $208,987


              Note 19.E. Benefit Program Expenses
              Not applicable

                 306 Fiscal Year 2003 Army Annual Financial Statement
03CWStatements12-12.qxd   12/12/2003     5:50 PM    Page 307




              Note 19. F. Exchange Revenue
              Disclosures Related to the Exchange Revenue:

              Exchange revenue arises when a government entity provides goods and services to the public or to another government entity for a price, “earned revenue'. Exchange
              revenue includes most user charges other than taxes, i.e., regulatory user charges.

              Goods and services provided through reimbursable programs to the public or another U.S. government entity (Intra-Corps, Intra-DoD, or other Federal Government
              entity) are provided at cost. Such reimbursable sales are reported as earned revenues. Costs are equal to the amount reported as earned.

              For regulatory discussion on Exchange Revenue, see DoD FMR, Volume 6B, Chapter 10, paragraph 102120.

              Note 19.G. Amounts for Foreign Military Sales (FMS) Program Procurements from Contractors
              Disclosures Related to Amounts for FMS Program Procurements from Contractors:

              Not Applicable

              Note 19.H. Stewardship Assets
              Disclosures Related to Stewardship Assets:

              Not Applicable

              Note 19.I. Intra-governmental Revenue and Expense
              Disclosures Related to Intra-governmental Revenue and Expense:

              The Corps of Engineers Financial Management System (CEFMS) captures trading partner data at the transaction level in a manner that facilitates trading partner
              reconciliation and elimination entries. There were no material reconciling differences.

              Note 19.J. Suborganization Program Costs
              Not applicable




                                                                                                                           Civil Works Fund Principal Notes and Statements 307
03CWStatements12-12.qxd      12/12/2003       5:50 PM     Page 308




              Note 20. Disclosures Related to the Statement of Changes in Net Position
                                                                                           Cumulative Results of        Unexpended          Cumulative Results of       Unexpended
               As of September 30                                                            Operations 2003         Appropriations 2003      Operations 2002        Appropriations 2002
               (Amounts in thousands)
               1. Prior Period Adjustments Increases (Decreases) to Net Position
               Beginning Balance:
                    A. Changes in Accounting Standards                                                         $0                      $0                       $0                     $0
                    B. Errors and Omissions in Prior Year Accounting Reports                           (2,669,485)                      0                        0                      0
                    C. Other Prior Period Adjustments                                                           0                       0                        0                      0
                    D. Total Prior Period Adjustments                                                 ($2,669,485)                     $0                       $0                     $0

               2. Imputed Financing:
                    A. Civilian CSRS/FERS Retirement                                                     $106,317                      $0                 $81,319                      $0
                    B. Civilian Health                                                                    108,142                       0                 102,986                       0
                    C. Civilian Life Insurance                                                                385                       0                     366                       0
                    D. Military Retirement Pension                                                              0                       0                       0                       0
                    E. Military Retirement Health                                                               0                       0                       0                       0
                    F. Judgment Fund                                                                       10,222                       0                  24,316                       0
                    G. Total Imputed Financing                                                           $225,066                      $0                $208,987                      $0

              3. Other Information:

              Other Corps Disclosures
              Reference Footnote 10 that the Corps of Engineers made a prior period adjustment of $2,669,485 thousand to remove the prior year cost share costs from the
              contruction in progress account.

              Taxes and Other Nonexchange Revenue include $847,514 thousand in tax collections and $56,701 thousand in interest income deposited into the trust fund accounts.
              Excise taxes totaling $89,520 thousand were deposited into the Inland Waterways Trust Fund. Taxes totaling $757,994 thousand were collected and deposited into The
              Harbor Maintenance Trust Fund. These taxes were derived from:

                   Tax on Foreign Trade                                 $87,344 thousand
                   Tax on Imports                                       624,436 thousand
                   Tax on Passengers                                      5,295 thousand
                   Tax on Domestics                                      40,647 thousand
                   Tax on Exports                                           272 thousand

              Transfers-in include $10 million transferred into the South Dakota Terrestrial Wildlife Restoration Trust Fund, $56,938 thousand in budget authority transferred into the
              Coastal Wetlands Restoration Trust Fund from the Aquatic Resources Trust Fund, $101,551 thousand transferred into the Inland Waterways Trust Fund from Treasury,
              and $568,900 thousand in budget authority transferred into the Harbor Maintenance Trust Fund from Treasury. An additional $576 thousand was transferred from the
              Department of Energy into the Corps' General Fund and $46 thousand was transferred from the Department of Defense in the Corps' General Fund.
                 308 Fiscal Year 2003 Army Annual Financial Statement
03CWStatements12-12.qxd    12/12/2003     5:50 PM     Page 309




              Transfers out to other government agencies include $2,981 thousand to the Customs Department and $13,974 thousand to the Saint Lawrence Seaway Development
              Corporation from the Harbor Maintenance Trust Fund. An additional $56,649 thousand was transferred from the General Fund to the Department of the Interior.

              Due to DDRS mapping problem, lines 4e and 5d for FY2002 have changed from what was published in FY2002.

              Fluctuations
              Line 2G. Imputed Financing - Judgment Fund: The amount of Judgment Fund claims paid by Treasury decreased by $14,526 thousand during FY 2003.

              Cumulative Results of Operations

              Line 4E. The increase in nonexchange revenue is caused by a fluctuation in taxes and interest in the trust funds. The Corps is the lead agency for reporting for the
              Inland Waterways and Harbor Maintenance Trust Funds.

              Line 4G. The increase in transfers in is due to recording the appropriated receipts transferred in for Special and Contributed Funds. The funding was recorded as
              appropriations received in prior years. The increase is also due to a change in reporting the transfers-in for the Harbor Maintenance and Inland Waterways Trust
              Funds. During FY 2002 transfers-in to these trust funds were reported on Line 5B as other financing sources. This year the transfers-in to these trust funds are
              correctly reported on Line 4G.

              Line 4H. The decrease in other budgetary financing sources is attributed to a loss on disposition of assets in the Revolving Fund.

              Line 5A. The increase in donations and forfeitures of property is due to land tracts donated to Jacksonville District.

              Line 5B. The decrease in transfers-in is due to a change in reporting the transfers-in to the Harbor Maintenance and Inland Waterways Trust Funds. During FY 2002
              the transfers-in to these trust funds were reported as other financing sources on Line 5B. However, the transfers-in should be reported as budgetary financing sources
              on Line 4G.

              Line 5D. The difference is due to a change in the non-exchange revenue related to receivables that are collected directly to Treasury receipt accounts.

              Unexpended Appropriations

              Line 4C. The difference is due to the change in the way of reporting appropriated receipts from Special and Trust Funds. The funds had previously been reported as
              appropriations received.

              Note Reference
              See Note 10 for further discussion of the construction in progress adjustment.
              For Regulatory Disclosure Related to The Statement of Changes in Net Position” see, Department of Defense Financial Management Regulation, Volume 6B, Chapter
              10, paragraph 1022.
                                                                                                                               Civil Works Fund Principal Notes and Statements 309
03CWStatements12-12.qxd      12/12/2003       5:50 PM      Page 310




              Note 21.A. Disclosures Related to the Statement of Budgetary Resources
               As of September 30                                                                                        2003              2002
               (Amounts in thousands)
               1. Net Amount of Budgetary Resources Obligated for Undelivered Orders at the End of the Period            $1,407,415         $1,368,628
               2. Available Borrowing and Contract Authority at the End of the Period                                       $31,840            $42,134

              3. Other Information:

              Intra-entity Transactions
              The Statement of Budgetary Resources (SBR) does not include intra-entity transactions because the statements are presented as combined and combining.

              Apportionment Categories
              The amount of direct and reimbursable obligations incurred against amounts apportioned under category A, B and exempt from apportionment in the SBR include:
              $5,516,359 thousand for direct obligations; $5,033,749 thousand for reimbursable obligations; and $29,796 thousand for direct obligations exempt from apportionment.

              Undelivered Orders
              Undelivered Orders presented in the SBR includes Undelivered Orders-Unpaid for both direct and reimbursable funds.

              Spending Authority from Offsetting Collections
              Adjustments in funds that are temporarily not available pursuant to Public Law, and those that are permanently not available (included in the “Adjustments” line on the
              SBR), are not included in the “Spending Authority from Offsetting Collections and Adjustments” line on the SBR or the “Spending Authority for Offsetting Collections
              and Adjustments” line on the Statement of Financing.

              Offsetting Receipts
              Special Fund and Trust Fund receipts reported in Treasury Table B for FY 2003 are not reported on Line 16 of the Statement of Budgetary Resources as offsetting
              receipts. These receipts are not appropriated nor received until the following fiscal year.

              Borrowing Authority
              Borrowing authority is for capital improvements to the Washington Aqueduct. Funding to repay the debt is provided by Arlington County, Virginia; Falls Church,
              Virginia; and the District of Columbia.

              Fluctuations
              Line 1D reflects a decrease in net transfers due to a change in reporting the budgetary data for the Trust Funds. As the lead agency for reporting for the Harbor
              Maintenace and Inland Waterways Trust Funds, the Corps must report all budgetary data for these two trust funds. The net effect of reporting both sides of the
              budgetary data reduces the net transfers between Treasury and the Corps to zero for these two trust funds. This is the first year to report all the budgetary data for these
              trust funds and accounts for the large decrease in net transfers.



                 310 Fiscal Year 2003 Army Annual Financial Statement
03CWStatements12-12.qxd    12/12/2003     5:50 PM    Page 311




              Line B1A, B9B and B16 of the SBR reflects changes made in the Trust Funds to include budgetary data for prior years not previously reported. The Corps is the lead
              agency for reporting for the Inland Waterways and Harbor Maintenance Trust funds. The Treasury Department manages the investments and maintains the accounting
              records for these funds but the Corps is responsible for reporting the budgetary and proprietary data on the financial statements. The Corps has not reported all the
              budgetary data in the past but the corrections are now reported in these year-end statements. We have recorded the beginning balance amount for total actual resources
              collected of $2,259,417 thousand for these two trust funds as current year appropriations received. Appropriations received also includes current year interest income
              and tax collections of $828,909 thousand for the Harbor Maintenance and Inland Waterways Trust Funds.

              Line B2B reflects a transfer out in FY2002 for Non-Federal Use of Disposal Facilities (96X5493).

              Line B3A2 reflects a decrease in receivables from Federal sources of $39,000 thousand in General Funds and an increase of $17,000 thousand in Revolving Fund.

              Line B3B1 reflects a decrease in unfilled customer orders with advance of $32,500 thousand in General Funds and a decrease of $21,000 thousand in Revolving Fund.

              Line B3B2 reflects an increase in unfilled customer orders without advance of $134,500 thousand in General Funds and an increase of $10,500 thousand in Revolving
              Fund.

              Line B6 reflects a reduction in principal repayment for Borrowing Authority.

              Line B9A reflects a decrease in apportioned unobligated balance of $23,500 thousand in Contributed Funds; an increase of 72,500 thousand in General Funds; and an
              increase of $93,500 thousand in Revolving Fund.

              Line B14A reflects a decrease in accounts receivables of $71,000 thousand in General Funds and a decrease of $4,000 thousand in Revolving Fund.

              Line B14B reflects an increase in unfilled customer orders from Federal sources of $254,500 thousand in General Funds and an increase of $8,500 thousand in
              Revolving Fund.

              Line B14C reflects an increase in undelivered orders of $9,500 thousand in Contributed Funds; an increase of $105,500 thousand in General Funds; an increase of
              $31,500 thousand in Revolving Fund; an increase of $12,500 thousand in Trust Funds; and a decrease of $4,500 thousand in Transfer Funds.

              Note Reference
              See Note 13 for further discussion on the Washington Aqueduct project.

              See Note 4 for further discussion of investments.




                                                                                                                            Civil Works Fund Principal Notes and Statements 311
03CWStatements12-12.qxd      12/12/2003       5:50 PM      Page 312




              Note 21.B. Disclosures Related to Problem Disbursements, In-transit Disbursements and Suspense/Budget Clearing Accounts
                                                                                                                                                               (Decrease)/Increase
               As of September 30                                                                           September-01     September-02     September-03      from 2002 to 2003
               (Amounts in thousands)
               1. Total Problem Disbursements
                    A. Absolute Unmatched Disbursements                                                              $0                $0              $0                            $0
                    B. Negative Unliquidated Obligations                                                              0                 0               0                             0
               2. Total In-transit Disbursements, Net                                                                $0                $0              $0                            $0
               3. Other Information Related to Problem Disbursements and In-transit Disbursement
                  The Corps has no problem or in-transit disbursements to report.

               4. Suspense/Budget Clearing Accounts,Net
                        Account                                                                             September-01     September-02     September-03          (Decrease)/Increase
                        F3875                                                                                   $17,422          $14,228            $850                     ($13,378)
                        F3880                                                                                        (5)               0                0                            0
                        F3882                                                                                         0                0                0                            0
                        F3885                                                                                         0                0                0                            0
                        F3886                                                                                         0                0                0                            0
                        Total                                                                                   $17,417          $14,228            $850                     ($13,378)

              5. Other Information Related to Suspense/Budget Clearing Accounts:

              Other Corps Disclosures
              F3875 includes a portion of receipts from leases of land to the public for flood control, navigation and allied purposes. The portion of lease receipts when the term of
              the lease extends into fiscal year 2004 is collected into F3875. The collections are transferred out in the year following collection.

              The decrease in F3875 is also attributed to the resolution of $13 million disputed collection on a water storage contract at Tulsa District.

              Note 22. Disclosures Related to the Statement of Financing
              Disclosures Related to the Statement of Financing:
              Intra-entity transactions have not been eliminated because the Statement of Financing is presented as combined and combining.

              Footnote 20 includes an explanation for the prior period adjustment of $2,669,485 thousand.

              Line 4. The increase in offsetting receipts is attributed to an increase in tax receipts and interest income on Trust Funds.

              Line 6. The change in Donations and forfeitures of property is due to a donation of land tracts to Jacksonville District.

              Line 7. The change in transfers in/out is due to an increase in transfers-out. The Corps transferred assets for $56,649 thousand to the Department of Interior alone
              during FY 2003.

                 312 Fiscal Year 2003 Army Annual Financial Statement
03CWStatements12-12.qxd    12/12/2003      5:50 PM     Page 313




              Line 9. The difference is due to a change in the non-exchange revenue related to receivables that are collected directly to Treasury receipt accounts.

              Line 12a. The change is due to a reduction in undelivered orders for reimbursable work in the General Fund.

              Line 12b. The increase is from customer orders from other Federal agencies totaling $102,213 thousand in the General Fund.

              Line 14. The increase in offsetting collections and receipts is attributed to an increase in tax receipts in the Trust Funds.

              Line 15. The change in capitalized assets resulted from policy change to the capitalization threshold for buildings and structures. All civil works buildings and
              structures currently capitalized under $25 thousand, excluding Revolving Fund and Power Marketing Agencies, will be expensed in the current year. Another cause of
              the change is the reduction to the construction in progress account for cost share projects and transfers to the public.

              Line 23. The change is mostly attributed to the increase in future funded expense for contracts with a continuation clause.

              Line 25. Pursuant to auditor recommendation, all Corps Districts were directed to identify and correct errors related to depreciation for property, plant and equipment.

              Line 26. This line represents current year activity for transfers of construction in progress for cost share projects to the public.

              Line 27. This line represents bad debt expense related to accounts receivable and expenses related to a trust fund payable. The FY 2002 amount has been restated to
              reflect a transfer out of construction in progress of $2,669,485 thousand.

              Note 23. Disclosures Related to the Statement of Custodial Activity
              Disclosures Related to the Statement of Custodial Activity:

              This Statement is prepared at the Department of Defense level only.

              Note 24.A. Other Disclosures
              Not applicable

              Note 24.B. Other Disclosures
              Other Disclosures:

              During FY 2003 the Corps of Engineers received $137,875 thousand in direct appropriations from the Power Marketing Administration.

              Not applicable




                                                                                                                                  Civil Works Fund Principal Notes and Statements 313
03CWStatements12-12.qxd        12/12/2003         5:50 PM        Page 314




              Consolidating Balance Sheet
              Department of Defense • Department of the Army, Civil Works Fund
              For the Years Ended September 30, 2003 and 2002 ($ in thousands)

                                                                                                                                Borrowing          Revolving          Contributed
              ASSETS (Note 2)                                                    Special Funds   Trust Funds   Transfer Funds    Authority            Funds                 Funds
                  Intragovernmental:
                       Fund Balance with Treasury (Note 3)
                            Entity                                                    $3,076        $67,482         $40,304         $645           $990,006             $388,451
                            Non-Entity Seized Iraqi Cash                                  $0             $0              $0           $0                 $0                   $0
                            Non-Entity-Other                                              $0             $0              $0           $0                 $0                   $0
                       Investments (Note 4)                                               $0     $2,478,454              $0           $0                 $0                   $0
                       Accounts Receivable (Note 5)                                       $0       $334,552              $0           $0            $11,077                   $1
                       Other Assets (Note 6)                                              $0             $0              $0           $0                 $0                   $0
                       Total Intragovernmental Assets                                 $3,076     $2,880,488         $40,304        $645          $1,001,083             $388,452
                  Cash and Other Monetary Assets (Note 7)                                 $0             $0              $0           $0                 $0                   $0
                  Accounts Receivable (Note 5)                                         2,264              0               0            0              2,429                    0
                  Loans Receivable (Note 8)                                                0              0               0            0                  0                    0
                  Inventory and Related Property (Note 9)                                  0              0               0            0             45,706                    0
                  General Property, Plant and Equipment (Note 10)                      1,204        731,479         188,444        8,704            862,879               12,300
                  Investments (Note 4)                                                     0              0               0            0                  0                    0
                  Other Assets (Note 6)                                                    0              0               0            0                  0                    0
              TOTAL ASSETS                                                            $6,544     $3,611,967        $228,748       $9,349         $1,912,097             $400,752

              LIABILITIES (Note 11)
                   Intragovernmental:
                         Accounts Payable (Note 12)                                       $0        $7,815           $1,348           $0            $42,174                 $683
                         Debt (Note 13)                                                    0             0                0       17,386                  0                    0
                         Environmental Liabilities (Note 14)                               0             0                0            0                  0                    0
                         Other Liabilities (Note 15 & Note 16)                         2,279         6,000                0            0             24,325                1,170
                         Total Intragovernmental Liabilities                          $2,279       $13,815           $1,348      $17,386            $66,499               $1,853
                   Accounts Payable (Note 12)                                           $623        $7,843           $4,690         $264            $81,753              $21,977
                   Military Retirement Benefits and Other Employment-Related               0             0                0            0                  0                    0
                         Actuarial Liabilities (Note 17)
                   Environmental Liabilities (Note 14)                                     0             0                0            0                  0                    0
                   Loan Guarantee Liability (Note 8)                                       0             0                0            0                  0                    0
                   Other Liabilities (Note 15 and Note 16)                             1,102        11,540            1,860           67            502,847                9,033
                   Debt Held by Public                                                     0             0                0            0                  0                    0
              TOTAL LIABILITIES                                                       $4,004       $33,198           $7,898      $17,717           $651,099              $32,863

              NET POSITION
                  Unexpended Appropriations (Note 18)                                     $0             $0         $32,406           $0                 $0                   $0
                  Cumulative Results of Operations                                     2,540      3,578,769         188,444       (8,368)         1,260,998              367,889
              TOTAL NET POSITION                                                      $2,540     $3,578,769        $220,850      ($8,368)        $1,260,998             $367,889
              TOTAL LIABILITIES AND NET POSITION                                      $6,544     $3,611,967        $228,748       $9,349         $1,912,097             $400,752

                                                                                                                                      The accompanying notes are an integral part of these statements.
                 314 Fiscal Year 2003 Army Annual Financial Statement
03CWStatements12-12.qxd        12/12/2003           5:50 PM        Page 315




                                                                                                                                                   Consolidating Balance Sheet
                                                                                                                                                     Department of Defense • Department of the Army
                                                                                                                                   For the Years Ended September 30, 2003 and 2002 ($ in thousands)

                                                                                                                                                          2003                2002
              ASSETS (Note 2)                                                    General Funds   FUSRAP    Combined Total      Eliminations        Consolidated        Consolidated
                  Intragovernmental:
                       Fund Balance with Treasury (Note 3)
                            Entity                                                 $1,063,063    $35,830      $2,588,857               $0          $2,588,857           $2,502,677
                            Non-Entity Seized Iraqi Cash                                   $0         $0              $0               $0                  $0                   $0
                            Non-Entity-Other                                           $6,865         $0          $6,865               $0              $6,865              $41,280
                       Investments (Note 4)                                                $0         $0      $2,478,454               $0          $2,478,454           $2,269,086
                       Accounts Receivable (Note 5)                                   $80,112         $0        $425,742           $1,968            $423,774             $528,150
                       Other Assets (Note 6)                                             $897         $0            $897             $897                  $0                   $0
                       Total Intragovernmental Assets                              $1,150,937    $35,830      $5,500,815           $2,865          $5,497,950           $5,341,193
                  Cash and Other Monetary Assets (Note 7)                              $1,278         $0          $1,278               $0              $1,278                 $817
                  Accounts Receivable (Note 5)                                      1,930,873          1       1,935,567                0           1,935,567              922,931
                  Loans Receivable (Note 8)                                                 0          0               0                0                   0                    0
                  Inventory and Related Property (Note 9)                              16,899          0          62,605                0              62,605               63,139
                  General Property, Plant and Equipment (Note 10)                  29,104,009         37      30,909,056                0          30,909,056           34,204,467
                  Investments (Note 4)                                                      0          0               0                0                   0                    0
                  Other Assets (Note 6)                                                     0          0               0                0                   0                   77
              TOTAL ASSETS                                                        $32,203,996    $35,868     $38,409,321           $2,865         $38,406,456          $40,532,624

              LIABILITIES (Note 11)
                   Intragovernmental:
                         Accounts Payable (Note 12)                                   $42,486       $226         $94,732           $1,968              $92,764             $83,815
                         Debt (Note 13)                                                     0          0          17,386                0               17,386              24,667
                         Environmental Liabilities (Note 14)                                0          0               0                0                    0                   0
                         Other Liabilities (Note 15 & Note 16)                      2,063,603          0       2,097,377              897            2,096,480           1,146,944
                         Total Intragovernmental Liabilities                       $2,106,089       $226      $2,209,495           $2,865           $2,206,630          $1,255,426
                   Accounts Payable (Note 12)                                        $420,259    $30,699        $568,108               $0             $568,108            $595,952
                   Military Retirement Benefits and Other Employment-Related                0          0               0                0                    0                   0
                         Actuarial Liabilities (Note 17)
                   Environmental Liabilities (Note 14)                                      0          0               0                0                    0                   0
                   Loan Guarantee Liability (Note 8)                                        0          0               0                0                    0                   0
                   Other Liabilities (Note 15 and Note 16)                            178,799        136         705,384                0              705,384             590,776
                   Debt Held by Public                                                      0          0               0                0                    0                   0
              TOTAL LIABILITIES                                                    $2,705,147    $31,061      $3,482,987           $2,865           $3,480,122          $2,442,154

              NET POSITION
                  Unexpended Appropriations (Note 18)                                $599,670     $4,770        $636,846               $0            $636,846           $1,064,864
                  Cumulative Results of Operations                                 28,899,179         37      34,289,488                0          34,289,488           37,025,606
              TOTAL NET POSITION                                                  $29,498,849     $4,807     $34,926,334               $0         $34,926,334          $38,090,470
              TOTAL LIABILITIES AND NET POSITION                                  $32,203,996    $35,868     $38,409,321           $2,865         $38,406,456          $40,532,624

              The accompanying notes are an integral part of these statements.
                                                                                                                            Civil Works Fund Principal Notes and Statements 315
03CWStatements12-12.qxd        12/12/2003         5:50 PM        Page 316




              Consolidating Statement of Net Costs
              Department of Defense • Department of the Army, Civil Works Fund
              For the Years Ended September 30, 2003 and 2002 ($ in thousands)

              Program Costs                                                      Combined Total   Eliminations   2003 Consolidated   2002 Consolidated
              Borrowing Authority
                   Intragovernmental Gross Costs                                          $264           $27                $237                    $802
                   (Less: Intragovernmental Earned Revenue)                                  0             0                   0                       0
                   Intragovernmental Net Costs                                            $264           $27                $237                    $802
                   Gross Costs With the Public                                          $8,626            $0              $8,626                 $16,000
                   (Less: Earned Revenue From the Public)                               (9,049)            0              (9,049)                (16,940)
                   Net Costs With the Public                                             ($423)           $0               ($423)                  ($940)
                   Total Net Cost                                                        ($159)          $27               ($186)                  ($138)

              Contributed Funds
                   Intragovernmental Gross Costs                                      $30,627        $23,162              $7,465                 $5,051
                   (Less: Intragovernmental Earned Revenue)                                 0              0                   0                      0
                   Intragovernmental Net Costs                                        $30,627        $23,162              $7,465                 $5,051
                   Gross Costs With the Public                                       $900,965             $0            $900,965               $601,520
                   (Less: Earned Revenue From the Public)                                 (10)             0                 (10)                    (2)
                   Net Costs With the Public                                         $900,955             $0            $900,955               $601,518
                   Total Net Cost                                                    $931,582        $23,162            $908,420               $606,569

              FUSRAP
              Intragovernmental Gross Costs                                            $7,579         $5,055              $2,524                 $2,209
                   (Less: Intragovernmental Earned Revenue)                                 0              0                   0                      0
                   Intragovernmental Net Costs                                         $7,579         $5,055              $2,524                 $2,209
                   Gross Costs With the Public                                       $137,757             $0            $137,757               $147,444
                   (Less: Earned Revenue From the Public)                                   0              0                   0                   (600)
                   Net Costs With the Public                                         $137,757             $0            $137,757               $146,844
                   Total Net Cost                                                    $145,336         $5,055            $140,281               $149,053

              General Funds
                  Intragovernmental Gross Costs                                     $1,331,374    $1,066,354            $265,020               $290,137
                  (Less: Intragovernmental Earned Revenue)                            (479,526)          (27)           (479,499)              (604,225)
                  Intragovernmental Net Costs                                         $851,848    $1,066,327           ($214,479)             ($314,088)
                  Gross Costs With the Public                                       $6,314,004            $0          $6,314,004             $5,114,686
                  (Less: Earned Revenue From the Public)                              (264,819)            0            (264,819)               (88,170)
                  Net Costs With the Public                                         $6,049,185            $0          $6,049,185             $5,026,516
                  Total Net Cost                                                    $6,901,033    $1,066,327          $5,834,706             $4,712,428




                                                                                                                                     The accompanying notes are an integral part of these statements.
                 316 Fiscal Year 2003 Army Annual Financial Statement
03CWStatements12-12.qxd        12/12/2003           5:50 PM        Page 317




                                                                                                                                      Consolidating Statement of Net Costs
                                                                                                                                                       Department of Defense • Department of the Army
                                                                                                                                     For the Years Ended September 30, 2003 and 2002 ($ in thousands)

              Program Costs                                                      Combined Total   Eliminations   2003 Consolidated      2002 Consolidated
              Revolving Funds
                   Intragovernmental Gross Costs                                      $515,084             $0           $515,084                  $480,519
                   (Less: Intragovernmental Earned Revenue)                         (1,641,855)    (1,109,585)          (532,270)                  (12,212)
                   Intragovernmental Net Costs                                     ($1,126,771)   ($1,109,585)          ($17,186)                 $468,307
                   Gross Costs With the Public                                      $1,379,197             $0         $1,379,197                 ($227,050)
                   (Less: Earned Revenue From the Public)                              (24,755)             0            (24,755)                  (16,028)
                   Net Costs With the Public                                        $1,354,442             $0         $1,354,442                 ($243,078)
                   Total Net Cost                                                     $227,671    ($1,109,585)        $1,337,256                  $225,229

              Special Funds
                  Intragovernmental Gross Costs                                          $765           $629                $136                        $0
                  (Less: Intragovernmental Earned Revenue)                                  0              0                   0                         0
                  Intragovernmental Net Costs                                            $765           $629                $136                        $0
                  Gross Costs With the Public                                         $11,212             $0             $11,212                   $12,290
                  (Less: Earned Revenue From the Public)                                    0              0                   0                         0
                  Net Costs With the Public                                           $11,212             $0             $11,212                   $12,290
                  Total Net Cost                                                      $11,977           $629             $11,348                   $12,290

              Transfer Funds
                  Intragovernmental Gross Costs                                       $10,816         $7,817              $2,999                       $224
                  (Less: Intragovernmental Earned Revenue)                                  0              0                   0                          0
                  Intragovernmental Net Costs                                         $10,816         $7,817              $2,999                       $224
                  Gross Costs With the Public                                         $70,313             $0             $70,313                     $2,569
                  (Less: Earned Revenue From the Public)                                    0              0                   0                          0
                  Net Costs With the Public                                           $70,313             $0             $70,313                     $2,569
                  Total Net Cost                                                      $81,129         $7,817             $73,312                     $2,793

              Trust Funds
                   Intragovernmental Gross Costs                                      $32,302         $6,568             $25,734                    $7,688
                   (Less: Intragovernmental Earned Revenue)                                 0              0                   0                         0
                   Intragovernmental Net Costs                                        $32,302         $6,568             $25,734                    $7,688
                   Gross Costs With the Public                                       $644,898             $0            $644,898                  $647,305
                   (Less: Earned Revenue From the Public)                                   0              0                   0                         0
                   Net Costs With the Public                                         $644,898             $0            $644,898                  $647,305
                   Total Net Cost                                                    $677,200         $6,568            $670,632                  $654,993




              The accompanying notes are an integral part of these statements.
                                                                                                                             Civil Works Fund Principal Notes and Statements 317
03CWStatements12-12.qxd        12/12/2003         5:50 PM        Page 318




              Consolidating Statement of Net Costs
              Department of Defense • Department of the Army, Civil Works Fund
              For the Years Ended September 30, 2003 and 2002 ($ in thousands)

              Program Costs                                                      Combined Total   Eliminations   2003 Consolidated   2002 Consolidated
              Total Program Costs
                   Intragovernmental Gross Costs                                    $1,928,811    $1,109,612            $819,199               $786,630
                   (Less: Intragovernmental Earned Revenue)                         (2,121,381)   (1,109,612)         (1,011,769)              (616,437)
                   Intragovernmental Net Costs                                       ($192,570)           $0           ($192,570)              $170,193
                   Gross Costs With the Public                                      $9,466,972            $0          $9,466,972             $6,314,764
                   (Less: Earned Revenue From the Public)                             (298,633)            0            (298,633)              (121,740)
                   Net Costs With the Public                                        $9,168,339            $0          $9,168,339             $6,193,024
                   Total Net Cost                                                   $8,975,769            $0          $8,975,769             $6,363,217
                Cost Not Assigned to Programs                                               $0            $0                  $0                     $0
                (Less:Earned Revenue Not Attributable to Programs)                           0             0                   0                      0
                Net Cost of Operations                                              $8,975,769            $0          $8,975,769             $6,363,217




                                                                                                                                     The accompanying notes are an integral part of these statements.
                 318 Fiscal Year 2003 Army Annual Financial Statement
03CWStatements12-12.qxd        12/12/2003           5:50 PM        Page 319




                                                                                                                   Consolidating Statement of Changes in Net Position
                                                                                                                                                         Department of Defense • Department of the Army
                                                                                                                                       For the Years Ended September 30, 2003 and 2002 ($ in thousands)

              CUMULATIVE RESULTS OF OPERATIONS                                   Special Funds   Trust Funds   Transfer Funds        Borrowing Authority           Revolving Funds
              Beginning Balances                                                       $1,950    $3,388,693        $218,068                    $45,057                 $1,249,424
              Prior period adjustments (+/-)                                                0             0                0                         0                          0
              Beginning Balances, as adjusted                                          $1,950    $3,388,693        $218,068                    $45,057                 $1,249,424
              Budgetary Financing Sources:
                   Appropriations received                                                 0             0                0                            0                          0
                   Appropriations transferred-in/out (+/-)                                 0             0                0                            0                          0
                   Other adjustments (rescissions, etc) (+/-)                              0             0                0                            0                          0
                   Appropriations used                                                     0             0           62,911                            0                     17,133
                   Nonexchange revenue                                                     0       904,214                0                            0                          0
                   Donations and forfeitures of cash and cash equivalents                  0             0                0                            0                          0
                   Transfers-in/out without reimbursement (+/-)                       14,086        49,983                0                            0                          0
                   Other budgetary financing sources (+/-)                                15             0                0                            0                      7,501
              Other Financing Sources:
                   Donations and forfeitures of property                                   0              0               0                           0                        100
                   Transfers-in/out without reimbursement (+/-)                       (1,534)       (86,922)        (11,327)                    (62,237)                      (333)
                   Imputed financing from costs absorbed by others                         0              0               0                           0                    214,844
                   Other (+/-)                                                             0              0             (78)                      8,653                          0
              Total Financing Sources                                                $12,567       $867,275         $51,506                    ($53,584)                  $239,245
              Net Cost of Operations (+/-)                                            11,977        677,200          81,129                        (159)                   227,671
              Ending Balances                                                         $2,540     $3,578,768        $188,445                     ($8,368)                $1,260,998

              UNEXPENDED APPROPRIATIONS
              Beginning Balances                                                         $78            $0          $37,081                           $0                          $0
              Prior period adjustments (+/-)                                               0             0                0                            0                           0
              Beginning Balances, as adjusted                                            $78            $0          $37,081                           $0                          $0
              Budgetary Financing Sources:
                   Appropriations received                                                  0             0               0                            0                           0
                   Appropriations transferred-in/out (+/-)                                  0             0          58,236                            0                           0
                   Other adjustments (rescissions, etc) (+/-)                             (78)            0               1                            0                           0
                   Appropriations used                                                      0             0         (62,912)                           0                           0
                   Nonexchange revenue                                                      0             0               0                            0                           0
                   Donations and forfeitures of cash and cash equivalents                   0             0               0                            0                           0
                   Transfers-in/out without reimbursement (+/-)                             0             0               0                            0                           0
                   Other budgetary financing sources (+/-)                                  0             0               0                            0                           0
              Other Financing Sources:
                   Donations and forfeitures of property                                   0             0                0                            0                           0
                   Transfers-in/out without reimbursement (+/-)                            0             0                0                            0                           0
                   Imputed financing from costs absorbed by others                         0             0                0                            0                           0
                   Other (+/-)                                                             0             0                0                            0                           0
              Total Financing Sources                                                   ($78)           $0          ($4,675)                          $0                          $0
              Net Cost of Operations (+/-)                                                 0             0                0                            0                           0
              Ending Balances                                                             $0            $0          $32,406                           $0                          $0

              The accompanying notes are an integral part of these statements.
                                                                                                                                Civil Works Fund Principal Notes and Statements 319
03CWStatements12-12.qxd        12/12/2003         5:50 PM        Page 320




              Consolidating Statement of Changes in Net Position
              Department of Defense • Department of the Army, Civil Works Fund
              For the Years Ended September 30, 2003 and 2002 ($ in thousands)

              CUMULATIVE RESULTS OF OPERATIONS                                   Contributed Funds   General Funds    FUSRAP      Combined Total
              Beginning Balances                                                         $918,329     $33,873,540        $31        $39,695,092
              Prior period adjustments (+/-)                                             (424,837)     (2,244,648)         0         (2,669,485)
              Beginning Balances, as adjusted                                            $493,492     $31,628,892        $31        $37,025,607
              Budgetary Financing Sources:
                   Appropriations received                                                     0                0           0                   0
                   Appropriations transferred-in/out (+/-)                                     0                0           0                   0
                   Other adjustments (rescissions, etc) (+/-)                                  0                0           0                   0
                   Appropriations used                                                         0        4,098,325     145,342           4,323,711
                   Nonexchange revenue                                                         0           27,027           0             931,241
                   Donations and forfeitures of cash and cash equivalents                      0                0           0                   0
                   Transfers-in/out without reimbursement (+/-)                          809,174          (10,000)          0             863,243
                   Other budgetary financing sources (+/-)                                     0          (40,052)          0             (32,536)
              Other Financing Sources:
                   Donations and forfeitures of property                                       0            4,548           0              4,648
                   Transfers-in/out without reimbursement (+/-)                           (2,324)         108,333           0            (56,344)
                   Imputed financing from costs absorbed by others                             0           10,222           0            225,066
                   Other (+/-)                                                              (872)         (27,082)          0            (19,379)
              Total Financing Sources                                                   $805,978       $4,171,321    $145,342         $6,239,650
              Net Cost of Operations (+/-)                                               931,582        6,901,033     145,336          8,975,769
              Ending Balances                                                           $367,888      $28,899,180         $37        $34,289,488

              UNEXPENDED APPROPRIATIONS
              Beginning Balances                                                        $342,591        $679,060       $6,054          $1,064,864
              Prior period adjustments (+/-)                                                   0               0            0                   0
              Beginning Balances, as adjusted                                           $342,591        $679,060       $6,054          $1,064,864
              Budgetary Financing Sources:
                   Appropriations received                                                     0        3,882,999     144,058           4,027,057
                   Appropriations transferred-in/out (+/-)                                     0          137,875           0             196,111
                   Other adjustments (rescissions, etc) (+/-)                           (342,591)          (1,750)          0            (344,418)
                   Appropriations used                                                         0       (4,098,514)   (145,342)         (4,306,768)
                   Nonexchange revenue                                                         0                0           0                   0
                   Donations and forfeitures of cash and cash equivalents                      0                0           0                   0
                   Transfers-in/out without reimbursement (+/-)                                0                0           0                   0
                   Other budgetary financing sources (+/-)                                     0                0           0                   0
              Other Financing Sources:
                   Donations and forfeitures of property                                       0               0            0                   0
                   Transfers-in/out without reimbursement (+/-)                                0               0            0                   0
                   Imputed financing from costs absorbed by others                             0               0            0                   0
                   Other (+/-)                                                                 0               0            0                   0
              Total Financing Sources                                                  ($342,591)       ($79,390)     ($1,284)          ($428,018)
              Net Cost of Operations (+/-)                                                     0               0            0                   0
              Ending Balances                                                                 $0        $599,670       $4,770            $636,846

                                                                                                                                 The accompanying notes are an integral part of these statements.
                 320 Fiscal Year 2003 Army Annual Financial Statement
03CWStatements12-12.qxd        12/12/2003           5:50 PM        Page 321




                                                                                                               Consolidating Statement of Changes in Net Position
                                                                                                                                                   Department of Defense • Department of the Army
                                                                                                                                 For the Years Ended September 30, 2003 and 2002 ($ in thousands)

              CUMULATIVE RESULTS OF OPERATIONS                                   Eliminations           2003           2002
              Beginning Balances                                                          $0    $39,695,092    $37,604,229
              Prior period adjustments (+/-)                                               0     (2,669,485)             0
              Beginning Balances, as adjusted                                             $0    $37,025,607    $37,604,229
              Budgetary Financing Sources:
                   Appropriations received                                                0               0              0
                   Appropriations transferred-in/out (+/-)                                0               0              0
                   Other adjustments (rescissions, etc) (+/-)                             0               0              0
                   Appropriations used                                                    0       4,323,711      4,704,846
                   Nonexchange revenue                                                    0         931,241        819,255
                   Donations and forfeitures of cash and cash equivalents                 0               0              0
                   Transfers-in/out without reimbursement (+/-)                           0         863,243       (706,651)
                   Other budgetary financing sources (+/-)                                0         (32,536)        (3,166)
              Other Financing Sources:
                   Donations and forfeitures of property                                  0           4,648            303
                   Transfers-in/out without reimbursement (+/-)                           0         (56,344)       744,279
                   Imputed financing from costs absorbed by others                        0         225,066        208,986
                   Other (+/-)                                                            0         (19,379)        16,743
              Total Financing Sources                                                    $0      $6,239,650     $5,784,595
              Net Cost of Operations (+/-)                                                0       8,975,769      6,363,217
              Ending Balances                                                            $0     $34,289,488    $37,025,607

              UNEXPENDED APPROPRIATIONS
              Beginning Balances                                                         $0      $1,064,864     $1,214,901
              Prior period adjustments (+/-)                                              0               0              0
              Beginning Balances, as adjusted                                            $0      $1,064,864     $1,214,901
              Budgetary Financing Sources:
                   Appropriations received                                                0       4,027,057      4,324,965
                   Appropriations transferred-in/out (+/-)                                0         196,111        198,408
                   Other adjustments (rescissions, etc) (+/-)                             0        (344,418)      (153,374)
                   Appropriations used                                                    0      (4,306,768)    (4,520,036)
                   Nonexchange revenue                                                    0               0              0
                   Donations and forfeitures of cash and cash equivalents                 0               0              0
                   Transfers-in/out without reimbursement (+/-)                           0               0              0
                   Other budgetary financing sources (+/-)                                0               0              0
              Other Financing Sources:
                   Donations and forfeitures of property                                  0               0              0
                   Transfers-in/out without reimbursement (+/-)                           0               0              0
                   Imputed financing from costs absorbed by others                        0               0              0
                   Other (+/-)                                                            0               0              0
              Total Financing Sources                                                    $0       ($428,018)     ($150,037)
              Net Cost of Operations (+/-)                                                0               0              0
              Ending Balances                                                            $0        $636,846     $1,064,864

              The accompanying notes are an integral part of these statements.
                                                                                                                          Civil Works Fund Principal Notes and Statements 321
03CWStatements12-12.qxd        12/12/2003         5:50 PM        Page 322




              Combining Statement of Budgetary Resources
              Department of Defense • Department of the Army, Civil Works Fund
              For the Years Ended September 30, 2003 and 2002 ($ in thousands)


              BUDGETARY RESOURCES                                                Special Funds   Trust Funds   Transfer Funds   Borrowing Authority          Revolving Funds
              Budget Authority:
                   Appropriations received                                           $14,008     $3,145,245              $0                     $0                           $0
                   Borrowing authority                                                     0              0               0                      0                            0
                   Contract authority                                                      0              0               0                      0                            0
                   Net transfers (+/-)                                                     0        (35,456)         58,236                      0                            0
                   Other                                                                   0              0               0                      0                            0
              Unobligated balance:
              Beginning of period                                                          61      200,131           21,283                    637                      57,351
                   Net transfers, actual (+/-)                                              0            0                0                      0                           0
                   Anticipated Transfers balances                                           0            0                0                      0                           0
              Spending authority from offsetting collections:
                Earned                                                                     0              0               0                     0                           0
                   Collected                                                               0              0              38                 9,049                   3,883,934
                   Receivable from Federal sources                                         0              0               0                     0                      (3,930)
                Change in unfilled customer orders                                         0              0               0                     0                           0
                   Advance received                                                        0              0               0                     0                     (13,001)
                   Without advance from Federal sources                                    0              0              (4)                    0                       8,359
                Anticipated for the rest of year, without advances                         0              0               0                     0                           0
                Transfers from trust funds                                                 0              0               0                     0                           0
                Subtotal                                                                  $0             $0             $34                $9,049                  $3,875,362
              Recoveries of prior year obligations                                         0              0               0                     0                           0
              Temporarily not available pursuant to Public Law                             0              0               0                     0                           0
              Permanently not available                                                    0              0               0                (8,653)                          0
              Total Budgetary Resources                                              $14,069     $3,309,920         $79,553                $1,033                  $3,932,713

              STATUS OF BUDGETARY RESOURCES                                      Special Funds   Trust Funds   Transfer Funds   Borrowing Authority          Revolving Funds
              Obligations incurred:
                   Direct                                                            $14,032      $719,154          $58,206                $1,016                          $0
                   Reimbursable                                                            0             0               38                   397                   3,851,645
                   Subtotal                                                           14,032       719,154           58,244                 1,413                   3,851,645
              Unobligated balance:
                   Apportioned                                                            37              0          21,302                     0                      92,724
                   Exempt from apportionment                                               0      2,590,767               0                  (380)                    (11,657)
                   Other available                                                         0             (1)             (1)                    0                           1
              Unobligated Balances Not Available                                           0              0               8                     0                           0
              Total, Status of Budgetary Resources                                   $14,069     $3,309,920         $79,553                $1,033                  $3,932,713




                                                                                                                                       The accompanying notes are an integral part of these statements.
                 322 Fiscal Year 2003 Army Annual Financial Statement
03CWStatements12-12.qxd        12/12/2003           5:50 PM        Page 323




                                                                                                                                 Combining Statement of Budgetary Resources
                                                                                                                                                           Department of Defense • Department of the Army
                                                                                                                                         For the Years Ended September 30, 2003 and 2002 ($ in thousands)


              BUDGETARY RESOURCES                                                      Contributed   General Funds    FUSRAP            2003 Combined              2002 Combined
              Budget Authority:
                   Appropriations received                                              $466,583       $3,882,999    $144,058              $7,652,893                  $4,324,965
                   Borrowing authority                                                         0                0           0                       0                           0
                   Contract authority                                                          0                0           0                       0                           0
                   Net transfers (+/-)                                                         0          138,184           0                 160,964                   1,006,223
                   Other                                                                       0                0           0                       0                           0
              Unobligated balance:
              Beginning of period                                                        250,945        1,208,181       2,424                1,741,013                  1,713,303
                   Net transfers, actual (+/-)                                                 0                0           0                        0                    (23,140)
                   Anticipated Transfers balances                                              0                0           0                        0                          0
              Spending authority from offsetting collections:
                Earned                                                                         0                0           0                       0                          0
                   Collected                                                                 130        1,164,996       7,423               5,065,570                  4,837,613
                   Receivable from Federal sources                                             0          (70,915)          4                 (74,841)                   (53,523)
                Change in unfilled customer orders                                             0                0           0                       0                          0
                   Advance received                                                          (10)          (3,307)          0                 (16,318)                    37,345
                   Without advance from Federal sources                                       35          254,557        (821)                262,126                    115,628
                Anticipated for the rest of year, without advances                             0                0           0                       0                          0
                Transfers from trust funds                                                     0                0           0                       0                          0
                Subtotal                                                                    $155       $1,345,331      $6,606              $5,236,537                 $4,937,063
              Recoveries of prior year obligations                                             0                0           0                       0                          0
              Temporarily not available pursuant to Public Law                                 0                0           0                       0                          0
              Permanently not available                                                        0                0           0                  (8,653)                   (16,515)
              Total Budgetary Resources                                                 $717,683       $6,574,695    $153,088             $14,782,754                $11,941,899

              STATUS OF BUDGETARY RESOURCES                                      Contributed Funds   General Funds    FUSRAP            2003 Combined             2002 Combined
              Obligations incurred:
                   Direct                                                               $455,768       $4,124,442    $143,741              $5,516,359                  $5,415,360
                   Reimbursable                                                              113        1,174,649       6,907               5,033,749                   4,785,522
                   Subtotal                                                              455,881        5,299,091     150,648              10,550,108                  10,200,882
              Unobligated balance:
                   Apportioned                                                                57        1,271,202       2,440               1,387,762                  1,246,051
                   Exempt from apportionment                                             261,745            4,400           0               2,844,875                    494,957
                   Other available                                                             0                1           0                       0                          0
              Unobligated Balances Not Available                                               0                1           0                       9                          9
              Total, Status of Budgetary Resources                                      $717,683       $6,574,695    $153,088             $14,782,754                $11,941,899




              The accompanying notes are an integral part of these statements.
                                                                                                                                  Civil Works Fund Principal Notes and Statements 323
03CWStatements12-12.qxd        12/12/2003         5:50 PM        Page 324




              Combining Statement of Budgetary Resources
              Department of Defense • Department of the Army, Civil Works Fund
              For the Years Ended September 30, 2003 and 2002 ($ in thousands)

                                                                                 Special Funds   Trust Funds   Transfer Funds   Borrowing Authority          Revolving Funds
              Obligated Balance, Net - beginning of period                                $24      $123,150          $24,208               $1,532                  $845,181
              Obligated Balance transferred, net (+/-)                                      0             0                0                     0                        0
              Obligated Balance, Net - end of period:
                   Accounts receivable                                                      0            0                0                      0                    (21,589)
                   Unfilled customer order from Federal sources                             0            0                0                      0                    (38,318)
                   Undelivered orders                                                   2,416      118,777           11,097                    164                    368,874
                   Accounts payable                                                       623        9,163            7,898                    726                    599,973
              Outlays:
                   Disbursements                                                      11,017       714,365           63,462                 2,054                   3,783,460
                   Collections                                                             0             0              (38)               (9,049)                 (3,870,933)
                   Subtotal                                                          $11,017      $714,365          $63,424               ($6,995)                   ($87,473)
              Less: Offsetting receipts                                                    0      (904,214)               0                     0                           0
              Net Outlays                                                            $11,017     ($189,849)         $63,424               ($6,995)                   ($87,473)




                                                                                                                                       The accompanying notes are an integral part of these statements.
                 324 Fiscal Year 2003 Army Annual Financial Statement
03CWStatements12-12.qxd        12/12/2003           5:50 PM        Page 325




                                                                                                                          Combining Statement of Budgetary Resources
                                                                                                                                                     Department of Defense • Department of the Army
                                                                                                                                   For the Years Ended September 30, 2003 and 2002 ($ in thousands)

                                                                                 Contributed Funds   General Funds    FUSRAP           2003 Combined              2002 Combined
              Obligated Balance, Net - beginning of period                               $111,958        ($96,222)    $37,492             $1,047,323                 $1,097,971
              Obligated Balance transferred, net (+/-)                                          0               0           0                      0                          0
              Obligated Balance, Net - end of period:
                   Accounts receivable                                                         0         (139,007)         (5)                (160,601)                  (235,443)
                   Unfilled customer order from Federal sources                              (54)      (1,595,077)     (1,806)              (1,635,255)                (1,373,128)
                   Undelivered orders                                                    101,043        1,022,408       4,136                1,628,915                  1,475,183
                   Accounts payable                                                       25,660          499,457      31,065                1,174,565                  1,180,711
              Outlays:
                   Disbursements                                                         441,154        5,231,446     155,567              10,402,525                 10,189,428
                   Collections                                                              (120)      (1,161,688)     (7,423)             (5,049,251)                (4,874,959)
                   Subtotal                                                             $441,034       $4,069,758    $148,144              $5,353,274                 $5,314,469
              Less: Offsetting receipts                                                        0                0           0                (904,214)                  (819,255)
              Net Outlays                                                               $441,034       $4,069,758    $148,144              $4,449,060                 $4,495,214




              The accompanying notes are an integral part of these statements.
                                                                                                                            Civil Works Fund Principal Notes and Statements 325
03CWStatements12-12.qxd        12/12/2003         5:50 PM        Page 326




              Combining Statement of Financing
              Department of Defense • Department of the Army, Civil Works Fund
              For the Years Ended September 30, 2003 and 2002 ($ in thousands)

                                                                                                               Special                  Transfer   Borrowing         Revolving         Contributed
              Resources Used to Finance Activities:                                                      Special Funds   Trust Funds      Funds     Authority           Funds                Funds
                   Budgetary Resources Obligated
                   Obligations incurred                                                                      $14,032      $719,154     $58,244       $1,413        $3,851,645            $455,881
                   Less: Spending authority from offsetting collections
                        and recoveries (-)                                                                         0             0         (34)      (9,049)        (3,875,362)              (155)
                   Obligations net of offsetting collections and recoveries                                  $14,032      $719,154     $58,210      ($7,636)          ($23,717)          $455,726
                   Less: Offsetting receipts (-)                                                                   0      (904,214)          0            0                  0                  0
                   Net obligations                                                                           $14,032     ($185,060)    $58,210      ($7,636)          ($23,717)          $455,726
              Other Resources
                   Donations and forfeitures of property                                                           0             0            0           0               100                   0
                   Transfers in/out without reimbursement (+/-)                                               (1,534)      (86,922)     (11,327)    (62,237)             (333)             (2,324)
                   Imputed financing from costs absorbed by others                                                 0             0            0           0           214,844                   0
                   Other (+/-)                                                                                     0             0          (78)      8,653                 0                (872)
                   Net other resources used to finance activities                                            ($1,534)     ($86,922)    ($11,405)   ($53,584)         $214,611             ($3,196)
              Total resources used to finance activities                                                     $12,498     ($271,982)     $46,805    ($61,220)         $190,894            $452,530

                                                                                                         Special                        Transfer   Borrowing         Revolving         Contributed
              Resources Used to Finance Items not Part of the Net Cost of Operations                     Special Funds   Trust Funds      Funds     Authority           Funds                Funds
                   Change in budgetary resources obligated for goods,
                         services and benefits ordered but not yet provided
                   Undelivered Orders (-)                                                                     ($2,399)    ($12,637)     $4,705         $568           ($31,329)            ($9,365)
                   Unfilled Customer Orders                                                                         0            0          (4)           0             (4,643)                 25
                   Resources that fund expenses recognized in prior periods                                         0            0           0            0                  0                   0
                   Budgetary offsetting collections and receipts that                                               0      904,214           0            0                  0                   0
                         do not affect net cost of operations
                   Resources that finance the acquisition of assets                                              731        25,821      28,574       60,493             12,999                  633
                   Other resources or adjustments to net obligated resources
                         that do not affect net cost of operations
                   Less: Trust or Special Fund Receipts Related to Exchange in the Entity's Budget (-)              0            0            0            0                   0                  0
                   Other (+/-)                                                                                      0            0            0            0                   0                  0
              Total resources used to finance items not
              part of the net cost of operations                                                             ($1,668)     $917,398     $33,275      $61,061          ($22,973)            ($8,707)
              Total resources used to finance the net cost of operations                                     $10,830      $645,416     $80,080        ($159)         $167,921            $443,823




                                                                                                                                                   The accompanying notes are an integral part of these statements.
                 326 Fiscal Year 2003 Army Annual Financial Statement
03CWStatements12-12.qxd        12/12/2003           5:50 PM        Page 327




                                                                                                                                                     Combining Statement of Financing
                                                                                                                                                              Department of Defense • Department of the Army
                                                                                                                                            For the Years Ended September 30, 2003 and 2002 ($ in thousands)


              Resources Used to Finance Activities:                                                      General Funds    FUSRAP     2003 Combined      2002 Combined
                   Budgetary Resources Obligated
                   Obligations incurred                                                                    $5,299,091    $150,648     $10,550,108          $10,200,882
                   Less: Spending authority from offsetting collections
                        and recoveries (-)                                                                 (1,345,331)     (6,606)     (5,236,537)          (4,937,063)
                   Obligations net of offsetting collections and recoveries                                $3,953,760    $144,042      $5,313,571           $5,263,819
                   Less: Offsetting receipts (-)                                                                    0           0        (904,214)            (819,255)
                   Net obligations                                                                         $3,953,760    $144,042      $4,409,357           $4,444,564
              Other Resources
                   Donations and forfeitures of property                                                        4,548           0           4,648                  303
                   Transfers in/out without reimbursement (+/-)                                               108,333           0         (56,344)               1,171
                   Imputed financing from costs absorbed by others                                             10,222           0         225,066              208,986
                   Other (+/-)                                                                                (27,082)          0         (19,379)              16,743
                   Net other resources used to finance activities                                             $96,021          $0        $153,991             $227,203
              Total resources used to finance activities                                                   $4,049,781    $144,042      $4,563,348           $4,671,767


              Resources Used to Finance Items not Part of the Net Cost of Operations                     General Funds    FUSRAP     2003 Combined      2002 Combined
                   Change in budgetary resources obligated for goods,
                         services and benefits ordered but not yet provided
                   Undelivered Orders (-)                                                                   ($105,978)     $2,120       ($154,315)              ($2,705)
                   Unfilled Customer Orders                                                                   251,250        (821)        245,807               152,974
                   Resources that fund expenses recognized in prior periods                                         0           0               0                     0
                   Budgetary offsetting collections and receipts that                                             481           0         904,695               819,255
                         do not affect net cost of operations
                   Resources that finance the acquisition of assets                                         1,270,613          (5)      1,399,859            (2,461,629)
                   Other resources or adjustments to net obligated resources
                         that do not affect net cost of operations
                   Less: Trust or Special Fund Receipts Related to Exchange in the Entity's Budget (-)              0           0               0                      0
                   Other (+/-)                                                                                      0           0               0                      0
              Total resources used to finance items not
              part of the net cost of operations                                                           $1,416,366      $1,294      $2,396,046          ($1,492,105)
              Total resources used to finance the net cost of operations                                   $5,466,147    $145,336      $6,959,394           $3,179,662




              The accompanying notes are an integral part of these statements.
                                                                                                                                     Civil Works Fund Principal Notes and Statements 327
03CWStatements12-12.qxd        12/12/2003         5:50 PM        Page 328




              Combining Statement of Financing
              Department of Defense • Department of the Army, Civil Works Fund
              For the Years Ended September 30, 2003 and 2002 ($ in thousands)

              Components of the Net Cost of Operations that will                                                   Transfer   Borrowing           Revolving           Contributed
              not Require or Generate Resources in the Current Period:               Special Funds   Trust Funds     Funds     Authority             Funds                  Funds
                   Components Requiring or Generating Resources in Future Periods:
                   Increase in annual leave liability                                         $0            $0         $0           $0                   $0                    $0
                   Increase in environmental and disposal liability                            0             0          0            0                    0                     0
                   Upward/Downward reestimates of credit subsidy expense (+/-)                 0             0          0            0                    0                     0
                   Increase in exchange revenue receivable from the the public (-)             0             0          0            0                    0                     0
                   Other (+/-)                                                             1,102        10,647          0            0                1,790                 5,892
                   Total components of Net Cost of Operations that                        $1,102       $10,647         $0           $0               $1,790                $5,892
                        will require or generate resources in future periods
                   Components not Requiring or Generating Resources:
                   Depreciation and amortization                                              16         2,626       1,049            0              57,936                  104
                   Revaluation of assets or liabilities (+/-)                                  0            10           0            0                   0              481,763
                   Other (+/-)                                                                29        18,501           0            0                  24                    0
                   Total components of Net Cost of Operations that
                        will not require or generate resources                               $45       $21,137      $1,049          $0              $57,960             $481,867

              Total components of net cost of operations that
              will not require or generate resources in the current period                $1,147       $31,784      $1,049          $0             $59,750              $487,759
              Net Cost of Operations                                                     $11,977      $677,200     $81,129       ($159)           $227,671              $931,582




                                                                                                                                  The accompanying notes are an integral part of these statements.
                 328 Fiscal Year 2003 Army Annual Financial Statement
03CWStatements12-12.qxd        12/12/2003           5:50 PM        Page 329




                                                                                                                                      Combining Statement of Financing
                                                                                                                                                  Department of Defense • Department of the Army
                                                                                                                                For the Years Ended September 30, 2003 and 2002 ($ in thousands)

              Components of the Net Cost of Operations that will
              not Require or Generate Resources in the Current Period:               General Funds    FUSRAP    2003 Combined     2002 Combined
                   Components Requiring or Generating Resources in Future Periods:
                   Increase in annual leave liability                                         $0          $0              $0                  $0
                   Increase in environmental and disposal liability                            0           0               0                   0
                   Upward/Downward reestimates of credit subsidy expense (+/-)                 0           0               0                   0
                   Increase in exchange revenue receivable from the the public (-)             0           0               0              (3,429)
                   Other (+/-)                                                            46,991           0          66,422              41,498
                   Total components of Net Cost of Operations that                       $46,991          $0         $66,422             $38,069
                        will require or generate resources in future periods
                   Components not Requiring or Generating Resources:
                   Depreciation and amortization                                         385,930           0         447,661             475,535
                   Revaluation of assets or liabilities (+/-)                            995,857           0       1,477,630                   0
                   Other (+/-)                                                             6,108           0          24,662           2,669,951
                   Total components of Net Cost of Operations that
                        will not require or generate resources                         $1,387,895         $0      $1,949,953          $3,145,486

              Total components of net cost of operations that
              will not require or generate resources in the current period             $1,434,886          $0     $2,016,375          $3,183,555
              Net Cost of Operations                                                   $6,901,033    $145,336     $8,975,769          $6,363,217




              The accompanying notes are an integral part of these statements.
                                                                                                                         Civil Works Fund Principal Notes and Statements 329
03CWStatements12-12.qxd      12/12/2003      5:50 PM      Page 330




                                                                                                      HERITAGE ASSETS
                                                                                            For Fiscal Year Ended September 2003
                                 (a)                             (b)                   (c)               (d)                  (e)             (f)
                                                         Measurement Quantity   As Of 10/1/2002        Additions           Deletions   As Of 9/30/2003
              Museums                                           Each
              Monuments & Memorials                             Each                        1                      1
              Cemeteries                                        Sites                       0                      0
              Archeological Sites                               Sites                     120                      9                                 129
              Buildings & Structure                             Each                      324                      3                                 327
              Major Collections                                 Each                        1                                                          1


              Narrative Statement
              We have one (1) Major Collection, that being the collection of historical memorabilia, historic artifacts and records managed by the Headquarters, U.S. Army Corps of
              Engineers Office of History.

              Other than multipurpose heritage assets, heritage assets are not material to the mission of the U. S. Army Corps of Engineers. Disclosures pertinent to multipurpose
              heritage assets are contained in the financial statements.

              Heritage assets classified as Land are special land plots containing archaeological sites as listed on the National Register of Historic Places or eligible to be listed.

              Heritage assets on display are assumed to be in adequate condition for display purposes, consistent with their origins, unless otherwise noted. Reported heritage assets
              are free of material conditions that are counter to safeguarding, adequately protecting, and properly managing those assets; they have not materially degraded while
              under the care of the U. S. Army Corps of Engineers. The existence of most of the un-categorized heritage assets is informally known to be adequate for display
              purposes, however, the condition of many un-categorized assets are unknown.

              Cemeteries and Archeological Sites are archeological properties listed on or eligible for, the National Register of Historic Places. These archeological assets cover
              almost the entire range of human occupation of the Continental United States beginning with the Kennewick Man Discovery Site in Washington State, dating to
              approximately 10,000 years before present, to archeological remains of early European-American settlements such as Fort Independence in Georgia.

              Buildings and Structures include a range of historic resources from a covered bridge in Sacramento District to early farming structures in Savannah District. It also
              includes some non-traditional structures such as a snag boat that operated on the Mississippi River.




                 330 Fiscal Year 2003 Army Annual Financial Statement
03CWStatements12-12.qxd          12/12/2003   5:50 PM   Page 331




                                                                           General Property, Plant and Equipment
                                                                        Real Property Deferred Maintenance Amounts
                                                                                  As of September 30, 2003

                           (a)                                (b)
              Property Type/Major Class
              1.   Real Property
                   A. Buildings
                   B. Structures                         $772,000,000
              2.   Total                                 $772,000,000


              Narrative Statement: Deferred maintenance at Civil Works water resources projects operated and maintained by the U.S. Army Corps of Engineers was determined
              through the budget development process whereby operations managers identify the operation and maintenance (O&M) needs at each project in the Civil Works
              inventory. O&M needs are based on inspections of project Features, engineering analyses and historical experience.




                                                                                                                       Civil Works Fund Principal Notes and Statements 331
03CWStatements12-12.qxd        12/12/2003         5:50 PM        Page 332




              Disaggregated Statement of Budgetary Resources
              Department of Defense • Department of the Army, Civil Works Fund
              For the Years Ended September 30, 2003 and 2002 ($ in thousands)

                                                                                 Civil Works    2003 Combined      2002 Combined
              BUDGETARY RESOURCES
              Budget Authority:
                   Appropriations received                                        $7,652,892         $7,652,893         $4,324,965
                   Borrowing authority                                                     0                  0                  0
                   Contract authority                                                      0                  0                  0
                   Net transfers (+/-)                                               160,963            160,964          1,006,223
                   Other                                                                   0                  0                  0
              Unobligated balance:
                   Beginning of period                                             1,741,016          1,741,013          1,713,303
                   Net transfers, actual (+/-)                                             0                  0            (23,140)
                   Anticipated Transfers Balances                                          0                  0                  0
                   Spending authority from offsetting collections:
                   Earned                                                                  0                  0                  0
                   Collected                                                       5,065,570          5,065,570          4,837,613
                   Receivable from Federal sources                                   (74,842)           (74,841)           (53,523)
                   Change in unfilled customer orders                                      0                  0                  0
                   Advance received                                                  (16,319)           (16,318)            37,345
                   Without advance from Federal sources                              262,126            262,126            115,628
                   Anticipated for the rest of year, without advances                      0                  0                  0
                   Transfers from trust funds                                              0                  0                  0
                   Subtotal                                                       $5,236,535         $5,236,537         $4,937,063
              Recoveries of prior year obligations                                         0                  0                  0
              Temporarily not available pursuant to Public Law                             0                  0                  0
              Permanently not available                                               (8,653)            (8,653)           (16,515)
              Total Budgetary Resources                                          $14,782,753        $14,782,754        $11,941,899




                                                                                                                             The accompanying notes are an integral part of these statements.
                 332 Fiscal Year 2003 Army Annual Financial Statement
03CWStatements12-12.qxd        12/12/2003           5:50 PM        Page 333




                                                                                                                   Disaggregated Statement of Budgetary Resources
                                                                                                                                                Department of Defense • Department of the Army
                                                                                                                              For the Years Ended September 30, 2003 and 2002 ($ in thousands)

                                                                                 Civil Works     2003 Combined         2002 Combined
              STATUS OF BUDGETARY RESOURCES
              Obligations incurred:
                   Direct                                                         $5,516,360          $5,516,359            $5,415,360
                   Reimbursable                                                    5,033,749           5,033,749             4,785,522
                   Subtotal                                                      $10,550,109         $10,550,108           $10,200,882
                   Unobligated balance:
                   Apportioned                                                     1,387,762           1,387,762             1,246,051
                   Exempt from apportionment                                       2,844,875           2,844,875               494,957
                   Other available                                                         0                   0                     0
                   Unobligated Balances Not Available                                      8                   9                     9
              Total, Status of Budgetary Resources                               $14,782,754         $14,782,754           $11,941,899

              Relationship of Obligations to Outlays:
              Obligated Balance, Net- beginning of period                         $1,047,323          $1,047,323            $1,097,971
              Obligated Balance transferred, net (+/-)                                     0                   0                     0
              Obligated Balance, Net- end of period:
                   Accounts receivable                                               (160,601)          (160,601)             (235,443)
                   Unfilled customer order from Federal sources                    (1,635,255)        (1,635,255)           (1,373,128)
                   Undelivered orders                                               1,628,914          1,628,915             1,475,183
                   Accounts payable                                                 1,174,564          1,174,565             1,180,711
              Outlays:
                   Disbursements                                                 $10,402,525         $10,402,525           $10,189,428
                   Collections                                                    (5,049,251)         (5,049,251)           (4,874,959)
                   Subtotal                                                       $5,353,274          $5,353,274            $5,314,469
              Less: Offsetting receipts                                             (904,214)           (904,214)             (819,255)
              Net Outlays                                                         $4,449,060          $4,449,060            $4,495,214




              The accompanying notes are an integral part of these statements.
                                                                                                                       Civil Works Fund Principal Notes and Statements 333
03CWStatements12-12.qxd     12/12/2003      5:50 PM      Page 334




              Required Supplementary Information



              Schedule, Part A DoD Intragovernmental Asset Balances    Treasury Index:   Fund Balance with Treasury Accounts Receivable   Loans   Investments     Other
              The Judiciary                                                  10                                                    $20
              Department of Agriculture                                      12                                                 $2,238
              Department of Commerce                                         13                                                    $65
              Department of the Interior                                     14                                               $327,918
              Department of Justice                                          15                                                   $980
              Department of Labor                                            16                                                     $4
              Navy General Fund                                              17                                                 $2,170
              United States Postal Service                                   18                                                    $18
              Department of State                                            19                                                 $2,760
              Department of the Treasury                                     20                        $2,595,723                  $95               $2,478,454
              Army General Fund                                              21                                                 $5,451
              Office of Personnel Management                                 24                                                     $0
              Social Security Administration                                 28                                                     $1
              Smithsonian Institution                                        33                                                 $1,824
              Department of Veterans Affairs                                 36                                                   $120
              Government Printing Office                                      4                                                     $1
              General Service Administration                                 47                                                   $678
              National Science Foundation                                    49                                                    $19
              General Accounting Office                                       5                                                     $1
              Air Force General Fund                                         57                                                 $1,619                               $0
              Federal Emergency Management Agency                            58                                                $19,004
              Railroad Retirement Board                                      60                                                     $3
              National Labor Relations Board                                 63                                                     $0
              Tennessee Valley Authority                                     64                                                    $40
              Environmental Protection Agency                                68                                                $27,836
              Department of Transportation                                   69                                                 $9,218
              Agency for International Development                           72                                                   $848
              Small Business Administration                                  73                                                     $6
              Department of Health and Human Services                        75                                                 $1,698
              National Aeronautics and Space Administration                  80                                                $10,403
              Department of Energy                                           89                                                   $174
              Department of Education                                        91                                                    $46
              Independent Agencies                                           95                                                     $6
              Other Defense Organizations General Funds                      97                                                   $400
              Other Defense Organizations Working Capital Funds           97-4930                                                  $30
              Navy Working Capital Fund                                 97-4930.002                                                 $3
              The General Fund of the Treasury                               99                                                 $7,389
              Homeland Security                                                                                                   $688
                   Totals:                                                                             $2,595,723             $423,774               $2,478,454



                334 Fiscal Year 2003 Army Annual Financial Statement
03CWStatements12-12.qxd    12/12/2003     5:50 PM     Page 335




                                                                                                                                 Required Supplementary Information

                                                                                                     Governmental Transactions from the Consolidating Trial Balance

              Schedule, Part B DoD Intragovernmental Entity Liabilities                                         Debts/Borrowings From Other
                                                                          Treasury Index:   Accounts Payable                                          Other
              ($ Amounts in Thousands)                                                                                    Agencies
              The Judiciary                                                    10                        $57
              Department of Agriculture                                        12                     $1,290                                                   $6
              Department of Commerce                                           13                     $3,985                                                 $496
              Department of the Interior                                        14                   $17,502                                               $1,683
              Department of Justice                                            15                       $526                                                   $7
              Department of Labor                                              16                        $10                                              $42,884
              Navy General Fund                                                17                      $507
              United States Postal Service                                     18                                                                            $46
              Department of State                                               19                      $793                                                 $18
              Department of the Treasury                                       20                      $733                           $17,386           $147,185
              Army General Fund                                                21                     $3,574                                                $445
              Office of Personnel Management                                    24                       $82                                             $21,207
              Library of Congress                                               3                       $129
              Nuclear Regulatory Commission                                    31                         $1
              Department of Veterans Affairs                                    36                      $211                                                  $22
              Government Printing Office                                         4                      $135
              U.S. Equal Employment Opportunity Commission                     45                         $1
              Appalachian Regional Commission                                  46                        $29
              General Service Administration                                    47                   $37,587                                                  $55
              National Science Foundation                                      49                       $180
              Air Force General Fund                                           57                       $148
              Federal Emergency Management Agency                              58                        $12                                                  $19
              Tennessee Valley Authority                                       64                     $2,726
              Environmental Protection Agency                                  68                       $487
              Department of Transportation                                      69                      $712                                                  $11
              Department of Health and Human Services                          75                      $541                                                   $58
              National Aeronautics and Space Administration                    80                        $58
              Department of Housing and Urban Development                      86                                                                          $2,956
              Department of Energy                                             89                     $2,897                                               $3,179
              Department of Education                                          91                                                                          $1,515
              Independent Agencies                                             95                         $7                                                 $444
              Other Defense Organizations General Funds                        97                     $1,541
              Other Defense Organizations Working Capital Funds              97-4930                  $8,318
              Navy Working Capital Fund                                    97-4930.002                  $394
              Air Force Working Capital Fund                               97-4930.003                    $5
              The General Fund of the Treasury                                 99                     $7,389                                           $1,874,244
              Homeland Security                                                                         $198
                   Totals:                                                                           $92,765                         $17,386          $2,096,480


                                                                                                                       Civil Works Fund Principal Notes and Statements 335
03CWStatements12-12.qxd    12/12/2003       5:50 PM      Page 336




              Required Supplementary Information



              Schedule, Part C DoD Intragovernmental Revenue and Related Costs ($ Amounts in   Treasury Index:   Earned Revenue
              The Judiciary                                                                          10                                  $39
              Department of Agriculture                                                              12                               $8,184
              Department of Commerce                                                                 13                               $4,743
              Department of the Interior                                                             14                              $59,973
              Department of Justice                                                                  15                              $63,144
              Department of Labor                                                                    16                                  $12
              Navy General Fund                                                                      17                               $2,835
              United States Postal Service                                                           18                                 $104
              Department of State                                                                    19                              $16,650
              Department of the Treasury                                                             20                               $5,167
              Army General Fund                                                                      21                             $434,991
              Social Security Administration                                                         28                                   $7
              Nuclear Regulatory Commission                                                          31                                 $232
              Smithsonian Institution                                                                33                               $4,971
              Department of Veterans Affairs                                                         36                               $4,018
              Government Printing Office                                                              4                                   $1
              U.S. Equal Employment Opportunity Commission                                           45                                   $5
              General Service Administration                                                         47                               $1,799
              Independent Agencies                                                                   48                                   $0
              National Science Foundation                                                            49                               $1,795
              General Accounting Office                                                               5                                 $396
              Air Force General Fund                                                                 57                              $48,029
              Federal Emergency Management Agency                                                    58                              $73,520
              Railroad Retirement Board                                                              60                                  $22
              National Labor Relations Board                                                         63                                   $0
              Tennessee Valley Authority                                                             64                                 $161
              Environmental Protection Agency                                                        68                             $121,248
              Department of Transportation                                                           69                              $34,758
              Agency for International Development                                                   72                              $11,072
              Small Business Administration                                                          73                                   $6
              American Battle Monuments                                                              74                                   $3
              Department of Health and Human Services                                                75                              $10,623
              National Aeronautics and Space Administration                                          80                              $22,281
              Department of Housing and Urban Development                                            86                               $2,721
              Department of Energy                                                                   89                              $19,048
              Department of Education                                                                91                               $1,585
              Independent Agencies                                                                   95                                 $389
              Other Defense Organizations General Funds                                              97                              $44,644
              Other Defense Organizations Working Capital Funds                                   97-4930                                $96
              Army Working Capital Fund                                                         97-4930.001                               $6
              Navy Working Capital Fund                                                         97-4930.002                             $102
              Homeland Security                                                                                                      $12,387
                    Totals:                                                                                                       $1,011,767

                336 Fiscal Year 2003 Army Annual Financial Statement
03CWStatements12-12.qxd   12/12/2003    5:50 PM   Page 337




                                                                                                                                Required Supplementary Information

                                                                                                      Governmental Transactions from the Consolidating Trial Balance

              Schedule, Part E DoD Intragovernmental Non-exchange Revenues ($ Amounts in Thousands)         Treasury Index:       Transfers In     Transfers Out
              Department of the Interior                                                                          14                   $56,938            $56,649
              Navy General Fund                                                                                   17                       $40
              Department of the Treasury                                                                          20                  $833,260             $10,000
              General Service Administration                                                                      47                                          $257
              Air Force General Fund                                                                              57                                            $1
              Tennessee Valley Authority                                                                          64                                           $56
              Department of Energy                                                                                89                      $576
              Other Defense Organizations Working Capital Funds                                                97-4930                      $6
              The General Fund of the Treasury                                                                    99                  $670,451           $687,406
              Homeland Security                                                                                                                                $3
                   Totals:                                                                                                          $1,561,271           $754,372




                                                                                                                      Civil Works Fund Principal Notes and Statements 337
03CWStatements12-12.qxd    12/12/2003        5:50 PM       Page 338




                                                                                                 INSPECTOR GENERAL
                                                                                                DEPARTMENT OF DEFENSE
                                                                                                  400 ARMY NAVY DRIVE
                                                                                                ARLINGTON, VIRGINIA 22202

                                                                                                                                                                                                December 3, 2003

                                                               MEMORANDUM FOR COMMANDER, U.S. ARMY CORPS OF ENGINEERS

                                                               SUBJECT: Independent Auditor's Report on the U.S. Army Corps of Engineers, Civil Works,
                                                                        Fiscal Year 2003 Principal Financial Statements (Report No. D 2004 032)

              The Chief Financial Officers Act of 1990, as amended, requires the Inspector General of the Department of Defense to audit the accompanying Consolidated Balance
              Sheet of the U.S. Army Corps of Engineers, Civil Works, (USACE) as of September 30, 2003 and 2002, and the related Consolidated Statements of Net Cost and
              Changes in Net Position and the Combined Statements of Financing and Budgetary Resources for the fiscal years then ended. These financial statements are the
              responsibility of the USACE management. USACE is also responsible for implementing effective internal control and for complying with laws and regulations. In
              addition to our disclaimer of opinion on the USACE financial statements, we are including the required reports on internal control and compliance with laws and
              regulations.

              Disclaimer of Opinion on the Financial Statements
              USACE acknowledged to us that the USACE FY 2003 Financial Statements are presented fairly in accordance with generally accepted accounting principles. Our
              audit of the USACE FY 2003 Financial Statements was limited to the Consolidated Balance Sheet. USACE was unable to provide sufficient audit-ready evidential
              material for the auditors to complete the audit. Therefore, we are unable to express, and we do not express, an opinion on the USACE FY 2003 Consolidated Balance
              Sheet. We did not audit the USACE FY 2003 Consolidated Statements of Net Cost and Changes in Net Position and the Combined Statements of Financing and
              Budgetary Resources. Therefore, we do not express an opinion on those statements.

              Time constraints precluded USACE from providing sufficient audit-ready evidential material for the auditors to complete the audit of the USACE FY 2002
              Consolidated Balance Sheet. Under an attestation agreement with USACE, the auditors identified material weaknesses related to General Property, Plant, and
              Equipment; Accounts Payable; and general and application controls of their financial management systems. Therefore, we are still unable to express an opinion on the
              USACE FY 2002 Financial Statements.

              Summary of Internal Control
              In planning and performing our audit, we considered the USACE internal control over financial reporting and compliance. We did this to determine our procedures for
              auditing the financial statements and to comply with Office of Management and Budget (OMB) guidance but not to express an opinion on internal control.


                       A regular Statement and Account of the Receipts and Expenditures of all public Money shall be published from time to time. —Constitution of the United States Article I, Section 9

                338 Fiscal Year 2003 Army Annual Financial Statement
03CWStatements12-12.qxd         12/12/2003        5:50 PM       Page 339




              Accordingly, we do not express an opinion on internal control over financial reporting and compliance because previously identified reportable conditions,1 all of
              which are material, continue to exist in the following areas: General Property, Plant, and Equipment and Accounts Payable. A material internal control weakness was
              also identified in the compilation of the financial statements.

              A material weakness is a condition that precludes the entity's internal control from providing reasonable assurance that noncompliance, misstatements, or losses that are
              material in relation to the financial statements would be prevented or detected on a timely basis. Our internal control work would not necessarily disclose all material
              weaknesses. See the Attachment for additional details on material internal control weaknesses.

              Summary of Compliance with Laws and Regulations
              Our work to determine compliance with selected provisions of the applicable laws and regulations was limited because previously reported instances of noncompliance
              continue to exist. In addition, the USACE was unable to provide sufficient audit-ready evidential material for the auditors to complete the audit. However, our review
              of the FY 2003 Balance Sheet revealed that the USACE was not compliant with:

                           Statement of Federal Financial Accounting Standard (SFFAS) No. 6, “Accounting for Property, Plant, and Equipment,”
                           SFFAS No. 1, “Accounting for Selected Assets and Liabilities,”
                           Department of Defense Financial Management Regulation (DoD FMR), volume 4, chapter 6, “Property, Plant, and Equipment,”
                           DoD FMR, volume 6A, chapter 2, “Financial Reports Roles and Responsibilities,” and
                           Federal Financial Management Improvement Act (FFMIA) of 1996.

              In previously issued audit reports, the General Accounting Office (GAO) and the Army Audit Agency (AAA) noted instances of noncompliance with:

                           Federal Managers' Financial Integrity Act (FMFIA) of 1982,
                           OMB Circular A-123, “Management Accountability and Control,”
                           OMB Circular A-130, “Management of Federal Information Resources,”
                           OMB Circular A-127, “Federal Management Systems,” and
                           FFMIA of 1996.



              1
                  Reportable conditions are matters coming to the auditor's attention that, in his or her judgment, should be communicated to management because they represent significant deficiencies in the design or
                  operation of internal control, which could adversely affect the organization's ability to initiate, record, process, and report financial data consistent with the assertions of management in financial
                  statements.
                            A regular Statement and Account of the Receipts and Expenditures of all public Money shall be published from time to time. —Constitution of the United States Article I, Section 9

                                                                                                                                                        Civil Works Fund Principal Notes and Statements 339
03CWStatements12-12.qxd    12/12/2003        5:50 PM       Page 340




              See the Attachment for additional details on compliance with laws and regulations. Our review of USACE compliance with laws and regulations would not
              necessarily disclose all noncompliance issues. Our objective was not to express an opinion on compliance with applicable laws and regulations.

              Management Responsibility
              Management is responsible for:

                       preparing the financial statements in conformity with generally accepted accounting principles;
                       establishing, maintaining, and assessing internal control to provide reasonable assurance that the broad control objectives of the FMFIA of 1982 are met;
                       ensuring that USACE financial management systems substantially comply with FFMIA of 1996 requirements; and
                       complying with applicable laws and regulations.




                                                                                                  Paul J. Granetto, CPA
                                                                                                         Director
                                                                                                Defense Financial Auditing
                                                                                                          Service

              Attachment
              As stated




                       A regular Statement and Account of the Receipts and Expenditures of all public Money shall be published from time to time. —Constitution of the United States Article I, Section 9

                340 Fiscal Year 2003 Army Annual Financial Statement
03CWStatements12-12.qxd    12/12/2003     5:50 PM    Page 341




                                                   Reports on Internal Control and Compliance with Laws and Regulations
                                                                                         Internal Control
              Management is responsible for implementing effective internal control and for providing reasonable assurance that accounting data are accumulated, recorded, and
              reported properly; and that assets are safeguarded. We performed limited tests of internal control over financial reporting for USACE, and we did not obtain sufficient
              evidence to support or express an opinion on internal control. We limited our audit tests because previously identified reportable conditions, all of which are material,
              continue to exist in the compilation of the financial statements, Accounts Payable, Equipment, and Buildings and Structures. These material internal control
              weaknesses significantly impair the ability of USACE to detect and investigate fraud or theft of assets. A high risk of material misstatements will continue to exist
              until the internal control deficiencies are corrected.

              Compilation of Financial Statements. The U.S. Army Corps of Engineers Financial Management System (CEFMS) chart of accounts was substantially in
              compliance with the U.S. Government Standard General Ledger (USSGL). However, the controls over the processes used to compile the financial statements were not
              adequate, resulting in undocumented modifications to the financial data used to prepare the FY 2003 financial statements. In addition, journal vouchers used to make
              accounting adjustments were unsupported and inadequately controlled, and accounting transactions were not processed in accordance with the USSGL.

              Accounts Payable. Internal control testing identified departures from generally accepted accounting principles to include misclassification of general ledger accounts
              when making accounting journal entries for Accounts Payable.

              Equipment. As discussed in our FY 2002 financial statement disclaimer opinion, internal controls were not adequate to ensure that USACE districts maintain
              supporting documentation over equipment valuation. This continues to be an issue on the USACE FY 2003 Balance Sheet.

              Buildings and Structures. Internal controls were insufficient because USACE guidance was not consistently implemented and strictly enforced. For example, the
              placed-in-service and retirement dates were often unsupported or improperly established in CEFMS and the book cost of the structures that were removed from
              CEFMS may not have been properly valued and classified in CEFMS. In addition, internal controls did not ensure that systems access was properly controlled and that
              information in the systems was complete and accurate.

                                                                           Compliance with Laws and Regulations
              Management is responsible for compliance with existing laws and regulations related to financial reporting. Our work to determine compliance with selected
              provisions of the applicable laws and regulations was limited because USACE was unable to provide sufficient audit-ready evidential material for the auditors to
              complete the audit of compliance with laws and regulations. However, our review of the FY 2003 USACE Consolidated Balance Sheet revealed instances of
              noncompliance, and GAO and AAA noted instances of noncompliance in previously issued audit reports. Therefore, we did not determine whether USACE was in
              compliance with all applicable laws and regulations related to financial reporting. Our objective was not to express, and we do not express, an opinion on compliance
              with applicable laws and regulations.

              Compilation of the Financial Statements. The FFMIA of 1996 requires USACE to establish and maintain financial management systems that comply substantially
              with the Federal financial management systems requirements, applicable Federal accounting standards, and the USSGL at the transaction level. In addition, the

                                                                                                                              Civil Works Fund Principal Notes and Statements 341
03CWStatements12-12.qxd    12/12/2003       5:50 PM      Page 342




              FMFIA of 1982 requires USACE to evaluate the systems and to annually report whether those systems are in compliance with applicable requirements. The Chief
              Financial Officers Act of 1990 requires DoD to prepare a 5-year Financial Management Plan describing activities that DoD will conduct during the next 5 years to
              improve financial management.

              USACE did not process all accounting transactions in accordance with the FFMIA. FFMIA states that entities' financial reporting systems must substantially comply
              with the USSGL at the transaction level. However, USACE did not have a process in place to ensure that the CEFMS general ledger correlations were promptly
              updated or that deficiencies were corrected. As a result, USACE had to make adjustments to financial data to correct accounting errors because of general ledger
              correlation deficiencies. The adjustments reduced the reliability of the USACE financial statements and caused an increase in effort to complete the compilation of the
              financial statements. For example, the USACE classification of Federal and non-Federal transactions, accounting for Net Position, and accounting for budgetary
              transactions were recorded improperly.

              USACE was noncompliant with DoD FMR, volume 6A, chapter 2, “Financial Reports Roles and Responsibilities.” Upon reviewing 22 journal vouchers valued at
              $5.7 billion, we discovered that USACE could not provide adequate supporting documentation, as required by DoD FMR, volume 6A, chapter 2.

              Land. USACE did not comply with SFFAS No. 6, “Accounting for Property, Plant, and Equipment,” and DoD FMR, volume 4, chapter 6, “Property, Plant, and
              Equipment,” because neither the supporting documentation nor the estimates were provided as required. SFFAS No. 6 states that the cost of General Property, Plant,
              and Equipment shall include all costs incurred to bring the property to a form and location suitable for its intended use. SFFAS No. 6 requires the use of estimates if
              historical cost data have not been maintained. In addition, DoD FMR, volume 4, chapter 6, requires proper supporting documentation, such as purchase invoices, sales
              and procurement contracts, military and real property transfer and acceptance forms, work order completion reports, construction contracts, and work orders.
              Administrative costs continue to be an issue because of the lack of supporting documentation; therefore, USACE cannot ensure that land costs are not misstated.

              Accounts Payable. USACE does not recognize liabilities in accordance with SFFAS No. 1, “Accounting for Selected Assets and Liabilities,” which requires that
              Accounts Payable be established when goods or services are received. In addition, USACE did not comply with SFFAS No. 1 because they do not record unfunded
              Accounts Payable.

              Buildings and Structures. USACE was not in compliance with DoD FMR, volume 4, chapter 6. USACE useful life estimates were not validated. USACE should
              base decisions about useful life standards on a reasonable estimate of how long an asset will actually be used. Thus, we recommend that their useful life estimates
              comply with DoD FMR, volume 4, chapter 6, useful life standards.

              Financial Management Systems. USACE is required to comply with the following financial management systems reporting requirements.
                      The FFMIA of 1996 is intended to advance Federal financial management by ensuring that the Federal financial management systems can and do provide
                      reliable, consistent disclosure of financial data that are uniform across the Federal Government from year to year, using generally accepted accounting
                      principles. It is also intended to provide the basis for ongoing use of reliable financial information in program management and in oversight by the President,
                      the Congress, and the public. FFMIA requires each agency to implement and maintain systems that comply substantially with Federal financial management
                      systems requirements, applicable Federal accounting standards, and the USSGL at the transaction level. FFMIA also requires auditors to report on the
                      agency's compliance with the FFMIA. Further, FFMIA requires agency heads to determine whether their financial management systems comply with the

                342 Fiscal Year 2003 Army Annual Financial Statement
03CWStatements12-12.qxd    12/12/2003    5:50 PM     Page 343




                       FFMIA, based on audit reports and other information, and to develop remediation plans and file them with OMB if the financial management systems do no
                       comply with FFMIA.
                       The FMFIA of 1982 requires agencies to evaluate the systems and to annually report whether those systems are in compliance with applicable requirements.
                       When systems are not in compliance, the statement must include a report of internal accounting and administrative control material weaknesses and plans and
                       a schedule for correcting the material weaknesses.
                       OMB Circular A-123, revised June 21, 1995, requires agencies and individual Federal mangers to take systematic and proactive measures to: assess the
                       adequacy of management controls in Federal programs and operation, identify needed improvements, take corresponding corrective actions, and report
                       annually on management controls.
                       OMB Circular A-130, Appendix III, establishes a minimum set of controls to be included in Federal automated information security programs, assigns
                       Federal agency responsibilities for the security of automated information, and links agency information security programs and agency management control
                       systems established in accordance with OMB Circular A-123. Agencies should implement and maintain their automated security programs to ensure that
                       adequate security is provided for all agency information that is collected, processed, transmitted, stored, or disseminated in general support systems and major
                       applications.
                       OMB Circular A-127, revised July 23, 1993, requires agencies to develop, operate, evaluate, and report on financial management systems. It also requires
                       that financial management systems provide complete, reliable, consistent, timely, and useful information.

              According to the GAO and AAA prior audit reports, USACE did not fully comply with the FMFIA and OMB Circulars A-123 and A-130 requirements to protect the
              integrity of its financial management systems, identify needed improvements, and take corresponding corrective actions. OIG DoD audit work is currently ongoing for
              both the GAO and AAA prior year audit reports. According to AAA, USACE does not comply with the FFMIA because the lack of computer controls impairs the
              ability of USACE to ensure the reliability, confidentiality, and availability of financial and sensitive data. The USACE remediation plan has been requested but not
              received as of November 2003. According to GAO and AAA, the continued CEFMS general and application computer controls vulnerabilities impair the ability of
              USACE to ensure reliability, confidentiality, and availability of financial and sensitive data, as required by OMB Circular A-127.

              Federal agencies reporting under the Government Management Reform Act of 1994 are to follow accounting standards and concepts adopted by OMB, Department of
              the Treasury, and GAO. OMB Bulletin 01-09, “Form and Content of Agency Financial Statements,” requires the Statement of Net Cost to present costs by major
              programs. However, USACE did not fully implement the requirements established by OMB for its FY 2003 Statement of Net Cost. Instead, USACE presented the
              statement by appropriation as required by the DoD FMR. The DoD FMR, which implements the OMB bulletins for DoD, requires the Statement of Net Cost to be
              presented by program units or appropriation groupings.

                                                                                       Audit Disclosures
              We were unable to obtain adequate evidential matter to form or express an opinion on the financial statements, internal control, and compliance with laws and
              regulations.

              This report does not include recommendations to correct the material control weaknesses and instances of noncompliance because previous audit reports contained
              recommendations for corrective actions.

                                                                                                                             Civil Works Fund Principal Notes and Statements 343
03CWStatements12-12.qxd    12/12/2003       5:50 PM      Page 344




                344 Fiscal Year 2003 Army Annual Financial Statement
03ArmyCover12-1.qxd   12/2/2003   3:38 PM   Page 3
03ArmyCover12-1.qxd   12/2/2003   3:38 PM   Page 4




              2003
              Our Army at War – Relevant and Ready
